<html>
<title> - WELFARE REFORM REAUTHORIZATION PROPOSALS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                WELFARE REFORM REAUTHORIZATION PROPOSALS
=======================================================================





                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 11, 2002

                               __________

                           Serial No. 107-87

                               __________

         Printed for the use of the Committee on Ways and Means







                       U. S. GOVERNMENT PRINTING OFFICE
85-843                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001

















                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, Jr., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               WILLIAM J. COYNE, Pennsylvania
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM MCCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
JIM RAMSTAD, Minnesota               GERALD D. KLECZKA, Wisconsin
JIM NUSSLE, Iowa                     JOHN LEWIS, Georgia
SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
JENNIFER DUNN, Washington            MICHAEL R. MCNULTY, New York
MAC COLLINS, Georgia                 WILLIAM J. JEFFERSON, Louisiana
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
PHIL ENGLISH, Pennsylvania           XAVIER BECERRA, California
WES WATKINS, Oklahoma                KAREN L. THURMAN, Florida
J.D. HAYWORTH, Arizona               LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri
SCOTT MCINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

                    Allison Giles, Chief of Staff
                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
SCOTT MCINNIS, Colorado              SANDER M. LEVIN, Michigan
JIM MCCRERY, Louisiana               JIM MCDERMOTT, Washington
DAVE CAMP, Michigan                  LLOYD DOGGETT, Texas
PHIL ENGLISH, Pennsylvania
RON LEWIS, Kentucky


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
















                            C O N T E N T S

                               __________
                                                                   Page
Advisory of March 28, 2002, announcing the hearing...............     2

                               WITNESSES

U.S. Department of Health and Human Services, Hon. Tommy G. 
  Thompson, Secretary, accompanied by Hon. Wade Horn, Ph.D., 
  Assistant Secretary, Administration for Children and Families..     7

                                 ______

Albright, Pat, Every Mother is a Working Mother Network..........   268
American Fathers Coalition, Stuart A. Miller.....................   157
American Federation of State, County and Municipal Employees, Lee 
  Saunders, as presented by Nanine Meiklejohn....................   204
American Public Human Services Association, Robin Arnold-Williams    61
Americans for Divorce Reform, John Crouch........................   137
Antioch Baptist Church, Lonnie Perrin............................   135
Arc, Paul Marchand...............................................   286
Arnold-Williams, Robin, Utah Department of Human Services, and 
  American Public Human Services Association.....................    61
Association for Children for Enforcement of Support, Inc., 
  Geraldine Jensen...............................................   145
Baltimore, Maryland, Hon. Martin O'Malley, Mayor.................    49
Beckmann, David, Bread for the World.............................   305
Bilchik, Shay, Child Welfare League of America...................   196
Blank, Helen, Children's Defense Fund............................   178
Bread for the World, David Beckmann..............................   305
Brown, Vanessa, Philadelphia Unemployment Project, and National 
  Campaign for Jobs and Income Support...........................   265
Cahill, Sean, National Gay and Lesbian Task Force................   295
California Budget Project, Jean Ross.............................   249
Call to Renewal, Reverend Nathan Wilson..........................   231
Center on Budget and Policy Priorities, Wendell Primus...........    90
Center for Law and Social Policy, Jodie Levin-Epstein............   169
Center for Self-Sufficiency, Jason A. Turner.....................   106
Chico Police Department, Michael R. Efford.......................   160
Children's Defense Fund, Helen Blank.............................   178
Children's Rights Council, David L. Levy.........................   133
Child Welfare League of America, Shay Bilchik....................   196
Clark, Sister Mary Elizabeth, NETWORK, National Catholic Social 
  Justice Lobby..................................................   228
Consortium for Citizens with Disabilities, Paul Marchand.........   286
County Welfare Directors Association of California, Will 
  Lightbourne....................................................   242
Crouch, John, Americans for Divorce Reform.......................   137
Curran, Kathleen A., United States Conference of Catholic Bishops   216
Davis, Martha F., NOW Legal Defense and Education Fund...........   186
Efford, Michael R., Chico Police Department......................   160
Every Mother is a Working Mother Network, Pat Albright...........   268
Girton-Mitchell, Brenda, National Council of Churches of Christ 
  in the U.S.A...................................................   225
Hunger Action Network of New York State, Bich Ha Pham............   307
Jensen, Geraldine, Association for Children for Enforcement of 
  Support, Inc...................................................   145
Kahan, Kate, Working for Equality and Economic Liberation........   277
Kaptur, Hon. Marcy, a Representative in Congress from the State 
  of Ohio........................................................    36
Kucinich, Hon. Dennis J., a Representative in Congress from the 
  State of Ohio..................................................    23
Kurey, Mary-Louise, Project Reality..............................   118
Lee, Hon. Barbara, a Representative in Congress from the State of 
  California.....................................................    57
Levin-Epstein, Jodie, Center for Law and Social Policy...........   169
Levy, David L., Children's Rights Council........................   133
Lightbourne, Will, Santa Clara Social Services Agency, and County 
  Welfare Directors Association of California....................   242
McDonald, Sharon, National Alliance to End Homelessness..........   300
Marchand, Paul, Consortium for Citizens with Disabilities, and 
  Arc............................................................   286
Mead, Lawrence M., New York University...........................    69
Meier, Hon. Raymond, Senator, New York Senate, and National 
  Conference of State Legislatures...............................    40
Meiklejohn, Nanine, American Federation of State, County and 
  Municipal Employees, presenting statement of Lee Saunders......   204
Millan, Maggie, Tampa, FL........................................   230
Miller, Stuart A., American Fathers Coalition....................   157
Mink, Hon. Patsy T., a Representative in Congress from the State 
  of Hawaii......................................................    18
Munoz, Cecilia, National Council of La Raza, as presented by Eric 
  Rodriguez......................................................   258
National Alliance to End Homelessness, Sharon McDonald...........   300
National Association of Child Care Resources and Referral 
  Agencies, Yasmina S. Vinci.....................................   281
National Campaign for Jobs and Income Support, Vanessa Brown.....   265
National Conference of State Legislatures, Hon. Raymond Meier, 
  Senator........................................................    40
National Council of Churches of Christ in the U.S.A., Brenda 
  Girton-Mitchell................................................   225
National Council of La Raza, Cecilia Munoz, as presented by Eric 
  Rodriguez......................................................   258
National Gay and Lesbian Task Force, Sean Cahill.................   295
Navajo Nation Temporary Assistance for Needy Families Program, 
  Alex Yazza, Jr.................................................   254
NETWORK, National Catholic Social Justice Lobby, Sister Mary 
  Elizabeth Clark................................................   228
New York Senate, Hon. Raymond Meier, Senator.....................    40
NOW Legal Defense and Education Fund, Martha F. Davis............   186
O'Malley, Hon. Martin, Mayor, Baltimore, Maryland, and U.S. 
  Conference of Mayors...........................................    49
Perrin, Lonnie, Antioch Baptist Church...........................   135
Pham, Bich Ha, Hunger Action Network of New York State...........   307
Philadelphia Unemployment Project, Vanessa Brown.................   265
Primus, Wendell, Center on Budget and Policy Priorities..........    90
Project Reality, Mary-Louise Kurey...............................   118
Rector, Robert, Heritage Foundation..............................    77
Religious Action Center of Reform Judaism, Rabbi David 
  Saperstein, as presented by Lauren Schumer.....................   211
Reynolds, Hon. Thomas M., a Representatives in Congress from the 
  State of New York..............................................    33
Rodriguez, Eric, National Council of La Raza, presenting 
  statement of Cecilia Munoz.....................................   258
Ross, Jean, California Budget Project............................   249
Santa Clara Social Services Agency, Will Lightbourne.............   242
Saperstein, Rabbi David, Religious Action Center of Reform 
  Judaism, as presented by Lauren Schumer........................   211
Saunders, Lee, American Federation of State, County and Municipal 
  Employees, as presented by Nanine Meiklejohn...................   204
Sawhill, Isabel V., National Campaign to Prevent Teen Pregnancy, 
  and Brookings Institution......................................   125
Schumer, Lauren, Religious Action Center of Reform Judaism, 
  presenting statement of Rabbi David Saperstein.................   211
Tierney, Hon. John F., a Representative in Congress from the 
  State of Massachusetts.........................................    27
Turner, Jason A., Center for Self-Sufficiency....................   106
United States Conference of Catholic Bishops, Kathleen A. Curran.   216
U.S. Conference of Mayors, Hon. Martin O'Malley, Mayor...........    49
Utah Department of Human Services, Robin Arnold-Williams.........    61
Unitarian Universalist Service Committee, Valora Washington......   236
Vinci, Yasmina S., National Association of Child Care Resources 
  and Referral Agencies..........................................   281
Washington, Valora, Unitarian Universalist Service Committee.....   236
Wilson, Reverend Nathan, Call to Renewal.........................   231
Working for Equality and Economic Liberation, Kate Kahan.........   277
Yazza, Alex, Jr., Navajo Nation Temporary Assistance for Needy 
  Families Program...............................................   254

                                 ______

                       SUBMISSIONS FOR THE RECORD

American Bar Association, Robert D. Evans, statement.............   313
Belonga, Michael, Sault Ste. Marie Tribe of Chippewa Indians, St. 
  Ignace, MI, letter.............................................   385
Boucher, Bernard, Sault Ste. Marie Tribe of Chippewa Indians, St. 
  Ignace, MI, letter.............................................   379
Carraher, Mary, Project Self-Sufficiency of Loveland - Fort 
  Collins, CO, statement.........................................   378
Collier, Jennifer, Legal Action Center, letter...................   333
Demeo, Marisa, Mexican American Legal Defense & Education Fund, 
  and Latino Coalition for Families, joint statement.............   331
Dillworth, John E., Goodwill Industries of Southwestern Michigan, 
  Kalamazoo, MI, letter..........................................   327
Drake, Susan, National Immigration Law Center, Boise, ID, 
  statement......................................................   374
Evangelical Lutheran Church in America, statement................   315
Evans, Robert D., American Bar Association, statement............   313
Fair Welfare Reform Coalition of Larimer County, CO, Audrey Olsen 
  Faulkner, statement............................................   320
Friedman, Sister Richelle, McAuley Institute, Silver Spring, MD, 
  statement and attachment.......................................   346
Garfinkel, Irwin, and Ronald B. Mincy, Columbia University, New 
  York, NY; Elaine Sorensen, Urban Institute; Dwaine R. Simms, 
  and Preston J. Garrison, National Practitioners Network for 
  Fathers and Families; Joseph Jones, Center for Fathers, 
  Families, and Workforce Development, Baltimore, MD; and Jeffrey 
  Johnson, National Center for Strategic Nonprofit Planning and 
  Community Leadership, joint statement..........................   321
Garrison, Preston J., National Practitioners Network for Fathers 
  and Families, joint statement (see listing under Garfinkel, 
  Irwin).........................................................   321
Goodwill Industries of Southwestern Michigan, Kalamazoo, MI, John 
  E. Dillworth, letter...........................................   327
Green, Richard M., M.D., Los Angeles, CA, statement..............   328
Jefferson Economic Development Institute, Mt. Shasta, CA, Nancy 
  T. Swift, letter and attachment................................   329
Jensen, Cory J., Men's Health Network, statement.................   351
Johnson, Jeffrey, National Center for Strategic Nonprofit 
  Planning and Community Leadership, joint statement (see listing 
  under Garfinkel, Irwin)........................................   321
Jones, Joseph, Center for Fathers, Families, and Workforce 
  Development, Baltimore, MD, joint statement (see listing under 
  Garfinkel, Irwin)..............................................   321
Latino Coalition for Families, Jennie Torres-Lewis, National 
  Puerto Rican Coalition, and Marisa Demeo, Mexican American 
  Legal Defense & Education Fund, joint statement................   331
Legal Action Center, Jennifer Collier, letter....................   333
Loprest, Pamela, and Sheila Zedlewski, Urban Institute, joint 
  statement......................................................   338
Marriage Savers, Michael J. McManus, Potomac, MD, statement......   341
McAuley Institute, Silver Spring, MD, Sister Richelle Friedman, 
  statement and attachment.......................................   346
McManus, Michael J., Marriage Savers, Potomac MD, statement......   341
Men's Health Network, Cory J. Jensen, statement..................   351
Mendell, Felice, Women's Institute for Housing and Economic 
  Development, Boston, MA, statement and attachments.............   385
Mexican American Legal Defense & Educational Fund, Marisa Demeo, 
  joint statement................................................   331
Michigan League for Human Services, Lansing, MI, statement.......   353
Mincy, Ronald B., Columbia University, New York, NY, joint 
  statement (see listing under Garfinkel, Irwin).................   321
Mirabal, Manuel, National Puerto Rican Coalition, statement......   377
National Governors' Association, Raymond C. Scheppach, statement 
  and attachment.................................................   356
National Immigration Law Center, Boise, ID, Susan Drake, 
  statement......................................................   374
National Puerto Rican Coalition:
    Jennie Torres-Lewis, joint statement.........................   331
    Manuel Mirabal, statement....................................   377
Project Self-Sufficiency of Loveland--Fort Collins, CO, Mary 
  Carraher, statement............................................   378
Sault Ste. Marie Tribe of Chippewa Indians, St. Ignace, MI:
    Bernard Boucher, letter......................................   379
    Michael Belonga, letter......................................   380
Scheppach, Raymond C., National Governors' Association, statement 
  and attachments................................................   356
Simms, Dwaine R., National Practitioners Network for Fathers and 
  Families, joint statement (see listing under Garfinkel, Irwin).   321
Sorensen, Elaine, Urban Institute, joint statement (see listing 
  under Garfinkel, Irwin)........................................   321
Swift, Nancy T., Jefferson Economic Development Institute, Mt. 
  Shasta, letter and attachment..................................   329
Torres-Lewis, Jennie, National Puerto Rican Coalition, and Latino 
  Coalition for Families, joint statement........................   331
Washington's Working Families Campaign: 2002, Seattle, WA, 
  statement......................................................   383
Women's Institute for Housing and Economic Development, Boston, 
  MA, Felice Mendell, statement and attachments..................   385
Wood, Bill, Charlotte, NC, statement.............................   388
Zedlewski, Sheila, and Pamela Loprest, Urban Institute, joint 
  statement......................................................   338























                WELFARE REFORM REAUTHORIZATION PROPOSALS

                              ----------                              


                        THURSDAY, APRIL 11, 2002

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:00 p.m., in 
room 1100 Longworth House Office Building, Hon. Wally Herger 
[Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
March 28, 2002
No. HR-14

  Herger Announces Hearing on Welfare Reform Reauthorization Proposals

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing on welfare reform reauthorization 
proposals. The hearing will take place on Thursday, April 11, 2002, in 
the main Committee hearing room 1100 Longworth House Office Building, 
beginning at 3:00 p.m.

    Oral testimony at this hearing will be from both invited and public 
witnesses. Invited witnesses will include representatives of the 
nation's governors, State legislators, and State welfare directors. 
Also, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
Committee or for inclusion in the printed record of the hearing.

BACKGROUND:

    The Personal Responsibility and Work Opportunity Reconciliation Act 
of 1996 (P.L. 104-193), commonly referred to as the 1996 Welfare Reform 
Law, made dramatic changes in the federal-State welfare system designed 
to aid low-income American families. The law repealed the former Aid to 
Families with Dependent Children program, and with it the individual 
entitlement to cash welfare benefits. In its place, the 1996 
legislation created a new Temporary Assistance for Needy Families 
(TANF) block grant, which provides fixed funding to States to operate 
programs designed to achieve several purposes: (1) provide assistance 
to needy families, (2) end the dependence of needy parents on 
government benefits by promoting job preparation, work, and marriage, 
(3) prevent and reduce the incidence of out-of-wedlock pregnancies, and 
(4) encourage the formation and maintenance of healthy two-parent 
families.

    National figures point to remarkable progress in combating welfare 
dependence and poverty since State and federal welfare reforms were 
enacted in the mid-1990s. The number of children living in poverty has 
dropped by nearly 3 million and the African-American child poverty rate 
has fallen to a record low. Welfare case loads have fallen by 60 
percent nationwide, as nearly 3 million families and 9 million 
recipients have left welfare, and record numbers of current and former 
welfare recipients are working.

    The TANF program expires on September 30, 2002, requiring Congress 
to extend the program this year. In February, President George W. Bush 
announced his proposal to reauthorize the TANF program and other key 
features of the 1996 law. The President's proposal focuses on 
increasing participation in work and related activities by those 
receiving cash assistance in order to better prepare individuals for 
success after welfare. Recent statistics from the U.S. Department of 
Health and Human Services reveal that 58 percent of adults on welfare 
are neither working nor participating in education and training 
activities permitted under the 1996 welfare reform law.

    In announcing the hearing, Chairman Herger stated: ``The President 
has offered a strong proposal to ensure all families who receive 
welfare benefits gain work experience and training to prepare 
themselves for life after welfare. This hearing will give us the 
opportunity to hear from the Nation's Governors, State legislators, 
State welfare administrators, and a host of other community voices 
about what has worked, the President's and related proposals, and other 
ideas for further reform.''

FOCUS OF THE HEARING:

    The focus of the hearing is to review welfare reform 
reauthorization proposals.

DETAILS FOR SUBMISSIONS OF REQUESTS TO BE HEARD:

    Requests to be heard at the hearing must be made by telephone to 
Traci Altman or Bill Covey at (202) 225-1721 no later than the close of 
business, Thursday, April 4, 2002. The telephone request should be 
followed by a formal written request faxed to Allison Giles, Chief of 
Staff, Committee on Ways and Means, U.S. House of Representatives, 1102 
Longworth House Office Building, Washington, D.C. 20515, at (202) 225-
2610. The staff of the Subcommittee on Human Resources will notify by 
telephone those scheduled to appear as soon as possible after the 
filing deadline. Any questions concerning a scheduled appearance should 
be directed to the Subcommittee on Human Resources staff at (202) 225-
1025.

    In view of the limited time available to hear witnesses, the 
Subcommittee may not be able to accommodate all requests to be heard. 
Those persons and organizations not scheduled for an oral appearance 
are encouraged to submit written statements for the record of the 
hearing. All persons requesting to be heard, whether they are scheduled 
for oral testimony or not, will be notified as soon as possible after 
the filing deadline.

    Witnesses scheduled to present oral testimony are required to 
summarize briefly their written statements in no more than five 
minutes. THE FIVE-MINUTE RULE WILL BE STRICTLY ENFORCED. The full 
written statement of each witness will be included in the printed 
record, in accordance with House Rules.

    In order to assure the most productive use of the limited amount of 
time available to question witnesses, all witnesses scheduled to appear 
before the Committee are required to submit 200 copies, along with an 
IBM compatible 3.5-inch diskette in WordPerfect or MS Word format, of 
their prepared statement for review by Members prior to the hearing. 
Testimony should arrive at the Subcommittee on Human Resources office, 
room B-317 Rayburn House Office Building, no later than Tuesday, April 
9, 2002, in an open and searchable package 48 hours before the hearing. 
The U.S. Capitol Police will refuse sealed-packaged deliveries to all 
House Office Buildings. Failure to do so may result in the witness 
being denied the opportunity to testify in person.

WRITTEN STATEMENTS IN LIEU OF PERSONAL APPEARANCE:

    Please Note: Due to the change in House mail policy, any person or 
organization wishing to submit a written statement for the printed 
record of the hearing should send it electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c04090d1e05020b0f00091e071f421b0d151f0d020801090d021f2c010d0500420403191f09420b031a">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610 by the close of business, Tuesday, April 23, 2002. Those 
filing written statements who wish to have their statements distributed 
to the press and interested public at the hearing should deliver their 
200 copies to the Subcommittee on Human Resources in room B-317 Rayburn 
House Office Building, in an open and searchable package 48 hours 
before the hearing. The U.S. Capitol Police will refuse sealed-packaged 
deliveries to all House Office Buildings.

FORMATTING REQUIREMENTS:

    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.

    1. Due to the change in House mail policy, all statements and any 
accompanying exhibits for printing must be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8c0cdc9dac1c6cfcbc4cddac3db86dfc9d1dbc9c6ccc5cdc9c6dbe8c5c9c1c486c0c7dddbcd86cfc7de">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, in Word Perfect or MS Word format and MUST NOT exceed a 
total of 10 pages including attachments. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.

    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.

    3. Any statements must include a list of all clients, persons, or 
organizations on whose behalf the witness appears. A supplemental sheet 
must accompany each statement listing the name, company, address, 
telephone and fax numbers of each witness.

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call (202) 225-1721 or (202) 226-3411 TTD/TTY in advance of the event 
(four business days notice is requested). Questions with regard to 
special accommodation needs in general (including availability of 
Committee materials in alternative formats) may be directed to the 
Committee as noted above.

                                 <F-dash>

    Chairman HERGER. Welcome to our hearing on welfare reform 
reauthorization proposals. In this hearing we will hear from 
both invited and public witnesses as part of our continuing 
conversations about ways to further improve the Nation's 
welfare program during the upcoming reauthorization process.
    In the past year, we have reviewed welfare successes, 
strengthening and promoting healthy families, work requirements 
and time limits, teen pregnancy prevention, child support, and 
fatherhood as well as marriage issues. On February 6th and 
March 12th of this year, the full Committee on Ways and Means 
reviewed the President's welfare reform proposal. We were 
honored to have testimony from the Secretary of the U.S. 
Department of Health and Human Services (HHS), Tommy Thompson, 
who joins us again today.
    At today's hearing we will receive testimony on the 
President's welfare reform proposal, which I introduced earlier 
this week along with other Members of the Subcommittee as H.R. 
4090, the Personal Responsibility Work and Family Promotion Act 
of 2002. We will hear a wide range of views from over 40 
witnesses representing the administration, former welfare 
recipients, State and local officials, scholars, program 
administrators, and advocates for those affected by the welfare 
system.
    Despite differences on how to further improve the program, 
all of those here today recognize we can't rest on the success 
of the 1996 welfare reform law, and we shouldn't go back to the 
former Aid to Families with Dependent Children (AFDC) system 
that trapped families and dependents for an average of 13 
years. I can't imagine anyone here would want to go back to the 
old days of providing checks and expecting little of 
recipients.
    The law has achieved truly historic results. Since 1996, 
nearly 3 million children have been lifted from poverty. Among 
mothers most likely to go on welfare, employment rose 40 
percent between 1995 and 2000. Welfare case loads fell by 9 
million, from 14 million recipients in 1994 to just 5 million 
today. What this means is that single mothers and fathers who 
used to collect welfare checks every month are now collecting a 
paycheck. They deserve to be congratulated.
    The welfare reform bill which we introduced based on the 
President's proposal is designed to encourage and support even 
more parents in work. In addition, we maintain current high 
levels of Temporary Assistance for Needy Families (TANF) and 
child care funds and expand State flexibility in spending those 
funds to help make these improvements work. I look forward to 
hearing witnesses' comments on these and other proposals to 
reform and improve the welfare system.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point. Mr. Cardin, would you like to make an opening 
statement?
    [The opening statement of Chairman Herger follows:]
    Opening Statement of the Hon. Wally Herger, a Representative in 
 Congress from the State of California, and Chairman, Subcommittee on 
                            Human Resources
    Already in the past year we have reviewed welfare success, 
strengthening and promoting healthy families, work requirements and 
time limits, teen pregnancy prevention, child support and fatherhood, 
as well as marriage issues. This hearing is part of our continuing 
conversation about ways to further improve the nation's welfare program 
during the upcoming reauthorization process.
    On February 6th and March 12<SUP>th</SUP> of this year, the 
Committee on Ways and Means reviewed the President's welfare reform 
proposal with the Secretary of the U.S. Department of Health and Human 
Services, Tommy Thompson, who joins us again today.
    At today's hearing we will receive testimony on the President's 
welfare reform proposal, which I introduced earlier this week along 
with other Republican Members of the Subcommittee as H.R. 4090, the 
``Personal Responsibility, Work, and Family Promotion Act of 2002.'' We 
will hear a wide range of views from over 40 witnesses representing the 
Administration, former welfare recipients, State and local officials, 
scholars, program administrators, and advocates for those affected by 
the welfare system.
    Despite differences on how to further improve the program, all of 
those here today recognize we can't rest on the success of the 1996 
welfare reform law, and we shouldn't go back to the former AFDC system 
that trapped families in dependence for an average of 13 years. I can't 
imagine anyone here would want to go back to the old days of providing 
checks and expecting little of recipients.
    This law has achieved truly historic results. Since 1996 nearly 3 
million children have been lifted from poverty. Among mothers most 
likely to go on welfare, employment rose 40 percent between 1995 and 
2000. At the same time, welfare case loads fell by 9 million--from 14 
million recipients in 1994 to just 5 million today.
    What this means is that single mothers and fathers who used to 
collect a welfare check every month are now collecting a paycheck. They 
deserve to be congratulated.
    The welfare reform bill, which we introduced based on the 
President's proposal, is designed to encourage and support even more 
parents in work. In addition we maintain current high levels of TANF 
and child care funds, and expand state flexibility in spending those 
funds, to help make these improvements work.
    I look forward to hearing witness comments on these and other 
proposals to reform and improve the welfare system.

                                 <F-dash>

    Mr. CARDIN. Thank you, Mr. Chairman. I want to first 
congratulate you for setting a Committee on Ways and Means 
record with having the most witnesses I think we have ever had, 
particularly on a day that Congress is supposed to be leaving 
town. Let me congratulate you on that.
    I certainly welcome Secretary Thompson back to the 
Committee. I really do congratulate your efforts in working 
with Republicans and Democrats in an effort to try and improve 
health and welfare policies in this country. You have taken the 
experiences from your State and you have brought it here to 
Washington, and we appreciate the manner in which you have 
conducted your work.
    We now have the administration's bill that has been filed 
by Mr. Herger, as he has indicated--as you have indicated in 
your opening statement. Mr. Chairman, I have some concerns, as 
you know, about the legislation that you filed. The premise in 
1996 was that if we give the States sufficient resources and 
flexibility, they will get the job done. I will be the first to 
acknowledge there is more work that needs to be done, but I am 
surprised that there would be so many changes that the 
administration would request to that basic fundamental concept 
of flexibility resources to the States.
    Let me explain what I mean. First, we have heard from our 
States, and our States tell us that under these new rules, if 
they became effective, we would be encouraging more make work 
or unpaid work experience. Let me just quote from the people 
from my own State of Maryland where they say, in essence, we 
would replace a program geared toward helping leave welfare for 
work or leave welfare altogether to one geared toward making 
those on welfare participate in worklike activities. I think we 
all can agree that we want people to leave welfare for real 
jobs, not makeshift jobs.
    Secondly, in 1996, we made it clear that it shouldn't be 
one size fits all, that Washington knows best. Yet in the 
legislation that you have filed, Mr. Chairman, you become very 
prescriptive to the States as to how they must act in order to 
comply with the proposed new law.
    Third, the President said on numerous occasions that 
education is the ticket to success in our society. Vocational 
education is one of the keys of a person not only getting a job 
and succeeding in the workplace, and yet the legislation that 
is proposed provides less flexibility rather than more for the 
States to tailor their educational programs to the needs of the 
people that are on welfare. I think we can do better than that.
    Of course, the Republicans have been very strong about the 
fact that we shouldn't be putting unfunded mandates on the 
States. The Governors have spoken. The States have spoken. They 
have said that this legislation in and of itself will cost the 
States an additional $15 billion, yet there is no additional 
funds made available to the States. That is an unfunded 
mandate. That is something we shouldn't be doing. We should at 
least be providing the additional resources that the States 
will need in carrying out the basic programs in providing the 
child care that would be required to meet these new work 
requirements.
    Lastly, Mr. Chairman, let me point out an issue that you 
know I feel very strongly about, and that is the matter of 
discrimination against legal immigrants. I make no bones about 
the fact that in 1996 I think Congress made a mistake when it 
passed discrimination against legal immigrants. I believe the 
majority of the Members of Congress agree with that statement, 
and we have taken measures during the last several years to 
correct some of those mistakes. Now it is time for us to act 
and remove the remainder of the discrimination against legal 
immigrants. The bill that you have filed does not move at all 
in that direction, and I would hope as this bill makes it way 
through the Congress, we will find ways to allow the States the 
ability to cover legal immigrants with the federal TANF funds.
    I look forward to hearing from the witnesses today. I look 
forward to working with you, Mr. Chairman, and you, Mr. 
Secretary, so we can craft the bill that we can all be proud of 
that will continue the distinguished record we have made over 
the past 5 years in moving people off of welfare to work.
    Chairman HERGER. Thank you, Mr. Cardin. Before we move on 
to our testimony, I want to remind the witnesses to limit their 
oral statements to 5 minutes. However, without objection, all 
written testimony will be made a part of the permanent record.
    On our first panel, we are honored to have with us the 
Honorable Tommy Thompson, Secretary, Department of Health and 
Human Services, who is accompanied by the Honorable Wade Horn, 
Ph.D., Assistant Secretary, Administration for Children and 
Families, Department of Health and Human Services. Gentlemen, 
it is a pleasure to see both of you here at our Committee 
again. With that, Secretary Thompson.

   STATEMENT OF THE HON. TOMMY G. THOMPSON, SECRETARY, U.S. 
  DEPARTMENT OF HEALTH AND HUMAN SERVICES; ACCOMPANIED BY THE 
HON. WADE HORN, PH.D., ASSISTANT SECRETARY, ADMINISTRATION FOR 
                     CHILDREN AND FAMILIES

    Mr. THOMPSON. Thank you very much, Mr. Chairman, and thank 
you so very much for allowing me to testify and for the 
introduction of this proposal. I appreciate your leadership 
very much. Congressman Cardin, it is always a pleasure to work 
with you on this particular subject. I admire your passion on 
it, and I appreciate your comments very much. I'm always 
delighted to see my conservative friend, Mr. McDermott, who is 
always here. I enjoy him very much. Mr. Lewis, thank you very 
much.
    Mr. Chairman, let me thank you for your introduction this 
week of the Personal Responsibility, Work and Family Promotion 
Act of 2002. Mr. Chairman, your leadership and that of 
Representative Cardin and others on this Subcommittee is 
helping us continue the historic work that we began in 1996 
both compassionately and effectively. Your legislation, Mr. 
Chairman, shares many of the same goals as the administration's 
proposal, such as maintaining the basic structure of TANF, 
strengthening the work requirements and support for two-parent 
families, and directing increased amounts of the child support 
collected to families. I thank you for your fine work, and I 
want emphasize up front that we in the administration are eager 
to work with you as well as Congressman Cardin and all the 
other Members of this Subcommittee.
    Over the past 5 years, welfare reform has exceeded our most 
optimistic expectations. The 1996 law dramatically shifted 
national welfare policy by promoting work, encouraging personal 
responsibility, discouraging out-of-wedlock pregnancies, and 
supporting marriages. Underlying these changes, we restored an 
essential principle that has long been lost: that welfare 
assistance was designed to be temporary, to help families in 
crisis, and that dependence and poverty are not permanent 
conditions.
    The results have been extraordinary. Nearly 7 million fewer 
people are on welfare today than in 1996, and 2.8 million fewer 
children are in poverty, and TANF has moved millions of 
individuals from welfare to work. Employment among single 
mothers has grown to unprecedented levels. Child poverty rates 
are at their lowest level since 1979, and overall child poverty 
rates declined from 20 percent in 1996 to 16 percent in 2000. 
Yet our work, as all of us know, while significant, is 
incomplete.
    Recognizing this along with you, our proposal seeks $16.5 
billion for block grants to the States and tribes, an 
additional $319 million each year for supplemental grants for 
States that have experienced high population growth and have 
historically low funding levels. At the same time, we will 
continue the current ``maintenance-of-effort'' (MOE) 
requirements to retain State contributions to assistance for 
children and families. We will reauthorize and improve the $2 
billion contingency fund.
    In addition to the requirement for universal engagement, we 
will increase the direct work requirement. Our proposal 
requires welfare recipients to engage in a 40-hour work week, 
only 24 hours of which must be in direct work, including 
employment, on-the-job training and/or supervised work 
experience. This is an important step since 40 hours is a 
normal weekly work period for all Americans. We want the men 
and women who are transitioning from welfare to understand what 
will be demanded of them in the real world.
    A full 16 of these 40 hours can be used for training as 
well as education, the very things that will equip former 
welfare recipients for success in the future. In addition, we 
will allow substance abuse treatment, rehabilitation, or work-
related training for up to 3 months within any 24-month period. 
We will also gradually increase minimum participation rate 
requirements by 5 percent per year.
    The Administration's plan and yours, Mr. Chairman, both 
embrace the needs of families by promoting child well-being and 
healthy marriages. To this end, we have established improving 
the well-being of children as the overarching purpose of TANF. 
Child support is an equally critical component to federal and 
State efforts to promote family self-sufficiency. For the low-
income families who receive child support, it makes up more 
than a quarter of the family budget, and we are increasing the 
number of individual cases that we have filed. Last year a 
record of nearly $19 billion in child support was collected. 
With you we are proposing to do even more. Our proposals are 
targeted to increase collections to current and former TANF 
families by approximately $1.1 billion over 5 years beginning 
in fiscal year 2005.
    I can tell you from my experience as Governor of Wisconsin, 
access to child care assistance can make a critical difference 
in helping low-income families to find and retain jobs. We are 
proposing a total of $4.8 billion for the Child Care and 
Development Fund. When combined with TANF and other federal 
funding sources, about $9 billion is available for child care, 
and that funding is available through our child care programs 
as well as the TANF transfers.
    Mr. Chairman, let me also note that in your proposal you 
seek to give States the ability to shift up to 50 percent of 
their TANF funding into the child care block grant, up from the 
current 30 percent. This is a valuable innovation that will 
enhance State flexibility to provide necessary work support and 
is an improvement over current law.
    Mr. Chairman, my time is up, but I would like to finish up 
by telling you that under our plan, States have significant 
flexibility to decide how child care funds will be used and 
what will be emphasized in achieving the overall goals of 
improving access to care and the quality of care. Of course, 
the purpose of these programs must continue to be met, and that 
is why, Mr. Chairman, I applaud you and applaud this Committee. 
The proposals you have presented track closely with the 
principles of the President's plan. Congressman Cardin and 
other Members of this Subcommittee, we are more than ready to 
join with you as we craft legislation that will help those 
still relying on welfare to fulfill their American dreams. I 
look forward to working with all of you on this Committee to 
that worthy end, and I will be happy now to answer your 
questions.
    [The prepared statement of Secretary Thompson follows:]
Statement of the Hon. Tommy G. Thompson, Secretary, U.S. Department of 
                       Health and Human Services
    Mr. Chairman, Mr. Cardin, and members of the subcommittee, thank 
you for your invitation to appear today to discuss the next phase of 
welfare reform. Because of the work of welfare reform's pioneers like 
the members of this subcommittee, America's most vulnerable families 
are succeeding and our mission--to build on the platform of success 
established by the Personal Responsibility and Work Opportunity 
Reconciliation Act of 1996 (PRWORA)--is made easier.
    PRWORA provided the groundwork in assisting millions of families in 
moving from dependence on welfare to the dignity of work and 
independence. It is supported by a strong commitment to child care and 
a strong child support enforcement program. I have met with many of you 
to discuss our accomplishments and the challenges that remain. I know 
in many respects we have a shared vision for building on the tremendous 
results we have achieved under the Temporary Assistance for Needy 
Families (TANF) program, the Child Care Development Fund and the Child 
Support Enforcement Program.
    That shared vision took another momentous step closer to reality 
this week when Mr. Herger introduced the Personal Responsibility, Work, 
and Family Promotion Act of 2002. Mr. Chairman, I would like to take 
this opportunity to recognize the leadership you and Mr. Cardin have 
shown on moving quickly and decisively on welfare reform. I am 
heartened that legislation supported by members of this subcommittee 
shares many of the same broad goals of the Administration's proposal 
such as maintaining the basic structure of TANF, strengthening support 
for two parent families and work requirements, and directing to 
families increased amounts of the child support collected on their 
behalf.
    As you are aware, President Bush has made a commitment to pursue 
four important goals in welfare reform reauthorization so that our 
programs can continue to transform the lives of those striving to 
become self-sufficient: strengthen work, promote strong families, give 
States more flexibility and show compassion to those in need. These 
goals formed the guideposts in shaping the Administration's proposals 
for TANF, child care and child support and are thoughtfully 
incorporated into this subcommittee's newly-introduced bill.
    I would like to spend my time today sharing information with you on 
the important progress we have made in strengthening families and 
highlighting the specific areas the Administration and now this 
subcommittee have targeted for improvement. I will begin with TANF, the 
cornerstone of our welfare reform efforts.
Temporary Assistance for Needy Families

    Since 1996, welfare dependence has plummeted and employment among 
single mothers has grown to unprecedented levels. But even with this 
notable progress, much remains to be done, and States still face many 
challenges. Last year, we held eight listening sessions throughout the 
country to discuss the TANF program and understand the new challenges 
ahead.
    During these listening sessions we received a broad range of 
comments and recommendations, but several dominant themes emerged:

         Not surprisingly, states want funding for TANF to be 
        maintained.

        L  There is broad support for keeping work and the work-first 
        approach at the core of the program and recipient activity, but 
        states want flexibility to engage recipients in activities that 
        will complement work and help them achieve self-sufficiency.

        L  Despite reservations many had five years ago, there is now 
        virtually unanimous support for keeping time limits. Both 
        program administrators and recipients told us how time limits 
        were important for focusing client and agency efforts on 
        pursuing self-sufficiency.

        L  States told us of the difficulties of administering the 
        various federal welfare and workforce programs, which have 
        conflicting rules and procedures that seriously inhibit the 
        states' ability to effectively serve families. They are very 
        interested in getting some ability to better coordinate these 
        programs.

        L  Finally, states told us they felt the purposes of TANF were 
        generally on target, but that we should aspire to setting an 
        even higher goal for the program that recognizes how TANF can 
        truly improve the quality of life for American families. Some 
        suggested establishing new goals such as improving child well-
        being.

    These insights helped shaped the Administration's focus in 
approaching reauthorization and clearly have been considered in the 
shaping of Congressman Herger's legislation. Reauthorization of TANF 
must build on what we have learned and our success by:

        <bullet> strengthening the federal-State partnership by 
        maintaining both the federal financial commitment to the 
        program and State flexibility in how the funds are used;

        <bullet> asking States to help every family they serve achieve 
        the greatest degree of self-sufficiency possible through a 
        creative mix of work and additional constructive activities;

        <bullet> helping States find effective ways to promote healthy 
        marriages and reduce out-of-wedlock childbearing by targeting 
        funds to develop innovative approaches to addressing the 
        formation of strong and stable families;

        <bullet> improving the management and, therefore, the quality 
        of programs and services made available to families; and

        <bullet> allowing States to integrate the various welfare and 
        workforce assistance programs operating in their States to 
        improve the effectiveness of these programs.

    We are very grateful that these principles are well-reflected in 
Congressman Herger's bill. I would like to highlight just a few of the 
key provisions that will go a long way toward improving the 
effectiveness of the TANF program in helping our nation's families.
    This far-reaching proposal blends perfectly with the 
Administration's priority to maximize self-sufficiency through work by 
requiring States to engage all TANF families with an adult in self-
sufficiency plans and regularly review case progress. In addition to 
the requirement for universal engagement, the bill increases the direct 
work requirement. In order for a case to be counted as participating, 
the individual must be involved in a full 40 hours per week of 
simulated work activities. Cases counted as participating would be 
required to average at least 24 hours per week (of their total required 
40 hours) in direct work, including employment, on the job training, 
and/or supervised work experience. We vigorously support this high 
standard so that programs and clients keep focused on self-sufficiency 
and making progress toward it.
    We note that the bill contains tremendous flexibility for States in 
deciding how to apply these participation requirements. When employment 
is not possible, States have flexibility to meet the 24 hour work 
requirement through work activities designed to prepare clients for 
real jobs. States can exercise great creativity in establishing 
constructive activities to address the remaining 16 hours, including 
structured activities that involve parents with their children, such as 
counseling or joint volunteer activities. Given such flexibility, 
States should be able to craft activities that accommodate difficulties 
families may have in finding child care.
    It is extremely encouraging to see that Congressman Herger's bill 
also incorporates our focus on promoting child well-being and healthy 
marriages. The bill targets $100 million for broad research, 
evaluation, demonstration and technical assistance, focused primarily 
on healthy marriages and family formation activities. Research shows 
that both adults and children are better off in two-parent families. It 
is no criticism of single parents to acknowledge the better outcomes 
for children of married-couple families. Rather it supports the 
underlying principles to redirect our policies to encourage healthy 
marriage especially when children are involved. Along those lines, the 
bill also establishes a $100 million competitive matching grant program 
for States and Tribes to develop innovative approaches to promoting 
healthy marriages and reducing out-of-wedlock births.
    Finally, I would like to mention the establishment of a new State 
program integration waiver authority which will permit States to 
further integrate a broad range of public assistance and workforce 
development programs in order to improve the effectiveness of these 
programs. I have always been a strong advocate of State flexibility, 
and I believe this new waiver authority could revolutionize service 
delivery by allowing States to design creative new strategies for 
assisting families.
    I would like to turn now to another program that offers a vital 
connection to a family's ability to achieve self-sufficiency: child 
support enforcement.
Child Support Enforcement

    Child support is a critical component of federal and State efforts 
to promote family self-sufficiency. For the low-income families who 
receive child support, it makes up a significant portion of the family 
budget (26 percent).
    PRWORA instituted a number of important child support enforcement 
measures. Tools such as increased automation, the National Directory of 
New Hires and Federal Case Registry, the passport denial program, the 
financial institution data match, and license revocation have made a 
tremendous difference in improving State performance and strengthening 
child support collection efforts. Equally important, PRWORA streamlined 
paternity establishment, particularly voluntary paternity 
establishment, to encourage fathers to take the first step toward 
providing their children with financial and emotional support.
    The impact of these changes has been dramatic. The number of 
paternities established or acknowledged has reached almost 1.6 million. 
Of these, nearly 700,000 paternities were established through in-
hospital acknowledgment programs. In FY 2001, with a case load of 17.4 
million cases, a record of nearly $19 billion in child support was 
collected.
    Like TANF, the approach taken by both this Administration and your 
subcommittee is to build on our success in the child support program 
under PRWORA by designing legislation that will:

        <bullet> direct more of the support collected to families;

        <bullet> increase child support collections through enhanced 
        enforcement tools; and,

        <bullet> establish a user fee for families that have never 
        used public assistance in cases where the State has been 
        successful in collecting support on their behalf.

    Together, we will move the child support program toward a focus on 
families and away from the historic purpose of recoupment of federal 
and State outlays. In fact, I would be remiss if I did not acknowledge 
the leadership of this subcommittee in building a strong child support 
enforcement program and beginning the dialog on this next phase of 
child support reform.
    Finally, I would like to turn to child care, a key support service.
Child Care

    Parents need access to affordable and safe child care in order to 
succeed in the workplace. As a former governor, I know from direct 
experience that there is a fundamental link between child care and 
running an effective welfare to work program. The interest in 
maintaining a strong child care component as part of welfare reform has 
been reinforced by the Congress as well.
    The President's budget seeks to continue funding child care at its 
current historically high level within the existing flexible framework 
of the discretionary Child Care and Development Block Grant and the 
mandatory Child Care funding as well as other critical funding sources 
such as Head Start. The President's FY 2003 budget includes $2.1 
billion for the Child Care and Development Block Grant and $2.7 billion 
for the mandatory Child Care funding--a total of $4.8 billion for what 
is referred to as the Child Care and Development Fund or CCDF. In fact, 
over the last decade, federal funding specifically appropriated for 
child care has tripled--from $1.6 billion in 1992 to $4.8 billion this 
year.
    But these funds are only part of the picture. Funding for child 
care also is available through the Temporary Assistance for Needy 
Families program, the Social Services Block Grant, or SSBG, and other 
sources. Looking at recently available historical data on State and 
federal dollars associated with CCDF, TANF and SSBG, we estimate that 
about $11 billion will be invested in child care through these three 
block grants alone.
    Funding available through CCDF and TANF transfers will provide 
child care assistance to an estimated 2.2 million children in FY 2003. 
This is a significant increase over the number served just a few years 
ago (in 1998 about 1.5 million children received subsidized care) and 
does not take into account additional children that will be served by 
SSBG and TANF direct spending. When these funds are considered, it is 
estimated that approximately one-half million additional children will 
be served in FY 2003.
    States contribute significant resources to child care as well. In 
fact, State spending accounts for about a quarter of total State and 
federal child care expenditures under the CCDF. States spent at least 
an additional $774 million in State TANF funds for child care in 2000.
    Combined these funds support child care services for a significant 
number of our nation's children. In FY2003 funds from CCDF, TANF and 
SSBG will provide child care subsidies for an estimated 30 percent of 
potentially eligible children. When focusing on children with the 
greatest financial need, that is those in families below poverty, the 
estimated coverage rate grows to 47 percent. And, if you break the 
numbers down by age, among poor children three to five years of age the 
percentage served is 72 percent. Of course, these estimates do not take 
into account the complexity of the child care choices made by families. 
Many families opt to use informal care arrangements, such as relative 
care. Still others may adjust their work hours to match the school day, 
so that child care is not necessary.
    Looking beyond State and federal spending under the block grants, 
other resources also support child care in the context of early 
childhood strategies--including Head Start, State-funded pre-
kindergarten programs, and 21st Century Community Learning Centers.
    Beyond its commitment to maintaining these funding levels for child 
care, the Administration also is committed to preserving the key 
aspects of the discretionary and entitlement child care programs: 
support for work and job training; healthy development and school 
readiness for children in care; parental choice; and administrative 
flexibility for States and Tribes. The major restructuring of the 
federally-funded child care programs under PRWORA provides a statutory 
foundation that remains an efficient method for distributing child care 
funds to States, and an effective mechanism for making these resources 
available to parents.
    It is clear from these significant federal and State funding 
commitments that we all recognize the importance of child care. 
Congressman Herger's bill goes even further by raising from 30% to 50% 
the amount of TANF funds States may transfer into their Child Care 
Development Fund. This proposal to provide greater State flexibility 
should there be increased demand for child care spending is an 
innovative approach to addressing any potential future child care 
funding needs and one we would like to discuss further.
Conclusion

    Mr. Chairman, we took a major step forward on welfare reform 
reauthorization this week with the introduction of your subcommittee's 
legislation. We already have made great strides in helping our nation's 
families, and as President Bush stated, ``The successes of the past few 
years should not make us complacent. They prove what is possible when 
we press forward with bipartisan efforts.'' The Administration has 
publicly stated its commitment to the next phase of welfare reform and 
you have demonstrated yours by holding hearings like today's and 
devoting this committee's time and energy to quickly moving on welfare 
reform legislation. We stand ready to work with you in moving 
legislation that meets our shared goal of increased successes for 
America's neediest families.

                                 <F-dash>

    Chairman HERGER. I thank you, Mr. Secretary.
    I understand that you have to leave in a few minutes, so I 
would like to ask you a quick question, and that is if you were 
Governor today, would you view the President's proposal and the 
Chairman's bill as less flexible than current law, and isn't it 
true that there are key aspects of the proposal that are more 
flexible than current law?
    Mr. THOMPSON. No question about it, Mr. Chairman, and I 
would like to quickly point them out, and I would applaud you, 
if I was Governor of the State of Wisconsin still, for your 
leadership on this particular issue.
    Even though the proposal increases the work requirement 
from 30 hours to 40 hours, 16 hours of activities can be set up 
completely the way the States want them. There are no dictates 
whatsoever from the Federal Government.
    There is a 3-month work exemption in this proposal that is 
not in the existing law that allows States to be able to put 
individuals into drug rehabilitation, drug treatment, alcoholic 
counseling, whatever the case may be. Under current law, the 
first time a case is opened, it is counted immediately. Under 
your proposal and the President's proposal, the case opening 
month is exempted so the State does not have to count that 
toward its work participation rate.
    There is no separate two-parent requirement, which is very 
onerous on States under the existing law. That is no longer the 
case in your proposal or in the administration's proposal.
    Partial participation credit is given, while there is no 
prorated credit that is given in the existing TANF law. It is 
given in your proposal as well as the President's.
    There is a rainy day fund allowed that designates the TANF 
dollars as obligated rainy day funds, which corrects a big 
problem. Under current law States made sure to obligate that 
money, perhaps not as wisely as they should have, but States 
did not want the Federal Government to take that money away 
from them.
    Limits are lifted on carryover funds, which were limits 
under the current TANF law and which are no longer in your 
proposal. I applaud you on that.
    The superwaiver is the final example of increased State 
flexibility, for which I think all Governors, especially if I 
was Governor, would come and kiss your ring and say thank you. 
It would give me the opportunity to put in a superwaiver that 
would allow me to put together even a more exciting program 
back in Wisconsin when I was Governor.
    Chairman HERGER. I am not going to ask you to kiss my ring, 
but I do appreciate your comments, and particularly your 
comments as a former Governor. With that, the gentleman from 
Maryland, the Ranking Member, Mr. Cardin, to inquire.
    Mr. CARDIN. Thank you, Mr. Chairman. I find your answer a 
little bit difficult to follow in that the Herger bill imposes 
additional requirements on the States, additional hours in the 
work requirement, additional percentages in the work 
requirement, less availability of vocational education than in 
the current law. It states that it is estimated it would cost 
an extra $15 billion in order to comply with the requirements. 
You mentioned one, for example, the extra 16 hours of 
flexibility under current law doesn't even apply to those who 
have children under the age of 6, whereas you are applying it 
now.
    So, I don't think it is quite accurate to say that you are 
giving additional flexibility. I think the proof is what the 
States believe, and we have gotten surveys, as you know, from a 
lot of the different States, and many of the States have 
responded--in fact, almost all of the States have responded 
saying that they would have to make fundamental changes in 
their programs.
    If you believe the States are responding adequately, why 
should we require--41 States have replied already saying they 
would have to make a fundamental change in their program. Many 
of those States have said it would require them to have a lot 
more work for their programs, and you and I agree that workfare 
should be a matter of last resort. We certainly don't want to 
encourage workfare over real jobs in the community.
    So, I think we should really look at the specifics, and I 
do think we need to sit down with the State administrators, 
because in the conversations that I have had, they feel very 
threatened by many of the provisions, and sometimes they are a 
little bit timid in expressing their views. So, I hope we will 
have an opportunity to take a look at this and make sure that 
we give the flexibility necessary to the States.
    I do want to ask you one question, though, and that is you 
and I have talked about the well-being of the child and taking 
families out of poverty, and I noticed how the structure of the 
Herger bill is. As I told you, I support the Administration's 
proposal to make the well-being of the child the centerpiece of 
our objective, and you have certain tools in order to 
accomplish that. I would ask that we work together so that 
poverty reduction can be one of those tools to advance the 
well-being of the child, and I would hope that Dr. Horn would 
be available to work with us on language that is acceptable to 
the administration and accomplishes our objective.
    Mr. THOMPSON. Thank you, Mr. Cardin. The Chairman asked me 
where the differences were in which we allowed for more 
flexibility. I listed all 10 of those. There are some areas 
that place more requirements on States, and you mentioned 
those. There is more flexibility than there are requirements, 
and that is what I want to point out.
    You mentioned one thing that I would have to correct. You 
indicated that Governors were a little bit bashful about 
expressing their opinions. I have never found a Governor that 
was bashful yet.
    Mr. CARDIN. I believe it is State administrators.
    Mr. THOMPSON. I haven't found too many of those that are 
bashful either. In regard to welfare of the child and poverty, 
and I think there is plenty of room for us to reach an 
agreement, and I applaud you for your passion on it. I want to 
work with you in coming up with a position on this particular 
subject so that we can have a bipartisan bill passed through 
Congress. There is no question that your passion for getting 
children out of poverty is extremely good, and I appreciate you 
for it. I feel the same way, and I think we have done a good 
job under TANF on reducing poverty among children, and I think 
we have to move to the next step, and I am going to work with 
you to accomplish that.
    Mr. MCCRERY. [Presiding.] Mr. Secretary, thank you. I know 
you have to leave, and I would like to test your diplomatic 
skills before you go. Those who are leaving right now are 
leaving because we have a vote on the Floor. If you would, Mr. 
Secretary, since you were so enthusiastic in your endorsement 
of the President's proposal and Mr. Herger's bill, which makes 
some modification on the President's proposal, and used your 
experience as a past Governor to underscore your enthusiasm, we 
know that we have received letters, and we have seen accounts 
in the newspapers and in the media about the Governors--
National Governors' Association (NGA) and this, that, and the 
other saying that this bill is inflexible, it is micromanaging 
from Washington. It doesn't give the States enough flexibility. 
So, how do you reconcile those sitting Governors' views, at 
least as expressed in the media, with your enthusiasm as a past 
Governor for the proposal?
    Mr. THOMPSON. Mr. Chairman, as a former fellow Governor, I 
can understand. States are in very difficult financial shape 
right now, and they see this bill passing in Congress this 
year, and if they are able to get some more dollars in here, 
more flexibility, I would be one of them. When I negotiated the 
original TANF bill with the House and the Senate back in 1995 
and 1996, when I was Chairman of the National Governors' 
Association, I told the Congress at that time that if we can 
get level funding at $16.5 billion, we could do an excellent 
job. You set the standards, but give us the flexibility on how 
to accomplish those standards. We can do that.
    That is exactly what this bill does. It is level-funded. It 
is a commitment for 5 years. We set some high goals, but we 
allow the States complete flexibility under those goals to 
reach those goals, and that is what States have always asked 
for, and I know they can do it. In the meantime they are going 
to be asking for more, and I would be one of them if I was 
still a Governor. Right now I can assure you in talking with 
them behind closed doors, they will be very satisfied with this 
proposal if it passes.
    Mr. MCCRERY. Thank you, Mr. Secretary. Very well done, and 
we look forward to having you back. Mr. McDermott?
    Mr. MCDERMOTT. I thought when you were going to test his 
diplomatic skills, you were going to ask me to ask a question.
    Mr. MCCRERY. Dr. Horn, are you going to stay?
    Mr. DOGGETT. Mr. Chairman, is the Secretary not staying to 
answer questions about his testimony?
    Mr. MCCRERY. Dr. Horn is going to stay.
    Mr. DOGGETT. Well, I am glad to have Dr. Horn, but we only 
have one Secretary, and unless this is just a pep rally for the 
President's proposal and not an attempt to really try to 
explore what our differences are and how we can get them 
resolved for a bipartisan proposal, then this is--if that is 
your goal, I think it has been achieved. I came to ask the 
Secretary questions about his testimony, and he is apparently 
making a speech and walking out. Doesn't get us any further 
coming together on this.
    Mr. MCCRERY. The Secretary had other obligations that 
required him to be here for only a half hour. He has satisfied 
his commitment to us.
    Mr. DOGGETT. When were the Members of the Minority advised 
that the Secretary wouldn't answer any questions about his 
testimony?
    Mr. MCCRERY. Your side was advised of the Secretary's 
constraints, and so if not, then that is somebody's fault on 
your side. Dr. Horn is here, and he would be more than happy to 
respond to any questions that you have. Obviously, you don't 
want to ask Dr. Horn any questions.
    Mr. DOGGETT. No. I want to go vote.
    Mr. MCCRERY. Maybe you can catch him. Dr. Horn, in fact, 
the bill as introduced by Mr. Herger does give the States more 
flexibility in terms of the work requirement than the 
President's proposal. That has been, I believe, the one item in 
the President's proposal that has received the most attention 
from the Nation's Governors is the requirement that 70 percent 
of the case load be required to work. Under the Chairman's 
proposal, he phases that requirement in over a number of years; 
isn't that correct?
    Dr. HORN. Yes.
    Mr. MCCRERY. By doing that, doesn't that allow the States 
more flexibility and gives them sufficient time to look towards 
satisfying that strengthened work requirement?
    Dr. HORN. We think that both the Chairman's bill and the 
administration's proposal both provide for phase-in periods 
that allow States to adjust their programs to meet the more 
challenging work standards. What Secretary Thompson has done is 
identify a very important difficulty in the current law, which 
is because case loads have dropped so dramatically, the 
effective work participation rate is not 50 percent as you 
might assume by reading the current law, but nationally is only 
5 percent, so that nationally only 5 percent of those on TANF 
currently need to be engaged in sufficient work activities to 
qualify towards work participation rate.
    There are various ways of fixing that problem. The 
Administration's proposal fixes it by phasing out the case load 
reduction credit over 3 years, but implementing a new 
employment credit. The Chairman's bill does the same thing by 
recalibrating the case load reduction credit over time. That 
also would fix the fundamental difficulty in the current law, 
which is that given the base year for the calculation of the 
case load reduction credit is 1995, effectively the case load 
reduction credit, if that is the base year, eviscerates any 
meaningful work participation requirement by the States.
    So, I think both bills address that issue. Both bills have 
a phase-in period so States have time to adjust their programs, 
2 years essentially in both cases, to meet the more challenging 
work standards.
    Mr. MCCRERY. Well, I thank you for addressing that because 
I don't think that is very well known, and particularly if all 
one knows is what he reads in the newspapers sometimes, he 
doesn't realize that even though there is a 50-percent work 
requirement--after all, when we came up with the idea for 
welfare reform and the framework of welfare reform, one of the 
underlying principles was that people ought to work for--in 
exchange for their benefits. If they were able to work, then we 
ought to encourage them to work and give them the tools to work 
and help them get to work. So, we put that 50-percent case load 
requirement in there.
    The practical effect of giving the Governors--and Secretary 
Thompson at the time was one of those Governors trying to get 
as much as they could--we gave them the most favorable base 
year in terms of their case load upon which the case load 
reduction credit would be based, and the practical effect of 
giving them that most favorable base year where they had the 
highest case load and then letting them count against that the 
reduction in the case load to reduce their work requirement, 
the practical effect is that a very low percentage of their 
current case load around the country is required to work. The 
President's proposal and the Chairman's proposal attempts to 
correct that and to go back to the underlying principle that we 
ought to get people to work, we ought to teach them how to have 
a job, and ultimately to be independent from government 
assistance and care for themselves and their families.
    So, I am pleased that the President proposed that 
correction. I also think that the Chairman's modification of 
that is probably positive for the States and the Governors and 
will allow them to correct their program over time. With that, 
thank you, Dr. Horn, and I am going to turn it back over to 
Chairman Herger so I can go vote.
    Chairman HERGER. [Presiding.] I thank Mr. McCrery for 
filling in while we were voting.
    Dr. Horn, if you could tell me, I suspect you are aware 
that back in 1996 when the welfare reform was first debated, 
estimates were floating around by the bill's opponents that the 
TANF program was drastically underfunded to meet the work 
requirements. Yet according to recent reports from the Center 
on Budget and Policy Priorities, there is still some $7.4 
billion in federal TANF funds sitting in the federal Treasury 
after 5 years of operating welfare reform. Nonetheless, we are 
still seeing some projections about the shortfalls in funding 
today. How do you respond to those who say we need billions and 
billions more in federal spending to meet the work targets in 
these proposals?
    Dr. HORN. All totaled there will be about $167 billion 
available for States over the next 5 years. The block grant, as 
you know, both in your bill and the President's proposal 
includes the same amount of money today as in 1996, and yet 
case loads have been reduced by 56 percent. To give real 
numbers to that, 8.6 million children were on the case loads 
back in 1996, and today that number has been dropped to less 
than 4 million. Yet both your bill and our proposal suggests 
that States ought to have the same amount of money plus be able 
to use whatever carryover balances they still have, as you 
point out $7.4 billion, not just for cash assistance, but with 
the flexibility provided under your bill and the President's 
proposal to be able to use $7.4 billion for things other than 
just direct cash assistance. So, we think with less than half 
the case load left, with the same amount of money, with $167 
billion available over the next 5 years, States ought to be 
able to have sufficient funds to be able to reorient their 
systems in such a way that meets the more challenging work 
standard.
    Now, it is very important to keep in mind, why is it that 
we want to set a more challenging work standard? It is not that 
we are mean people. It is because what we would like to do is 
make sure the State is working with every case, everybody who 
is still on the case load, focusing them on the only sure route 
out of poverty, which is work. So, the more challenging work 
standard combined with the flexibility to have up to 2 days of 
education and training combined with the core of work is an 
attempt by us and by you, Mr. Chairman, to move as many people 
as effectively toward self-sufficiency as possible.
    Now, back in 1996, we heard a lot of people saying States 
couldn't do it with the money that was available. Clearly that 
is wrong. We are hearing some of the same people say the same 
thing about this proposal. It seems to me that the burden of 
proof ought to be on them to demonstrate that it is an 
impossible task, a task that they suggested was impossible back 
in 1996, yet not only was a possible task. We have seen an 
extraordinary movement away from the welfare rolls and toward 
self-sufficiency, as was pointed out by the Secretary--the most 
dramatic drop in child poverty in a 5-year period in the 
history of the United States, where African American child 
poverty is now the lowest rate ever recorded, and where 
Hispanic child poverty has dropped more dramatically than in 
any 4-year period that we have seen in our history as a nation.
    So, it seems to me that we do have a program that works 
because it is oriented toward work, and what we would like to 
do, as the Secretary says and as your bill suggests, is set a 
high, challenging work standard and work in partnership with 
States to be able to move as many people toward self-
sufficiency as effectively as possible.
    Chairman HERGER. Thank you, Dr. Horn. Isn't it correct that 
even though there are some three times more people working 
today under the TANF program than there were prior to the 1996 
laws, that there are still approximately 58 percent of those on 
welfare who are not doing anything?
    Dr. HORN. That is what our latest figures tell us. Only 
about 34 percent nationwide satisfy the current work 
participation standard, and 58 percent, according to our 
information, are not involved in any work activities at all.
    So, it seems to me we have a long way to go, but it is 
precisely why we want to set a more challenging work standard, 
allowing States the flexibility to combine work with other 
kinds of activities, and in sifting through the universal 
engagement strategy, that every case be attended to. We ought 
not to leave any welfare recipient behind when it comes to 
welfare reform. We want to move as many as possible toward 
self-sufficiency, and I believe that is what your bill will do, 
and we certainly believe that is what the President's proposal 
will do.
    Chairman HERGER. Thank you very much for your testimony. We 
certainly appreciate the Secretary being here. With that, why 
don't we move to our second panel. Our Members of Congress, 
please, the Honorable Patsy T. Mink from Hawaii, who will be 
first to testify; then the Honorable Marcy Kaptur, who just ran 
over to vote; the Honorable Dennis J. Kucinich; the Honorable 
Barbara Lee; the Honorable John F. Tierney; and the Honorable 
Thomas M. Reynolds. I know that several of our Members are out 
voting. Mrs. Mink, would you like to testify?

   STATEMENT OF THE HON. PATSY T. MINK, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Mrs. MINK. Thank you very much, Mr. Chairman. I appreciate 
the opportunity that you have given a number of people to come 
to express their views. The Administration has presented theirs 
today, and it is really geared to performance standards and 
such additional requirements.
    I come today to appear to this Subcommittee to look at the 
legislation that I have introduced, H.R. 3113, which currently 
has 90 cosponsors and has been endorsed by over 80 
organizations. This is really a grassroots effort to try to put 
together a meaningful reauthorization concept which is 
generated primarily by those who either left welfare and went 
to work or who are currently recipients, and it is an 
expression of the things that they would like to see changed in 
order to emphasize not just getting a job, but giving the 
recipients and their families a chance for true economic 
security.
    So, I think the number one item which I would like to 
emphasize is a proposal in my bill to recognize the importance 
of education. To minimize that is to degrade the whole concept 
we have worked for since 1996, and that is work counts. It pays 
for people to go to work and uplift their families. If all you 
are doing is getting them off welfare with a minimum-wage job, 
with no opportunity of upward mobility, then I think you are 
sacrificing the ultimate goal, which should be to allow this 
family to improve itself, and the best way, I think everyone 
agrees, is through education and job training.
    So, it seems to me that this is one improvement that ought 
to be incorporated in our legislation to permit education, job 
training as work activity so that the individuals that want to 
go to community college or to college or whatever to improve 
their employment opportunities will have that option. Currently 
that is not available under the current law, and it is not 
being promoted in the administration's proposal.
    The point also is that many of the individuals in welfare 
are under huge family difficulties. They have employment 
barriers. There are severe illnesses in the family. Some of the 
individuals may be mentally and physically disabled. Some of 
them may be suffering under drug addiction and require 
treatment. There are a wide variety of disabilities that we 
urgently ask the Committee to consider so that these 
individuals are not pushed out to work when they have these 
very, very difficult situations.
    Child care, as the Secretary testified in our Subcommittee 
the other day, is a very important ingredient. Without child 
care, work cannot be made a possible alternative, and therefore 
we urge this Committee to take a careful look at the child care 
responsibilities that the States and the Federal Government 
have, not just the funding, but to make sure that child care is 
quality child care so that the parents feel when they have 
their children in a child care facility, that the child is 
getting the best possible care that one would be able to 
provide a child in that community.
    This goes back to the President's emphasis when we were 
debating H.R. 1 when he said, leave no child behind. I believe 
that same philosophy ought to adhere in terms of welfare 
reauthorization. The child ought to be the primary concern of 
this Committee and of the Committee on Education and Workforce; 
what is in the best interest of the child. In this sense, the 
requirement of going to work for 40 hours is not in the best 
interest. It seems to me that child care, after-school care 
when the children are older are primary responsibilities before 
we make work 40 hours the ultimate requirement of a successful 
program.
    The Administration--everyone that has looked at this bill 
has said what a wonderful outcome that we have been able to cut 
the rolls. It has been successful in that sense. It has been 
successful because we have a work requirement. If they don't 
work, they don't remain on the rolls. So, I think what we have 
to look at now is how can we make the lives of the children and 
their families better. Certainly we haven't taken them out of 
poverty, and that should be a very, very serious concern of 
this Committee and of my Committee.
    I thank you, Mr. Chairman, for giving me this opportunity 
and ask unanimous consent that my entire statement be placed in 
the record.
    [The prepared statement of Mrs. Mink follows:]
Statement of the Hon. Patsy T. Mink, a Representative in Congress from 
                          the State of Hawaii
    Chairman Herger, Ranking Member Cardin, and Members of the 
Subcommittee on Human Resources.
    Thank you for the opportunity to testify today on proposals to 
reauthorize the Temporary Assistance for Needy Families (TANF) program. 
What we finally decide will have a tremendous impact on the poorest of 
our nation's children and on their parents who are struggling to 
improve their family's condition.
    In October 2001, I introduced H.R. 3113, the TANF Reauthorization 
Act of 2001. I am delighted to report that the bill currently has 89 
sponsors and has been endorsed by 80 organizations, including Business 
and Professional Women/USA, Center for Women Policy Studies, National 
Association of Commissions for Women, National Coalition Against 
Domestic Violence, National League of Women Voters of the U.S., and 
YWCA of the USA, to name just a few. I attach a list of HR 3113's co-
sponsors and the list of organizations that support HR 3113. I urge the 
Subcommittee to seriously consider the provisions of HR 3113 as you 
begin marking up a TANF Reauthorization bill.
    This is an issue very close to my heart. In 1995, I offered the 
Democratic substitute to HR 4, an early version of the welfare-to-work 
legislation, which was vetoed by President Clinton. In preparing for 
the reauthorization of TANF in the 107<SUP>th</SUP> Congress, I 
incorporated many of the provisions contained in my 1995 substitute to 
HR 4 as well as recommendations from grassroots organizations 
representing the people most affected by welfare reform in 1996. These 
organizations held extensive hearings to identify the barriers that 
TANF families encounter in making the transition from welfare to 
economic security.
    The Personal Responsibility and Work Opportunity and Reconciliation 
Act (PRWORA), which became law in 1996, has been hailed by many as a 
success because of the dramatic decline in the number of persons on 
welfare rolls in many states. Many equate the declines in numbers of 
families receiving benefits with a corresponding decline in the need 
for assistance. But we have evidence that many families have been 
pushed from the welfare rolls before they were able to adequately 
provide for their families. Is this our goal--simply to reduce the 
number of persons receiving benefits? Or are we trying to help these 
families find their way to economic security?
    Some 50 percent of former recipients are still living in poverty 
and 30 percent have been unable to find jobs. Study after study shows 
high rates of hardship, ranging from having to forego needed medical 
care to skipping meals, to being unable to pay the rent.
    I believe our goal in creating a social welfare safety net for 
families must be, first and foremost, to ensure the well-being of the 
children affected. Reducing dependency is a valid goal, but only if it 
means that families can move onto true self-sufficiency. I believe that 
the best way to achieve these goal is to enable women receiving TANF to 
pursue the training and education they need to get good jobs so that 
they can leave public assistance permanently, provide economic security 
for their families, and set an example of achievement and ambition that 
their children can emulate. Are we well-served by pushing a young 
single mother to accept a low-wage dead-end job where she will receive 
minimum wage, inadequate or no benefits, and little hope for a better 
future for herself and her children? Or would we be better off giving 
that woman an opportunity to earn a college degree, become certified as 
a nurse or computer technician, or receive advanced vocational training 
so that she and her children can become economically secure?
    TANF's work requirement stresses getting a job, any job, regardless 
of what it pays, what benefits it provides, and whether the combination 
of earnings and benefits are sufficient for a family to survive on.
    HR 3113 seeks to:

        1. Expand the definition of ``work activity'' to include

                a. Leducation and job training at all levels 
                (elementary and secondary education, literacy training, 
                ESL, GED, high education, and work-study programs)
                b. Las well as a parent's caregiving for a child under 
                the age of six or over the age of six if ill or 
                disabled or if after school care is not provided;

        2. Stop the 5-year clock from running if the recipient is 
        engaged in an allowable work activity, including education and 
        job training;
        3. Prohibit full family sanctions that punish whole families 
        when the adult recipient doesn't meet a TANF rule. The bill 
        will prohibit full family sanctions, permitting only an 
        incremental reduction in the family benefit tied to the benefit 
        of the parent found in violation of the rule. This will protect 
        children by assuring them their safety net even if a mother 
        loses her benefit.
        4. Make paternity establishment and child support enforcement 
        voluntary, while encouraging cooperation by directing all child 
        support collections to the family. This provision will restore 
        the constitutional privacy rights of poor mothers by making the 
        paternity establishment and child support cooperation 
        provisions voluntary for mothers. Current policy requires 
        mothers to disclose the identity of biological fathers to 
        welfare agencies even if they do not want them involved with 
        their children. To enforce these rules against mothers, TANF 
        requires them to answer intrusive questions that strike at the 
        very heart of privacy guarantees. Child support enforcement 
        should be available to all mothers who want fathers to help 
        financially with children. But mothers should not be compelled 
        to secure child support against their own best judgement.
        5. Count treatment for domestic and sexual violence, mental 
        health problems, and substance abuse as ``work activities'' and 
        stop the clock while TANF recipients are undergoing prescribed 
        treament. Approximately 60% of women on welfare report having 
        been victims of intimate violence at some point in their adult 
        lives and 30% report abuse within the last year. HR 3113 
        promotes the safety interests of families enrolled in TANF by 
        making various requirements more flexible for families dealing 
        with domestic violence. The bill builds on the current family 
        violence option, making it a requirement for states.
        6. Prohibit states from establishing family ``caps'' that 
        withhold benefits from a child born to a mother on welfare; 19 
        states currently have family caps.
        7. Replace the ``illegitimacy bonus'' with a poverty reduction 
        bonus for states that lower poverty rates the most;
        8. Restore the child care entitlement for TANF families when 
        the parent enters the labor market or in a work activity 
        leading to participation in the labor market. Although current 
        law includes sanction protection for recipients who cannot find 
        quality child care, the reality is that recipients are being 
        forced to leave their children in unsafe, undesirable child 
        care situations. HR 3113 would ensure that the care needs of 
        children will be met as their mothers move into the labor 
        market. It stops the 5-year clock when recipients are unable to 
        work due to lack of suitable child care.
        9. Guarantee equal access to TANF regardless of marital or 
        citizen status--full access to TANF benefits would be restored 
        to legal permanent residents.
        10. Enforce anti-discrimination and labor laws, as well as due 
        process guarantees. This will assure enforcement of the minimum 
        wage, for example. It also will explicitly require TANF 
        agencies to abide by Title VII and Title IX prohibitions on sex 
        discrimination, neither of which are signaled in the current 
        TANF statute.
        11. Stop the clock for all TANF families during recession and 
        temporarily restore TANF eligibility for families who have 
        exceeded their time limit but who are otherwise eligible 
        (recession equals 5.5% unemployment rate or higher);
        12. Provide incentives to states to provide programs to reduce 
        barriers to employment, to offer job training, and to encourage 
        education; and
        13. Stipulate that the statutory purpose and goal of TANF is to 
        reduce child and family poverty.

    These changes will put TANF to work helping mothers parent in 
dignity and helping children grow up with economic security.
    The failure of TANF to count post-secondary education as a work 
activity is its biggest hypocrisy and one of the key problems my bill 
seeks to correct. Research has long established that women with 
education beyond high school, especially a college education, are more 
likely to earn living wages. Gaining education must be credited as work 
and must stop the clock.
    It is also hypocritical for us to lavishly praise the middle-class 
or upper-class mother who chooses to forgo work outside the home so 
that she can stay home and take care of her young children and treat 
poor mothers as though they are lazy if they too want to care for their 
young children. Young TANF mothers are forced to leave their children 
in inadequate child care while they participate in make-work programs 
or low-paying jobs. It is extremely difficult for a poor single mother 
to balance the demands of work and family. The logistics (and expense) 
of getting more than one child to babysitters and school and picking 
them up can be overwhelming, especially when one doesn't have reliable 
transportation. Unreliable childcare and what to do when one's child is 
sick and cannot go to school are also major crises for poor working 
mothers. And now the President wants to require TANF recipients--even 
those with preschool-age children--to work a full 40-hour week! Many of 
these women lack job skills and must accept irregular shift or part-
time work or must balance two or more part-time jobs while caring for 
their children.
    Perhaps the greatest failing of the current program and the 
Administration's proposal is a lack of appreciation of the barriers 
that some recipients face in making the transition from welfare to 
work. We must allow prescribed treatment to count as work activity for 
those who are afflicted with a drug or alcohol dependency, severe 
depression, or other mental illnesses and for women who have been 
victims of domestic violence. My bill stops the clock while these TANF 
mothers are undergoing treatment. The Administration's proposal to 
allow only 3 consecutive months of treatment for substance abuse (in a 
24-month period) to count as a work activity is clearly inadequate.
    Child care is another nagging problem under TANF. Without 
dependable and appropriate child care there is little hope for a parent 
to be able to stay employed. Under the Family Support Act of 1988, 
child care was an entitlement. TANF repealed the entitlement for 
individuals, making it even harder for poor mothers to assure care and 
supervision to their children while they are away from home meeting 
their work requirement. To enforce work, there must be quality child 
care. The State set aside to improve quality of child care must be 
increased from 4 percent to 8 percent.
    One of the powerful ideas in the 1996 welfare debate was the strong 
view that one of the ways to help children in welfare families is to 
find their fathers and make them provide child support. But TANF 
requires women seeking welfare to disclose the identities of biological 
fathers and to help government locate them. It enforces these 
requirements with new sanctions reducing family benefits when mothers 
don't comply. These harsh provisions totally disregard a mother's own 
best judgment about what's best--and safest--for herself and her 
children. What's more, TANF provides that child support money collected 
by the government stay with the government as reimbursement for 
welfare.
    What Congress needs to do is to undo punitive regulation of mothers 
on welfare. We need to encourage states to make job training and 
educational opportunities available to recipients so that leaving 
welfare for the labor market means leaving poverty. We need to make it 
possible for mothers to seek job training and education, as well as to 
keep jobs that pay living wages. We need to treat women on welfare the 
same way that we want all women to be treated--with the respect, 
dignity, and the rights we all cherish for ourselves.
    TANF needs to take into account the many different reasons that 
people are forced to turn to welfare. Many poor mothers lack the skills 
needed to land better-paying jobs. They need access to training and 
education. Many cannot afford to be employed, because they lack child 
care or can't find affordable transportation or aren't assured crucial 
benefits such as health care. They need to be protected by all labor 
laws, be guaranteed child care, and receive Medicaid benefits for as 
long as they are income-eligible. Some mothers suffer from substance 
abuse or mental health problems or debilitating illness or domestic 
violence. These mothers need access to treatment, recovery, legal 
remedies, and skills-building services before entering the labor 
market. All children desperately need loving care in the home. Their 
mothers need the resources and the flexibility to decide when their 
children need a mother's care.
    H.R. 3113 retains the basic structure of the Personal 
Responsibility and Work Opportunity Reconciliation Act, including an 
emphasis on work and a five-year lifetime limit. The bill has been 
drafted with careful attention to the challenges that have prevented 
welfare recipients from escaping poverty during the last five years 
under TANF. The bill directs work efforts to permanent, sustainable, 
high wage employment opportunities through education, training and 
targeting high wage jobs. The bill also focuses on providing work 
supports like child care and addressing barriers to economic self-
sufficiency such as domestic violence, mental or physical disability 
and substance abuse. Finally, the bill restores full access to 
qualified immigrants.
    I urge my colleague to support the changes to TANF embodied in H.R. 
3113.
                               __________

     Groups That Have Endorsed HR 3113, The TANF Reauthorization Act
                            (as of 4/5/2002)
------------------------------------------------------------------------
------------------------------------------------------------------------
 1. Acercamiento Hispano/Hispanic        41. National Association of
 Outreach                                 Commissions for Women
 2. African American Women's Clergy      42. National Center on Poverty
 Assn.                                    Law
 3. American Civil Liberties Union       43. National Coalition Against
                                          Domestic Violence
 4. Americans for Democratic Action      44. National Coalition of 100
                                          Black Women, Metropolitan
                                          Atlanta Chapter
 5. American Friends Service Committee   45. National Council of La Raza
 6. Arizona Coalition Against Domestic   46. National Employment Law
 Violence                                 Project
 7. Ayuda Inc.                           47. National League of Women
                                          Voters of the U.S.
 8. Business and Professional Women/USA  48. National Organization for
                                          Women
 9. California Food Policy Advocates     49. National Urban League
10. California Welfare Justice           50. National Welfare Rights
 Coalition                                Union
11. Campaign for America's Future        51. NETWORK, A National
                                          Catholic Social Justice Lobby
12. Center for Battered Women's Legal    52. New Directions Center
 Services at Sanctuary for Familes
13. Center for Community Change          53. New Mexico Center on Law &
                                          Poverty
14. Center for Third World Organizing    54. Nontraditional Employment
                                          for Women
15. Center for Women Policy Studies      55. NOW Legal Defense and
                                          Education Fund
16. The Center for Women and Families    56. North Carolina Coalition
                                          Against Domestic Violence
17. Center on Fathers, Families and      57. Ohio Domestic Violence
 Public Policy                            Network
18. Central Conference of American       58. Oregon Law Center
 Rabbis
19. Chicago Women in Trades              59. Public Justice Center
20. Child Care Action Campaign           60. Research Institute for
                                          Independent Living
21. Child Care Law Center                61. RESULTS
22. Choice USA                           62. Rural Law Center of NY,
                                          Inc.
23. Church Women United                  63. Safe Horizon
24. College Opportunity to Prepare for   64. Southeast Asia Resource
 Employment (COPE)                        Action Center
25. Communication Workers of America     65. The Miles Foundation
26. Covenant House Washington            66. The Union of American
                                          Hebrew Congregations
27. Family Violence Prevention Fund      67. Unitarian Universalist
                                          Association of Congregations
28. Florida CHAIN (Communications        68. United States Student
 Health Information Action Network)       Association
29. Friends Committee on National        69. Welfare Made A Difference
 Legislation (Quaker)                     Campaign
30. (GROWL) Grass Roots Organizing for   70. Welfare Rights Organizing
 Welfare Leadership                       Coalition
31. Harbor Communities Overcoming        71. Welfare-to-work Advocacy
 Violence (HarborCOV)                     Project
32. Harlem Fight Back                    72. Wider Opportunities for
                                          Women
33. HELP USA                             73. Wisconsin Council on
                                          Children and Families
34. Human Services Coalition of Dade     74. Women and Poverty Public
 County, Inc                              Education Initiative
35. Hunger Action Network of NYS         75. Women's Committee of 100
36. Jewish Family Services               76. Women Employed
37. Jewish Women International           77. Women Empowered Against
                                          Violence, Inc. (WEAVE)
38. Los Angeles Coalition to End Hunger  78. Women's Housing and
 & Homelessness                           Economic Development
                                          Corporation (WHEDCO)
39. Mothers on the Move Committee of     79. Workforce Alliance
 the Philadelphia Unemployment Project
40. National Association of Service and  80. YWCA of the USA
 Conservation Corps
------------------------------------------------------------------------


                                 <F-dash>

    Chairman HERGER. Without objection, and I thank the 
gentlelady from Hawaii. Now the gentleman from Ohio, Mr. 
Kucinich, please.

 STATEMENT OF THE HON. DENNIS J. KUCINICH, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. KUCINICH. I thank the Chair. We agree that we should 
help vulnerable families become economically self-sufficient, 
but differ as to how to help them find and maintain a stable 
living wage job. Many of us also agree that education and other 
services are essential for moving from welfare to work, but we 
need to make good on the rhetoric about obtaining skills and 
pulling oneself up by bootstraps out of poverty instead of 
restricting the opportunity to gain skills and education.
    The work programs that have been proposed would decrease 
State work participation rates to 70 percent and increase the 
number of hours of work per week to 40 hours. It would increase 
the number of activities that count as work for the first 24 
hours, eliminating many programs that help recipients get ready 
to work, like education, training, and rehabilitation. It would 
encourage the workfare programs. Finally, these proposals 
drastically reduce current opportunities under the law to 
pursue education, and limit education and other activities to a 
mere 3 months out of 2 years.
    The Administration's proposals as well as H.R. 4090 and 
H.R. 4092 will not help recipients. I think it will be 
difficult if not impossible for States to implement and could 
be largely counterproductive. First, States, service providers 
and recipients themselves have opposed the provisions that 
encourage workfare programs. H.R. 4090 limits activities that 
count as work to 5 activities from 12 in the current law. It 
eliminates activities that help ensure people are able to work 
and maintain a job. No longer would someone be allowed to 
participate in a program to help him or her overcome physical, 
mental, or learning disability or participate in a training 
program that would help him or her to find a stable, living 
wage job.
    States have responded that they need more flexibility. In 
responding to the National Governors' Association survey, Ohio 
cites activities such as English as a second language, domestic 
violence counseling and support, and substance abuse programs 
as necessary to help move families off TANF support 
permanently.
    Bills which allow 3 months out of 24 for non-work 
activities are wholly inadequate. In my State, Ohio, we would 
have difficulty providing non-work activities in a narrow 3-
month timeframe. There are waiting lists for individuals 
needing vocational education, mental health counseling, or 
substance abuse treatment. Most vocational educational programs 
need more than 3 months to complete, and the 3-month limit is a 
large restriction on good programs. Fewer individuals would be 
able to enroll in programs that would lead to stable 
employment.
    Instead of limiting opportunities for advancement in self-
sufficiency, as H.R. 4090 and H.R. 4092 would, TANF should 
expand these opportunities. Research shows with these 
opportunities, families can stay off public assistance 
permanently. Single female heads of households with a high 
school diploma are 60 percent more likely to have jobs and are 
95 percent more likely to be employed with an associate's 
degree. An associate's degree is a mere 2 years, and that would 
be a ticket to a good job with more adequate benefits. Of the 
top 30 fastest growing occupations, only 5 can be achieved with 
short-term training, and these are the least well compensated. 
Almost every other job requires an associate's degree or 
bachelor's degree.
    Through TANF reauthorization, we should allow recipients to 
pursue education for at least 2 years. We should also lift the 
State cap on those pursuing education. Additionally the hard-
to-serve should be given the opportunity to enroll in 
rehabilitation programs as a work activity to prepare for a 
stable job.
    The harsh limitations imposed by the Majority's bill for 
the pursuit of non-work activities, 16 hours per week and 3 
months per 24 months, are a token effort, and they do not have 
the support of the States. Many States have experienced 
workfare programs, and the experience is not good.
    I want to conclude and submit my whole statement for the 
record, Mr. Chairman, that through the use of a superwaiver, 
the bills under discussion appear to allow the Secretaries to 
waive legal requirements, including minimum wage requirements, 
Occupational Safety and Health Administration (OSHA) standards 
and civil rights regulations. There is no language in the bill 
that would clearly prohibit waivers of these requirements. 
Unfortunately, this would be consistent with the way some 
States have implemented past programs. This has the unfortunate 
effect of making workfare participants undermine other low-
income working people who are not workfare participants. Thus 
TANF workfare provisions, unless they are reformed, create a 
substandardly compensated workforce that displaces existing 
low-wage workers.
    I want to thank the Chair for the opportunity. It is my 
hope that the problems will be addressed during 
reauthorization. The TANF recipients deserve real opportunities 
beyond 16 hours and 3 month restrictions on skill-building 
activities to find stable jobs, and I hope the reauthorization 
will make good on these promises.
    [The prepared statement of Mr. Kucinich follows:]
Statement of the Hon. Dennis J. Kucinich, a Representative in Congress 
                         from the State of Ohio
    Since work seems to be at the center of this debate, I am going to 
limit my testimony to the proposed work programs. We agree that we 
should help vulnerable families become economically self sufficient, 
but differ as to how to help them find and maintain a stable, living 
wage job. Many of us also agree that education and other services are 
essential for moving from welfare to work, but we need to make good on 
the rhetoric about obtaining skills and pulling oneself up by their 
bootstraps out of poverty, instead of restricting the opportunity to 
gain skills and education.
    The work programs that have been proposed would increase state work 
participation rates to 70 percent and increase the number of hours of 
work per week to 40 hours. It would decrease the number of activities 
that count as work for the first 24 hours, eliminating many programs 
that help get recipients ready to work, like education, training, and 
rehabilitation. It would encourage workfare programs. Finally, these 
proposals drastically reduce current opportunities under the law to 
pursue education, and limit education and other activities to a mere 3 
months out of two years.
    I have grave doubts about the possible success of the type of 
program that has been proposed by the Administration, by Mr. Herger in 
HR 4090, and by Mr. McKeon in HR 4092. Not only do I think that these 
proposals will not help recipients, but I think they will be difficult 
if not impossible for states to implement and could be largely 
counterproductive.
    First, states, service providers and recipients themselves have 
opposed the provisions that encourage workfare programs. HR 4090 limits 
activities that count as work to 5 activities, from 12 in the current 
law. It eliminates activities that help ensure people are able to work 
and maintain a job. No longer would someone be allowed to participate 
in a program to help him or her overcome a physical, mental or learning 
disability, or participate in a training program that would help him or 
her to find a stable, living wage job. States have responded that, 
contrary to the limitations placed on the definition of work in HR 4090 
and HR 4092, they need more flexibility. In responding to the National 
Governors Association Survey, Ohio cites activities such as English-as-
a-second language, domestic violence counseling and support, and 
substance abuse programs as necessary to help families move off TANF 
support permanently.
    While Republican bills allow 3 months out of 24 for non-work 
activities, this is wholly inadequate. In my state, Joel Potts, the 
head of the Ohio Department of Jobs and Family Services, stated that 
Ohio would have difficulty providing ``non-work'' activities in the 
narrow 3-month time frame. There are often waiting lists for 
individuals needing vocational education, mental health counseling or 
substance abuse treatment. Also, most vocational education programs 
need more than 3 months to complete, and the 3-month limit is a large 
restriction on good programs. Potts says that it would actually be 
counterproductive because it would mean fewer individuals would be able 
to enroll in programs that would lead to stable employment.
    Instead of limiting opportunities for advancement and self-
sufficiency as in the Herger/McKeon bills, TANF should expand these 
opportunities. Research data shows that with these opportunities, 
families can stay off public assistance permanently. Single female 
heads of households with a high school diploma are 60 percent more 
likely to have jobs, and are 95 percent more likely to be employed with 
an associate's degree. An associate's degree is a mere two years, and 
that could be a ticket to a good job with more than adequate benefits. 
The job market is also growing in areas that demand more skills, not 
surprisingly. The US Bureau of Labor Statistics found that people in 
jobs requiring the least education will experience the lowest 
professional growth, while jobs requiring at least an associate's 
degree will experience a job growth rate of 31 percent over the next 10 
years. Of the top 30 fastest growing occupations, only 5 can be 
achieved with short-term training, and these are the least well 
compensated. Almost every other job requires an associate's degree or 
bachelor's degree.
    During TANF reauthorization, we should allow recipients to pursue 
education for at least 2 years. We should also lift the state cap on 
those pursuing education. Additionally, the hard-to-serve should also 
be given the opportunity to enroll in rehabilitation programs as a work 
activity to prepare for a stable job. The harsh limitations imposed by 
the Republican bills for the pursuit of non-work activities--16 hours 
per week, and 3 months per 24 months--are a token effort. Few 
activities even exist within these timeframes. These limitations do not 
have the support of extensive research and data, and they do not have 
the support of states.
    Second, many states have experience with workfare programs, and the 
experience is not good. States have tried a variety of programs, but 
programs have been unsuccessful. Of 43 states that recently responded 
to a National Governors association survey, 40 reported that they 
currently operate a community service or work experience program (CS/
WEP), or both. Some states reported that CS/WEP programs are simply 
ineffective for preparing recipients for work in the private sector. 
Most programs are operated on a small-scale basis because they are 
expensive, it is difficult to hire supervisors and difficult to develop 
an appropriate work site. The expense is so great, that if states were 
forced to implement proposed work provisions, it would divert resources 
from other initiatives, and cut off other recipients from desperately 
needed services, like training and child well being. The move towards 
workfare would be counterproductive.
    Third, there is the question of ensuring that recipients receive 
the same wage and workforce protections as other workers. The 
Administration's plan specifically states: ``TANF payments to families 
participating in supervised work experience or supervised community 
service are not considered compensation for work performed. Thus, these 
payments do not entitle an individual to a salary or to benefits 
provided under any other provision of law.''
    Through the use of a ``super waiver,'' the Herger and McKeon bills 
appear to allow the Secretaries to waive legal requirements, including 
minimum wage requirements, OSHA standards, and civil rights 
regulations. There is no language in the bill that would clearly 
prohibit waivers of these requirements. Unfortunately, this would be 
consistent with the ways some states have implemented past programs. 
This has the unfortunate effect of making workfare participants 
undermine other low-income, working people who are not workfare 
participants. Thus, TANF workfare provisions, unless they are reformed, 
create a substandardly compensated workforce that displaces existing, 
low wage workers.
    In the largest WEP program in New York, 30,000 municipal jobs were 
displaced with workfare jobs. At least 86 percent of WEP workers that 
were surveyed reported doing the same work as municipal employees.\1\ 
While workfare participants were doing the exact same work as previous 
municipal employees, who received benefits, workfare participants were 
not considered workers, and did not receive the minimum wage and other 
work protections. This should never happen again.
---------------------------------------------------------------------------
    \1\ WEP Work Experience Program: New York City's Public Sector 
Sweat Shop Economy, Community Voices Heard (2000).
---------------------------------------------------------------------------
    This is unacceptable! The solution is this: Workfare participants 
are workers, and they must be guaranteed the higher of the federal 
minimum wage compensation, or their state and local minimum wage. 
Participants must also be guaranteed all protections laid out in the 
Fair Labor Standards Act, the Occupational Safety and Health Act, the 
Civil Rights Act, the Americans with Disabilities Act and the Age 
Discrimination Act and any other federal, state or local worker 
protection laws. In previous court cases, it has been decided that 
volunteers receive such protection, and they should not be lifted for 
workfare participants.
    Moreover, when New York City WEP workers were sexually harassed, 
the Department of Justice, specifically the US Attorney in NY, sued the 
city of New York in May 2001 on their behalf. In bringing that 
litigation, the DOJ has taken the position in court that Title VII, one 
of the main federal employment laws, covers these women. Additionally, 
three different agencies--the Department of Labor, the Equal Employment 
Opportunity Commission, and the Department of Health and Human 
Services--have issued guidance stating, in part, that the full range of 
employment laws and their relevant legal standards should be applied to 
workfare participants just as they would be applied to other workers. 
New TANF proposals should not roll back current laws.
    Assuming my position has the backing of the previous four federal 
agencies, states would face a Catch-22. By paying recipients minimum 
wage, recipients in some states working the mandated 24 hours would 
suddenly be ineligible for TANF. Their earnings would disqualify them. 
So, the Herger bill creates an impossible situation. By mandating a 24-
hour workweek, in a workfare program, people who are eligible for TANF 
would be made INELIGIBLE if they work the 24 hours. Compliance with 
program requirements would actually DISQUALIFY recipients! These 
provisions make it impossible for many states to implement this bill.
    It is my hope that these serious problems are addressed during 
reauthorization. TANF recipients deserve real opportunities beyond 16-
hour and 3-month restrictions on skill building activities to find 
stable jobs, and I hope that reauthorization will make good on these 
promises.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Kucinich. Now the gentleman 
from Massachusetts, Mr. Tierney.

  STATEMENT OF THE HON. JOHN F. TIERNEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. TIERNEY. Thank you, Mr. Chairman, Mr. Cardin, and other 
members. I want to thank you for giving me the opportunity to 
appear before you today to discuss what I think is one of the 
more critical but more overlooked issues that we face in the 
TANF reauthorization, and that is the issue of allowing States 
flexibility through a continuation of existing State waiver 
authority.
    As you know, one of the cornerstones of the Personal 
Responsibility and Work Opportunity Reconciliation Act was to 
increase the flexibility given to States in providing benefits 
through TANF's block grant. This flexibility has produced 
successes beyond what many of us thought could be envisioned, 
and the prospect of future successes appear to be very good. I 
think we have to recognize that what allowed for the success 
and what will continue to allow for success is for States to 
continue to have the option to be innovative and creative in 
the administration of their welfare programs. After all, it was 
States like Massachusetts that implemented welfare reform under 
a 1995 waiver that led the way for other States and served as a 
model for some of the federal statutes in the 1996 law. Indeed, 
if we look at the national data of moving people off of 
welfare, many of the States that received waiver authority have 
been more successful using their programs to help Americans 
achieve independence and self-sufficiency.
    Massachusetts has a waiver that is not scheduled to expire 
until 2005. Using that flexibility in its waiver, Massachusetts 
has focused mandatory work activities on families without major 
identified barriers to work and has succeeded in moving most of 
them into employment. The current case load is barely half of 
what it was before the State welfare program began. However, 
three-quarters of the people that remain are families with 
serious barriers to employment, including their own personal 
disability, the need to care for a disabled family member, and 
the lack of a parent in the home. The waiver gives 
Massachusetts the flexibility to design education, training, 
and other services to help these families achieve economic 
stability.
    We have accomplished a great deal, and yet a great deal 
remains to be done. In Massachusetts we have a plan to 
accomplish our goals, and we need the flexibility of our waiver 
to see that plan through. There are eight other States in a 
position like Massachusetts', and it seems to be a matter of 
fairness that the Federal Government live up to its commitment 
to allow these waivers to continue until their agreed 
expiration date. Moreover, Mr. Chairman and members, I would 
argue that any reauthorization language might include a 
provision that includes States' ability to renew these waivers 
if the States' programs have shown impressive results.
    The Administration's proposal to eliminate all of these 
existing State waivers was disturbing when I read it. However, 
I was more than a little pleased when the Secretary of The U.S. 
Department of Health and Human Services, Secretary Tommy 
Thompson, appeared in front of the Committee on Education and 
Workforce to testify and asked about this provision by me, and 
he told me and the Committee that he was supportive of State 
waivers. In fact, Secretary Thompson mentioned that as Governor 
of Wisconsin he had used waiver authority to create one of the 
most heralded programs in the country. I think he mentioned he 
thought he used it better and more often than anybody else. He 
indicated a willingness to work with us and other members 
concerning this issue. Effectively, my interpretation of what 
the Secretary said was that the State waiver authority 
elimination was not central to the President's plan, and that 
it was indeed negotiable, and that both he and the President 
support State flexibility.
    This is a promising start, and I would like the ability to 
submit to this Committee the exact language of my colloquy with 
the Secretary that is yet to be produced, but should be 
forthcoming in another day or so.
    Chairman HERGER. Without objection.
    [Excerpts from the Committee on Education and the Workforce 
print number 107-54 follows:]

    Mr. Tierney. Thank you, Mr. Chairman. Thank you, Mr. Secretary, for 
being with us today. The Secretary of Massachusetts, as you know, like 
Wisconsin, was one of the states that actually implemented welfare 
reform before the 1996 draft. They did it under a federal waiver as did 
your state.
    Using the flexibility of the waiver, Massachusetts has focused 
mandatory work activities on families without major barriers, and if I 
can follow up on that, they have succeeded to move most of those 
families on to employment.
    In current case loads only half are people that really have serious 
barriers that would include disability, taking care of a family member, 
lack of parent in the house. The waiver gives Massachusetts the 
flexibility to design education or training and other services that 
help the families choose economic stability. We have shown some pretty 
clear successes in Massachusetts. The prospect of future successes was 
very encouraging.
    Tell me why the administration would in this proposal propose 
eliminating that flexibility of TANF?
    Secretary Thompson. Now you are talking about the elimination of 
the existing waivers in the states? We discussed it and we debated it 
back and forth. The only reason was I think Massachusetts, and I'm not 
sure about this, I don't think Massachusetts has much more than a year 
left out of this waiver.
    Mr. Tierney. No, it's got till 2005. It's a 10-year waiver.
    Secretary Thompson. Okay. Most of the states, Congressman, most of 
the states that still have waivers outstanding were going to be 
finished up a by the year after the program and that is the reason 
being. There are very few states like Massachusetts that have longer 
than that.
    Mr. Tierney. I know your friend Governor Dukakis speaks very highly 
of you.
    Secretary Thompson. I think he's a wonderful guy.
    Mr. Tierney. Okay, so you must like his state and so I know you 
wouldn't want to penalize it.
    Secretary Thompson. I like Governor Dukakis. I love your state. I 
love all states.
    Mr. Tierney. It seems incredibly unfair for a state that went 
through the whole process to achieve the waiver that was 10 years and 
anticipated being able to reap that waiver. To now have that ripped out 
from underneath them. Can we work on that? Can you do something?
    Secretary Thompson. Congressman, it is not the main thing to me. If 
you want to work on that, we would love to have you work on it.
    Mr. Tierney. Because I think about nine states it would be very 
important for.
    Secretary Thompson. I think you are right.
    Mr. Tierney. It seems to me that justice . . .
    Secretary Thompson. Just keep the tenth somewhere.
    Mr. Tierney. I would appreciate that. I think it is extremely 
important to Massachusetts. I think you will find a lot of support for 
much of what has been proposed here and I think that since it has been 
so successful, it may make an incredible difference on that.
    That is really the only point I wanted to raise with you and I'm 
very pleased with your answer on that.
    Secretary Thompson. For somebody who loves waivers and worked with 
the waiver system more than any of . . .
    Mr. Tierney. Secretary, I don't want to bring that up because I 
didn't want to sound like a wise guy, but you did work the waiver 
system.
    [Laughter.]
    Mr. Tierney. And I still recognize it in Massachusetts.
    Secretary Thompson. Thank you.
    Mr. Tierney. Thank you. I yield back.

                                 <F-dash>

    Mr. TIERNEY. Thank you, Mr. Chairman. The reauthorization 
legislation that you, along with several of your Committee 
colleagues, recently introduced contains the provisions of 
eliminating the State waiver authority for existing waivers. 
Mr. Chairman, I think in light of Secretary Thompson's comments 
on the issue, and the fact that I suspect that you were trying 
to trail the President's bill and be consistent with that, and 
hopefully don't have your own bias against the waivers, that we 
could be able to reconsider that provision and work together 
with the Secretary, the President, and this Committee. On 
Tuesday you received a letter, Mr. Chairman, from me and 24 
other House Members asking that you do just that, consider 
maintaining the State waiver authority. A copy of the letter I 
have here, and I ask that it be submitted also for the record.
    Chairman HERGER. Without objection.
    [The information follows:]

                                      U.S. House of Representatives
                                               Washington, DC 20515
                                                      April 9, 2002
House Committee on Ways and Means
The Honorable Wally Herger, Chairman
Subcommittee on Human Resources
B-317 Rayburn House Office Building
Washington, DC 20515-6353

    Dear Chairman Herger:

    We are writing to express our strong support for including in 
legislation to reauthorize the TANF program a provision that would 
allow states with pre-existing waivers to continue and renew them at 
state option. The waivers recognize the special role played in welfare 
reform by those states that acted prior to the Federal Government. We 
note with gratitude the statement in a March 12, 2002 Boston Globe 
article that you have indicated that you are open to ``examining how 
well waivers had worked and [that you] might allow some states to 
continue operating under them.''
    As you know, the 1996 welfare reform law allowed states that had 
previously obtained welfare reform waivers to continue implementing 
their own programs pursuant to those waivers. In many states, 
innovative programs operated under these waivers have been successful 
in educating, training and assisting welfare recipients in their 
transition to independence. Particularly given that the purpose of 
moving to TANF block grants was to ``increase the flexibility of 
States'' in operating benefits programs for needy families, we should 
not stifle this innovation and success by eliminating these waivers.
    These waivers have been used in a variety of ways. For instance, in 
Massachusetts, where case loads have declined by more than 50% since 
implementation of welfare reform, the waiver has allowed the state to 
provide exceptions from work requirements and time limits for the 
disabled and caretakers of disabled family members, while affording 
them equal access to employment preparation programs. In other states, 
the waiver has allowed participation in substance abuse treatment 
programs to count toward work participation requirements, thereby 
removing barriers to employment and enabling recipients to move more 
successfully into the world of work. There are many other examples that 
demonstrate the innovative manner in which the states have been able to 
successfully reform their own welfare systems. In fact, this issue is 
so critical to the states that the National Governors' Association 
(NGA) recently adopted a policy position recommending that current 
waivers be continued and renewed. As the NGA stated, ``Restricting this 
flexibility could greatly curtail the progress made in some states' 
welfare reform initiatives.''
    We agree with the NGA and feel that it is imperative that any 
reauthorizing legislation allows for the continuation and renewal of 
pre-existing waivers. It is our sincere hope that you will consider the 
clear benefits that can be directly attributed to state flexibility in 
welfare reform. We look forward to working with you on this important 
issue.
            Sincerely,

                                                    John F. Tierney
                                                          Ed Bryant
                                                   Edward J. Markey
                                                          Zach Wamp
                                                    Michael Capuano
                                                     James P. Moran
                                                   Martin T. Meehan
                                                 Dennis J. Kucinich
                                                    Earl Blumenauer
                                                        Bob Clement
                                                  James P. McGovern
                                                    Robert C. Scott
                                                   William Delahunt
                                                         Tom Sawyer
                                                       Barney Frank
                                              Stephanie Tubbs Jones
                                                   Stephen F. Lynch
                                                     John M. Spratt
                                                    Richard E. Neal
                                                        Bart Gordon
                                                   Neil Abercrombie
                                                      Sherrod Brown
                                                      John W. Olver
                                                   James E. Clyburn
                                                       Rick Boucher

                                 <F-dash>

    Mr. TIERNEY. You will see that it is a bipartisan letter, 
and it is from many of the people from States that are affected 
by that. It is my hope as the Subcommittee moves forward, that 
we will be look to look at this provision and put in the same 
language that Senator Rockefeller has in his Senate version of 
S. 2052 and that allows States to not only continue through the 
end of their waiver period, but to continue that through the 
end of this authorization if their programs are being 
successful.
    Congresswoman Roukema and I have today filed a bill that 
expands on educational opportunities, expands an increase in 
the TANF authorization by the rate of inflation, and provides 
for these waivers. I hope, Mr. Chairman, that we can count on 
you to work with us and other members of this Committee and 
members of those nine total affected States, the Secretary, and 
the President to put the waiver flexibility back in as a matter 
of fairness and a matter of seeing that this program moves 
forward with the best possible results.
    [The prepared statement of Mr. Tierney follows:]
  Statement of the Hon. John F. Tierney, a Representative in Congress 
                    from the State of Massachusetts
    Chairman Herger, Ranking Member Cardin and other Members of the 
Committee,
    Thank you for the opportunity to appear before you today to discuss 
one of the most critical and most overlooked issues facing us as we 
discuss TANF reauthorization. This is the issue of allowing state 
flexibility through continuation of state waiver authority.
    As you know, one of the cornerstones of the Personal Responsibility 
and Work Opportunity Reconciliation Act was to increase the flexibility 
given to states in providing benefits through the TANF block grant. 
This flexibility has produced successes beyond what most of us 
envisioned, and the prospects for future successes remain bright. 
However, we need to recognize that what allowed for this success, and 
what will continue to allow for success, is for states to continue to 
have the options to be innovative and creative in the administering of 
their welfare program. After all, it was states like Massachusetts who 
implemented welfare reform under a 1995 waiver that led the way for 
other states and served as a model for some of the federal statutes in 
the 1996 law. Indeed, if we look at the national data on moving people 
off of welfare, many of the states that received waiver authority have 
been more successful using their programs to help Americans achieve 
independence and self-sufficiency.
    Massachusetts has a waiver that is not scheduled to expire until 
2005. Using the flexibility of its waiver, Massachusetts has focused 
mandatory work activities on families without major identified barriers 
to work and has succeeded in moving most of these families into 
employment. The current case load is barely half of what it was before 
state welfare reform began. However, three-quarters of those remaining 
are families with serious barriers to employment, including:

        <bullet> Disability
        <bullet> the need to care for a disabled family member
        <bullet> and the lack of a parent in the home.

    The waiver gives Massachusetts the flexibility to design education, 
training and other services to help these families achieve economic 
stability.
    We have accomplished a great deal, yet much remains to be done. We 
have a plan in place to accomplish our goals, and we need the 
flexibility of our waiver to see this plan through. There are 8 other 
states in a position like Massachusetts', and it seems to be a matter 
of fairness that the Federal Government live up to its commitment and 
allow these waivers to continue until their agreed upon expiration. 
Moreover, I would argue that any reauthorization language should 
include a provision that allows states to renew their waivers if the 
states' programs have shown impressive results.
    The Administration's proposal to eliminate all existing state 
waivers was clearly disturbing. However, I was very pleased that when I 
questioned Health and Human Services Secretary Tommy Thompson about 
this provision at this week's Education and the Workforce Committee 
hearing, he told the Committee that he was very supportive of state 
waivers.
    In fact, Secretary Thompson mentioned that as Governor of 
Wisconsin, he had used waiver authority to create one of the most 
heralded programs in the country. He indicated a willingness to work 
with me and other members concerned about this issue. Effectively, the 
Secretary said that the state waiver authority elimination was not an 
important aspect of the President's plan, and that it was indeed 
negotiable, as both he and the President support state flexibility. 
This is a promising start.
    Mr. Chairman, the reauthorization legislation that you, along with 
several of your Committee colleagues, recently introduced contains the 
provision of eliminating state waiver authority for existing waivers. 
In light of Secretary Thompson's comments on this issue, and the 
President's support of state flexibility, I am hopeful that we can work 
together and reconsider this provision. On Tuesday, Mr. Chairman, you 
received a letter from me and 24 other House Members asking that you 
consider maintaining the state waiver authority, a copy of which I have 
here and ask that it be submitted for the record. It is my hope that 
this Subcommittee will consider removing this provision while also 
considering permitting states to renew their waiver authority upon 
expiration. Such legislative language can be found in Senator 
Rockefeller's reauthorization bill, S. 2052, and it is my hope that 
this is the language that will be used in any House bill that comes to 
the Floor.
    Throughout this debate, there will undoubtedly be disagreements 
about work requirements, time limits and funding levels. But on this 
issue of state waiver authority, there appears to be little if any 
difference of opinion that state flexibility is advantageous to serving 
our ultimate goal, which is to move people from dependence to self-
sufficiency. Massachusetts has been operating its program since 1995 
and has been successful at reaching this goal. I respectfully request 
that this Committee allow this program, and others like it, to 
continue, and I stand ready to work with members to preserve the state 
waiver authority.

                                 <F-dash>

    Chairman HERGER. I look forward to working with you, Mr. 
Tierney, and the Secretary on this issue. We have been made 
aware of this dilemma. With that, the time has expired. We move 
to the gentleman from New York, Mr. Reynolds.

 STATEMENT OF THE HON. THOMAS M. REYNOLDS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. REYNOLDS. Good afternoon. I would like to begin by 
thanking my colleague, Chairman Wally Herger, and Members of 
the Subcommittee for allowing me to participate in today's 
hearing. I appreciate the graciousness in allowing me to 
testify on my bill, H.R. 844, at this hearing. The task before 
this panel of reforming our welfare system is a challenging 
one, and I have complete confidence that this important work is 
in good hands.
    I also would like to take a moment to welcome State Senator 
Ray Meier, who is from my home State of New York, who will be 
testifying shortly. Senator Meier is currently the Chairman of 
the Committee on Social Services in the Senate and has had 
great success in job creation and getting people to work first 
in his years of public service. He recognizes the freedom and 
independence that jobs provide and has seen the satisfaction in 
people who learn to support themselves and their families.
    As a former county executive, Senator Meier is also in the 
unique position of having administered welfare programs at the 
local level. He gained statewide recognition for his welfare 
reform initiatives to save millions, and I repeat, in New York, 
millions in taxpayer dollars and that were later used as a 
blueprint for statewide reform. I am delighted that he has been 
asked to appear here today and offer his expertise on the 
issue.
    With that, Mr. Chairman, I appear before you to discuss a 
related issue to this discussion. H.R. 844, which would create 
a Supplemental Security Income (SSI) exclusion for those blind 
veterans receiving additional annuity from their State. H.R. 
844 will amend Title XVI of the Social Security Act to provide 
that annuities paid by States to blind veterans shall be 
disregarded in determining Supplemental Security Income 
benefits.
    After World War I, New York, New Jersey, Pennsylvania, and 
Massachusetts wanted to do something to provide extra 
assistance to their States' blind veterans. Since then the 
legislatures of those States have provided a yearly annuity to 
those veterans who sustained a loss of sight resulting from 
their service in any of our theaters of war. Blind veterans in 
New York receive $1,000, New Jersey $750, Pennsylvania $1,800, 
and Massachusetts $1,500. Recently New York and New Jersey 
extended the benefit to eligible surviving spouses.
    These State payments to blind veterans are currently 
counted as a form of unearned income, and since current law 
allows those receiving SSI only $530 of income per month, these 
annuities actually result in an unfair penalty of our blind 
veterans. Worse, since the only people being denied the full 
benefit of this annuity are those on SSI, we are, in fact, 
penalizing the poorest blind veterans in those States. Latest 
statistics show there are a total of only 5,179 blind veterans 
living in these four States.
    The Congressional Budget Office (CBO) estimates the cost of 
this bill at less than $500,000 per year. Additionally, they 
estimate the number of veterans who do not currently qualify 
for SSI because of State annuities but who would qualify under 
this bill would also be very small.
    I need to point out, however, that this estimated fiscal 
impact is misleading since no blind veteran will receive a 
penny more in SSI benefits than they are already entitled. The 
dollar determined by CBO is merely what the Federal Government 
has saved because of the States' annuity. Had these States not 
offered these contributions to these veterans we already would 
have been spending an amount equal to the CBO estimate.
    This bill only asks for fairness to the blind veterans 
living in these four States by disregarding the State annuity 
as unearned income and having the Federal Government pay for 
the full SSI benefit for which they would normally be entitled.
    Additionally, I would like to point out that with the 
exception of Pennsylvania, there has only been one increase to 
the State annuity since World War I, and Pennsylvania has had 
two increases. It is difficult for the States to continually 
increase supplying veteran annuity for obvious budgetary 
reasons. Therefore, there should not be a concern that this 
exclusion will give States any additional incentive to 
repeatedly increase the amount they give blind veterans.
    Mr. Chairman, there have been 46 exclusions made to SSI 
since 1972. I am here today to request one more. I recently 
contacted Social Security Administration (SSA) to seek 
technical comment on H.R. 844. The only change SSA suggested 
was clarification that eligibility for the exclusion be based 
on the State's determination of blindness rather than SSA's. I 
have no problem making that change and welcome any other 
comment from the administration or this Committee.
    These annuities are both well-meaning and well-deserved, 
benefiting those who gave up their sight in service to their 
country. At this time in America's history it is especially 
fitting that we work to improve the lives of those who answer 
our Nation's call.
    In closing, I believe we need to do everything we can to 
help this small group of needy veterans. I am asking the 
Committee's help in achieving that purpose.
    [The prepared statement of Mr. Reynolds follows:]
Statement of the Hon. Thomas M. Reynolds, a Representatives in Congress 
                       from the State of New York
    Good afternoon. I would like to begin by thanking my colleague, 
Chairman Wally Herger for allowing me to participate in today's 
hearing. I appreciate his graciousness in letting me testify on my 
bill, H.R. 844, at this hearing. The task before this panel of 
reforming our welfare system is a challenging one, and I have complete 
confidence that this important work is in good hands.
    With that Mr. Chairman, I appear before you today to discuss a 
related issue--H.R. 844, which would create a Supplemental Security 
Income exclusion for those blind veterans receiving an additional 
annuity from their state. H.R. 844 will amend Title XVI of the Social 
Security Act to provide that annuities paid by States to blind veterans 
shall be disregarded in determining SSI benefits.
    After World War I, New York, New Jersey, Pennsylvania, and 
Massachusetts wanted to do something to provide extra assistance to 
their state's blind veterans. Since then, the legislatures of those 
states have provided a yearly annuity to those veterans who sustained a 
loss of sight resulting from their service in any of our theatres of 
war. Blind veterans in New York receive $1000, New Jersey $750, 
Pennsylvania $1800, and Massachusetts $1500. Recently, New York and New 
Jersey extended that benefit to eligible surviving spouses.
    These state payments to blind veterans are currently counted as a 
form of unearned income; and, since current law allows those receiving 
SSI only $530 in income per month, these annuities actually result in 
an unfair penalty on our blind veterans.
    Worse, since the only people being denied the full benefit of this 
annuity are those on SSI, we are, in fact, penalizing the poorest blind 
veterans in those states.
    Latest statistics show that there are a total of only 5,179 blind 
veterans living in these four states. The Congressional Budget Office 
estimates the cost of this bill at less than $500,000 per year. 
Additionally, they estimate the number of veterans who do not currently 
qualify for SSI because of the state annuities, but who would qualify 
under this bill, to also be very small.
    I need to point out, however, that this estimated fiscal impact is 
misleading, since no blind veteran would receive a penny more in SSI 
benefits than they are already entitled. The dollar amount determined 
by CBO is merely what the Federal Government has saved because of the 
states annuity. Had these states not offered this generous contribution 
to these veterans, we already would have been spending an amount equal 
to the CBO estimate.
    This bill only asks for fairness for the blind veterans living in 
these four states, by disregarding the state annuity as unearned 
income, and having the Federal Government pay them the full SSI benefit 
for which they would normally be entitled.
    Additionally, I would like to point out that with the exception of 
Pennsylvania, there has been only one increase to the state annuities 
since World War I. Pennsylvania has had two increases. It is difficult 
for the states to continually increase the blind veteran annuity for 
obvious budgetary reasons. Therefore, there should not be concern that 
this exclusion will give the states any additional incentive to 
repeatedly increase the amount they give blind veterans.
    Mr. Chairman, there have been 46 exclusions made to SSI since 1972 
and I am here today to request one more. I recently contacted the 
Social Security Administration to seek technical comment on H.R. 844. 
The only change SSA suggested was a clarification that eligibility for 
the exclusion be based on the state's determination of blindness, 
rather than the SSA's. I have no problem making this change and welcome 
any other comment from the Administration, or the committee.
    These annuities are both well-meaning and well-deserved, benefiting 
those who gave up their sight in service to their country. At this time 
in America's history, it is especially fitting that we work to improve 
the lives of those who answered our nation's call.
    In closing, I believe that we need to do everything we can to help 
this small group of needy veterans, and I am asking for this 
committee's help in achieving this purpose. I look forward to your 
comments and the committee's commitment to seeing this important 
legislation passed as soon as possible.
    Again, thank you for allowing me the opportunity to appear before 
you today and I would be happy to answer any questions my colleagues 
may have.

                                 <F-dash>

    Chairman HERGER. I thank you very much for your testimony, 
Mr. Reynolds. With that, the gentleman from Michigan, Mr. 
Levin, to inquire.
    Mr. LEVIN. I just want to say a few words. I wasn't here 
for Mr. Thompson, the Secretary's statement, because I was at a 
meeting with the China Commission. I was hopeful of getting 
here to be able to ask him a few questions and as I understand 
it, he was not able to stay. I want to say something about the 
path of welfare reform in this Subcommittee and in the 
Committee.
    We worked very hard in 1995 and 1996 to shape welfare 
reform, a lot of time, a lot of effort, a lot of disagreements, 
and then eventually some fairly widespread agreement on a bill 
that was sound and I think has basically worked, but leaving a 
lot of challenges ahead. We should be building on that 
legislation and we should be building on it on a bipartisan 
basis. We should be building on it on testimony from all of you 
that doesn't occur at 3 o'clock or later than that on a 
Thursday after we have adjourned this House of Representatives. 
The result will be that my colleagues, that most of us will be 
leaving for constituent obligations and will be left to read 
your testimony later on.
    There has been no real effort on a bipartisan basis in this 
Subcommittee to try to put together the differences of opinion 
and the similarities. There has been no real such effort, and I 
deeply regret it, and I think that it is a serious mistake.
    I just want to finish by reiterating, welfare reform has 
had enough successes as well as leaving enough challenges that 
we should be working together to build on that. Instead, what 
is going to happen is this testimony will be given to 
essentially an empty House and then we will mark up a bill next 
week without any effort to try to work out differences between 
Democrats and Republicans. That has been the decision of the 
majority. It is a mistake. It sells short welfare reform, it 
sells short the need to build on the successes and to meet the 
challenges ahead. I deeply regret it.
    Chairman HERGER. I thank the gentleman for his comments. I 
might mention that Secretary Thompson has been here twice 
before. He did mention that he did need to leave. Also, this 
hearing has been down for the last 2 weeks. We have had a busy 
schedule.
    With that, I would like to notify all our members that 
there are expected to be two votes on the Floor. We will go and 
vote and return as soon as possible. In the meantime the 
hearing stands in recess.
    [Recess.]
    Chairman HERGER. The Subcommittee on Human Resources will 
come to order. If we could have everyone take their seats, 
please, and with that we will have the gentlelady from Ohio, 
the Honorable Marcy Kaptur, testify, please.

    STATEMENT OF THE HON. MARCY KAPTUR, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. KAPTUR. Thank you, Chairman Herger, very much for this 
courtesy, Ranking Member Cardin, Congressman English, and all 
the Members of the Subcommittee. Let me just acknowledge in the 
audience, citizens of our country who have been so helpful to 
my district. Gerry Jensen of Association for Children for 
Enforcement of Support, Inc, (ACES), who will be testifying 
later; Sister Rochelle Friedman from the Mercy Sisters and 
McCauley Institute, and Lisa Hamler Madelski from Second 
Harvest Food Banks in Ohio.
    I know the time is limited, Mr. Chairman, and I very 
quickly will go through a few important issues. First of all, 
as you reauthorize TANF, thank you for allowing members to 
testify. We can bring our experience to bear from our 
respective regions of the country. There are three principles I 
would strongly urge the Committee to consider as it 
reauthorizes TANF this year. First of all, in terms of goals, 
that family self-sufficiency, not merely case load reduction, 
should be a goal of the TANF program. Second, that a strong 
emphasis should be on careers and the development of careers, 
not job placement alone. Thirdly, that the issue of 
supplantation must be addressed during the reauthorization of 
the TANF program. The TANF dollars should not be diverted by 
State governments for other purposes.
    Very quickly, I am going to go through each issue in a 
little more detail, if I might, and offer my strong support for 
H.R. 3625 and H.R. 3113, introduced by Representatives Cardin 
and Mink respectively. Both reauthorization bills deal with one 
of the issues I want to talk about, and that is reporting 
requirements. We will be submitting for the record the best 
figures I can provide for the State of Ohio detailing federal 
funds appropriated for the TANF program. Frankly, next week I 
am going to be asking the U.S. General Accounting Office to do 
an audit of the federal TANF dollars that have been 
appropriated to the State of Ohio. As the Representative from 
the 9th District of Ohio, I cannot ascertain how dollars have 
been spent by our State, particularly in our region.
    For example, aside from TANF, looking at Welfare-to-Work, 
years ago our State should have received $86 million, which it 
forfeited to the Federal Government, costing my region $9 
million that could have been spent in important efforts to work 
with those attempting to move from welfare to work. We have a 
backlog in Ohio of over $722 million in unexpended TANF funds, 
and in terms of the Workforce Investment Act, which is 
administered through the U.S. Department of Labor (DOL), I can 
tell you that Ohio has failed to comply with numerous 
provisions of the program. It is very difficult to represent a 
region that has people coming off the welfare rolls, and has a 
high unemployment rate, and not be able to use the dollars that 
I vote for. Frankly, our State cannot tell me where the dollars 
are.
    So, my first request would be for very strong reporting 
requirements and that if a State, Mr. Chairman, does not spend 
its money, give our region, give our municipalities or our 
counties the right to spend the money because the money I vote 
for does not come back to my home county and, frankly, I am 
angry. I am outraged about it because we have had lots of 
shake-outs in the steel industry and the auto industry. What is 
happening is absolutely wrong.
    On the education front let me make a strong plea to you to 
find ways to permit people to access additional job training. 
Some of the requirements that limit job training to a year, and 
allow only 30 percent of the case load in any given State to 
access education really doesn't work for us in Ohio.
    For example, there is a woman in my district who has been 
working on her bachelor's degree for the past 4 years, and due 
to family circumstances she applied for cash assistance last 
year. She has one semester left before she will receive her 
bachelor's degree, but she has reached the 1-year time limit 
that she can participate in educational activities. The time 
limits that are in the current bill don't make sense in terms 
of what is actually happening on the ground. So, I would make a 
plea on the education front.
    Finally, let me just say that in terms of supplantation of 
a State, and this is where I think the audit is important in a 
State like Ohio, even though the welfare rolls are going down, 
what we are finding is a corresponding increase in our food 
banks and our feeding kitchens. For example, in one of our food 
banks last year we averaged 50 families per week. This year we 
are averaging 250 families per week. In fact, I had to be 
involved in a special food drive in my district over Christmas 
and the New Year's trying to collect food because we just have 
too many people falling between the cracks.
    So, I would just urge you to take a look at this issue 
where States might be using the dollars for other purposes. In 
fact, there was one story that said in one of our counties that 
somebody bought an ambulance or police car with TANF dollars. 
We should not allow States to divert TANF dollars for other 
purposes.
    So, that is essentially the recommendations that I can 
offer in 5 minutes. If you have any questions, I would be more 
than happy to answer them, and I commend Congressman Cardin for 
his great leadership on this Committee along with the Chairman 
in trying to do what is right in all regions of this country. 
Thank you.
    [The prepared statement of Ms. Kaptur follows:]
 Statement of the Hon. Marcy Kaptur, a Representative in Congress from 
                           the State of Ohio
Introduction
    Chairman Herger, thank you for the opportunity to speak before the 
Subcommittee this afternoon. Reauthorization of the Temporary 
Assistance for Needy Families (TANF) program is one of the most 
important pieces of legislation that will come before Congress this 
session.
    In 1996 the Personal Responsibility and Work Opportunity 
Reconciliation Act (PRWORA) significantly changed federal welfare 
policy. During the past five years we have heard success stories about 
the program and there has been evidence to substantiate needed change 
in various aspects of the program. During reauthorization of TANF I 
hope that the program will be strengthened.
    As Representative of Ohio's 9th District, I wish to share with the 
Subcommittee my concerns regarding two important issues. First, the 
need for adequate reporting requirements for states. Second, the 
importance of access to education and training programs for welfare 
recipients and individuals attempting to leave the welfare rolls.
Reporting Requirements
    Currently, states are required under law to report information 
about their programs in biennial TANF state plans and annual reports to 
document accurately information regarding individuals and families 
receiving assistance. However, comprehensive information on state 
program rules is not required, nor is information on individuals after 
they leave the welfare rolls.
    For the past few months I have attempted to review comprehensive 
information to document how TANF dollars that I have voted for 
constituents in my district to receive are being spent in the state of 
Ohio. However, I have been told that reports of this nature do not 
exist. I have also questioned how citizens in my state are faring after 
they leave the welfare rolls. However, I have been told that reports of 
this nature do not exist. I am aware of the statistics that report 
families on assistance in Ohio fell 59 percent from 1994 through mid 
2001, more than the national average of 53 percent. However, this data 
does not tell me how TANF dollars are being spent in the state of Ohio 
and how constituents in my district are faring after they leave the 
welfare rolls. Are welfare recipients getting good jobs? Are they 
escaping poverty? Unfortunately, we do not know the answers to these 
questions. The 1996 welfare law concentrated on case load reduction. In 
turn, the case loads have successfully dropped across the country. 
Unfortunately, we have neglected to question how people leaving the 
welfare rolls are faring.
    I support the state reporting requirements that are proposed in 
Congressman Benjamin Cardin and Congresswoman Patsy Mink's bills to 
reauthorize the TANF program. The lack of detailed reporting 
requirements over the past five years has been a major barrier. 
Adequate state reporting requirements will allow states to serve 
citizens better and allow Congress to implement consistent public 
policy.
    In 1996 the emphasis of federal welfare policy was shifted to a 
``work first approach,'' making it difficult for welfare recipients to 
pursue a post-secondary education. Currently, TANF provides limited 
access to postsecondary education opportunities. TANF law allows 
welfare recipients to participate in up to 12 months of vocational 
training and many post-secondary programs directly related to 
employment to count toward the work requirement. However, only 30% of a 
state's welfare case load can be engaged in education and training 
programs at any given time.
Education and Training
    Education and training programs are essential to lifting welfare 
recipients out of poverty and into livable wage jobs. Expanded 
education opportunities could enable TANF recipients to prepare for and 
find better paying and more stable jobs. Unemployment is at its highest 
rate in seven years and mass layoffs affected more than 2.5 million 
persons in 2001. In my home state of Ohio almost 26,000 jobs have been 
lost since January 2001. Skills training and continuing education are 
crucial links to good jobs that lead to self-sufficiency. Census data 
consistently show that people with higher educational attainment have 
higher median earnings, and several studies show that individuals with 
higher skills earn more and work more overtime.
    According to a 2001 survey by the US Chamber of Commerce's Center 
for Workforce Preparation, two-thirds of employers report severe 
conditions when trying to hire qualified workers and one third say 
applicants are poorly skilled or have the wrong skills for available 
jobs. Ninety-four percent of Americans support expanding job training 
programs, according to a joint survey on poverty in America released in 
April 2001 by National Public Radio, the Kaiser Family Foundation, and 
the John F. Kennedy School of Government at Harvard University.
    Congress should increase access to post-secondary education. The 
limit on the number of months an individual may participate in post-
secondary education should be expanded, and a range of education and 
training activities, including post secondary education, should count 
as work activities so recipients who need training are not restricted 
from receiving it. I support the language that addresses the need to 
expand access of post-secondary education to welfare recipients in 
Congressman Cardin and Congresswoman Mink's TANF reauthorization bills.
    Mr. Chairman. Thank you again for the opportunity to testify before 
the Subcommittee. I am hopeful that during the next few months members 
will actively participate in a open dialogue on important issues that 
must be raised during reauthorization of the TANF program, and produce 
a final bill that will strengthen our nation's welfare policy.

                                 <F-dash>

    Chairman HERGER. I thank the gentlelady for her testimony. 
With that I will turn to the Ranking Member, Mr. Cardin.
    Mr. CARDIN. Thank you, Mr. Chairman. Marcy, thank you for 
your comments. I think you are right on target. First, we need 
to have more information than we have today, and you are right 
on target there.
    I appreciate your underscoring the importance of training 
and good jobs for people so they can move up the career ladder, 
reducing poverty, and supplanting of funds. That is one of the 
issues that we haven't talked much about in this Committee, and 
I think you are absolutely right. It has been rough for the 
States, but it has been particularly rough for poverty programs 
as we have seen a lot of the federal funds being supplanted and 
the local funds being supplanted.
    So, I congratulate you on the issues that you have raised, 
but we would be well-served if we respond to each of those 
points. I think the administration's proposal to each one of 
these areas could use improvement, and I very much appreciate 
your leadership and your testimony.
    Ms. KAPTUR. I thank you, Mr. Chairman and Ranking Member 
Cardin. Let me just mention that the supplantation issue in a 
State like Ohio, some dollars were diverted to Head Start, but 
then TANF rules were imposed on Head Start and certain program 
characteristics were altered in Head Start, and then if that 
TANF money is withdrawn because TANF is a temporary program, 
Head Start a permanent program, we run into some problems 
there. So, I think you have to really look at how this TANF 
program is affecting other aspects of federal programs that are 
assisting our States.
    I did forget to mention one point, and that is in the 
housing arena. As you look at TANF, I would strongly recommend 
as a Member of the Subcommittee on Housing and Urban 
Development Appropriation that you look at treating housing 
provided with TANF and State maintenance of effort funds in the 
same manner as other work supports are provided, such as child 
care. I am very worried and I am sure other members have 
testified about our worry about child care dollars and what is 
happening at the State levels, and the maintenance of child 
care assistance even to people who have moved into the 
workforce in these $6 an hour jobs, without the child care they 
can't stay in the workforce.
    I would hope that and I know this Committee is capable of 
calling the States to a very high effort so we are not having 
more and more people coming into our food banks but they are 
actually able to be in the workforce and in our colleges and 
universities gaining career skills that will last a lifetime.
    Chairman HERGER. I thank the gentlelady from Ohio, Ms. 
Kaptur.
    Ms. KAPTUR. Thank you so much.
    Chairman HERGER. Thank you very much for your very good 
testimony and all the members that have testified. With that we 
will call our next panel, panel 3, the Honorable Raymond Meier, 
New York State Senator, on behalf of the National Conference of 
State Legislatures (NCSL), and to introduce our next panelist, 
I turn to my colleague from Maryland, Mr. Cardin.
    Mr. CARDIN. Thank you, Mr. Chairman. It is a real pleasure 
to welcome my Mayor to the Committee on Ways and Means, Martin 
O'Malley. Martin, the dynamic Mayor of Baltimore City, has done 
a superb job in a rather short period of time in restoring a 
lot of confidence in city government.
    Mr. Chairman, let me just tell you about one of his 
programs in CitiStat. I have had a chance to watch it where he 
brings agency heads in and goes over on a very regular basis 
how public funds are being spent and whether we were achieving 
the objectives that are set out. I can tell you that in 
Baltimore City's case every dollar of federal funds that are 
received are being carefully watched and carefully used, and 
that is why it is always a pleasure to support my Mayor's 
request for additional federal funds. It is nice to have you 
here, Mr. Mayor.
    Mr. O'MALLEY. Thank you very much, Congressman, Mr. 
Chairman.
    Chairman HERGER. Thank you. With that, we ask Senator Meier 
to testify, please.

   STATEMENT OF THE HON. RAYMOND MEIER, SENATOR, AND CHAIR, 
  COMMITTEE ON SOCIAL SERVICES, NEW YORK SENATE, ALBANY, NEW 
 YORK; AND CHAIR, HUMAN SERVICES COMMITTEE, AND CO-CHAIR, TASK 
FORCE ON WELFARE REFORM REAUTHORIZATION, NATIONAL CONFERENCE OF 
                       STATE LEGISLATURES

    Mr. MEIER. Thank you, Mr. Chairman, and thank you, 
distinguished Members of the Subcommittee, for giving me the 
opportunity to testify.
    The 1996 Welfare Reform Act was clearly one of the most 
significant pieces of legislation in the last 50 years. It 
dramatically changed the lives of people on welfare. The 
difference quite clearly was the emphasis on work and moving 
people to independence. One of the keys to this was we worked 
as your partners in the States, and we are here today to ask to 
continue that partnership on the same cooperative basis.
    We find much of this very encouraging, Mr. Chairman, in 
your proposal, full funding, continuance of supplemental 
grants, observance of State flexibility, no mandates, no 
earmarks. We are particularly heartened that you have 
approached differently the two-parent work rule.
    Having said all of that, let me address some concerns that 
we have, and we do have some concerns with the work 
participation changes. Let me hasten to add that we understand 
work is the foundation of the success of welfare reform and we 
want to continue that, but let me give you some specifics.
    First, we believe the 58-percent figure, 58 percent on 
public assistance not performing any work at all, is an 
incorrect figure. The federal statistics undercount those who 
are engaged in meaningful and real activity. English as a 
second language classes, basic literacy classes, job search--
none of those things count. In New York if you pull out the 
people who are legally exempt because of hardship, count the 
folks who are in real activity such as the one I mentioned or 
in work or in some combination, we are at 70 percent.
    Secondly, current law and the proposed law does not give us 
credit for the people we divert, for the people we keep off the 
welfare rolls. I can tell you about a lady I met 10 years ago, 
when I was a county executive, who said to me--a public 
assistance recipient--``You know, I came to you people and all 
I needed was a car that ran and decent child care for my 
daughter and instead you put me on welfare.'' The current TANF 
legislation permits us to address those concerns without making 
her a part of the case load to make sure she is never on it.
    The more stringent work requirements, the 70 percent, the 
40 hours broken down into 24 and 16 coupled with a restrictive 
definition of work I believe causes some concern that we need 
to think about. I believe it could drain TANF dollars away from 
programs that are designed to move and keep people in work, in 
private sector unsubsidized employment, real jobs.
    In New York we use TANF to fund an Invest Program, we call 
it. It is an on-the-job training kind of program. We use the 
earned income tax credit (EITC) on a State level to reward 
work. We use child support and transportation to make work 
possible. If the new rules, which are somewhat inflexible in 
terms of how work is defined, come into place, we could have a 
diversion of this money away from subsidizing folks who are 
working, making work profitable and desirable for them, and we 
could particularly have a diversion away from the child support 
necessary to support that kind of work.
    Now, ironically one of the things I have done as Chairman 
of the Senate Committee on Social Services is to oppose schemes 
that would drain hundreds of millions of TANF dollars to create 
subsidized public employment or, as I prefer to call it, Son of 
Comprehensive Employment Training Program, and I don't think 
any of us, Mr. Chairman and members, want to go back to those 
thrilling days of yesteryear.
    One of the other things I would point out, one of the 
problems with the split before 24 and 16, you have got to get 
the 24 hours of strictly defined work before you can get credit 
for anything. We have some people who need basic English 
facility, who need some things before they can do anything at 
all.
    Mr. Chairman, in your very excellent article in the 
Washington Times, you mentioned the case of a heroic young 
woman named Pang, who worked part-time as a seamstress. If 
part-time was 20 hours, that 20 hours wouldn't have counted 
because she couldn't hit 24, and therefore the time that she 
spent as a Laotian doing the very difficult work of learning 
English wouldn't have counted either.
    We are not saying that people should not be required to 
perform something when they are receiving benefits. What we are 
saying is this. We have been your partners, trust us. The way 
this system works, it is block granted, the money is limited 
and the time is limited. It is not to our advantage to pad 
these rolls. If the rolls grow, if the economy goes down, we 
will take the hit. We want to work with you as your partners. 
All we ask for is some flexibility to decide on a case-by-case 
basis what should be moved up front to enable people to receive 
sustained employment, the kinds of employment where they can 
move on to economic productivity. I would be happy when the 
Chair is ready to receive questions.
    [The prepared statement of Mr. Meier follows:]
    Statement of the Hon. Raymond Meier, Chair, Committee on Social 
 Services, New York State Senate; Chair, Human Services Committee, and 
   Co-Chair, Task Force on Welfare Reform Reauthorization, National 
                    Conference of State Legislatures
    Chairman Herger, Ranking Member Cardin and Members of the Human 
Resources Subcommittee, I am Senator Ray Meier of New York. I chair the 
Committee on Social Services in the New York State Senate. I am 
testifying here today on behalf of the National Conference of State 
Legislatures (NCSL), where I serve as the Chair of the Human Services 
Committee as well as co-chair NCSL's Task Force on Welfare Reform 
Reauthorization. NCSL is the bipartisan organization that serves the 
legislators and staff of the states, commonwealths and territories.
    Mr. Chairman, as key stakeholders in welfare reform, state 
legislators are reviewing your efforts to reauthorize the historic 1996 
welfare reform law very closely. NCSL supported the law in 1996. 
Enacting and implementing welfare reform was accomplished in 
partnership with state government; our hope is that reauthorization 
will continue this partnership built on flexibility, not mandates. 
State legislators are responsible for writing, financing and 
implementing laws governing the TANF program in their states, for 
overseeing the programs in their states, and for appropriating TANF and 
Maintenance of Effort (MOE) funds. Our choices and successes offer the 
Federal Government a chance to learn what really works to help 
struggling families, just as the Federal Government drew on state 
efforts to reform welfare in crafting the 1996 law.
    Last year, NCSL created a task force on welfare reauthorization 
that I co-chair with Assemblywoman Dion Aroner of California. This 
bipartisan group of 36 legislators and staff developed NCSL's positions 
that were adopted by NCSL's Executive Committee at its February 
meeting. We have learned a great deal about the successes and remaining 
challenges of welfare reform and the creativity and enthusiasm of 
government, for-profit, not-for profit and faith-based and community 
organizations in serving these families. Federal law should help foster 
this creativity and not stifle this enthusiasm.
    As states have transformed the nation's welfare system to better 
serve local needs and different populations, our nation's state 
legislatures have made different choices. States have crafted different 
approaches that respond better to local economies. Many states further 
devolved policymaking responsibility to localities, as my own state of 
New York did. State legislatures' diverse policy choices and funding 
decisions mean that any further changes in the program may impact 
states in different ways.
    Like you, I work in an environment where bipartisan compromise is 
necessary because control of the chambers is divided by party. Like the 
U.S., the state of New York has urban and rural areas that have unique 
sets of needs. My own district, which includes large rural areas, is 
vastly different from New York City. The most exciting thing about TANF 
is that we can tailor our programs to best serve the needs of very 
different places. The Federal Government devolved policymaking 
authority to the states. In New York, we have taken this policy even 
further by giving some policymaking authority to our 58 counties so 
they can tailor programs even further to local needs.
    As the County Executive of Oneida County ten years ago, I was 
involved in welfare reform before the passage of the federal welfare 
reform law in 1996. I instituted a program with federal and state 
waivers requiring and supporting work and eliminating barriers to 
employment by welfare recipients. I have furthered these efforts in the 
state legislature as chairman of the Senate Social Services Committee. 
A job provides freedom, independence and the ability to support oneself 
and one's family. Welfare reform has made employment possible for 
millions of families and helped give people the freedom to make a 
better life for themselves.
    Our work is not done. While case loads have declined dramatically, 
many families struggle with barriers to self-sufficiency. Mental 
illness, substance abuse, physical challenges, low literacy, limited 
English proficiency, domestic violence, and learning disabilities are 
among the challenges faced by our clients, especially long-term 
recipients. Given the declining economy and the impact of the tragic 
events of September 11th on industries that have traditionally hired 
former welfare recipients, special attention is needed to ensure that 
there are no adverse unintended consequences in reauthorization. State 
legislators also believe that welfare reform is an ongoing process of 
sustaining the work effort of former welfare recipients. This includes 
services that support job placement, retention and advancement to 
prevent welfare recidivism and improve the lives of children and 
families. Our work has also focused on welfare prevention strategies 
including teen pregnancy prevention, noncustodial parents and 
fatherhood programs, promoting marriage and other family formation 
strategies.
    I participated in the listening sessions held by HHS to hear the 
views of state policymakers. I appreciated the sincere effort the 
Administration made to listen to our experience in the states. The 
President's welfare reform proposal reflects an effort to resolve many 
issues that were raised by state legislators in these sessions and will 
increase state flexibility. Unfortunately, less attention has been paid 
to these helpful provisions because the proposal also adds new 
requirements with no additional funding, resulting in less flexibility 
for the states. In particular, the President's work rates proposal will 
force states to concentrate their efforts on those receiving cash 
assistance. This will force states to reallocate TANF funding away from 
creative and innovative services to fund these new efforts, and will 
exacerbate the difficulties states face in providing child care to 
those on welfare and poor working families including former welfare 
recipients since no new child care funds are included.
FUNDING
    States and territories have used the flexibility in the TANF 
program to fund services such as expanded child care, substance abuse 
treatment, pre-kindergarten classes, training to help parents get 
better jobs and after school programs aimed at reducing teen pregnancy. 
In FY2000, only 50% of TANF was spent on cash assistance. 20% was spent 
on child care and the remainder was spent on other services.
    The TANF program today serves a very different population than the 
AFDC program at its inception in the 1930s. People accessing our 
services are no longer widows and most children on welfare are not 
orphans. Most women work outside the home and our economy has changed 
the type of job opportunities available to low-skilled workers. The 
case load for cash assistance has declined nearly 60% nationally since 
passage of PRWORA; however, as we provide increasing support to ensure 
job retention and advancement as well as services for children and 
families, the total case load receiving services has increased. This is 
why continued full funding is critical.
    We appreciate that both the Administration's proposal and your own 
legislation, Chairman Herger, do not cut the block grant but maintain 
the commitment to fully funding the block grant. We also appreciate 
that the TANF supplemental grants are continued and that the 
contingency fund, which provides federal cost sharing in an economic 
downturn is reinstated. However, the contingency fund should have a 
less restrictive trigger mechanism and less complicated requirements 
for state participation than the contingency fund in the 1996 law. I 
urge you to construct the reconciliation and maintenance of effort 
provisions so that needy states can have greater access to the fund.
FINANCIAL FLEXIBILITY
    In addition, the administration's proposal continues the financial 
flexibility of the block grant structure. We are pleased that the 
Administration rejected pressures to earmark the block grant. NCSL will 
oppose any effort to earmark the TANF block grant as a limitation on 
critical flexibility and antithetical to the notion of devolution. Mr. 
Chairman, there are a number of provisions included in the President's 
proposal and your legislation that would enhance the financial 
flexibility for the TANF program. These items reflect concerns raised 
in the listening sessions by myself and my colleagues in the nation's 
state legislatures. First, restrictions are lifted from TANF that is 
carried-over from the previous fiscal year so it can be spent as 
flexibly as current year TANF, not limited to funding only time-limited 
assistance for basic needs. The administration promotes changes so 
states get ``credit'' for rainy day funds when we appropriate the funds 
for that purpose and your legislation mirrors this. Currently, states 
are discouraged from maintaining their own contingency funds because 
such funds remain in the federal treasury and are considered 
unobligated, thus making it appear that those funds are not needed or 
not allocated for any purpose. We appreciate your recognition that 
state rainy day TANF funds as a legitimate use of TANF block grant 
funds is consistent with state budgeting principles. We especially 
appreciate that the current artificial distinction on the treatment of 
child care and work supports for the employed and unemployed is removed 
in the President's proposal. Currently, time limits are triggered for 
the unemployed using these services while they search for a job.
WORK
    Mr. Chairman, state legislators believe strongly in the value of 
work. In fact, states changed their welfare programs into programs that 
require and support work using waivers before the Federal Government 
acted. 48 states operated their welfare programs under these waivers 
before 1996. The rigid rules of the old AFDC program actually prevented 
programs from implementing strategies to help welfare recipients become 
self-sufficient. For every dollar earned, welfare recipients lost a 
dollar in benefits. Poor people can do the math. If we make it 
advantageous to go to work and provide support to those confronting 
tough challenges, parents will work. We supported the federal bill in 
1996 because we recognized that the old system had trapped too many 
families in poverty by not having any expectation that individuals work 
or make themselves ready to work.
    States are strongly committed to the work first focus of TANF. 
Federal constraints will compromise our ability to allocate our 
resources to best serve individual recipients. Major changes in the 
current requirements could upend state spending decisions. We have 
learned that different strategies are needed for clients who have very 
different barriers to work. We also believe that part-time employment 
with some support is better than no employment, and feel that states 
should be able to count all recipient work effort. We value job 
retention and advancement efforts. These supports are critical for 
long-term self-sufficiency and truly represent the next phase of 
welfare reform. States are best suited to decide what work activities a 
recipient can perform. We know we must work quickly to get recipients 
into the workforce. After all, TANF is a time limited program, with a 
60 month lifetime limit on benefits.
    In my own state of New York, labor participation rose in the years 
following welfare reform with the largest increases occurring in groups 
most likely to use welfare; for example, single mothers. Between 1994 
and 2000, work rates for never-married single mothers increased from 
40.6% to 60.8%, an increase of 50% in just five years.
    Mr. Chairman, we have targeted TANF resources toward supporting 
families who are in the workforce. New York provides a package of work 
supports that include child care subsidies, EITC, Child Health Plus, 
Medicaid, housing and transportation along with administrative changes 
that increased child support collections. New York has a very generous 
state earned income credit. The average state and federal credit was 
$1,849, for the most recent year in which statistics are available.
    Mr. Chairman, New York's combined impact of increased supports make 
a difference. For a working mother with two children holding down a $6 
an hour job, food stamps and the EITC boost her income well above what 
she'd get in welfare and move her above the federal poverty level. And, 
if we give her help with her child care bills and get her the child 
support she is due, this will further boost her family income. 
Unfortunately, with higher work participation rates and an increase 
from 30 to 40 hours per week, the New York legislature will be forced 
to reallocate funds from these supports. States like mine are facing 
our own budget deficits--in fact, 45 states and the District of 
Columbia have budget shortfalls--and cannot make up the difference with 
state funds.
    Mr. Chairman, it is very misleading to think that because of the 
case load reduction credit, states are not requiring recipients to 
undertake productive activities. The current case load dropped 
dramatically, 63% in New York, from January 1995 through December 2001. 
This was beyond our wildest expectation. No one predicted so many 
families would leave public assistance. Many are still receiving TANF 
funded service but are no longer receiving cash. The so-called 
``effective'' work rate doesn't reflect state efforts at putting people 
to work at all. It has been a longstanding policy of NCSL to support a 
measure that gives us credit for putting people to work or keeping them 
from going on welfare in the first place. We have supported giving 
credit to the states for case load reduction and are intrigued by your 
proposal that would maintain the case load reduction credit, but change 
the baseline year. We will need to examine the implications further. 
However, if the case load reduction were to be removed or limited, an 
employment credit would more accurately reflect the accomplishments of 
the TANF program.
    Federal statistics about the number of recipients receiving cash 
who are working under-represent the number of mothers and fathers 
actively engaged in preparing themselves for life without cash 
assistance. Under current rules the Federal Government does not collect 
this information. Half of the states don't report activities that don't 
count under the federal definition of activities that count toward the 
work participation rate, including job preparation. Activities that 
represent critical steps to self-sufficiency, such as drug treatment, 
do not count. In New York, about 50% of adults receiving TANF cash 
assistance are either in a work training activity or actual employment. 
If exempt adults are removed from the equation, then 70% of nonexempt 
adults receiving cash assistance are engaged in some level of training 
or employment. The remainder are mostly in the process of being 
assessed and assigned to work activities or sanctioned for 
noncompliance.
    Unless they work for the full 30 hours, recipient work efforts 
cannot be included under current rules. If we value part time work, all 
hours worked should count. If a recipient who never worked or a victim 
whose batterer had prevented her from working outside the home is able 
to work 15-20 hours a week, that's a success to be built on. They also 
miss the families we have exempted from work--notably parents caring 
for a disabled child--and it's worth noting that these families are at 
high risk of divorce and dissolution, contrary to our shared goal of 
promoting marriage and family formation. In New York state, 26% of the 
adults exempted were exempt due to caretaker status of a child under 12 
months or as a caretaker of an incapacitated individual; 33% were 
exempt due to long-term disability which could make them SSI eligible; 
and 28% were exempt because of short-term disability.
    Current law and the President's proposal don't give us credit for 
those we help who never touch cash assistance and are diverted from the 
welfare system. I am proud of our TANF funded Wheels to Work Program 
that helps families with their transportation needs without making them 
go on welfare. Let me give you an example of how it helped one 
individual, a grandmother in the rural part of Dutchess County raising 
her deceased daughters' three kids. She has an $8 an hour job at Wal-
Mart. To get to work, she had to spend $8 on taxi fare each way--in 
other words, two hours of her earnings every day were consumed by 
transportation. Our Wheels for Work program helped her buy a car. Now 
that's an example of how we can wisely use our TANF resources to give 
an individual the freedom to make a better life for themselves and 
avoid cash assistance. I would hate to see innovations like these 
stifled.
    As I said before, the TANF program has given each state the freedom 
to respond to its own unique set of needs and circumstances. What 
troubles state legislators about the President's plan is not that it 
focuses on work--let me repeat that state welfare programs have honored 
and rewarded work--but that it will force states to establish community 
work programs for those on the rolls at the expense of those who have 
left or have never been on the rolls. If new and inflexible work 
requirements are added to the program, states, constrained by the fixed 
sum of money available from the block grant and their own economic 
difficulties, will be forced to cut back on other TANF funded programs 
that support work. Programs that could be cut include programs like our 
INVEST program which provides on-the-job training help for employers 
hiring welfare recipients and programs that prevent welfare dependency 
in the first place, such as after school programs to prevent teen 
pregnancy. Instead, states will have to fund an administration 
structure to create slots and monitor activities to meet the work 
participation rates. To do otherwise would leave states vulnerable to 
substantial fiscal penalties--losing 5% of TANF block grant, 
backfilling this penalty with state dollars and an increase in 5% for 
the state maintenance of effort requirement.
    While my state has experience with workfare program, few other 
states have chosen this approach. We have permitted each county to make 
their own decision--and while workfare is used in some locations, 
notably New York City, this has not proven to be a useful strategy in 
more suburban and rural counties. My own attitude is that everyone who 
is able should give some work effort back to the community while they 
are receiving public assistance. Still, a welfare recipient who we 
require to perform public service such as cleaning public parks is 
still on welfare. If our goals are personal and economic independence, 
then the place to find them is where Americans have historically found 
them, in private sector employment. The majority of states have focused 
on getting welfare recipients into unsubsidized jobs in the private 
sector--a proven strategy to increase earnings, promote family 
stability and end the cycle of dependence. States have succeeded with 
this strategy, and I am puzzled that Congress and the Administration 
seem to be considering making it difficult for states to continue this 
success.
    Another troubling feature is that job search and vocational 
education would not count for the first 24 hours of the work 
requirement as they do under current law. Job search, often through job 
clubs, has been an effective means of ensuring placement in the private 
sector. The focus on work should not come at the exclusion of necessary 
basic or vocational education including English as a Second Language 
that would enhance skills, job retention and earnings. NCSL has always 
urged the Federal Government to leave the decision on when and how 
education should count for each client up to the states, similar to 
other TANF benefit and services decisions. The current policy that 
limits the amount of time and caps the number of clients engaged in 
vocational education does not take into account state decision-making. 
We should have the ability to count educational activities if we choose 
to include them in our range of job preparation efforts. Both job 
search and vocational education should continue to count as work.
    We strongly support the Administration's proposal to eliminate the 
two-parent work participation rate and have all families count in one 
consistent work participation requirement, which will help strengthen 
families and remove a barrier to marriage.
    We appreciate that your legislation and the Administration's 
proposal attempt to give states more flexibility in counting 
employability services such as job search, mental health treatment, 
treatment for substance abuse and education both for 3 months towards 
the 40 hour work requirement and towards 16 of the 40 hours of the work 
requirements thereafter. Unfortunately, the work rates overall are less 
flexible, but recognizing the value of treatment and employment 
preparation by counting such activity for the work rate, even if in a 
limited manner, is a positive step. However, since 24 hours of work are 
required in order for any of the 16 hour activities to count, this is 
hardly flexible.
    In addition, the 24 hour work requirement represents a four hour 
increase for parents with children under 6 who are required to meet 20 
hours under current law. Child care is most expensive for these 
families with young children and under current law, we cannot compel a 
parent with a child under six to work without child care assistance.
    Finally, it is not clear to us why an increase in the requirement 
from 30 to 40 hours is necessary. The jobs most readily available to 
low-skilled workers don't offer 40 hours a week of work, or the hours 
worked may vary from one week to the next. Hotel workers, for example, 
found their hours cut back after September 11th. In addition, the 
Bureau of Labor Statistics reports that the workweek for production or 
nonsupervisory workers on private payrolls has consistently averaged 
34-35 hours over the last decade.
    The work requirements will have a different impact on each state 
because each state sets its own welfare benefit level and eligibility 
requirements. In fact, under current state law, welfare recipients 
working at minimum wage at 40 hours a week would be ineligible for cash 
assistance in 27 states. In 5 states, a recipient working 24 hours a 
week would make too much to qualify for cash.
CHILD CARE
    Increased funding for child care is essential to the continued 
success of TANF. Mothers and fathers cannot work without safe, reliable 
child care. In addition to using all of our CCDF dollars, states are 
currently spending 20% of our TANF funds on child care, yet we still 
struggle with deciding whether the poor families who have never been on 
TANF or poor families who are moving off cash assistance or low income 
poor families who never received welfare but are a crisis away should 
receive subsidies. By the way, that TANF spending funds more child care 
than the entire value of the federal Child Care Development Fund.
    New York's CCDF funds, even when augmented by TANF transfers, only 
reach 12% of the eligible case load. If, as the administration 
proposes, states are faced with more parents having to work more hours 
a week, and no new funds are provided, the situation will only get 
worse. There is simply no way to continue our progress without 
increased funding for child care. In New York, TANF transfers to child 
care are more than the value of the federal block grant and these funds 
mean 76,000 additional subsidies annually.
    Mr. Chairman, we strongly support an increase in the mandatory 
funding of the Child Care Development Fund. I believe that this is a 
critical support for these families--families on welfare meeting work 
requirements, families leaving welfare for work and working poor 
families.
FAMILY FORMATION AND MARRIAGE
    While marriage is an issue that transcends discussion of the 
reauthorization of the TANF program, promoting the formation of stable 
families is part of ensuring that the cycle of dependency on government 
programs is broken. Marriage provides important benefits, including 
economic ones, for adults and children. Government policy should be to 
support healthy marriages, and, perhaps as critically, not to set up 
barriers to marriage. While we have made great progress has been in 
reducing dependence on welfare, state legislators recognize that much 
remains to be done in addressing the underlying causes of poverty. That 
includes strengthening two-parent families. State legislators also 
recognize that not everyone will choose to marry or choose to stay 
married.
    State legislators believe that any federal discussion of the issue 
of marriage must be based on the following principles:

        <bullet> NCSL recognizes that efforts to salvage some 
        relationships may not be appropriate and there needs to be 
        special awareness of the prevalence of domestic violence, 
        family violence and abuse. Therefore, NCSL supports the family 
        violence option;
        <bullet> Marital status must never be a condition of receiving 
        TANF benefits or services. Because people approaching human 
        services agencies are in a vulnerable position, great care must 
        be taken to respect personal decisions;
        <bullet> Efforts to encourage marriage should respect cultural 
        differences and should be conducted in culturally sensitive 
        ways;
        <bullet> States must have maximum flexibility as they utilize 
        a range of approaches to promote marriage, especially within 
        the finite resources of the TANF block grant. Marriage laws 
        have been the purview of state government, not the Federal 
        Government;
        <bullet> A central focus of these efforts must be child well-
        being. NCSL supports efforts to assist parents with parenting 
        skills, even in the absence of marriage, so the children 
        involved have a stable support system, and
        <bullet> Rules for the TANF program and other federal programs 
        must be examined to ensure that they do not penalize couples 
        that choose to marry.

    The Federal Government should consider existing efforts and how 
those efforts might be strengthened. States are already working to 
promote marriage outside the TANF program. Some examples of actions 
states have taken include establishing fatherhood programs, providing 
incentives for marriage education including reduced fees for marriage 
licenses, enacting earned income tax credits without penalizing marital 
status, enacting family law related to both marriage and divorce and 
creating programs to sustain the marriages of parents of children with 
disabilities with respite care services. State legislators urge federal 
policymakers to affirm the value of these efforts.
    Mr. Chairman, NCSL supports the President's proposal to use the 
funds in the current out-of-wedlock bonus fund to create a technical 
assistance and demonstration fund for states to implement marriage and 
family formation initiatives including out of wedlock pregnancy 
prevention. We also support the creation of a fund to expand the 
ability of states to create new programs in this area. NCSL opposes any 
efforts to earmark the TANF block grant for the purpose of family 
formation or marriage. We strongly urge the Federal Government to 
provide more technical assistance to states on this topic. We 
appreciate that you have made it simpler for states to use maintenance 
of effort funds for services states provide under purposes three and 
four of the TANF program, promoting marriage and family formation and 
preventing out-of-wedlock births.
TEEN PREGNANCY
    Teen pregnancy has declined, but it still must be a focus of 
efforts to reduce out-of-wedlock child bearing. NCSL believes that this 
national problem deserves our full and continued attention. We have 
found through our research that teen mothers and fathers have worse 
future outcomes including educational attainment and income than other 
teens. Over time, we believe, teen parents have much more difficulty 
remaining self-sufficient and are more vulnerable to economic shifts in 
the labor market.
CHILD SUPPORT ENFORCEMENT/NONCUSTODIAL PARENTS
    Child support enforcement is a critical component of welfare reform 
and these payments represent an important part of family income. Child 
support payments can make the difference in a working family living in 
or moving out of poverty. State legislators have been at the forefront 
of innovative efforts to improve child support including establishment 
of orders, collection, enforcement and work with noncustodial parents. 
We are concerned, however, about unfunded mandates and preemption of 
state law in any new federal child support law.
    Mr. Chairman, NCSL strongly supports the creation of options for 
states to pass through child support directly to families without 
having to reimburse the Federal Government. Thank you for addressing 
this issue in your bill. Currently federal law requires that state pay 
not only the state share of collected child support, but reimburse the 
Federal Government for their share if the state chooses to pass through 
support to families. NCSL strongly supports a change in federal law 
that eliminates the requirement that states reimburse the Federal 
Government if the state chooses to pass-through child support to 
families. This will also strengthen the relationship between fathers, 
mothers, and their children. It may also lead to reconciliation and/or 
marriage. Noncustodial parent programs, especially fatherhood programs, 
are also critical to this effort. We reiterate our concern that as 
states update their child support legislation, technical assistance is 
needed to assist the states as they come into compliance with federal 
goals.
LEGAL Immigrants and refugees
    Mr. Chairman, I urge you to reconsider the 1996 provisions that 
deny eligibility for legal immigrants and certain refugees to the TANF 
program and to create a state option to provide TANF funded services to 
these families. The 1996 welfare law eliminated most of the federal 
safety net that serves legal immigrants and consequently shifted these 
costs to states. 23 states including New York provide assistance to 
those families using state funds. Unfortunately, by barring these 
families from TANF, legal immigrants cannot even access TANF funded 
services that could make it possible for them to improve their ability 
to work such as job training and ESL. While some benefits have been 
restored to some immigrants, much more should be done. The President 
listened to state lawmakers' concerns on this issue and has proposed 
restoration of food stamp benefits to legal immigrants. There should be 
a state option to provide TANF to legal immigrants as well.
WELFARE WAIVERS
    NCSL strongly believes that states need flexibility for further 
innovation. State legislators would prefer to have options, rather than 
waivers, for policy changes. NCSL strongly believes that states must be 
able to continue current federal waivers and receive new federal 
waivers for welfare reform.
    Program coordination remains a barrier to state innovation. I was 
very pleased to hear the President propose a ``super waiver'' process 
for demonstration programs that could cut across programs and federal 
departments. It is very important that we work closely together on the 
details of this proposal.
SOCIAL SERVICES BLOCK GRANT
    Social Services Block Grant (SSBG or Title XX) funds are a vital 
part of the delivery of community and home-based services to the most 
vulnerable segments of society including the disabled, elderly, and 
children in need of protective services. NCSL urges the Federal 
Government to fund the SSBG at the level agreed to as part of the 
enactment of the 1996 welfare reform act, $2.8 billion. New York 
transfers more from TANF into SSBG than the amount of its SSBG 
allotment. It is critical that the amount states can transfer from 
their TANF grants to the SSBG remains at least 10% and is not reduced. 
If New York can only transfer 4.25% of its TANF grant into the SSBG, 
that would mean:

        <bullet> 21,000 fewer children in subsidized day care;
        <bullet> 70,000 fewer adults helped in adult protective 
        services; and
        <bullet> 138,000 cases in the child protective services system 
        that would have casework disrupted or delayed.

    States use their SSBG funds to provide protective services for 
children and adults, adult day care, meal preparation and delivery for 
the elderly, counseling services, and serve the disabled in their 
homes, rather than in institutions. Further reductions in funding for 
this grant would mean programmatic losses and service reductions.
    Mr. Chairman, that concludes my testimony, I would be very happy to 
respond to any questions that you and the members of the subcommittee 
have at this time.

                                 <F-dash>

    Chairman HERGER. Thank you, Senator Meier. Now, Mayor 
O'Malley.

   STATEMENT OF THE HON. MARTIN O'MALLEY, MAYOR, BALTIMORE, 
  MARYLAND, AND CHAIRMAN, TASK FORCE ON TANF REAUTHORIZATION, 
                   U.S. CONFERENCE OF MAYORS

    Mr. O'MALLEY. Thank you very much, Mr. Chairman. Good 
afternoon. Thank you for giving me the opportunity to join you 
here on this very, very important issue critical to America's 
cities and America's families, including many in my own City of 
Baltimore.
    My name is Martin O'Malley. As you have been told, I am the 
Mayor of the City of Baltimore testifying today on behalf of 
the U.S. Conference of Mayors in my capacity as Chairman of the 
Conference of Mayors Task Force on TANF Reauthorization. I am 
supported by our Assistant Executive Director, Ms. Crystal 
Swann, seated directly behind me.
    The U.S. Conference represents Mayors on both sides of the 
political aisle, and regardless of party this is an issue about 
which we care very deeply. Cities have made great progress in 
reducing our welfare case load since 1996. Child poverty 
recorded its greatest 5-year drop in 30 years. The percentage 
of people on welfare fell to its lowest level in 35 years, but 
if you look at the recent turn of events, the number of 
children now with an unemployed parent rose sharply in 2000, 
when single moms suffered a 25-percent jump in unemployment.
    Whatever progress we have made, it is very fragile progress 
and it is very incomplete progress, but in the past 5 years we 
have learned about some things that work and things that don't. 
We now know of course people with a degree or skills are more 
likely to escape poverty, and among parents who left Welfare-
to-Work and are now unemployed, it is the lack of child care 
that was the leading reason for their job loss.
    Baltimore's Congressman Ben Cardin introduced a bill that 
addresses one of these critical needs by increasing Child Care 
and Development Block Grant (CCDBG) funding to $11.5 billion. I 
support that and thank him for his leadership on this issue in 
Congress, as he was a leader in our State.
    Local welfare offices play a critical role in determining 
whether families who leave welfare actually receive the support 
they need. Local offices have to create one-stop centers 
providing referrals for a range of services, including child 
care, health care, and transportation. They would work better 
by combining TANF and workforce investment funding.
    This year we have an opportunity to work together to 
accomplish some tremendous things in this reauthorization at 
all levels of government.
    I would like to focus today in my testimony on three 
primary objectives: Opportunity, accountability, and outcome. 
It is my personal view that some time limits in work 
participation rate requirements are critical to continued 
success. In my own State of Maryland, since 1995, Baltimore has 
gone from representing 43 percent of the State's welfare case 
load to now, though unfortunately, representing 63 percent even 
as the number of cases in our city drop by more than half.
    We have changed expectations, but those reforms have 
resulted in a welfare system that is increasingly concentrating 
poverty in America's cities. This shift has left us with an 
enormous task in lifting residents in America's poorest, most 
violent, and blighted communities. In our cities, even in 
places like the rest of Maryland where the welfare rolls have 
dropped by more than three-quarters, the goal of self-
sufficiency is not being met. No one with a family can be self-
sufficient on a minimum wage income. We can't ask employers to 
hire these Americans without some assurance that they have had 
significant skills training.
    The TANF should provide funding for transitional community 
service jobs. One possible means to accomplish this through 
federal-local partnership, funding entry level jobs in cities, 
should help low income fathers find jobs by extending access to 
TANF employment services and eliminate provisions that bar two-
parent families from participating.
    Given the great need to invest in training and to address 
other skills needs for Americans, it is encouraging that there 
is a broad consensus to preserve TANF funding at the current 
level, but there has to be greater accountability for how those 
funds are spent. I would like to use a few examples of my own 
State to illustrate what I mean.
    As of last year, since the passage of the 1996 welfare 
reform legislation, 150,000 clients left the welfare rolls. 
There were 77,000 welfare recipients in Maryland compared to 
227,000 in 1995.
    That case load reduction resulted in $530 million in 
welfare reform savings in State and federal funds, which once 
solely made direct cash payments to Maryland's families in 
need. Half, or $265 million, of these savings are federal TANF 
funds, provided specifically to needy families.
    Of this $530 million in savings, only $200 million has been 
reinvested in breaking the cycle of poverty. Ninety million 
dollars was shifted to a dedicated purpose fund in the event of 
an economic downturn. This year most of that rainy day fund was 
raided, or appropriated, shall we say more politely, to plug 
gaps in the State general fund.
    Far worse, $210 million, or only 40 percent, of these funds 
have been diverted entirely from the mission of welfare reform: 
Supporting poor families and helping them become self-
sufficient.
    Our State, like other States, instead substituted welfare 
savings to make foster care payments that used to be funded by 
general funds, child welfare services, and Maryland Department 
of Human Resources programs, all that were once funded by State 
dollars.
    I would like to conclude, I see my time is up. It is 
extremely important as you look at this that we end supplanting 
at the State level, that we continue to provide flexibility but 
also increase accountability and, additionally, that you allow 
local governments to directly access these. This is where we 
are on the hook, where we have a political stake in the 
outcomes to make sure that these dollars go to improving 
people's lot in life, helping them escape poverty, these 
dollars should be used for families that are facing tough 
times, not for Governors who are facing tough choices. Thank 
you.
    [The prepared statement of Mr. O'Malley follows:]
 Statement of the Hon. Martin O'Malley, Mayor, Baltimore, Maryland, on 
                behalf of the U.S. Conference of Mayors
    Good Afternoon, Mr. Chairman, Congressman Cardin and Members of the 
Subcommittee. Thank you for giving me the opportunity to testify before 
you today on an issue critical to America's cities and America's 
families--including many in my city, Baltimore.
    I am Martin O'Malley, Mayor of Baltimore. I am testifying today on 
behalf of The United States Conference of Mayors in my capacity as 
Chairman of the Conference of Mayors Task Force on TANF 
Reauthorization.
    The U.S. Conference of Mayors represents mayors on both sides of 
the political aisle. And regardless of party, this is an issue about 
which we care deeply. Cities have made great progress in reducing our 
welfare case loads since 1996. Child poverty recorded its greatest 5-
year drop in 30 years. The percentage of people on welfare fell to its 
lowest level in 35 years. These are indisputably good things.
    In the past five years, we've learned what works and what doesn't. 
For example, education and training and access to child care are major 
factors in how people fare after welfare.

        <bullet> People with a degree or skill are more likely to 
        escape poverty.
        <bullet> And among parents who left welfare for work, and are 
        now unemployed, lack of child care was the leading reason for 
        their job loss.

    Baltimore's Congressman Ben Cardin introduced a bill that addresses 
one of these critical needs by increasing Child Care and Development 
Block Grant funding to $11.5 billion.
    Welfare offices play a critical role in determining whether 
families leaving welfare actually receive the support they need.

        <bullet> They must one-stop centers providing referrals for a 
        range of services including child care, health care and 
        transportation. And they would work better by combining TANF 
        and Workforce Investment Act funding.

    This year, we have an opportunity to work together--on all levels 
of government--to complete the job we have begun: moving more families 
from welfare to work, and more working poor families to a better, more 
self-sufficient life.
    My testimony today will focus on three primary objectives that are 
critical in TANF reauthorization: opportunity, accountability and 
outcomes.
Opportunity
    My personal view is that time limits and work participation rate 
requirements are critical to the continued success of welfare reform. 
But while they have changed expectations, these reforms have resulted 
in a welfare system that is increasingly concentrated in America's 
cities. In my own state of Maryland, since 1995, Baltimore has gone 
from representing 43% of the State's welfare case load to 63%--even as 
the number of cases in our city dropped by more than half.
    This shift has left us with the enormous task of lifting the 
residents of America's poorest, most violent and blighted communities--
communities that were allowed to, or even hastened into, decay by 
decades of well-intended but misguided government policy on the 
federal, state and local level.
    Given government's culpability, we have a special, moral 
responsibility to invest in returning these areas to decent standard of 
living. Many of the pathologies that affect cities, like teenage 
pregnancy, addiction, violence and generations of grinding poverty, 
were enabled by policies that shredded the social compact in America's 
cities--in the apt phrase of former Senator Daniel Patrick Moynihan, we 
``defined deviancy down.''
    In our inner cities, and even in places like the rest of Maryland's 
counties where the welfare rolls have dropped by more than three-
quarters, the goal of self-sufficiency in the current law is not being 
met. Without work supports such as childcare, transportation, food 
stamps, housing supports, and Medicaid, many people who are working, 
and working hard, would not be making it.
    No one with a family can be self-sufficient in a minimum wage job. 
And many of those who still remain on the welfare roles are, in fact, 
only qualified to work in minimum wage jobs. They are the hardest to 
help. Many have multiple barriers to employment. Many are high school 
dropouts with no GEDs. Many are non-English speaking. Many often have 
multiple problems like substance abuse and mental illness. Many are 
severely learning-disabled. And many have no work history.
    If you were an employer, would you hire them without the assurance 
that they have had significant skills training? TANF should:

        <bullet> Provide funding for transitional community service 
        jobs. One possible means to accomplish this is through a 
        federal/local partnership funding entry-level jobs in cities to 
        improve the quality of life in troubled neighborhoods--a double 
        benefit, providing local employment and enhanced local 
        services, like sanitation and community development.
        <bullet> Help low-income fathers find jobs by extending access 
        to TANF employment services.
        <bullet> Eliminate provisions that bar two-parent families 
        from participating.

    Additionally, we should expand the earned income tax credit and 
eliminate the existing marriage penalty in the effective program.
Accountability
    Given the great need to invest in training and addressing other 
critical needs for those Americans who remain on our welfare rolls five 
years after the beginning of reform, it is encouraging that there is 
broad consensus to preserve TANF funding at its current level. The 
President is providing strong leadership in this regard.
    But there must be greater accountability for how this funding is 
spent. Sadly, far too many states are using TANF funds to supplant 
state funds in their budgets. We support some level of flexibility to 
ensure that the wide range of issues we face can be met, but stricter 
controls must be put in place to remind governors that the Congress 
appropriated these funds for families facing hard times, not 
politicians facing hard choices.
    Let me use the example of my own state to illustrate what I mean:

        <bullet> As of last year, since the passage of the 1996 
        welfare reform legislation, 150,589 clients left the welfare 
        rolls. There were 77,298 welfare recipients in Maryland 
        compared to 227,887 in 1995.

        <bullet> This case load reduction has resulted in $530 million 
        in welfare reform savings in State and federal funds, which 
        once solely made payments to Maryland's families in need. 
        Half--or $265 million--of these savings are federal Temporary 
        Assistance For Needy Families (TANF) funds, provided 
        specifically to aid needy families.

        <bullet> Of this $530 million in savings, $200 million has 
        been reinvested in breaking the cycle of poverty and dependence 
        by providing employment opportunities, supporting local 
        welfare-to-work efforts and subsidizing child care for working 
        mothers.

        <bullet> $90 million was shifted to a ``dedicated purpose 
        fund'' in the event of an economic downturn. This year, most of 
        this rainy day fund was raided to plug a gap in the State 
        general fund--to dodge difficult budget choices, not to help 
        struggling families. There is about $11 million left.

        <bullet> However, $210 million--or 40%--of these funds have 
        been diverted entirely from the mission of welfare reform: 
        supporting poor families and helping them become self-
        sufficient.

        <bullet> The Governor substituted welfare savings to make 
        Foster Care Payments, and to fund Child Welfare Services and 
        other DHR programs. While these are TANF eligible programs, 
        they always have been funded in addition to not instead of 
        welfare-to-work programs. By diverting welfare savings from 
        their intended purpose, the State is able to shift $210 million 
        in State General Funds, formerly used for foster care and child 
        welfare, into purposes unrelated to helping poor families.

        <bullet> As a result--despite $530 million in savings that 
        could and should be dedicated to helping poor families--we are 
        spending much less, not more, to support low-income families in 
        their efforts to become self-sufficient.

        <bullet> Much of the $210 million that has been diverted from 
        welfare reform is being spent in large part on construction 
        projects around the state. And the dividend from welfare 
        reform's success is not being reinvested in the human capital 
        that remains.

    I know that Maryland is not alone in these budgetary shenanigans. 
Very simply, the TANF funds that the Congress has appropriated are not 
being spent in the manner the Congress intended. And they are badly 
needed for that purpose--providing opportunity and increasing self-
sufficiency. If nothing else is changed from the 1996 law, please clamp 
down on this abuse.
    One possible solution, given the increasing concentration of 
welfare recipients in America's cities, is to provide TANF funding 
directly to cities. Send the resources to where they are needed and 
hold us accountable for getting people to work.
Outcomes
    Finally, our calls for compassion can't be an excuse not to demand 
results. Mayors are as guilty of this offense as anyone, but it extends 
to all levels of government. Adlai Stephenson once said, ``Bad 
administration will kill good policy every time.'' It's not enough to 
say you care, you have to prove it through your actions.
    Just as accountability must be increased for state governments 
concerning how TANF dollars are spent, we support increasing 
accountability for local government. What gets measured gets done. We 
must remain focused on results.
    Given the importance and difficulty of what we are trying to 
accomplish, it is unconscionable that we do not better track outcomes--
outcomes like employment, rising income levels, and each generation 
improving on their parent's life. This is the American Dream, yet it 
does not seem available for children growing up in neighborhoods where 
poverty is an expectation and upward mobility virtually unknown.
    In Baltimore, every other week, we are tracking indicators ranging 
from social services, to job training and placement, to clients served 
at our one-stop centers. We're not yet where we need to be. I don't 
know that anyone is.
    Traditionally, human services agencies have been reluctant to 
measure outcomes because the work they do is so difficult. But we must 
take responsibility for helping people change their circumstance. The 
only way I know is to relentlessly track results and manage based on 
quality information. Jack Maple, the inventor of Comstat once told me 
that everything can be statted.
    I don't have all the answers, but I do know if we are not wed to 
what has failed in the past, and we are not afraid of what real 
information might tell us, we can do a better job for the people we 
serve.
    To do so:

        <bullet> We must end supplanting at the state level.
        <bullet> We must continue providing flexibility for state--and 
        additionally local--governments to serve the people they know 
        best.
        <bullet> We must think creatively about how we get people into 
        jobs, and how we engage the private sector--whether with 
        subsidies or training.
        <bullet> We must help people get past that first entry-level 
        job.
        <bullet> And we can't forget fathers.

    Thank you for allowing me to testify here today. This is critical 
to America's cities. I will be glad to answer any questions.

                                 <F-dash>

    Chairman HERGER. Thank you, Mayor O'Malley, and I thank 
you, Senator Meier. With that, we will turn to questions. The 
gentleman from Michigan, Mr. Camp.
    Mr. CAMP. Thank you, Mr. Chairman. Mayor O'Malley, I 
appreciate your testimony and certainly for the record you have 
laid out in terms of reducing child poverty and other positive 
things that have happened as a result of welfare reform. I know 
that one of your calls is for more money to be spent on child 
care, and I don't know if you were present when the Secretary 
testified that over the next 5 years we are going to have $167 
billion in federal funds on TANF and child care dollars 
available.
    So, it is a significant investment in these programs, and 
child care funding has tripled since welfare reform began, and 
yet there is a perception here that there is no rational basis 
for the amount of child care funds people have come before this 
Committee and requested. I note that your testimony initially 
was that it was essential that $20 billion be spent on child 
care and now I know your testimony today is that $11 billion 
would be appropriate, and I just think that we have to be 
careful that there is some rational basis for the numbers that 
are thrown around here. I guess I would just ask for your quick 
comment on that if I could. Which is it?
    Mr. O'MALLEY. I would be happy either with $20 billion or 
$11.5 billion, Congressman.
    Mr. CAMP. Did you say $11.5 million?
    Mr. O'MALLEY. Billion.
    Mr. CAMP. All right.
    Mr. O'MALLEY. While that is nice, $167 million is a 
fraction of what is needed. The people who lose their jobs 
after getting out of welfare and going to work always cite 
child care as the biggest impediment for them continuing in the 
workplace.
    I mean, we are asking moms to choose between whether they 
want to keep their job or whether they want to keep their kids, 
and I think that the dollars spent on investing--I mean look at 
all of the dollars that have gone into TANF, all of the savings 
that have been supplanted by States. If a fraction of those 
were directed by this Congress to go into child care, I think 
those would be dollars well spent. If only you were to stop 
half of the supplanting the States do and start directing those 
things to care, I think it would be a benefit to the economy of 
this country. I think it would be a huge benefit to the 
workforce, which would help businesses in this country, and I 
don't know the rational basis for it but I don't understand the 
rational basis for allowing Governors to use TANF savings as a 
slush fund so that they don't have to make----
    Mr. CAMP. One of the things that we are hoping to do, as 
you asked for, is to have greater flexibility and have the 
ability, where necessary, in certain States to transfer TANF 
funds to the child care block grant and have a little greater 
flexibility there.
    I appreciate your testimony whether it is $11 billion or 
$20 billion, but we don't have those kinds of options. It is 
important to have really some idea as to why the Conference of 
Mayors would have such a disparity in terms of the numbers they 
are asking for when they come before this Committee, and that 
is just a point that I think is a concern to us because none of 
the dollars come here unless we take it from other people and I 
think we want to make sure that we exercise that responsibility 
very, very carefully. So, I appreciate what you are doing and 
all the testimony you gave today. Thank you, Mr. Chairman.
    Mr. O'MALLEY. Thank you.
    Chairman HERGER. Thank you, Mr. Camp. Now we turn to the 
gentleman from Maryland, Mr. Cardin, to inquire.
    Mr. CARDIN. Thank you, Mr. Chairman. Let me try to first 
respond to Mr. Camp if I might. I don't think the Conference of 
Mayors, or NCSL or National Governors are asking for any 
greater share of the federal pie for poverty programs than we 
are currently spending. If you add up all the additional funds, 
it still will be a percentage of the federal budget, will 
probably decline.
    In regards to child care let me just try to help you again. 
We currently spend $4.5 billion a year in the federal program, 
which meets about 18 percent of federal eligible in child care. 
We can do the arithmetic and I would be the first to 
acknowledge that we cannot afford to get up to 100 percent in a 
short period of time. It is going to take us time to get up 
there. So, every dollar we can get into child care will be 
spent by our States and local governments to make available 
child care to people who currently cannot afford it.
    Last, let me say there has been a survey that we will hear 
from later that the additional requirements on the States 
brought about by the administration's bill would cost about 
$7.5 billion more in child care to implement. So, using any of 
those rationalizations, we can come up with a figure I think 
that we all could agree upon should be added to the current 
dollars made available by the Federal Government for child 
care.
    Senator Meier, let me thank you very much for your 
testimony. Some of my finest moments were in NCSL, including 
testifying before Congress as representing NCSL. So, it is a 
pleasure to have you here. I want to just underscore the point 
you made and make sure I say it correctly. It seems to me that 
New York currently has 70 percent of its case load in 
activities that I think any rational person would say is on a 
path to self-sufficiency, but yet you would not meet the 70 
percent test that is in the administration's proposal. Am I 
correct in that?
    Mr. MEIER. Statewide we would not presently meet the test 
under the proposal.
    Mr. CARDIN. That is what concerns me. I agree with you, 
this is a partnership, this is trust, this is flexibility to 
States and funding to States and New York is doing it right if 
you have 70 percent of your case load in activities that will 
lead to self-sufficiency. We shouldn't be telling you to do it 
differently, and that I guess is my major concern, and I very 
much appreciate having the specifics from one particular State.
    Mr. Mayor, I agree with your point about the shifting of 
funds. I saw what the Maryland General Assembly did in this 
past session in the Maryland legislation. The Governor has been 
pretty supportive of poverty programs, but not this year. It 
was a tough year. We found that without additional requirements 
that our States are likely to shift to more popular programs, 
and if we are going to break the cycle of poverty, if we are 
going to break the welfare cycle, it seems to me we have to 
really break the poverty cycle in our cities and that is what I 
guess concerns me. You have the highest proportion of welfare 
recipients but you have also have the poverty, and if we can 
break the poverty cycle, if we can get people into real jobs, 
it seems to me that is our best hope for our urban centers, and 
I would like to work with you to see how we can make sure the 
money gets to our cities. I am concerned that in many cases the 
cities are being short-changed on the dollars that are being 
made available.
    Mr. O'MALLEY. Sadly, Congressman, as you know from your 
experience with our State budget, when the supplanting happens 
unfortunately the savings that the Congress intended would go 
to help families get out of poverty are instead becoming 
suburban reparations. They fall to the bottom line. They get 
spread around like so much political capital around the State 
at the end of the day, and it is really sad. I think if there 
were direct funding to cities where the local governments and 
the people who they work for actually have the political stake 
in the effective and proper use of those funds, for jobs skills 
training, I think that the Federal Government would get a much 
better bang for their dollar than making it easier on State 
budgets.
    Mr. CARDIN. Senator Meier, I just want to see how great the 
risk is that you mentioned that you could be taking money that 
you currently use for English language programs or for job 
training programs and using them for subsidized employment or 
job fair type programs, which I know New York has resisted. 
Every State has resisted. Under these guidelines as proposed by 
the administration is that a real risk?
    Mr. MEIER. I think it is, but let me emphasize, I believe, 
as I think most people do, that everybody receiving benefits 
ought to do something, but we think that, for example, the task 
of learning English is work. We are not talking about having 
people to go to school interminably. We are talking about 
people receiving some services that they need to work through 
some basic barriers to employment, literacy, English 
proficiency, perhaps some degree of vocational training, and we 
think that then, as I said, leads to private sector employment. 
People on welfare should be given the opportunity to reach 
independence the same way everyone else in America does it, 
which is in the private sector economy, not on a created make-
work kind of government job.
    Mr. CARDIN. Thank you.
    Chairman HERGER. Again, I thank you but I might mention 
before I recognize the gentleman from Pennsylvania, Mr. 
English, that the 16 hours after the 24 would be at the 
discretion of the States to be able to determine. So, you would 
have the opportunity to determine whether or not English as a 
second language would count in your work. So, with that, I turn 
to the gentleman from Pennsylvania, Mr. English, to inquire.
    Mr. ENGLISH. I want to thank the Chairman, and I 
particularly want to thank you, Senator Meier, for taking the 
time to appear here. As someone who worked as a staffer for the 
Pennsylvania Senate, I am very well aware of the level of 
professionalism and seriousness in your State legislature and 
particularly in your State Senate. So, we are grateful to you 
for bringing your expertise here and for your coming here as an 
advocate of State flexibility.
    On that point, some proposals, for example Mr. Cardin's 
bill, seek in one respect to tie States' hands in enforcing 
sanctions, requiring lengthy conciliation and notification 
processes enforced under federal law before anyone can be 
subjected to sanctions for refusing to work, among other 
things. What do you make of such proposals, and what effect do 
you think they would have on States' abilities to operate 
welfare programs that are focused on getting people into work?
    Mr. MEIER. Congressman, thank you for that question. I 
think one of the great geniuses of welfare reform was it 
started with the most basic principle of American government, 
federalism. We are a country that has a vast array of 
differences and different types of communities, and so forth, 
and States know best what is going to work in terms of whether 
it is the sanction process or any other element of how they 
structure this welfare program.
    My own experience in New York has been that the sanction 
process generally fairly observes the rights of public 
assistance recipients. If I might briefly respond to Ranking 
Member Cardin's point, the problem, Mr. Cardin, is not the 
split or the discretion we get in 16. It is that if someone who 
lacks English or basic skills can't even get up to 24 hours in 
part-time employment, then none of it counts and that would be 
the problem, sir, with, for example, the young woman in the 
article that you authored. If because of a lack of English she 
couldn't even get 20 hours, none of it would work. We are not 
asking to say let her do nothing. We are saying give us some 
flexibility in how to structure it into up front things like 
basic English proficiency.
    Mr. ENGLISH. Reclaiming my time. Senator Meier, could you 
give us a sense of where NCSL bounces when it comes to lengthy 
conciliation requirements built in as a prerequisite to taking 
someone out of a--well, cutting off someone's benefits or 
putting them in a work program?
    Mr. MEIER. The NCSL comes down on the side of federalism, 
Congressman, and believes those matters are best left up to 
individual States addressing the particular characters of their 
own States and communities.
    Mr. ENGLISH. Very good. Senator, on another point, quoting 
your testimony, there should be a State option to provide TANF 
to legal immigrants as well. We have looked at this issue a 
couple of times since 1996. We have liberalized benefits in a 
couple of areas, but I find there continues considerable 
resistance to the notion of providing transfer payments, cash 
payments to non-citizens. Can you give us some hypotheticals of 
where you think States should be allowed to use TANF benefits 
to support non-citizens?
    Mr. MEIER. Well, Congressman, what we are talking about is 
the area of legal immigrants, people who have played by the 
rules, obeyed the law. We might want to look at some inquiries 
to make sure that this is not someone who has come here for the 
sole purpose of qualifying for public assistance benefits. I 
would think you would find that it is arduous enough to get 
here that you wouldn't find too many people who would do that 
kind of drill, but if they have played by the rules and come 
here we want to encourage them to participate in American 
society. If they play by the rules with everyone else, I don't 
see why they shouldn't qualify at State option for the 
benefits.
    Mr. ENGLISH. I am not sure I agree but I appreciate your 
testimony, and thank you, Mr. Chairman.
    Chairman HERGER. Thank you, and again we thank you, Senator 
Meier, for your fine testimony.
    Mr. MEIER. Thank you, Mr. Chairman and members.
    Chairman HERGER. You are welcome. Before we move to panel 
4, we have the Honorable Barbara Lee, Congresswoman from 
California, to testify.

STATEMENT OF THE HON. BARBARA LEE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. LEE. Thank you very much, Mr. Chairman. Good afternoon.
    Chairman HERGER. Good afternoon.
    Ms. LEE. I want to thank you and our Ranking Member, Mr. 
Cardin, and the Subcommittee Members for this opportunity to 
address the Subcommittee on the issue of welfare reform 
reauthorization proposals.
    Now unfortunately, or fortunately, I have some personal 
experience with this issue. If we allow women access to 
education and child care, they can do anything, anything that 
they set their minds to do, even be elected to the U.S. 
Congress.
    I want to focus on three important issues surrounding 
welfare reform, access to education and child care, and 
comprehensive sex education. We all agree that education is the 
key to success in this country.
    Just last year, for example, a huge bipartisan majority 
worked together to pass a major piece of legislation better 
known as the Leave No Child Behind law. Now I want to also 
leave No Public Assistance Recipient Behind either. We must 
allow them to receive their General Equivalency Diploma, attend 
a technical school, or enroll in a community college or a 4-
year college or a university.
    Now, we all know that people with higher education have 
higher incomes. Full-time workers with master's degrees earn 
over $4,500 a month on average and those with a bachelor's 
degree earn over $3,700 a month. However, high school graduates 
bring home comparably less, only about $2,200 a month. Now, 
those without a diploma earn on the average a paltry $1,700. 
When you factor in paying for rent, especially in high cost 
areas such as northern California, transportation, groceries, 
and child care, that $1,700 a month really becomes zero.
    Now, I believe that the administration's welfare reform 
plan makes it significantly harder for parents transitioning 
off of welfare to get that needed education to get a good 
paying job which not only lifts their family out of poverty but 
also contributes to the economy. Instead of allowing parents to 
finish high school, it is my understanding that the 
administration's plan actually eliminates the current law's 
ability to count high school attendance for dropouts over age 
20.
    So, instead of making it easier for parents to prepare 
themselves for better jobs, the administration's plan 
eliminates the current law's ability to count up to a year of 
full-time education or training.
    Now, this goes in the wrong direction. We continue to pass 
legislation in Congress to make it easier for parents to save 
for college and have tax credits to use for college expenses, 
but then we single out poor mothers by taking away the few 
means that they have to attend college or finish high school. 
Congress must continue and expand the credits available for 
education in any welfare reform legislation.
    Also, I believe that education should be counted as work. 
We should not kick someone off of welfare if they are in 
college. This is really counterproductive.
    Child care is absolutely essential to any successful 
welfare reform program. The extremely high cost of child care 
and the difficulty parents have in finding child care are two 
of the most pressing issues and challenges facing parents 
transitioning off of welfare to work. We cannot expect a mother 
to lose all of her benefits and take a job for $5.15 an hour if 
her child has nowhere to go that is safe and affordable.
    Again, low income parents are hardest hit. Poor families 
spend over 35 percent of their income on child care while non-
poor families only spend about 10 percent, according to 
Congressional Research Service, and this is assuming of course 
that child care is available. Many low income parents have to 
work off hours, are far from home and cannot even access this 
care, let alone afford it.
    So, we must increase discretionary funds for the Child Care 
and Development Fund and entitlement funding so that we may 
adjust for inflation and enact necessary changes to serve more 
families in need and to ensure quality child care. We must 
maintain the current programs' flexibility and ensure that all 
child care accounts are fully funded.
    Finally, I want to touch just briefly on the issue of the 
abstinence-only program that was established under the 1996 
Act, and I was in the California Senate at that time serving on 
the conference Committee on welfare reform. We actually, I 
believe, are the only State not to take these funds, in part 
because of our mandate in teaching comprehensive AIDS 
education.
    I believe this is a misguided program and really prohibits 
the teaching of comprehensive sex education. We cannot prevent 
unwanted teen pregnancies, HIV and AIDS and other sexually 
transmitted infections unless our schools are allowed to talk 
about contraception as well as abstinence.
    No studies have shown that abstinence-only programs are 
successful. So, I ask this Committee to consider really 
President Bush's call to defund unproven programs, and this is 
one that really should be defunded.
    So, I have introduced H.R. 3469, the Family Life Education 
Act, which would provide $100 million to teach comprehensive 
sex education.
    Finally, Mr. Chairman, once again thank you for allowing me 
the opportunity to be here. I believe that Congress must stop 
punishing women and children solely because they are poor. The 
majority of women on welfare want to work. I know that. Welfare 
reform should have as a goal access to education, to good 
paying jobs, and to the reduction of poverty. Thank you very 
much.
    [The prepared statement of Ms. Lee follows:]
 Statement of the Hon. Barbara Lee, a Representative in Congress from 
                        the State of California
    Mr. Chairman, Ranking Member Cardin, and subcommittee members, 
thank you for this opportunity to address the subcommittee on the issue 
of welfare reform reauthorization proposals.
    Unfortunately, or fortunately, I have personal experience with this 
issue. If we allow women access to education and child care, they can 
do anything they set their minds to--even be elected to the United 
States Congress.
    I want to focus on three important issues surrounding welfare 
reform: access to education and child care, and comprehensive sex 
education.
    Education is the key to success in this country. Just last year, a 
huge bipartisan majority worked together to pass the Leave No Child 
Behind law. I want to leave no welfare recipient behind. We must allow 
them to receive their GED, attend a technical school, or enroll in a 
community college or four-year college or university.
    We all know that people with higher education have higher incomes. 
Full-time workers with master's degrees earn over $4,500/month on 
average and those with a bachelor's degree earn over $3,700/month. 
However, high school graduates bring home comparably less--only about 
$2,200/month. Those without a diploma earn on average a paltry $1,700/
month.
    When you factor in paying for rent (especially in high-cost areas 
such as the Bay Area), transportation, groceries, and child care, that 
$1700/month quickly becomes $0.
    However, the Bush/Herger welfare reform plan makes it significantly 
harder for a parent transitioning off of welfare to get that needed 
education to get a good-paying job, which not only lifts their family 
out of poverty but also contributes to the economy.
    Instead of allowing parents to finish high school, the Bush/Herger 
plan actually eliminates the current law's ability to count high school 
attendance for dropouts over age 20.
    Instead of making it easier for parents to prepare themselves for 
better jobs, the Bush/Herger plan eliminates the current law's ability 
to count up to a year of full-time education or training.
    This goes in the wrong direction. We continue to pass legislation 
in Congress to make it easier for parents to save for college and have 
tax credits to use for college expenses. But then we single out poor 
mothers by taking away the few means they have to attend college or 
finish high school. Congress must continue and expand the credits 
available for education in any welfare reauthorization legislation.
    Education should be counted as work. We should not kick someone off 
welfare if they are in college.
    Child care is absolutely essential to any successful welfare 
reform. The extremely high cost of care and the difficulty parents have 
in finding care are two of the most pressing issues and challenges 
facing parents transitioning off of welfare to work. We cannot expect a 
mother to lose all of her benefits and take a job for $5.15 if her 
child has nowhere to go that is safe and affordable.
    Again, low-income parents are hardest hit. Poor families spend over 
35% of their income on child care while non-poor families only spend 
about 10%, according to CRS.
    And this is assuming that care is available. Many low-income 
parents have to work off-hours, or far from home, and cannot even 
access this care, let alone afford it.
    We must increase discretionary funds for the Child Care and 
Development Fund and entitlement funding so that we may adjust for 
inflation and enact necessary changes to serve more families in need 
and to ensure quality child care. We must maintain the current 
programs' flexibility and ensure that all child care accounts are fully 
funded.
    Finally, I want to touch on the issue of the abstinence-only 
program that was established under the 1996 Act. This misguided program 
prohibits the teaching of comprehensive sex education if states take 
the funds. My state of California, in fact, is the only state to not 
take these funds, in part because of our mandate of teaching 
comprehensive AIDS education. We cannot prevent unwanted teen 
pregnancies, HIV/AIDS, and other STIs unless our schools are allowed to 
talk about contraception.
    No studies have shown abstinence-only programs to be successful. I 
ask that this committee consider President Bush's call to de-fund 
unproven programs. The abstinence-only program clearly fails the Bush 
criteria to show proven results. I have introduced legislation, H.R. 
3469, the Family Life Education Act, which would provide $100 million 
to teach comprehensive sex education. Reducing the number of unwanted 
teen pregnancies will surely reduce the number of mothers who turn to 
the welfare rolls.
    In short, Congress needs to stop punishing women and children 
solely because they are poor. Everyone deserves the same access to the 
American dream--an education, a good job, enough to eat, and a home. 
Welfare reform should have as a goal access to education leading to 
good paying jobs and the reduction of poverty.
    Thank you.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Lee. We appreciate your 
testimony, and with that if we could hear from our panel 4 
please, if there aren't any questions.
    Ms. LEE. Thank you.
    Chairman HERGER. Panel 4, Robin Arnold-Williams, Executive 
Director, Utah Department of Human Services, on behalf of the 
American Public Human Services Association; Lawrence Mead, 
Professor of Politics, New York University; Robert Rector, 
Senior Policy Analyst, Heritage Foundation; Wendell Primus, 
Director of Income Security Center on Budget and Policy 
Priorities; Jason Turner, Director, Center of Self-Sufficiency, 
Milwaukee, Wisconsin; and Ray Scheppach, Executive Director, 
National Governors' Association. Ms. Williams.

 STATEMENT OF ROBIN ARNOLD-WILLIAMS, EXECUTIVE DIRECTOR, UTAH 
 DEPARTMENT OF HUMAN SERVICES, ON BEHALF OF THE STATE OF UTAH, 
         AND AMERICAN PUBLIC HUMAN SERVICES ASSOCIATION

    Ms. ARNOLD-WILLIAMS. Good afternoon, Mr. Chairman and 
Members of the Subcommittee. Thank you for the opportunity to 
testify today on behalf of the State of Utah.
    Chairman HERGER. If you could turn your microphone on, 
please, the switch in there.
    Ms. ARNOLD-WILLIAMS. Is it on now? There. Okay.
    Chairman HERGER. Thank you.
    Ms. ARNOLD-WILLIAMS. Good afternoon, Mr. Chairman and 
Members of the Subcommittee. Thank you for the opportunity to 
testify today on behalf of the State of Utah and the American 
Public Human Services Association (APHSA).
    Prior to welfare reform, families were trapped in a pattern 
of dependency that few believed could be reversed. By the mid-
1990s, 48 States, including mine, were operating our programs 
under waiver with work as a central focus and with great 
success.
    In 1996, States and Congress struck a new bipartisan deal 
to expand upon this success. We were challenged to achieve new 
goals like mandatory work participation requirements and 
lifetime time limits within fixed federal funding and in return 
were given tremendous flexibility in how to choose to achieve 
those goals. We have reached unprecedented success, as 
evidenced by 1 million former welfare recipients moving into 
private sector employment, escalating child support 
collections, and declining poverty.
    In Utah we have maintained a consistent focus on increasing 
family income through employment and child support. Our 
strategies include universal participation, individualized case 
assessment and employment planning, diversion, and ongoing case 
management.
    On behalf of APHSA, I express our enthusiastic support for 
many of the proposals made by the President and provided for in 
Chairman Herger's bill, specifically full TANF funding and 
supplemental grants, removing restrictions on unobligated 
funds, expanding flexibility in the State maintenance of effort 
requirement, excluding child care and transportation from the 
definition of assistance, State rainy day funds, continuing and 
expanding transferability options and funding research and 
demonstration related to marriage and family formation, and 
renewal of abstinence education efforts.
    As you consider reauthorization, continued success will be 
contingent on four factors. First, maintaining and enhancing 
flexibility, and we urge you to reject any changes requiring 
States to abandon their goals and meet process measures, 
penalties, or purposes that are inconsistent with our 
successful strategies. Second, maintaining federal and State 
financial investments in TANF and related programs, including 
allowing for inflationary increases, full restoration of Social 
Services Block Grant Program funding, and transferability 
options. Third, maintaining the work focus.
    We have demonstrated that we can make work, work. We 
believe it is important to raise the bar of expectations in the 
next phase of welfare reform, but we urge a focus on broad 
outcomes. Work rates may have been the most appropriate success 
measure in 1996, but today they are an incomplete measure of 
State efforts and client success.
    I am troubled by recent national data showing such large 
portions of our case loads participating. This may not truly 
provide the complete picture of actual participation by our 
TANF families. Policy decisions regarding participation rates, 
hours of work, and countable activities must not divert 
attention from maintaining our clear focus on the goal of 
unsubsidized private sector employment.
    Speaking on behalf of a large Western State with 
significant rural areas, tribal populations, and encountering 
our fifth consecutive month of negative job growth, we are 
concerned about the significant challenges that we may face in 
meeting the 24-hour work requirement. We are also concerned 
about the 3-month limit on intensive substance abuse and other 
therapeutic efforts.
    Fourth, simplifying and aligning federal program rules and 
restrictions that impede our ability to deliver critical 
services to families in need. We are supportive of any options 
to allow States to align these programs and are excited about 
the possibilities of the program integration waivers.
    I want to turn my attention to two additional areas that 
are critical. Now is the ideal time to address child welfare 
issues related to the TANF program, and we appreciate Chairman 
Herger addressing it in his bill. To sustain and grow our 
progress in assisting children who have been abused or 
neglected and their families, States are requesting greater 
flexibility within the entitlement structure while maintaining 
State accountability and statutory protections for children. We 
need to address the look back provision, increase flexibility 
in the funding, and reauthorization and expansion of the IV-E 
waivers, which Chairman Herger has addressed very well in his 
bill, and we thank you for that.
    The last area is child support, where we do support efforts 
put forth again by the Chairman that would give States the 
option to simplify their distribution systems and pass their 
moral support to families with the Federal Government sharing 
in these costs. Thank you again for the opportunity to testify, 
and I would be happy to respond to any questions.
    [The prepared statement of Ms. Arnold-Williams follows:]
Statement of Robin Arnold-Williams, Executive Director, Utah Department 
of Human Services, on behalf of the State of Utah, and American Public 
                       Human Services Association
    Good afternoon, Mr. Chairman and Members of the Subcommittee. I am 
Robin Arnold-Williams, Executive Director of the Utah Department of 
Human Services. Today I am testifying on behalf of the state of Utah 
and on behalf of the American Public Human Services Association 
(APHSA), a nonprofit, bipartisan organization representing state and 
local human service professionals for more than 70 years. Thank you for 
the opportunity to testify today on the reauthorization of the Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996.
The National Welfare Reform Success
    It is important to note that prior to the enactment of welfare 
reform, AFDC case loads were soaring and families were trapped in a 
pattern of dependency that few believed could be reversed. Despite poor 
family outcomes, for decades rigid federal rules prevented state 
administrators from implementing innovative approaches to help families 
in need. Under AFDC, states could give families little more than a 
check to help them provide for their children. Families faced a 
financial cliff if they moved from welfare-to-work because federal 
rules discouraged work.
    In an attempt to break free from federal restrictions, by the mid-
1990s, 48 states, including my own, were operating their AFDC programs 
under federal waiver demonstration programs. Work was the hallmark of 
early welfare reform experiments, and by 1996 it became clear that 
states were in a better position than the Federal Government to achieve 
success in this area. Under the federal welfare reform law of 1996, 
states were challenged to achieve new goals under the Temporary 
Assistance for Needy Families Program--like mandatory work 
participation requirements and lifetime time limits--with fixed federal 
funding in a block grant. States accepted the challenge of meeting 
these new goals within the funding parameters, because the new law also 
afforded them tremendous flexibility to achieve those goals.
    States have achieved unprecedented success in implementing welfare 
reform, such as increased private-sector employment, decreased 
dependency on cash benefits, expanded child care services, escalating 
child support collections, and declining poverty. For example, 
employment rates for never-married mothers increased by 40 percent over 
the past five years, reaching an all-time high in 2000. Sixty-six 
percent of TANF mothers are working for 30 hours a week in private-
sector employment and an additional 12 percent of them are actively 
looking for work. Sixty percent of the TANF mothers who left cash 
assistance are holding jobs. And to support those families with work, 
between 1996 and 1999 there was an 80 percent increase in the number of 
children receiving a monthly child care subsidy. Paternity 
establishment has exceeded all expectations and the number of child 
support cases with collections has doubled since 1996.
    The flexibility afforded to states spawned innovation at the local 
level as well; new partnerships were forged with businesses, community 
agencies, tribal governments, and faith-based providers to support 
welfare families in their transition from welfare to work. In 1996, 
Congress may have envisioned 50 different state TANF programs, but in 
fact today there are thousands of partnerships in thousands of 
communities sharing in the implementation of the welfare law.
Utah's Success
    In 1993, Utah received a federal waiver to launch its welfare 
reform program that was designed to increase income through earnings 
and child support. Utah's strategy is a departure from AFDC; the focus 
is placed on universal engagement in activities leading to employment, 
a self-sufficiency plan, and full-family case closure for 
nonparticipation. Utah achieved great success in moving families off of 
welfare and into work through an individualized case assessment, 
diversion assistance, employment and training, on-going case management 
and aggressive child support collection efforts. When the federal 
welfare law was enacted, Utah implemented a 36-month lifetime time 
limit with extensions for those who are medically unable to work; 
victims of domestic violence; parents caring for the medical needs of a 
dependent; or unable to complete education or training programs due to 
state inability to deliver needed services. Month to month extensions 
are also granted for those employed at least part-time.
    Since 1996, Utah's welfare case load has declined 44 percent to a 
low of 7,990 in June 2001. case loads began increasing slightly in fall 
2001 due to the recent economic downturn. The January 2002 case load 
stood at 8656--an 8.3 percent increase over the June 2001 level. But 
the true success of our program cannot be captured in case load 
statistics or work participation rates. Utah's success is best measured 
by the number of TANF families who entered employment. We are 
particularly proud of the fact that in FY 2000, Utah received a federal 
High Performance Bonus for job placement and in FY 2001, received a 
second High Performance Bonus award for our ability to retain our 
former TANF clients in employment. Utah has a universal engagement 
strategy for all clients receiving assistance, but our ultimate goal 
has been private-sector employment through training, on-going 
counseling, and aggressive job search. We have not focused our 
resources on developing community work experience programs or community 
service.
Pending Reauthorization Proposals
    First, on behalf of APHSA I would like to express our support for 
many of the President's welfare reform proposal outlined in the 
document, ``Working Towards Independence.'' Specifically, APHSA is 
grateful for the President's bold leadership in maintaining the present 
level of TANF block grant funding, and for his recognition of the 
demands on high poverty and high population growth states by restoring 
the TANF supplemental grants. Between 1990 and 2000, Utah was the 
fourth fastest growing state in the country and we appreciate the 
recognition of the impact this growth has on service needs. In 
addition, we enthusiastically support other financing measures included 
in the president's proposal, such as;

        <bullet> continuing and improving the TANF contingency fund;
        <bullet> removing the restriction on unobligated TANF funds;
        <bullet> excluding child care and transportation from the 
        definition of assistance;
        <bullet> creating state ``rainy day funds'' using unobligated 
        TANF funds;
        <bullet> continuing the transfer of 30 percent of TANF funds 
        to the Child Care Development Fund; and
        <bullet> restoring the full transfer authority into the Social 
        Services Block Grant. APHSA urges the immediate restoration of 
        transfer authority of up to 10 percent of TANF funds and a 
        funding level of $2.8 billion annually, as provided in the 
        original 1996 welfare law.

    These provisions will dramatically increase state and local 
flexibility in the administration of the TANF program and we urge this 
subcommittee and Congress to include these provisions in TANF 
reauthorization legislation.
    We understand that there were pressures to include earmarks in the 
TANF block grant for various initiatives and we are grateful to the 
President for proposing a block grant free from any so-called ``set-
asides'' that would restrict state and local flexibility.
    We strongly support the President's proposal to eliminate the Two-
Parent Family Work Participation rate. We recognize that Congress may 
act to eliminate the case load reduction credit and therefore, we 
support the President's proposal to phase-out the credit over time. We 
support the President's proposal to continue state authority to exempt 
up to 20 percent of their TANF case load from the lifetime time limit 
on federal cash assistance payments.
    We support the President's proposal to provide technical assistance 
to the tribes who currently operate Tribal TANF programs as well as 
assistance to those tribes interested in administering their own 
programs.
    We support the President's focus on child well-being and the 
reauthorization of the Abstinence Education Program. We believe the 
proposal to fund research, demonstration and technical assistance 
programs related to marriage and family formation is superior to a 
federal mandate on states to spend a certain percentage of the TANF 
block grant on such efforts. In my state of Utah, we have engaged 
community, business and religious leaders for several years in an 
effort to strengthen marriage and prevent family disintegration. These 
efforts, in my view, are most effective when government is one of many 
partners in a community-wide effort to invest in and support families.
    With respect to child support enforcement, we support proposals, 
such as those put forth by the President, that would give states the 
option to simply their child support distribution systems and 
passthrough more support to families, with the Federal Government 
sharing in these costs.
    The President's proposal also included recommendations to improve 
the federal Food Stamp Program. We support efforts to simplify program 
administration; allow families to own a vehicle; restore benefits to 
non-citizens and eliminate the cost-neutrality criterion on state 
Electronic Benefit Transfer Programs.
    We are supportive of the President's objective to provide states 
with greater flexibility to manage federal programs together to better 
serve families. The Program Integration waivers have the potential to 
move performance goals from process measures to outcome measures. We 
are anxious to learn more details about eligible programs and the 
waiver administration, particularly the rules pertaining to cost 
neutrality--a criterion that in previous years, proved to be a serious 
obstacle to waiver implementation.
    Finally, with respect to the work proposals contained in the 
President's reauthorization plan, we support maintaining work as the 
primary focus of the TANF program. Work is the centerpiece of state 
welfare reform efforts across this country as it was the hallmark of 
the early welfare reform demonstrations of the early 1990s. We support 
the objective to set new effort to improve state performance with 
respect to work. And we look forward to working with the Administration 
and Congress to setnew outcomes for the TANF program that would 
enhance, rather than refocus state efforts in this area.
Principles of Reauthorization
    As Congress considers reauthorization of welfare reform, continued 
state success is contingent upon four factors: (1) maintaining and 
enhancing the flexibility of the TANF block grant; (2) maintaining an 
adequate level of federal support for the block grant and related 
programs; (3) maintaining work as a key focus of welfare reform and, 
(4) simplifying and aligning federal program rules and goals.
    Maintaining and Enhancing Flexibility. States are afforded great 
flexibility to design TANF programs that meet their individual goals 
and respect the diversity of each state and its citizenry. Over the 
past five years, we have learned that the TANF case load is both 
dynamic and diverse. Private-sector employment should continue to be 
the goal of the TANF program participants. States also need continued 
flexibility to design programs and innovative approaches to meet the 
changing needs of the families served by their programs. In addition to 
work, TANF programs provide support to fragile families struggling to 
support their children; promote family well-being; provide child care 
services and early childhood development programs; improve parenting 
skills and support and preserve families; extend employment and 
training opportunities to noncustodial parents; support two-parent 
families; prevent teen pregnancy; and provide services to youths to 
prevent intergenerational dependence on government assistance. All of 
these TANF investments are critical to ensure the continued success of 
welfare reform.
    There is broad agreement that welfare reform has been a success, 
and we urge Congress to continue to support that success. States have 
committed TANF resources in support of their state priorities and in 
compliance with federal goals and objectives. And thousands of 
community partnerships are involved in the implementation of those 
priorities. APHSA urges Congress to reject any changes in the TANF 
statute that would require states to abandon their goals and redirect 
their limited TANF resources to meet process measures, penalties, or 
purposes that are inconsistent with states' successful welfare reform 
strategies. We urge Congress to set broad goals for the reauthorization 
of welfare reform and afford states with the flexibility to devise 
their own strategies to meet those outcomes.
    We ask the Subcommittee to minimize the burden placed on states to 
report unnecessary and costly data reporting requirements. The 
information technology changes and increased administrative costs 
associated with such requirement could be better expended on provided 
services to families in need.
    Maintaining Adequate TANF and Related Program Funding. After an 
initial start-up transition period from the check-writing focus of AFDC 
to the work-focused TANF program, the majority of states are allocating 
their full TANF block grant this year and spending prior year dollars 
as well. According to the Congressional Budget Office, current TANF 
expenditures exceed the authorized level of funding by $2 billion. 
APHSA supports maintaining the federal commitment to the TANF block 
grant and allowing for annual inflationary increases in the program in 
order to sustain services to low-income working families.
    Maintaining the Work Focus. Long before Congress mandated work from 
welfare clients, states were implementing successful waiver 
demonstration projects with work as the focus. States have demonstrated 
that they could devise effective TANF strategies that moved more 
families from welfare-to-work than ever before in our nation's history. 
This record of success should offer Congress adequate evidence that 
states are focused on employment. And for those who are left on the 
cash assistance case load, according to the most recent federal data, 
77 percent of the families that count toward the participation rates 
are either in unsubsidized employment or looking for it. Only 11 
percent are engaged in workfare activities. The data provide compelling 
evidence that states have placed their emphasis on ``real'' work.
    Recent Senate and administration proposals have placed a renewed 
focus on TANF work participation rates, hours, and definitions. We urge 
this subcommittee to look at the welfare-to-work effort more broadly. 
TANF work participation rates only represent a very small part of the 
welfare-to-work story. The work participation rates only measure the 
number of families receiving cash assistance who are engaged in at 
least 30 hours of work activities. And in a time-limited welfare 
system, the families represented in the work rates are an ever-
shrinking number.
    The work participation rates do not include the thousands of 
families who receive TANF-funded child care or transportation that 
allows them to keep their private-sector jobs. The current rates do not 
include the TANF mother who works 29 hours or fewer in a private-sector 
job. Mothers, who hold private jobs and received short-term TANF 
assistance, such as car repair or assistance in paying their rent or 
utilities, are not included in the work rates. Nor are the hundreds of 
thousands of mothers who no longer receive cash assistance because they 
are earning a paycheck in the private sector.
    Work rates may have been an appropriate measure when welfare reform 
was enacted in 1996, but today they are an outmoded and incomplete 
measure of state welfare-to-work efforts. APHSA recommends that states 
be afforded the option to choose between the process measures of 
participation rates and the high performance bonus outcome measures of 
job placement, retention, and earnings progression. At the very least, 
reauthorization legislation should place as much emphasis on the 
placement and retention of TANF clients in unsubsidized employment as 
it places on the work activity of those receiving cash.
    The following proposed changes may require states to restructure 
their TANF strategies--eliminating the case load reduction credit, 
increasing work participation rates, increasing required work hours to 
40 per week, restricting work activities for 24 of the 40 hours, and 
eliminating federal waivers. States are in the process of evaluating 
the full effect of these potential changes on their programs. We urge 
the members of this subcommittee to reach out to your states to 
determine the full impact of such policy changes.
    With respect to the case load reduction credit, we recognize that 
Congress may not continue to allow states to be credited for a case 
load decline based on 1995 data. However, if it is eliminated we 
recommend phasing out the case load credit and replacing it with an 
employment credit. The new credit would provide an incentive for states 
to place and retain TANF clients in jobs with earnings; additional 
credit should be earned for providing short-term assistance to clients 
with earnings as well as for clients in part-time employment with 
earnings. As the case load reduction credit is phased out over time, 
the improved employment credit would be phased in.
    With respect to work participation rates, APHSA supports the 
president's proposal to include two-parent TANF families in the all 
families rate. And we also believe that TANF mothers, who have multiple 
barriers to overcome such as mental health, substance abuse, or 
learning disabilities, may need additional time to enter the workforce. 
States should be afforded additional flexibility in defining work 
activities so that they can place these clients in meaningful 
activities that increase the likelihood of long-term success in the 
workforce. In this respect, APHSA also supports continuing state 
welfare waivers.
    With respect to increasing required hours of work to 40, the new 
requirement would have unintended effects and increased costs. First, 
it is important to note that in 27 states, TANF clients no longer 
qualify for cash benefits when they work 40 hours per week at the 
minimum wage. In 16 states, clients lose eligibility after 24 hours of 
work at $7 per hour. In short, clients will exit welfare before they 
can be counted toward the participation rate. For example, if a TANF 
client loses eligibility when she works 28 hours at the minimum wage, 
the state would have to adjust eligibility rules in order to keep the 
family on cash long enough to count them. In a time-limited TANF 
program, this would be unfair to the client and contrary to our mission 
of moving families off assistance.
    According to federal data, in FY 2000, TANF clients worked an 
average of 29 hours per week in all federal work categories. Increasing 
the number of required hours and work rates will increase the costs of 
child care and may require one or more additional child care 
arrangements. It may be necessary to either significantly increase TANF 
block grant funding or child care funding to support the new work 
requirements.
    In states experiencing an economic slowdown and in rural or tribal 
areas, significant challenges may arise in implementing the proposed 
24-hour requirement. Utah, for example, does not have the community 
worksite infrastructure to place families in the strict work activities 
as proposed. We are concerned that our employment counselors, who work 
to negotiate individualized employment plans, would shift to worksite 
development and monitoring.
    When considering changes to the work rates, we urge you to consider 
the potential impact on the millions of families served with TANF 
funds. States may be required to redirect program resources or face 
substantial financial penalties. States lose 5 percent of their block 
grant and must appropriate the equivalent amount of state funds to 
their program and the state maintenance-of-effort (MOE) requirement is 
increased by 5 percent. While there is an existing corrective 
compliance plan that might mitigate the financial penalty, the broader 
public message will be that the welfare reform program is a failure.
    In the long run, neither rates, hours, nor activities matter for 
the families we serve. Rather, the ultimate goal of welfare reform is 
the transition from cash dependency to job retention and earnings 
progression--generating sufficient income to support a family free from 
welfare for a lifetime.
    Over the past year, APHSA has worked with the National Council of 
American Indians to develop joint recommendations for tribal TANF 
reauthorization. States and tribal governments share the goal of 
expanding employment and economic opportunities for tribal TANF 
families. We have endorsed direct and enhanced funding for tribes; new 
funding for technical assistance, infrastructure improvement, research, 
and program evaluation; access to contingency funds and performance 
bonuses; economic development assistance; and a strengthened 
partnership between federal, state, and tribal governments. We urge 
this subcommittee to consider these proposals.
    Simplifying and Aligning Federal Program Rules and Goals. 
Conflicting federal program rules, restrictions, and requirements 
impede state administrators' ability to deliver critical services to 
families in need. For example, TANF program goals and objectives 
conflict with Food Stamp Program rules. Rigid eligibility requirements 
prescribed in the Workforce Investment Act and the Welfare-to-Work 
Program do not afford states with the opportunity to structure a 
continuum of employment and training services. As states move TANF 
clients from cash assistance, the resources to operate their child 
support program decrease significantly. Current federal funding for 
child welfare services creates perverse incentives to remove children 
from their homes rather than keep families together. Last year, APHSA 
published Crossroads: New Directions in Social Policy, setting forth an 
agenda for the reform of a wide range of federal human service 
programs. We commend this document to your attention and urge 
consideration of our recommendations.
Child Care
    Since the passage of the Personal Responsibility and Work 
Opportunity Reconciliation Act (PRWORA) in 1996, we have seen a 
dramatic increase in the number of families and children served as 
evidenced by the unprecedented growth in child care expenditures. 
Between 1996 and 1999, there was an 80% increase in the number of 
children receiving a monthly child care subsidy.
    States have programmed every dollar available for child care. The 
child care story is a CCDF and TANF story. Since Fiscal Year (FY) 1997, 
we have doubled spending on child care. In FY 2000, states expended 
over $9 billion in combined federal and state dollars on child care. 
This includes $7 billion from the Child Care and Development Fund 
(CCDF) and TANF dollars transferred, plus $2 billion in direct TANF 
spending. States have increased TANF spending on child care from $189 
million in FY 1997 to $4.3 billion in FY 2000. TANF funds spent on 
child care exceeded the entire federal portion of the CCDF allocation 
in FY 2000.
    Under CCDF, states have met or exceeded the 100% maintenance-of-
effort requirement each year. States have drawn down all matching funds 
and have obligated all mandatory and discretionary funds.
    The simplicity introduced with the Child Care and Development Block 
Grant has greatly contributed to state child care successes.
    APHSA supports the need for flexibility in the CCDF that permits 
states to design child care plans that balance the expansion of 
services and new quality of care initiatives. To that end, state 
administrators oppose creating new mandatory set-asides of funding and 
increasing current ones. CCDBG was created in part to simplify what was 
a myriad of child care programs with little flexibility. We have 
demonstrated that we can achieve much more under the current program. 
Let us not move backwards by adding more strings to the program and 
impeding states' abilities to meet parental needs in a changing 
employment environment.
    APHSA also advocates flexibility in programming by transferring 
funds to CCDF. We support permitting states to transfer up to 10% of 
their TANF block grant to the Social Services Block Grant (SSBG), a key 
source of funding for child care. APHSA also backs the preservation of 
state authority to transfer up to 30% of the TANF block grant into CCDF 
and the ability to spend TANF funds directly on child care.
    APHSA believes that the funding currently in the system should 
remain in the system. States are concerned that increased TANF case 
loads during the current economic recession may reduce the amount of 
TANF funds available for child care. In addition, if Congress mandates 
new TANF work requirements, then federal child care funding must 
increase as well. We need $4 billion in addition to the CCDF funding to 
maintain our current investment. If Congress wants states to increase 
quality and increase access, then additional funds will also be needed.
    APHSA supports maintaining the state's option to draw down these 
funds by a matching fund formula to make unmatched dollars available to 
other states at the close of a fiscal year. APHSA calls for a statutory 
change to allow donated funds from private sources to count toward 
maintenance of effort when funds benefit the donors' facility or use.
    States continue to have strong concerns about using 85% of the 
state median income as an eligibility standard. Federal funding has not 
been provided in order to furnish child care services to this 
population deemed federally eligible. In light of the fixed funding 
available for child care, we believe strongly that program eligibility 
be determined at state and local levels.
    Demand for different types of child care is growing as well. We 
need more funding to help increase access and quality within 
nontraditional hours for child care. We also need additional resources 
to create greater access and quality for children with special needs 
who require child care. Expanded access and quality require financial 
investment. In a block grant, reaching a balance between these 
objectives must be accomplished at the state and local levels. We 
oppose increasing or expanding quality set-asides before we have agreed 
that we have sufficient resources to expand access to all families in 
need of such support.
    Finally, with respect to child care data reporting requirements, 
the system must be simplified. The aggregate data collection report 
asks elements repetitive of other required reports and should be 
eliminated. The case-level data collection report needs to be amended 
to contain elements that actually inform programming needs. States 
should also be allowed the option of requiring a social security number 
for receipt of benefits under CCDF to increase the ability to offer 
cross-programming opportunities.
Child Welfare
    APHSA believes that now is the ideal time to address child welfare 
issues related to the TANF program. To meet current challenges, 
additional requirements posed by the Adoption and Safe Families Act, 
increased expectations of state performance, and to sustain and expand 
the significant progress that has been made in assisting children who 
have been abused or neglected and their families, states will require 
greater flexibility in using current funding or increased resources in 
the form of new federal investments, and an increased capacity to get 
the job done. APHSA supports increased flexibility within the 
entitlement structure, with additional federal investments, while 
maintaining state accountability and the statutory protections for 
children. Our recommendations for child welfare reform at this time 
consist of three specific points, (1) Fixing the AFDC ``Look Back, '' 
(2) Reauthorization of the Title IV-E Child Welfare Waiver 
Demonstration Program and (3) Increased flexibility in Title IV-E 
funding.
    APHSA believes that income eligibility as a criterion to determine 
who among the children placed in foster care or subsidized adoption is 
eligible for federally reimbursed foster care and adoption assistance 
under Title IV-E should be eliminated. Under the welfare reform law, 
states are required to ``look back'' to old AFDC rules in effect on 
July 16, 1996, to determine Title IV-E eligibility. Not only is this 
administratively burdensome, but as the law does not allow the income 
standards in effect on July 16, 1996 to grow with inflation, 
eligibility for federal reimbursement will continue to decrease over 
time, resulting in a loss of federal funding to states. It is only 
reasonable that federal funds be provided for the care of all children 
in foster care.
    In order to maintain needed flexibility in child welfare, the 
current Title IV-E Child Welfare Demonstration Waiver program, which 
expires this fiscal year, must be expanded and made more flexible. The 
National Council of State Human Service Administrators (NCSHSA) 
recently reaffirmed earlier policy stating that substantial 
modifications should be made to the Title IV-E waiver process to allow 
more flexibility, a broader scope, and to foster system change in child 
welfare. Specifically, the program should be reauthorized for five 
years with additional state flexibility including expanding the limited 
number of waivers and the number of states that may conduct waivers on 
the same topic.
    APHSA believes that states should be allowed to use Title IV-E 
funds for services other than foster care maintenance payments, such as 
front end, reunification, or post-adoption services for children who 
come to the attention of the child welfare system. Title IV-E should be 
amended to give states the option to redirect federal revenue for Title 
IV-E maintenance payments into their Title IV-B programs, thereby 
providing states with the flexibility to reinvest federal revenue into 
other child welfare services whenever foster care is reduced, while 
maintaining accountability for outcomes. If states had up-front funding 
to reinvest foster care expenditures in the kinds of services that 
reduce the need for foster care, better outcomes could be achieved 
while allowing more efficient use of current resources.
Child Support
    States have shown remarkable achievement in implementing the child 
support provisions contained in the Welfare Reform Act. The percentage 
of child support cases with orders that had collections increased from 
34 percent in 1995 to 68 percent in 2000. Total paternities established 
and acknowledged increased from 931,000 in 1995 to 1.556 million in 
2000.
    We believe that child support should be included in TANF 
reauthorization discussions in light of the key role that child support 
plays in promoting self-sufficiency. The current system for 
distributing child support arrears collected on behalf of families that 
have left welfare is complicated and confusing. The assignment and 
distribution of arrears depends on what year the arrears accrued, 
whether the family was on welfare, and by what method the arrears were 
collected. If a family never received TANF, AFDC, or Medicaid, all of 
the child support collected by the state child support agency, 
including arrearages, goes to the family. While a family is receiving 
TANF benefits, the state can keep any child support it collects, 
regardless of how it is collected, to reimburse itself for the family's 
benefits.
    For families that formerly received public assistance, the rules 
are more complex. For former recipients of public assistance, welfare 
reform legislation created a more ``family friendly'' distribution 
policy. In general, once a family leaves TANF, if the state collects 
child support for the family, the state must give the family any 
current child support as well as arrearages that have built up after 
the family left TANF and any arrearages that built up before the family 
received TANF before it reimburses itself for assistance costs.
    States have spent many resources programming computers to keep 
track of the many ``buckets'' of support, determining whether an 
arrearage accrued before assistance, during assistance, or after 
assistance; whether it is permanently assigned, never assigned, 
temporarily assigned, conditionally assigned, unassigned during 
assistance, or unassigned before assistance; and whether it was 
collected by the tax refund intercept program, by levy of a bank 
account, or by other methods. Many state personnel believe that the 
complexity of the system contributes to more errors and creates more 
difficulty in explaining payments to clients.
    The complicated distribution system is a burden on state child 
support programs. Staff has spent considerable resources programming 
computer systems to properly distribute child support. Maintaining 
these systems requires continued staff resources. In addition, families 
find the current distribution system hard to understand. The fact that 
an arrearage payment goes to the state rather than the family just 
because it was collected through the tax intercept program does not 
make intuitive sense, and states must devote staff to answer questions 
related to the current distribution rules. Such complexity adds to the 
sense of arbitrariness of the program and reduces public support for 
it.
    We support proposals, such as those put forth by the President, 
that would give states the option to simply their child support 
distribution systems and passthrough more support to families, with the 
Federal Government sharing in these costs.
Concluding Comments
    In order to achieve program outcomes, inspire state innovation, and 
leverage scarce program resources, funding streams should be flexible, 
program eligibility and federal funding restrictions should be 
simplified and the values underpinning the programs should be aligned 
as well. In the end, the success of human service programs will be 
measured by the health and well-being of America's children, families, 
and adult; by their reduced dependence on government assistance; and by 
self-sufficiency for generations to come.
    Thank you for the opportunity to testify. I would be happy to 
respond to any questions you may have.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Ms. Williams. Now Mr. 
Mead to testify.

STATEMENT OF LAWRENCE M. MEAD, PROFESSOR OF POLITICS, NEW YORK 
                 UNIVERSITY, NEW YORK, NEW YORK

    Mr. MEAD. Thank you, Mr. Chairman. I broadly support the 
administration's proposals and your own bill. The main 
resistance to this comes from Governors and States who say that 
welfare reform is working. If it isn't broke let us not fix it. 
So, they say we shouldn't impose the sort of mandates which 
appear to come from the President's proposals.
    Now, they are assuming that welfare reform has already been 
implemented, that it is a going concern, and I think we ought 
to question that. I think it is partially implemented. It is 
clear from the numbers showing that only about a third of the 
clients are satisfying the current work requirements that we 
have got a long ways to go before these become a reality for 
the case load as a whole.
    So, the Governors are wrapping themselves in the case load 
fall and saying it is a big success, and they are doing it. 
Well, I think they are doing part of it. In part, welfare 
reform is driven by a change in expectations, and by a good 
economy. We are not exactly sure how far welfare has changed on 
the ground, and we have to be sure that we push that purpose 
forward.
    As I see it, the administration's proposals are primarily 
designed to complete the implementation of TANF so that we do 
in fact enforce work on the case load as a whole, something we 
simply have not done to date. We are kidding ourselves if we 
think the case load fall indicates a full implementation of 
reform.
    The way I see these proposals, they are an attempt to 
recenter the reform effort on the two essentials that we know 
from research are really critical to generating effects. The 
first is to enforce participation. You can't benefit from a 
program if you are not in the program. So, we have to have 
mandatory participation, and that is what the full engagement 
requirement is about.
    I think it is a little vague in the President's proposal. 
We need to specify what this means, how it is going to be 
measured, how it is going to be enforced, but the idea is 
critical.
    The second thing that is critical is the 24-hour work 
requirement. We have to require that people actually enter into 
jobs. It is jobs and not education and training that have been 
shown to have the largest effects on the client's earning and 
employment. The fact that all of us in this room did well in 
school and we got ahead that way doesn't mean that everybody on 
welfare can do the same thing. We have to recognize that for 
most recipients the most important step forward is to get a 
job. It doesn't mean they shouldn't go to school at some point, 
but the first thing they need is a work history.
    So, the full engagement requirement and the 24-hour work 
requirement strike me as well justified. I think one might 
argue for an element of job search in the 24 hours, because 
government jobs as such don't provide for job search in the 
private sector. That is something we do want to include. We are 
mistaking the real purpose of the 24 hours if we think it is 
just to buildup public jobs.
    The real point of this is to require States to get serious 
about placing people in the private sector. That would be the 
real effect, and that has been the effect in the localities 
which have taken this most seriously, in particular Wisconsin 
and New York.
    On the other hand, I think the 40-hour overall activity 
requirement is probably too ambitious. That is probably more 
than we can really achieve. The 30 and 35 hours that we now 
have is probably more realistic.
    I also think the 70-percent participation level is probably 
too ambitious. That too is probably more than we can probably 
achieve on a routine basis. Those provisions I take to be less 
critical. The key is not so much that we obtain an extreme 
participation or an extreme of hours. It is rather that we get 
everyone on welfare doing something consistently, that we build 
work into the welfare mission.
    A couple of things that Congress should address is full 
family sanctions. Many recipients escape the work test, 
particularly in New York and California. This matter should be 
addressed. Congress should insist on a full family sanction. We 
should look at the child-only cases which have risen to be a 
third of the case load. Some element of that, I suspect, 
involves evasion of the work test. We need some more analysis 
of the nature of that group and which elements of it might well 
be subjected to the work test.
    Another question is child support enforcement programs. We 
should continue development of mandatory work programs for 
fathers such as Parents Fair Share or Wisconsin's Children 
First. These programs are not ready for prime time and should 
not be mandated. They should be developed in the same manner as 
the marriage and unwed pregnancy programs recommended by the 
administration.
    There are some other areas I recommend we look at. Work 
test and food stamps, work thresholds of some kind for EITC 
which would make the program more effective. We should also 
look ahead to management questions.
    The Administration proposed performance measures. They 
would have them, however, be developed by the States. I would 
have them developed by the Federal Government but then offer 
the States a range of goals that they can choose from. These 
measures could be more reliably used for keeping the States 
accountable if they were developed in Washington.
    Program integration, the super waiver. The caution I have 
about that is that it might cause serious problems with the 
implementation of TANF as has already happened due to the 
Workforce Investment Act. Thank you, Chairman.
    [The prepared statement of Mr. Mead follows:]
    Statement of Lawrence M. Mead, Professor of Politics, New York 
                     University, New York, New York
    I am a Professor of Politics at New York University, currently on 
sabbatical at Princeton. I am a longtime student of welfare reform and 
the author of several books on the subject.\1\ I have just finished a 
book on welfare reform in Wisconsin. I appreciate this chance to 
testify on the reauthorization of Temporary Assistance for Needy 
Families (TANF).
---------------------------------------------------------------------------
    \1\ Lawrence M. Mead, Beyond Entitlement: The Social Obligations of 
Citizenship (New York: Free Press, 1986); idem, The New Politics of 
Poverty: The Nonworking Poor in America (New York: Basic Books, 1992); 
idem, The New Paternalism: Supervisory Approaches to Poverty 
(Washington, DC: Brookings, 1997).
---------------------------------------------------------------------------
                    The Success and Future of Reform
    Welfare reform is unquestionably a success. Welfare rolls have 
plummeted while work levels among the poor have soared and poverty has 
fallen, among other good effects. The achievement is mostly due to 
social policy, although good economic conditions helped. The key 
policies were (1) stronger work requirements, coupled with (2) generous 
funding for the EITC, child care, and other support services. The 
results refute those who say the poor face too many ``barriers'' to 
work, but also those who think welfare can never succeed. Mostly, 
welfare reform is the achievement of a new, less permissive aid system. 
Support is still being given to needy families, but many more adults 
have to function in return.
    I fear that reauthorization will get bogged down in issues going 
back to the creation of TANF in the Personal Responsibility and Work 
Opportunity Reconciliation Act (PRWORA) of 1996. Clear problems in the 
old law should be fixed, but reauthorization should not seek to restore 
entitlement, end the time limits, undo ``work first,'' or restore 
coverage for aliens. The main purpose of PRWORA was to end the old 
system. The agenda now should be more constructive. We should ask how 
to rebuild welfare around work--on the other side of entitlement.
    Alone of the American states, Wisconsin has totally redesigned 
welfare. This state asked, not just how to change AFDC, but what an 
ideal work-based aid system would be. Congress and other states should 
now ask that same question.
    My recommendation is to continue down the road we are on: (1) 
strengthen work requirements further, and (2) provide additional income 
and supports to low-income working families, especially but not only 
those that have left welfare.
    A secondary goal should be to improve the performance of state 
governments as the chief implementers of reform. TANF banked heavily on 
the idea that states could innovate in welfare and then carry out their 
decisions. In fact, TANF implementation has gone smoothly chiefly in 
states with strong good-government traditions--not only Wisconsin, but 
Michigan, Minnesota, and Oregon, to name a few. Many urban states that 
traditionally had large case loads, such as California, Massachusetts, 
or New York, have been seriously divided about how to reform welfare. 
And many states, especially in the South, have encountered serious 
administrative problems.
    Although the main goal of reauthorization is to fine-tune national 
policy, Congress should do this in ways that promote a fuller 
implementation of reform at the state level. The best ways to do that 
are (1) to set strong enough work standards so that the more hesitant 
urban states have to accept a serious work test, and (2) to set ongoing 
performance standards that will promote better state programs over 
time. While state choice is an integral part of TANF, the nation has an 
interest that states choose some clear goals for their programs and 
then work to achieve these.
    Most of what the Administration has proposed for reauthorization 
would advance these ends. Wade Horn, Ron Haskins, and the other 
drafters are highly qualified. The plan is well judged overall, 
although I would change some details. I will comment only on the work 
and management provisions, which are the areas I know best.
                            Work Provisions
Full engagement
    The Administration would require that all recipients be fully 
engaged in constructive activities within 60 days of going on aid. I 
support this. The essence of effective reform programs is that 
recipients must participate. To demand universal engagement is a way to 
obtain this. Otherwise, recipients and their families cannot obtain the 
benefits that, on average, participation brings. And the more 
conflicted urban states can continue to avoid a full reckoning with the 
work test.
    However, the proposal does not clearly define what full engagement 
means. The idea that recipients must be in activities or ``in the 
process of being assessed or assigned'' within 60 days looks like a 
loophole. What actually will be demanded of states? How will engagement 
be measured and enforced? These details must be nailed down in the law 
or regulations, or this requirement will remain a platitude.
Case load fall credit
    TANF demanded that states raise the share of their cases where 
adults were in work activities by increments, until 50 percent were so 
engaged by 2002. But the law also allowed states to count against those 
targets any percent by which their case loads have fallen since 1995. 
Because the fall was unexpectedly great, it knocked the bottom out of 
the new work standards. This freed the big urban states from serious 
pressure to build the work mission into welfare. In 1999, for example, 
states were supposed to have 35 percent of their cases working, but the 
case load fall credit cut the standards that most states actually faced 
to trivial levels--in 23 cases to zero. Virtually all states met these 
lowered standards, but 23 failed to reach the original 35 percent.\2\
---------------------------------------------------------------------------
    \2\ U.S. Administration for Children and Families, Temporary 
Assistance for Needy Families (TANF) Program: Third Annual Report to 
Congress, August 2000 (Washington, DC: U.S. Administration for Children 
and Families, August 2000), table 3:1.
---------------------------------------------------------------------------
    The Administration proposes to withdraw this credit over two years. 
Some conservatives argue that the credit should be kept or, perhaps, 
benchmarked on case loads later than 1995. In their view, driving the 
case load down is equivalent to enforcing work on the rolls. But to do 
this does not force states truly to reform welfare itself. Withdrawing 
the credit would do more to accomplish that than anything else. This is 
the most important single change that reauthorization must make.
Work participation rates
    The Administration also recommends that the work participation 
levels required of states be raised from the 50 percent required in 
2002 to 70 percent by 2007. This strikes me as too ambitious, 
especially if it is combined with an end to the case load fall credit. 
In effect, the Administration would require that the single-parent case 
load work at close to the levels TANF mandated for two-parent cases--
standards the states had great difficulty meeting.
    The Administration's proposals as a whole are bound to have a 
strong diversion effect, causing a further deflation of the case load. 
This means that the remaining recipients are bound to be the less 
employable. Wisconsin's W-2 program has been able to achieve very high 
work rates among the least employable clients, but only through intense 
case management and lavish support services. Most other states do not 
yet have administration of this quality. It may be best to keep the 
current 50 percent standard but make it real by ending the case load 
fall credit.
    Some also object that the Administration has not provided the 
funding needed to realize the higher level, particularly for child 
care. Here I am less doubtful. The Administration has kept TANF block 
grant and child care funding at roughly constant levels in nominal 
terms. While that is a fall in real terms, one might have expected 
cuts, given the drastic fall in the case loads. And Congress should 
remember that much of the transitional child care offered by states to 
families leaving welfare has not been claimed. Many people are making 
informal arrangements for their children rather than claiming care from 
government. The need and cost of child care may well have been 
overestimated, as it has been throughout the history of welfare reform.
Work levels
    Compared to TANF 1996, the Administration would be more definite 
about work for part of a recipient's activities, but less definite 
about work for the rest of the time. Twenty-four hours of effort in 
actual work or community service would be expected. That level strikes 
me as reasonable and practicable for most recipients.
    Some have objected that the new rule would force localities to 
create community jobs on a large scale. I doubt that. The real purpose 
is to make the states get serious about placing recipients in private 
jobs. Public jobs operate as a backstop for that effort. Recipients 
take job search more seriously if they know they will be going to work 
in some job in any event. To date, New York City and Wisconsin are the 
only localities that have created public positions on a large scale. In 
both cases, the work-enforcing effect has been considerable.
    A fairer criticism of public employment is that it makes no 
provision, by itself, for job search to get a real job outside 
government. The Administration's plan allows localities to place 
recipients in remedial activities for three months before the work norm 
kicks in, and this time might be used for job search. Congress might 
stipulate, as well, that public employment positions allow for 6 hours 
a week of private-sector job search, provided it was supervised as 
closely as the work assignment.
    How does one achieve public jobs for meaningful hours in low-
benefit states? Community service typically requires that one ``work 
off'' one's benefits at an hourly rate. With a low grant, only a few 
hours of work would suffice to defray the grant each month, at least if 
one pays the minimum wage. To require more hours would effectively 
raise the grant. Congress may have to stipulate a form of work 
experience where there is no correspondence between the grant and hours 
worked.
Activity levels
    In addition to 24 hours of work, the Administration would demand 40 
hours a week in total activity. While this effort would be more loosely 
defined than the work activities, this level strikes me as unrealistic. 
Very few recipients participate in programs at this level, even in 
Wisconsin, with its intense administration. In practice, many 
recipients would be exempted. I would accept 30 or 35 hours, the 
current standard.
    It is more important to achieve high participation for limited 
hours than to achieve lower participation for more hours. The former 
does the most to transform the culture of welfare, so that work is 
universally expected.
                            Additional Steps
    I would take these additional steps, not mentioned by the 
Administration, either to strengthen work requirements or to build up 
support for low-income working families. I realize that not all of 
these recommendations fall under the purview of this committee.
Full-family sanctions
    TANF allows states to reduce the grant only partially if an adult 
refuses to cooperate with the work test. In states with high benefits 
but partial sanctions, notably California and New York, thousands of 
cases have come to subsist on the rolls indefinitely in sanctioned 
status.
    This seems to happen in many cases because, with a partial 
sanction, recipients fail to grasp that there is a work test. When they 
fail to show up for work assignments, their grants are reduced, but 
they think their benefits have just been recalculated. Other recipients 
know about the work test and choose not to comply, but realize they can 
still stay on welfare. They can give up their own share of the cash 
grant, but keep the children's share and all in-kind benefits, and 
henceforth be free of the work test.
    The culture of welfare cannot truly be changed until the right to 
do this is ended. Only then will many recipients take the work 
requirement seriously. Congress should mandate that families get no 
cash grant at all unless the adults comply with the work test. Grants 
are already closed for many other reasons; they should be for this one.
Child-only cases
    These are cases where the children but not the caretaker is on the 
grant. They have grown rapidly to comprise a third of the TANF case 
load, yet are exempt from the work test. Some of this relative growth 
is due to the departure of regular cases from the rolls. Yet child only 
cases, like weak sanctions, seem to have become a major loop-hole that 
undercuts work enforcement.
    While the problem is little-analyzed, the child-only cases appear 
to fall into several groups. In one type, the mother is too impaired to 
function, often due to substance abuse, so a grandmother takes over the 
children and is given aid. Or the mother transfers the children to a 
relative in order to avoid the work test, then receives support from 
this relative informally. The mother may be an alien, legal or illegal, 
while the child is native-born and thus a citizen. Or she may be on SSI 
or Disability Insurance, so that TANF for the children operates as a 
kind of caretaker supplement.
    The idea that only the children receive support in these cases is a 
fiction. Congress should find a way to bring at least some of these 
groups under the work test, perhaps by putting the caretakers on the 
grant. A lesser reform would be to include these cases in the 
denominator for the work participation rate calculation.
Child support enforcement
    The Administration would help fund higher pass throughs of child 
support to welfare families. This is desirable. The 100-percent pass 
through in Wisconsin has been shown to have positive effects on 
collections and on the involvement of absent fathers in the legal 
economy. Unless absent fathers see their payments going to their 
families and not to the state, solutions to the child support dilemma 
will be impossible.
    The proposals, however, do little more to improve payment of child 
support. The Administration proposes to fund the development of 
marriage and unwed pregnancy programs. I think Congress should also 
fund further development of child support enforcement programs. Low-
income fathers who have failed to pay their child support judgments are 
referred to these work programs. They either have to pay up or 
participate regularly, on pain of going to jail. The goal is to raise 
collections and also work levels for the fathers, much as welfare work 
programs have raised employment for welfare mothers.
    Two such programs have been evaluated--Parents' Fair Share, which 
was a national demonstration, and Children First in Wisconsin. Both 
programs showed a power to raise fathers' payment of child support. 
Both ``smoked out'' hidden earnings and forced the fathers to pay up. 
Neither, however, showed clear impacts on the employment or earnings of 
the fathers.\3\ It may be too soon to mandate such programs, but states 
should get federal funding to develop them further.
---------------------------------------------------------------------------
    \3\ Fred Doolittle, Virginia Knox, Cynthia Miller, and Sharon 
Rowser, Building Opportunities, Enforcing Obligations: Implementation 
and Interim Impacts of Parents' Fair Share (New York: Manpower 
Demonstration Research Corporation, December 1998); Ron Blasco, 
Children First Program: Final Evaluation Report (Madison: Department of 
Workforce Development, November 2000).
---------------------------------------------------------------------------
    Alternatively, one could set definite performance standards for 
child support enforcement. Currently, states receive financial 
incentives to do better in child support, but they face no definite 
standards, despite substantial federal funding. Just as states have to 
achieve specified participation levels in welfare work programs, so 
they might have to achieve support payment in some percentage of child 
support cases where the family was on welfare. This might well cause 
them to implement enforcement programs.
The Food Stamp work test
    Work standards in Food Stamps are more lenient than in TANF. Adult 
recipients without children under 6 are supposed to work or participate 
for at least 30 hours a week. Yet the rules are not well enforced in 
most place, in part because TANF's work tests take precedence for 
families subject to both programs. The Food Stamp Employment and 
Training program (FSET) is supposed to enforce the work rules, but it 
seems to exist more on paper than in reality. Often, eligibles are 
required to do little more than sign up for possible work with the Job 
Service. PRWORA made no important change other than to limit nonworking 
single people to three months on the rolls at a time.
    Now that Food Stamp rolls are much larger than TANF, enforcing 
these requirements should get more attention. Work enforcement should 
probably be less stringent than in welfare work programs, since many 
families that draw Food Stamps are already working, at least to some 
extent. Congress in the past has treated Food Stamps as an entitlement, 
not to be conditioned seriously on the behavior of claimants.
    Congress needs to reconsider the standard. The work tests should 
become real for at least part of the Food Stamp case load, especially 
principal earners in two-parent families. And FSET should become more 
like a real program, with an administrative presence of its own.
Work thresholds for EITC
    One reason why welfare leavers often remain poor is that they do 
not work steady hours once off TANF. This means they do not reap all 
the benefit they could from the Earned Income Tax Credit and other work 
supports. EITC currently subsidizes low earnings regardless of the 
number of working hours. However, the most successful work incentive 
programs, such as the Minnesota Family Investment Plan, required that 
recipients work at least 30 hours to get any benefits.\4\
---------------------------------------------------------------------------
    \4\ Virginia Knox, Cynthia Miller, and Lisa A. Gennetian, Reforming 
Welfare and Rewarding Work: A Summary of the Final Report on the 
Minnesota Family Investment Program (New York: Manpower Demonstration 
Research Corporation, 2000); Gordon L. Berlin, ``Welfare that Works: 
Lessons from Three Experiments that Fight Dependency and Poverty by 
Rewarding Work,'' The American Prospect, June 19-July 3, 2000, p. 7.
---------------------------------------------------------------------------
    If such a threshold were attached to EITC, the result might be more 
working hours and higher incomes from both wages and wage subsidies. 
The threshold should probably be lower than in welfare work programs 
like MFIP, perhaps 20 hours rather than 30. This minimum might apply, 
not to the existing benefit, but to the enhancements which Congress may 
consider, or to state tax credits. It might have to be run through the 
welfare system, which is more able to track working hours, than the tax 
system, which runs the existing EITC.
                               Management
    The administration has suggested some changes in the management of 
welfare reform where I have different views. These matters are 
especially critical for improving TANF in the states that have faced 
administrative difficulties, especially in the South. A paternalistic 
structure that promotes work must be maintained even after families 
have left cash welfare. Congress should also look ahead and ask how to 
fund and manage welfare when that task can no longer be associated with 
clear case loads.
Performance standards
    The Administration proposes to hold states accountable by expecting 
them to manage their programs using performance measures. But it would 
let them define those measures. I find this unrealistic. Unless 
Washington creates the measures, they will not be comparable across the 
country, nor they be clearly enough measured. It will then be 
impossible to hold the states accountable. States should have choice 
about the specific goals of TANF, but the way to assure this is to have 
multiple measures. These could cover employment outcomes, such as job 
entries, wages, or job retention, but also poverty reduction, 
nonmarital births, and perhaps other outcomes. States could choose 
which goals to emphasize, but then they would be seriously accountable 
for results.
    The JOBS programs never had performance measures other than 
participation rates. While TANF has the measures used to award its 
unwed pregnancy and high-performance bonuses, these apply only to the 
states that apply for the bonuses. It is time to define comprehensive 
performance measures for TANF, applying to all states, even if this 
requires a regulatory process following reauthorization.
Program integration
    The Administration proposes to create a new waiver process under 
which states could combine the administration of a wide range of social 
programs. The integration could go far beyond what was previously 
allowed under TANF or the Workforce Investment Act (WIA). Critics fear 
that this would allow states to apply full-family sanctions or time 
limits to Food Stamps or Medicaid, programs that PRWORA left as 
entitlements.
    My question rather is about the administrative implications. Even 
the program reorganization permitted under PRWORA has created serious 
implementation problems for TANF. Many states have turned over the 
administration of welfare work requirements to the WIA agencies, either 
the Job Service or the voluntary training programs previously run under 
the Job Training Partnership Act. That change has worked well in a few 
states. But in most, it has created serious confusion, to the detriment 
of TANF.\5\
---------------------------------------------------------------------------
    \5\ I base this on the examination of case studies of TANF 
implementation in 24 states. Most of these studies were done as part of 
the Assessing the New Federalism project at the Urban Institute or the 
State Capacity Study at the Rockefeller Institute of Government.
---------------------------------------------------------------------------
    Historically, the WIA agencies have served welfare recipients 
poorly. The Job Service and JTPA are accustomed to serving voluntary 
jobseekers, so they usually do not understand the role of enforcing 
work required by welfare reform. They are also unaccustomed to 
providing the complex support services that recipients often require in 
order to work. In short, they are unwilling to be paternalistic. In an 
era of declining welfare case loads, to turn welfare work over to WIA 
can look like an administrative economy. But it has seldom worked, 
simply because the WIA agencies are ill-suited to the welfare mission.
    The TANF mission is demanding enough for the agencies already 
involved. This suggests that, at least for the immediate future, 
program integration should go no further than welfare and WIA. If the 
``superwaiver'' is enacted, states that seek to combine a wider range 
of agencies should have to demonstrate that they have already handled 
TANF-WIA integration well.
Paternalism
    It is too easy to think the welfare task is over once families have 
left cash aid. But we find that many have trouble working, or working 
consistently, off welfare, much as they did on the rolls. This is why, 
as many experts are saying, welfare needs to provide services to 
promote job retention and advancement for former welfare families after 
they are on the job.
    I would go further. The most effective welfare work programs are 
those that combine generous benefits with close staff oversight of 
clients. Some structure like that is probably still necessary to 
achieve steady work after families have left cash aid. Staffs must 
still be available to people to work out problems that may block them 
working. And to be effective, they must still possess the capacity to 
influence behavior. They might speak for the administrative work tests 
that clients would still have to satisfy in Food Stamps or other non-
cash benefits. Or they might persuade families to satisfy the hours 
thresholds that might be attached to EITC.
    In the New Hope project in Milwaukee, a generous package of 
benefits--jobs, child and health care, and a poverty-level income--was 
offered to clients provided they worked 30 hours a week. Program staff 
helped recipients work out practical problems about participating, such 
as child care. They also actively persuaded people to put in the 30 
hours so that they could claim the benefits. This combination of ``help 
and hassle'' was warmly appreciated by most of the recipients.\6\
---------------------------------------------------------------------------
    \6\ Thomas Brock, Fred Doolittle, Veronica Fellerath, and Michael 
Wiseman, Creating New Hope: Implementation of a Program to Reduce 
Poverty and Reform Welfare (New York: Manpower Demonstration Research 
Corporation, October 1997), chap. 7.
---------------------------------------------------------------------------
    New Hope is a model for the welfare administration of the future. I 
find it unlikely that WIA or other non-welfare agencies are willing or 
able to perform these functions. This is another reason for caution 
about program integration.
Beyond caseloads
    We are accustomed to thinking of welfare as a case load, and 
welfare reform as a reduction in case loads. But the very success of 
reform has tended to merge the welfare population with the broader low-
income population, most of which is employed. The major point of reform 
was to achieve this, but it has made managing welfare in the old way 
outdated.
    We now have legions of welfare leavers who are working and no 
longer on cash aid, but who continue to receive subsidized child care, 
Food Stamps, or Medicaid. This has made them less distinct from the 
higher-income population, which also is employed but occasionally 
dependent on Unemployment Insurance or other social insurance benefits.
    Even within welfare, case loads do not indicate the size of the 
task as well as they once did. Formerly, many cases stayed continually 
on TANF for years. Today, short-term receipt is more usual. Large 
numbers of families cycle rapidly on and off the program. The rolls in 
a given month only suggest the broader population that may draw aid at 
some point in a year. And many families who have left cash aid continue 
to look to TANF agencies for short-term help of various sorts, not only 
benefits. Accordingly, administrators say that their work loads have 
dropped much less than case loads.
    One practical result is that it is no longer sufficient to fund 
welfare in terms of case loads. The low numbers that some states today 
have on TANF do not begin to account for their actual responsibilities. 
In extreme cases like Wisconsin, the near-extinction of traditional 
welfare has led to a funding crisis. Spending on cash benefits has 
plummeted, while subsidized child care has soared. But some counties no 
longer receive from the state the administrative funding they say they 
to continue to serve the families who look to them.
    The time is coming when welfare funding must be based more on 
populations than case loads. Welfare is changing from a system that 
serves ``cases'' to one that seeks to maintain an entirely low-income 
community in work. The correct model is not traditional welfare but an 
HMO, where a provider gives health care to an entire population on an 
as-needed basis. Funding is based on capitation fees for the population 
rather than the number of patients served actively at a given time.
    This suggests that TANF allocations among the states should 
eventually be shifted from their current basis in historic AFDC 
spending patterns to a basis in relative needy populations. The basis 
for funding ought to be not how many people a state has or once had on 
welfare but how many it has in principle agreed to serve by the way it 
sets its eligibility for cash aid or other benefits.
    A focus on populations also reinforces the need for national 
performance measures. As case loads drop, mere reduction in dependency 
ceases to be a reasonable criterion for success in welfare. We must 
instead ask how well welfare functions to achieve a range of outcomes 
for the population as a whole--not only lower dependency but higher 
employment and earnings, lower unwed pregnancy and poverty, and so on.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Mead. Mr. Rector to 
testify.

 STATEMENT OF ROBERT RECTOR, SENIOR RESEARCH FELLOW, HERITAGE 
                           FOUNDATION

    Mr. RECTOR. Thank you, Congressman. I appreciate the 
opportunity to come here and speak today. The first point I 
would like to make today is to say again that we cannot 
emphasize too much what a remarkable success welfare reform has 
been to this point. If we look at the chart that we just put up 
here, the chart shows black child poverty from 1970 to the 
present. As we can see, black child poverty was either constant 
or rising slightly right up until the mid-1990s, and then 
suddenly we have a one-third drop. Black child poverty is now 
at the lowest point in U.S. history. While a good economy 
helped there, it is quite clear that the predominant factor is 
welfare reform. There are few successes of that magnitude in 
the history of government policy in the post-war period.
    The second point I would emphasize today is that we always 
must remember that the welfare system is predominantly federal. 
In the United States today, we spend $430 billion on means 
tested aid. Seventy-five percent of that expenditure is 
federal. When you take Medicaid out of the mix, it is an 85-
percent federal contribution. When you hear State official 
after State official saying do not have this work requirement, 
do not have that requirement, I would suggest that you ask 
these officials how much of this welfare cost they would like 
to pay at the State and local level. The answer will be as 
little as possible. As long as States are asking you to pay 85 
percent of means tested assistance costs in the United States, 
then it is the primary responsibility of the Federal Government 
to insist, in detail, that this money is spent appropriately 
and spent to promote the primary purposes of the act, reduce 
poverty, to increase employment, and to strengthen marriage.
    Third point--the key to success in welfare so far, has been 
strong federal work requirements that motivated the States to 
change what they had been doing in the past and to bring the 
case loads down. These strong federal work requirements were 
strenuously opposed by most State and local groups, including 
the National Governors' Association back in 1996. They lobbied 
against them from dawn to dusk through the entire process. They 
were wrong then, and they are wrong now. We need to renew these 
strong federal requirements and intensify them, as your bill 
does, Congressman Herger.
    Fourth point--you have heard a lot of rhetoric in the last 
few weeks about how strong work requirements cost more than the 
status quo. This was also said in 1996 over and over and over 
again. It was a mantra. Work requirements cost more. You cannot 
require work unless you put in vast amounts of money. It was 
wrong then; it is wrong now. The central problem with these 
arguments is that they are based on the assumption of a static 
case load. If the case load is static, then, in fact, work 
requirements do cost more. The overwhelming rule that we have 
learned in the last 5 years is that good work requirements 
dramatically reduce the case load, thereby freeing funds which 
can be used for daycare and ancillary social services.
    Fifth, I would like to commend the Congressman for 
retaining and updating the primary goal of case load reduction. 
I believe that is a very positive step.
    Sixth and finally, I would like to also reemphasize the 
point that Mr. Mead just made, that it is very important in 
this system to have a national requirement of full check 
sanctions. Close to half of the TANF case load are now in 
States where if the recipient adamantly refuses to participate 
in all required activities, they continue to receive the bulk 
of their assistance, indefinitely. That is an abuse of taxpayer 
funds, and it is an abuse of the recipient as well who is being 
allowed to fritter away their lives away in a very unproductive 
way. We need to have a clear provision assuring that if the 
person does not perform the required activities, if they 
consistently and over time fail to perform required activities, 
that the entire TANF check will be sanctioned. I think it 
should be a forgiving system that allows the individual to get 
back on once they enter into compliance and are participating 
constructively. The notion of allowing hundreds of thousands of 
individuals to continue to receive checks when they have 
consistently refused to take steps toward self-sufficiency 
benefits no one. I thank you very much for the opportunity to 
testify today.
    [The prepared statement of Mr. Rector follows:]
Statement of Robert Rector, Senior Research Fellow, Heritage Foundation

                   The Good News about Welfare Reform

    Six years ago this month, President Bill Clinton signed legislation 
overhauling part of the nation's welfare system. The Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996 (P.L. 
104-193) replaced the failed social program known as Aid to Families 
with Dependent Children (AFDC) with a new program called Temporary 
Assistance to Needy Families (TANF). The reform legislation had three 
goals: 1) to reduce welfare dependence and increase employment; 2) to 
reduce child poverty; and 3) to reduce illegitimacy and strengthen 
marriage.
    At the time of its enactment, liberal groups passionately denounced 
the welfare reform legislation, predicting that it would result in 
substantial increases in poverty, hunger, and other social ills. 
Contrary to these alarming forecasts, welfare reform has been effective 
in meeting each of its goals.

        <bullet> Overall poverty, child poverty, and black child 
        poverty have all dropped substantially. Although liberals 
        predicted that welfare reform would push an additional 2.6 
        million persons into poverty, there are 4.2 million fewer 
        people living in poverty today than there were in 1996, 
        according to the most common Census Bureau figures.

        <bullet> Some 2.3 million fewer children live in poverty today 
        than in 1996.

        <bullet> Decreases in poverty have been greatest among black 
        children. In fact, today the poverty rate for black children is 
        at the lowest point in U.S. history. There are 1.1 million 
        fewer black children in poverty today than there were in the 
        mid-1990s.

        <bullet> Conventional figures exaggerate the poverty rate. The 
        poverty rate is even lower when the Earned Income Tax Credit 
        (EITC) and non-cash welfare benefits, such as Food Stamps and 
        public housing, are counted as income in determining poverty. 
        This more accurate assessment shows that the overall poverty 
        rate in 1999 was 8.8 percent down from 10.2 percent in 1996.

        <bullet> Hunger among children has been almost cut in half. 
        According to the U.S. Department of Agriculture (USDA), there 
        are nearly 2 million fewer hungry children today than at the 
        time welfare reform was enacted.

        <bullet> Welfare case loads have been cut nearly in half and 
        employment of the most disadvantaged single mothers has 
        increased from 50 percent to 100 percent.

        <bullet> The explosive growth of out-of-wedlock childbearing 
        has come to a virtual halt. The share of children living in 
        single-mother families has fallen, and the share living in 
        married couple families has increased, especially among black 
        families.

    Some attribute these positive trends to the strong economy in the 
late 1990s. Although a strong economy contributed to some of these 
trends, most of the positive changes greatly exceed similar trends that 
occurred in prior economic expansions. The difference this time is 
welfare reform.
    Welfare reform has substantially reduced welfare's rewards to non-
work, but much more remains to be done. When TANF is re-authorized next 
year, federal work requirements should be strengthened to ensure that 
states require all able-bodied parents to engage in a supervised job 
search, community service work, or skills training as a condition of 
receiving aid. Even more important, Congress must recognize that the 
most effective way to reduce child poverty and increase child well-
being is to increase the number of stable, productive marriages. In the 
future Congress must take active steps to reduce welfare dependence by 
rebuilding and strengthening marriage.
PREDICTIONS OF SOCIAL DISASTER DUE TO WELFARE REFORM
    Five years ago, when the welfare reform legislation was signed into 
law, Senator Daniel Patrick Moynihan (D-NY) proclaimed the new law to 
be ``the most brutal act of social policy since reconstruction.'' \1\ 
He predicted, ``Those involved will take this disgrace to their 
graves.'' \2\
---------------------------------------------------------------------------
    \1\ Cited in Arianna Huffington, ``Where Liberals Fear to Tread,'' 
August 26, 1996, at www.arianaonline.com/columns/files/082696.html
    \2\ Cited in The Wall Street Journal, ``Welfare as They Know It,'' 
August 29, 2001, p.A14.
---------------------------------------------------------------------------
    Marian Wright Edelman, President of the Children's Defense Fund, 
declared the new reform law an ``outrage . . . that will hurt and 
impoverish millions of American children.'' The reform, she said, 
``will leave a moral blot on [Clinton's] presidency and on our nation 
that will never be forgotten.'' \3\
---------------------------------------------------------------------------
    \3\ Children's Defense Fund, ``Edelman Decries President's Betrayal 
of Promise `Not to Hurt Children,''' July 31, 1996.
---------------------------------------------------------------------------
    The Children's Defense Fund predicted that the reform law would 
increase ``child poverty nationwide by 12 percent . . . make children 
hungrier . . . [and] reduce the incomes of one-fifth of all families 
with children in the nation.'' \4\
---------------------------------------------------------------------------
    \4\ Children's Defense Fund, ``How the Welfare Bill Profoundly 
Harms Children,'' July 31, 1996.
---------------------------------------------------------------------------
    The Urban Institute issued a widely cited report predicting that 
the new law would push 2.6 million people, including 1.1 million 
children, into poverty. In addition, the study announced the new law 
would cause one-tenth of all American families, including 8 million 
families with children, to lose income.\5\
---------------------------------------------------------------------------
    \5\ Cited in ``Urban Institute Study Confirms that Welfare Bills 
Would Increase Child Poverty,'' Center on Budget and Policy Priorities, 
July 26, 1996
---------------------------------------------------------------------------
    The Center on Budget and Policy Priorities asserted the new law 
would increase the number of children who are poor and ``make many 
children who are already poor poorer still . . . No piece of 
legislation in U.S. history has increased the severity of poverty so 
sharply [as the welfare reform will].'' \6\
---------------------------------------------------------------------------
    \6\ David A. Super, Sharon Parrott, Susan Steinmetz, and Cindy 
Mann, ``The New Welfare Law,'' Center on Budget and Policy Priorities, 
August 13, 1996.
---------------------------------------------------------------------------
    Patricia Ireland, president of the National Organization for Women, 
stated that the new welfare law ``places 12.8 million people on welfare 
at risk of sinking further into poverty and homelessness.'' \7\
---------------------------------------------------------------------------
    \7\ Quoted in Lisa Bennet-Haigney, ``Welfare Bill Further Endangers 
Domestic Violence Survivor,'' National NOW Times, January 1997.
---------------------------------------------------------------------------
    Peter Edelman, the husband of Marian Wright Edelman and then 
Assistant Secretary for Planning and Evaluation at the Department of 
Health and Human Services, resigned from the Clinton Administration in 
protest over the signing of the new welfare law. In an article entitled 
``The Worst Thing Bill Clinton Has Done,'' Edelman dubbed the new law 
``awful'' policy that would do ``serious injury to American children.'' 
\8\
---------------------------------------------------------------------------
    \8\ Peter Edelman, ``The Worst Thing Bill Clinton Has Done,'' The 
Atlantic Monthly, Vol. 279, No. 3 (March 1997), pp. 43-58.
---------------------------------------------------------------------------
    Peter Edelman believed the reform law would not merely throw 
millions into poverty, but also would actively worsen virtually every 
existing social problem. He stated, ``[t]here will be more malnutrition 
and more crime, increased infant mortality, and increased drug and 
alcohol abuse. There will be increased family violence and abuse 
against children and women.'' According to Edelman, the bill would fail 
even in the simple task of ``effectively'' promoting work because 
``there simply are not enough jobs now.'' \9\
---------------------------------------------------------------------------
    \9\ Ibid.
---------------------------------------------------------------------------
WHAT ACTUALLY HAPPENED
    In the half-decade since the welfare reform law was enacted, social 
conditions have changed in exactly the opposite direction from that 
predicted by liberal policy organizations. As noted above, overall 
poverty, child poverty, black child poverty, poverty of single mothers, 
and child hunger have substantially declined. Employment of single 
mothers increased dramatically and welfare rolls plummeted. The share 
of children living in single-mother families fell, and more important, 
the share of children living in married couple families grew, 
especially among black families.\10\
---------------------------------------------------------------------------
    \10\ The beginning of welfare reformactually occurred in stages 
during the mid-1990s; therefore it is somewhat arbitrary to assign a 
single date to mark the start of reform. During 1993 and 1994, some 
states experimented with workfare programs using federal waivers. In 
January 1995, Republicans took control of both houses in Congress and 
many states began implementing reforms in anticipation of the federal 
legislation that was finally enacted in August 1996. Overall, the onset 
of reform could be said to have occurred over a three-year period from 
1994 through 1996; thus, some of the positive changes from welfare 
reform may predate the actual signing of the bill in 1996.
---------------------------------------------------------------------------
    Reform opponents would like to credit many of these positive 
changes to a ``good economy.'' However, according to their predictions 
in 1996 and 1997, liberals expected the welfare reform law to have 
disastrous results during good economic times. They expected reform to 
increase poverty substantially even during periods of economic growth; 
if a recession did occur, they expected that far greater increases in 
poverty than those mentioned above would follow. Thus, it is 
disingenuous for opponents to argue in retrospect that the good economy 
was responsible for the frustration of pessimistic forecasts since the 
predicted dire outcomes were expected to occur even in a strong 
economy.
Less Poverty
    Since the enactment of welfare reform in 1996, the conventional 
poverty rate has fallen from 13.7 percent in 1996 to 11.8 percent in 
1999. Liberals predicted that welfare reform would push an additional 
2.6 million people into poverty, but there are actually 4.2 million 
fewer people living in poverty today than there were when the welfare 
reform law was enacted.\11\
---------------------------------------------------------------------------
    \11\ U.S. Bureau of the Census, Poverty in the United States 1999: 
Current Population Reports Series P60-210, (Washington, D.C.: U.S. 
Government Printing Office, 2000). p. B2.
---------------------------------------------------------------------------
    When the Earned Income Tax Credit and non-cash welfare benefits, 
such as Food Stamps and public housing, are counted in determining 
poverty, the poverty rate in 1999 was even lower: 8.8 percent, down 
from 10.2 percent in 1996.\12\
---------------------------------------------------------------------------
    \12\ The U.S. Census Bureau defines a family as poor if its annual 
``income'' falls below specified poverty income thresholds. For 
example, the poverty income threshold for a family of four in 1999 was 
$17,029. The conventional or most common poverty measure counts most 
cash as income but excludes welfare benefits, such as the Earned Income 
Tax Credit, Food Stamps, and public housing. When these benefits are 
counted, the number of persons deemed poor drops substantially. Poverty 
figures including EITC and non-cash aid are from U.S. Bureau of the 
Census, Poverty in the United States 1999, p. 29, and Poverty in the 
United States 1996, Current Population Reports Series P60-198 
(Washington, D.C.: U.S. Government Printing Office, 1997), p. 25. The 
figures use income definition 14.
---------------------------------------------------------------------------
Less Child Poverty
    The conventional child poverty rate has fallen from 20.5 percent in 
1996 to 16.9 percent in 1999. In 1996, there were 14.4 million children 
in poverty compared with 12.1 million in 1999. Though liberals 
predicted that welfare reform would throw more than 1 million 
additional children into poverty, there are actually some 2.3 million 
fewer children living in poverty today than there were when welfare 
reform was enacted.\13\ (See Chart 1.)
---------------------------------------------------------------------------
    \13\ U.S. Bureau of the Census, Poverty in the United States 1999, 
p. B2.



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The child poverty rate is even lower when the EITC and non-cash 
welfare benefits, such as Food Stamps and public housing, are counted 
as income; the 1999 child poverty rate in this more accurate assessment 
was 11.2 percent, down from 14 percent in 1996.\14\
---------------------------------------------------------------------------
    \14\ Poverty figures including EITC and non-cash aid are from U.S. 
Bureau of the Census,  Poverty in the United States 1999, p. 29, and 
Poverty in the United States 1996, p. 25. The figures in the text use 
income definition 14.
---------------------------------------------------------------------------
Less Black Child Poverty
    According to the Census Bureau, the decreases in poverty have been 
the greatest among black children. Today, the poverty rate for black 
children has fallen to the lowest point in U.S. history. The 
conventional black child poverty rate has fallen by one-third, from 
around 43.8 percent in the mid-1990s to 33.1 percent in 1999. There are 
1.1 million fewer black children in poverty today than there were in 
the mid-1990s.\15\
---------------------------------------------------------------------------
    \15\ U.S. Bureau of the Census, Poverty in the United States 1999, 
p. B-9.
---------------------------------------------------------------------------
    When the EITC and non-cash welfare benefits, such as Food Stamps 
and public housing, are counted as income, the black child poverty rate 
is even lower. According to this more accurate measure, the black child 
poverty rate in 1999 was 21.6 percent, down from 31.1 percent in the 
mid-1990s. (See Chart 2.)



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Less Poverty Among single Mothers
    Like the rate for black children, the poverty rate for children 
living with single mothers also is at its lowest point in U.S. history. 
The rate fell from 44 percent in the mid-1990s to 35.7 percent in 1999. 
There are 700,000 fewer single mothers living in poverty today than 
there were in the mid-1990s.\16\
---------------------------------------------------------------------------
    \16\ Ibid., p. B-12.
---------------------------------------------------------------------------
    When the EITC and non-cash welfare benefits, such as Food Stamps 
and public housing, are counted as income, the poverty rate for single 
mothers is substantially lower. According to this more accurate 
measure, the poverty rate for single mother families was 25.7 in 1999, 
down from 34.4 percent in the mid-1990s.
Decrease in the ``Severity of Poverty''
    Liberals, like those at the Center on Budget and Policy Priorities, 
predicted that welfare reform would increase ``the severity of 
poverty.'' Specifically, it would increase the so-called poverty gap 
for families with children by over $4 billion.\17\ (The poverty gap is 
the measure of total income that is needed to lift the income of all 
poor families exactly to the poverty line.) In reality, the poverty gap 
for families with children has decreased by $4.5 billion.\18\
---------------------------------------------------------------------------
    \17\ Center on Budget and Policy Priorities, ``Urban Institute 
Study Confirms That Welfare Bills Would Increase Child Poverty.''
    \18\ U.S. Bureau of the Census, Poverty in the United States 1996, 
p. 21, and Poverty in the United States 1999, p. 23. Confusingly, the 
average poverty gap per poor family has actually increased by $428 per 
year. Ironically, this is largely a result of the substantial reduction 
in the number of poor families. If the typical family exiting from 
poverty historically tended to have a higher income than those 
remaining in poverty, then as the number of poor families shrinks, the 
average income of those who are still in poverty may actually appear to 
decrease, since it is the relatively poorer families which remain 
within the poverty group. This statistical mirage of declining income 
of the poor can occur even if everyone's income is rising.
---------------------------------------------------------------------------
    Similarly, the number of children living in ``deep poverty'' has 
declined appreciably. (Families in ``deep poverty'' have incomes that 
is less than half the poverty income level.) In 1996, there were 6.3 
million children living in deep poverty; by 1999, the number had fallen 
to 4.9 million.\19\
---------------------------------------------------------------------------
    \19\ U.S. Bureau of the Census, Poverty in the United States 1996, 
p. 2, and Poverty in the United States 1999, p. 2.
---------------------------------------------------------------------------
Dramatic Reduction in Child Hunger
    The number of children who are ``hungry'' has been cut nearly in 
half since the enactment of welfare reform, according to the U.S. 
Department of Agriculture. The USDA reports that in 1996, 4.4 million 
children were hungry; by 1999, the number had fallen to 2.6 
million.\20\ Thus, there are nearly 2 million fewer hungry children 
today than at the time welfare reform was enacted. (See Chart 3.)
---------------------------------------------------------------------------
    \20\ The figures reflect the number of children living in 
households that were ``food insecure with hunger:'' See Margaret 
Andrews, Mark Nord, Gary Bickel, and Steven Carlson, Household Food 
Security in the United States, 1999, U.S. Department of Agriculture, 
Economic Research Service, 2000, p. 3.





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Plummeting Welfare Dependence
    The designers of welfare reform were concerned that prolonged 
welfare dependence had negative effects on the development of children. 
Their goal was to disrupt inter-generational dependence by moving 
families with children off the welfare rolls through increased work and 
marriage. Since the enactment of welfare reform, welfare dependence has 
been cut nearly in half. The case load in the former AFDC program (now 
TANF) fell from 4.3 million families in August 1996 to 2.2 million in 
June 2000. (See Chart 4.)
    Contrary to conventional wisdom, the decline in welfare dependence 
has been greatest among the most disadvantaged and least employable 
single mothers--the group with the greatest tendency toward long-term 
dependence. Specifically, dependence has fallen most sharply among 
young never-married mothers who have low levels of education and young 
children.\21\ This is dramatic confirmation that welfare reform is 
affecting the whole welfare case load, not merely the most employable 
mothers.
---------------------------------------------------------------------------
    \21\ June E. O'Neill, and M. Anne Hill, ``Gaining Ground? Measuring 
the Impact of Welfare Reform on Welfare and Work,'' Manhattan Institute 
Civic Report No. 17, July 2001, pp. 8, 9.




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Increased Employment
    Since the mid-1990s, the employment rate of single mothers has 
increased dramatically. Again, contrary to conventional wisdom, 
employment has increased most rapidly among the most disadvantaged, 
least employable groups:

        <bullet> Employment of never-married mothers has increased 
        nearly 50 percent.
        <bullet> Employment of single mothers who are high school 
        dropouts has risen by two-thirds.
        <bullet> Employment of young single mothers (ages 18 to 24) 
        has nearly doubled.\22\
---------------------------------------------------------------------------
    \22\ Ibid., pp. 10-14.

    Thus, against conventional wisdom, the effects of welfare reform 
have been the greatest among the most disadvantaged single parents--
those with the greatest barriers to self-sufficiency. Both decreases in 
dependence and increases in employment have been most dramatic among 
those who have the greatest tendency to long-term dependence, that is, 
among the younger never-married mothers with little education.
A Halt in the Rise of Out-of-Wedlock Childbearing
    Since the beginning of the War on Poverty, the illegitimacy rate 
(the percentage of births outside of marriage) increased enormously. 
For nearly three decades, out-of-wedlock births as a share of all 
births rose steadily at a rate of almost one percentage point per year. 
Overall, out-of-wedlock births rose from 7.7 percent of all births in 
1965 to an astonishing 32.6 percent in 1994. However, in the mid-1990s, 
the relentless 30-year rise in illegitimacy came to an abrupt halt. For 
the past five years, the out-of-wedlock birth rate has remained 
essentially flat. (See Chart 5.)




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Among blacks, the out-of-wedlock birth rate actually fell from 70.4 
percent in 1994 to 68.8 percent in 1999. Among whites, the rate rose 
slightly, from 25.5 percent to 26.7 percent, but the rate of increase 
was far slower than it had been in the period prior to welfare reform.
A Shift Toward Marriage
    Throughout the War on Poverty period, marriage eroded. However, 
since the welfare reform was enacted, this negative trend has begun to 
reverse. The share of children living with single mothers has declined 
while the share living with married couples has increased.
    This change is most pronounced among blacks. Between 1994 and 1999, 
the share of black children living with single mothers fell from 47.1 
percent to 43.1 percent, while the share living with married couples 
rose from 34.8 percent to 38.9 percent. Similar though smaller shifts 
occurred among Hispanics.\23\
---------------------------------------------------------------------------
    \23\ Allen Dupree and Wendell Primus, ``Declining Share of Children 
Lived With Single Mothers in the Late 1990's,'' Center on Budget and 
Policy Priorities, June 15, 2001, p. 7.
---------------------------------------------------------------------------
    While these changes are small, they do represent a distinct 
reversal of the prevailing negative trends of the past four decades. If 
these shifts toward marriage are harbingers of future social trends, 
they are the most positive and significant news in all of welfare 
reform.
LWHO GETS THE CREDIT? THE GOOD ECONOMY VERSUS WELFARE REFORM
    Some would argue that the positive effects noted above are the 
product of the robust economy during the 1990s, rather than the results 
of welfare reform. However, the evidence supporting an economic 
interpretation of these changes is not strong.
    Chart 4 shows the AFDC case load from 1950 to 2000. On the chart, 
periods of economic recession are shaded while periods of economic 
growth are shown in white. Historically, periods of economic growth 
have not resulted in lower welfare case loads. The chart shows eight 
periods of economic expansion prior to the 1990s, yet none of these 
periods of growth led to a significant drop in AFDC case load. Indeed, 
during two previous economic expansions (the late 1960s and the early 
1970s), the welfare case load grew substantially. Only during the 
expansion of the 1990s does the case load drop appreciably. How was the 
economic expansion of the 1990s different from the eight prior 
expansions? The answer is welfare reform.
    Another way to disentangle the effects of welfare policies and 
economic factors on declining case loads is to examine the differences 
in state performance. The rate of case load decline varies enormously 
among the 50 states. If improving economic conditions were the main 
factor driving case loads down, then the variation in state reduction 
rates should be linked to variation in state economic conditions. On 
the other hand, if welfare polices are the key factor behind falling 
dependence, then the differences in reduction rates should be linked to 
specific state welfare policies.
    In a 1999 Heritage Foundation study, ``The Determinants of Welfare 
case load Decline,'' the author examined the impact of economic factors 
and welfare policies on falling case loads in the states.\24\ This 
analysis showed that differences in state welfare reform policies were 
highly successful in explaining the rapid rates of case load decline. 
By contrast, the relative vigor of state economies, as measured by 
unemployment rates, changes in unemployment, or state job growth, had 
no statistically significant effect on case load decline.
---------------------------------------------------------------------------
    \24\ Robert E. Rector and Sarah E. Youssef, ``The Determinants of 
Welfare case load Decline,'' Heritage Foundation Center for Data 
Analysis Report CDA99-04, May 11, 1999.
---------------------------------------------------------------------------
    A recent paper by Dr. June O'Neill, former Director of the 
Congressional Budget Office, reaches similar conclusions. Dr. O'Neill 
examined changes in welfare case load and employment from 1983 to 1999. 
Her analysis shows that in the period after the enactment of welfare 
reform, policy changes accounted for roughly three-quarters of the 
increase in employment and decrease in dependence. By contrast, 
economic conditions explained only about one-quarter of the changes in 
employment and dependence.\25\ Substantial employment increases, in 
turn, have led to large drops in child poverty.
---------------------------------------------------------------------------
    \25\ O'Neill and Hill, ``Gaining Ground? Measuring the Impact of 
Welfare Reform on Welfare and Work,'' Table 4, p. 22.
---------------------------------------------------------------------------
    Overall, it is true that the health of the U.S. economy has been a 
positive background factor contributing to the changes in welfare 
dependence, employment, and poverty. It is very unlikely, for example, 
that dramatic drops in dependence and increases in employment would 
have occurred during a recession. However, it is also certain that good 
economic conditions alone would not have produced the striking changes 
that occurred in the late 1990s. It is only when welfare reform was 
coupled with a growing economy that these dramatic positive changes 
occurred.
Out-of-Wedlock Child-Bearing and the Economy
    Out-of wedlock child-bearing and marriage rates have never been 
correlated to periods of economic growth. Efforts to link the positive 
changes in these areas to growth in the economy are without any basis 
in fact. The onset of welfare reform is the only plausible explanation 
for the shifts in these social trends. Welfare reform affected out-of-
wedlock childbearing and marriage in two ways.
    First, even before the passage of the law, the public debate about 
welfare reform sent a strong symbolic message that, in the future, 
welfare would be time-limited and that single mothers would be expected 
to work and be self-reliant. This message communicated to potential 
single mothers that the welfare system would be less supportive of out-
of-wedlock child-bearing and that raising a child outside of marriage 
would be more challenging in the future. The reduction in out-of-
wedlock births was, at least in part, a response to this message.
    Second, reform indirectly reduced welfare's disincentives to 
marriage. Traditional welfare stood as an economic alternative to 
marriage, and mothers on welfare faced very stiff financial penalties 
if they did marry. As women leave AFDC/TANF due to welfare reform, 
fewer are affected by welfare's financial penalties against marriage. 
In addition, some women may rely on husbands to provide income that is 
no longer available from welfare. Thus, as the number of women on 
welfare shrinks, marriage and cohabitation rates among low-income 
individuals can be expected to rise.
What Will Happen During a Recession?
    There is considerable concern over what will happen to welfare case 
loads and poverty during the current economic slowdown . . . No one at 
present can answer these questions, but a reasonable guess is that 
welfare case loads and poverty will rise during the slowdown, though 
not as steeply as they did in prior slowdowns.
    Throughout the slowdown or recession, TANF will provide support to 
parents without jobs.\26\ Welfare reform was not designed to kick 
single mothers off welfare and abandon them if they cannot find a 
private-sector job. If the number of available jobs shrinks during the 
recession, mothers should be welcomed back onto the TANF rolls. 
However, while on TANF, all parents should be required to perform 
community service work, training, or supervised job search. Such 
performance requirements will increase the incentive to re-enter the 
labor market and will reduce the length of future stays on welfare.
---------------------------------------------------------------------------
    \26\ A recession is two successive quarters of negative economic 
growth in which the Gross Nationl Product actually shrinks. A slow down 
is a period of little or no economic growth. The U.S. economy is 
currently in slow down rather than a full fledged recession.
---------------------------------------------------------------------------
    The re-entry into TANF of large numbers of former recipients may 
seem to conflict with strict time limits on the receipt of TANF 
benefits. However, federal and most state time limits have sufficient 
loopholes that time limits should not serve as an obstacle to receipt 
of benefits in most cases. Under no circumstances should a state deny 
TANF benefits to a parent who genuinely cannot find private-sector 
employment.
LOOKING TO THE FUTURE
    The trends of the past five years have led some of the strongest 
critics of welfare reform to reconsider their opposition, at least in 
part. In 1996, the Deputy Assistant Secretary for Human Services 
Policy, Wendell Primus, also resigned from the Clinton Administration 
to protest the President's signing of the welfare reform legislation, 
predicting that the new law would throw millions of children into 
poverty.
    As Director of Income Security at the Center on Budget and Policy 
Priorities, Primus has spent the past five years analyzing the effects 
of welfare reform. The evidence has tempered his earlier pessimism. He 
recently stated,
    In many ways welfare reform is working better than I thought it 
would. The sky isn't falling anymore. Whatever we have been doing over 
the last five years, we ought to keep going.\27\
---------------------------------------------------------------------------
    \27\ Quoted in Blaine Harden, ``Two Parent Families Rise after 
Change in Welfare Laws,'' The New York Times, August 12, 2001, Section 
1, p. 1.
---------------------------------------------------------------------------
    Wendell Primus is correct. When Congress reauthorizes the TANF 
program next year, it should push forward boldly to further promote the 
three explicit goals of the 1996 reform:

        <bullet> To reduce dependence and increase employment;
        <bullet> To reduce child poverty; and
        <bullet> To reduce illegitimacy and strengthen marriage.

    These three goals are linked synergistically. Work requirements in 
welfare will reduce dependence and increase employment, which in turn 
will reduce poverty. As fewer women depend on welfare in the future, 
marriage rates may well rise. Increasing marriage, in turn, is the most 
effective means of reducing poverty.
Next Steps in Reform
    When Congress re-authorizes the Temporary Assistance to Needy 
Families programs in 2002, it should take the following specific steps.
    1. Strengthen federal work requirements. Currently, about half of 
the 2 million mothers on TANF are idle on the rolls and are not engaged 
in constructive activities leading to self-sufficiency. This is 
unacceptable. Existing federal work requirements must be greatly 
strengthened so that all able-bodied parents are engaged continuously 
in supervised job search, community service work, or training.
    In addition, some states still provide federal welfare as an 
unconditional entitlement; recipients who refuse to perform required 
activities continue to receive most benefits. In re-authorizing the 
TANF program, Congress should ensure that the law will prohibit federal 
funds from being misused in this manner in the future.
    2. Strengthen marriage. As Charts 6 and 7 show, the poverty rate of 
single-parent families is about five times higher than among married 
couple families. The most effective way to reduce child poverty and 
increase child well-being is to increase the number of stable, 
productive marriages. This can be accomplished in three ways.
    First, the substantial penalties against marriage in the overall 
welfare system should be reduced. As it is currently structured, 
welfare rewards illegitimacy and wages war against marriage. That war 
must cease.\28\
---------------------------------------------------------------------------
    \28\ While it is widely accepted that welfare is biased against 
marriage, relatively few understand how this bias operates. Many 
erroneously believe that welfare programs have eligibility criteria 
that directly exclude married couples. This is not true. Nevertheless, 
welfare programs do penalize marriage and reward single parenthood 
because of the inherent design of all means-tested programs. In a 
means-tested program, the benefits are reduced as non-welfare income 
rises. Thus, under any means-tested system, a mother will receive 
greater benefits if she remains single than if she is married to a 
working husband. Welfare not only serves as a substitute for a husband, 
it actually penalizes marriage because a low-income couple will 
experience a significant drop in combined income if they marry.
    For example, the typical single mother on TANF receives a combined 
welfare package of various means-tested aid benefits worth about 
$14,000 per year. Suppose this typical single mother receives welfare 
benefits worth $14,000 per year while the father of her children has a 
low-wage job paying $15,000 per year. If the mother and father remain 
unmarried, they will have a combined income of $29,000 ($14,000 from 
welfare and $15,000 from earnings). However, if the couple marries, the 
father's earnings will be counted against the mother's welfare 
eligibility. Welfare benefits will be eliminated or cut dramatically 
and the couple's combined income will fall substantially. Thus, means-
tested welfare programs do not penalize marriage per se, but instead 
implicitly penalize marriage to an employed man with earnings. 
Nonetheless, the practical effect is to significantly discourage 
marriage among low-income couples. This anti-marriage discrimination is 
inherent in all means-tested aid programs, including TANF, Food Stamps, 
public housing, Medicaid, and the Women Infants and Children (WIC) food 
program.
---------------------------------------------------------------------------
    Second, the government should educate young men and women on the 
benefits of marriage in life.
    Third, programs should provide couples with the skills needed to 
reduce conflict and physical abuse and to increase satisfaction and 
longevity in a marital relationship.
    The 1996 TANF law established the formal goals of reducing out-of-
wedlock childbearing and increasing marriage, but despite nearly $100 
billion in TANF spending over the last five years, the states have 
spent virtually nothing on specific pro-marriage programs. The slowdown 
in the growth of illegitimacy and the increases in marriage have 
occurred as the incidental by-product of work-related reforms and not 
as the result of positive pro-marriage initiatives by the states. The 
current neglect of marriage is scandalous and deeply injurious to the 
well-being of children. In future years, 5 percent to 10 percent of 
federal TANF funds should be earmarked for pro-marriage initiatives.




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

CONCLUSION
    More than 20 years ago, President Jimmy Carter stated, ``the 
welfare system is anti-work, anti-family, inequitable in its treatment 
of the poor and wasteful of the taxpayers' dollars.'' \29\ President 
Carter was correct in his assessment.
---------------------------------------------------------------------------
    \29\ Quoted in Roger A. Freeman, Does America Neglect Its Poor? 
Stanford, Cal.: The Hoover Institution, 1987), p. 12.
---------------------------------------------------------------------------
    The 1996 welfare reform began necessary changes to the disastrous 
old welfare system. The rewards to non-work in the TANF program have 
been substantially reduced. But much more remains to be done. When 
Congress re-authorizes TANF next year, it should ensure that, in the 
future, all able-bodied welfare recipients are required to work or 
undertake other constructive activities as a condition of receiving 
aid.
    But increasing work is not enough. Each year, one-third of all 
children are born outside of wedlock; this means that one child is born 
to an unmarried mother every 25 seconds. This collapse of marriage is 
the principal cause of child poverty and welfare dependence. In 
addition, children in these families are more likely to become involved 
in crime, to have emotional and behavioral problems, to be physically 
abused, to fail in school, to abuse drugs, and to end up on welfare as 
adults.
    Despite these harsh facts, the anti-marriage effects of welfare, 
which President Carter noted over two decades ago, are largely intact. 
The current indifference and hostility to marriage in the welfare 
system is a national disgrace. In reauthorizing TANF, Congress must 
make the rebuilding of marriage its top priority. The restoration of 
marriage in American society is truly the next frontier of welfare 
reform.
                                 ______
                                 
    Members of The Heritage Foundation staff testify as individuals 
discussing their own independent research. The views expressed are 
their own, and do not reflect an institutional position for The 
Heritage Foundation or its board of trustees.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Rector. Now to testify, Mr. 
Primus.

STATEMENT OF WENDELL PRIMUS, DIRECTOR, INCOME SECURITY, CENTER 
                ON BUDGET AND POLICY PRIORITIES

    Mr. PRIMUS. Thank you. Mr. Chairman. What all Members of 
this Subcommittee want is to have both parents of the children 
who receive welfare to be working in the labor force and not in 
make-work pay jobs.
    Chairman HERGER. If you could speak directly into the 
microphone, please.
    Mr. PRIMUS. Is it on now?
    Chairman HERGER. Yes.
    Mr. PRIMUS. By that criteria, I would have to judge Mr. 
Cardin's bill vastly superior to that of the administration's 
proposal. Here is why. The Administration's proposal restricts 
State flexibility in how to achieve employment gains. Except 
for a 3-month period, only individuals who are in non-
subsidized work or in work experience programs count toward 
meeting the 70-percent work requirement. The Administration's 
proposal is a Washington-knows-best Welfare-to-Work model which 
would force many States to adopt a New York City style 
approach. There is no evidence that suggests this particular 
Welfare-to-Work model emphasizing work experience is better 
than any other State's model. The proposal does not provide any 
increased funds for childfare or in the TANF block grant. In 
fact, in real terms, the moneys are cut.
    The best way to describe the administration's proposal is 
that it is an unfunded mandate upon States. Forty-one out of 
the forty-seven States that have responded to the NGA survey of 
States suggests they would have to make fundamental changes to 
their programs to meet these new requirements. In a press 
release issued by Secretary Thompson, the administration 
insisted that all workfare recipients would not be required to 
work at below the minimum wage. However, Mr. Chairman, your 
bill still retains the 24-hour requirement. It was not changed. 
Therefore, it will be very hard for States like Louisiana to 
achieve these work requirements without waivers.
    In a study released yesterday, the Center on Law and Social 
Policy indicated that meeting these requirements would cost $15 
billion, about 26 percent of the TANF and child care block 
grants in 2007. States are already spending above their annual 
TANF grants.
    In sharp contrast, the Cardin bill would achieve additional 
employment gains because it increases State flexibility, 
especially with respect to education and training. It provides 
real increases in child care of $9 billion and adjusts the TANF 
block grant for inflation. It only rewards State efforts when 
mothers leave welfare rolls for work, and something that I 
think you would be very concerned about, Mr. Chairman, it 
allows immigrants to be served with federal TANF dollars. This 
means that immigrants would be subject to the work 
requirements. Under the administration's approach, immigrants 
cannot be served and there is no incentive for States to move 
them into the labor force.
    Despite what I have said thus far about work, the most far-
reaching and possibly the worst part of the administration's 
bill is the extraordinary waiver authority. This proposal would 
abrogate your role as elected Members of Congress and our 
system of governance. This is a wholesale grant of authority 
from this Committee and the Congress to the executive branch of 
government. This would allow, for example, the transfer of 
funds between programs, from the TANF program to the education 
programs, and change the appropriation authority of Congress. 
This would allow child support and child welfare programs to be 
block-granted. It would allow the Secretary to waive the 
requirement that all mothers receiving welfare cooperate with 
child support and would allow the minimum wage laws not to 
apply to work experience programs.
    The language in H.R. 4090 is far too broad. If the issue is 
flexibility, change the rules that unduly restrict the ability 
of States to properly and efficiently administer these 
programs. All the Members of this Committee want effective 
government. You should be able to do this in a manner other 
than throwing up your arms and letting unelected officials make 
these decisions for you.
    On child support, as you all realize, the distribution 
rules are way too complex. You produced a good bipartisan bill 
in late 2000. You passed it on the House Floor by a vote of 405 
to 18. There is no reason why you should not return to those 
provisions.
    Let me add one thought about promoting marriage. I think 
the approach that is in your bill, Mr. Chairman, is too narrow 
and inflexible. If you want strong families, I think you also 
need to be concerned about childbearing among teens. It makes 
no sense to cut DOL programs that help males get jobs at the 
same time you are providing marriage skill training. My final 
point, Mr. Chairman, is I hope that this Committee could write 
a bipartisan bill in the House.
    [The prepared statement of Mr. Primus follows:]
  Statement of Wendell Primus, Director of Income Security, Center on 
                      Budget and Policy Priorities
    Thank you, Mr. Chairman, and members of the Committee, for the 
opportunity to testify before you today. I am Wendell Primus, Director 
of Income Security for the Center on Budget and Policy Priorities. The 
Center is a non-profit institute that conducts research and analysis on 
policy issues affecting low-and moderate-income families at both the 
state and federal levels. We receive no government funding.
    My testimony will briefly review the experience of welfare reform 
over the last six years, then analyze the Chairman's TANF 
reauthorization bill in light of what research and state experience 
have shown to be effective in moving families from welfare-to-work. 
Finally, I will outline a work-focused alternative plan that would 
allow states to address some of the remaining challenges of welfare 
reform by building on current successful state-based approaches.
The Experience of the First Six Years of Welfare Reform
    Nearly six years ago, Congress passed legislation that dramatically 
altered the basic safety net for low-income families with children. The 
Aid to Families with Dependent Children (AFDC) program, which had 
existed for 60 years, was dismantled, and a new block grant--Temporary 
Assistance for Needy Families (TANF)--was put in its place.
    States used their block funds to design programs that capitalized 
on the strong economy and moved welfare recipients into private-sector 
jobs. As cash assistance case loads tumbled and the economy surged, 
employment rates among single mothers rose significantly, continuing a 
upward trend that began in 1993. While clearly playing a role, the 
law's work requirements were not the only factor in this increase. 
States were able to use TANF funds to create an expanded system of 
supports for low-income working families. In addition to helping 
families leave welfare, these supports, including child care, 
transportation assistance, and state earned income tax credits, have 
helped low-wage workers avoid going on to welfare in the first place. 
Besides TANF, other federal programs, including Medicaid, the Earned 
Income Tax Credit, and the Child Care and Development Block Grant 
(CCDBG)--all expanded in the 1990s--are part of this work support 
system.
    The extent to which TANF has been transformed into a work support 
system is reflected in state spending patterns and the number of 
families served in TANF that do not receive welfare. Fewer than 4 out 
of every 10 TANF dollars are now spent on cash assistance.\1\ The 
largest share of the remaining dollars is spent on child care and other 
work supports. It is important to note that the work support system 
funded by TANF extends beyond welfare recipients to low-income families 
who have left welfare and those who have never received welfare. 
Unfortunately, there is no official count of the number of families who 
receive TANF-funded work supports outside of the welfare system. 
However, recent GAO data suggest that at least 1 million non-welfare 
families--and quite likely many more--receive work supports funded in 
part with TANF.\2\ Thus, the number of non-welfare families receiving 
TANF-funded work supports is likely as large, if not substantially 
larger, than the number of families receiving cash assistance who are 
subject to TANF work requirements.\3\
---------------------------------------------------------------------------
    \1\ Center on Budget and Policy Priorities analysis of fiscal year 
2001 data reported by states to the Department of Human Services.
    \2\ U.S. General Accounting Office, Welfare Reform: States Provide 
TANF-Funded Services to Many Low-Income Families Who Do Not Receive 
Cash Assistance, March 15, 2002, http://www.house.gov/cardin/
GAO__TANF.pdf. GAO counted the number of non-welfare families in a 
single TANF-funded program in 22 states (generally the TANF-funded 
program with the most participants) and the number of non-welfare 
families in more than a single program in three states. This count 
yielded approximately 830,000 non-welfare families who received TANF-
funded services. GAO noted that this is a substantial underestimate of 
the number of families receiving TANF-funded services. If the count 
were extended to all 50 states, included participants in MOE-funded 
separate state programs, and encompassed more than a single program 
from each state, the number would easily exceed one million families. 
For a further discussion of these points, see Center on Budget and 
Policy Priorities, TANF's ``Uncounted'' Cases: At Least One Million 
Families Receiving Services in TANF-Funded Programs Not Included in 
TANF case load, April 2002.
    \3\ Of the roughly 2.1 million TANF cash assistance cases, about 
1.3 million include adults who are subject to federal work 
requirements. More than a third of the cash assistance case load (about 
700,000 cases) is composed of ``child-only'' cases that are not subject 
to federal work requirements. Approximately 8-9 percent of the 
remaining cases (roughly 110,000 to 130,000 cases) are families who are 
not subject to federal work requirements because they include a child 
under age 1. Thus, slightly less than 1.3 million TANF families are 
subject to the federal work requirements.
---------------------------------------------------------------------------
    While states have made substantial progress on the employment front 
in the last few years, the reduction in poverty has been much more 
modest than the reduction in TANF case loads or the increase in 
families with earnings. Trends in the ``child poverty gap'' provide 
strong evidence that this is due in part to the large reductions in the 
amount of cash assistance and food stamp received by eligible families. 
(The child poverty gap, which many analysts consider the single best 
measure of child poverty, is the total amount by which the incomes of 
all poor children fall below the poverty line.)
    Before counting means-tested programs, the child poverty gap 
declined substantially between 1995 and 2000, just as it had between 
1993 and 1995. The drop in the child poverty gap, as measured before 
means-tested benefits are counted, primarily reflects the effect of the 
economy in reducing child poverty through increases in employment and 
earnings among parents. But when the benefits of means-tested programs 
(and federal tax policy) are taken into account, the picture changes.

----------------------------------------------------------------------------------------------------------------
                           Child Poverty Gap Statistics (in billions of 2000 dollars)
-----------------------------------------------------------------------------------------------------------------
                                                                                            Change      Change
                                                                   1993    1995    2000    1993-1995   1995-2000
----------------------------------------------------------------------------------------------------------------
Before Means-Tested Benefits and Taxes                             $87.9   $75.5   $52.4      $-12.4      $-23.1
----------------------------------------------------------------------------------------------------------------
After Means-Tested Benefits and Taxes                              $33.1   $25.7   $22.1       $-7.4       $-3.6
----------------------------------------------------------------------------------------------------------------

    While the gap--still shrunk--by $3.6 billion between 1995 and 
2000--this was much more modest than the $7.4 billion drop that 
occurred between 1993 and 1995, even though pre-transfer poverty fell 
nearly twice as much during the later time period.\4\ These data 
strongly support the conclusion that poverty could have fallen at a 
faster rate between 1995 and 2000 if declines in the numbers of 
children receiving means-tested benefits had not been as sharp.
---------------------------------------------------------------------------
    \4\ Center on Budget and Policy Priorities analysis of Current 
Population Survey data.
---------------------------------------------------------------------------
    There appears to be broad bipartisan consensus in Washington and 
among states that an important goal of the next five years of welfare 
reform is to enhance child well-being, which includes reducing the 
extent and depth of poverty among families with children. Meeting this 
goal will require moving beyond welfare reform's initial focus on case 
load decline--a move that many states are already in the process of 
making. In addition, most agree that further progress on this goal will 
require addressing the following challenges:

        <bullet> Helping TANF Recipients Who Have Severe ``Barriers'' 
        to Employment that Impede Their Progress in Moving toward Self-
        sufficiency: While there are significantly fewer families on 
        welfare, a recent General Accounting Office study found that 38 
        percent of them have a severe physical or mental health 
        impairment. Studies have found that these and other barriers--
        including domestic violence, lack of stable housing, and having 
        a disabled child--significantly reduce the likelihood of 
        working. In order to make these families part of welfare 
        reform's success, we need to be realistic about what it is 
        going to take to get them from where they are today to where 
        they need to be, and ensure that states have the resources and 
        flexibility to work with them intensively towards that goal.
        <bullet> Doing More to Help Recipients Find Better-paying and 
        More Secure Jobs that Can Support a Family: TANF recipients 
        typically end up in low-paying jobs--most earn less than $8.00 
        an hour and many earn significantly less than that. Data from 
        studies of parents who left welfare for work show that median 
        quarterly earnings for families that left TANF and were working 
        were typically between $2,000 and $2,500, roughly 33 percent 
        below the poverty level for a family of three.\5\ Earnings do 
        grow after leaving welfare, but they still remain quite low 
        even years later. A Wisconsin study that tracked welfare 
        leavers in that state found that nearly 60 percent had below-
        poverty-level incomes even three years after leaving 
        welfare.\6\
---------------------------------------------------------------------------
    \5\ Elise Richer, Steve Savner, and Mark Greenberg, Frequently 
Asked Questions about Working Welfare Leavers, Center for Law and 
Social Policy, December 2001.
    \6\ Maria Cancian, Robert Haveman, Daniel R. Meyer, and Barbara 
Wolfe, Before and After TANF: The Economic Well-Being of Women Leaving 
Welfare, May 2000.
---------------------------------------------------------------------------
        <bullet> Strengthening Families: Several ``family formation'' 
        trends have taken a positive turn in recent years. The teen 
        birth rate has fallen significantly since the early 1990s. The 
        share of children, particularly low-income children, living in 
        two-parent families increased while the share living in single-
        parent families fell. The number of paternities established 
        soared in the 1990s and amount of child support collected in 
        the federal-state child support system increased dramatically. 
        While these statistics are heartening, there is further 
        progress to be made on all of these fronts.

    States have begun to fine-tune their TANF programs to address these 
issues, but much more could be done to improve outcomes for families in 
these areas. TANF reauthorization should address these challenges by 
building on current effective state strategies where they exist, and 
supporting research and demonstrations to develop a knowledge base on 
which to build future successful programs.
The Work Provisions in H.R. 4090
    H.R. 4090 includes a far-reaching set of changes to the work 
provisions in the TANF law. The most significant changes are to TANF's 
participation rate structure under which states must place a certain 
percentage of families in federally-authorized work activities or face 
fiscal penalties. The proposed legislation makes the following changes 
to the participation rate structure.

        <bullet> States would have to place 70 percent of TANF 
        families in specified work activities by fiscal year 2007, up 
        from 50 percent in the current fiscal year.
        <bullet> The current case load reduction credit--which reduces 
        state participation rates by 1 percentage point for each 1 
        percentage point reduction in case loads since 1995--would be 
        replaced with a ``rolling'' credit. Instead of being based on 
        the reduction in case loads since 1995, a state's participation 
        rate would be determined each fiscal year based on the 
        percentage reduction in the state's case load in the three 
        preceding fiscal years.
        <bullet> To count fully toward the rate, families with 
        children age 1 or older would have to participate in work 
        activities for 40 hours a week. This change would double the 
        number of hours required for parents with children under age 6 
        and increase by 10 hours a week the number of hours required 
        for other families.
        <bullet> The work activities that count toward the first 24 
        hours of the work requirement would be narrowed to paid work 
        (unsubsidized and subsidized employment, and on-the-job 
        training) and unpaid work (work experience programs and 
        supervised community service). States would be able to count 
        families placed in substance abuse, rehabilitative activities, 
        work-related training, and job search or job readiness 
        assistance, but for no more than three consecutive months in 
        any 24-month period.

    Instead of addressing the remaining challenges by building on 
current state strategies to help families overcome barriers to 
employment and find better jobs, the proposed legislation would curtail 
state flexibility and effectively require all states to adopt a 
federally proscribed welfare-to-work program structure. States would be 
forced to restructure their current programs and abandon many of the 
successful strategies they currently use to help parents prepare for, 
find, and retain employment in favor of more costly programs. Such a 
change might be warranted if states had clearly failed to implement 
effective welfare-to-work programs over the past few years, or if there 
were research evidence showing that the proposed approach was more 
effective at addressing current welfare reform challenges than existing 
state approaches. There is, however, no evidence to support either of 
these conclusions; indeed, there is evidence to suggest that the 
proposed approach could be less effective than other state-based 
approaches.
    The reformulated case load reduction credit is likely to give 
states little help toward meeting the work participation requirements. 
Under H.R. 4090, states would only get credit toward their work 
participation rates if the overall case load fell over the previous 
three-year period. While no one can predict case load levels with 
certainty, the rapid case load decline that occurred in the mid 1990s 
appeared to be leveling off even before the recession and in 2001, 34 
states saw their case loads increase. It should be noted that when a 
state's cash assistance case load remains steady, this does not mean 
that families are not moving from welfare-to-work. It simply means that 
the number of families who have fallen on hard times and need help, at 
least temporarily, is about the same as the number of recipients who 
were able to leave welfare, often because they found jobs.
The Proposed Participation Rate Structure Would Limit State Flexibility
    Under H.R. 4090, states would be required to place a substantially 
increased proportion of their case loads in a very narrow set of work 
activities or be subject to fiscal penalties. Two activities, job 
search and vocational education, that currently count toward the rate 
would not count at all toward the 24-hour requirement. For recipients 
who do not already have an unsubsidized job, they could only be counted 
toward a state's work participation rate if they worked in a subsidized 
job or participated in work experience, supervised community service, 
or on-the-job training programs for 24 hours each week. Families would 
have to be placed in one of these activities even if the state does not 
believe this would be the best approach to helping them succeed in the 
labor market.
    Some may argue that because participation rates remain below 100 
percent, states will continue to have the flexibility to structure 
different activities for a significant share of its TANF recipients. 
This is incorrect. While the participation rate that states will be 
required to meet is less than 100 percent, to achieve a participation 
rate in the 60 to 70 percent range, they will need to impose the 
federally-mandated work requirements on nearly 100 percent of families. 
This is the case for two reasons. First, some parents will not be able 
to meet the hourly requirements for a particular week because of 
personal family circumstances, including illness or having to care for 
an ill child.\7\ Second, even in well-run programs, a significant 
number of recipients are not in activities at any given time because 
they are waiting for a program to begin a new session, are between work 
activities or assignments, or they cannot begin a work activity until 
child care is in place. Researchers have recognized that in order to 
attain any given participation rate, a state must actively seek to 
attain participation for a considerably larger group of families.\8\
---------------------------------------------------------------------------
    \7\ The proposal does allow for very limited ``leave'' for 
recipients. While months have an average of 4.33 weeks in them, the 
proposal would provide full credit to a state for a family in which a 
parent participated in countable activities for 160 hours in the 
month--the equivalent of four, 40 hour weeks, rather than 4.33, 40 hour 
weeks. Thus, in an average month, a parent could ``miss'' up to 13 
hours of required activities and still count fully toward the state's 
work rates. It appears that if the hours were missed in direct work 
activities, however, the state could lose all credit for the family 
toward the work participation requirements. The proposal requires, ``at 
least 24 hours per week in a month'' of participation in direct work 
activities which would appear to mean that if a parent were scheduled 
to participate in work experience (a direct work activity) 24 hours 
each week and missed two days in a particular week because her child 
was sick, she would need meet the requirement that she participate 24 
hours each week in direct work activities and the state would not be 
able to count her toward the work participation requirements.
    \8\ Gayle Hamilton and Susan Scrivener, Manpower Demonstration 
Research Corporation, Promoting Participation: How to Increase 
Involvement in Welfare-to-Work Activities, September 1999.
---------------------------------------------------------------------------
    The proposed legislation would allow states to count families 
placed in substance abuse, rehabilitative activities, work-related 
education or training, and job search and job readiness activities for 
three consecutive months in any 24 month period. It also would allow 
states to define what counts toward work for the final 16 hours of the 
40 hour work requirement. As a practical matter, however, these 
provisions provide almost no new flexibility for states.
    Under current law, states actually have considerable flexibility to 
place participants in the types of activities that the proposed 
legislation would now limit to three months. While some of these 
activities do not currently count toward the work participation rates 
(except in several states with waivers that the proposed legislation 
would rescind), states have generally achieved actual participation 
rates that are substantially higher than the required federal standard. 
This is due in large part to the current law's case load reduction 
credit that lower the rates states must meet based on the decline in 
case loads since 1995. As a result, states have been able to place 
recipients in activities that do not count toward the federal rate 
without having to be concerned that they would fail to meet the 
required standard. Many states have used this flexibility to place 
participants in barrier-removal activities that have not necessarily 
been limited to three months, while maintaining their otherwise 
vigorous and intensive efforts to move recipients to work.
    By increasing the overall rates and modifying the case load 
reduction credit in a manner that would likely limit the extent to 
which it reduces states' effective rates over time, the proposed 
legislation would eliminate this flexibility that currently exists.
    Similarly, allowing states to define work activities that count 
toward the final 16 hours of a 40-hour requirement is not an 
enhancement to the flexibility states have under the current work 
participation requirements. For families with children age 1 to 6, the 
federally-mandated work requirement is 20 hours but states are free 
(and many do) require participation in state-approved activities--
activities which may differ from the work activities under current 
federal law--for additional hours each week. Since the proposed 
legislation would require an additional 20 hours of work for these 
families, it can only be characterized as limiting state flexibility 
for them, regardless of whether states are able to define allowable 
work activities for 16 of the new hours.
    For families with school-age children who are currently subject to 
a 30-hour requirement, the proposed legislation would allow states to 
count a broader range of activities toward hours 25 through 30 of the 
work requirement than is currently allowed. This is a very limited 
enhancement of flexibility, however, given that the plan would also 
narrow substantially what counts toward the first 24 hours of the work 
requirement. In addition to prohibiting vocational education, job 
readiness, and job search from counting toward the first 24 hours, the 
plan would not allow other educational activities and job skills 
training--which currently can count for 10 of the required 30 hours--to 
count until the 24 hour requirement in direct work activities is 
satisfied.
    Moreover, regardless of the child's age, in order to meet the 24-
hour requirement, states will likely have to place families in the 
narrower set of paid and unpaid work activities for more than 24 hours. 
This is because a state gets no credit for an individual participating 
in the work activities prescribed by the proposed legislation for 23 
hours or less, even if they are in other activities for 16 hours. To 
avoid the potential risk of not getting any credit for a family, states 
are likely to schedule participants in the narrower set of activities 
for significantly more than 24 hours each week.
    Finally, many states--particularly those with low cash benefit 
levels--will have difficulty meeting the work requirements while 
complying with the federal legal requirement that recipients not be 
required to work at an effective wage below the minimum wage. Many TANF 
recipients receive only partial benefits because they have other forms 
of income (including Social Security benefits) while many families in 
low-benefit states receive cash assistance benefits that are below $200 
per month. The Herger bill makes no exception to the requirement that 
families participate in paid or unpaid work for 24 hours each month for 
families in which such a requirement would mean that they were working 
at below the minimum wage.\9\
---------------------------------------------------------------------------
    \9\ There is also no mechanism to reduce the number of required 
hours by any child support paid to the state by a non-custodial parent 
of a child receiving TANF assistance. In these cases, even if the state 
retains the child support to reimburse itself for the assistance 
provided to the child, the custodial parent would be required to work 
off the entire TANF grant, rather than the amount of the grant less the 
among of child support received. In effect, the custodial parent would 
be forced to work off the non-custodial parent's child support payment.
---------------------------------------------------------------------------
   States would be Forced to Abandon their Own Successful Approaches
    Under the proposal, all states would face sharply increased work 
participation rate requirements that would require them to focus on 
meeting these requirements to avoid fiscal penalties. Families that are 
not able to find unsubsidized employment, would have to be placed in 
subsidized work, work experience, supervised community service, and on-
the-job training. Only a few states and localities have welfare-to-work 
programs that place a substantial number of parents in these activities 
and only about 7 percent of TANF recipients nationally who are not 
working participate in one of these narrow activities.\10\ As a 
consequence, most states would have to reconstruct their work programs, 
jettisoning current employment initiatives in favor of the narrow set 
of activities that would meet the new prescriptive federal 
requirements.\11\
---------------------------------------------------------------------------
    \10\ U.S. Department of Health and Human Services, Office of 
Planning, Research and Evaluation, Average Monthly Number of Adults 
with Hours of Participation by Work Activity as a Percent of the Total 
Number of Adults, Fiscal Year 2000, Table 6C, http://www.acf.dhhs.gov/
programs/opre/particip/.
    \11\ Nationally, in fiscal year 2000, about 21 percent of TANF 
recipients subject to the work requirements satisfied those 
requirements by working in an unsubsidized job. An additional 7 percent 
of TANF recipients worked in unsubsidized jobs but worked fewer hours 
than required to satisfy current law work requirements. Even assuming 
that 28 percent of recipients can be counted toward the work 
participation requirements in H.R. 4090 because they are combining work 
and welfare, states would have to achieve a very large increase in the 
proportion of recipients participating in subsidized employment, work 
experience programs, and supervised community service programs to 
achieve the proposed participation rate standards. (It is also 
important to note that many of those currently combining work and 
welfare do not participation in work activities for a total of 40 hours 
each week and, thus, would not be countable toward the proposed 
requirement.)
---------------------------------------------------------------------------
    Instead of large-scale subsidized work or work experience programs, 
most states operate welfare-to-work programs that are focused on 
placing participants in unsubsidized private-sector employment. These 
programs generally require participants to conduct an intensive job 
search often in conjunction with ``soft-skills'' training and other job 
readiness activities. In keeping with recent research findings 
discussed below on the effectiveness of what is commonly referred to as 
a ``mixed strategy'' approach, a growing number of states are modifying 
their programs to combine an overall work emphasis with opportunities 
for pre-employment training and targeted vocational education. While 
work experience is often a component in these types of programs, it is 
typically used on a case-by-case basis, rather than as a one-size-fits-
all activity for every participant who does not immediately find 
unsubsidized employment.
    While evaluation studies that cover all 50 states and compare the 
effectiveness of all of the varying work program approaches are not 
available, the data that is available generally finds that states using 
strategies quite different from the particular program model the 
proposed legislation would mandate have been successful in helping 
large numbers of parents move from welfare-to-work. In fact, many 
states utilizing very different approaches have achieved rates of case 
load reduction and employment that equal or exceed national averages.
    There is some evidence to suggest that the model mandated by the 
proposed legislation could be less effective than other state 
approaches. Washington State's recent decision to discontinue its work 
experience program is instructive on this point. The state's decision 
was based in part on results from a recent evaluation of the state's 
TANF program which found that work experience had no positive impact on 
participant earnings, while other activities--including jobs skills 
training, a paid transitional jobs program, and pre-employment 
training--all had positive impacts on earnings.\12\ The pre-employment 
training program had the strongest earnings impacts, increasing 
quarterly earnings by $864. The work experience program did appear to 
increase employment rates somewhat, but other activities, including job 
skills training increased employment by a greater amount.
---------------------------------------------------------------------------
    \12\ Marieka Klawitter, Effects of WorkFirst Activities on 
Employment and Earnings, University of Washington, September 2001.
---------------------------------------------------------------------------
    Of the programs evaluated in Washington State, only the work 
experience program and the paid transitional jobs program would appear 
to count toward the first 24 hours the proposed work rates.\13\ Since 
the paid transitional jobs program is too expensive to operate on the 
large scale that would be required to meet the proposed rates, 
Washington State would have little choice but to resurrect a work 
experience program that it had previously discontinued because of poor 
results.
---------------------------------------------------------------------------
    \13\ Washington State also places a substantial number of families 
in ``community service'', but this activity was not evaluated and 
appears to be defined in broader fashion than would be allowable under 
H.R. 4090.
---------------------------------------------------------------------------
    The model that would be dictated by the proposed legislation also 
runs counter to the growing state interest in tailoring work activities 
more closely to the needs of individual parents rather than being 
limited to a narrow set of work activities countable toward the work 
participation requirements. States want to move their work programs in 
this direction in part because of the substantial evidence that now 
exists about the extent of barriers to employment among the remaining 
TANF case load. By narrowing what counts toward meeting work 
requirements and diverting funding to that very limited set of 
activities, the proposed legislation will make it more difficult for 
states to invest in benefits and services that address the significant 
challenges that remain--helping the harder-to-employ move from welfare-
to-work and helping recipients with persistently low wages qualify for 
higher-paying jobs. In fact, in February the National Governors' 
Association passed on a bipartisan basis a welfare reform policy that 
called on Congress to allow states to count a broader range of 
activities toward the work participation requirements.\14\
---------------------------------------------------------------------------
    \14\ National Governors' Association, HR-36, Welfare Reform Policy.
---------------------------------------------------------------------------
The Proposed Legislation Would Mandate an Approach that Runs Counter to 
                 Two Decades of Welfare Reform Research
    The legislation would mandate an approach that falls outside of the 
mainstream of current state welfare-to-work approaches despite a lack 
of research evidence indicating that it would be more effective than 
other work programs that are evaluated over the last two decades. The 
clearest finding from this extensive body of research is that providing 
a range of employment and training services is the most effective 
welfare-to-work strategy, rather than the one-size-fits-all model that 
the H.R. 4090 would impose on states. The single most effective program 
in the recently completed 11-program National Evaluation of Welfare-to-
Work Strategies (NEWWS)--a program that operated in Portland, Oregon in 
the mid-1990s--did not have a large-scale work experience component. 
Instead, the Portland program emphasized moving participants quickly 
into private sector jobs, while allowing for varied initial activities 
and establishing performance standards that encouraged case managers to 
help participants find jobs that paid well above the minimum wage and 
offered better long-term career opportunities.\15\ Participants were 
more likely to find better-paying jobs that were full-time and provided 
employer-based health insurance than welfare participants in a control 
group.
---------------------------------------------------------------------------
    \15\ Fewer than 15 percent of participants participated in work 
experience in the Portland program. Significantly more participants 
were placed in basic education, vocational education, and job search. 
Susan Scrivener, Gayle Hamilton, et al., Manpower Demonstration 
Research Corporation, Implementation, Participation Patterns, Costs, 
and Two-Year Impacts of the Portland (Oregon) Welfare-to-Work Program, 
May 1998. The Portland program only used work experience on a 
individualized basis and program staff custom-designed positions based 
on participant's skills and interests.
---------------------------------------------------------------------------
    Similarly, none of the programs that have been shown to measurably 
increase child well-being included work experience as a significant 
program component. Perhaps the most notable example is the Minnesota 
Family Investment Program (MFIP) demonstration, which increased child 
well-being (as measured by school performance and behavior), in 
addition to having strong positive impacts on employment, poverty, and 
marriage rates. MFIP achieved these outcomes despite placing fewer 
participants in work experience than in any other program 
component.\16\ Minnesota has since adopted a statewide TANF program 
modeled on this demonstration program. Program administrators have said 
that the change proposed by the Administration would force them to 
shift away from this program model in spite of its unprecedented 
success.
---------------------------------------------------------------------------
    \16\ Over a 36-month period, less than six percent of longer-term 
recipients and about two percent of shorter-term recipients (new 
applicants when the program began) participated in on-the-job training 
or work experience. As in Portland, substantially more clients were 
placed in job search, vocational education, and other educational 
activities. Cynthia Miller, et al., Manpower Demonstration Research 
Corporation,  Reforming Welfare and Rewarding Work: Final Report on the 
Minnesota Family Investment Program, September 2000.
---------------------------------------------------------------------------
LSweeping New Waiver Authority Is the Wrong Mechanism for Assuring 
        Adequate State Flexibility
    The Herger bill would allow the Secretaries of HHS and the 
Department of Labor to waive any program rule in any program operated 
through their agencies, with the exception of Medicaid (though it 
appears that states could seek waivers of SCHIP rules). A companion 
TANF reauthorization bill introduced by Rep. McKeon (R-CA), chairman of 
the subcommittee on 21st Century Competitives of the House Education 
and Workforce Committee (which has joint jurisdiction over some parts 
of the TANF program) also would include programs under the Secretary of 
Education in this ``super waiver'' proposal. Programs that could be 
affected include unemployment insurance, student loans and aid 
programs, federal support for K-12 education, job corps, head start, 
the public health service, and family planning programs. Some have 
cited this so-called super-waiver proposal as the answer to questions 
raised about the significant restraint on state flexibility included in 
the work-related sections of the proposal. (While the current proposal 
is limited to programs in these agencies, the Administration's original 
proposal was broader and House leaders have indicated that programs in 
other agencies will be added to the super-waiver proposal by other 
House committees.)
    The super-waiver proposal does not limit the number of states that 
can be granted particular types of waivers nor does it impose any 
significant limitations on the types of rules states can apply to have 
waived, except that a waiver must not result in higher federal costs 
than would be incurred under standard federal law. This is in contrast 
to most current waiver provisions. For example, the Workforce 
Investment Act allows states to apply for waivers but prohibits waivers 
of federal worker protection and minimum wage laws. Moreover, unlike 
past waiver policies which allowed states to operate demonstration 
projects to test the efficacy of new initiatives or alternative 
approaches, there would be no requirement that these waivers have a 
research objective or even be subject to an independent evaluation. 
Rather than being designed to encourage states to test new approaches, 
this waiver policy simply would allow waivers of any program rule a 
state did not like.
    The following are just some examples of the kinds of waivers which 
the Secretaries of these agencies would have authority to approve:

        <bullet> The Secretary of the Department of Education could 
        waive any rules related to federal education funding, including 
        formulas that direct resources to low-income children.

        <bullet> The Secretary of HHS could approve a state waiver in 
        which key federal TANF program rules are eliminated--including 
        the maintenance-of-effort requirement, data reporting 
        standards, or the requirement that states not sanction a parent 
        that could not meet work requirements due to a lack of child 
        care.

        <bullet> HHS also could approve a waiver in which a state 
        would be permitted to divert all of the resources it now 
        devotes to activities to ensure that child care providers offer 
        safe, high-quality care to other purposes. As child care 
        budgets tighten due to heightened work requirements and frozen 
        funding, states may be tempted to ignore the importance of the 
        quality of child care services and wish to focus solely on 
        placing as many children as possible in child care programs. 
        Basic health and safety protections now required under federal 
        law also could be waived.

        <bullet> Waivers that transfer substantial resources from 
        activities permissible under one program to entirely different 
        programs also would be permissible. For example, the 
        Secretaries of these agencies could approve waivers in which 
        federal TANF funds are shifted to provide student aid to 
        middle-income college students, to augment federal funding for 
        public education, or employment and training programs for 
        higher-income laid-off workers.

        <bullet> The Herger bill also would appear to allow the 
        Secretaries to waive other independent statutory and regulatory 
        requirements applicable to programs within their jurisdiction, 
        including minimum wage requirements, OSHA standards, and civil 
        rights regulations. At a minimum, there is no language in the 
        bill that would clearly prohibit waivers of these requirements. 
        There also is little question that the Secretaries would be 
        able to waive certain program-specific civil rights protections 
        that provide greater protections than general civil rights law 
        or that clarify the applicability of civil rights rules to 
        specific programs. This would include section 188 of WIA which 
        contains equal opportunity and nondiscrimination protections 
        specific to WIA and 408(c) of TANF which provides that the 
        Americans with Disabilities Act and Title VI of the Civil 
        Rights Act of 1964 apply to TANF.

    If programs under the jurisdiction of other agencies, the problems 
only compound. If programs under the Departments of Agriculture and 
Housing are included, for example, a state could apply for waivers that 
could dramatically reorder federal funding priorities involving 
billions of dollars and cutting across multiple programs.
    The only statutory limitation, other than cost-neutrality, on these 
Secretaries' authority to approve waivers is that the state applying 
must show that the waiver would further the purposes of all of the 
programs involved. This language is so vague that a Secretary could 
determine that any state proposal met this test.
    In short, this broad new waiver authority would mean that if a 
state and the administration agree that they do not approve of a 
statutory provision in TANF, public health programs, child care 
programs, education and training programs, or any other program within 
the jurisdictions of HHS and DoL, they can effectively exercise line-
item veto power and have that rule waived. This would eliminate any 
assurance that Congress could establish any national standard or 
requirement in programs within HHS or DoL. If enacted, this waiver 
authority would represent an unprecedented abrogation of Congressional 
authority to establish funding priorities, set funding levels, and 
legislate program parameters. In transferring such authority to the 
Executive branch, this provision would allow any Administration to 
make, in conjunction with a state, unilateral policy decisions that 
Congress never would have agreed to within the legislative process.
    Such broad waiver authority is not needed and could be very 
damaging. If there are particular areas within a program in which there 
is consensus that states should have more flexibility in establishing 
rules, those areas should be addressed in a targeted manner. For 
example, if there is consensus that states should have more latitude in 
the way they design their welfare-to-work programs, then the TANF 
statute should provide that flexibility. Similarly, if there are 
particular areas in which states should have more flexibility to align 
WIA and TANF rules, those areas should be identified and the statutes 
altered to provide that flexibility.
    It also should be noted that the Herger bill would terminate 
welfare-related waiver programs currently operating in some 10 states. 
These waivers were granted prior to the enactment of TANF and states 
with such waivers were allowed to continue those programs, even if they 
conflicted with federal TANF rules, under the 1996 welfare law. It 
seems odd that while seeking to provide the Administration and states 
with new ways to seek very broad waivers, that the bill would terminate 
those waivers already in place.
    The Herger bill also would appear to allow the Secretaries to waive 
other independent statutory and regulatory requirements applicable to 
programs within their jurisdiction, including minimum wage 
requirements, OSHA standards, and civil rights regulations. At a 
minimum, there is no language in the bill that would clearly prohibit 
waivers of these requirements. There also is little question that the 
Secretaries would be able to waive certain program-specific civil 
rights protections that provide greater protections than general civil 
rights law or that clarify the applicability of civil rights rules to 
specific programs. This would include section 188 of WIA which contains 
equal opportunity and nondiscrimination protections specific to WIA and 
408(c) of TANF which provides that the Americans with Disabilities Act 
and Title VI of the Civil Rights Act of 1964 apply to TANF.
LThe Child Support and Family Formation Provisions of the 
        Administration's Plan
    The proposed legislation makes several changes in the areas of 
child support and family formation.

        <bullet> For current and former welfare recipients, states 
        would be given a new option and new incentives to direct child 
        support payments currently retained by states and the Federal 
        Government to families. (Collections on behalf of current and 
        former welfare recipients are often retained by the Federal 
        Government and states as reimbursement for welfare costs.)
        <bullet> The ``illegitimacy reduction bonus'' would be 
        replaced with a ``Healthy Marriage Promotion'' competitive 
        matching grant program. States would be able to use federal 
        TANF funds to meet the state match requirement.
        <bullet> An additional $100 million is diverted from the high 
        performance bonus for use by the Secretary to fund further 
        marriage promotion research, demonstrations, and technical 
        assistance.
        <bullet> The fourth purpose of TANF would be changed from 
        ``encourag[ing] the formation and maintenance of two-parent 
        families'' to ``encourag[ing] the formation and maintenance of 
        healthy, 2-parent married families, and encourag[ing] 
        responsible fatherhood.'' States would be required to establish 
        annual, specific plans and numerical performance goals to 
        improve outcomes with respect to this purpose and the other 
        three purposes of TANF.

  Child Support Provisions are More Modest than Earlier House-Passed 
                              Legislation
    There is strong evidence that non-custodial parents are more likely 
to pay child support if they know that the support goes to their 
children. Research has shown that when child support is passed through 
to families receiving welfare, the child support paid by noncustodial 
parents increases, welfare receipt declines, and children's financial 
well-being improves.\17\
---------------------------------------------------------------------------
    \17\ Vicki Turetsky,  Reauthorization Issues: Child Support 
Distribution, Fact Sheet: ``Early Findings from Wisconsin Experiment to 
Get More Child Support to Families,'' Center for Law and Social Policy, 
February 2002, http://www.clasp.org/pubs/childenforce/
Early%20Findings%20from%20Wisconsin%20W.pdf.
---------------------------------------------------------------------------
    The Herger bill includes two provisions that would help states to 
implement policies that increase the extent to which child support goes 
directly to children. The first provision would provide states with an 
option to direct delinquent child support payments collected by 
intercepting noncustodial parents' federal tax refund checks to the 
children of former welfare recipients. The second provision would help 
states to implement or enhance policies that direct a portion of child 
support payments collected from noncustodial parents of children 
currently receiving TANF to their children. Under current law, states 
and the Federal Government generally retain child payments made by 
noncustodial parents of children receiving TANF. While states already 
have the flexibility to pass through child support, if they exercise 
this option, they must still send the Federal Government its portion of 
any child support collected, making it an expensive option to take. The 
Herger bill would help states pay for the costs of providing up to the 
greater of $100 per month or $50 more than the current state ``pass 
through'' to families that receive TANF.
    These provisions, while positive, are far more modest, than child 
support legislation sponsored by Representatives Nancy Johnson and Ben 
Cardin that passed the House of Representatives in 2000 with 
overwhelming bipartisan support.

        <bullet> Within five years of enactment, the Johnson-Cardin 
        bill would have required all states to direct intercepted 
        federal tax refunds to former welfare recipients who are owed 
        past-due child support. A uniform national rule is preferable 
        to a state option in this area for two reasons. It is more 
        equitable than a state option--whether a child receives support 
        should not depend on her or his state of residence. It also 
        makes more sense given the additional complexities that would 
        result in the interstate distribution of child support if 
        states had varying rules in this area.
        <bullet> The Johnson-Cardin legislation would have limited the 
        requirement that families applying for welfare sign over to the 
        state their right to collect unpaid child support that was owed 
        to them before they applied for welfare. (The requirement that 
        families turn over the support owed to them while receiving 
        welfare is retained in both bills). The Herger bill leaves this 
        requirement in place. The Johnson-Cardin approach recognizes 
        that families who hold off from applying for welfare should not 
        be penalizing by having to turn over child support that was 
        owed to them before applying for welfare.
        <bullet> The Johnson-Cardin bill placed a substantially higher 
        limit on the amount of child support that states could pass 
        through to current TANF families with financial support. Under 
        the Johnson-Cardin bill, the Federal Government would help pay 
        for the costs of providing up to $400 in child support to a 
        family with one child receiving TANF. Johnson-Cardin also is 
        more advantageous than the Administration's plan for states 
        that had previously implemented a child support pass-through 
        policy.\18\
---------------------------------------------------------------------------
    \18\ Currently, a number of states do pass through some child 
support--often $50--to families receiving TANF cash assistance. H.R. 
4090 impacts these states differently from those that do not currently 
pass through any child support collections. In the states that 
currently pass-through child support, federal help would only be 
available in meeting the costs of increasing the pass-through above its 
current level. For example, if a state already had a $50 pass-through 
the plan would share in the costs of increasing the pass-through to 
$100, but not in the costs associated with the first $50 of the pass-
through.

                            Family Formation
    There is substantial interest in developing programs that further 
reduce nonmarital births, foster and strengthen healthy two-parent 
families, and increase the proportion of children cared for by both 
parents. However, very little is known about what kinds of policies and 
programs could produce desirable results in these areas. (One exception 
is teenage pregnancy reduction, where a growing body of research points 
to successful strategies.) \19\
---------------------------------------------------------------------------
    \19\ See Isabel Sawhill, What Can be Done to Reduce Teen Pregnancy 
and Out-of-Wedlock Births?, The Brookings Institution, October 2001.
---------------------------------------------------------------------------
    Unfortunately, both the Healthy Marriage Promotion competitive 
matching grant program and the additional research and demonstration 
funding proposed in H.R. 4090 are so narrowly focused that little would 
be learned about effective strategies for strengthening and improving 
child well-being under this proposal. In both cases, the Department of 
Health and Human Services (HHS) would be required to fund a narrow set 
projects including marriage promotion activities such as pro-marriage 
advertising campaigns, pre-marital education classes, marital 
counseling, and relationship strengthening.
    Efforts to reduce teen pregnancy are notably absent from the list 
of projects that can be funded with these resources, despite research 
indicating that reducing teen pregnancy can be an effective means to 
reducing the number of children living in single-parent families. Also 
absent from the list of allowable uses of these funds are efforts to 
foster the involvement of noncustodial parents in the lives of their 
children, or to enhance the ability of noncustodial parents to pay 
child support could not be supported with these resources.\20\ Because 
we know so little about what works in these areas, states should be 
allowed to use these funds to conduct a wide range of research and 
demonstrations that could reasonably be expected to have positive 
impacts on family formation.
---------------------------------------------------------------------------
    \20\ Some of these activities could be funded through the 
fatherhood initiative included in the proposal. However, fatherhood 
funds cannot be used to fund employment services and the initiative is 
only authorized rather than actually being funded. In order to fund 
fatherhood projects outlined in this part of the Herger bill, the 
Appropriations Committee would have to appropriate resources for it. 
Moreover, the proposal would only authorize $20 million in funding 
annually for the fatherhood initiative, far less than the up to $300 
million per year in federal TANF funds that could be spent on the 
marriage-related projects.
---------------------------------------------------------------------------
    Finally, there are two troubling aspects of the funding mechanism 
for these efforts. While we support eliminating the ``illegitimacy 
bonus'' which appears to have rewarded states that experienced falling 
nonmarital births unrelated to state efforts in this area, the high 
performance bonus should not be cut by 50 percent to fund these 
efforts. The TANF program includes many fiscal penalty provisions, but 
the high performance bonus is the only TANF provision that rewards 
states for achieving better employment outcomes and increasing access 
to work supports. In addition, states should not be permitted to use 
federal TANF funds as the state match for the Healthy Marriage 
Promotion competitive matching grant program. If the Congress decides 
that additional resources should be allocated to such marriage-related 
proposals, states should be required to contribute new resources, 
rather than taking funds from existing TANF efforts, to participate in 
a competitive matching program for which they are receiving additional 
federal funds.
The Fiscal Implications of H.R. 4090
    Despite increasing the participation rates that states must meet 
and hourly requirements that families must meet, while also requiring 
states to place substantially more parents in more expensive subsidized 
jobs or work experience programs, H.R. 4090 would freeze both TANF and 
child care funding for five years at the FY 2002 level. Even without 
the far more costly work participation requirements on states in H.R. 
4090, freezing TANF and child care funding for five years would itself 
mean that most states would be unable to maintain their current welfare 
reform efforts.
    The 1996 law based each state's TANF block grant level on its 
historical AFDC spending. Funding was not indexed for inflation. Data 
from the Treasury Department show that in FY 2001, states spent $18.5 
billion a year on TANF--$2 billion more than the annual block grant 
level. States have been able to do this because they can tap unspent 
funds from the early years of the TANF program. Those funds, however, 
are dwindling quickly. Many states either have few remaining reserves 
of unspent funds from prior years or will be without any significant 
reserves at some point in the next couple of years. If funding remains 
frozen, many states will have to cut TANF services significantly, 
including supports for working poor families with children. Adding to 
this problem, the $16.5 billion will purchase less in services and 
benefits with each passing year, due to inflation. Since 1997, the 
block grant has lost 11.5 percent of its value--five more years of 
funding at the current level would mean that it would fall 22 percent 
below its value in 1997.
    If the child care block grant is frozen, it would lose nearly 12 
percent of its value by FY 2007 due to inflation. The cost of child 
care is comprised primarily of the salaries of child care workers. 
States will not be able to freeze the salaries of these workers for the 
next five years and, thus, as the cost of child care rises, states will 
be unable to maintain their current service levels without devoting 
increased state resources to child care or using larger amounts of TANF 
funds for child care, leaving even less in TANF for other purposes. It 
is likely that most states would be forced either to reduce the number 
of children served or increase the costs borne by low-income families 
by reducing the value of the subsidy. Thus, while most analysts agree 
that there remains large numbers of low-income families who need child 
care assistance in order to afford quality, stable child care, funding 
would be falling and states would not be able to maintain even their 
current child care programs.
    The Herger bill includes a provision which would allow states to 
transfer up to 50 percent of its TANF funds to the child care block 
grant. Under current law, states can transfer up to 30 percent of TANF 
funds to the child care block grant but can spend an unlimited amount 
of TANF funds directly on child care. In fact, under current law, a 
state could choose to spend its entire TANF block grant on child care 
assistance. Thus, increasing the amount that can be transferred to the 
child care block grant provides no additional resources for child care.
                 New Work Requirements Would Be Costly
    Under the proposed legislation, states would face a five-year 
freeze on TANF and child care block grant funding at the same time that 
the new federally-mandated work program structure substantially 
increased their work program and child care costs. An analysis by the 
Center for Law and Social policy of the Administration's work 
participation proposal--a proposal very similar to that in the Herger 
bill--estimates that states would need to spend an additional $15 
billion between 2003 and 2007 to meet the Administration's work 
requirements. This figure includes $7 billion in additional work 
program costs and $8 billion in additional child care costs.\21\
---------------------------------------------------------------------------
    \21\ Mark Greenberg, et al., At What Price? A Cost Analysis of the 
Administration's Temporary Assistance for Needy Families (TANF) Work 
Participation Proposal, Center on Law and Social Policy, April 2002.
---------------------------------------------------------------------------
    States would face this combination of decreased ``real'' funding 
for TANF and child care and increased work program and child care costs 
at the very time their reserves of unspent TANF funds from the 
program's early years were running out. Taken together, these factors 
would likely force most states to cut spending on TANF-funded programs 
that support low-income working families who do not receive cash 
assistance, since the bulk of state TANF spending outside of the 
traditional welfare system is dedicated to providing supports to these 
families.
    If states are forced to scale back supports such as child care for 
low-income working families, programs designed to help welfare 
recipients find and retain jobs may be much less successful. If a 
parent finds a job and leaves welfare but does not have access to child 
care, transportation or wage supplements--supports that states now fund 
with TANF and child care block grant funds--the parent is less likely 
to retain the job and remain off welfare.
 Bill Would be Especially Problematic for States With Low TANF Funding 
                                 Levels
    The fiscal implications of H.R. 4090 would be especially 
problematic in the large number of states with very low TANF block 
grant allocations relative to their needy populations. In fiscal year 
2001, eight states received less than $600 in block grant funding per-
poor child--the national average is about $1200 per-poor child--and 
another 13 states received less than $900 per-poor child. (These 
figures include additional TANF funds provided in ``supplemental 
grants''--designed in part to provide additional funding for 
underfunded states). These underfunded states would likely have even 
greater difficulty than most states in summoning the resources 
necessary to create large subsidized job or work experience programs.
      Bill Also Would Weaken the Maintenance-of-Effort Requirement
    In addition to freezing federal funding, the Herger bill would 
weaken the current maintenance-of-effort requirement (MOE) which 
requires states to spend a certain level of their own resources in 
order to be eligible for the TANF block grant. Under current law, only 
state spending on needy families can count toward the maintenance-of-
effort requirement. The Herger bill would allow state spending on 
activities related to reducing nonmarital pregnancies or promoting 
marriage that are not targeted on low-income families to be counted 
toward the MOE requirement. States already have the ability to spend 
federal TANF funds on pregnancy prevention and marriage-related 
programs for non-needy families. Thus, there are ample resources 
available if states are interested in funding such efforts. The 
practical effect of the Herger proposal will be that states will be 
able to count spending on efforts they are already making that serve 
these purposes and then reduce the amount of resources they spend on 
TANF-related programs.
    For example, suppose a state has been operating for the past five 
years a mediation program through its court system to try to reduce 
divorce rates and the program is available to all couples contemplating 
divorce. This program was established without any consideration of the 
TANF statute. Under the Herger bill, the state could now count the 
entire cost of this program toward its maintenance-of-effort 
requirement, enabling it to withdraw state resources it currently 
spends on low-income programs to meet the MOE requirement.
Strengthening Work and Families: An Alternative to the Chairman's Plan
    There is a better alternative to mandating a top-down approach that 
would force states to replace their current work programs with more 
costly and less effective programs that could, in some cases, become 
``make-work'' programs. A better and equally work-focused alternative 
plan would push states to address the remaining challenges of welfare 
reform by drawing on lessons from the extensive base of welfare reform 
research and building on current successful state-based approaches.
    Reward States for Putting Parents in Jobs: The case load reduction 
credit should be replaced with a mechanism that gives states credit 
toward the work rates when a family leaves welfare for work. The case 
load credit wrongly rewards states for case load decline, even if it is 
achieved in the absence of work. Instead, states should get credit 
based on the number of families that leave welfare for work. This 
approach would send a far more positive signal to states--it would 
recognize that states should be rewarded for their programs' successes, 
namely, the families that have left welfare for work. To provide an 
additional incentive to keep families employed after they leave 
welfare, states should continue to get credit for families for six to 
12 months after they leave if employment is maintained. States also 
should get ``extra credit'' for placing families in higher-paying jobs.
    Increase States' Ability to Focus on Helping Parents Find Better-
Paying, More Secure Jobs: Additional steps need to be taken to help 
families get better jobs. States should be given broader flexibility to 
allow parents to participate in vocational educational programs that 
could help recipients improve their skills and secure more stable 
employment. In addition to the NEWWS evaluation findings, there is 
growing evidence that carefully designed educational programs can have 
a substantial impact on earnings. Maine's Parents-as-Scholars program, 
which allows participation in vocational education, including post-
secondary education, for more than 12 months, is one example. Wage 
rates for Parents-as-Scholars participants jumped by nearly 50 
percent--from about $8.00 an hour prior to entering to program to 
nearly $12.00 an hour after program completion.\22\ In spite of its 
proven success, Maine is not able to use federal TANF dollars to 
operate the Parents-as-Scholars program because participants would not 
count toward TANF work rates given the current 12-month limitation on 
vocational education.
---------------------------------------------------------------------------
    \22\ Rebekah J. Smith, Luisa S. Duprez, and Sandra S. Butler, 
Parents as Scholars: Education Works, March 2001.
---------------------------------------------------------------------------
    Help Parents with Work Barriers Succeed in the Labor Market: States 
need more flexibility and support in working with families with 
barriers to employment. States should be encouraged--not discouraged--
to identify parents that have significant barriers to employment and 
work with those parents to overcome those conditions and move toward 
employment. At the very least, states should be allowed to count 
families that they place in barrier-removal activities toward the work 
participation requirements without any arbitrary limits. As noted 
above, the proposal to allow certain barrier removal activities to 
count for three consecutive months in any 24-month period is not a 
significant improvement on current policy.
    Families with barriers would also be helped by improvements in 
sanction policies. A growing number of rigorous studies conducted by or 
for states have found that sanctioned families are more likely to have 
serious barriers to employment than families that leave for other 
reasons. A pre-sanction review process--in which families are contacted 
prior to the sanction, screened and assessed for barriers that may have 
hindered families ability to meet work requirements, and provided with 
services to address any barriers identified--would help improve 
compliance with work rules and ensure that participants are receiving 
the right types of employment services.
    Provide Additional State Flexibility to Make Work Pay: One of the 
most important research findings from the past few years pertains to 
the importance of earnings supplement policies in ``making work pay.'' 
Since the early 1990's, nearly all states have adopted policies that 
allow families to keep a share of their welfare benefits as a wage 
supplement. These supplements remain quite modest--in the most states 
they are eliminated before a family's earnings reach 75 percent of the 
poverty line--but help ensure that a family is actually better off by 
working. Unfortunately, such supplements count against the federal time 
limit even though families must be working to receive them. This helps 
explain an unanticipated finding from states that have studied the 
effects of their time limit policies--that a majority of families who 
are terminated due to time limits are working prior to their 
termination. The families terminated due to time limits in these states 
tend to have lower wages, educational levels, and higher poverty rates 
than families leaving welfare for other reasons. States that decide to 
provide wage supplements to working families like these should be able 
to do so without applying the federal time limit.
    Extend Work-Based Reforms to Low-Income Fathers: While TANF has 
helped boost employment rates for single mothers, more needs to be done 
to improve employment outcomes for disadvantaged fathers. The 
employment rates and labor force participation of young black men with 
a high school degree or less actually fell in the 1990s, even as 
employment outcomes for young black women improved.\23\ The Federal 
Government should provide states with incentives to extend employment 
services and other necessary services to low-income fathers. States can 
currently serve low-income non-custodial parents with TANF funds, but 
existing programs are limited. States should be allowed to count low-
income fathers of TANF children toward their TANF work rates if the 
fathers are receiving TANF-funded employment services. This would 
provide states with an incentive to extend TANF-funded employment 
services to more low-income fathers. States also should be given one-
time federal grants to develop programmatic recommendations to extend 
employment services to low-income fathers and enhance program 
coordination among programs that work with low-income fathers, 
including child support, employment, and criminal justice programs.
---------------------------------------------------------------------------
    \23\ Paul Offner and Harry Holzer, Left Behind in the Labor Market: 
Recent Employment Trends Among Young Black Men, Center on Urban and 
Metropolitan Policy, The Brookings Institution, April 2002.
---------------------------------------------------------------------------
    Allow States to Bring Legal Immigrant Families into their TANF Work 
Programs: States should also be allowed to bring recent legal immigrant 
families into their federally-funded TANF work programs. About one in 
four low-wage workers with children is a immigrant and most of the 
children in these families are U.S. citizens. A significant share of 
these low-wage legal immigrant workers are excluded from the federally-
funded TANF program because they have lived in the United States for 
less than five years.\24\ In fact, recent legal immigrants are the only 
significant group of low-wage workers that states are prohibited from 
serving (aside from families that have received welfare for more than 
60 months, but states have flexibility to provide hardship exemptions 
to families after 60 months).
---------------------------------------------------------------------------
    \24\ According to the Urban Institute, some 3 million legal 
immigrants--about one-third of all legal permanent residents in the 
country--have been in the United States for five years or less.
---------------------------------------------------------------------------
    Legal immigrant families are not only ineligible for TANF-funded 
cash assistance, but also for TANF-funded work supports and services 
such as child care, transportation, job training, and English-language 
instruction. Opponents of state flexibility to serve legal immigrants 
claim that a five-year eligibility ban is needed to prevent welfare 
dependency among legal immigrants. However, TANF already provides ample 
safeguards against welfare dependency, including mandatory work 
requirements and a five-year limit on assistance. These restrictions 
apply regardless of immigration status. It isn't clear why a complete 
eligibility ban--a drastic additional protection against dependency 
that does not apply to long-term immigrants or to citizens--is 
necessary for legal immigrants during their first five years in the 
United States. The Administration also suggests that an eligibility ban 
is necessary because benefits may induce legal immigrant to migrate to 
the United States for welfare benefits--the so-called ``magnet 
effect''--even though recent social science research finds no evidence 
to support the magnet effect hypothesis \25\ and some of the staunchest 
proponents of immigrant restrictions agree there is no magnet 
effect.\26\
---------------------------------------------------------------------------
    \25\ See Neeraj Kaushal, New Immigrants' Location Choices: Magnets 
without Welfare, CUNY Graduate Center Working Paper (2002); Madeline 
Zavodny, Welfare and the Location Choices of New Immigrants, Economic 
Review, Federal Reserve Bank of Dallas (1997); and Madeline Zavodny, 
Determinants of Recent Immigrants' Locational Choices, Federal Reserve 
Bank of Atlanta, Working Paper 98-3 (1998).
    \26\ See Comments of U.S. Representative Tom Tancredo and Comments 
of Daniel Stein, Executive Director of the Federation for Immigration 
Reform, transcript from Brookings Institution forum on legal immigrants 
and welfare, February 22, 2002, http://www.brookings.edu/dybdocroot/
comm/transcripts/20020228.htm.
---------------------------------------------------------------------------
    Provide Adequate Funding for States to Operate Effective Work 
Programs: Finally, if states are to maintain their existing work 
support system, expand services to more low-income fathers, and make 
further progress on the challenges that remain, they will need to have 
an adequate long-term funding base. The TANF block grant should be 
adjusted to keep pace with inflation. Funding for the Child Care and 
Development Block Grant also should be increased so states can provide 
subsidies to a greater portion of eligible families.
    Two final issues that arise from the current-law funding structure 
also need to be addressed. As discussed above, large number of states 
have very low TANF block grant allocations relative to their needy 
populations. Reauthorization legislation should allocate additional 
funding beyond the level currently provided in the supplemental 
grants--and in H.R. 4090 which would freeze the supplemental grants at 
their current level--to increase funding levels in these underfunded 
states. The TANF program also lacks an adequate mechanism for providing 
states with additional resources for recessions. H.R. 4090 would 
reauthorize the current contingency fund, but far more substantial 
modifications are needed than are included in the bill to ensure that 
states have adequate resources during a downturn.
    Thank you for inviting me to testify today. TANF reauthorization 
represents an opportunity to build on the successes of the last six 
years to ensure that poor families with children can succeed in the 
labor market. Reauthorization legislation should take a work-focused 
approach that recognizes both the strengths of current state welfare-
to-work efforts, addresses those areas in which more could be done to 
help parents overcome barriers and find jobs that can support their 
families, and provides the resources necessary for states to operate 
effective programs.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. Primus. That is 
our goal and hopefully when it finally comes up, we end up that 
way. Mr. Turner, now we turn to you to testify. Mr. Turner.

    STATEMENT OF JASON A. TURNER, DIRECTOR, CENTER FOR SELF-
               SUFFICIENCY, MILWAUKEE, WISCONSIN

    Mr. TURNER. Thank you very much, Mr. Chairman. Mr. 
Chairman, there has been much discussion this afternoon on the 
relative roles of the various levels of government in welfare 
reform. I have had the privilege and honor working as the 
Federal Director of the Aid to Families with Dependant Children 
program in the first Bush Administration at HHS, then as a 
State official leading the planning group that led to 
recommendations that became--that Governor Thompson made into 
many of his reforms. Finally, I had the honor of working for 
Mayor Giuliani as a local official as the Commissioner of the 
Human Resources Administration, and in that role managed about 
7 percent of the national welfare case load. As an official of 
these three levels of government, I would like to say, Mr. 
Chairman, that your bill and the President's bill contains 
objectives which can be met in every State.
    Moreover, I could meet these objectives in New York City 
with less money than has been in the current TANF program 
because of the very significant case load reductions that have 
been achieved, freeing up lots of money that used to be spent 
on cash benefits for services.
    Finally, as a State and Local Administrator, I wish to make 
it clear that strong national work requirements are successful 
for local administrators to have the authority to move forward 
and get the kinds of cooperation and support they need at the 
State and local level for strong programs.
    Surprisingly, given the goals of TANF, the proportion of 
adults who are actually engaged in constructive activities 
leading to employment is very low, as Mr. Mead said in his own 
testimony. For example, excluding those who are working in a 
job while they are also receiving welfare, only one in five 
welfare recipients are doing any constructive activity, let 
alone sufficient activity that is going to lead them into 
employment. Your bill, which requires a combination of 24 hours 
of work-like activity and 16 hours of very flexible activity, 
strikes the right balance between mandates for actual work-like 
employment activity and a level of effort by the individual 
recipient, on the one hand, and a State ability to design its 
own program, on the other.
    I want to also reiterate what some of my colleagues have 
said as it relates to the ability to draw in under the existing 
federal rules people that are sitting out and staying at home 
and not doing any kind of work activity or any other activity.
    In New York City, as a commissioner, I had at any given 
time between 37,000 and 45,000 individuals, adults, who had 
been asked to come in and participate in a work program who 
refused to do so and continued to receive almost all of their 
benefits while they sat at home. There is very little I can do 
as a commissioner, or any commissioner can do, under 
circumstances in which federal law permits almost all of the 
money that goes through the welfare program to continue to go 
to individuals who are not willing to help themselves. What we 
need is what is called the full check sanction that connects 
the benefit, the welfare benefit with the obligation to go into 
a work assignment, much the way in a real job when you do not 
show up to work, you do not get paid, and that helps you show 
up to work. We have to move away from a work suggestion program 
into a work requirement program.
    Finally, I would like to say there is plenty of money in 
this bill for child care and other requirements that are 
necessary in order for us to have a successful program that 
moves large numbers of individuals into employment. Lastly--I 
will save my last comment for the question-and-answer period. 
Thank you.
    [The prepared statement of Mr. Turner follows:]
 Statement of Jason A. Turner, Director, Center for Self-Sufficiency, 
                          Milwaukee, Wisconsin
Greetings to Members of the Committee:
    Thank you for this opportunity to testify.
SUMMARY POINTS OF TESTIMONY
    In the discussion below we will make three arguments as follows:

        <bullet> The reauthorized bill should include strengthened 
        work requirements. These requirements are essential to 
        transforming the meaning of welfare away from a cash 
        entitlement, and to maximizing the rate of movement into and up 
        within the private labor force. The work requirement rates in 
        current law are obsolete and have been overtaken by events. The 
        President's proposal, as modified by Chairman Herger's Personal 
        Responsibility, Work, and Family Promotion Act of 2002, sets us 
        in the right direction.
        <bullet> Many state programs are unable to engage individuals 
        in constructive activities because adults under current law can 
        ignore the requirement to participate and continue to receive 
        most of their welfare benefits. This undermines the ability of 
        these programs to reach out and bring in those most in need of 
        the services. The solution is to assure that the entire welfare 
        check is made contingent upon acceptance of the obligation to 
        participate in constructive activities (full check sanction), 
        much the way a wage is contingent upon showing up to work.
        <bullet> The budget for the reauthorized TANF program can be 
        reduced by ten percent without adversely affecting any 
        essential aspect of the program, including the provision of 
        child care for working families, and would in many respects 
        result in improvements in the effectiveness of the service 
        delivery system.
WORK REQUIREMENTS NEED TO BE STRENGTHENED
    The TANF program has been extraordinarily successful at reducing 
the case load and moving individuals into employment, as we have seen 
above. State programs have achieved this by instituting good up-front 
job search programs in what is termed as a ``Work First'' approach. 
Experimental research over the past decade and a half, influential 
among the drafters of the current law, had revealed that education and 
training alone is less effective at helping individuals succeed in the 
private labor market than early entry into employment if feasible, 
where on-the-job learning can help individuals move up the employment 
ladder faster than holding them out of the labor market for classroom 
instruction. Most often actual work can be combined with education and 
training in a more effective combination than either one alone.
    From this ``Work First'' orientation, our experience has shown 
further that for those unable to find immediate private employment, 
either full or part time, the next best alternative usually includes 
some work experience as a core part, although not the only part, of an 
overall schedule and effort resulting in employment. This is especially 
true for those without extensive prior work history.
    There are two key components which together influence the 
effectiveness of welfare-to-work programs under TANF. One component is 
the number of hours of activity required of a participant, which is a 
measure of his or her effort. The second is the overall proportion of 
individuals engaged in such activities, which is a measure of the 
breadth and reach of the program. Both components, the intensity and 
the breadth of program participation, are important to the overall 
effectiveness of the program. The authors of the current TANF program 
clearly intended that both program intensity and program breadth be the 
focus, and they did so by setting meaningful levels of weekly work 
requirements (measured in hours), and participation rates (measured by 
the proportion of adults actually engaged in the activity).
    Surprisingly, given the goals of TANF, the proportion of adults 
engaged in constructive activities leading to employment, is quite low, 
once those who are already employed while on welfare are excluded. 
Although over 40 percent of the adult case load in the average state is 
involved in some required activity, nearly 70 percent of these are in 
unsubsidized employment; i.e., they are collecting welfare while 
working at a regular job. This is, of course, good as far as it goes. 
But for the remainder, i.e. those not working and still receiving 
benefits, current law has done little to encourage states to 
constructively engage this group. For example, excluding those who are 
working in a job at the same time they are receiving welfare benefits, 
of the rest only on in five adults are doing any constructive activity 
leading to work.\1\
---------------------------------------------------------------------------
    \1\ HHS,  Temporary Assistance for Needy Families Program, Third 
Annual Report to Congress; August 2000.
---------------------------------------------------------------------------
    In order for the TANF program to make significant continued 
progress at helping adult recipients achieve financial independence, it 
will have to find ways to get states to engage a far larger proportion 
of the adult population than is being served under the current program. 
A major management commitment is necessary to mount a large and ongoing 
program for a high proportion of recipients, and although the policy 
makers who drafted the TANF program may have anticipated that most 
recipients would be involved in welfare-to-work activities, 
implementation by states has simply not produced this result.
    The President's TANF reauthorization proposal, Working Toward 
Independence, (as modified by Chairman Herger's bill), moves us in the 
right direction toward the next level of reform by focusing state 
programs on increasing the level of effort made by individuals in the 
program, and by increasing the program's breadth and reach. It does 
this while retaining the state operational flexibility inherent in the 
TANF program.
    The President's plan as modified by Chairman Herger (hereafter 
PRWFPA 2002), sets a 40 hour week as the standard for welfare-to-work 
activity, which is an increase from 30 hours per week under current law 
(or 20 for single parents of children under 6). The 40 hour week is 
comparable to the time commitment necessary in a full-time job. Unlike 
current law, however, which measures only participant time spent in 
work-like activities such as subsidized employment and work experience, 
the President's plan divides required activity into two parts--work-
like activity for 24 hours per week (i.e. three-day equivalent) and 
state-flexible activity for the other 16 hours. This is intended to 
give states the flexibility they need to blend other program components 
into the week to maximize its effectiveness, such as education, 
training, substance abuse treatment, and job search.
    In addition to moving to a higher level of participant weekly 
commitment, the PRWFPA 2002 bill intends to increase the proportion of 
individuals actually engaged in welfare-to-work activities by 
increasing the state required participation rate to 70% from its 
current 50%, while making certain adjustments (the case load reduction 
credits) to make it easier for states to achieve.
    Are the state work requirements as outlined in the President's plan 
realistic and achievable for the majority of states? Absolutely!
    States have already shown from the current legislation that they 
are capable of designing programs to meet federal performance targets 
when challenged to do so. The President's plan sets important targets, 
but leaves the bulk of the operational decision-making to state policy 
makers.
    Both former Governor Thompson of Wisconsin and Mayor Giuliani of 
New York City have designed and operated large-scale welfare-to-work 
programs as originally envisioned by the authors of PWRORA, and as 
likely to be achieved in practice under the President's bill (with 
certain suggested modifications). Both Wisconsin and New York share the 
aspiration to run full-week programs with high levels of required 
participation. Some of the practical fundamentals of operating such 
programs are outlined below:

    Welfare-to-work programs should constitute genuine practice for 
private employment.

        <bullet> The program should operate on a standard full-time 
        workweek which conforms to the expectations of private 
        employment. This allows participants to practice organizing 
        their lives around a realistic work schedule of eight hour work 
        days and five day work weeks;
        <bullet> Real work should be made part of the weekly activity. 
        The pride and satisfaction of successfully mastering work tasks 
        often results in a big psychological lift and translates into 
        confidence in the search for private employment;
        <bullet> Work assignments must include close supervision and 
        regular feedback. Those who lack work histories are often not 
        familiar with workplace norms of professionalism and conduct, 
        and frequently find it difficult to submit or supervisory 
        authority or get along with co-workers. Good supervisors who 
        agree to make part of their task the acculturation of 
        participants play a large role in the success of their charges.
        <bullet> There must be swift consequences for non-attendance 
        without cause. The notion of such consequences can be a new and 
        ultimately constructive experience for those used to being 
        involved in a bureaucratic welfare system in which not much 
        changes. Thus, the importance of reliability must be taught, 
        and for this to occur benefits must be closely tied to 
        attendance.

    High levels of required and ongoing participation best allows for 
the goal of replacing cash assistance with work. Welfare-to-work 
activities which become part of an ongoing obligation as a condition of 
receipt of welfare, allow for an ever-present option for those rotating 
in and out of the labor market. It can operate much like an accordion, 
expanding and contracting to accommodate those out of the labor force, 
while keeping work habits and skills in good repair.
     Required ongoing participant activity probably exerts its greatest 
net case load impact at the time of enrollment. Where participation in 
welfare-to-work programs has been required of applicants who do not 
find private employment within a certain period of time, the number of 
actual slots used by participants is almost always far fewer than 
anticipated. Fewer slots are necessary because individuals who know 
they must engage in work in exchange for benefits frequently elect not 
to enroll in the program in the first place. Instead, they find 
immediate employment or increase their hours in existing part-time 
employment.
    Universal work programs require work slots for individuals of all 
capabilities. Having a near-universal expectation of work helps change 
the culture of the system and channels the energy of recipients in a 
constructive direction away from attempting to qualify for exemptions.
    Sanction policies play a large role in achieving high levels of 
participation. High non-participation rates are a feature of most 
mandatory programs. In Wisconsin, where the Wisconsin Works program 
pays cash benefits only to those who first participate in work 
activities, compliance by definition is high. However, in states like 
New York that do not use a version of full-check sanction for non-
participation, a large proportion of families may accept a lower TANF 
payment rather than engage in work.
    High turnover rates present management problems but lower the 
number of required work slots. The high turnover rate has at least two 
causes. One cause is that those who reliably participate in their work 
assignments, even for short periods, find they can obtain private 
employment. Fully half of all individuals who participated in New 
York's work experience program for any period during the first quarter 
of 2000 found employment the same calendar year. In addition, normal 
case load dynamics in which recipients leave the rolls further 
increases turnover. The high work experience turnover rate means that 
far fewer actual slots are needed to run a universal program than would 
otherwise be required.
    In conclusion, managing a large-scale welfare-to-work program is 
both practical and necessary to achieving true welfare reform. The 
President's plan, with modifications, sets us in the right direction.

 THE CURRENT LAW DOES NOT PROVIDE ADEQUATE INCENTIVE FOR RECIPIENTS TO 
                  ENGAGE IN WELFARE-TO-WORK ACTIVITIES

    Under the goals and objectives laid out in the President's and 
Chairman's bill which would result in near-universal engagement in 
constructive activities by adults on welfare, there will come a point 
beyond which states will be unable to make progress under provisions of 
current federal law. The reason for this is that there is currently no 
federal requirement that cash benefits be connected to an obligation to 
participate. Only a small portion of the overall cash benefit is 
affected by non-participation in about half the country. As a result, 
individuals who refuse offers to participate cannot be induced to 
enroll and remain outside the ability of states to help them move to 
self-sufficiency.
    As an example from New York City, as of December 2001, there were 
literally no more individuals left that the welfare agency had not 
called into its welfare-to-work program. Yet tens of thousands of 
individuals were at home having refused to cooperate, and were 
therefore outside the ability of the program to help.
    It is essential that a true work program include a connection 
between the receipt of benefits and positive participation. Those 
without a work history need to practice work-like habits such as 
routine and reliability. The connection between benefits and work 
effort is an essential part of the learning process. If we don't have 
it, states are running a voluntary program without the name. The 
solution is to adopt a version of a full check sanction for non-
participation.

A TEN PERCENT REDUCTION IN THE BUDGET ALLOCATED TO THE TANF BLOCK GRANT 
     CAN EASILY BE ACCOMMODATED WITHOUT CONSTRAINING THE PROGRAM'S 
                             EFFECTIVENESS

    There is far more money available for welfare-to-work expenditures 
than ever before because about half of the prior expenditures on 
benefits are no longer required as a result of case load reductions. 
This of course is a good development overall, and accommodates 
increased spending per remaining adult recipient, as well as permitting 
more funds to be dedicated to child care for working families, and 
other such supports.
    However, we may be reaching a point where the plentiful 
availability of resources may begin to be counterproductive. The excess 
liquidity in the TANF system can result in programs being less 
efficient and effective than they otherwise might be if careful use of 
resources remains a budget necessity. For example, in New York City we 
now spend about ten times the amount per remaining recipient on 
welfare-to-work services (of all kinds, including child care and 
substance abuse treatment) as compared to prior to the passage of TANF, 
even though case loads are about 60% lower (not ten times lower). This 
anomaly occurs because benefit payments represented the overwhelming 
proportion of total welfare spending in the pre-TANF era.
    The significant increase in available funds has resulted in 
enormous pressure for states to find ways to spend or obligate funds. 
In a ten-state study published about six months ago, the General 
Accounting Office found that of ten states studied, five had used 
between fifteen and twenty five percent of their TANF funds to supplant 
state spending.\2\ Moreover, even with the pressure to expend funds, as 
recently as the first half of fiscal 2001 states as a group were 
spending at a rate equal to only 91% of their available block and 
supplemental TANF grants \3\ (states have now caught up and are 
spending at a rate slightly higher than that available through annual 
grants).\4\
---------------------------------------------------------------------------
    \2\ GAO-01-828, Welfare Revorm--Challenges in Maintaining a 
federal-State Fiscal Partnership; 9/01; p.13.
    \3\ Analysis of TANF Spending through the Middle of Federal Fiscal 
Year 2001; Center on Budget and Policy Priorities; 9/01; p.13.
    \4\ TANF Spending in Federal Fiscal Year 2001; Center on Budget and 
Policy Priorities; 3/27/02; p.6.
---------------------------------------------------------------------------
    Another way to see the increase in available resources as a result 
of the case load decline is to consider that from FY 1998 to FY2001, 
spending on cash assistance declined from 61% of total TANF 
expenditures to 38%. As a result, significant amounts of funds have 
been freed up for other uses. However, even counting all the 2001 
spending on basic TANF related functions--i.e. for cash assistance; for 
welfare and working family child care; for education, training and work 
experience; for state supplements to the EITC; for computers and 
administration; and for all other direct work supports--there still 
remained 23% of the TANF block grant which was available and re-
programmed for other uses, according to calculations made by the Center 
for Budget and Policy Priorities.\5\
---------------------------------------------------------------------------
    \5\ TANF Spending in Federal Fiscal Year 2001; Center on Budget and 
Policy Priorities; 3/27/02; p.2.
---------------------------------------------------------------------------
    The result of excess liquidity in the TANF program means, for a 
state and local administrator, pressure to spend money in ways they 
might not otherwise deem wise. Some state and local administrators have 
had difficulty extracting the best value from employment and training 
vendors.
    As of the end of the last fiscal year 7.4 billion dollars in 
federal funds remained as unobligated or unliquidated from the TANF 
block grant, or an accumulation rate of about 1.5 billion per year 
(unliquidated funds may have been committed, see footnote). A ten 
percent reduction would take out about 1.7 billion dollars per year in 
the amount of federal funds otherwise available, or an amount not much 
greater than the excess which has accumulated each year.\6\
---------------------------------------------------------------------------
    \6\ Not all the funds designated as unliquidated are available for 
reprogramming. As the term is used by states, unliquidated funds may 
mean funds committed (e.g. per a contract) but not yet spent, or it may 
mean funds designated for future use by the state or its counties, but 
not yet programmed. Of the $7.4 billion in federal funds not used by 
states and accumulated as of the end of the fiscal year, states 
characterized $4.9 billion of that amount as unliquidated.
---------------------------------------------------------------------------
    Nor is there a shortage of child care funding. For FY 2002 the 
total federal share of child care funds through the CCDF, TANF and SSBG 
equals a very generous $8.7 billion. To this add the state shares under 
TANF and CCDF for a combined total of $11.7 billion. This amount does 
not account for children being cared for while participating in Head 
Start (another $6.5 billion)\7\
---------------------------------------------------------------------------
    \7\ Source: HHS.
---------------------------------------------------------------------------
    But even these figures underestimate the amount of federal 
resources devoted to supporting children in care arrangements. The 
dependent care tax credit subsidizes child care in an amount in excess 
of $2.6 billion (1998) per year.\8\ Moreover the two largest tax 
programs which help support children, the Earned Income Tax Credit and 
the Child Tax Credit, dwarf all other programs combined. The refundable 
EITC, originally conceived as one way to help low-income working 
families better manage the expenses of working (including the expense 
of child care), contributes over $30 billion to families per year. 
Finally, the child tax credit contributes over $20 billion to families.
---------------------------------------------------------------------------
    \8\ Source: 2000 Green Book.
---------------------------------------------------------------------------
    The two systems, the direct subsidy system and the tax system, work 
together, with welfare parents and entry level employed adults relying 
more on direct subsidies, and low and middle income working families 
utilizing the tax subsidies to a greater extent.
    Thirty-two states have no waiting lists for CCDF child care. Of 
those remaining that do, these states tend to have state criteria which 
extends eligibility way up into the middle class (e.g. California with 
a maximum income limit of $35,100, New Jersey at $36,570 and No. 
Carolina at $34,224).\9\ For those well into the middle class, states 
may wish to assure parents are utilizing the tax subsidy system while 
reserving its direct subsidies for its lower income families.
---------------------------------------------------------------------------
    \9\ Information based on state child care plans submitted to and 
compiled by HHS, 3/19/02.
---------------------------------------------------------------------------
    Finally, experience shows that child care waiting lists, 
particularly in large cities, are not always accurate. Maintaining 
lists is often complicated and bureaucratic. When New York City 
carefully went through its extensive waiting list, it found far fewer 
families actually needing child care than was implied by the size of 
the list. Reasons for this included the following:

        <bullet> Many families on the waiting list or receiving child 
        care subsidies no longer needed them because the child was no 
        longer living with the family.
        <bullet> Some previously eligible for care for reasons of work 
        or program participation were no longer engaged in the activity 
        which provided their eligibility.
        <bullet> Some families were receiving one kind of child care 
        subsidy, but were looking for another kind of care, e.g. a 
        particular center.
        <bullet> Some families had placed their names several times on 
        one or more lists.
        <bullet> Child care vendors receiving fixed amounts to make 
        available a certain numbers of slots had turnover vacancies 
        unknown and not listed in the city inventory, thereby 
        undercounting the amount of child care available and paid for.

    In conclusion, the tremendous success of PWRORA at helping families 
achieve self-sufficiency has reduced the level of state and local funds 
necessary to provide benefit payments. The federal taxpayer should 
participate in at least some of this success in the form of reduced 
contributions to the TANF block grant.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Turner. Now we will turn to 
questioning, and the gentleman from Pennsylvania will inquire.
    Mr. ENGLISH. I want to thank all of you for testifying. 
This is really an extraordinary panel and one which distills a 
great deal of experience and, I think, a very broad perspective 
across the political spectrum.
    Starting with you, Mr. Turner, I am struck by the emphasis 
in your testimony on the importance of full check sanctions. 
Now in your practical experience, what kind of impact has full 
check sanctions had on welfare rolls?
    Mr. TURNER. Well, thank you for asking that question. In 
Wisconsin, where Governor Thompson instituted a program in 
which the only way to get benefits was to participate in a 
constructive activity, what we found was that many individuals 
seeing that by enrolling in the Wisconsin work program, they 
would be participating in what amounted to a full work week, 
ended up making the decision themselves to go right into 
private employment. Much of the constructive case load 
reduction activity and increases in employment had to do with 
people making their own decisions to go right to work.
    In fact, it is almost always easier to help someone get a 
job before they enter the welfare system than it is once they 
become dependent for an extended period of time. So, having the 
full check sanction provision, a provision that can enforce, 
require, and make constructive activity an integral part of 
being on welfare, that is an essential aspect of an effective 
program which will continue to move people to employment.
    Mr. ENGLISH. Mr. Primus, you are here testifying today as 
an advocate of State flexibility, which I find refreshing. Let 
me just say, you have always been a very principal advocate on 
these issues. From the standpoint of State flexibility, very 
briefly, do you feel that full check sanction is something that 
intrudes on State flexibility?
    Mr. PRIMUS. In our comments to the administration about 
welfare reform, we did not suggest that the ability of States 
to do full sanctions be taken away or limited. However, 
mandatory full check sanctions would be an intrusion on State 
flexibility. What we were primarily concerned about is that 
recipients understand the requirements that are expected of 
them and know why they are being sanctioned. That is why we 
basically advocated for something that was being done by 
Governor Sundquist, a former Member of this Committee, and by 
no means a liberal, and would mandate other States follow what 
is a very good conciliation process in the State of Tennessee.
    Mr. ENGLISH. Mr. Rector, I know your foundation has done a 
great deal of research on this subject. Looking from a broader 
perspective, have you seen evidence that full check sanction 
works significantly in providing incentives that reduce the 
rolls and bring people back into the workforce?
    Mr. RECTOR. Yes. Full check sanction is the strongest 
variable that you can find in determining the level of case 
load reduction in a State. A State that has a full check 
sanction system will have a rate of case load reduction three 
times higher than the States that do not. What you are finding 
is an increasing share of the national TANF case load is now 
clustered in the 12 or so States that do not have a full check 
sanction because they simply have people sitting there doing 
nothing. Those 12 States now comprise over half of the TANF 
case load.
    Now a critic would say, well, of course, you can get 
greater case load reduction when you throw people off the 
rolls. That is not what a sanction does. What a full check 
sanction does is it communicates that this a real work 
requirement, it is not a work suggestion. This is for real. The 
recipient does have to come in to the welfare office. I sat in 
welfare offices in many different States, and before the 1996 
reform, and before full check sanction, the typical experience 
would be that you would send out letter after letter after 
letter asking people to come in and engage in job search, in 
training, anything, and they would never respond. Once you have 
a full check sanction in place, then you get their attention, 
then they come in. Then you are simulating a real work 
environment. This is actually--and I don't mean this 
facetiously--this is the most compassionate thing to do, 
because creating a pseudo reality where they continue to get 
payments even if they are not behaving in a constructive manner 
only delays their path toward self-sufficiency.
    Mr. ENGLISH. Finally, Mr. Mead, I read your testimony as 
also being supportive of this kind of a policy. What has your 
research found? What can you add, listening to the testimony of 
some of the other panelists?
    Mr. MEAD. I did an analysis like the one Bob Rector 
described. Actually, I used some of his data to do it and 
introduced additional variables. I also found that the full 
check sanction was a very powerful determinant of the rate of 
case load fall for a State in the recent period. That was not 
true earlier when sanctions were not as strong. Under TANF, it 
is very clear that the sanction power is a major determinant of 
whether States are driving the rolls down.
    I also would concur in the idea that often recipients 
misunderstand a partial sanction. They do not understand what 
is occurring. They often think their grant has simply been 
recalculated. They do not understand that they are violating an 
obligation. When you turn off the entire grant, they call up 
their case worker and ask what is going on, and then they find 
out. Then some leave. So, it gets the message across.
    Chairman HERGER. The gentleman's time has expired. Now the 
gentleman from Maryland, Mr. Cardin, to inquire.
    Mr. CARDIN. Thank you, Mr. Chairman. Mr. Williams, I 
appreciate in your written statement pointing out the fact that 
the Congressional Budget Office has indicated that TANF 
expenditures have exceeded authorized funding levels by $2 
billion. You cite that in support of the provision that is in 
my bill that allows for an annual inflationary increase, and I 
appreciate that.
    I notice also in your testimony you point out the concern 
on the case load credit and would ask us to move toward an 
employment credit and other things you are suggesting in the 
legislation. So, Mr. Chairman, we now have the American Public 
Human Services Association, the Conference of Mayors, NCSL, 
NGA, all asking that we make changes in the legislation that 
has been filed. I hope we will listen to their concerns because 
these are the people that have to implement the laws that we 
are going to be passing here. They all disagree with Mr. Turner 
in his assessment that not only is everything fine but the 
funding could actually be reduced. I think that is something 
that we need to really take into consideration.
    Mr. Rector, I very much appreciate your direct 
justification for federal mandates and regulations since it is 
our money. It is a very direct point and one that has been 
rejected by the Bush administration and been rejected by both 
the Republicans and Democrats here in our commitment to give 
the States the flexibility that they need in order to 
accomplish the objective.
    I think Democrats and Republicans both trust the States to 
do the right thing, which leads me to a question to Mr. Primus, 
and that is that Secretary Thompson testified earlier today in 
response to a question from the Chair that the Administration's 
bill gives additional flexibility to the States, that they have 
more opportunities and less restrictions than under current 
law. Do you agree with that assessment?
    Mr. PRIMUS. No, I do not agree at all with that assessment. 
I think I heard Secretary Thompson many times and when he talks 
about increased flexibility, he is really talking about the 
last 16 hours. For a mother to count at all in terms of meeting 
the 70-percent requirement, as you know, a mother can only be 
engaged in a very narrow and a more narrow set of activities 
than under current law. Yet, there is one 3-month stint when 
basically anything the State does would count, assuming again 
the recipient is engaged in something that is at least 24 
hours, but beyond that, this is clearly reduced flexibility.
    Mr. CARDIN. There has also been testimony that--certainly 
NCSL pointed out that they are concerned that the requirements 
in the administration's bill is going to require States to 
divert funds from programs such as English proficiencies or 
classroom vocational education, which now will not count toward 
the work requirement, but also from daycare for government 
workfare type jobs. There has been some testimony that that is 
more important to a person succeeding in the workplace to have 
that job, be it a subsidized public job, rather than getting 
the vocational training or the English proficiencies or the 
other services or job search that currently count toward the 
work participation requirements. Do you have a view on that?
    Mr. PRIMUS. I can submit for the record a recent study done 
in the State of Washington which shows that paid work 
experience ranked last in terms of moving recipients into 
unsubsidized jobs in the private sector. Job search and other 
Welfare-to-Work models fared much better than the work 
experience model in terms of moving recipients into work.
    [The study follows:]






    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
September 2001
    This report uses results from the WorkFirst Study (WFS). The sample 
of 3000 families was drawn from the statewide list of adults receiving 
welfare assistance in March 1999. Respondents completed a telephone 
survey that gathered information on work, education, family, and 
economic well-being.
    This report estimates the impact of job preparation activities in 
WorkFirst on employment and earnings in early 2000. For this report, 
only adult women in one-parent families are included in the analysis.
    The impact of the job Search Workshop, Work Experience, Job Skills 
Training, Pre-Employment Training, and Community jobs were estimated 
using multivariate analysis.
    Employment information came from state Unemployment Insurance 
files. State administrative files provided information on client 
activities. Personal and family characteristics were gathered from the 
WFS telephone survey.
FINDINGS
        <bullet> About a third of respondents were referred to Job 
        Search, half were referred to the job Search Workshop, 17 
        percent were referred to Work Experience and less than 10 
        percent were referred to Community Jobs, Pre-Employment 
        Training, and Job Skills Training.
        <bullet> About half of those referred completed each of the 
        activities, with the exception of job Search and the Job Search 
        Workshop which had much higher completion rates.
        <bullet> Each of the activities had positive effects on 
        employment or earnings or both.
        <bullet> The Job Search Workshop, Community Jobs, Work 
        Experience, and Job Skills Training increased the chances of 
        employment. Job Search by itself may also have increased 
        employment though the evidence is weaker.
        <bullet> Average earnings increased for people who completed 
        Community Jobs, Pre-Employment Training, and perhaps job Skills 
        Training
WorkFirst Activities
    This report estimates the effects of selected WorkFirst job 
preparation activities on employment and earnings in later quarters.





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    We chose six activities, Job Search, Job Search Workshop, Work 
Experience, Job Skills Training, Pre-Employment Training, and Community 
Jobs because they focus on job readiness and were used by enough WFS 
respondents to adequately assess their impact. The activities ranged 
from a 1-week workshop (the Job Search Workshop) to a 9-month intensive 
work program (Community Jobs).
    Figure 1 shows the percentage of WFS respondents referred to and 
completing each of the activities prior to January 2000.





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    About a third of respondents were referred to Job Search, half were 
referred to the job Search Workshop, 17 percent were referred to Work 
Experience and less than 10 percent were referred to Community Jobs, 
Pre-Employment Training, and Job Skills Training.
    About half of those referred completed each of the activities, with 
the exception of job Search and the Job Search Workshop which had much 
higher completion rates.
Effects of WorkFirst Activities
    We used multivariate analysis to account for the selection of 
clients into activities based on their jobreadiness, the effects of 
multiple activities, and changes in the effects of activities over 
time.' The analysis controls for differences in past employment and 
earnings, demographic and personal characteristics, length of time on 
welfare, participation in other activities, and geographic location.
    Table 2 shows the estimated impact of activities completed in the 
last 3 quarters 1999 (``recent'' activities) as well as the impact of 
all WorkFirst activities completed prior to January 2000. The impacts 
show the estimated change in employment and earnings in the first 
quarter of 2000 attributable to completing the activity. Impacts in 
bold are statistically discernable from no change (p<.10).





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

The Job Search Workshop, Community Jobs, Work Experience, and Job 
Skills Training increased the chances of employment. Job Search alone 
may also have increased employment, though evidence of that effect is 
weaker. There is some evidence that the effects of the job Search 
Workshop, Job Search alone, and Work Experience may be underestimated.
    Average earnings increased for people who completed Community Jobs, 
Pre-Employment Training, and perhaps job Skills Training and the Job 
Search Workshop.
Effects of Activities on Employment
    Figure 2 shows the estimated employment rate and impact of each 
activity. The characteristics of clients who completed each activity 
were used to estimate employment rates with and without completion of 
the activity.




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Job Search Workshop, Job Search alone, and Pre-Employment 
Training drew clients who were more job-ready. About half of those 
clients would have been employed in absence of those activities and the 
activities had small, if any, effects on the chances of employment.
    Community Jobs, Work Experience, and Job Skills Training, all drew 
clients who were less job-ready. Without the activity, the employment 
rate for clients would have been about a third for clients for jobs 
Skills Training and Work Experience and only 14 percent for Community 
jobs clients. Job Skills Training and Community jobs both increased 
employment rates by about 30 percentage points; Work Experience 
increased employment by less (13 percentage points).
Effects of Activities on Quarterly Earnings
    Figure 3 shows similar comparisons for Earnings. Clients in Pre-
Employment Training had the highest expected wages ($1845 for the 
quarter) and Community jobs clients had the lowest ($1040).




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Completing Community jobs added an estimated $792 to quarterly 
earnings, Pre-Employment Training added $864. Job Skills Training added 
$456, though its effect was only statistically significant when older 
activities were included. The Job Search Workshop, Job Search only, and 
Work Experience did not increase earnings significantly.

                                 <F-dash>

    Mr. PRIMUS. I want to add just one other thing on the 
question you asked a minute ago and that is your bill also 
provides the flexibility to serve immigrant families. Your 
proposal also allows States to stop the clock so that it gives 
the flexibility for mothers who are working 30 hours a week and 
who receive a small welfare check to continue that welfare 
check and help them escape poverty. So, there are many other 
reasons besides the one I noted where your bill gives more 
flexibility than the administration's bill.
    Mr. CARDIN. I thank you, and thank you, Mr. Chairman.
    Chairman HERGER. Thank you.
    Mr. MEAD. I wanted to add one comment, if I might, on this 
last point.
    Chairman HERGER. Matter of fact, I would like to ask you a 
question, and why don't you at the same time make that comment 
if you like. On page three of your testimony, Mr. Mead, you 
made a statement, ``Congress should remember that much of the 
transitional child care offered by States to families leaving 
welfare has not been claimed.'' I would like to ask you what 
you meant by that and then you are certainly welcome to 
respond.
    Mr. MEAD. What I meant is that people leaving welfare rolls 
are entitled to have at least a year of transitional child 
care. Yet, many do not claim that benefit, as they also do not 
claim food stamps, Medicaid, and so on. The fact that they do 
not claim it should cause us to question those who say that 
lack of child care is the main reason why people have trouble 
taking jobs, keeping jobs, and so on. It looks as if the 
clients typically can arrange child care informally, and they 
do not need the government subsidy. Also until very recently, 
the amount of money the States had to spend for TANF was more 
than they needed. Recently they have begun to accelerate their 
spending, but it is questionable to me, in light of the backlog 
which many States had, to say that funding is inadequate. The 
extent of actual need for care is in fact in doubt. You can 
spend a lot of money in child care if you specify that it is, 
``high quality child care,'' and you insist that it have all 
those attributes. The child care we have is sufficient for 
people to go to work. So, the idea that there is a shortage, 
that we need to spend more on this, has to be questioned.
    The other point I wanted to make, that it is unfair to 
assess work experience jobs simply on whether they produce 
measurable transitions into jobs. For that, some other 
activities like job search would be more effective. The real 
purpose of government jobs is not to generate job entries by 
themselves. It is rather to generate diversion, that is, to 
cause people who would go on welfare to question that and go 
out and get a job, as Jason Turner has said. The purpose of 
public jobs is more to act as an enforcement device. It is to 
cause more people to go out and get their own jobs off welfare 
than would be the case if you did not have that requirement. 
What it does is certify that you cannot escape work by failing 
to find a job in the private sector. You are going to go to 
work in some job, in any event.
    So, the evaluation findings that say this is less effective 
than some other things are really not conclusive. It is not so 
much the effect on case load that counts but the effect off 
case load, the effect it produces on the entire environment 
surrounding peoples' expectation about welfare and employment.
    Chairman HERGER. I want to thank each of you for your 
outstanding testimony and, without objection, the report named 
by Mr. Primus will be made part of the record. Again, thank 
you, gentlemen, for your testimonies.
    With that, we would like to call on panel 5 to come 
forward, please. Mary-Louise Kurey, National Speaker, Author, 
and Spokeswoman, Project Reality. Isabel Sawhill, a Senior 
Fellow at the Brookings Institute. David Levy, President, 
Children's Rights Council. John Crouch, Executive Director, 
Americans for Divorce Reform. Geraldine Jensen, President, 
Association for Children for Enforcement of Support, 
Incorporated. Finally, Stuart Miller, Senior Legislative 
Analyst, American Fathers Coalition. Ms. Kurey will testify.

 STATEMENT OF MARY-LOUISE KUREY, NATIONAL SPEAKER, AUTHOR, AND 
          SPOKESWOMAN, PROJECT REALITY, GOLF, ILLINOIS

    Ms. KUREY. Thank you. I am here today to share with you 
from personal experiences the outstanding success of abstinence 
education programs across the country. It has been my privilege 
to speak with more than 125,000 teens and young adults in 19 
States about postponing sexual activity until marriage and 
making a new beginning for those who have been sexually active. 
From African American students in the Washington, DC, public 
schools to Native American teens in Pine Ridge, South Dakota, I 
have been honored to address young people from a wide variety 
of socioeconomic, religious, and ethnic backgrounds, from 
diverse family and cultural experiences. I also serve as a 
spokeswoman for Project Reality, an abstinence education 
organization serving public schools nationally with an emphasis 
in Chicago and the State of Illinois, and also work with many 
abstinence programs across the country, including the Best 
Friends Program. Abstinence education works, and it is a 
crucial component of achieving the goals of the TANF block 
grant in the 1996 Welfare Reform Act. It is critical to 
reauthorize Title V funding for abstinence education programs 
at current levels while keeping the current definition of 
abstinence that was signed into law by President Clinton in 
1996. These programs make a real difference in the lives of 
American teens. Studies show since the release of abstinence 
funding, teen sexual activity has decreased.
    According to a report by the Centers for Disease Control 
put out in 1998, the majority of high school students are 
virgins and this percentage is increasing. Of teens who have 
been sexually active, approximately 25 percent are currently 
abstinent and 93 percent of teens say that teens should be 
given a strong message that abstinence is the best choice. That 
last statistic coming from the National Campaign to Prevent 
Teen Pregnancy.
    Abstinence education goes beyond realistic into reality. 
During my presentations I have seen young men stand up in front 
of hundreds of their classmates and yell, yeah, virgin and 
proud. I saw a young woman stand up in front of her classmates 
and say I have done things I regret but today I am making a new 
beginning. Once when I was signing T-shirts and baseball caps 
after a presentation, a young man asked me to write virgin and 
studly on the back of his T-shirt. Over a year later I returned 
to that area and when students saw his picture in my book, they 
said he is still wearing that T-shirt, and he is in college 
now.
    It shows that these programs have a lasting effect, not 
only on the participants, but on the students who they may 
associate with as well. In seventh grade I attended a school 
that was rampant with teen sexual activity and drug use. My 
locker was next to a locker of a student who sold cocaine. That 
year I made the commitment that I would not have sex until I 
was married, and here I am 27 years old, a former Miss 
Wisconsin, Miss America finalist, and I am a virgin. Choosing 
abstinence is the best choice that I have ever made in my life. 
It is very empowering for a young woman in today's sex-
saturated society. I was not always so outspoken. In high 
school many of my friends were sexually active, and I felt this 
was none of my business.
    In addition, they were using condoms so I thought, okay, 
they are safe. Then at age 15 one of my friends got pregnant 
while engaging in so-called safe sex with her boyfriend. No one 
had told us the medical facts that had been published in the 
New England Journal of Medicine that year. Fourteen to 
seventeen percent of couples who use condoms to avoid pregnancy 
get pregnant within 12 months. I saw my friend's life transform 
from a college-bound, carefree teenager to a single mother 
living from one welfare check to the next.
    Teens today are also denied information about sexually 
transmitted diseases. Last year a report was released by the 
National Institute of Health, titled Scientific Evidence on 
Condom Effectiveness for Sexually Transmitted Disease 
Prevention. This report indicates that condoms provide no 
protection against diseases passed through skin contact, 
including human papilloma virus, the most prevalent sexually 
transmitted disease (STD) in the United States, which infects 
more than 5 million Americans each year and is the leading 
cause of cervical cancer. This disease takes more women's lives 
every year than HIV and yet it has only been cited three times 
by the media since its release in July 2001. Why isn't this 
information being made available? Abstinence programs give 
young people this vital information, providing the whole 
picture about the limits of safe sex, built on the fundamental 
truth that abstinence is the only 100 percent effective way to 
avoid out-of-wedlock pregnancies, STDs, and emotional scars.
    Teens whom adults say are going to do it anyway, in my 
experience, need the abstinence message even more because I 
have learned that the primary causes of teens' sexual activity 
are not uncontrollable urges, but these teens usually searching 
for something, love, acceptance, identity, manliness, or 
purpose to their lives. Abstinence education goes to the heart 
of these issues, addressing identity, self-esteem, healthy 
relationships, character, and creating a positive vision for 
the future. Thank you very much for this opportunity to testify 
and I welcome any questions.
    [The prepared statement of Ms. Kurey follows:]
  Statement of Mary-Louise Kurey, National Spokeswoman, Best Friends 
     Foundation, and Spokesperson, Project Reality, Golf, Illinois
    Chairman Herger, Congressman Cardin, and Members of the 
Subcommittee on Human Resources of the House Committee on Ways and 
Means:

    Thank you for the opportunity to testify before you today on the 
reauthorization of welfare reform, specifically as it relates to Title 
V funding for abstinence programs. It has been my privilege to speak 
with more than 125,000 teens and young adults across the United States 
about postponing sexual activity until marriage and ``making a new 
beginning'' for those who have been sexually active. From African-
American students in the Washington, D.C. public schools to Native-
American teens in Pine Ridge, South Dakota; from Hmong adolescents in 
the Milwaukee Public Schools to Caucasian and Hispanic teens at a youth 
rally in Little Rock, Arkansas, I've been honored to address young 
people from a wide variety of socioeconomic, religious, and ethnic 
backgrounds, from diverse family and cultural experiences.
    I have also spoken about this issue on many TV and radio programs, 
including ``Politically Incorrect with Bill Maher,'' ``Sally Jessy 
Raphael'' and ``Life on the Rock.'' My newly-published book for teens 
is  Standing With Courage: Confronting Tough Decisions about Sex.
    I serve as a spokeswoman for Project Reality, an abstinence 
education organization serving public schools nationally, with an 
emphasis in Chicago and the State of Illinois. Project Reality recently 
launched its new curriculum Game Plan featuring former NBA athlete A.C. 
Green. I have also worked with many other abstinence organizations 
across the county, bringing this message of hope and encouragement to 
youth in 19 states and the District of Columbia.
    Every day, I battle on the front lines of the war against teen 
pregnancy, sexually transmitted diseases, the emotional and 
psychological trauma that stem from teen sexual activity, and the 
feelings of hopelessness and indifference that pervade the lives of so 
many of America's youth.
Abstinence Education Works
    Abstinence education works, and is a crucial component of achieving 
the goals of the Temporary Assistance for Needy Families (TANF) block 
grant in the 1996 Welfare Reform Act. In particular, abstinence is the 
only 100% effective way to prevent out-of-wedlock pregnancies, sexually 
transmitted diseases, and the other negative individual and societal 
consequences that arise from premarital sex. Adolescents who are 
emotionally as well as physically healthy are far more able to function 
as they mature and to benefit from employment opportunities at every 
level. Undoubtedly, they are also able to benefit far more from the 
education process, whether it would be at the secondary or college 
level.
    Abstinence education provides teenagers and others with critical 
information and encouragement that helps them to wait for marriage. The 
reauthorization of the funding for abstinence programs in the 1996 
Welfare Reform Act will be instrumental in furthering these educational 
efforts. This will help make a real difference in the lives of 
individual American teenagers today. Long-term, the continued adoption 
of abstinence until marriage will be a core element that benefits 
society by supporting and encouraging the formation and maintenance of 
healthy two-parent families.
The New Sexual Revolution
    In spite of the sex-saturated culture we live in today, studies 
show most teens in the United States are choosing abstinence. When I 
was in high school, most American teens were sexually active. Today, 
the reverse is true.

        <bullet> The majority of high school students are virgins, and 
        this percentage is increasing. Centers for Disease Control and 
        Prevention. (1998). Youth Risk Behavior Surveillance-United 
        States, 1997. Morbidity and Mortality Weekly Report, 47(SS-3).

    Among teens who have been sexually active, many have chosen to 
embrace a ``secondary virginity'' and refrain from subsequent sexual 
activity:

        <bullet> Of teens who are sexually experienced--have had 
        intercourse at least one time--approximately 25% are currently 
        abstinent (which means they've had no sexual involvement within 
        the prior three months). Centers for Disease Control and 
        Prevention. (1998). Youth Risk Behavior Surveillance-United 
        States, 1997. Morbidity and Mortality Weekly Report, 47(SS-3).

    Perhaps most telling is that American teens today want to hear that 
they are ``worth waiting for'':

        <bullet> 93% of teens feel that teens should be given a strong 
        message that abstinence is the best choice. National Campaign 
        to Prevent Teen Pregnancy. The Cautious Generation? Teens Tell 
        Us about Sex, Virginity and ``The Talk.'' April 27, 2000
    During my presentations, I have seen young men spontaneously stand 
up in front of hundreds of their classmates and yell, ``Virgin and 
proud!'' I've seen young women say to their peers, ``I've done things 
that I regret, but today I'm making a new beginning.''
    A New Sexual Revolution is sweeping the country. The abstinence 
movement is not being led by adults, but by young people. They are 
searching for truth and meaning in all aspects of their lives, 
including relationships and sexuality.
Abstinence, Marriage and Welfare
    Teens who choose abstinence until marriage understand that this 
isn't about saying no to sex. Abstinence is not a ``Just say no'' 
message. It's about teens saying ``YES'': ``Yes'' to their future, 
``yes'' to their dreams, ``yes'' to making a difference in the world, 
``yes'' to becoming the best people they can be, and ``yes'' to a 
joyful, lasting marriage.
    The divorce rate in the U.S. today is approximately 50%. But 
studies show that the divorce rate is significantly less for marriages 
between two virgins as well as among marriages between secondary 
virgins--individuals who were initially sexually-active with others but 
practiced abstinence until marriage with the person who ultimately 
became their spouse.
    Abstinence builds a firm foundation for a successful marriage. It 
is a critical ingredient for increasing the number of happy families in 
America, and reducing the number of women and children living on 
welfare.
The Promise of One
    My grandfather used to say, ``Every child is born into the world 
with a message--a light--clutched in his hand. But if that child is 
lost, then that message, that light, is lost to the world forever.''
    I firmly believe that every teen and young adult has something 
special to bring to the world. But too often in our society, young 
people are prevented from fulfilling their potential by the serious 
consequences of teen sexual activity. I've witnessed first-hand in the 
lives of close friends the devastating and permanent consequences of 
premarital sex.
    Their experiences reflect the ``silent suffering'' of my 
generation:

        <bullet> Most teens who have been sexually-active regret that 
        choice. National Campaign to Prevent Teen Pregnancy. Not Just 
        Another Thing to Do: Teens Talk about Sex, Regret, and the 
        Influence of their Parents. June 30, 2000.
        <bullet> 1 out of 5 sexually-active teen girls in the U.S. 
        gets pregnant. Alan Guttmacher Institute. Teenage Pregnancy: 
        Overall Trends and State-by-State Information, 1999.
        <bullet> 3 million teens contract a sexually transmitted 
        disease in the U.S. each year. American Social Health 
        Association. Sexually Transmitted Disease in America: How Many 
        Cases and at What Cost? Menlo Park, Calif.: Kaiser Family 
        Foundation; 1998.
        <bullet> 1 out of 4 sexually-active American teens has--or 
        will contract--an STD. Alan Guttmacher Institute. Sex and 
        America's Teenagers, 1994.
``Safe'' Sex: Pregnancy and Disease
    In 7th grade, I attended a public school rampant with drinking, 
drug use and sexual activity. My locker was next to the locker of a 
student who sold cocaine. I experienced tremendous peer pressure to use 
drugs, drink, and become sexually active.
    That year, I made the commitment to not use drugs, drink underage, 
smoke, or have sex outside of marriage. And today, I am grateful to be 
able to tell you that I have stayed true to each one of those 
commitments, while enjoying a healthy and fulfilling life--including an 
active social life. I'm 27 years old, a former Miss Wisconsin, and a 
virgin. Choosing abstinence until marriage is the best choice I've ever 
made, and continue to make, in my life.
    The tremendous benefits I have received from abstinence go far 
beyond avoiding negative consequences. I've gained courage, self-
respect, integrity, personal strength, character, and a happy and 
active dating life. This choice is the essence of who I am, and its 
rewards far outweigh its sacrifices.
    But I wasn't always so outspoken about the benefits of abstinence. 
In high school, many of my friends were sexually active, but I felt 
that this was none of my business. ``Who am I to tell them what to 
do?'' I thought.
    Then at age 15, one of my friends got pregnant while engaging in 
so-called ``safe'' sex with her boyfriend. No one had told us the 
medical facts that had been published in the New England Journal of 
Medicine that year:

        <bullet> 14-17% of couples who use condoms to avoid pregnancy 
        get pregnant within 12 months. Mishell, D.R. (1989). 
        ``Contraception.'' New England Journal of Medicine, 320(12), 
        777-787.
    I saw my friend transform from a college-bound, carefree teenager 
to a single mother living from one welfare check to the next. Today, my 
friend can barely make ends meet, and her life is filled with regrets. 
``I love my little girl,'' she told me. ``But I wonder what my life 
would be like today if I had waited.''
    In college, a close friend suffered from a nervous breakdown. In 
her room in the mental health unit at Sacred Heart Hospital in Eau 
Claire, Wisconsin, she told me that her eating disorder and her mental 
collapse were the result of an abortion she was pressured into three 
years earlier. ``Every night as I lie in bed, I hear that little baby's 
voice crying out to me,'' she said through her tears. These are the 
faces behind the statistics of teen pregnancy.
    As teens, we also hadn't been informed about the ineffectiveness of 
condoms against certain prevalent diseases:

        <bullet> Condoms provide no protection against diseases passed 
        through skin contact, including Human Papilloma Virus, the most 
        prevalent STD in the United States, which infects more than 5 
        million Americans each year and is the leading cause of 
        cervical cancer. National Institute of Allergy and Infectious 
        Diseases, National Institutes of Health, Department of Health 
        and Human Services. Scientific Evidence on Condom Effectiveness 
        for Sexually Transmitted Disease (STD) Prevention, 2001.

    Teens still suffer from this lack of information. After a 
presentation at a school in a small town, a freshman girl approached 
me, choking back tears. ``I'm a virgin, but I have genital herpes,'' 
she confided. ``No one told me that you can get it just by touch.'' 
Because she didn't have intercourse, she thought that she was ``safe.'' 
She was unaware that some of the most common sexually transmitted 
diseases like herpes and HPV are passed through skin contact, which is 
how she contracted genital herpes. She said to me, ``I'd be doing what 
you're doing if I could. But I can't. So I want you to tell my story 
wherever you go, so that others don't make the same mistake I did.''
    I often think about what would have happened if these young women 
had been given the complete facts before they engaged in premarital sex 
or other supposedly ``safe'' behaviors. Even if some of them would have 
made the same choices, shouldn't they have been told the complete 
truth?
    Their experiences compel me to speak out so that others don't 
suffer the same pain and regret.
Giving the Facts; Opening Communication
    Abstinence programs give young people the whole picture about the 
limits of ``safe'' sex, built upon this fundamental truth:

        <bullet> Abstinence is the only 100% effective way to avoid 
        out-of-wedlock pregnancy, sexually transmitted diseases, and 
        emotional scars from premarital sex.

    Effective abstinence programs also foster more open communication 
about the true issues behind sexuality and relationships. In my work, I 
have received questions on a wide range of issues, from how to say no 
to sex to why condoms are ineffective against genital herpes. Because 
of my openness in discussing abstinence, teens and college students 
respond with their personal stories and questions relating to issues 
such as sexual abuse, sexually transmitted diseases, unhealthy 
relationships, and emotional and psychological trauma from premarital 
sex.
The Far-Reaching Causes of Teen Sexual Activity
    I have learned that the primary causes of teen sexual activity 
aren't raging hormones or uncontrollable urges, as the media frequently 
portrays. Teens who are sexually active are usually searching for 
something--love, acceptance, identity, manliness, or a purpose to their 
lives.
    One young woman told me, ``Guys are my life. I know who I am based 
on how much they like me.''
    A teen mother confided, ``I wanted to get pregnant, because then I 
thought I'd be somebody, and there would always be someone there to 
love me.''
    Abstinence goes to the heart of these issues, addressing identity, 
self-esteem, healthy relationships, character, and creating a positive 
vision for the future.
    This is why programs like Project Reality's Game Plan are so 
successful.
    Game Plan, an eight-unit sports-themed abstinence program, helps 
teens to make healthy choices by addressing issues like peer pressure, 
self-worth, dating, drug and alcohol use, sexually transmitted 
diseases, marriage, and goal-setting in the context of creating a 
``game plan'' for life. Students are taught that their choices today 
can have significant implications for their future, particularly as to 
whether and to what extent they will accomplish their goals and dreams 
in life. Game Plan replaces neediness with empowerment. Programs such 
as Game Plan arm students with life skills, courage and character, and 
give them the strength to make the right choices and make a positive 
difference in the world.
Premarital Sex: A Gateway to Other High-Risk Behaviors
    The complex motivations for teen sexual activity are manifested in 
the link between sex and other high-risk behaviors:

        <bullet> Teens who are sexually-active are more likely to 
        participate in other high-risk behaviors, like drug use, 
        alcohol abuse, tobacco use and violence. Whitaker DJ, Miller 
        KS, Clark LF. ``Reconceptualizing adolescent sexual behavior: 
        Beyond did they or didn't they?'' Family Planning Perspectives. 
        2000;32:111-117.

    Conversely, teens who are abstinent are less likely to engage in 
these high-risk behaviors. Abstinence is a key link to combating the 
high-risk behaviors that plague our country's teens.
    After one presentation, a high school junior told me, ``I've had 
sex with a lot of guys. But I've always been drunk, so I didn't think 
it mattered.'' She said, ``Now I realize I gave each of them a 
beautiful part of myself. I'm not going to drink anymore, so I'm in 
control. I'm going to make a new beginning.''
Abstinence and the Beauty of Sex
    Abstinence is not a rejection of sexuality as something bad. 
Rather, abstinence affirms that sexuality is something beautiful and 
precious, so beautiful that it is worth saving for the person who makes 
the public commitment to love you unconditionally for a lifetime in 
marriage.
    The abstinence approach recognizes that human sexuality is not 
merely something physical, but involves a person emotionally, 
psychologically, spiritually, and socially. Abstinence treats sex for 
what it is--part of the entire person. It is a holistic approach to 
human sexuality.
Making a New Beginning
    Although the majority of American teens are virgins, many are not, 
and most of these non-virgins are dealing with regrets. (National 
Campaign to Prevent Teen Pregnancy. Not Just Another Thing to Do: Teens 
Talk about Sex, Regret, and the Influence of their Parents. June 30, 
2000.) These students frequently appear to be the most resistant to the 
abstinence message, and many adults describe them as being teens who 
will ``do it anyway.'' In truth, these are young people crying out for 
help, and they are the ones most in need of the abstinence message.
    During one presentation, a young woman sitting in the front row 
glared at me with her arms crossed. When I told the students at the 
beginning that I was there to share the facts with them but I couldn't 
tell them what to do, she called out, ``That's right!'' But when I 
began to speak about the emotional consequences of premarital sex, she 
started to cry. At the end of my presentation, she hugged me and 
thanked me for helping her ``to take back her virginity.''
    A young man approached me after one of my presentations for a 
program for troubled high school students. He said to me, ``Your talk 
made me look at my life again. I need to stop having sex. I need to 
wait until marriage starting today.''
    I've seen countless teens and young adults turn their lives around 
and embrace a secondary virginity. Regardless of their past choices, 
they need to know that their sexuality is still a beautiful gift, and 
that they are not trapped by the past. It's never too late to make a 
new beginning.
A Message Desperately Needed
    The empowering message of abstinence until marriage is not just for 
teens and young adults who are virgins; it is a message for all 
singles, regardless of past choices. Abstinence not only prevents teen 
pregnancy, sexually transmitted diseases, and the emotional trauma that 
comes with premarital sex. Abstinence also gives young people greater 
self-worth, courage, and the life skills they need to succeed.
    Abstinence programs don't ask, ``What's merely good enough for 
America's youth?'' But instead, ``What is the best we can give them?''
    Your support for these programs will continue a message that is 
desperately needed. Your vote says to our youth, ``Yes, I believe that 
you are worth waiting for, and that you can choose the best in your 
life.''
    Let's fan the flames of the New Sexual Revolution by giving teens 
and young adults the facts and the relationship skills they need to be 
abstinent until marriage. Their futures hold tremendous promise. In 
doing so, we empower all of America's youth to live free of regrets and 
bring their special light to the world.
Conclusion
    Your reauthorization of the funding for abstinence programs under 
the 1996 Welfare Reform Act will play a critical role in ensuring the 
continued education and encouragement of the youth of America to remain 
abstinent until marriage, attain self-sufficiency, and make a positive 
contribution to our society. The continued adoption of abstinence until 
marriage will serve as a critical means of helping to reduce out-of-
wedlock pregnancy, sexually transmitted diseases, and the other 
negative individual and societal consequences of premarital sex. It 
will also be a critical element that benefits society in the long run 
by helping to encourage the formation and maintenance of healthy 
marriages and two-parent families. Please let me know if you would like 
any further information about any of the points raised in my testimony 
today or if you have any other questions about this important issue.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Kurey. Ms. Sawhill to 
testify.

   STATEMENT OF ISABEL V. SAWHILL, SENIOR FELLOW, BROOKINGS 
 INSTITUTION, AND PRESIDENT, NATIONAL CAMPAIGN TO PREVENT TEEN 
                           PREGNANCY

    Ms. SAWHILL. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to testify. I think that welfare 
reform has been far more successful than many people 
anticipated back in 1996 and that we should build on that 
success. In our work at the Brookings Institution where we have 
been reviewing the research and information available for about 
the past year, I have become convinced of the importance of 
four priorities.
    One is continuing to move people into unsubsidized jobs and 
giving States the incentives they need to remain focused on 
that particular goal. The second is supporting working families 
in helping them move up the ladder. Third is breaking the cycle 
of poverty by investing in child care and early childhood 
education. The fourth is increasing the proportion of children 
being born and raised in married parent families. Due to the 
limited amount of time, I am going to focus on that last point, 
and I would like to make six points about that.
    First, half of first non-marital births are to teenagers. 
Also, roughly half of mothers on welfare had their first baby 
as a teenager.
    Second, marriage is an important goal, but not so much for 
teenagers. Teenage marriages are twice as likely to end in 
divorce as other marriages. So, if we care about child well-
being, the key behavior is not just marriage but childbearing 
outside of marriage.
    Third, the reduction in teen pregnancy and birth rates in 
the 1990s has contributed substantially to the leveling off of 
non-marital childbearing. I have a chart in my prepared 
testimony, which I hope can become part of the record, that 
shows this relationship quite dramatically.
    Chairman HERGER. Without objection.
    Ms. SAWHILL. I think we should build on that success.
    Fourth, effective programs for preventing teen pregnancy 
have been identified. Funds are needed so that good programs 
can be replicated in more places around the country. In my 
travels to local communities in this country, what I hear more 
often than anything else is the need for resources to do some 
things that we know are working.
    Fifth, in light of all of the above, I urge Congress to 
make reducing teenage pregnancy a purpose of the law. This will 
signal in an important way, I think, to the States that 
Congress cares about this objective. I have been very 
impressed, as have many others, about the extent to which the 
language in the 1996 law about objectives signaled very much to 
the States and to the country what they should be focusing on. 
They have been very responsive to those purposes.
    Six, I urge that any family formation fund include in 
addition to encouraging marriage and supporting fathers 
preventing teen pregnancy as a worthwhile and permissible 
activity. Let me stop there for now, and I hope to be able to 
have more conversation with you.
    [The prepared statement of Ms. Sawhill follows:]
 Statement of Isabel V. Sawhill, Senior Fellow, Brookings Institution, 
       and President, National Campaign to Prevent Teen Pregnancy
    Chairman Herger, Ranking Member Cardin, and Members of the 
Committee:

    I am pleased to have the opportunity to testify today on proposals 
to reauthorize the 1996 welfare reform law. I serve as a Co-Director of 
the Brookings Institution's Welfare Reform and Beyond Initiative, and 
as part of that effort we have carefully reviewed and synthesized a 
very large volume of research, have talked with many state and local 
officials as well as other interested ``stakeholders,'' and have done 
some analysis of different proposals to encourage work or strengthen 
families. I also serve (part-time and on a volunteer basis) as 
President of the National Campaign to Prevent Teen Pregnancy, a 
nongovernmental organization chaired by former Governor Tom Kean. I 
should emphasize, however, that my testimony today reflects my own 
views and not the views of any organization with which I am affiliated.
    Our work at Brookings has convinced me that welfare reform has been 
much more successful than many people anticipated. Some of this success 
is the result of the robust economy that prevailed in the late 1990s 
and to the expansion of work supports such as the Earned Income Tax 
Credit. But much of the success we have had in reducing case loads, 
increasing employment among single mothers, and lowering child poverty 
must be attributed to the 1996 law. In reauthorizing the law, I believe 
we can build on that success. In doing so, I want to suggest that 
Congress give particular attention to the following: keeping the focus 
on moving people into unsubsidized jobs rather than placing them in 
government-funded work slots, making work pay, breaking the cycle of 
poverty by investing in child care and early childhood education, and 
increasing the proportion of children being born to, and raised by, 
two-parent, married families. Since my time is limited, and these are 
large topics, I will focus the remainder of my testimony on the last 
objective.
Strategies for Reducing the Growth of Single Parent Families
    Most people would agree that the ultimate goal is to increase the 
number of children growing up with two involved parents. Three 
strategies for doing so are currently under discussion: reducing 
divorce (or improving relationships) by providing marriage counseling 
or education to existing couples or those contemplating marriage, 
helping unwed fathers to support their children and/or to marry their 
child's mother, and reducing out-of-wedlock childbearing, especially 
among teens. These agendas are not necessarily mutually exclusive, but 
they involve different strategies and different target groups (the 
already married or about-to-be married, the unmarried who have 
children, and the unmarried who don't have children). In what follows, 
I want to argue that marriage is a good thing but that preventing early 
childbearing among those who are young and unmarried but at high risk 
of becoming unwed mothers and ending up on welfare is likely to be a 
particularly effective strategy for achieving this goal. (Note that 
roughly half of all mothers on welfare had their first baby as an 
unmarried teenager.)
    Reducing divorce rates can contribute to fewer children being 
raised in single parent families. However, after increasing sharply in 
the 1960s and 1970s, divorce rates have leveled off or even declined 
modestly since the early 1980s. Moreover, children in divorced families 
more often retain a relationship with both parents, are more likely to 
receive support from a nonresident father, are less likely to need, and 
receive, welfare or other government assistance, and are generally much 
better off than those born to never-married mothers. Finally, virtually 
all of the increase in child poverty between 1980 and 1996 was related 
to the increase in nonmarital childbearing over this period, not to 
greater divorce. In short, efforts to strengthen marriages in ways that 
reduce the likelihood of divorce should be welcomed but divorce rates, 
though high, are not the crux of the problem and thus arguably should 
not be the focus of any new effort.
    The much bigger problem is too many unmarried women having babies. 
Most of these women are very young when they have their first child. 
While only 30 percent of all nonmarital births are to women under the 
age of 20, half of first nonmarital births are to teenagers and most of 
the rest are to women in their early twenties.<SUP>[i]</SUP> So, the 
pattern typically begins in the teenage years or just beyond, but once 
begun often leads to additional births outside of marriage. There are 
two solutions to this problem. One is to encourage these young women to 
marry the fathers of their children (assuming the fathers are willing). 
The other is to get them to delay childbearing until they are older and 
married.
---------------------------------------------------------------------------
    \[i]\ National Center for Health Statistics, ``Births: Final Data 
for 1999,'' National Vital Statistics Report 49-1 (Hyattsville, MD: 
National Center for Health Statistics, 2001) 44.
---------------------------------------------------------------------------
    As Chart 1 shows, most women eventually do marry (90 percent by age 
45). The problem is one of timing. Up until their mid-twenties, more 
women have had babies than have ever been married. But after that age, 
the reverse is true: the number of women who have ever married exceeds 
the number who have ever had a child. So those calling for more 
marriage are really calling for earlier marriages. The drawback of this 
solution is that it requires reversing a strong and generally healthy 
trend toward later age at first marriage among both men and women. 
Between 1960 and 1999, age at first marriage increased from 20 to 25 
for women and from 23 to 27 for men. Age at first marriage is one of 
the strongest predictors of marital stability and this trend toward 
later marriage is a very important--probably the single most 
important--reason for recent declines in the incidence of divorce. One 
recent study by Tim Heaton at Brigham Young University based on data 
from the National Survey of Family Growth finds that all of the decline 
in divorce rates since 1975 is related to the increase in age at first 
marriage.<SUP>[ii]</SUP> Not only is this trend good for marriage, it 
is good for children as well. Younger mothers often lack the maturity, 
patience, and education that have been shown to produce better outcomes 
for children.
---------------------------------------------------------------------------
    \[ii]\ Tim Heaton, ``Factors Contributing to Increasing Marital 
Stability in the United States'' Brigham Young University, July 2000, 
12-13.
---------------------------------------------------------------------------
    The argument will be made that in earlier times it was common for 
women to marry young. But our economy now demands much more education 
than in earlier periods and provides women as well as men an 
opportunity to pursue both education and a career beyond high school. 
To be sure, some women may want to forego such opportunities in order 
to become full-time wives and mothers at an early age; but a social 
policy that actively encourages such early marriage would be 
inconsistent with one that also sees investments in education and in 
stable long-term marriages as socially beneficial.
    Perhaps what is really intended by marriage advocates is not a set 
of policies that would encourage earlier marriages across the board but 
only in cases where a woman is already pregnant or has had a child. 
Such ``shotgun'' or ``after-the-fact'' marriages to the biological 
father were common in the past but have virtually disappeared in recent 
years. Their modern counterpart is what is often called fragile family 
initiatives--efforts to work with young couples, many of whom are 
romantically involved or cohabiting at the time of the baby's birth, to 
help them form more stable ties and where appropriate, marry. These 
efforts often involve education, training, counseling, and peer support 
for the fathers. An evaluation of one such effort, Parents Fair Share, 
produced somewhat disappointing results.<SUP>[iii]</SUP> But it would 
be premature to write off such efforts. About two-fifths of all out-of-
wedlock births are to cohabiting couples and cohabitation seems to be 
rapidly replacing marriage as a preferred living arrangement among the 
younger generation. These cohabiting families are much less stable than 
married families. Less than half of them stay together for five years 
or more.<SUP>[iv]</SUP> Whether such couples can be persuaded to marry 
and whether these marriages would endure if they did is not entirely 
clear, but some research suggests that marriages preceded by 
cohabitation are less stable than those that are not.<SUP>[v]</SUP> In 
the meantime, any program that provides special supports, such as 
education and training, to unwed parents, whether mothers or fathers, 
runs the risk of rewarding a behavior that society presumably would 
like to discourage.
---------------------------------------------------------------------------
    \[iii]\ Virginia Knox and Cindy Redcross, Parenting and Providing: 
The Impact of Parents' Fair Share on Paternal Involvement (New York: 
Manpower Demonstration Research Corporation, 2000).
    \[iv]\ Elizabeth Terry-Humen, Jennifer Manlove and Kristin A. 
Moore, ``Births Outside of Marriage: Perceptions vs. Reality,'' Child 
Trends Research Brief (April 2001) 4.
    \[v]\ The National Marriage Project, ``Social Indicators of Marital 
Health and Wellbeing,''  The State of Our Unions 2001 (Piscataway, NJ: 
Rutgers University, 2001) 24.
---------------------------------------------------------------------------
    Many unwed mothers cohabit not with the biological father of their 
children but with another man and some of these relationships may also 
end in marriage. But, surprising as it may seem, such stepfamilies seem 
to be no better for children than being raised in a single parent home.
    More importantly, once a woman has had a child outside of marriage, 
her chances of marrying plummet. Daniel Lichter of the Ohio State 
University finds that the likelihood that a woman of a given age, race, 
and socioeconomic status will be married is almost 40% lower for those 
who first had a child out of wedlock (and 51% lower if we exclude women 
who marry the biological father within the first 6 months after the 
birth). By age 35, only 70 percent of all unwed mothers are married in 
contrast to 88 percent among those who have not had a child. He 
compares women who had a premarital pregnancy terminated by a 
miscarriage to those who carried to term, and finds that these 
differences in marriage rates persist.<SUP>[vi]</SUP> This suggests 
that having a baby out of wedlock causes women to marry less rather 
than simply reflecting the pre-existing characteristics of this group 
of women. The reasons unwed mothers are less likely to marry are 
unclear. They may be less desirable marriage partners, may be less 
likely to spend time at work or in school where they can meet 
marriageable men, or may simply lose interest in marriage once they 
have children. Moreover, having had one child out of wedlock, they 
appear to be relatively uninhibited about having additional children in 
the same way. In short, early unwed childbearing leads to less marriage 
and more illegitimacy. Thus, one clear strategy for bringing back 
marriage is to prevent the initial birth that makes a single woman less 
marriageable throughout her adult years. Most young women aspire to 
marry and publicizing their much reduced chances of marrying once they 
have a baby might make them think twice about becoming unwed mothers.
---------------------------------------------------------------------------
    \[vi]\ Daniel T. Lichter and Deborah Roempke Graefe, ``Finding a 
Mate? The Marital and Cohabitation Histories of Unwed Mothers,'' Out of 
Wedlock: Trends, Causes and Consequences of Nonmarital Fertility, eds. 
Lawrence L. Wu and Barbara Wolfe (New York: Russell Sage Foundation, 
2001) 329.
---------------------------------------------------------------------------
    Not only are unwed mothers less likely to marry than those without 
children but when they do marry, they do not marry as well. Their 
partners are more likely to be high school dropouts or unemployed than 
the partners of women who have similarly disadvantaged backgrounds but 
no children. Although marriage improves on unwed mothers' chances of 
escaping from poverty, it does not offset the negative effects 
associated with an unwed birth, according to Daniel Lichter and his 
colleagues.<SUP>[vii]</SUP>
---------------------------------------------------------------------------
    \[vii]\ Daniel T. Lichter, Deborah Roempke Graefe and J. Brian 
Brown, ``Is Marriage a Panacea? Union Formation Among Economically-
Disadvantaged Unwed Mothers,'' The Ohio State University, April 2001, 
18-19.
---------------------------------------------------------------------------
    My conclusion is that efforts to promote marriage and reduce 
divorce hold little promise for curbing the growth of single parent 
families and that what is needed instead is a serious effort to reduce 
early, out-of-wedlock childbearing. Moreover, as I will argue shortly, 
unlike encouraging marriage, this is something we actually know how to 
do. And finally, although some of what needs to be done is 
controversial, it is no more so than the promarriage agenda that some 
now tout. According to the Pew Research Center for the People and the 
Press, the American public is not in favor of the government developing 
programs that encourage people to get and stay married. Indeed, 79% 
prefer that the government ``stay out'' of such activities. Only 18% 
favor the idea. The group most in favor of this agenda is highly 
committed white evangelicals but only 35% of this subgroup favors 
government involvement in encouraging marriage while 60% remain 
opposed.
    Let me be clear that I am not arguing against marriage as a social 
goal. I am arguing that the most effective and least controversial way 
to accomplish this goal is to insure that more young women reach the 
normal age of marriage having finished school, established themselves 
in the workplace, and done both without having borne a child. The 
chances that they will then have children within marriage, that the 
marriage will be a lasting one, and that their children will receive 
good parenting will be much greater. The chances of achieving this goal 
will be enhanced if the message young people receive from society is 
not just that delaying parenthood is important, but also that children 
belong within marriage. As Wade Horn notes, too many teen pregnancy 
prevention programs have left the impression that it's fine to have a 
baby without being married as long as you wait until you're age 
20.<SUP>[viii]</SUP> But of course there is nothing magic about leaving 
the teen years. What needs to be stressed instead is accomplishing 
various life tasks, such as completing one's education and finding a 
lifetime partner before becoming a parent. Young people accomplish 
these tasks at different ages but few are ready before their early 
twenties at best.
---------------------------------------------------------------------------
    \[viii]\ Wade F. Horn, ``Confronting the `M' Word,'' American 
Experiment Quarterly 4 (2001): 85
---------------------------------------------------------------------------
    None of this is meant to imply that it is not worthwhile to use the 
bully pulpit to restore a marriage culture, provide pre-marital 
education and counseling, and engage faith-based communities, schools, 
and parents in sending different messages to young people about the 
benefits of marriage. In addition, attention should be given to some of 
the financial disincentives to marriage, especially in low-income 
communities. Congress acted in 2001 to reduce the marriage penalty in 
the tax code, including the large marriage penalty associated with the 
EITC. And many states have liberalized welfare eligibility standards 
for two parent families. More could be done but any meaningful 
reduction of marriage penalties in income-tested programs carries 
enormous budgetary costs and is unlikely to have more than small 
effects on behavior. So, without a strong effort to prevent early 
childbearing, I very much doubt that these efforts alone will 
significantly reduce the growth of single parent families and improve 
economic and social environments for children.
Reducing Early Childbearing
    After climbing steadily at almost 1 percentage point per year for 
over twenty years, the proportion of all children born outside of 
marriage (``the nonmarital birth ratio'') leveled off after 1994. Much 
of the good news is related to a decline since 1991 in the teenage 
birth rate. (Almost four out of every five teen births is out-of-
wedlock.). In fact, as Chart 2 shows, if there had been no decline in 
the teen birth rate, the nonmarital birth ratio would have continued to 
climb in the late 1990s, albeit not as rapidly as in the prior decade. 
More specifically, if teen birth rates had held at the levels reached 
in the early 1990s, by 1999 the nonmarital birth ratio would have been 
more than a percentage point higher. This suggests that a focus on 
teenagers (although not to the exclusion of women in their early 
twenties who also contribute disproportionately to these trends) has a 
major role to play in reducing both out-of-wedlock childbearing and the 
growth of single parent families.
    This conclusion is reinforced when one recalls that teens who avoid 
a first nonmarital birth are more likely to marry and less likely to 
have additional children outside of marriage. These indirect effects 
are not included in Chart 2, but as noted above, they are likely to be 
substantial.
    Since the decline in the teenage birth rate has contributed 
significantly to the leveling off of the nonmarital birth ratio, it is 
worth asking what caused the decline and whether further steps can be 
taken to lower the rate (and ratio) further.
    Teen births are down because teen pregnancies are down. (The 
difference between them depends on how many teens have an abortion, and 
after increasing in the decade immediately following Roe v. Wade, 
abortion rates for teens, as for all women, have now leveled off or 
declined.) The decline in teen pregnancy rates has been driven, in 
turn, by both declining rates of sexual activity among teens and better 
contraception. Proponents of abstinence like to think that the former 
has been most important while proponents of birth control give greater 
weight to changes in contraceptive behavior. With existing data, it's 
not possible to determine the precise role of each, but almost everyone 
agrees that both have played a role.<SUP>[ix]</SUP> That said, there is 
a growing public consensus that abstinence is preferable, especially 
for school-age youth, but that contraception should be available. 
Polling by the National Campaign to Prevent Teen Pregnancy has 
consistently found majority support for this view with 73 percent of 
adults agreeing with the proposition that teens should not be sexually 
active but that teens who are should have access to contraception. 
Support for this moderate position has increased 14 percent since 
1996.<SUP>[x]</SUP>
---------------------------------------------------------------------------
    \[ix]\ Christine Flanigan, What's Behind the Good News (Washington: 
The National Campaign to Prevent Teen Pregnancy, 2001) 7.
    \[x]\ The National Campaign to Prevent Teen Pregnancy, With One 
Voice (Washington: The National Campaign to Prevent Teen Pregnancy, 
2001) 5.
---------------------------------------------------------------------------
    These data on reduced sexual activity suggest that the emphasis on 
abstinence, including new funding for abstinence education in the 1996 
welfare reform bill, is working to reduce teen pregnancies and out-of-
wedlock births. Yet evaluations of abstinence education programs have 
thus far failed to show much evidence of success. My conclusion is that 
new messages about abstinence are having an impact but less because 
they are embedded in so-called ``abstinence only'' education programs 
and more because they have infected the entire culture including 
traditional sex education programs, the media, faith-based efforts, and 
the way in which parents communicate with their children. The 
abstinence message is no longer the exclusive province of a small band 
of conservative activists; it is now being promoted by many organized 
groups (including the National Campaign to Prevent Teen Pregnancy) and 
is widely endorsed by most ordinary Americans including parents, 
teachers, many political leaders, and to a lesser degree, by teens 
themselves. This shift in both attitudes and behavior during the 1990s 
is significant and has clearly contributed to the decline in teen and 
out of wedlock childbearing.<SUP>[xi]</SUP>
---------------------------------------------------------------------------
    \[xi]\ Leighton Ku, Freya L. Sonenstein, Laura D. Lindberg, Carolyn 
H. Bradner, Scott Boggess, and Joseph H. Pleck, ``Understanding Changes 
in Sexual Activity among Young Metropolitan Men: 1979-1995,'' Family 
Planning Perspectives Vol. 30 (November-December 1998).
---------------------------------------------------------------------------
    Other factors that may have played a role include fear of AIDS and 
other sexually transmitted diseases in combination with more, or more 
effective, sex education programs (discussed in more detail below). 
Finally, welfare reform itself in combination with a strong economy may 
have had an impact. Although the decline in teen pregnancy and birth 
rates predates welfare reform, most of the decline prior to 1996 was 
the result of a drop in second or higher order births to teens who were 
already mothers and appears to have been caused by the availability for 
the first time of longer-lasting, more effective forms of contraception 
such as Depo Provera. These methods are not widely used but have caught 
on particularly among the subgroup of young women who have already had 
a baby. It was not until the latter half of the 1990s that first births 
to teens began to decline significantly.<SUP>[xii]</SUP> Whether this 
decline in first births is the result of welfare reform or not is 
uncertain; but it needs to be emphasized that the 1996 law sent a new 
message not only to young women but also to young men. The message to 
young women was financial support for you and your baby is going to be 
time limited and require that you work. The message to young men was if 
you father a child, you will be responsible for its support. And 
several studies have found that tougher child support enforcement 
reduces out-of-wedlock childbearing.<SUP>[xiii]</SUP> Thus, the 
evidence is at least consistent with the view that welfare reform has 
played a role in producing the observed trends.
---------------------------------------------------------------------------
    \[xii]\ The National Campaign to Prevent Teen Pregnancy, Just the 
Facts (Washington: The National Campaign to Prevent Teen Pregnancy, 
2000) 100-102.
    \[xiii]\ Irwin Garfinkel, Theresa Heintze, and Chien-Chung Huang, 
``Child Support Enforcement: Incentives and Well-Being,'' The 
Incentives of Government Programs and the Well-Being of Families, eds. 
Bruce Meyer and Greg Duncan (Chicago: Joint Center for Poverty 
Research, 2000) 10.
---------------------------------------------------------------------------
Building on Success
    Other data reinforces the view that welfare reform may be affecting 
family formation. Not only has the teen birth rate declined and the 
nonmarital birth ratio leveled off, but in the late 1990s the 
proportion of children living in a single parent family stabilized or 
even declined modestly for the first time in many 
decades.<SUP>[xiv]</SUP> This reversal of trend was most notable for 
low-income families, and those with less education or very young 
children, just as one would expect if welfare reform were the cause. 
Looking at data for 1997 and 1999, for example, Gregory Acs and Sandi 
Nelson of the Urban Institute find that the share of families composed 
of single mothers living independently declined almost 3 percentage 
points more among families in the bottom income quartile than among 
those in the second quartile.<SUP>[xv]</SUP>
---------------------------------------------------------------------------
    \[xiv]\ Richard Bavier, ``Recent Increases in the Share of Young 
Children Living with Married Mothers,'' Washington: Office of 
Management and Budget, September 2001, 3.
    \[xv]\ Gregory Acs and Sandi Nelson, `` `Honey, I'm Home.' Changes 
in Living Arrangements in the Late 1990s,'' New Federalism Urban 
Institute Policy Brief B-38 (June 2001) 5.
---------------------------------------------------------------------------
    Changes in such behaviors as divorce and out-of-wedlock 
childbearing are likely to respond only slowly to a shift in the policy 
environment and it would be premature to attribute all or even most of 
these changes to the 1996 law. But it would also be wrong, in my view, 
to say that it has not had an effect simply because evaluations of some 
of the specific provisions such as family caps or the illegitimacy 
bonus or abstinence education programs have not shown clear 
impacts.<SUP>[xvi]</SUP> Arguably, much more important than any of 
these are new messages about time limits, about work, and about 
abstinence. Young women who decide to have children outside of marriage 
now know that they will receive much more limited assistance from the 
government and that they will be expected to become self-supporting. 
Young men are getting the message that if you father a child you will 
be expected to pay child support. Teenagers who choose to remain 
abstinent now feel much more support from program operators, advocates, 
and peers. If I am right about this, then one important recommendation 
for policy makers is that they maintain the current thrust of the law. 
However, programmatic micromanagement of various family behaviors at 
the federal level is another matter. Detailed prescriptions about how 
funds can be used at the local level are likely to be neither effective 
nor widely supported. Broader messages about work, about family 
formation, about abstinence, and about the need for fathers to support 
their children should be sufficient.
---------------------------------------------------------------------------
    \[xvi]\ Charles Murray, ``Family Formation,'' New World of Welfare 
eds. Rebecca Blank and Ron Haskins (Washington: Brookings Press, 2001) 
145.
---------------------------------------------------------------------------
    The main actors in this story are not the Federal Government but 
states, communities, and nonprofit (including faith-based) 
organizations. And what they need are resources, technical assistance, 
and information about what might work to reduce early childbearing 
outside of marriage and slow the growth of single parent families. 
Current efforts are fragmented, underfunded, and often ineffective. For 
all of the reasons stated earlier, the focus needs to be on reaching 
young people before they have children. The high-risk group includes 
not only teenagers but also those in their early twenties. But 
attitudes about sex, relationships, and marriage are formed at an early 
age and the intense interest in them that develops during the 
adolescent years produces an especially receptive audience at this 
time.
    The good news is that in the past five years, research on teen 
pregnancy prevention programs has found a number that work. Douglas 
Kirby's review, Emerging Answers, published in the summer of 2001, 
identifies several rigorously evaluated programs that have reduced teen 
pregnancy rates by as much as one half.<SUP>[xvii]</SUP> Some effective 
programs involve teens in community service or afterschool activities 
with adult supervision and counseling. Others focus more on sex 
education but not necessarily just on teaching reproductive biology. 
The most effective sex education programs provide clear messages about 
the importance of abstaining from sex or using contraception, teach 
teens how to deal with peer pressure, and provide practice in 
communicating and negotiating with partners. This research needs to be 
aggressively disseminated so that local efforts are based on more 
informed judgments. And since there are a variety of different 
approaches that can be effective, communities should be allowed to 
choose from among them based on their own needs and values. 
Simultaneously, much more emphasis needs to be placed on the potential 
of sophisticated media campaigns to change the wider culture. Such 
campaigns have been used to effectively change a variety of health 
behaviors in the past but their full potential has not been tapped in 
this arena.<SUP>[xviii]</SUP> Some nonprofit groups, such as the 
National Campaign to Prevent Teen Pregnancy and the National Fatherhood 
Initiative, are working in partnership with the media to embed new 
messages into the television shows most often watched by teens. And 
many states are using the abstinence education funds from the welfare 
reform bill for public service announcements, but additional resources, 
including some that could be used to design and implement a national 
effort, are needed.
---------------------------------------------------------------------------
    \[xvii]\ Douglas Kirby, Emerging Answers (Washington: The National 
Campaign to Prevent Teen Pregnancy, 2001).
    \[xviii]\ Leslie B. Snyder, ``How Effective Are Mediated Health 
Campaigns?'' Public Communication Campaign, eds. Ronald E. Rice and 
Charles K. Atkin (Thousand Oaks, CA: Sage Publications, 2000).
---------------------------------------------------------------------------
Conclusion
    The goal of increasing marriage, is, in my view, entirely laudable. 
However, it needs to be reconciled with other goals, such as supporting 
children who are already born. One extreme option would be to eliminate 
benefits entirely for those living in single parent families or for 
young women who bear a child out of wedlock. A softer version of this 
would be to earmark some portion of existing government benefits for 
those who are married or to carve out a portion of the welfare dollars 
that go to the states for marriage education or other pro-marriage 
activities.
    These policies would come on top of the reforms instituted in 1996 
which sent a strong message that women who bear a child outside 
marriage will no longer be able to raise that child without working and 
that the men who father such children will have to contribute to their 
support. The early indications are that these messages may be having an 
effect: teen birth rates have fallen, the share of children born out of 
wedlock has leveled off, and the share of young children living in 
married families have all increased in the late 1990s.
    These developments suggest that current policies may be working, 
and given time for new social norms to evolve, will have larger 
effects. Pushing pro-marriage policies to the next level could upset 
the fragile political coalition supporting current reforms. Liberal 
advocates argue that such proposals effectively divert resources away 
from helping single parents raise their children. Whatever mistakes the 
parents may have made, few people want to deprive their children of 
assistance as a consequence.
    The key behavior here is not marriage per se but childbearing 
outside of marriage. Divorce rates may be high but they are not 
increasing and have played no role in the growth of single parent 
families for several decades. Virtually all of that growth, and the 
associated growth in child poverty in the 1980s and early 1990s, was 
caused by increased childbearing among young, single women. Moreover, 
half of that childbearing begins in the teenage years and most of the 
rest of it takes place among women in their early twenties. Once such 
women have had a child their odds of ever getting married plummet. In 
fact, having established a single parent household, these women often 
go on to have a second or third child, often with different fathers. 
Many point to the shortage of ``marriageable men''--that is, men with 
good job prospects--in the communities where these women live; but 
there is a shortage of ``marriageable women'' as well. Most men are 
going to think twice about taking on the burden of supporting someone 
else's child.
    There are only two solutions to the problem of childbearing outside 
of marriage. One is to encourage young women to marry very young, say 
in their teens or their early twenties at the latest, before they start 
having children. The other is to persuade them to delay childbearing 
until they are in their mid-twenties. Although commonplace as recently 
as the 1950s, early marriage is no longer a sensible strategy in an 
economy where decent jobs increasingly require a high level of 
education and young people need to spend the first few years out of 
school getting established in the job market. Moreover, teen marriages 
are twice as likely to end in divorce as marriages among adult women in 
their mid-twenties.<SUP>[xix]</SUP> So if we want to encourage 
marriage, prevent divorce, and ensure that more children grow up with 
married parents, we must first insure that more women reach adulthood 
before they have children. It is a necessary if not sufficient 
condition for success. It implies redoubling efforts to prevent teen 
pregnancy. These efforts have now been carefully evaluated and many of 
them appear to be quite effective.
---------------------------------------------------------------------------
    \[xix]\ Matthew D. Bramlett and William D. Mosher, ``First Marriage 
Dissolution, Divorce, and Remarriage,'' Center for Disease Control 
Advance Data 323 (May 2001) 5.
---------------------------------------------------------------------------
    So-called fatherhood programs which work directly with young men 
may also help but so far such efforts do not have a solid track record 
of success and send the wrong message if resources are targeted only on 
men who have already fathered a child out of wedlock. A far more 
promising strategy is to focus on young men and women who have not yet 
had a baby, to convince them there is much to lose if they enter 
parenthood prematurely, and much to gain if they wait until they are 
married.




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Sawhill. Mr. Levy.

STATEMENT OF DAVID L. LEVY, J.D., PRESIDENT, CHILDREN'S RIGHTS 
                            COUNCIL

    Mr. LEVY. Greetings, Chairman Herger and Mr. English. I am 
David L. Levy, President of the Children's Rights Council 
(CRC), an international child advocacy group with chapters in 
32 States, Europe, Asia, and Africa. Our advisers include Dear 
Abby, Elizabeth Kubler-Ross, and Senators Fred Thompson, Bob 
Graham, and Debbie Stabenow. I would get in real trouble, 
though, if I said I necessarily speak for them on every point I 
make.
    We were delighted that in 1996 Chairman Clay Shaw adopted 
CRC's suggestion that family formation and family preservation 
be the fourth goal of welfare reform. We have been surprised 
why States are having such difficulty in reaching those goals. 
The CRC always thought it would be fairly easy to take 
publicly-available recognized data on the increases in 
marriages or decreases from year to year, increases in divorces 
from year to year as an indication of whether the States' 
family formulation and preservation policies were working. 
Policies such as reducing teen pregnancy, premarital 
counseling, compatibility testing, parenting education, all of 
these contribute to States being able to meet those goals.
    We also favor co-parenting in divorce. The National Center 
for Health Statistics found that States with the highest amount 
of co-parenting, shared parenting, joint custody, all meaning 
the same thing subsequently have the lowest divorce rate. 
Apparently knowing that you can't ``X'' your ``ex'' out of your 
life sends a signal to other parents perhaps to re-look at 
possibly staying married.
    We thank four Governors for taking the lead signing laws 
that say a judge should first consider joint custody or co-
parenting. They are President Bush, when he was Governor of 
Texas; Tommy Thompson, when he was Governor of Wisconsin; 
Governor Keating of Oklahoma; Governor Angus King of Maine.
    Another point, access funds--visitation funds. Most 
divorced parents have done everything Congress has asked them 
to do. They completed their education, they got married, they 
raised their kids before they got divorced or divorce was asked 
of them. Not only fathers but 3 million non-custodial mothers 
in this country. They deserve our support even though there are 
some bad apples who are clouding the picture. We need to help 
those good parents who are doing what we have asked of them. We 
urge Congress to help them. Children's Rights Council was a 
catalyst behind the $3 million in demonstration grants for 
access funding in the 1988 Family Support Act. In 1996 there 
was an increase of $10 million a year in access funds for the 
States to share in. We need that--it is working well, but there 
are millions of kids who cannot get to see a parent because $10 
million a year cannot go very far for these programs which 
strengthen families and reduce poverty. More money is 
available, however.
    The Violence Against Women Act has appropriated $15 million 
for supervised visitation and supervised transfers of children, 
administered by the U.S. Department of Justice (DOJ), to help 
victims of domestic violence, and we support that. Seventy-five 
percent of parents who use these transfer of children sites on 
the weekend are there for other reasons like communication 
problems. The CRC uses churches--the faith-based community--to 
help bring about these child transfer and parent supervisions. 
We also ask Congress to provide that nonprofits, whose mission 
statement is to increase contact of children between two non-
custodial parents, get more funding from the States because 
those hundreds of groups can do the job better and cheaper than 
many groups now performing them.
    I would like to introduce Mr. Lonnie Perrin, who is running 
a Children's Rights Council Safe Haven Transfer at his church, 
Antioch Baptist Church in Clinton, Maryland. Mr. Perrin is a 
former football player with the Denver Broncos, Chicago Bears, 
and Washington Redskins. If I may, Mr. Perrin.
    [The prepared statement of Mr. Levy follows:]
 Statement of David L. Levy, J.D., President, Children's Rights Council
    Dear Chairman Thomas and Members of the Committee:
    I would like to refer to two topics.
1. FAMILY FORMATION AND FAMILY PRESERVATION.
    We were grateful that Chairman Clay Shaw adopted the suggestion of 
associates of the Children's Rights Council in 1996 to ``encourage 
family formation and family preservation.'' as the fourth goal of 
welfare reform. The Children's Rights Council (CRC) always thought the 
states could use publicly available data, such as the increase or 
decline in the number of marriages and divorces in their states, from 
one year to the next, to show whether their family formation and family 
preservation policies were working.
    Programs that will help increase the rate for marriage and staying 
married include parenting education, pre-marital counseling, teenagers 
speaking at schools as to why it would have been better for them--and 
other young people, to wait until they graduate from school and get 
married, before they have children--and other programs states are 
operating.
    In divorce, strong co-parenting or joint custody laws will help, 
such as those signed into law by President Bush in 1995 when he was 
Texas Governor, Secretary Tommy Thompson when he was Wisconsin 
governor, Gov. Frank Keating of Oklahoma, and Maine Gov. Angus King.
    The National Center for Health Statistics (Vol. 43, No. 9. 1995), 
found that the states with the highest amount of shared parenting have 
the lowest divorce rates in subsequent years. It appears that if moms 
and dads realize they cannot ``x'' their ``ex'' out of their lives when 
they have children, they are less likely to get divorced.
    Children and their parents who are never married, separated or 
divorced are not living under one roof, but still constitute a family. 
They also need more co-parenting. States should document whether family 
formation and family preservation policies are working through 
increases in marriage and decline in divorces.
2. INCREASE ACCESS (VISITATION) FUNDS.
    We urge Congress to increase the access/visitation grants from the 
$10 million a year in the 1996 Welfare Reform law to $40 million a year 
in the Reauthorization. These grants are designed to connect children 
to their non-custodial parents, through such programs as mediation, 
counseling, and establishing Safe Haven Transfer and Supervised Access 
Sites. Each state receives at least $100,000 under this grant each 
year, but it is not enough to assist the millions of children who have 
problems getting to see their parents through interference by a parent, 
court or legislative inaction.
    CRC operates 18 transfer and supervised sites in six states (MD, 
MA, CT, NC, OH, IL) and DC. About 40 percent of parents who use these 
sites are never-married, and to our surprise, about 35 percent are 
mothers who do not have primary care of their children.
    The money is available. Just this spring, the Justice Department, 
under VAWA grants, is offering $15 million to states to protect victims 
of domestic violence through transfer and supervised sites. While such 
protections are needed, most children and parents who use neutral drop 
off and pick up sites are not domestic violence abusers--at least 75 
percent of parents are there for other reasons, sometimes only because 
of the communication breakdown by parents who need a neutral site to 
transfer their children from one parent to another for the weekend.
    We invite Members of Congress and staff to view a brand new site 
CRC has just opened at Faith Tabernacle Church to serve Wards 7 and 8, 
the most disadvantaged area of Washington, D.C.
    In addition to increased funding, we urge that Congress ask the 
states to provide at least 25 percent of the funds ``to various non-
profit organizations whose mission statement is to provide greater 
contact between children and their non-custodial parents.'' Many non-
profits can provide these services at much lower cost than many current 
grantees, because we know the field from long experience.
    We also urge evaluations of these programs by the U.S. Department 
of Health and Human Services, which has no money set aside for 
evaluations of these access grants in the 1996 law.
    Note: Most fathers have done what Congress has asked them to do: 
They completed their education, and got married before they had 
children. And most parents support their children. It is time to do 
right by these dads--and the 3 million non-custodial moms in America, 
and not penalize them because of the non-supporting bad apples. Federal 
Child Support Commissioner Sherri Heller said publicly said that HHS 
will do more for these parents, and we urge Congress to do more, also, 
by increasing the access funding and other measures.
    Thank you.
                                 <F-dash>

   STATEMENT OF LONNIE PERRIN, COORDINATOR, ANTIOCH BAPTIST 
                   CHURCH, CLINTON, MARYLAND

    Mr. PERRIN. As Mr. Levy said, my name is Lonnie Perrin. I 
am the coordinator of the access and visitation program at 
Antioch Baptist Church in Clinton, Maryland. Many non-custodial 
parents do not have access to their children and are not aware 
that access services are available. We have noticed in the year 
that we have run the program at Antioch Baptist Church, that we 
have been able to reunite the child and the parent, get the 
parents to understand what their role and responsibility is in 
the child's life. I have been involved with families and 
fathers in the metropolitan area for the past 10 years, and I 
have noticed that access to the child is the key to the 
father's involvement in the child's life. So, often when you 
have a young man who is not paying child support, that young 
man ties child support into access. Sometimes the mother is not 
providing access because the father is not paying child support 
or the non-custodial parent is not paying child support. So, in 
a lot of cases, access ties into a lot of different things that 
are involved in the child's life. I just want to end by saying 
I would hope that this Committee would consider expanding 
funding for access and visitation programs so that we will be 
able to provide this service to more people, get the word out 
and reunite non-custodial parents with their children. Thank 
you.
    Chairman HERGER. Thank you very much. The gentleman's time 
has expired, but Mr. Perrin, thank you very much for your 
involvement in the community with your church and to help those 
fathers be able to be more involved with the children.
    Mr. LEVY. May I ask that report showing the decrease in 
divorce in the States with substantial joint custody be made 
part of the record?
    [The report follows:]

                   DIVORCE RATE IS PROJECTED TO DROP
    The Children's Rights Council, a national child advocacy group, 
predicts, based on current trends, that the divorce rate in the U.S. 
will be reduced by 5 percent to 10 percent within the next 20 years.
    CRC's report will be released at a press conference Friday, 
September 24, 9 a.m. at CRC's 12th national conference at Holiday Inn 
Hotel and Suites, 625 First Street, Historic District, Alexandria.
    The divorce rate, which has dipped slightly in the past few years 
from its high of 50 percent of all marriages, will drop further because 
of the rapid rise of joint custody (shared parenting), and the greater 
involvement of fathers in their children's lives.
    Data from the Census Bureau and the National Center for Health 
Statistics shows that states with the greatest amount of physical joint 
custody in 1989 and 1990 had the lowest divorce rate in subsequent 
years 1991 through 1995. Data is only available for 19 states.
    ``If a parent knows that he or she will have to interact with the 
child's other parent while the child is growing up, there is less 
incentive to divorce,'' said David L. Levy, Esquire, President of the 
Children's Rights Council.
    The states with the over-all highest amount of physical joint 
custody and highest decline in the divorce rate are Kansas and 
Connecticut, but Idaho, Illinois, Montana, Alaska, Rhode Island and 
Wyoming, also scored well in at least one of the two categories.
    ``More children growing up with 2 parents means a greater 
likelihood that children will do better academically, and be less 
likely to get involved with crime, delinquency and drugs,'' said John 
Guidubaldi, E.D., a former president of the National Association of 
School Psychologists.
Figure 1

 
     STATES WITH THE HIGHEST AMOUNT OF         STATES WITH THE HIGHEST
          PHYSICAL JOINT CUSTODY            DECLINE IN  THE DIVORCE RATE
 
 1. Montana                                  1. Alaska
 2. Kansas                                   2. Kansas
 3. Connecticut                              3. Connecticut
 4. Idaho                                    4. Illinois
 5. Rhode Island                             5. (tie) Wyoming
 6. Alaska                                   5. Montana
 7. Vermont                                  7. (tie) Michigan
 8. Illinois                                 7. Oregon
 9. Wyoming                                  7. Idaho
10. Missouri                                 7. Utah
11. Oregon                                  11. Nebraska
12. Michigan                                12. (tie) Rhode Island
13. Virginia                                12. Tennessee
14. Pennsylvania                            14. (tie) New Hampshire
15. Utah                                    14. Alabama
16. Tennessee                               16. Pennsylvania
17. Alabama                                 17. (tie) Vermont
18. New Hampshire                           17. Missouri
19. Nebraska                                19. Virginia
 
 
Note: Data is only available from the Census Bureau and the National
  Center for Health Statistics for these 19 States.
Further note: The District of Columbia has a relatively new (1996),
  strong joint custody law, for which data is not yet available. There
  are weak joint custody laws in both Maryland and Virginia.


                                 <F-dash>

    Chairman HERGER. Without objection. Thank you, Mr. Levy. 
Now Mr. Crouch to testify.

  STATEMENT OF JOHN CROUCH, EXECUTIVE DIRECTOR, AMERICANS FOR 
              DIVORCE REFORM, ARLINGTON, VIRGINIA

    Mr. CROUCH. Good evening, Mr. Chairman. I appreciate the 
opportunity to speak to you today about marriage education. My 
name is John Crouch, and I am a divorce lawyer in Arlington, 
Virginia. It is that experience which motivates me to be 
involved in the marriage movement.
    I am the Director of Americans for Divorce Reform, a small 
all-volunteer organization that supports a variety of measures 
to reduce divorce and improve marriage. We work with people 
around the country who get in touch with us because they want 
to do something about divorce.
    As a divorce lawyer I have witnessed and participated in 
many of my profession's attempts to improve the divorce 
process. Our ideal of the good divorce faces many obstacles 
that are deeply rooted in our culture, our legal system, and in 
human nature. For most families, easy divorce is a destructive 
and disastrous myth. Once they begin the process, they learn 
too late there is not enough money, not enough of the 
children's time to go around. The same thing happens when unwed 
parents split up. I have come to believe that the most 
effective way to minimize the damage of divorce is not to 
improve divorce, but reduce it. We must do what we can to 
improve it, but marriage education provides a new and better 
hope for sustaining marriages.
    Marriage education is a proven success. It is no untried 
experiment. The leading programs have been around for decades, 
like the Maryland-based Relationship Enhancement curriculum, or 
the Florida-based PAIRS program which has been adapted by the 
American Bar Association for use in the public schools. The 
PREP program from the University of Denver has been used in the 
public sector for years. It is taught in the Army and has also 
been taught since 1994 by Chesterfield County, Virginia's 
public mental health center.
    These programs and their results are described in my 
written materials at smartmarriages.com. There is abundant 
evidence of how marriage education programs strengthen 
marriages and reduce divorce. I ask that my written materials 
with those citations be entered in the record.
    Chairman HERGER. Without objection.
    Mr. CROUCH. Marriage education does not come from think 
tanks or politicians. It comes from social workers, educators, 
psychologists, chaplains, pastors, and lay volunteers who are 
out there working with couples. They have joined the marriage 
movement in response to experience, not theory. Some of us come 
to it from our work with families and children of divorce in 
the court system. We have resolved to go upstream and try to 
prevent the incurable suffering we deal with every day.
    Marriage education is a poverty prevention program, so it 
should be open to all without means testing. All children are 
put at risk by divorce and illegitimacy. Statistics on poverty 
and other effects of divorce can be found on Americans for 
Divorce Reform's Web site, divorcereform.org.
    Marriage education is not marriage promotion, but that too 
is appropriate, for people who have already assumed the burdens 
of marriage by having a child together. Generally, it is very 
wise to delay marriage until you are prepared for all the 
responsibilities of parenthood, but it is tragically frivolous 
to continue that policy when you already have a child to raise 
together.
    Marriage education is fiscally responsible. It can be 
provided very simply and inexpensively, as the Chesterfield 
County program shows. Curriculum development and instructor 
accreditation are already being done, so government does not 
need to replicate that work, nor politicize it.
    Divorce and illegitimacy cause a lot of government spending 
and major government involvement in families' lives. Government 
already provides parenting classes, divorce classes, sex 
education, family life education, and the only thing missing 
from that menu is marriage.
    Divorce and illegitimacy are not sustainable choices for 
most families, or for our society as a whole. Of all the things 
the Federal Government might do about these compelling national 
problems, providing marriage education through tested, proven 
programs is one of the most judicious, effective, non-divisive, 
and fiscally responsible steps that it can take.
    I would like to thank you for having me to speak to you, 
and I would be happy to answer any questions you may have. For 
more information, you can also go to Americans for Divorce 
Reform's Web site at divorcereform.org.
    [The prepared statement of Mr. Crouch follows:]
  Statement of John Crouch, Executive Director, Americans for Divorce 
                                 Reform
Introduction
    I am the Executive Director of Americans for Divorce Reform, a 
small all-volunteer organization that supports a variety of measures to 
reduce divorce and strengthen marriage. In my day job, I am a divorce 
lawyer, and it is that experience which motivates my involvement in the 
marriage movement. I am also trained to teach Relationship Enhancement, 
a marriage education curriculum, and am on the Advisory Board of the 
DC-based Smart Marriages coalition.
    As a divorce lawyer I have witnessed, and participated in, many of 
my profession's attempts to improve the divorce process. I have served 
as Chair of the Arlington County Bar Association Family Law Section and 
as Co-Chair of the American Bar Association Family Law Section Child 
Custody Committee, and I currently am starting a DC-area Collaborative 
Divorce Lawyers Network (www.co-divorce.com) and chairing an ABA 
committee that is drafting standards for lawyers who represent 
children. I have been in a position to observe the built-in obstacles 
to improving the divorce system, to making the ideal of ``the good 
divorce'' a reality for most families. These barriers are mostly side 
effects of things we consider good, in fact indispensable, in our legal 
system. I have also had to face the fact that for many couples divorce 
just is not sustainable no matter how you slice it: there is not enough 
money, not enough of the children's time, to satisfy both parents' 
basic needs, as long as they insist on going their separate ways.Thus I 
have come to believe that the most feasible way to reduce the damage 
divorce does is not to improve divorce, but to reduce it. Of course we 
must keep doing what we can to improve it, but the rise of marriage 
education, and a new openness to changing divorce laws, provide new 
hope for reducing divorces and improving marriages.
LMarriage Education is A Proven Success; Reduces Divorce, Improves 
        Marriages
    Marriage education is no untried experiment. The leading programs 
have been around for many years. At least one of them, PREP, has been 
used in the public sector as well as the private sector for some years 
now. PREP is taught in the Army, and has also been taught since 1994 by 
a county mental health department in Chesterfield County, Virginia. 
(See attached two-page article on that program, and a study of its 
effectiveness, Appendix I.)
    There is abundant evidence that certain marriage education programs 
work, and of exactly what it is they do that is effective in 
strengthening marriages and reducing divorce rates. (Citations and 
summaries of several studies are attached as Appendix II.)
Even a Libertarian Can See a Role For Government Here
    As a libertarian-leaning Republican, I nonetheless support some 
government provision of marriage education in the TANF context. (1) It 
can be provided very simply and inexpensively, as in the Chesterfield 
County program. (2) Divorce and unwed parenthood cause considerable 
government spending and entail major government involvement in 
families' lives. (3) Curriculum development, instructor training and 
accreditation are currently provided or overseen by the private sector. 
This avoids the need for layers of bureaucracy to handle those crucial 
tasks, and it also keeps them from being politicized. (4) Governments 
already provide parenting classes, divorce classes, divorce mediation, 
and secondary-school Family Life Education. If the only thing missing 
is marriage, what message does that send?
The Poor Aren't the Only Ones In a Marriage Crisis
    Putting funds into poverty prevention programs, such as marriage 
education, should not be equated with taking money away from the 
beneficiaries of other programs. Practically all children of divorce 
are at risk of poverty, becoming single parents, etc., so TANF-funded 
marriage education programs generally should not have to be means-
tested. However, it is appropriate to develop some programs targeted to 
low-income populations.
Marriage Education Is Not Political
    It is unfortunate that since the President's inclusion of it in his 
budget, recent news coverage has pigeonholed marriage education as a 
left-right political issue. It is true that it has received some 
valuable support from think tanks and faith-based public policy groups 
in recent years, but that is not where marriage education comes from. 
Marriage education has been pioneered and sustained by people way 
outside the Beltway, most of whom are not involved in politics at all. 
They are psychologists, social workers, educators, military chaplains, 
pastors, and trained lay volunteers, working with actual couples, not 
political abstractions.
    The marriage movement, of which the marriage education movement is 
a leading part, does indeed arise in large part from think tanks, 
academics and politicians, but they have come to their pro-marriage 
position in response to experience, not theory. Some, like me, come to 
it from our work with divorcing families in the court system. Others, 
from their work with the children of divorce. Some, from years of 
academic research that has forced them to change their initial rosy 
hypotheses about divorce. And many have had their eyes opened by their 
own divorces or those of family members. From the beginning, this 
movement has been led by liberals and moderates as well as 
conservatives. It has come this far without any of the usual left-right 
finger-pointing and drive-by debate, perhaps because conservatives and 
evangelicals realize that they have been as fully immersed in the 
divorce culture as anyone else.
Conclusion
    Of all the things the Federal Government might do about the 
compelling national problems of divorce and illegitimacy, providing 
marriage education through time-tested, proven programs is one of the 
most judicious, effective, non-divisive, fiscally responsible steps it 
could take.
                                 ______
                                 

                CAN WE REALLY STEM THE TIDE OF DIVORCE?

              Chesterfield Co. Program Trains for Marriage

                By Patricia Cullen, M.S.N., Chesterfield

[reprinted from Virginia State Bar Family Law News, Vol. 19 No. 3 (Fall 
                            1999), pp. 3-4]

    Family law attorneys live on the front lines of family breakup. On 
a daily basis, you observe the toll divorce takes on adults and 
children alike. Sometimes you succeed in helping your divorcing clients 
reach fair settlements without protracted litigation. In other 
situations, this is impossible and court intervention is inevitable. 
Particularly when children are involved, you may often wonder if it is 
possible, at least in some cases, to prevent the heartache you 
frequently witness in your role as legal advocate and counselor.
    For the past 20 years, two researchers at the University of Denver 
Center for Marital and Family Studies, Drs. Howard Markman and Scott 
Stanley, have been working with their associates to find out whether or 
not divorce is preventable. During the initial phase of their research, 
these two psychologists studied newly married couples over a number of 
years to see who would stay married and who would eventually divorce. 
They found that the variable most likely to predict marital success was 
the ability to manage conflict well. In other words, couples who 
somehow knew how to work out their differences effectively were the 
couples most likely to remain happily married. Couples who could not 
find constructive ways to handle typical marital conflicts were far 
more likely to divorce, no matter how happily married they were at 
first.
    Based on what they had observed in their initial research, the 
Denver team then developed a couples' class to teach the communication 
skills all couples need to argue effectively and maintain the fun and 
friendship which brought them together in the first place. The class is 
called ``Prevention and Relationship Enhancement Program (PREP).'' In a 
five-year follow-up study, the researchers found that couples who 
attended PREP had a divorce rate 50% lower than control couples who did 
not. These findings have been replicated in other studies, both here 
and abroad, and give cause for optimism about slowing down the divorce 
rate.
    In Chesterfield, the local mental health center began offering the 
PREP program to county residents in 1994. The class is offered several 
times a year to married and engaged couples for a nominal fee. The 
response to this seven-session class has been quite favorable. Clients' 
written evaluations give the content and instructors high ratings.
    The class is education, not therapy. There is no ``sharing'' of 
private matters or feelings with other couples. ``Marriage education'', 
like other adult education, is designed to teach skills to people who 
actually want to learn them and have voluntarily taken the initiative 
to improve themselves. Like adult education, it builds on students' 
existing skills and life experiences.
    In a six-month phone follow-up study conducted last year, 80% of 
the couples who had participated in the class were still using the 
communication skills they had learned, particularly a communication 
skill called the speaker-listener technique. This structured, practical 
technique is used when couples confront a difficult conflict that could 
easily escalate into a destructive fight. It slows down the 
conversation so that each person knows the other is really listening. 
It is nearly impossible for conflict to escalate when both parties are 
listening carefully, honestly and openly.
    In addition to the speaker-listener technique and other methods for 
fighting fairly, the Chesterfield class also contains material on 
problem solving, how to deepen marital commitment, and enhancing fun 
and intimacy. Each week, couples get to practice new skills in breakout 
sessions, in which the couples work privately with one of the 
instructors, who coaches them as they practice their new skills. 
Research at the University of Denver has shown that practicing with an 
instructor during class helps couples learn the techniques correctly. 
Couples are then much more confident about their ability to use the 
techniques where it really counts--at home.
    PREP is one of the best-researched marital education programs in 
the country. The program is useful to couples who have a good marriage 
and simply want to ``make a good thing better,'' as well as for couples 
who are struggling.
    Although many couples could benefit from the information and skills 
presented in the class, unfortunately PREP is not yet widely available. 
We now know what makes a marriage successful and how to prevent 
divorce. The challenge is how to get this important information out to 
the public, so we can begin to reduce our divorce rate. Spread the 
word.
    For more information contact Pat Cullen or Robin Jones at 
Chesterfield Mental Health Center, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcdfc9d0d0d9d2ccfcdfd392dfd4d9cfc8d9cedad5d9d0d892cadd92c9cf">[email&#160;protected]</a>, 804-
768-7204.

                                 ______
                                 
NEW RESEARCH ON EFFECTS OF MARRIAGE TRAINING

    The Chesterfield follow-up study's results parallel recent research 
by the developers of PREP, which was presented by Dr. Howard Markman at 
the Arlington ``Smart Marriages'' conference this past July. An 18-year 
follow-up study of PREP showed that six times as many of the people 
with standard Pre-Cana counseling divorced as did the couples with 
PREP, and this ratio increased over time. This study is one with a 
control group and in which there was no ``self-selection effect'': the 
couples did not choose which kind of counseling to get; the people 
running the study chose for them.
    The study showed that people who were trained by their own clergy 
and laity using the PREP program improved a lot in how they talk about 
problems--but people trained by PREP clinical staff at the University 
of Denver only improved a little. People in ``naturally occurring'' 
church premarital counseling show a sharp decline in how they 
communicate, probably because the counseling gets them talking about 
tough issues for the first time but does not necessarily give them any 
additional skills for doing so. Over the years, the difference in 
marriage quality between PREP couples and couples with standard Pre-
Cana counseling increases greatly. ``Negative verbal communication'' 
increases between the period immediately after marriage and the time 
five years into marriage for both groups, but it increases much more 
for the non-PREP couples. PREP couples had considerably less negative 
verbal communication at five years than they did before marriage.
    The study also showed that couples learn the communication skills 
permanently and use them. They do not do the ``speaker-listener 
technique'' in their daily lives, because that would be ridiculous, but 
they use this and other techniques effectively at times of high 
conflict. Using the techniques learned together in PREP, even when it 
doesn't lead to a solution, helps couples feel that they are working as 
a team. Couples in PREP counseling reported that communication skills 
were the best part of the training. 78% of males and 75% of females say 
this. Wives like the technique because they know their husbands are 
listening and understanding. Husbands like it because it breaks up 
wives' monologues. The research indicated that men are just as 
interested in and good at conversation, intimacy, etc. as women, but 
they avoid it because it leads to conflict, which they want to avoid or 
solve quickly. They want safety and rules for conversation, and limits 
on its length.

                                 ______
                                 
                                              --John Crouch

                              APPENDIX II:
          RESEARCH ON THE EFFECTIVENESS OF MARRIAGE EDUCATION

EXCERPTS FROM ``ACTING ON WHAT WE KNOW: THE HOPE OF PREVENTION'',
By Scott M. Stanley and Howard J. Markman, of the University of Denver 
Center for Marital and Family Studies; (303) 759-9931; http://
members.aol.com/prepinc

Full article available at http://www.smartmarriages.com/hope.html

Some updated references added by witness. Some marked ``in press'' have 
since been published.

[Author Note: Preparation of this brief was supported in part by 
National Institute of Mental Health, Prevention Research Grant, Grant 
5-RO1-MH35525-12 Long Term Effects Of Premarital Intervention. Requests 
for information on the research underlying this chapter can be sent to 
the authors at the Center for Marital and Family Studies, Psychology 
Department, University of Denver, Denver, Colorado 80208.]

    Outcome studies attempt to assess the comparable effects of various 
approaches to preventing or reducing marital distress and divorce. Here 
is a brief review of findings on three of the most widely used programs 
for couples--programs that are used both maritally and premaritally 
(from Silliman, et al., in press). These three programs are among the 
most commonly researched, used, and recognized in the couples' psycho-
education field:
Relationship Enhancement

    RE, an empathy-building social learning program of 16-24 hours, is 
one of the most extensively tested skills building programs in 
existence. This program based on a Rogerian communication model shows 
impressive results for a wide variety of types of couples (DeLong, 
1993). While the program has been used for treating a wide array of 
problems, it is use with premarital and marital couples is the focus 
here. Related to this use, several treatment groups of college-age, 
dating couples gained significantly in empathy skills (e.g., Ridley, et 
al., 1982) and problem solving skills (Ridley, et al., 1981) from pre 
to post-test and relative to control groups.
    One six-month follow-up found disclosure and empathy gains for RE 
participants relative to a lecture-discussion control group (Avery, et 
al., 1980), while another found communication, but not problem solving 
skills retention for experiential vs. discussion group couples (Ridley, 
et al., 1981). Sustained gains in self-disclosure were not evident at 
follow-up in comparisons of participants and non-participants in 
another study (Ridley & Bain, 1983). Heitland (1986) observed 
significant pre to post-test differences on listening, expression, and 
problem solving for college and high-school participants in an eight-
hour RE workshop, relative to control group couples. Meta-analytic 
research on many major marital programs (RE, CC, Engaged Encounter; 
Giblin, Sprenkle, & Sheehan, 1985) found RE to have the strongest 
effect sizes of those tested.
Couple Communication

    Like RE, CC is one of the older and best researched skills-based 
programs for couples. While the program can be used in a variety of 
formats and settings, most of the outcome research on CC has studied 
the effects of the 12 hour, structured skills training program, with 
most samples being married couples from middle-class backgrounds 
(Wampler, 1990). There is evidence suggesting the relevance of the 
material for couples at various stages and with various backgrounds 
(Wampler, 1990). Studies also show clear gains in communication 
behavior post-training (e.g., Russell, et al., 1984).
    Wampler (1990) reviewed studies on CC, noting strong gains in 
communication quality following training, but also noting that these 
effects diminish over time. Gains in individual functioning and 
relationship quality are more durable, although the longest term follow 
up assessments are well less than a year in duration (Wampler, 1990). 
CC is used by clergy, lay leaders, therapists, business personnel, and 
chaplains in all branches of the U.S. armed forces. Presenters of CC 
can use the approach individually with couples or in group settings. 
The program was redesigned and updated in 1991.
Prevention and Relationship Enhancement Program

    PREP targets changes in attitudes and behavior that are 
specifically related to risk and protective factors in a wide array of 
marital research. The rationales for PREP and programs like it are 
specifically supported by 1) studies that predict marital success and 
failure, 2) outcome research on program effects, and 3) survey research 
on what couples say are the most relevant topics of prevention. PREP 
primarily targets [factors] that are highly predictive of marital 
success or failure, and that are amenable to change.
    PREP offers a 12-hour sequence of mini-lectures, discussion, and 
interpersonal skill practice in week night, weekend, or one-day formats 
(Markman et al., 1986; Stanley, et al., 1995). Topics of focus include 
communication, conflict management, forgiveness, religious beliefs and 
practices, expectations, fun, and friendship (Markman, Stanley, & 
Blumberg, 1994). Also, strategies for enhancing and maintaining 
commitment have come to play an increasingly larger role in the kinds 
of cognitive changes attempted in PREP (e.g., Stanley, Lobitz, & 
Dickson, in press). Both secular (or non-sectarian) and Christian 
versions of PREP are available (Stanley & Trathen, 1994). As is true of 
other programs, PREP is not exclusively focused on skills training. 
PREP also includes an extensive assessment focus in the form of in 
depth exercises about expectations and beliefs that will affect 
marriages.
    PREP has been more extensively researched regarding long-term 
effects than other programs--with most of the research using premarital 
couples. The most recent study on it (Stanley, Markman et al., 2001) 
reports on the results of the dissemination of an empirically-based, 
premarital education program within religious organizations. The 
following major results are discussed with respect to premarital 
prevention: (a) Clergy and lay leaders were as effective in the short 
run as our university staff; (b) couples taking the more skills-
oriented intervention showed advantages over couples receiving 
naturally occurring services on interaction quality; and (c) couples 
reported that the communication skills components of premarital 
education were the most helpful.
    In the long term study in Denver, program effects have been tracked 
using both self-report and observational coding of couple interaction 
(Markman et al., 1988; Markman et al., 1993). The following are a 
sampling of findings from this research project. Three years following 
intervention, the PREP couples maintained higher levels of relationship 
satisfaction, sexual satisfaction, and lower problem intensity than 
matched control couples (Markman et al., 1988). PREP participants 
demonstrated significantly more positive interaction up to four years 
post-intervention, including greater communication skill, support/
validation, positive affect, positive escalation, and overall positive 
communication relative to a matched control group. PREP couples also 
showed greater communication skill, positive affect, and overall 
positive communication than couples who had declined the intervention 
years earlier (Markman, et al., 1993). More significantly, clear group 
differences were obtained up to four years following intervention on 
negative communication patterns (e.g., withdrawal, denial, dominance, 
negative affect, etc.), with PREP couples communicating less negatively 
than both matched control couples and decliner couples. These kinds of 
differences are very important because such patterns are strongly 
correlated with marital distress, violence, and breakup (Holtzworth-
Munroe, et al., 1995; Markman, Floyd, Stanley, & Storaasli, 1988; 
Gottman & Krokoff, 1989). The follow ups with the Denver sample also 
revealed a statistically greater chance of premarital breakup among 
control group and decliner couples than PREP couples, with similar, 
though non statistically significant, trends for divorce and separation 
four to five years after training (Markman, et al., 1993).
    In a pre-post design using random assignment, Blumberg found PREP 
more effective than Engaged Encounter in building positive 
communication, problem solving, and support/validation behaviors at 
post-intervention (reported in Renick, Blumberg, & Markman, 1992). 
Similar research programs in Germany (Hahlweg & Markman, 1993; Hahlweg 
et al., 1997) and Australia (Behrens & Halford, 1994) have demonstrated 
significant gains in communication, conflict management, and 
satisfaction at post-test, with the former sample showing a maintenance 
of communication and satisfaction gains at one and three year follow-
ups. Furthermore, the most recent data from the Germany project show 
that, at the five year follow up, PREP couples have a divorce rate of 
4% vs 24% for the control couples (Hahlweg, personal communication, 
February, 1997). VanWidenfeldt et al., (1996) did not obtain the same 
kinds of positive findings. However, interpretations of these results 
are problematic because the PREP couples had been together 
significantly longer than controls, the PREP couples had been together 
an average of nine years prior to intervention (making generalizations 
to prevention difficult), and a differential dropout rate led to the 
control couples being increasingly select for couples doing well over 
time.
    On a further encouraging note, Giblin, et al., (1985) conducted a 
meta-analysis of marital enrichment outcome research. In general, they 
found strong evidence for a positive effect across a number of 
programs, with those taking such programs being generally better off 
than about 70% of those not taking such programs. Further, they found 
that the measures that tended to demonstrate the strongest effects 
(those perhaps most sensitive to capturing the effects of such 
programs) were behavioral (e.g., objective coding of interaction). 
Lastly, they concluded that the programs showing the most promising 
effects were those utilizing behavioral rehearsal (e.g., skills 
training). . . . Their results suggest a wide variety of couples and 
families can benefit from such programs, and in fact, they found some 
of the strongest effects for those in greater need.
What Couples Report About Their Satisfaction With Premarital Training

    Separate from data on effectiveness from outcome studies, most 
couples report high satisfaction with their experience in preventive/
premarital programs. In a nationwide random phone survey, 35% of 
couples marrying in the past five years had premarital counseling in a 
religious context, and 75% of these couples reported that this 
preparation was helpful to them (Stanley and Markman, 1997). The 
Creighton University report on premarital preparation in the Catholic 
church found that, within the first four years of marriage, 80% of the 
individuals surveyed reported the training as valuable (Center for 
Marriage and Family, 1995). Sullivan and Bradbury (1997) found that 
approximately 90% of couples who taken premarital training would choose 
to do so again--though there were no differences between those who did 
and did not have some premarital training on marital outcomes. Couple 
satisfaction with preventive interventions is an important measure of 
outcome. While the studies on program effectiveness are complicated and 
open to various interpretations, there can be no doubt that couples who 
take part in preventive [training] come away valuing [it].
References

    Avery, A.W., Ridley, C.A., Leslie, L.A., & Milholland, T. (1980). 
Relationship enhancement with premarital dyads: A six-month follow-up. 
American Journal of Family Therapy, 3, (8) 23-30.

    Cullen, P. (1999). Can we stem the tide of divorce? Chesterfield 
County Program Trains for Marriage. Virginia State Bar Family Law News, 
Vol. 19/3, 3-4. (attached).

    Fowers, B. J., Montel, K. H., & Olson, D. H. (1996). Predicting 
marital success for premarital couple types based on PREPARE. Journal 
of Marital and Family Therapy, 22, 103-119.

    Giblin, P., Sprenkle, D.H., & Sheehan, R. (1985). Enrichment 
outcome research: A meta-analysis of premarital, marital, and family 
interventions. Journal of Marital and Family Therapy, 11 (3), 257-271.

    Hahlweg, K., Markman, H.J., Thurmaier, F., Engl, J., Eckert, V. 
(1996). Prevention of marital distress: Results of a German 
prospective-longitudinal study. Manuscript Submitted for Publication.

    Larsen, A. S., & Olson, D. H. (1989). Predicting marital 
satisfaction using PREPARE: A replication study. Journal of Marital and 
Family Therapy, 15, 311-322.

    Markman, H. J., Renick, M. J., Floyd, F., Stanley, S., & Clements, 
M. (1993). Preventing marital distress through communication and 
conflict management training: A four and five year follow-up. Journal 
of Consulting and Clinical Psychology, 62, 1-8.

    Ridley, C.A., Jorgensen, S.R., Morgan, A.C., & Avery, A.W. (1982). 
Relationship enhancement with premarital couples: An assessment of 
effects on relationship quality. American Journal of Family Therapy, 10 
(3), 41-48.

    Russell, C.S., Bagarozzi, D.A., Atilanao, R.B., & Morris, J.E. 
(1984). A comparison of two approaches to marital enrichment and 
conjugal skills training: Minnesota Couples Communication Program and 
structured behavioral exchange contracting. American Journal of Family 
Therapy, 12, 13-25.

    Stanley, Scott M., Howard J. Markman, Lydia M. Prado, P. Antonio 
Olmos-Gallo, Laurie Tonelli, Michelle St. Peters, B. Douglas Leber, 
Michelle Bobulinski, Allan Cordova, Sarah W. Whitton, 2001: Community-
Based Premarital Prevention: Clergy and Lay Leaders on the Front Lines. 
Family Relations: Vol. 50, No. 1, pp. 67-76. (Summarized in sidebar to 
attached Cullen article.)

    Trathen, D. W. (1995). A comparison of the effectiveness of two 
Christian premarital counseling programs (skills and information-based) 
utilized by evangelical Protestant churches. (Doctoral dissertation, 
University of Denver, 1995). Dissertation Abstracts International, 56/
06-A, 2277.

    VanWidenfelt, B., Hosman, C., Schaap, C., & van der Staak, C. 
(1996). The prevention of relationship distress for couples at risk: A 
controlled evaluation with nine-month and two-year follow-ups. Family 
Relations, 45, 156-165.

    Wampler, K.S. (1990). An update of research on the Couple 
Communication Program. Family Science Review, 3 (1), 21-40.

    Wampler, K.S., & Sprenkle, D.H. (1980). The Minnesota Couple 
Communication Program: A follow-up study. Journal of Marriage and the 
Family, 42, 577-584.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Crouch. Now, Ms. Jensen to 
testify.

   STATEMENT OF GERALDINE JENSEN, PRESIDENT, ASSOCIATION FOR 
    CHILDREN FOR ENFORCEMENT OF SUPPORT, INC., SACRAMENTO, 
                           CALIFORNIA

    Ms. JENSEN. Thank you for this opportunity to testify. 
Association for Children for Enforcement of Support, Inc. 
(ACES), is the largest child support organization in the 
country. Our 400 chapters with 50,000 members are 
representative of the 20 million children who are owed about 
$83 billion in unpaid child support. Welfare reform has 
assisted many of our families. One of our members recently said 
it best when she said, I am finally off of welfare and in the 
ranks of the employed. The $400 a month in child support added 
to my wages from my job at the restaurant make it possible for 
me to support my two children. Now, I can look into my kids' 
eyes and stand proud because they know their parents are both 
doing their part.
    Families entitled to child support have five requests of 
Congress in the welfare reform proposal. Our first request is 
that you simplify the distribution regulations and ensure that 
families receive correct and prompt payments. Thousands have 
experienced delays and problems receiving payments. An example 
of this was in Ohio who failed to implement the pre-assistance 
of arrearage regulation; 160,000 families were shorted $38 
million in child support. The State illegally withheld the 
child support from Ohio's poorest families. Those who 
participate in Ohio's Work First became employed and left the 
welfare rolls. The ACES filed a lawsuit. Subsequently, the 
Governor issued an executive order and the legislature acted to 
give the $38 million with interest back to the families. 
Unfortunately, the families are still waiting for their 
refunds. Many of them have 5 years of back support due. In this 
case, the deadbeat is the State of Ohio. Ohio estimates that it 
will cost about $18 million to untangle the records and that it 
will take 18 months. Twelve million dollars of this is being 
paid by the Federal Government. Complicated distribution 
regulations are expensive and harmful to families. The ACES 
asks that you end any type of calculations based on pre-
assistance arrears and that all of the child support that is 
paid when a family is on welfare is passed through to them. We 
would like States to use the same rules they use for earned 
income so that they only have one system to program into their 
computer, and it will reduce many of the inaccuracies from 
workers having to learn complicated systems. We would also like 
to see the Internal Revenue Service (IRS) offset program be 
extended to families just like the State offset program is and 
that families with children who are over age 18 have access to 
that program. It would certainly help those families put their 
children through college if they could receive back support.
    We also ask that child support be moved up in the priority 
scheme so that payments are distributed to families before 
income tax refunds are attached to pay back taxes and other 
benefits due back to the government.
    The IRS has a proven track record in this program. 
Collections have increased 635 percent since its inception in 
1984. We ask that you mandate States to use the IRS full 
collection service in cases where arrears are more than 
$10,000. Currently this program can be used when arrears are 
$750, but it is rarely implemented by the States.
    Third, we ask that you do not award States that fail to 
meet computerization deadlines. States were given an option of 
a rebate if they had a computer online by October 1, 2001. 
California continues not to have a child support computer 
system and has no plans for one until 2005. Michigan does not 
have a system in place, but reports to the Federal Government 
that they do, when those of us who live in Michigan know that 
the legal module was not even put online until March 31, 2002. 
Michigan also appears to believe that federal computer funding 
is endless. They have spent $400 million. They have asked for 
$647 million more. They are building a $1 billion child support 
system. The computer system to put a man on the Moon did not 
cost a billion dollars.
    We ask that you stop States from illegally withholding 
child support payments more than 2 days. There is $634 million 
currently being held by the States. Some States even escheat 
the money to the State general funds after they cannot find the 
parent.
    Finally, we would ask that you would improve interstate 
child support collections. The collections overall have 
improved, but only 6 percent of the money collected is for 
interstate families, when 40 percent of the families have 
interstate cases. We ask that you have HHS be able to send the 
income withholding order directly to the employer rather than 
notifying the State who then sends the order over. States are 
overwhelmed by the large number of data they receive. New York 
reported 177,000 matches; Texas, 166,000. Simplifying this 
process will help many families be able to get off of welfare 
and stay off. Support is important to our families. Thank you.
    [The prepared statement of Ms. Jensen follows:]
Statement of Geraldine Jensen, President, Association for Children for 
          Enforcement of Support, Inc., Sacramento, California
    ACES has 50,000 members and 400 chapters located in 48 states. We 
are representative of the families whose 20 million children are owed 
over $83 billion in unpaid child support. We have banded together to 
work for effective and fair child support enforcement. As one of our 
members said,
    ``I'm finally off of welfare and in the ranks of the employed. The 
$400 a month in child support added to my wages from my job at the 
restaurant makes it possible for me to support my two children. Now I 
can look my kids in the eye and stand proud because they know their 
parents are both doing their part.''
    Child support payments amount to almost 26% of family income for 
low-income families. Single parents leaving the welfare rolls rely on 
child support payments to supplement low wages more than ever before 
due to welfare reform.
    Families owed child support are requesting five things from 
Congress as part of welfare reform re-authorization:

        1. LSimplify child support distribution regulations to ensure 
        that families receive correct and prompt payments
        2. LThe IRS offset program should be part of ``family first'' 
        distribution and assist families with children owed support who 
        are over age 18_child support should be listed as the number 
        one claim when attaching federal tax refunds
        3. LDo not reward states that fail to meet computerization 
        deadlines by suspending penalizes
        4. LStop states from holding and/or sending unclaimed child 
        support payments to state general funds. States are holding 
        $634 million in undistributed funds.
        5. LMake sure states implement and enforce child support 
        enforcement laws as outlined in PRWORA and improve their 
        methods for collecting on interstate cases and cases involving 
        large arrearages
1. Improving and Simplifying Distribution Regulations
    Thousands of families have experienced delays and problems 
receiving support payment once they left the welfare rolls. The main 
cause of the problem is complicated distribution regulations which 
state governments have failed to implement or have incorrectly applied 
to post-welfare cases:

        <bullet> End the calculation of pre-assistance arrears as part 
        of the welfare debt even when payments are received when the 
        family is on assistance.
        <bullet> Pass through all support collected to the family 
        while on assistance.
        <bullet> Use the same method states use for earned income 
        monthly reporting so that they have only one process to be 
        programmed in the computer and implemented by state workers to 
        reduce administrative costs and increase accuracy.

    ACES recently conducted a survey of families affected by the child 
support laws in PRWORA. We found that there are serious problems with 
the distribution of child support. Many families report that child 
support is being collected but they are not receiving payments. Others 
state that payments to them are sporadic or that they are uncertain how 
much is being collected because child support received is of varying 
amounts.
    In Ohio, the Department of Jobs and Family Services failed to 
implement changes in the Welfare Reform law, which reduced the amount 
of welfare benefits the state was allowed to recoup from pre-assistance 
arrears. This caused 160,000 families to receive less child support 
than they were due. About $38 million was illegally withheld from 
Ohio's poorest families, those who participated in Ohio Works First, 
became employed, and left the welfare rolls An ACES investigation 
discovered that the Ohio Department of Jobs and Family Services (ODJFS) 
knowingly brought online a computer system in October 2000 that 
miscalculated distribution of child support payments owed families.
    In February 2001, ACES filed a Writ of Mandamus in State Appeals 
Court against ODJFS for putting the interests of the State ahead of 
those of affected children. As a result, Governor Taft has issued an 
Executive Order and the Ohio legislature has acted to release state 
funds to the 160,000 affected families, those who left the welfare 
rolls after October 1997. Ohio is supposed to be returning $44.6 
million ($38 million plus interest) but families have yet to receive a 
payment, eight months after the Governor announced the refunds. ODJFS 
did not correct the records. In fact, they were unable to untangle the 
pre-assistance arrears from legitimately owed welfare arrears so they 
just changed the arrears to all be owed to the family. Now, when 
payments are received, even if there is a legitimate debt owed to the 
state, it cannot be collected. The state has told us that if they ever 
get the records corrected they will not pursue families to return 
overpayments. We have asked the Federal Office of Child Support if they 
are willing to give up their 50% of the welfare debt on these cases. 
They report that federal law would not allow this. Please act to help 
these families. They are caught up in a complicated distribution system 
that the state cannot seem to implement. They did all that Congress 
asked--they got a job, and left the welfare rolls. All they are asking 
is for support legally due to their children.
    Families were deprived of $17 million in child support collected 
through attachment of state income tax refunds and $21 million in child 
support collected through various other methods. ODJFS estimates that 
review and recalculation of the 160,000 cases will cost $18 million and 
take 18 months. About $12 million of this is being charged by Ohio to 
the Federal Government as an administrative cost. In fact, the $18 
million it is costing to correct the records is the same amount that 
Ohio received last year in federal incentive payments.
    The process to refund the money includes:

        <bullet> Case-by-case review by county child support 
        enforcement agencies to identify affected families and gather 
        payment data
        <bullet> Calculations by ODJFS to determine amount of refund 
        due
        <bullet> Payment of the refund by the Ohio Treasurer
        <bullet> Separate payment by Ohio Auditor's Office for 6.5% 
        interest due.

    ODJFS readily admits it knew that the computer was improperly 
withholding money from families but did not wish to face a $25 million 
fine for not having its computer system online, so it made the choice 
of saving the state money to the detriment hundreds of thousands of 
children.
2. IRS Offset Collections Show Highest Rate of Increase
    The IRS Offset program has a proven track record in collecting 
child support. Collection under this program has increased from $205 
million in 1984 to $1.33 billion in 1998, a 635% increase. (See Chart 
1)





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    PRWORA required states to implement laws which provided for family-
first distribution of state tax offsets. The same requirement should be 
in place for the IRS Offset Program. Children need child support 
payments for food, clothing, health care and educational opportunities 
now. The government can wait but children's needs can't. Also, allowing 
the offset to be used to collect back support due for children over age 
18 will position many families to better afford college expenses and 
will reduce the need for some student loans. This important enforcement 
tool should be used to send a strong signal to those who fail to 
support their children. They should not be exempted from their federal 
income tax refunds being attached just because their children are over 
age 18.
    Also due to the proven IRS collection record, ACES requests that 
language be added to the welfare re-authorization bill which requires 
states to refer cases to the IRS for full collection services when 
arrears total more than $10,000. And language requiring the IRS to 
report annually to Congress concerning collection rates for these 
cases. Currently, cases with an arrearage of $750 or more can be 
referred to the IRS. States do not take advantage of this extra 
enforcement tool at rates that significantly assists families.
3. Automation Problems
    Since the 1984 Child Support Amendment passed, Congress has been 
giving states incentives and funding to develop statewide computer 
systems. Many deadlines have passed or have been extended. In the 1988 
Family Support Act, states were told to have computers in place by Oct. 
1, 1995 in order to receive 90% federal funding. When only 1 state met 
this deadline, it was extended to October 1, 1997. When only 21 states 
met this deadline, penalties were changed so that states could get 
waivers to penalties if they were making sufficient progress on 
computerization.
The Federal Office of Child Support reports the following \1\
---------------------------------------------------------------------------
    \1\ Certification Reviews of Child Support Enforcement Systems, 
Division of Child Support Information Systems, January 6, 2000
---------------------------------------------------------------------------
    Montana was the only state to the meet the October 1, 1995 
deadline. The October 1, 1997 deadline was met by Delaware 
(conditional), Georgia (conditional), Virginia, Washington, West 
Virginia (conditional), Arizona (conditional), Utah, Connecticut 
(conditional), Wyoming, Mississippi, Louisiana (conditional), New 
Hampshire, Idaho, Colorado, Oklahoma (conditional), Wisconsin, Rhode 
Island (conditional), Guam, New York (conditional), Iowa, and Alabama 
(conditional).
    Certified in 1998: Texas (conditional), Arizona (conditional), 
North Carolina (conditional), New Jersey (conditional), Vermont 
(conditional), Puerto Rico (conditional), Maine, Tennessee 
(conditional), Minnesota (conditional), Kentucky, South Dakota, 
Arkansas, Massachusetts, Florida, Missouri, and Hawaii. Certified in 
1999: New Mexico (conditional), Illinois (conditional), Oregon 
(conditional), Maryland, Pennsylvania (conditional), and Arkansas. 
Certified in 2000: Washington, D.C., Indiana, Kansas, North Dakota, and 
Nevada. States NOT Certified: California, Michigan, Nebraska (report 
pending), Ohio (report pending), South Carolina, and the Virgin 
Islands. Conditional Certification for many states is due to the 
inability of their computer systems to process referrals.
    States were provided with federal funding in PRWORA to update 
existing child support computer systems. Penalties for states that had 
not yet computerized were given an opportunity to get a penalty rebate 
if they met a deadline of October 1, 2001. California remains without a 
statewide computer and reports that they will not be computerized until 
2005, Michigan states they have a statewide computer as of October 1, 
2001, even though everyone knows that they did not put the legal module 
on line until March 31, 2002, just days before the Federal Government 
inspectors were due to arrive in Michigan to test the computer system.
    Michigan appears to believe federal computer funding is endless. 
They have designed a system which, after already having spent $400 
million, needs another $647 million to be fully functional. The Office 
of Child Support Enforcement is supporting Michigan's $1 billion child 
support computer system, stating in a letter to ACES that since 
Michigan collects $1 billion a year in child support, it is cost 
effective to have a $1 billion computer system. The computer system to 
put a man on the moon did not cost $1 billion. After spending hundreds 
of millions of dollars, Michigan officials stated they are only 
expecting a conditional certification because the system is not 
completely up to federal requirements. Please do not let states that 
have failed to computerize child support after 16 years, with federal 
funding at 80-90%, exempt out of penalties for failure to have systems 
in place. Michigan spent $90 million in the first three months of 2002 
alone of which 80%, or $72 million, was from federal funds. The penalty 
for not having a system in place by October 1, 2001 was less than that, 
$50 million.
4. Undistributed Funds
    States report an undistributed funds pool of over $634 million at 
the end of 2000 in collected but undistributed child support. Most 
states cannot explain the existence of the fund pools nor do they know 
to whom the money rightfully belongs. For example, in California, there 
is an unexplainable $192 million or so that is reported to the Federal 
Office of Child Support as net undistributed funds, but only $45 
million in actual cash. The other approximately $148 million cannot be 
accounted for. It is quite possible that money has been diverted to 
general fund accounts. In Michigan, the amount of undistributed funds 
doubled from about $20 million in 2000 to $40 million in 2001 and 
Tennessee has the highest rate/case of undistributed funds at $71 
million at the end of 2001. (See Chart 2)

                                Chart 2

                            COLLECTED BY STATE, UNDISTRIBUTED CHILD SUPPORT PAYMENTS
                                                  [In dollars]
 
                          STATE                                  DEC. 31, 2000               DEC. 31, 1999
 
ALABAMA                                                                 3,702,988.00                3,264,610.00
ALASKA                                                                  3,631,382.00                1,747,989.00
ARIZONA                                                             Not available                   9,506,700.00
ARKANSAS                                                                3,593,031.00                3,990,073.00
CALIFORNIA                                                            176,270,539.00              127,951,700.00
COLORADO                                                                4,282,615.00                  629,475.00
CONNECTICUT                                                             1,718,800.00                1,381,554.00
DELAWARE                                                                4,551,948.00                3,509,654.00
DISTRICT OF COLUMBIA                                                    1,734,501.00                1,361,607.00
FLORIDA                                                                41,704,057.00               45,637,093.00
GEORGIA                                                                   317,413.00                2,518,115.00
GUAM                                                                    3,365,040.00                1,721,121.00
HAWAII                                                                  3,785,481.00                1,220,932.00
IDAHO                                                                     129,504.00                   16,940.00
ILLINOIS                                                                1,316,851.00                  261,935.00
INDIANA                                                                14,000,594.00               14,934,035.00
IOWA                                                                    4,499,764.00                  989,989.00
KANSAS                                                                  4,047,695.00                  327,474.00
KENTUCKY                                                               11,276,489.00               11,072,597.00
LOUISIANA                                                                 826,468.00                  387,290.00
MAINE                                                                   4,254,567.00                4,464,573.00
MARYLAND                                                               10,786,404.00                7,828,829.00
MASSACHUSETTS                                                          11,252,358.00                7,220,855.00
MICHIGAN                                                               26,663,060.00               28,818,050.00
MINNESOTA                                                               7,513,981.00                  770,348.00
MISSISSIPPI                                                             3,222,524.00                2,800,100.00
MISSOURI                                                               18,820,049.00               14,273,822.00
MONTANA                                                                   933,690.00                  262,725.00
NEBRASKA                                                                3,907,814.00                   98,217.00
NEVADA                                                              Not Available                   1,555,070.00
NEW HAMPSHIRE                                                       Not Available                   1,401,062.00
NEW JERSEY                                                              8,258,611.00                4,058,470.00
NEW MEXICO                                                              2,356,732.00                  123,011.00
NEW YORK                                                               57,464,975.00               52,860,921.00
NORTH CAROLINA                                                          8,952,542.00               10,097,638.00
NORTH DAKOTA                                                            2,196,554.00                1,288,608.00
OHIO                                                                   19,703,191.00               19,070,984.00
OKLAHOMA                                                                1,404,426.00                2,277,525.00
OREGON                                                                  1,552,068.00                1,796,673.00
PENNSYLVANIA                                                           17,140,468.00               18,971,240.00
PUERTO RICO                                                             4,275,058.00                5,013,990.00
RHODE IS.                                                              2, 555,282.00                1,488,480.00
SOUTH CAROLINA                                                          6,122,065.00                5,013,990.00
SOUTH DAKOTA                                                              998,649.00                  715,738.00
TENNESSEE                                                              71,123,844.00               72,480,009.00
TEXAS                                                                  28,301,977.00               34,935,212.00
UTAH                                                                      763,059.00                  926,179.00
VERMONT                                                                 1,770,454.00                1,622,436.00
VIRGIN ISLANDS                                                            396,784.00                  254,396.00
VIRGINIA                                                                5,074,764.00                4,714,466.00
WASHINGTON                                                              2,770,568.00                3,099,927.00
WEST VIRGINIA                                                          10,424,260.00                4,278,930.00
WISCONSIN                                                               6,527,459.00                7,179,526.00
WYOMING                                                                 2,638,832.00                1,000,698.00
TOTAL UNITED STATES:                                                  634,890,229.00              560,713,864.00
 


    States have had many problems implementing State Disbursement 
Units. For example, in Illinois, the Clerk of Courts in some counties 
bundled checks, money orders, and cash brought in by non-resident 
parents and mailed them to the state without identifying information 
attached. Employers did not use the new case numbers assigned to them 
for income-withholding purposes. Each case was given a new number in 
the distribution unit system. The number was neither the parent's 
social security number nor the court docket number. Rather than 
obtaining a list of names and addresses from employers for whom the 
payments had been sent, the money was returned to the employers. Other 
families report massive problems because the statewide computer system 
cannot adequately interlink with the state distribution computer system 
to determine payment distribution in multi-family situations.
    Many states have systems where undistributed and unidentified funds 
are deposited into state unclaimed funds accounts. Michigan has 
deposited $1.5 million into the state general fund account in the past 
two years. Families are not told about this process and there is no 
requirement for it to be publicized.
    Federal law requires states to do an annual self-assessment in 42 
USC Section 654(15)(A). The Secretary has the authority to issue 
regulations on what the self-assessment will cover. Those regulations 
have been issued, but the distribution section does not require reports 
on undistributed funds or what efforts states are making to reduce this 
problem (45 CFR Section 308.2(d)). The regulations should be amended to 
require such reporting. It would at least get states to address the 
problem and make some plan for dealing with it.
    The Federal law which gives OCSE authority to audit state programs 
to determine whether ``collections and disbursements of support 
payments are carried out correctly and are fully accounted for'' in 42 
USC Section 652(a)(4)(C)(ii)(II). Health and Human Services should be 
required to issue a regulation saying that this power would be 
exercised whenever a state reported undistributed funds in excess 
of.03% of its total yearly collections. The auditors could then 
determine the source of the problem and require the state to correct 
problems that can be corrected.
    There is currently a performance standard for state paternity 
establishment programs. If a state fails to meet this standard, it is 
not in substantial compliance with its IV-D obligations and that 
triggers financial penalties (42 USC Section 652(g)). Using this model, 
a similar penalty provision for states that have large amounts of 
undistributed collections should be developed.
    In addition, states could be required to place all undistributed 
funds in an interest-bearing account. They should also be required to 
pay the interest to the custodial parent (when identified) or the non-
custodial parent (if not found, the money should be returned to the 
obligor). If neither the custodial parent nor the non-custodial parent 
can be identified, the state could keep the interest but would have to 
report it as program income.
    If the State Disbursement Unit (SDU) receives any information with 
a payment that indicates that the payment might be for one or more 
identifiable families, but the SDU holds the payment while it is trying 
to determine for which family the payment was intended, it should be 
obligated to notify all families potentially involved and give them a 
chance to come forward with information or claim the money.
    OCSE should make it clear that SDUs, IV-D programs, and absent 
parent employers are legally required to send copies of their payment 
and collection records on request to the family and its 
representatives. This must be true even for out-of-state SDUs, IV-D 
programs, and absent parent employers. It must also include records of 
an out-of-state SDU, IV-D program, or employer of child support being 
sent to the SDU, clerk of courts, or IV-D program in the family's 
state. This change would better enable families to identify where in 
the process money is disappearing.
    OCSE should make SDUs and IV-D agencies create publicly searchable 
databases containing the known information on all undistributed child 
support payments, so families and their representatives can look for, 
and claim, their money. OCSE regulations should require states to 
complete data entry setting up a new SDU account within three days of 
the first child support order in a case, regardless of whether data 
entry is done on the state level by SDU or the IV-D unit, or at the 
local level by IV-D staff or clerks of courts.
    OCSE regulations should require states to have quality assurance 
programs to ensure that data entry creating new SDU accounts is 
performed accurately and within time deadlines.
    OCSE regulations should require both IV-D and SDU customer service 
programs to be able to promptly resolve payee family complaints 
regarding non-processing or mis-processing by the SDU of child support 
it has received. This should include:

        a. Lrequirement that payee families receive toll-free customer 
        service numbers at the time of the first child support order on 
        their case
        b. LLimits on the percentage of calls that can result in a busy 
        signal or no answer
        c. LRequire that the customer service program be able to 
        electronically access court orders; IV-D, SDU, and court 
        payment ledgers; and SDU and IV-D account data for each 
        complaining payee family
        d. LRequire that the customer service program be accessible by 
        telephone to legal counsel for the payee family pursuant to 
        specified confidentiality protocols;
        e. LRequire that the customer service program begin research 
        regarding the payee family's complaint within one business day 
        and have sufficient staff to do so
        f. LMore generally, states should be required to send monthly 
        payment and balance notices to all cases for both payee 
        families and payors. States should no longer be permitted to 
        obtain waivers of the monthly notice requirement.
5. Effective Child Support Enforcement
    Children who receive child support:
        Are more likely to have contact with their fathers \2\
---------------------------------------------------------------------------
    \2\ Argys, Peter, Brooks-Gunn, and Smith, ``Contributions of Absent 
Fathers to Child Well-Being: The Impact of Child Support Dollars and 
Father-Child Contact'', University of Colorado (1996).
---------------------------------------------------------------------------
        Have better grade point averages and significantly better test 
        scores \3\
---------------------------------------------------------------------------
    \3\ Graham, Beller, and Hernandez, ``The Relationship between Child 
Support Payments and Offspring Educational Attainment'' in Child 
Support and Child Well-Being (Garfinkel, MacLanahan, and Robbins (eds), 
Washington, DC (1994).
---------------------------------------------------------------------------
        Have fewer behavior problems \4\
---------------------------------------------------------------------------
    \4\ H. McLanahan, et al, National Survey of Families and Households 
(1994)
---------------------------------------------------------------------------
        Remain in school longer \5\
---------------------------------------------------------------------------
    \5\ Nixon, Lucia, The Journal of Human Resources, XXXII-1, Winter 
1997,Vol. 32, No. 1 and Barnow, Burt S., et alK, ``The Potential of the 
Child Support Enforcement Program to Avoid Costs to Public Programs: A 
Review and Synthesis of the Literature'', U.S. Department of Health and 
Human Services, HHS 100-97-007 (2000)
---------------------------------------------------------------------------
        Receipt of child support is associated with significantly 
        higher expenditures on children than any other source of 
        income.
        About 20% of our nation's children have a parent living outside 
        the household and are entitled to child support. They are four 
        times more likely to be poor and five times more likely to 
        receive food stamps than children who live with two biological 
        parents. Child support, when received by low-income families, 
        accounts for 26% of family income.
    Strong Child Support Enforcement:
        Reduces the divorce rate \5\
        Reduces the number of births to never married parents \6\
---------------------------------------------------------------------------
    \6\ Case, Anne, Fathers Under Fire, Chapter 7, ``The Effects of 
Stronger Child support Enforcement on Non-marital Fertility'' and 
Plotnick, Robert D., et al, ``The Impact of Child Support Enforcement 
Policy on Non-marital Childbearing,'' University of Washington (2000)
---------------------------------------------------------------------------
        Reduces teenage pre-marital childbearing \7\
---------------------------------------------------------------------------
    \7\ Plotnick, Robert D., et al, ``Better Child Support Enforcement: 
Can It Reduce Teenage Premarital Childbearing?'', University of 
Washington (1998)
---------------------------------------------------------------------------
        New studies show that strong child support enforcement programs 
        have far-reaching positive social impact that reduces the 
        number of children living in fatherless households and promotes 
        marriage. Many recent studies have shown that strict 
        establishment and enforcement of child support obligations is 
        leading to lower divorce rates and fewer illegitimate births. 
        In ``The Effect of Child Support Enforcement on Marital 
        Dissolution,'' Lucia A. Nixon found that strong child support 
        enforcement reduces marital breakups, and in ``The Effects of 
        Stronger Child Support Enforcement on Non-Marital Fertility,'' 
        Anne Case found that anything that increases the cost of 
        fatherhood reduces the probability of children being born. 
        ``The Impact of Child Support Enforcement Policy on Non-Marital 
        Child Bearing,'' showed that in states with a strong child 
        support enforcement programs, non-married women had fewer 
        children.
    State governments alone have been unable to collect sufficient 
back-support due. (See Chart 3)



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    State governments have been unable to collect support in interstate 
cases. (See Chart 4)



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Families Benefit From Effective Child Support Enforcement
    ACES has been monitoring the current child support enforcement 
system since 1984. In addition to obtaining information about the child 
support enforcement system for our members, ACES operates a national 
toll-free Hot Line for families with child support problems, issues, 
and questions. We receive up to 100,000 calls per year from parents 
throughout the U.S. From these calls and our members, we gather 
statistics and data on the status of the current child support 
enforcement system.
    The average ACES member is a single-parent, and she has two 
children. About 50% of ACES members are divorced, and the other half 
were never married. Members average income is $15,000 per year as of 
the end of 2001, and 85% have, in the past, received some form of 
public assistance. At present, about 33% of our membership receives 
public assistance. ACES members report that collection of child 
support, when joined with available earned income, allows 88% to get 
off public assistance. Collection of child support enables our low-
income, working-poor members to stay in the job force long enough to 
gain promotions and better pay so that they can move their family out 
of poverty, and on to self-sufficiency. The collection of child 
support, when joined with earned income, means our members can pay 
their rent and utilities, buy food, pay for healthcare, and provide for 
their children's educational opportunities. Lack of child support most 
often means poverty and welfare dependency. At the very least, it means 
having to work two or three jobs to survive. This leaves our children 
with literally no parent who spends time providing their children 
adequate nurturing, supervision, and the attention they need and 
deserve.
LParents Have the Ability to Pay Child Support: 60% Have an Income of 
        Over $30,000
    ``Characteristics of Families Using Title IV-D Services in 1995'', 
a study by Matthew Lyon shows that 1% of families using IV-D services 
had $0 income; 10% had an income of $1-$5,000; 18% had an income of 
$5,000-$10,000; 15% had an income of $10,001-$15,000; 10% had an income 
of $15,001-$20,000; 7% had an income of $20,001-$25,000; 8% had an 
income of $25,001-$30,000 and 30.5% had an income above $30,000. In the 
book, ``Fathers Under Fire'', by Irv Garfinkel, data reported on the 
income of non-resident parents showed that 20% had an income under 
$6,000; 20% had an income of $10,000-$30,000; 10% had an income of 
$30,000-$40,000; 40% had an income of $40,000-$55,000 and 10% had an 
income in excess of $55,000 (Chart 5).



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Data from the 1997 National Survey of American Families showed that 
of the 11 million fathers who weren't living with their children, about 
4 million paid formal child support while the other 7 million did not. 
Of these 7 million fathers, 4.5 million have sufficient income to pay 
support. About 2.5 million were poor and probably unable to contribute 
significant child support.
    The Federal Office of Child Support, in its preliminary data for 
the year 2000, shows that collections rose from $15.4 billion to $18 
billion, for families with cases open at a government child support 
agency. The 1999 data shows slightly less than 50% of the children 
still do not have orders and the collection rate is 37%. This increase 
from 23% in 1998 is in part due to new reporting requirements for 
states and new regulations which allow states to close old cases where 
collections had not been made. U.S. Census Bureau data from the May 
1999 Current Population Report, which includes data for families with 
and without a government child support case, for the year 1998, shows 
that the percentage of single-parent families who receive child support 
(some or all support due in 1998) was only 32%. The collection rate 
shows no significant improvement.
    The most recent data available from the Federal Office of Child 
Support (Chart 1) shows that total collections for 2000 are $18 
billion, up from $15.8 billion in 1999, up from the $14.3 billion in 
1997, which was up from $13.3 billion in 1996. IV-D agencies spend $25 
to collect $100, and 55.5% of collections are from payroll deductions.
5. Need Improved Interstate Collections
    Chart 2 shows interstate collections. In 2000, interstate 
collections of $1.1 billion out of a total $17.9 billion are 6.1% of 
total. This is a decrease from $1.08 billion out of $15.9 billion 
(6.7%) in total collections in 1999. Interstate child support cases 
make up 36% of the case load. UIFSA, the Uniform Interstate Family 
Support Act required PRWORA to be adopted verbatim by all states. 
PRWORA has not yet shown itself to be of any assistance in processing 
interstate cases faster or more effectively. In fact, ACES has been 
told by several state IV-D agencies and state courts that it is more 
difficult to use than URESA, its complicated predecessor. Problems are 
being reported with the provision for direct income-withholding. If a 
non-resident parent receives an income-withholding order at their place 
of employment, and the order is for the wrong amount, wrong person, or 
contains some other mistake of fact, there is no mechanism in place to 
resolve problems. The state which sent the order is inaccessible to the 
non-resident parent and the state IV-D agency in their state is not 
even aware of the order or that a case exists in another state.
    To increase the effectiveness on the interstate withholding 
process, ACES recommends that HHS be empowered to send income-
withholding notices to employers on cases with existing income-
withholding orders rather than just notifying the state of a new 
employer. States should be sent a copy of the income--withholding order 
listing the new employer so that, if needed, they can conduct a 
mistake-of-fact hearing and credit the case with payments which are 
received. This is needed because states often fail to act on data 
received from the Federal New Hire Registry. State governments report 
being too short-staffed to process the large amount of data received. 
For example Alabama received 56,000, Arizona 49,00, Florida 121,00, 
Illinois 105,00, Mississippi 50,000, Missouri 67,000, New York 117,000, 
Texas 166,00, and VA 199,00 matches.
    ACES recent survey of families about the impact of PRWORA child 
support laws revealed that, although adopted by local law and policy 
regulation, few provisions are being effectively utilized. ACES members 
and clients were questioned regarding past welfare enrollment, 
existence and amount of arrears, credit bureau reporting, bank account 
attachments, driver's license suspensions, professional license 
suspensions, income-withholding practices of the state child support 
agency, income tax refund seizures, and payment distribution.
    Of the families surveyed,

        89% said they had received welfare benefits in the past
        44% had an order established before they went on welfare

    Of those who had been on welfare,

        42% said that no support payments were collected while they 
        were on welfare
        L13% said that child support payments were collected and sent 
        to them while they were on welfare
        L44% said that child support payments were collected for them 
        and kept by the state

    When asked about arrears owed:

        L89% of those responding to the survey said there were arrears 
        owed more than the amount of support due in 30 days
        LOf the 89% who are owed more than current support, only 12% 
        affirmed that non-payors in their cases had been reported to 
        credit bureaus
        26% answered negatively
        54% were unsure
        L18% added comments including reasons given by the local child 
        support agencies for failing to institute this practice, 
        including policies of waiting periods before taking action, and 
        reports of filing grievances with the agencies with a 
        continuance of inaction even after the grievance was filed

    Answers to questions regarding wage withholding provided insight to 
reasons the child support program is performing so poorly:

        L41% of those polled said that the state or court had not 
        attached the non-payor's paycheck to collect child support 
        payments
        L41% stated that the income withholding was instituted only 
        after the custodial parent notified the state or court where 
        the non-payor was working
        LOnly 4% answered that the state New Hire Registry was used to 
        find the employer

    The New Hire Registry was developed to ensure efficient collection 
methods by requiring employers to report new hires within 20 days. This 
data is to be measured against state and federal case registries and 
matches are sent back to the state for institution of income-
withholding procedures. The system is failing because states are not 
able to keep pace with the number of matches sent to them and because 
some states, including California, still do not have PRWORA compliant 
case registries, so they cannot send or deal with appropriate data.
    Even more distressing were the results of questions asked regarding 
bank account attachments:

        LOnly 1% affirmed that bank accounts had been attached to 
        collect overdue child support payments
        56% stated that bank accounts had not been attached

    Similar results were found when we asked about driver's license and 
professional license suspension:

        Only 2% reported professional license suspensions
        L9% responded affirmatively to the question of whether driver's 
        licenses had been suspended
        L6% reported that the non-payor was notified of an impending 
        driver's license suspension, but that the state failed to take 
        action

    Expedited process and federal timeframes are not being followed by 
state IV-D agencies. ACES members report a 1-3 year wait to establish 
paternity, 2 years to establish an order, 6-9 months for an income-
withholding, 6-9 months for a court hearing, and 1-3 years for 
modification, 5 years for medical support establishment and/or 
enforcement, 1 year for a Federal Parent Locator results, and 1-2 years 
for action on interstate cases.\8\
---------------------------------------------------------------------------
    \8\ ACES annual membership survey (2000).
---------------------------------------------------------------------------
    About 50% of all children in the U.S. will spend part of their life 
growing up in a single-parent household. An effective and efficient 
child support enforcement system is needed. The only government system 
which affects more children is the public school system. Your action to 
assist America's children receive the support of both parents is 
needed. Please act today to ensue the nation's children the opportunity 
to grow and thrive.
Declaration
    ACES, The Association For Children For Enforcement of Support, Inc. 
receives $15,000 in federal funding from the City of Toledo, Community 
Development Block Grant. We do not receive any state government funding

                                 <F-dash>

    Chairman HERGER. Thank you very much for your testimony. 
Now, Mr. Miller to testify.

  STATEMENT OF STUART A. MILLER, SENIOR LEGISLATIVE ANALYST, 
                   AMERICAN FATHERS COALITION

    Mr. MILLER. Chairman Herger, Mr. English, the American 
Fathers Coalition represents about 250 fathers' groups 
throughout the country.
    While polling the various organizations to ask what issues 
I should present here today, I was overwhelmed by the feelings 
that were expressed to me by the groups that the entire U.S. 
Government is aligned against fathers. While obviously this is 
not true, we can understand to a degree where they get this 
feeling. It wasn't that long ago that Congress paid people to 
drive fathers out of their homes. The ``no man in the house 
rule'' was one of the most perverse aspects of the old welfare 
system, and in spite of welfare reform, some of the old anti-
father sentiments still exist, particularly among frontline 
TANF workers. These attitudes need to be changed if we are 
going to take welfare reform to the next level. When a mother 
applies for welfare, the first question we need to ask is where 
is the father. Let us get him in here now.
    We may have a family that doesn't need to be on welfare. 
This family may need something as simple as job placement 
assistance. Maybe one or both of the parents need substance 
abuse counseling, parenting education, job training. We won't 
know and can't provide the services if we don't get both 
parents in in the very beginning.
    Getting both parents involved at the outset is an integral 
step in implementing another crucial aspect of welfare reform, 
marriage. Just as we support our President in his war against 
terrorism, we need to support our President in his war against 
poverty. Marriage is one of the most effective tools we have in 
fighting poverty. In order for marriage initiatives to work, 
marriage needs to be attractive.
    Again, we go back to attitudes. How can we ask women to do 
what Congress is unwilling to do itself? Look at how we define 
families. Women, Infants and Children, what is missing from 
this definition? Fathers.
    Anti-marriage activists will stereotype all men as 
potential abusers in spite of women's slightly higher abuse 
rates. Politicians will malign all fathers as deadbeats or, 
worse, drive-by dads, and Congress will leave them out of the 
definition of family. We can't ask women to commit to marriage 
out of one side of our mouth, while on the other side we are 
maligning the very person to whom we are asking her to commit.
    Children love, want, and need both parents. Getting both 
parents involved in the beginning will screen out abuse, 
provide a venue for needed services, and, if the children are 
lucky, might even lead to marriage. It won't happen unless we 
change the way we handle initial in-take procedures.
    The several States also need various tools and expansion of 
existing tools to implement effective welfare reform. As we all 
know, child support is an essential ingredient for welfare 
reform, but child support relief is also an essential 
ingredient. We must expand child support forgiveness efforts 
which have been successfully implemented in some States which 
enable many families to become self-sufficient.
    There also needs to be mandatory DNA testing. In California 
almost 80 percent of all child support orders are entered by 
default. In other words, this means the punitive father is not 
even there when the order is entered. Under the 1998 Deadbeat 
Parents Act, we can turn delinquent obligors into federal 
felons, but what if the person we turn into a felon is not the 
biological father? Congress should not be in the business of 
turning innocent men into federal felons merely to balance our 
welfare budget.
    More important than turning innocent men into felons, 
innocent children are deprived of knowing who their father 
really is. Anyone who has been to a doctor lately knows that 
family medical history is essential in treating a patient. 
Knowledge of this history can literally mean the difference 
between life and death.
    In 1996, you passed landmark welfare reform legislation 
eliminating the ``no man in the house rule'' that was driving 
men out of their families. You should all stand up and take a 
bow. Now it is time to move to the next level of welfare 
reform. Reengage men in the business of parenting not by just 
removing the obstacles to father involvement, but by paving the 
way and implementing incentives that will encourage men to 
fulfill this highest and most rewarding calling. Then I will be 
back to ask you to take another bow, which will be even more 
deserved. Thank you.
    [The prepared statement of Mr. Miller follows:]
  Statement of Stuart A. Miller, Senior Legislative Analyst, American 
                           Fathers Coalition
    Mr. Chairman and Distinguished Members:
    The American Fathers Coalition represents about 250 father's groups 
throughout the country. When polling the various organizations for key 
issues to present to this Committee, I was overwhelmed by the fact that 
most groups expressed that they felt that the entire United States 
Government was aligned against them. While this obviously is not true, 
their feelings are, to some degree, understandable. It was not that 
long ago that Congress paid people to chase fathers out of their 
families.
    The ``no man in the house rule'' was one of the most perverse 
aspects of the old welfare system. And in spite of welfare reform, some 
of the old anti-father sentiments still exist, especially among front-
line TANF workers. These attitudes need to be changed if we are going 
to take welfare reform to the next level.
    When a mother applies for welfare, the very first question that 
needs to be asked is ``where is the father?'' And then let's get him in 
there. We may have a family that doesn't need to be on welfare. This 
family may need something as simple as job-placement assistance. Maybe 
one or both parents need substance abuse counseling, parenting 
education, or job-training. We won't know and can't provide the 
services if we don't get both parents participating in the very 
beginning.
    Getting both parents involved at the outset is an integral step in 
implementing another crucial aspect of welfare reform: marriage. Just 
as we support our President in his war against terrorism, so should we 
support the President in his war against poverty. As we all know, 
marriage is the most effective tool we have in fighting poverty. But, 
in order for marriage initiatives to work, marriage needs to be 
attractive.
    Again, we go back to attitudes. How can we ask women to do what 
Congress is unwilling to do itself: include fathers. Look at how we 
define families ``WIC: Women, Infants and Children'' What's missing 
from that definition? Fathers.
    Anti-marriage activists will stereotype all men as potential 
abusers, in spite of women's slightly higher abuse rates. Politicians 
will malign all fathers as ``dead-beat-dads'' or worse, ``drive-by 
dads,'' and Congress will leave them out of the definition of family. 
We can't ask women to commit to marriage out of one side of our mouth, 
while on the other side, we are maligning the very person to whom we're 
asking the mother to commit.
    Children love, want and need both parents. Getting both parents 
involved in the beginning will screen out abuse, provide a venue for 
needed services and if the children are lucky, might even lead to 
marriage. But, it won't happen unless we change the way we handle 
initial intake procedures.
    The several states also need various tools and expansion of 
existing tools to implement effective welfare reform. As we all know, 
child support is an essential ingredient for welfare reform. But child 
support relief is also an essential ingredient. We must expand child 
support forgiveness efforts which have been successfully implemented in 
some states which enable many families to become self-sufficient.
    There also needs to be mandatory DNA testing. In California, 80% of 
all child support orders are entered by default. In other words, the 
putative father is not even there! Under the 1998 Deadbeat Parents Act, 
we have the ability to make federal felons out of delinquent child 
support obligors. But, what if the person we turn into a felon is not 
the biological father? In Los Angeles County alone, there are over 300 
men per month ordered to pay child support for children that are not 
theirs. It should not be the policy of this Congress to turn innocent 
men into federal felons merely because we want to balance our welfare 
budget.
    But, more important than turning innocent men into felons, innocent 
children are deprived of knowing who their biological father really is. 
Anyone who has been to a doctor lately knows that information regarding 
``family medical history'' is essential in treating patients. Knowledge 
of this history can literally mean the difference between life and 
death.
    In 1996, you passed landmark welfare reform legislation eliminating 
the ``no man in the house rule'' that was driving men out of their 
families. You should all stand up and take a bow. Now it is time to 
move to the next level of welfare reform.
    Re-engage men in the business of parenting by not just removing the 
obstacles to father-involvement, but by paving the way and implementing 
incentives that will encourage men to fulfill this highest and most 
rewarding calling. Then, I will be back to ask you to take another bow, 
which will be even more deserved.

                                 <F-dash>

    Chairman HERGER. Thank you very much, and I want to thank 
each of you again for your outstanding testimony, and thank you 
for appearing. With that we will move to panel 6. Jodie Levin-
Epstein, Senior Policy Analyst, Center for Law and Social 
Policy; Helen Blank, Director of Child Care Division, 
Children's Defense Fund; Martha Davis, Vice President and Legal 
Director, NOW Legal Defense and Education Fund; Shay Bilchik, 
President and Chief Executive Officer of Child Welfare League 
of America; Nanine Meiklejohn, Legislative Affairs Specialist, 
American Federation of State, County and Municipal Employees.
    It is also my great pleasure to introduce an individual 
from my home district, the chief of police of the city of 
Chico. Since becoming the chief of police, he has emerged 
himself in the community, taking a lead on many local efforts 
to improve Chico. He has met and exceeded the community's 
expectations. Chief of police, Michael R. Efford. With that, 
chief of police Efford, please, to testify.

 STATEMENT OF MICHAEL R. EFFORD, CHIEF OF POLICE, CHICO POLICE 
                 DEPARTMENT, CHICO, CALIFORNIA

    Mr. EFFORD. Thank you, Mr. Chairman, Members of the 
Subcommittee. Thank you for the opportunity to testify today 
about the critical crime prevention issues presented by the 
decisions you are about to make on welfare reform and child 
care. My name is Michael Efford, and I have spent the past 30 
years in law enforcement, serving for the last 3 years as the 
chief of the city of Chico. I am here on behalf of more than 
1,500 police chiefs, sheriffs, prosecutors, and victims of 
violence from across the country who have joined together to 
create Fight Crime: Invest in Kids. Our mission is to take a 
hard-nosed look at the research about what really works to keep 
kids from becoming criminals.
    We believe there is no substitute for tough law 
enforcement, but those of us on the frontline in the fight 
against crime also know that we will never be able to arrest, 
try, and imprison our way out of the crime problem. Once a 
crime has been committed, neither the police nor prisons can 
undo the agony of the crime victim and repair that victim's 
shattered life. We can save lives, hardships, and money by 
investing in programs that are proven to keep children from 
growing up to become criminals.
    I have worked in some of the most underprivileged 
neighborhoods where children hung out on street corners because 
they had no place else to go. I cannot tell you how many times 
that I have had to arrest people who might have turned out to 
be good neighbors if only we had made the investment they 
needed on the front end.
    Just last year I came across a young man named Shawn whose 
family had sent him from the Los Angeles area to be with 
relatives in Chico to get him out of the gang-ridden 
neighborhoods in south central Los Angeles. I tried to get 
Shawn into a martial arts program, an after-school program, but 
his family couldn't afford even those minimal costs for that 
program. Subsequently, without a constructive environment for 
Shawn to invest his after-school time in, he became involved in 
gangs in Chico and eventually ended up getting a 13-year-old 
girl pregnant.
    I am here today because the right decisions on welfare 
reform and child care can help communities and families keep 
kids like Shawn from becoming criminals. As President Bush's 
new early childhood initiative says, early childhood is a 
critical time for children to develop the physical, emotional, 
social, and cognitive skills they will need for the rest of 
their lives. That is why it is crucial that our Nation's 
children are participating in programs that give them the right 
start in life. Quality educational child care programs are 
proven to dramatically reduce the chances that at-risk children 
will grow up to become criminals. When our fight against crime 
starts in the highchair, it won't end in the electric chair.
    Of course, the opportunity to prevent crime doesn't end 
when kids start school. The prime time for violent juvenile 
crime is the after-school hours from 3 to 6 p.m. Not 
surprisingly, quality after-school programs are also proven to 
reduce crime both now and down the road. I have seen that this 
works firsthand as an active member on the local board of 
directors for our Boys and Girls Club in Chico. Our choice is 
simple. We can either send our children to after-school 
programs that will teach them good values and skills, or we can 
entrust them to the after-school teachings of Jerry Springer, 
violent video games, or the streets.
    Congress should be congratulated for the overwhelming 
success of welfare reform in moving families from welfare 
dependency to work, but decent child care and after-school 
activities for the children of these working families cost 
money, more money than many of these families can afford 
without help from the government. The Child Care and 
Development Block Grant helps. Unfortunately, it is so 
underfunded that it has been able to serve only one out of 
seven children eligible for that program. In addition, any 
decision to increase welfare reform work requirements will 
increase the need for child care funding even more.
    Many of the parents who don't receive child care assistance 
are forced to make do with child care that no Member of this 
Committee would want for their child or grandchild. Law 
enforcement believes that we can and we must do better. The 
California police chiefs, sheriffs, and district attorneys 
associations have all passed resolutions supporting investments 
in quality child care and after-school programs. So, have the 
National Sheriffs Association, the Major Cities Chiefs, the 
Fraternal Order of Police, and the National District Attorneys 
Association. Every day we fail to help working families afford 
quality educational child care and after-school programs, we 
increase the risk that you or someone you love will fall victim 
to violence.
    I am here to ask you to pay attention to this plea from the 
people on the front lines. Congress must substantially increase 
funding for the Child Care and Development Block Grant. In 
other words, invest in America's most vulnerable kids now so 
they won't become America's most wanted adults later. I thank 
you again for this opportunity to testify before you today.
    [The prepared statement of Mr. Efford follows:]
     Statement of Michael R. Efford, Chief of Police, Chico Police 
                     Department, Chico, California
    Mr. Chairman and Members of the Subcommittee:

    Thank you for the opportunity to testify before you today. My name 
is Michael Efford, and I am the Chief of Police in Chico, California. I 
am also a member of the anti-crime group Fight Crime: Invest in Kids, 
which is made up of more than 1,500 police chiefs, sheriffs, 
prosecutors and victims of violence from across the country who have 
come together to take a hard-nosed look at the research about what 
really works to keep kids from becoming criminals.
    I am very pleased to be here today to share with you what I hope 
will be a unique perspective on welfare reform: its impact on crime. 
During my 30-year career, I've been involved in virtually every aspect 
of law enforcement. I have worked as a front line police officer and 
have seen first hand how the lack of properly supervised activities can 
lead kids into a crime-laden environment. I have listened to testimony 
in our courtrooms by so many of our young people as they were sentenced 
to incarceration. I have heard the same account over and over: if there 
had only been some positive influence in their lives, their story may 
have come out different. Luckily, I have also been fortunate enough to 
see and work with programs and activities that provided that badly-
needed positive experience--and today I'd like to tell you about some 
of those experiences and the research that relates to them.
    Government's most fundamental responsibility is to protect the 
public safety. In many cases, this requires capturing, trying and 
imprisoning those who have committed a crime. There is no substitute 
for tough law enforcement. But once a crime has been committed, lives 
have already been shattered. Those of us on the front lines in the 
fight against crime understand that we'll never be able to just arrest 
and imprison our way out of the crime problem. We can save lives, 
hardship--and money--by investing in programs that can keep children 
from growing up to become criminals in the first place.
    The members of Fight Crime: Invest in Kids have come together to 
issue a ``School and Youth Violence Prevention Plan'' that lays out 
four types of programs that research proves--and law enforcement 
knows--can greatly reduce crime. The violence prevention plan calls for 
more investments in:

        <bullet> after-school programs;
        <bullet> quality educational child care programs;
        <bullet> activities that get troubled kids back on track 
        before it's too late; and
        <bullet> services that can treat and prevent child abuse and 
        neglect.

    These investments are overwhelmingly supported by law enforcement. 
A poll of police chiefs nationwide conducted by George Mason University 
professors in 1999 showed that 86 percent of chiefs believed that 
expanding after-school programs and educational child care would 
greatly reduce youth crime and violence. When asked to rate the value 
on a scale of 1 to 5 of parent coaching programs for high-risk 
families, which are proven to reduce child abuse and neglect, 79 
percent gave such programs a 1 or a 2 (with 1 being ``very valuable'' 
and 3 being ``valuable'').
    The chiefs were also asked which of the following strategies they 
thought was most effective in reducing youth violence:

        <bullet> providing more after-school programs and educational 
        child care;
        <bullet> prosecuting more juveniles as adults;
        <bullet> hiring more police officers to investigate juvenile 
        crime; or
        <bullet> installing more metal detectors and surveillance 
        cameras in schools.

    Expanding after-school and educational child care was picked as the 
top choice by more than four to one over any other option. In fact, 
more chiefs chose ``expanding after-school programs and educational 
child care'' as ``most effective'' in reducing crime than chose the 
other three strategies combined. Of course, that doesn't mean they're 
against those other strategies. But police chiefs are clear that these 
preventive approaches will have a greater impact than the others.



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    These chiefs are not alone. Dozens of state and national law 
enforcement associations have adopted resolutions highlighting the 
crime-fighting importance of quality child care, after-school programs, 
and programs that prevent abuse and neglect, including the Fraternal 
Order of Police, the Major Cities Chiefs organization, the National 
District Attorneys Association, the National Sheriffs Association, and 
the Police Executive Research Forum. In my own state of California, the 
California Police Chiefs Association, the California District Attorneys 
Association, the California State Sheriffs' Association and the 
California Peace Officers' Association have all adopted similar 
resolutions.
    I know from first-hand experience that these types of programs 
really can make a difference. I spent a large portion of my career 
working with youth. I have worked in neighborhoods with strong gang 
influences, and in some of the most underprivileged neighborhoods where 
children ``hung out'' on street corners and alleyways because they had 
no place else to go. I spent several years as a detective, pursuing the 
criminal activities of young people whose lives could have been 
different if only they had had some structure in their young lives. As 
an active member on the board of directors of my local area Boys and 
Girls Club, I have also seen first hand how well-organized and 
properly-supervised activities provide our youth with the alternatives 
that they so desperately need. In 1998, I worked with a large group of 
young men and women to build a skate park in their neighborhood. I was 
very fortunate to be able to watch these young ``castaways'' of society 
work to see their dream come into fruition, and then see the lasting 
impact that their success had on their lives. Something as simple as a 
skate park changed dozens of young lives forever. Throughout my career, 
I have seen it proven time and again that early interventions with our 
youth can change a path leading to criminality toward that of being a 
productive member of our society.
    Based on these experiences, I would now like to discuss a few of 
the ways welfare reform legislation can reduce crime. Welfare 
dependency is bad for children. The welfare reform legislation passed 
by Congress in 1996 has been an extraordinary success at helping 
parents leave welfare and enter the workforce--something necessary to 
improve the lives of children and make our communities safer.
    Welfare reform now offers us the opportunity to fight one of the 
most egregious crimes of all--child abuse and neglect. Child abuse and 
neglect is a crime that keeps on giving. It hurts innocent kids 
immediately. And it too often starts a cycle of violence that leads to 
more crime, and sometimes more child abuse. Most kids who are abused or 
neglected grow up to become law-abiding citizens despite what they have 
gone through. But too many don't. Being abused or neglected multiplies 
the risk that a child will grow up to become a criminal--a tragedy for 
the child, and also a tragedy for us all. The abuse and neglect 
occurring in a single year results in between 45,000 and 135,000 extra 
arrests for violence and 1,000 to 3,000 murders ultimately committed by 
some of those victimized as children.
    The welfare reform legislation passed in 1996 increased funding for 
the Social Services Block Grant--a program that is actually the Federal 
Government's single largest support for child abuse and neglect-related 
services. This block grant helps states and communities fund a variety 
of activities--including foster care, adoption and child protective 
services. Unfortunately, the level of funding for this important 
program has been cut by almost 40 percent from what it was promised in 
1996. Welfare reform proposals that restore SSBG to its previously-set 
funding level will provide communities with much-needed help for 
efforts to prevent and treat child abuse and neglect, and therefore 
reduce later crime.
    Another child abuse and neglect-related issue in welfare reform is 
kinship care. I'm sure we'd all agree that, whenever possible, we want 
children to be raised by their parents. But when that either is not 
desirable because the parents are abusive or is simply not possible, 
the next best scenario is for that child to live with a relative. About 
420,000 children who are raised by relatives receive TANF support from 
child-only grants, and another 80,000 children receive support because 
the relatives who care for them are on TANF. It is critical that these 
relatives be able to care for these children. I hope Congress makes 
sure that these children are not returned to dangerous settings or 
placed in expensive foster care because their relative caregivers--many 
of whom are grandparents and are unable to work--have lost their TANF 
support due to time-limits or work requirements.
    Now I'd like to talk about the program through which I believe 
welfare reform legislation can make the biggest impact on crime--the 
Child Care and Development Block Grant (CCDBG). As I mentioned earlier, 
the success of welfare reform has helped millions of parents into the 
workforce. With that success comes the reality that most parents, even 
parents of very young children, are working.
    While these parents are at work, their kids will be in someone 
else's care. As the President pointed out last week, 62 percent of 
young children--13 million kids--are in the care of someone other than 
their parents during the work-day. The question is: will it be 
stimulating, nurturing care that helps kids develop, or ``child 
storage'' with too few adults--who have too little training--and too 
many kids?
    To quote President Bush's new early childhood initiative released 
last week, ``early childhood is a critical time for children to develop 
the physical, emotional, social, and cognitive skills they will need 
for the rest of their lives.'' The good news is that numerous studies 
of quality early childhood programs have shown that participants have 
better self-esteem, achievement motivation, social behavior, academic 
achievements, cognitive development, grade retention and other benefits 
than similar children who did not participate in such programs.
    What is equally important but less well-known is that quality 
educational child care programs can also significantly reduce the 
chances of a child growing up to become a criminal. A study published 
in the Journal of the American Medical Association last year 
demonstrated this fact. Over the last 30 years, Child-Parent Centers 
have provided school readiness child care to 100,000 3-and 4-year-olds 
in Chicago's toughest neighborhoods. The study published in JAMA 
examined outcomes at age 18 for 1,000 of these children, and a matched 
group of 500 similar children who had not been enrolled in the Child-
Parent Centers. The study showed that kids who did not receive the 
Child-Parent Centers' quality child care were 70 percent more likely to 
have been arrested for a violent crime by the time they reached 
adulthood. Kids left out of the program were also more likely to be 
held back in school, more likely to drop out, and less likely to 
graduate.
    The researchers estimated that the program will have prevented 
33,000 crimes--including 13,000 violent crimes--by the time all 100,000 
participants reach age 18. Clearly hundreds of thousands of crimes 
would be prevented each year if all families nationwide had access to 
programs like this. When our fight against crime starts in the high 
chair, it won't end in the electric chair.



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    In addition to saving lives, these programs also save money. 
Counting only savings to government, the Chicago Child-Parent Centers 
returned almost three dollars for every dollar invested. Counting those 
government savings, savings to crime victims, and benefits to the 
participants in the program, the results are $7 saved for every dollar 
invested.
    Unfortunately, millions of children are being left out of these 
types of programs. Without government help, such programs are just too 
expensive for low-and moderate-income families. In every state, the 
cost for an infant to attend a good child care center is higher than 
the cost of tuition at a public university. Adequate care for two 
children in a child care center can easily cost over $12,000 a year--
about $2,000 more than a minimum-wage worker earns working full-time.
    Many working parents can't possibly pay these costs, any more than 
they could pay private school tuition if public schools were 
eliminated. Unfortunately, the crime-reduction and other benefits I 
described earlier only occur when children are able to participate in 
quality programs--not programs that are simply ``child storage.'' We 
can no more afford to accept child care that is merely ``custodial'' 
than we could accept assigning some children to public schools that are 
``custodial'' rather than ``instructional.'' Clearly that is not what 
Congress or the President desires, given the recent enactment of the No 
Child Left Behind Act.
    To make sure child care is not simply ``child storage,'' it is 
imperative that CCDBG legislation provides for quality improvements to 
child care programs. An increase in the CCDBG ``quality set-aside,'' 
currently at a mere four percent, would help facilitate this 
improvement by supporting: scholarships to enhance the levels of 
educational attainment for child care providers; training that includes 
approaches through which providers can enhance children's cognitive, 
social, emotional and physical development; and increased compensation 
levels that attract and retain qualified providers. Enhanced standards, 
an area that President Bush addressed in his recent early childhood 
education proposal, can also help to improve quality. However, all such 
quality initiatives require additional resources.
    In addition to helping families send their young children to safe 
and stimulating environments while the parents work, CCDBG also helps 
families send their school-age children to safe and stimulating 
settings after school. As you probably know, the prime time for violent 
juvenile crime is in the after-school hours, from 3 to 6 p.m. These are 
also the peak hours for teens to commit other crimes, have sex, smoke, 
drink, use drugs, or become a victim of a crime. As more and more 
parents enter the workforce because of welfare reform, many teenagers 
are left in unsupervised environments. Already more than 10 million 
children and teens--including 7 million 5-14 year-olds--are 
unsupervised after school on a regular basis. In fact, 31 percent of 
school-age children of recent welfare leavers--and even higher 
proportions of school-age children of welfare recipients and other poor 
parents--do not participate in extracurricular activities. This rate is 
more than three times higher than the non-participation rate of 
children in families with incomes greater than 200 percent of the 
poverty line.




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    After-school programs can cut crime immediately by keeping kids 
safe and out of trouble during these dangerous hours. They can also cut 
later crime by helping participants develop the values and skills they 
need to become good, contributing citizens. In one study, students 
whose families were on welfare were randomly divided into two groups 
when they started high school. One group was enrolled in the Quantum 
Opportunities after-school program, which provided tutoring, mentoring, 
recreation, and community service programs and some monetary incentives 
to keep attendance up. The second group was left out of the program.
    When studied two years after the four-year program ended, the group 
of boys left out of the program had six times more convictions for 
crimes than those provided with the program. In addition, every dollar 
invested in this program produced three dollars in benefits to 
government and the recipients. That doesn't even count the savings that 
result from a lowered crime rate. Our choice is simple: we can either 
send our children to after-school programs that will teach them good 
values and skills, or we can entrust them to the after-school teachings 
of Jerry Springer, violent video games or the streets.




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    In conclusion, investing in quality educational child care and 
after-school programs are among the most significant steps Congress can 
take to stop kids from growing up to become criminals. That is why 
substantial increases are needed in the Child Care and Development 
Block Grant. Unfortunately, this program is so under-funded that only 
one in seven children who are eligible for benefits receive them. If 
increased work requirements are added to welfare reform, without a 
significant increase in CCDBG, then the unmet need will only increase. 
I hope that you will provide a substantial increase in funding for this 
program to allow more of the eligible children to participate--and to 
improve the quality of programs. Every day we fail to help working 
families afford quality educational child care and after-school 
programs, we increase the risk that you or someone you love will fall 
victim to violence. We need to invest in America's most vulnerable kids 
now, so they won't become America's Most Wanted adults later.
    Thank you once again for this opportunity to testify before your 
subcommittee. I would be happy to answer any questions you may have.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. Efford. Now, Ms. 
Levin-Epstein to testify.

STATEMENT OF JODIE LEVIN-EPSTEIN, SENIOR POLICY ANALYST, CENTER 
                   FOR LAW AND SOCIAL POLICY

    Ms. LEVIN-EPSTEIN. Thank you, Mr. Chairman and Members of 
the Subcommittee. Thank you for giving me the opportunity to 
testify.
    My focus today is child well-being. The HHS Assistant 
Secretary Wade Horn has said, the principal question to ask of 
welfare reform is, are children better off? He urged caution in 
order to avoid unintended consequences. Chairman Herger, you 
probably summed it up best when you said, no success is a 
success unless it works for kids.
    My remarks will highlight child well-being issues in 
several areas. With respect to the proposed work structure, to 
compete for family friendly jobs such as day jobs rather than 
night jobs, parents need educational skills. Under current law, 
States may count full-time training for up to 12 months. Under 
your proposal, sir, that would not be possible. Such training 
would count only for 3 months.
    Further, your proposed approach is fundamentally 
inconsistent with what we know works from the research. The 
most successful site in the national evaluation of Welfare-to-
Work strategies was Portland, Oregon, which stressed moving 
individuals into the workforce quickly, but emphasized finding 
good jobs and allowed the first activity for each person to 
vary depending upon skills, work history, and other factors. It 
was not a one-size-fits-all approach, and your proposal, sir, 
is much more of a one-size-fits-all approach. States under your 
proposal would not be able to adopt the Portland model, because 
most of the activities provided by Portland could not count 
toward the first 24 hours of program activity after the first 3 
months.
    I suggest, sir, we don't need to be playing in this 
sandbox. We need to be outside this sandbox, we need to look at 
a whole array of other issues. The States have repeatedly told 
us in surveys and we have seen through the recent National 
Governors' Association survey that this sandbox would create 
problems.
    The next area is the superwaiver. Under the proposed 
superwaiver, the executive branch would be able to waive 
virtually any protection contained in federal child welfare, 
child support, child care, or other laws. As written, these 
waivers would happen automatically with no requirement for even 
cursory review. If the Secretary didn't respond to a State's 
request within 90 days, the unintended consequence could be 
that children could be harmed.
    In the child support distribution area we have already 
heard testimony today. What we need to appreciate is that next 
to earnings, child support is the second largest income source 
for poor, single-female-headed families receiving child 
support, which amounts to 26 percent of their budget, about 
$2,000 a year. We appreciate that you focused on that issue, 
sir, but we think you haven't gone far enough to recognize the 
virtues of child support distribution. We commend the 
provisions in the bipartisan Johnson-Cardin bill.
    In the area of kinship care, when relatives assume 
caretaking responsibilities for a child, this kinship care 
often enables a child to avoid foster care. Under current TANF 
policy, if the relative care giver is included in the grant, 
federal limits and work requirements apply, which may make it 
difficult or impossible for the relative to provide a stable 
home. We recommend that you address these issues.
    With respect to non-marital births, in your bill, up to 
$300 million is made available to encourage States to increase 
their efforts to promote healthy marriages. For many children 
the reality is that marriage is not a feasible or even a 
desirable option for their parents. Given the overarching 
purpose which we share to improve the child well-being of, we 
hope, all children, States should be encouraged to help all 
parents, whether unmarried, married, separated, divorced, or 
remarried, so that they can work together to raise their 
children and give them the supports they need to do so.
    Despite the role teen pregnancy prevention holds in 
decreasing non-marital births as noted by Isabel Sawhill, the 
Herger bill does not promote it. Indeed, the $200 million pot 
of funds made available in the healthy marriage promotion 
grants element of the bill precludes pregnancy prevention 
programs from getting grants. Even proven programs such as 
school community service programs could not get funded. It 
would ironically also preclude replication of strategies that 
appear to have a positive marriage outcome. For example, in 
Minnesota the Minnesota Family Investment Program, without 
mentioning marriage, increased marriage rates among single 
parents and marital stability among two-parent families. The 
other $100 million dollars for research grants also targeted 
primarily at marriage may well also preclude investment in teen 
pregnancy prevention. We commend the Cardin approach again.
    With respect to TANF teen parents, we urge you to make sure 
that TANF teen parents get on the radar screen, and what we are 
learning from new research is that too often they are not even 
getting applications. They are being shut out at the door. We 
think Congress should consider a transitional period for teens 
to come into compliance with these rules.
    I urge you to consider the child well-being implications of 
each of these provisions and others as you deliberate the rest 
of the bill. Thank you.
    [The prepared statement of Ms. Levin-Epstein follows:]
Statement of Jodie Levin-Epstein, Senior Policy Analyst, Center for Law 
                           and Social Policy
    Mr. Chairman and Members of the Subcommittee:
    Thank you for giving me the opportunity to testify. I am Jodie 
Levin-Epstein, a Senior Policy Analyst at the Center for Law and Social 
Policy (CLASP). I began my work at CLASP in 1988, the year the Family 
Support Act was enacted. CLASP is a nonprofit organization engaged in 
research, analysis, technical assistance and advocacy on a range of 
issues affecting low-income families. Since 1996, we have closely 
followed research and data relating to implementation of Personal 
Responsibility and Work Opportunity Reconciliation Act. We place a 
special emphasis on understanding what is actually occurring at the 
``ground level'' through on-going dialogue with state officials, 
administrators, program providers, and individuals directly affected by 
the implementation of welfare reform efforts.<SUP>[i]</SUP>
---------------------------------------------------------------------------
    \[i]\ This testimony reflects collaborative work with a number of 
CLASP colleagues, including Vicki Turetsky, Mark Greenberg, Rutledge 
Hutson, Rachel Schumacher, Steve Savner, Jennifer Mezey, John Hutchins, 
and Christine Grisham.
---------------------------------------------------------------------------
    My testimony will address a number of reauthorization issues 
central to child-well being. The Administration has proposed to 
establish that the purpose of the welfare program be an ``Overarching 
Purpose to Improve the Well-being of Children.'' HHS Assistant 
Secretary Wade Horn has underscored this goal and said, ``The principal 
question to ask of welfare reform is--are children better off?'' He 
also has urged that generally, one should ``proceed cautiously'' in 
order to avoid unintended consequences.<SUP>[ii]</SUP> Chairman Herger 
has perhaps summed up best the interest in child well-being when he 
said ``No success is a success unless it works for kids''.
---------------------------------------------------------------------------
    \[ii]\ September 5, 2001 HHS Conference On Welfare Reform.
---------------------------------------------------------------------------
    In its proposal, the Administration puts forward several new 
provisions designed to encourage states to increase their efforts to 
promote healthy marriages, citing research that establishes marriage as 
the ``ideal environment for raising children.'' However, for many 
children the reality is that marriage is not a feasible or even a 
desirable option for their parents. Given the Administration's 
overarching purpose to improve the well-being of (presumably all) 
children, states should be encouraged to help all parents--whether 
unmarried, married, separated, divorced, or remarried--to work together 
to raise their children and give them the supports they need to do so.
    The Administration has also proposed to restructure the welfare 
program's work requirements. Yet, there is a danger that this work 
proposal could generate new risks for children at the same time as it 
would diminish resources needed for programs that address child well-
being. There is yet another danger lurking behind this one: important 
child well-being issues may be ``crowded out'' from the deliberative 
process because of the intense focus on the Administration's proposed 
changes to TANF work requirements and to promoting marriage.
    It is not yet clear how TANF implementation has affected children, 
but research on pre-TANF programs suggests that positive effects may 
depend on improved family income, and that there may be negative 
effects on adolescent children that result from increased maternal 
employment. Recent work by the Manpower Demonstration Research 
Corporation (MDRC) and other work by Child Trends, looking at pre-TANF 
welfare-work programs, found that while many programs raised employment 
rates, only some raised income, because gains in employment were often 
offset by losses in benefits. In those programs where employment was 
associated with increased family income, the research has found 
evidence of positive effects on elementary school-age children's school 
achievement. By contrast, programs that increased employment but did 
not increase incomes had few effects on elementary school-age children. 
However, several programs that increased maternal employment had 
negative effects on adolescent children's school achievement. At this 
point, it is unclear whether this adverse impact is principally a 
function of decreased supervision, increased stress on parents, or 
increased responsibilities for teens with working parents.
    The data suggests that positive child outcomes are tied to 
increased income; yet it would be a mistake to ignore something much 
less tangible and yet as fundamental: the need for a child to be cared 
for by a loving adult. Thus, it is important to appreciate that 
underlying child well-being, is family well-being.
    Highlighted below are some of the key child well-being issues that 
should be addressed during reauthorization.
LThe Administration's Work Requirements May Hinder Its Articulated Goal 
        To Improve Child Well-Being<SUP>[iii]</SUP>
---------------------------------------------------------------------------
    \[iii]\ On TANF work participation see: ``At What Price?: A Cost 
Analysis of the Administration's Temporary Assistance for Needy 
Families (TANF) Work Participation Proposal,'' and ``Unwise and 
Unworkable: Work Participation Requirements in the Administration's 
Welfare Plan,'' CLASP, forthcoming; ``Children and Welfare Reform,'' 
The Future of Children, Vol 12-Number 1., The David and Lucile Packard 
Foundation, Winter/Spring 2002; ``Comments Regarding the 
Reauthorization of the Temporary Assistance for Needy Families (TANF) 
Block Grant,'' submitted to the U.S. Department of Health and Human 
Services by the CLASP, November 30, 2001.
---------------------------------------------------------------------------
    The Administration has proposed to modify the goals of TANF to 
articulate that the overarching goal of state TANF efforts should be to 
improve child well-being. And, the Administration has suggested that so 
long as the 24-hour ``direct work'' requirements were satisfied, states 
could count structured activities that furthered child well-being 
toward meeting the remaining 16 hours of the 40 hour obligations. What 
would count as a structured activity is something outside the home--
like parental participation in a school field trip; what would not 
count is parental engagement with school homework.
    In many ways, this framework seems unresponsive to the central 
issues that states must address in efforts to simultaneously promote 
work and advance child well-being. A better approach would be to place 
weight on such factors as increasing the income of families who go to 
work, broadening access to child care, or improving access to jobs 
which have sick and vacation leave and do not require nighttime or 
weekend hours. The Administration's framework also restricts stand-
alone education and training; specifically, it only counts 3 months 
within any 24-months, making it that much harder for a parent to gain 
skills and credentials that could lead to a better quality job (i.e. a 
job with flexible hours and benefits). These restrictions on education 
and training are proposed despite new research which suggests that 
welfare programs which improve a parent's educational attainment, often 
improve the child's cognitive and academic levels.
    In at least two ways, the 40-hour framework could actually be 
contrary to promoting child well-being: first, as noted in the child 
impact research above, participation in work-related programs by low-
income parents appears correlated with adverse impacts on teens' school 
performance. This counsels for the importance of helping parents find 
jobs that are consistent with family responsibilities, and against 
simply mandating 40 hours of out-of-home participation. Second, it is 
by no means clear that mandating participation in structured out-of-
home activities with children is the best way to promote child well-
being.
    Work Requirements and Reauthorization: CLASP recommends that 
Congress consider the unintended consequences to child well-being that 
could result directly from the proposed 40 hour participation 
requirement. We have recommended a number of changes in federal law to 
improve TANF's employment outcomes, but we believe that the 
participation rate changes proposed by the Administration are not 
necessary, and would be costly and potentially counter-productive.
Child Support Distribution Can Enhance Income And 
        Parenting<SUP>[iv]</SUP>
---------------------------------------------------------------------------
    \[iv]\ On child support distribution see: ``Reauthorization Issues: 
Child Support Distribution,'' CLASP, February 2002; ``W2 Child Support 
Demonstration Evaluation: Phase I: Final Report,'' Daniel Meyer and 
Maria Cancian, University of Wisconsin, Institute for Research on 
Poverty, April 2001; ``Child Support Offers Some Protection Against 
Poverty,'' Elaine Sorenson and Chava Zibman, The Urban Institute, March 
2000.
---------------------------------------------------------------------------
    The work-welfare programs with the best outcomes for young children 
are those that resulted in increased income. Effective child support is 
a valuable way to increase income for low income families. Next to 
earnings, child support is the second largest income source for poor, 
single female-headed families receiving child support. For poor 
families who get child support, the child support amounts to 26 percent 
of the family's budget, or $2000 per year. Child support lifts about a 
half million children out of poverty, reducing poverty among these 
children by 5 percent.
    Child support can also translate into increased parental 
engagement. For the non-custodial parent, typically the father, making 
the payment can represent his basic commitment to his children. For the 
custodial parent, usually the mother, receiving the payment means she 
can often forego a second or third part-time job, affording her more 
time to supervise and engage her children and often allowing her to 
work more regular hours.
    Child support translates into improved parental engagement most 
readily, it appears, the more support the family receives. However, 
current child support distribution laws limit the amount of child 
support a family actually gets. How much child support the family 
actually gets depends on how the government distributes the money it 
collects--that is, how much of the money goes directly to the family 
and how much is kept by the government. We now operate under an 
extraordinarily complex set of distribution rules that few understand. 
Indeed, the current system serves as a disincentive for dads to pay 
child support because too often they do not see their dollars buying 
needed diapers, . . . instead, they see it disappear into state 
coffers. States are no happier with the current distribution rules. 
Implementation of the current rules are estimated to cost up to $360 
million per year, and a number of states are facing lawsuits and audit 
problems because they have not accurately implemented the distribution 
rules.
    A demonstration in Wisconsin--which examined the impact of having 
all the current child support go directly home to the family--found 
that this led to more dads being willing to pay child support; and, 
those dads paying more support. From the perspective of child-well 
being there are also intriguing hints in the data that suggest that the 
increased income also reduced family tension and eased the way to other 
positive benefits for the children. These positive outcomes were 
particularly evident for the subgroup where the dads paid enough child 
support to make a difference in family budgets. The Wisconsin evidence 
suggests that distributing the money directly to the family led to less 
conflict between the parents, improved child health outcomes, increased 
mothers' satisfaction with the child care arrangements they could 
secure, and, for teens, better school performance and less trouble with 
the law. Another striking finding is that there was no difference in 
overall government costs--the cost of distributing all of the current 
support to families was offset by more support paid by fathers and less 
welfare used by mothers.
    Child support distribution and reauthorization: CLASP urges the 
House to adopt the bipartisan distribution reform provisions in 
Johnson-Cardin HR 1471 (the ``Child Support Distribution Act of 2001'') 
and Cardin HR 3625. In 2000, the House passed nearly identical 
provisions by a vote of 405-18.
Kinship Care TANF Policies Should Be Family Friendly<SUP>[v]</SUP>
---------------------------------------------------------------------------
    \[v]\ On kinship care and TANF see: ``Reauthorization Issues: The 
Child Welfare Link,'' CLASP, February 2002; `` Child Welfare and TANF 
Reauthorization,'' CLASP, February 2002; ``Red Flags: Research Raises 
Concerns About the Impact of Welfare Reform on Child Maltreatment,'' 
CLASP, October 2001.
---------------------------------------------------------------------------
    When relatives assume caretaking responsibilities for a child, this 
kinship care often enables a child to avoid foster care. Some of these 
kinship families receive modest support from TANF. However, current 
TANF policies are not as ``family friendly'' to these kin caregivers as 
they ought to be. Reauthorization is an opportunity to address this 
issue as well as improve coordination between TANF and the child 
welfare system.
    In 1999, approximately 420,000 children living with relatives 
received TANF ``child-only'' grants. This means, a grant was given to 
support only the child and not the relatives caring for the child. 
Nearly 80,000 more children lived in relative headed households that 
included the relative caregiver in the grant.
    There are a number of issues about whether this manner of 
supporting kinship caregivers is ``family friendly.'' Under current 
TANF policy, if the relative caregiver is included in the grant, 
federal time limits and work requirements apply which may make it 
difficult or impossible for the relative to provide a stable home for 
the child. While the kin are extending themselves to help out a 
relative child, current TANF policy limits the assistance available to 
them. For example, if an aunt and uncle take in a two year old nephew 
and are included in the grant, they can receive assistance for only 
five years. The notion that the child would need to enter foster care 
or move to another relative when he turns seven is inconsistent with 
the child welfare goal of finding a safe, permanent placement. The work 
requirements add another possible tension. For example, if a 65 year 
old, retired grandmother on a fixed income takes in her grandchild and 
begins to receive TANF, she is subject to her state rules regarding job 
search, job training, and employment. While it is possible these state 
services might help her, it is also possible that she cannot comply 
with these requirements and provide a stable home for the child. A 
kinship caregiver could receive a TANF ``child only'' grant without 
being subject to the work requirements and time-limits. However, since 
the size of these grants are relatively small (averaging $7.00 per 
day), a relative caregiver may not be able to adequately care for a 
child with a child-only grant. In either case, kinship caregivers face 
a unique set of circumstances and needs which raise questions about how 
best to serve these special families.
    In addition to the kinship care connection, families in the child 
welfare system and families in the TANF system often have quite similar 
needs. They often face the challenges of poverty, substance abuse, 
mental health, and domestic violence. Yet, the services available to 
families and the manner in which the services are offered often depend 
on which door the families first enter. In some cases families in both 
systems have child welfare service plans that conflict with the 
requirements of their TANF individual responsibility plans. This raises 
issues of coordinated, collaborative service delivery.
    Kinship Care and Reauthorization: CLASP recommends that Congress 
amend the time limit provision so that the 60 month limit applies only 
to birth and adoptive parents, not relative caregivers; allow a state 
to exempt relative caregivers from work requirements (and the 
participation rate) while encouraging states to assess the kinship 
family's needs, design a service plan and offer appropriate services to 
meet the family's needs. More generally with respect to the potential 
child welfare and TANF intersection, we recommend that Congress expand 
the kinds of activities that count as participation and amend the state 
plan requirements to require states to describe interagency 
coordination, among other new plan elements.
Infant Care Options Are Neded<SUP>[vi]</SUP>
---------------------------------------------------------------------------
    \[vi]\ On infant care see: ``Investing in Family Well-being, a 
Family-Friendly Workplace and a More Stable Workforce: A ``Win-Win'' 
Approach to Welfare And Low-Wage Policy,'' (Draft) Ellen Bravo, Mark 
Greenberg, Cindy Marano, CLASP joint publication, January 2002; 
``Testimony of Mark H. Greenberg,'' CLASP, U.S. Senate Committee on 
Finance, and, U.S. Senate Committee on Health, Education, Labor and 
Pensions, March 19, 2002; ``Unfinished Agenda Child Care for Low-Income 
Families from 1996: Implications for federal and State Policy,'' CLASP, 
March 2002; ``The High Cost of Child Care Puts Quality Care Out of 
Reach for Many Families,'' Children's Defense Fund, Winter 2002; `` 
From Neurons to Neighborhoods The Science of Early Childhood 
Development,'' Editors Jack P Shonkoff, Deborah Phillips, National 
Research Council, Institute of Medicine, National Academy of Sciences 
2000; ``Temporary Assistance for Needy Families (TANF) Program Third 
Annual Report to Congress,'' U.S. Department of Health and Human 
Services, Administration for Children and Families, Office of Planning, 
Research and Evaluation, August 2000.
---------------------------------------------------------------------------
    Reauthorization presents an opportunity to test new approaches to 
infant care. Infancy, it is now recognized, is fueled by experiences 
that contribute to future development. Research on the significance of 
a child's early years (``zero to three'') to brain development 
demonstrates that the relationships and experiences formed during this 
period can contribute significantly to future functioning. When parents 
of infants go to work, however, often the available infant care is of 
low quality and/or high cost. Current TANF policies may exacerbate this 
dual dilemma; furthermore, the Administration's proposed increased work 
requirements could have the effect of mandating that more mothers of 
infants leave home for work and thereby, further increase the demand 
for and strain the supply of quality infant care.
    Under current TANF policy, states decide whether and to what extent 
to impose work requirements on parents of infants. The majority of 
states categorically exempt parents with children under age one (in 
these states, the time-limit clock runs during the exemption; these 
families, however, are not included in the calculation of the state's 
participation rate). Eighteen states require participation by parents 
of children under age one.
    Under the Administration's proposal, while states would still get 
to choose whether to exempt mothers with infants, the increased work 
participation rates could induce states to get more mothers of infants 
into the workforce in order to help the state meet the proposed higher 
rates. In essence, in the drive to meet a higher work participation 
rate, states may find themselves forced to ``throw a wide net'' and 
limit exemptions; in practice, a state cannot readily know which of two 
comparable mothers is the one that will help it meet its participation 
rate so it may, in response to increased rates, abandon its exemption 
policy in order to hook a ``countable'' parent--whether there is an 
infant in the home or not.
    If more mothers of infants are to enter the workforce, the costs 
and quality of infant care need to be addressed. The costs of infant 
and toddler care are high. One study found that the average annual cost 
of child care for infants in center care is about $1,100 a year higher 
than the center care costs for a 4 year old. This same study found that 
in every state, the cost of child care for an infant in an urban area 
center is more than the cost of tuition for a public college in the 
same state; in more than half the states, the infant care cost is more 
than twice the tuition cost. The Administration's proposal does not 
call for an increase in child care funding. This is problematic because 
the inadequacy of funding for child care for infants as well as low-
income children of other ages was evident prior to the Administration's 
proposal. The proposed work requirements would expand even further the 
need for subsidies.
    Most mothers of infants are not in the workforce most of the time 
and this is useful to remember as policies that target poor, single 
mothers are considered. Nationally, half of the mothers of infants are 
not employed. Another 17 percent work part-time. Only about one-third 
of mothers work full-time according to recent Census data (and, the 
Census does not consider full time to be 40 hours; instead it counts 
anything more than 35 hours).
    The choice to provide in-home infant care should be available to 
low and moderate income families as it is to upper income families. At 
the same time, the supply of quality infant care needs to be expanded 
so that those who wish to (or are required to) return to work can do so 
with the assurance that their infant will receive the kind of care that 
is developmentally sound.
    Several states have recently adopted a potential model that allows 
low income families to care for infants at home: Both Minnesota and 
Montana have enacted programs under which parents who qualify for child 
care subsidies can elect either to have the subsidy pay for out-of-home 
care or to stay at home caring for their child and receive the subsidy 
as a replacement for lost wages.
    Infant care and Reauthorization: There are significant unmet needs 
for child care for low income families generally, and particularly, 
with respect to quality infant care. In addition to addressing these 
unmet needs through increased mandatory CCDF funding, Congress should 
provide new funding for a set of demonstration projects drawing on the 
Minnesota/Montana model, to test the feasibility and evaluate the 
effects of programs that allow parents to choose between rapid return 
to work and staying at home to provide care for an infant. Further, 
Congress should consider a range of refinements on current policy 
related to the parents of a child under age one. For example, states 
that impose work requirements might be restricted from mandating full-
time employment or mandating employment without helping the family find 
appropriate infant care.
Adolescent-Sensitive TANF Policies and Programs Need to be 
        Developed<SUP>[vii]</SUP>
---------------------------------------------------------------------------
    \[vii]\ On adolescents and TANF see: ``Welfare Policies Matter for 
Children and Youth: Lessons for TANF Reauthorization,'' Pamela Morris, 
Lisa A. Gennetian, and Virginia Knox, The Next Generation, MDRC, March 
2002; ``Welfare Reform's Impact on Adolescents: Early Warning Signs,'' 
Jennifer Brooks, Elizabeth Hair, and Martha Zaslow, Child Trends, July, 
2001.
---------------------------------------------------------------------------
    Research on the impact of welfare on children typically has focused 
on elementary school age children and not the impact on adolescents. 
This research focus parallels TANF operational practice in which 
attention is directed to younger children, largely in terms of their 
child care needs and little attention is directed towards adolescent 
needs (except for teen pregnancy prevention). Yet, there are at least 
1.3 million youth (ages 12-19) who are ``recipient children'' in the 
TANF program.
    New research reports from MDRC and Child Trends, however, suggests 
that the teen population appears to be particularly vulnerable to poor 
outcomes when their mothers participate in work programs. The initial 
wave of research suggests that even when mothers do well (i.e. their 
participation increases family income) for some adolescents this 
improvement does not ``inoculate'' them from a set of poor outcomes.
    Specifically, the research found that adolescents whose mothers 
participated in work programs were (1) less likely to be perform above 
average in school and (2) more likely to repeat a grade or be enrolled 
in special education (10% higher than adolescents whose mothers did not 
participate in such a program).
    While the research has been able to pinpoint some negative 
schooling outcomes, what is less clear is what factors are contributing 
to these outcomes. Child Trends posits several possibilities including 
that mothers' stress may lead them to parent harshly; parental 
participation in the work program may lead to less supervision of 
adolescents; and, parental participation may change the role of the 
adolescent in the household into one in which the adolescent takes on 
adult responsibilities such as primary child care provider for a 
sibling or bringing income into the household through outside 
employment. MDRC found in a review of three programs with data on 
adolescents with ``adult responsibilities'' that there were adverse 
consequences: two programs increased the likelihood of the adolescent 
being responsible for a sibling's care, a third increased the 
likelihood of more than 20 hours of work per week (see, as well, the 
earlier discussion of the Administration's proposed work requirements).
    Adolescents and Reauthorization: CLASP recommends that Congress 
take a set of steps which can foster adolescent-sensitivity in the TANF 
context. First, we urge that Secretary's TANF research agenda on child 
impacts address questions directed at outcomes for adolescents. Second, 
state plans should be required to describe the steps the state expects 
to take to consider whether its polices and programs might positively 
or negatively influence adolescent well-being.
LProven Teen Pregnancy Prevention Programs Should Be Funded And 
        Promising Programs Evaluated<SUP>[viii]</SUP>
---------------------------------------------------------------------------
    \[viii]\ On teen pregnancy prevention see: ``Emerging Answers: 
Research Findings on Programs to Reduce Teen Pregnancy,'' Douglas 
Kirby, National Campaign to Prevent Teen Pregnancy, May 2001; 
``Reauthorization Issues: Reproductive Health,'' CLASP, January 2002; 
``Comments to the U.S. Department of Health and Human Services 
Regarding Teen Pregnancy Prevention and Teens Parents Provisions in the 
Temporary Assistance for Needy Families (TANF) Block Grant,'' CLASP 
November 30, 2001; ``Is Teen Marriage a Solution?'' CLASP, April 2002
---------------------------------------------------------------------------
    While public attention in reauthorization has been drawn to 
proposals related to marriage and couples and the child impacts of such 
initiatives, the role of teen pregnancy prevention in decreasing non-
marital births is little recognized. Teen pregnancy rates in the U.S. 
have dropped significantly in the last decade: there has been a 22% 
decline between 1991 and 2000. That good news is tempered by the fact 
that this nation still retains the distinction of having the highest 
birthrate among the developed countries. And while it is useful to 
avert teen pregnancy because of the social and economic consequences 
typically attendant to teen parenting, it is also a vital way to 
address non-marital births.
    One way to avert non-marital births is for couples to be married. 
The other way to reduce such births is for unmarried couples to avoid 
pregnancy. One third of all births in the country are non-marital. This 
is one of the underlying reasons behind the current movement to foster 
marriages. While there is uncertainty around the question of how 
government can best foster healthy marriages, there is sound scientific 
research regarding teen pregnancy prevention programs that can 
effectively address the problem by helping to prevent a non-marital 
birth. These proven programs should be replicated at the same time as 
emerging, promising approaches are evaluated.
    While most non-marital births are to older women, many of these 
women started as teenage mothers. Of all non-marital births, more than 
half (57%) were teen births or births by older women who first were 
teen mothers (1992-95 average). About 80% of teen births (400,000 per 
year) are non-marital. Thus, a focus on teens in efforts to address 
non-marital births makes particular sense.
    In sum, a reauthorization strategy that focuses on investments in 
teen pregnancy is compelling for several reasons. First, teen births 
are a substantial part of the overall picture of non-marital births. 
Second, we know of programs that have been proven to help reduce 
pregnancy and sexual risk-taking. Finally, encouraging marriage by 
teenagers might result in a ``premature'' marriage; the earlier the 
marriage, the more unstable and likely to dissolve.
    Teen Pregnancy, Couples & Marriage and Reauthorization: CLASP 
recommends that Congress re-direct the current ``illegitimacy bonus'' 
and use those monies in the manner proposed in H.R. 3625. In that 
measure, the $100 million is devoted to research, technical assistance, 
and demonstrations and is split three ways: for replication and 
adaptation of proven best practices related to teen pregnancy 
prevention (first and subsequent births); for programs that increase 
the ability of non-custodial parents to financially support and be 
involved with their children; and for programs that promote two parent 
families.
Abstinence Education Should Devolve Program Content To the 
        State<SUP>[ix]</SUP>
---------------------------------------------------------------------------
    \[ix]\ On abstinence see: ``Reauthorization Issues Abstinence 
Education,'' CLASP, January 2002; ``Reproductive Roulette,'' American 
Prospect, Fall Issue, 2001; ``Teen Pregnancy Prevention Hearing 
Submission, House Human Resources Subcommittee,'' CLASP, November 15, 
2001.
---------------------------------------------------------------------------
    Child-well being is enhanced when premature sexual activity is 
averted. Promotion of abstinence can be an important tool in helping 
avoid unintended pregnancy and sexually transmitted illnesses. However, 
programs that exclusively teach abstinence and do not provide 
participants with information about how to contracept can lead to 
increased health risks for some participants over time. Republican and 
Democratic Members of the Subcommittee (Representatives Nancy Johnson, 
(R-CA), Benjamin Cardin, (D-MD), and Jim McDermott, (D-WA) at a 
November, 2001 hearing, noted the value of flexibility in allowing 
states to determine what they consider the best approach to utilizing 
federal abstinence education funds.
    The abstinence education program established in 1996 (often called 
``Section 510'') is designed to teach that individuals should abstain 
unless they are married--whether they marry at 16 or 60 or whether they 
are divorced and between marriages. Under current law, programs funded 
through Section 510 are not to use these funds to provide participants 
with education about how to avoid sexually transmitted disease and 
pregnancy if they fail to abstain.
    Some have worried that contraceptive education might have the 
unintended consequence of increasing sexual activity and that is why 
young people should not receive such education; multiple studies now 
show, however, that such concerns are unfounded. In contrast, 
evaluations of programs that combine abstinence education with 
contraceptive information find that they can help delay the onset of 
intercourse without a concomitant concern regarding health risk.
    Significantly, recent research regarding particular abstinence 
strategies raises some hopes but at the same time, also health 
concerns. Notably, research on a ``virginity'' pledge--to abstain from 
sex until marriage--delayed intercourse on average by nearly 18 months, 
but pledging had no effect among older teens (18 and older). Further, 
pledgers were less likely than a comparison group to use contraceptives 
once they had intercourse, and thereby were at greater risk for 
sexually transmitted infections and pregnancy.
    While there is very strong support for abstinence education, most 
parents want abstinence education taught along with contraceptive 
information. Nearly 100% of parents of 7th-12th graders want their 
children's sexuality education program to cover abstinence, according 
to a national study in 2000 by the Kaiser Family Foundation. Notably, 
these parents also want lessons on how to use condoms (85%) and on 
general birth control topics (90%). State and local surveys also have 
found strong support for information about both abstinence and birth 
control.
    Medical experts also find problematic those abstinence programs 
that only teach abstinence (``abstinence-only'') and preclude 
contraceptive education. The National Academy of Sciences' Institute of 
Medicine, the National Institutes of Health, and the Academy of 
Pediatrics have all commented on the importance of including 
contraceptive information in education programs.
    Since 1996, at least $533 million in federal and state matching 
funds have been earmarked for abstinence-unless-married programs. These 
include the $50 million in annual federal ``Section 510'' funds which 
require a state match of $3 for every $4 federal dollars. In addition, 
since the passage of TANF, millions more in abstinence-unless-married 
education funding has been made available through two other federal 
funding sources (the Adolescent Family Life Act and a grants program 
called SPRANS-CBAE). All three of these funding sources are subject to 
the eight-point definition laid out in the welfare law, which includes 
provisions that require any abstinence-unless-married program have as 
its ``exclusive purpose, teaching the social, psychological and health 
gains to be realized by abstaining from sexual activity'' and that the 
program teach that ``sexual activity outside of the context of marriage 
is likely to have harmful psychological and physical effects.''
    The Administration, in addition to seeking reauthorization of 
Section 510, wants to increase funding for SPRANS-CBAE to $73 million, 
a $33 million increase. Proponents of increased funding argue that 
funding ``parity'' is needed between abstinence-unless-married 
education and family planning available to teens. This comparison, 
however, contrasts expenditures for education against costs for medical 
services. Thus, this is a comparison of ``apples'' and ``oranges'' and 
creates even greater misunderstanding in the public debate.
    The request for additional funding for SPRANS-CBAE appears to be 
inconsistent with the Administration's own call for accountability in 
government spending. In its FY 2003 budget, the Administration promotes 
accountability and asserts ``the assumption that more government 
spending gets more results is not generally true and is seldom 
tested.'' Yet more government spending on unproven abstinence unless 
married education is specifically sought.
    Abstinence Education and Reauthorization: CLASP recommends that 
Congress devolve to states the decision about what to include and not 
include in a ``medically accurate'' abstinence education program. Some 
states may decide to maintain the current program as is. Other states 
should be free to decide that, in light of available research, age-
appropriate information about contraception should be included. In some 
states, the state may decide to devolve the content decision to 
localities so that programs may be most appropriately tailored to local 
interests. CLASP also urges Congress not to expand funding for SPRANS-
CBAE.
Teen Parents' Special Needs Meeting Requirements Should Be 
        Addressed<SUP>[x]</SUP>
---------------------------------------------------------------------------
    \[x]\ On Teen Parents see: ``Reauthorization Issues: Reproductive 
Health,'' CLASP, January 2002; ``Comments to the U.S. Department of 
Health and Human Services Regarding Teen Pregnancy Prevention and Teens 
Parents Provisions in the Temporary Assistance for Needy Families 
(TANF) Block Grant,'' CLASP November 30, 2001.
    Note: all published CLASP publications are available online at: 
www.clasp.org and list authors
---------------------------------------------------------------------------
    In 1996, teen parents received particular attention in the creation 
of TANF. In part, this is because historically about 40-50% of older 
women receiving AFDC became a parent as a teenager. In the 2002 
reauthorization, little attention is being paid to the experiences of 
teen parents in TANF. Yet, it appears that too often needy teen parents 
and their very young children are not receiving TANF.
    Participation in TANF requires minor teen parents to meet two 
important eligibility requirements that reflect goals specific to 
teens--participation in school and living in an approved setting (teen 
parents are also subject to other eligibility rules that are not 
limited to teens such as child support cooperation). Generally, the 
TANF time-limit clock does not tick on minor teens if they are engaged 
in meeting education requirement (this can include 18 year olds who are 
in schooling full-time). Once teen parents participate in TANF, these 
goals remain central to effective implementation. Thus, if implemented 
well, the TANF requirements should help teens ``stay on track'' towards 
economic self-sufficiency. However, new research suggests that some 
teen parents who are in need of assistance are too often ``turned away 
at the door''--not even given a chance to meet the requirements.
    Research undertaken by the Center for Impact Research (CIR) in 
Chicago and replicated in Atlanta and Boston indicates that some teen 
mothers are wrongly denied TANF, in some measure due to caseworker 
misunderstandings about the TANF teen parent rules. CIR trained teen 
parents to conduct interviews of other teen parents and the results of 
these 1500 interviews indicate the current law may have important 
unintended and negative consequences. Depending on the site, somewhere 
between 35-58% of those teen parents who sought but did not receive 
TANF were either not given an application to complete or not contacted 
after submitting an application. (Those who did get to a submit an 
application also were on occasion denied due the teen rules, sometimes 
it appeared, inappropriately). While more research is needed to fully 
understand this ``turned away at the door'' phenomenon, to some extent 
it results from local caseworker misapprehension that a teen parent 
must already meet the teen parent requirements when she comes to apply. 
This is often out of sync with state policy, which allows for 
caseworker flexibility to permit such teens to receive TANF. Indeed, 
already in Illinois, the state agency is moving to improve the 
application process and the engagement of needy teen parents in TANF.
    The 1996 focus on teen parents reflected a concern that teen 
parents need help to get on or stay on a path that will lead to 
economic self-sufficiency. For teen parents to ``stay on track'' more 
readily, help may be needed to avoid a rapid repeat birth. About 20% of 
the roughly 500,000 teen births each year are not the first child to a 
teen mother; about 100,000 teenagers gave birth to a second or higher 
order child in 2000. When teen mothers have more than one child, 
problems compound for both the mother and child. Teen mothers who have 
more than one child are less likely to complete high school or to get a 
GED; babies born to a teen who already has one child are more likely to 
be born premature or at low-weight. While it is not evident how much of 
a contribution, if any, the specific TANF teen parent requirements make 
to the goal of reducing subsequent births, in an effective program a 
case manager working with an at-risk teen mother might engage this 
mother in a set of activities that could ameliorate this problem. 
Certainly, if the teen mother is not engaged in meeting TANF program 
requirements or served by other social service programs, she may miss 
essential case management.
    Teen Parents and Reauthorization: CLASP urges Congress to establish 
a ``transitional compliance'' provision, a period of up to 180 days for 
teen parents who at application do not meet program requirements. This 
allows the state to provide customized case management to help the teen 
come into compliance. The purpose of the transitional eligibility 
period would be to ``signal'' to states that time is available to 
provide supports and services for teen parents, enabling teen parents 
to come into compliance with federal requirements. CLASP further urges 
Congress to ``start the clock'' on teen parents (through age 19) once 
they have completed education/training requirements.
    Mr. Chairman, thank you for the opportunity to testify regarding 
issues of child well-being.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Levin-Epstein. Now, Ms. 
Blank to testify.

STATEMENT OF HELEN BLANK, DIRECTOR, CHILD CARE AND DEVELOPMENT 
               DIVISION, CHILDREN'S DEFENSE FUND

    Ms. BLANK. Thank you. Children's Defense Fund (CDF) 
welcomes this hearing and the Subcommittee's focus on 
legislation to renew the TANF and child care programs. We ask 
that a new report that we have written be put in the record on 
low-income women's employment.
    Chairman HERGER. Without objection.
    [The report is being retained in Committee files.]
    Ms. BLANK. We urge you to build on the progress made over 
the past years and renew these programs so they will better 
help low-income families get and keep permanent, stable jobs, 
improve child well-being and readiness, and reduce child 
poverty, and help families with severe barriers to employment. 
We applaud Representative Cardin for his leadership in 
developing H.R. 3625, the Next Step in Reforming Welfare Act. 
It is an important first step, and a number of improvements are 
needed in TANF to meet these objectives.
    The first is more resources focused on work supports, 
especially education and training, as well as initiatives that 
will get benefits to the families who need them. States must 
have the option to enroll more parents in a range of education 
and training programs and to have these activities count toward 
the federal work requirement. If parents are going to get the 
real jobs they need to adequately support their children, they 
have to have the skills that will secure them these jobs, and 
parents with postsecondary education are more likely to get 
higher-paying and more permanent jobs.
    Once work supports are in place, it is essential to ensure 
that families have access to the services and benefits they 
need to make ends meet and keep their jobs. H.R. 3625 includes 
a competitive grant fund to help States reopen gateways to work 
supports for which many low-income working families are 
eligible and still need even if they are not receiving TANF.
    Finally, if low-income families are going to be able to get 
and keep a job and stay off welfare, we must significantly 
increase resources for child care. The discussion about child 
care cannot focus just on the needs of welfare families. All 
low-income families are just one unstable child care 
arrangement away from welfare. There is not much difference 
between a low-income family struggling to stay off welfare and 
a family that is on welfare.
    There has been much discussion and debate about the need 
for child care and whether new investments are necessary. I ask 
you to speak to parents and providers. There is no doubt that 
millions of families aren't receiving the child care help they 
need to go to work with the knowledge that their children are 
in safe and supportive environments that will help them go to 
school ready to learn. Child care costs are high, $4,000 to 
$10,000 a year. They cost more than college tuition in almost 
every State, yet only one in seven children eligible for 
federal child care help is receiving it. Over one-third of the 
States have waiting lists or have closed intake. These waiting 
lists are long: 37,000 in Texas, 47,000 in Florida, 18,000 in 
Massachusetts, 12,000 in Indiana, and over 200,000 in 
California.
    Some say, well, if these families find child care, that is 
fine. We need to look at where these children are and the 
hardships these families are facing. Many of these families end 
up turning back to welfare. In a 1998 survey of parents on the 
waiting list in Santa Clara County, California, over a third of 
the parents were earning less than $10,000 a year. About 40 
percent of the families say they have given up searching for 
work. They couldn't find affordable child care. Forty-two 
percent had problems with their children's care. In a Houston 
survey, families were spending 25 to 30 percent of their income 
on child care. In Minnesota over 70 percent of families on 
waiting lists were in bankruptcy or faced severe economic 
distress. In several surveys, about a quarter of the families 
turned to welfare.
    I know this Committee is very concerned about good 
parenting. What waiting list surveys also tell us is that 
parents are under extraordinary stress because they can't make 
ends meet, and that affects how they treat their children. As 
we go home from a tough day at work, we know how it affects how 
we treat our own children.
    Anyone who believes that child care funding is not an issue 
should listen to parents. Listen to this Florida mother who 
testified 2 weeks ago: ``I am a 30-year-old single mother of a 
beautiful 2-year-old girl. I am a hard worker, and I have 
always prided myself on my ability to be self-sufficient. I am 
confronted with new obstacles for which there seems to be no 
way around. As a single mother, I make only enough to pay my 
bills. My income is $13,500 a year, including my food stamp 
benefit. Until recently I received transitional child care 
assistance. However, I lost assistance, and now I am on the 
waiting list with the 47,000 other families in Florida. I pay 
half my income for child care.''
    Waiting lists only tell part of the story. They don't 
include the families who don't apply because they know it is 
futile or the millions of families, including welfare families, 
who don't know that child care help exists because it is a 
well-kept secret in many States.
    The signals from States are that this problem is getting 
worse. Connecticut in a few months will no longer provide child 
care help to families leaving welfare. Six thousand low-income 
working families are scheduled to lose help in Texas.
    Families who receive help still face hurdles because they 
often don't get enough help to access the quality of care their 
children--and these are our poorest children--need to start 
school ready to learn. If TANF and CCDBG money is frozen, 
approximately 114,000 children will lose help in 2007. More 
families will be on waiting lists, and providers who are low-
wage women themselves aren't even going to be able to get 
increases in their rents.
    We urge you to increase TANF for inflation and to increase 
the Child Care and Development Block Grant by $20 billion over 
5 years. If you increase CCDBG by $20 billion, 2 million more 
children can get child care help, and we can improve the 
quality of care that children get. We would urge you to look at 
the need for child care and look at what families are facing 
every day and how hard it is to provide good child care in this 
country.
    [The prepared statement of Ms. Blank follows:]
    Statement of Helen Blank, Director, Child Care and Development 
                   Division, Children's Defense Fund
    The mission of the Children's Defense Fund is to Leave No Child 
Behind<Copyright> and to ensure every child a Healthy Start, a Head 
Start, a Fair Start, a Safe Start and a Moral Start in life and 
successful passage to adulthood with the help of caring families and 
communities. CDF provides a strong, effective voice for all the 
children of America who cannot vote, lobby or speak for themselves. We 
pay particular attention to the needs of poor and minority children and 
those with disabilities. CDF educates the nation about the needs of 
children and encourages preventive investments before they get sick, 
into trouble, drop out of school, or suffer family breakdown. CDF began 
in 1973 and is a private, nonprofit organization supported by 
foundation and corporate grants and individual donations. We have never 
taken government funds. The Act to Leave No Child Behind (H.R. 1990/S. 
940) is comprehensive legislation that reflects our vision for 
America's children and families.
    CDF welcomes this hearing and the Subcommittee's focus on 
legislation to renew the Temporary Assistance for Needy Families (TANF) 
and Child Care and Development Block Grant (CCDBG) programs and other 
programs of crucial importance to low income children and families.
    We urge you to build upon the progress made over the past years and 
renew these programs so that they will better:

        <bullet> Help low income families get--and keep--stable, 
        permanent jobs;
        <bullet> Improve child well-being and school readiness, and 
        reduce child poverty; and
        <bullet> Help families with severe barriers to employment.

    Your legislation must provide states and families with the 
resources, supports and flexibility needed to build upon what we have 
learned so far. The research evidence is strong: when welfare-to-work 
programs succeed in raising family income, the well-being of children 
improves. They do better in school and have fewer behavior or mental 
health problems. Quality child care helps children enter school ready 
to learn and helps parents find jobs and maintain steady employment. It 
is also true that when these programs fail and family income declines, 
children have more behavior and mental health problems.
    We applaud Representative Cardin for his leadership in developing 
the Next Step in Reforming Welfare Act (H.R. 3625), comprehensive 
reauthorization legislation that provides the resources and supports 
that will improve TANF and CCDBG for low income parents and children. 
We urge the Subcommittee to incorporate the provisions of Rep. Cardin's 
bill, as well as other provisions from the Act to Leave No Child Behind 
(H.R. 1990) into your final legislation.
    The reauthorizations of TANF and CCDBG have come at a critical time 
for low income families with children. During the 1990s, the strong 
economy, the increasing value and availability of work supports such as 
the Earned Income Tax Credit and subsidized child care, and the work 
requirements of the 1996 welfare law have all contributed to the 
increase in employment among low income parents. The number of children 
in families with one or more unemployed parents dropped by 1.4 million 
from 1995 to 2000. Single mothers dramatically increased their labor 
force participation--73.9 percent were employed in 2000, up from 62.8 
percent in 1995. Even among women who have not completed high school, 
employment increased from 33 percent to 53 percent from 1994 to 
2001.\1\
---------------------------------------------------------------------------
    \1\ Isabel Sawhill and Ron Haskins, ``Welfare Reform and the Work 
Support System,'' Policy Brief No. 17 (Washington, DC: The Brookings 
Institution, March 2002), citing Urban Institute data. Available online 
at http://www.brookings.edu/wrb.
---------------------------------------------------------------------------
    But the economic boom and the work supports now in place have not 
been enough to provide stable jobs with above-poverty pay for 
substantial numbers of families with children. Three-quarters of all 
poor children in the U.S. live in families where someone works. 
According to the Urban Institute, half of those leaving welfare for 
work had below-poverty family earnings in 1999.\2\ Various state 
surveys have shown that two-thirds or more of parents have worked at 
some point after leaving welfare. When families were working, they 
tended to work full-time or close to full-time hours, according to most 
reports about families that left TANF. Yet one of the few long-term 
surveys of welfare-to-work evaluations found that parents were working 
only about half the time over a four-year period.\3\ Other data show 
that only a little more than a third of families leaving welfare work 
four quarters in a row.\4\
---------------------------------------------------------------------------
    \2\ Urban Institute.
    \3\ National Evaluation of Welfare-to-Work Strategies (4 year 
evaluation); available online at http://www.mdrc.aa__psiweb.com/
Reports2001/NEWWS__PE__Impacts/NEWWS__PE__Impact.htm.
    \4\ Robert A. Moffitt, ``From welfare-to-work: What the Evidence 
Shows,'' Policy Brief No. 13 (Washington, DC: The Brookings 
Institution, January 2002). Available online at http://
www.brookings.edu/wrb.
---------------------------------------------------------------------------
    The experience of the past decade has shown both the benefits and 
limits of a strong economy for low income families. In the past year, 
we have also seen the precariousness of employment when the economy 
falters. Most of the employment gains of 1995 to 2000 were wiped out in 
the recession of the following year. The number of children with at 
least one unemployed parent jumped more than 40 percent, from 2.8 
million in 4th quarter 2000 to 4.0 million in 4th quarter 2001 (almost 
as much as the 1.4 million drop of the previous 5 years). Single 
mothers, who accounted for more than half of the total increase in 
working parents from 1995 to 2000, were disproportionately affected by 
the downturn in employment in 2001.\5\
---------------------------------------------------------------------------
    \5\ Arloc Sherman, ``The Recession Hits Children: 4 Million Had an 
Unemployed Parent in October-December, 2001'' (Washington, DC: The 
Children's Defense Fund, April 2002). Available online at http://
www.childrensdefense.org.
---------------------------------------------------------------------------
    Even in an economic boom, it would be impossible to improve child 
well-being while freezing child care and TANF funding for another five 
years. Rep. Cardin's bill takes an important step forward in raising 
the TANF block grant for inflation, substantially increasing the 
funding for Child Care and Development Block Grant, and establishing 
funds targeted to carry out TANF's goals. These investments will allow 
and encourage states to help low income families move forward and to 
make more secure the gains achieved by families thus far.
Help Low Income Families Get and Keep Stable, Permanent Jobs
    Low income families all around the country are struggling to find 
steady jobs that will allow them to support their children and escape 
poverty. The key to their success is the availability of and access to 
essential work supports--child care, education and training, health 
care and transportation assistance. Without these supports, an 
unreliable child care arrangement, a car breakdown, a health crisis can 
make the difference between welfare or work for too many families. 
Congress has an opportunity to ensure the availability of work supports 
that are essential to help these families become productive workers and 
lift their children out of poverty.
Increase Child Care Funding
    Studies show that when child care is available, and when families 
can get help paying for care, they are more likely to work. Without 
help, they may not be able to secure a job and stay employed and may 
end up turning to welfare.

        <bullet> In a survey of Minnesota families with children, one 
        out of five said that child care problems had interfered with 
        getting or keeping a job in the previous year.
        <bullet> In a study of families who were potential recipients 
        of child care assistance in Illinois, nearly half said that the 
        cost of child care had negatively impacted their opportunities 
        for employment.

    The welfare law created a new urgency to meet families' need for 
child care help while offering states new opportunities and resources 
to accomplish this task. The number of children and families receiving 
assistance has increased significantly over the past five years as a 
result of significant increases in federal and state funding for child 
care. However, the goal of providing adequate supports for all children 
and families who need them remains far out of reach. Only one out of 
seven children eligible for child care assistance through the Child 
Care and Development Block Grant (CCDBG) program is currently receiving 
it.
    Child care costs can be a staggering burden for these working 
parents and consume a large portion of their paycheck. Child care costs 
can easily average $4,000 to $10,000 a year--more than the cost of 
college tuition at a public university. Yet 77 percent of higher 
education costs are covered by public and private dollars. In contrast, 
parents pay the bulk of child care costs. Spending by parents accounts 
for 60 percent of the cost, compared to 39 percent for government and 
just 1 percent for businesses.
    A Fragile Foundation: State Child Care Assistance Policies, a 
recent report by the Children's Defense Fund covering the 50 states and 
the District of Columbia (and which we request be included in the 
hearing record), reveals that inadequate federal and state funding 
prevents millions of children in low income working families from being 
able to get the help they need.
    Many hard-working low income families are not even eligible for 
help due to low state income eligibility cutoffs for child care 
assistance. Many who are eligible cannot get it--either because they 
are put on waiting lists or turned away due to inadequate funds, or 
because no effort has been made to let them know they are eligible to 
get help. Those fortunate enough to actually qualify for child care 
assistance face additional hurdles. In some cases, the amount the state 
will pay for care is so low that parents cannot find good quality 
providers who can afford to serve their children, and in other cases 
parents have to pay so much in parent fees or co-payments that child 
care expenses still are a staggering financial burden.
    As of March 2000, only four states allowed families with incomes up 
to the maximum level allowed under federal law (85 percent of state 
median income) to qualify for assistance. In two-fifths of the states, 
a family of three earning $25,000 could not qualify for help. Even if a 
family is eligible for child care help, they may not necessarily 
receive it.

        <bullet> As of December 2001, more than one-third of the 
        states had waiting lists or frozen intake--meaning they turned 
        families away without even taking their names--because they 
        were unable to serve all eligible families who applied.
        <bullet> Some of these waiting lists were extremely long: 
        nearly 47,000 children in Florida, more than 36,000 children in 
        Texas, 18,000 children in Massachusetts, and 12,000 children in 
        Indiana.
        <bullet> Studies and interviews with parents highlight the 
        challenges that families on waiting lists face--many must 
        choose between paying the rent or paying for child care, going 
        into debt or settling for inadequate care because they cannot 
        afford better options.
        <bullet> In a 1998 survey of parents on the waiting list for 
        child care assistance in Santa Clara County, California, over 
        one-third of parents reported earning less than $10,000 
        annually. About 40 percent of the families said they had given 
        up on searching for work because they could not find affordable 
        care for their children.
        <bullet> In a 1999 survey of families on the waiting list in 
        Houston, most families reported that they spent 25 to 30 
        percent of their income on child care. Nearly one-third of the 
        parents said that they had to put off paying other bills in 
        order to pay child care expenses first, and 17 percent had to 
        do without certain necessities. Nearly two-fifths of the 
        families had to work fewer hours or miss work because of 
        inconsistent child care.

    Waiting lists tell only part of the story. They do not include 
families who do not bother applying for assistance because they know it 
is futile to expect to get help. The waiting lists would be even longer 
and many additional states would have to turn to them if more families 
knew they could get help. States report that many eligible families are 
not sufficiently informed about child care assistance. Two-fifths of 
the states acknowledge that eligible families are often unaware that 
they could receive help paying for care. If more families were informed 
about the availability of child care assistance and applied for it, it 
is highly unlikely the demand could be met, even in states that 
currently have no waiting lists. Only four states indicate that they 
could serve all eligible families.
    Families that are fortunate enough to receive assistance may still 
find child care unaffordable due to burdensome co-payment policies. All 
states require families receiving assistance to contribute toward the 
cost of care based on a sliding fee scale and many states require 
families at the poverty level or below to pay a fee. Thirty-five states 
charge fees to families earning half the poverty level ($7,075 a year 
for a family of three in 2000), even though there is scarcely room in 
their budgets for the most minimal charge.
    Clearly, there are numerous gaps in state child care assistance 
policies. These gaps are now growing wider in a number of states. For 
example, Connecticut plans to eliminate child care assistance for 
families transitioning off welfare.
    The impact of inadequate investments on the number of families who 
can receive child care assistance is illustrated by the situation in 
Texas, which already has a long waiting list. In 2001, the state failed 
to provide a sufficient funding increase to maintain even the current 
level of support for low income working families. In order to meet 
strict welfare-to-work requirements, the state will devote a larger 
proportion of its funds to serving families trying to move from 
welfare-to-work, which will cut back help for low income families 
working to stay off welfare. An estimated 6,000 fewer children in low 
income (non-welfare) families are expected to receive child care 
assistance in 2003, as compared to 2001.
    Despite the urgent need for additional child care, the 
Administration has proposed to freeze funding for the Child Care and 
Development Block Grant for the next five years. Under the 
Administration's plan, at least 114,000 fewer children will receive 
child care assistance. We urge you to firmly reject this short-sighted 
proposal.
    In order to truly help parents work and help children learn, we 
urge the Subcommittee to increase the Child Care and Development Block 
Grant by $20 billion over the next five years. These funds will allow 
states to double the number of children provided with child care 
assistance and erase their long waiting lists. Further, it will allow 
states to make improvements in child care quality that are so important 
to preparing children to enter school ready to learn.
Allow States to Offer More Education and Training
    States must have the option to enroll more parents in a range of 
education and training programs and to have those activities count 
towards the federal work requirement. The Next Step in Reforming 
Welfare Act (H.R. 3625) allows 2 years of vocational education. H.R. 
3625 also includes an Employment Advancement Fund, which can be used to 
provide more resources to states that wish to utilize more education as 
part of a strategy to help parents who have entered the labor force to 
advance in it. In addition, states intent on securing the Poverty 
Reduction Bonus in H.R. 3625 might choose to invest in more education 
and training as a means of increasing the earnings of parents leaving 
TANF. Parents with post-secondary training are more likely to get 
higher-paying, more permanent jobs.
    The Administration's TANF plan would make it more difficult for 
states to invest in post-secondary education. Under current law, a year 
of vocational education counts towards the first 20 hours of work per 
week for a limited number of TANF participants. The Administration's 
plan expands the number of hours that must be spent in more narrowly-
defined work activities to 24 per week, but excludes vocational 
education from these hours. Although parents would be allowed to enroll 
in education for the remaining hours, states will have few resources to 
put towards such activities. To increase the odds of meeting the 
steeper work participation rates, states will try to require more than 
24 hours of paid or unpaid work. Most states have not created work 
experience jobs (working off benefits in community placements) because 
they are costly and do not have a good track record for leading to 
permanent employment. In the recent National Governors' Association/
American Public Human Services Association survey, one state noted that 
it was in the process of ending contracts for a work experience program 
because ``it has not been as effective as other services in helping 
clients find employment.'' Nevertheless, the pressure to drastically 
increase participation rates and hours is likely to force states to 
fund work experience programs. With no additional TANF block grant 
funding over 5 years, there will be little left for education or 
training.
Help families receive the benefits for which they are eligible
    H.R. 3625 assists states in improving access to the services and 
benefits that serve as work supports through a $100 million a year 
competitive grant fund. These grants would help states re-open gateways 
to work supports for which many working families are eligible--even if 
they no longer receive TANF. The Children's Defense Fund's Community 
Monitoring Project found that only half of those who left TANF were 
receiving food stamps; less than one-third were getting child care 
help; and three-fifths had health insurance of any kind, despite low 
incomes.\6\ Under the grant fund in H.R. 3625, states could seek funds 
to streamline eligibility procedures, co-locate eligibility workers in 
convenient locations, and/or improve outreach to families. This is a 
constructive approach that will stabilize work and help families to 
make ends meet by improving access to help including food stamps, the 
Earned Income and Child Tax credits, child support enforcement, child 
care, and health coverage (and sometimes housing or other subsidies).
---------------------------------------------------------------------------
    \6\ Children's Defense Fund, Families Struggling to Make It in the 
Workforce: a Post Welfare Report (Washington, DC: 2000). Available 
online at http://www.childrensdefense.org.
---------------------------------------------------------------------------
Improve Child Well-Being and School Readiness and Reduce Poverty
    Poor children should not suffer from the combined effects of rising 
unemployment and a weakened safety net. But in 2001, even though the 
number of children with unemployed parents surged, TANF spending on 
cash assistance was $546 million less than in the previous year.\7\ The 
likelihood that even the poorest children would be helped by cash 
assistance plunged from 1994 to 2000. In 1994, 61 percent of children 
in families' whose non-welfare income was below half the federal 
poverty line received welfare assistance. In 2000, only one-third of 
children this poor were in families that received TANF.\8\
---------------------------------------------------------------------------
    \7\ Zoe Neuberger, ``TANF Spending in Federal Fiscal Year 2001'' 
(Washington, DC: Center on Budget and Policy Priorities, revised March 
27, 2002). Available online at http://www.cbpp.org.
    \8\ Calculations by the Children's Defense Fund, U.S. Census Bureau 
Current Population Survey data, 1994-2000.
---------------------------------------------------------------------------
Make Poverty Reduction a Purpose of TANF
    Rep. Cardin's bill sets forth the goal of reducing child poverty 
and gives states funding and incentives to achieve the goal. Reducing 
the extent and severity of child poverty is added as an explicit 
purpose of TANF. This language directs states to take steps to help 
families who are extremely poor, and not to limit their attention to 
those families just below the poverty line.
Provide funding to enable states to develop anti-poverty strategies 
    States must have the resources to help families secure permanent 
jobs and to provide a range of supports to stabilize employment and 
reduce poverty. H.R. 3625 provides resources through the Poverty 
Reduction Bonus, the Employment Advancement Fund, and the Family 
Formation Fund to enable states to try the anti-poverty strategies most 
targeted to their own economic conditions. In marked contrast, the 
Administration's plan is explicit in stating that improving child well-
being underlies all the TANF purposes, but does not recognize that 
reducing poverty is central to improvements in child well-being, and 
provides no new funds to help states develop anti-poverty approaches.
    The Administration's plan does divert at least $200 million in 
existing TANF funds towards marriage promotion and reduction of out-of-
wedlock births (with another $100 million to be supplied through a 
state matching requirement, which states can satisfy by using federal 
TANF funds). Encouraging two-parent families can certainly be an anti-
poverty strategy. Redirecting the $100 million in Bonus to Reward 
Decrease in Illegitimacy funds towards research and demonstration 
projects for family formation is a valid idea, but states should be 
allowed to pursue multiple strategies towards reducing poverty.
Provide Wage Supplements
    H.R. 3625 also provides that wage supplements given to families 
with low earnings do not count as assistance, and therefore fall 
outside the federal time limit. Currently, a few states (Illinois, 
Delaware, Maine, and Rhode Island) use their own funds to continue cash 
supplements for families that work and/or participate in post-secondary 
education. Because findings from welfare-to-work evaluations strongly 
show that increased family income helps children, states should be able 
to use federal TANF funds to continue wage supplements as long as 
earnings are low enough that families remain eligible.
Improve the Quality of Child Care
    Quality child care is also critical to improving child well-being 
and helping children enter school ready to succeed. The nation cannot 
proceed successfully on its track towards improving educational 
outcomes unless it focuses on the developmental needs of young 
children. The process of learning to read begins well before a child 
enters elementary school.
    States need more resources devoted to improving the quality of 
child care. They are currently required to spend a minimum of 4 percent 
of their CCDBG funds on quality efforts. They have used these funds for 
vital supports and creative initiatives, ranging from hiring more 
inspectors to ensuring facilities are safe, to housing infant and 
toddler, health, and early literacy specialists in resource and 
referral programs to work with their communities' child care providers. 
However, a 4 percent set-aside is not nearly enough considering the 
numerous components that need to be in place for children to receive 
the quality of care they need, including well-trained and well-
compensated staff, low child-staff ratios, safe, roomy facilities 
designed to meet the needs of young children, basic equipment such as 
books and toys, regular monitoring and inspection of providers, and 
resource and referral programs to help families find care and support 
providers. We urge you to support an increase in the quality set-aside 
to 12 percent, as proposed in Rep. Cardin's bill.
Help families to receive the child support they are owed
    Getting more child support to families is an important anti-poverty 
measure. The poverty rate for custodial families who receive all the 
child support they are owed is 15.2 percent, compared with the 35.7 
percent poverty rate for families that do not receive any of the child 
support they are due.\9\ When poor children do receive support, it adds 
an average of $2,000 a year to their family's budget, increasing their 
total income by 26 percent.\10\ The child support distribution 
improvements passed by the House in 2000, many of which have been 
included in the Administration plan and H.R. 3625, should be part of 
TANF reauthorization legislation.
---------------------------------------------------------------------------
    \9\ U.S. Census Bureau, Child Support for Custodial Mothers and 
Fathers, P60-212 (Washington, DC: October 2000). Available online at 
http:/www.census.gov/hhes/www.chldsupt.html.
    \10\ Vicki Turetsky, Testimony before the Subcommittee on Social 
Security and Family Policy, Senate Finance Committee (Washington, DC: 
Center for Law and Social Policy, submitted for the record October 11, 
2001). Available online at http://www.clasp.org.

Restore TANF to legal immigrants: Many legal immigrant families--many 
of whom were working--experienced severe hardships after being denied 
benefits in 1996 such as food stamps, Medicaid and TANF. More than one-
fifth of all poor children in America live in immigrant families. 
Thirty-seven percent of children of immigrants lived in families 
reporting trouble affording food, compared with 27 percent of children 
of non-immigrants. Children of immigrants are also more than two times 
as likely as children of natives to live in families that pay more than 
half their income for housing. Restoring TANF eligibility to legal 
immigrants would be an important anti-poverty strategy.\11\ The 
Administration plan restores food stamps to some legal immigrants, but 
fails to restore TANF.
---------------------------------------------------------------------------
    \11\ Food Research and Action Center, ``Research on Hunger Impacts 
of Food Stamp Cuts to Legal Immigrants'' (Washington, DC: 2001). 
Available online at http://www.frac.org.
---------------------------------------------------------------------------
Help Families with Severe Barriers to Employment
Require Screening and Assessments to Identify Barriers to Employment
    Forty-four percent of TANF adults reported one or more serious 
physical or mental impairments in 1999, compared with 16 percent of 
other U.S. adults. Research found that one-fifth of parents receiving 
TANF reported that one or more children had a health problem. Domestic 
violence, substance abuse, illiteracy, or inability to speak or write 
English are also prevalent. Without treatment, families with one or 
more problems are more likely to be sanctioned and lose assistance than 
are other recipients.
    TANF can be improved by requiring screening and assessments, with 
an individualized Personal Responsibility Plan developed for each 
family. If mental health or substance abuse services are identified as 
necessary steps, those services should be considered part of the plan, 
and families should get participation credit when they undertake such 
treatment. Any family about to lose assistance because of a failure to 
comply with program rules should receive a further in-person evaluation 
and a compliance plan devised to address the barriers to employment. In 
Tennessee, where a similar approach has been taken, the number of 
families losing assistance through sanctions has been considerably 
reduced.
Set Appropriate Work Participation Requirements
    The 40-hour work requirement should be rejected in favor of 
individualized plans based on screening and assessments by trained 
caseworkers and appropriate professionals. The 70 percent participation 
rate should be rejected in favor of the employment credit (included in 
the Making Work Pay Act, H.R. 4057 and H.R. 3625). The employment 
credit replaces the case load reduction credit by reducing the required 
work participation rates only when states succeed in placing people in 
jobs--not simply because they leave the TANF rolls. The Levin credit 
sends all the right messages to states--they are rewarded when families 
leave TANF for real jobs, and rewarded further when the jobs pay at 
least one-third of the state's average wage. In addition, states are 
given credit when they provide child care or transportation help to low 
income working families that are not receiving cash assistance.
Protect Families During an Economic Downturn
    Many welfare recipients transitioning into work are ineligible for 
Unemployment Insurance. Congress should make improvements in 
Unemployment Insurance so that new entrants into the labor force could 
count their most recent quarters of work and they would be more likely 
to qualify for UI. Similarly, parents seeking part-time work ought to 
be eligible for UI benefits. Because only one in five single mothers 
with work experience ever qualifies for UI, TANF has become the de 
facto unemployment insurance system for many low income mothers. 
Working families should have better access to unemployment 
compensation.
    Additional investments in TANF and child care will help more low 
income parents get into stable employment and help ready their children 
for school. We should not miss an opportunity this year with 
reauthorization to expand investments in programs that are so crucial 
to the success of children and families and to truly ensure that no 
child is left behind.

                                 <F-dash>

    Chairman HERGER. Thank you. Thank you, Ms. Blank. Now, Ms. 
Davis.

    STATEMENT OF MARTHA F. DAVIS, VICE PRESIDENT AND LEGAL 
 DIRECTOR, NOW LEGAL DEFENSE AND EDUCATION FUND, NEW YORK, NEW 
                              YORK

    Ms. DAVIS. Thank you for the opportunity to testify today. 
As you consider TANF reauthorization, I want to emphasize three 
specific proposals that we believe must be incorporated if 
welfare is going to truly move women and their families out of 
poverty.
    First, any TANF reauthorization bill should expand 
opportunities for education and training. This is particularly 
important precisely because federal welfare primarily assists 
single-female-headed families. Due to workplace discrimination, 
job segregation, and other factors, women can compete in the 
marketplace only if they have access to education and training.
    Consider these remarkable statistics. A woman with a high 
school degree makes an average of $9,000 a year less than a man 
with the same very modest qualifications. Without additional 
education, women's wages lag behind men's. This gap is most 
significant for women of color. African-American women are paid 
65 percent of the salaries averaged by white men, while Latinos 
receive a mere 52 percent. In short, education and training are 
key to women's economic security.
    The Administration's bill, the Herger bill, proposes to 
thwart additional educational opportunities while instead using 
precious TANF dollars to promote marriage, a combination that 
gives women no choice but dependency while intruding on one of 
their most private decisions. There is little public support 
for this approach. Indeed the Pew Research Center recently 
reported that 79 percent of those surveyed favored governments 
staying out of marriage promotion.
    Instead of diverting precious TANF dollars to this unproven 
and unpopular program, TANF reauthorization should focus on an 
approach that we know works, education. The TANF 
reauthorization should expand the definition of work activities 
to include a range of educational opportunities. The arbitrary 
12-month limit on training should be removed rather than 
constricted, as the current pending bill suggests. An 
individual should be allowed access to a full range of training 
for jobs with living wages. Ensuring adequate funding for child 
care, as you have just heard, is also an important aspect of 
supporting any effort to move families out of poverty.
    Second, civil rights laws must apply to TANF recipients. We 
at the National Organization for Women (NOW) Legal Defense have 
firsthand experience with this since we represent two women who 
are suing New York City because they were sexually harassed in 
their welfare-to-work placements. We have been joined with the 
U.S. Government, the U.S. Department of Justice, in this suit, 
who are also suing New York City. One of our clients was 
stalked by her city supervisor in her workfare placement. 
Another plaintiff was racially harassed when she found a noose 
hanging above her desk along with racist caricatures. New York 
City has taken the position that civil rights laws do not 
protect these workers. We think there should be a limit, that 
the line should be drawn for State flexibility far before you 
get to the point that a State can take the position that 
workers are not eligible for civil rights protections.
    The TANF reauthorization should require evaluation of the 
extent to which States have complied with civil rights 
protections as related to TANF and should require that 
recommendations be made for improving such compliance. Further, 
TANF reauthorization should ensure application of workplace 
protections, such as the Fair Labor Standards Act, OSHA, Title 
VII and IX of the Civil Rights Act of 1964, and the Americans 
with Disabilities Act to TANF recipients in the same manner as 
such laws apply to other workers.
    Third, TANF reauthorization should recognize that welfare 
recipients face multiple work and life barriers to economic 
security. Forty-four percent of TANF recipients face more than 
one barrier to employment. As many as 60 percent of women 
receiving welfare have been victims of domestic violence as 
adults, and as many as 30 percent report abuse within the last 
year. Long-term welfare recipients are 75 percent more likely 
than those on welfare for less than 2 years to have extremely 
low basic skills. Long-term recipients are also significantly 
more likely to have mental health problems, to have abused 
alcohol, and to have medical problems. To address this, TANF 
reauthorization must ensure that trained caseworkers screen 
individuals for barriers to economic security, refer those in 
need to qualified professionals for assessment and service 
provision, and recognize participation and counseling or other 
activities that address these barriers as work activities.
    Further, the family violence option, which is the ground-
breaking initiative from the 1996 law that has now been adopted 
by 43 States, should be mandatory in every State. This is 
really a model for the sort of process of identifying barriers 
that I am talking about. The NOW Legal Defense worked closely 
with Members of Congress in crafting this option in 1996.
    A proposal like that set out by the administration's bill 
and by the Herger bill that fails to adjust TANF dollars for 
inflation, that diverts TANF funds away from effective 
education and training programs to fund experimental marriage 
promotion programs, and imposes unreasonable work requirements 
will undermine efforts to reduce poverty.
    To learn from the past 6 years and improve the current 
system, Congress must pay careful attention to the data that 
demonstrates that welfare reform cannot be done on the cheap, 
and that education, training, and child care are critical 
components of successful poverty reduction. We look forward to 
working with you to improve the lives of low-income women as 
this legislation moves forward. Thank you.
    [The prepared statement of Ms. Davis follows:]
 Statement of Martha F. Davis, Vice President and Legal Director, NOW 
          Legal Defense and Education Fund, New York, New York
    Thank you for the opportunity to testify today.
    By way of introduction, my name is Martha F. Davis and I am the 
Vice President and Legal Director of NOW Legal Defense and Education 
Fund. I also teach welfare law at New York University School of Law. 
For more than thirty years, NOW Legal Defense and Education Fund has 
used the power of the law to define and defend women's rights. Working 
in Congress, the courts and the media, NOW Legal Defense acts 
strategically to secure equality for women across the country. We 
currently chair a large coalition of groups--called the Building 
Opportunities Beyond Welfare Reform coalition--that is committed to 
shaping the welfare system to improve women's lives and opportunities.
    As this House approaches welfare reform reauthorization, we believe 
that there are five specific proposals that must be incorporated if 
welfare is to going to truly move women and their families out of 
poverty. There are also three proposals on the table, described below, 
that we believe would be harmful to the goals that we all share of 
assisting those in poverty to improve their lives.
    First, any TANF reauthorization bill should expand opportunities 
for education and training. This is particularly important precisely 
because federal welfare primarily assists single female-headed 
families. Women can compete in the marketplace only if they have access 
to education and training. Consider these remarkable statistics: 
according to the National Committee on Pay Equity, a woman with a high 
school degree makes an average of $9000 a year less than a man with the 
same modest qualifications. Without additional education, women's wages 
lag behind men's; for example, in 1999 median weekly earnings for full-
time wage and salary workers were $473 for women and $618 for men.\1\ 
This gap is even more significant for women of color; African-American 
women are paid 65% of the salaries averaged by white men, while Latinas 
receive a mere 52%.\2\ Significantly, however, 44% of adults (read 
women) on welfare report education less than high school.\3\ In short, 
education and training are key to women's economic security.
---------------------------------------------------------------------------
    \1\ U.S. Dep't of Labor, Women's Bureau, ``20 Facts on Women 
Workers'' (Mar. 2000), available at http://www.dol.gov/dol/wb/public/
wb__pubs/20fact00.htm.
    \2\ Nat'l Comm. on Pay Equity, ``Advocates Take Action for Fair 
Pay,'' press release (Mar. 13, 2001).
    \3\ Zedlewski, Shelia. ``Do Families on Welfare in the Post TANF 
Era Differ from Their Pre TANF Counterparts?'' Urban Institute New 
Federalism. (Washington: February 2001). Online access 10/09/01 http://
newfederalism.urban.org/pdf/discussion01-03.pdf at 18.
---------------------------------------------------------------------------
    The Bush Administration proposes to thwart additional educational 
opportunities while instead using precious TANF dollars to promote 
marriage--a combination that gives women no choice but dependency, 
while intruding on one of their most private decisions. In contrast, 
our specific proposals for reform would promote women's opportunities 
and abilities to compete for good jobs. Proposed legislative language 
is attached as Appendix A. In particular, TANF Reauthorization should 
expand the definition of work activity to include: elementary and 
secondary education, literacy, ESL, GED and higher education; 
participation in a work-study program; and 6 hours per week of study 
time. The arbitrary 12-month limit on training should be removed and 
individuals should be allowed access to a full range of training for 
jobs with living wages. Finally, the 30% cap on the percentage of a 
state's case load that can be counted toward federal work participation 
rates for individuals participating in vocational training or teens 
pursuing a high school diploma should be removed.
    Second, civil rights laws must apply to TANF recipients. This is 
something that we at NOW Legal Defense have first hand experience with, 
since we represent two women who are suing New York City because they 
were sexually harassed in their welfare-to-work placements. Indeed, one 
of them was stalked by her City supervisor. Another plaintiff in the 
case was racially harassed when she found a noose hanging above her 
desk along with racist caricatures. New York City has taken the 
position that these women have no protections and no recourse, a 
position that has been upheld by a federal district court but that will 
almost certainly be appealed. This is plainly inconsistent with our 
national values. It undermines the legal and human rights of all 
workers when TANF recipients are denied basic protections. TANF 
Reauthorization should require evaluation of the extent to which states 
have complied with civil rights protections as related to TANF and 
recommendations for improving such compliance. Further, TANF 
Reauthorization should ensure application of workplace protections such 
as the Fair Labor Standards Act, OSHA, Titles VII and IX of the Civil 
Rights Act of 1964, and the ADA to TANF recipients in the same manner 
as such laws apply to other workers. Proposed legislative language is 
attached hereto as Appendix B.
    Third, TANF Reauthorization should recognize that welfare 
recipients face multiple work/life barriers to economic security. 
Forty-four percent of TANF recipients face more than one barrier to 
employment.\4\ As many as 60% of women receiving welfare have been 
victims of domestic violence as adults and as many as 30% report abuse 
within the last year.\5\ Long-term welfare recipients are 75% more 
likely than those on welfare for less than two years to have extremely 
low basic skills. Long-term recipients are also 39% more likely to have 
a mental health problem, 69% more likely to have abused alcohol, and 
56% more likely to have a medical problem.\6\ To address this, TANF 
Reauthorization must ensure that trained caseworkers screen individuals 
for barriers to economic security, refer those in need to qualified 
professionals for assessment and service provision, and recognize 
participation in counseling or other activities that address these 
barriers as work activities. Further, the Family Violence Option, the 
groundbreaking initiative from the 1996 law that has been adopted by 43 
states, should be mandatory in every state. NOW Legal Defense worked 
closely with Members of Congress in crafting the option. Proposed 
legislative language to extend the Family Violence Option to all states 
is attached as Appendix C.
---------------------------------------------------------------------------
    \4\ GAO, More Coordinated Federal Effort Could Help States and 
Localities Move TANF Recipients With Impairments Towards Employment 
(GAO-02-37) at 3-4.
    \5\ Richard Tolman & Jody Raphael, A Review of Research on Welfare 
and Domestic Violence, 56 J. of Soc. Issues (no. 4) 655-82, at 657.
    \6\ Krista Olson & LaDonna Pavetti, ``Personal and Family 
Challenges to the Successful Transition from welfare-to-work.'' The 
Urban Institute (Washington: 1996) at http://www.urban.org/welfare/
reportl.htm.
---------------------------------------------------------------------------
    Fourth, safe, quality child care must be a key component of welfare 
reform. Only 12% of eligible families are currently receiving federal 
child care assistance.\7\ TANF Reauthorization must ensure access to 
child care to TANF recipients who are engaged in a work activity, and 
increase CCDBG funding to meet that goal. Further, TANF Reauthorization 
should strengthen protections from sanctions for parents who cannot 
find child care. Although current law includes sanction protection for 
single parents with a child under age 6, there are no protections for 
parents with children over age 6 who cannot find appropriate or 
affordable after school care or for parents of children who may need 
specialized care. I think we can all agree that a 7-year-old is not 
ready to stay home alone. TANF Reauthorization must recognize that 
older children need care, and if such care is not available, families 
should not lose basic subsistence benefits as a result. Proposed 
legislative language that would address this issue is attached as 
Appendix D.
---------------------------------------------------------------------------
    \7\ HHS, ACF, HHS News, New Statistics Show Only Small Percentage 
of Eligible Families Receive Child Care Help. (Dec. 6, 2000).
---------------------------------------------------------------------------
    Fifth, TANF Reauthorization should be fair to those families that 
are playing by the rules and, because of larger economic factors, 
continue to need welfare. As the economy has soured, the need for cash 
assistance has increased. Thirty-three states reported higher case 
loads in September 2002 than in March 2001. Some states have shown 
continuous case load growth in recent months, including substantial 
growth over the past year in Nevada (38%), Indiana (25%) and West 
Virginia (22%).\8\ To address these issues, TANF Reauthorization must 
ensure that the clock is stopped while individuals are in compliance 
with program rules (for instance, engaged in a work activity). The 
arbitrary 20% cap on hardship exemptions should be repealed. Finally, 
the time clock should be stopped by a recession, when the state 
unemployment rate is 5.5% or higher, or has increased by the lesser of 
50% or 1.5 percentage points. The legislative language in Appendix A 
would address these concerns.
---------------------------------------------------------------------------
    \8\ Center for Law and Social Policy. ``Welfare case loads Are Up 
in Most States.'' At http://www.clasp.org/pubs/TANF/FY01%20case 
load%20Data.htm (visited Jan. 15, 2002).
---------------------------------------------------------------------------
    If these five proposals were adopted as part of TANF 
Reauthorization, it would go a long way to improving the system and 
addressing the needs of poor women and families on welfare.
    While there are many components of the Bush Administration's TANF 
Reauthorization Proposal about which we have grave concerns, there are 
three components that we believe would significantly harm women on 
welfare and their families.
    First, the Bush Administration has proposed continuing federal TANF 
funding at the 1996 level through 2007, despite the clear need for a 
major increase. This funding level is tens of billions less than the 
amount that is needed to address family poverty and support parental 
employment, and represents a substantial cut in funding after 
inflation.
    Second, the Bush Administration's plan would further divert TANF 
funds away from cash assistance and job training by setting aside $300 
million for highly speculative and faddish marriage promotion and 
family formation projects. Particularly when juxtaposed with the 
Administration's failure to expand educational opportunities for 
welfare recipients--an already proven route out of poverty--the 
Administration's plan seems intended to return us to a day when women 
were expected to sacrifice their individual potentials and 
opportunities at the altar. Many--in fact, polls say the majority of 
the public--are skeptical of any government role in promoting marriage. 
Certainly, if public funds are to be used for this purpose, they should 
not be taken from funds needed to provide basic cash assistance, 
training and child care. Similarly, while there is a need for more 
funding for ``responsible parenthood'' programs which provide services 
to low income non-custodial parents, this should be new funding, not a 
diversion from existing capped amounts. And these programs should serve 
all non-custodial parents, not just non-custodial fathers, as the Bush 
plan seems to propose.
    Finally, the Bush plan would increase to 40 the number of hours 
required for work to count; increase the participation rate standard to 
70%; and eliminate the case load reduction adjustment to the 
participation rate standard. To meet these new requirements, states 
would almost inevitably have to assign most recipients to workfare 
programs, where they would work from 24-40 hours a week without 
compensation beyond their welfare check. This is counterproductive. 
Studies have consistently shown that education and training are 
critical components of moving toward self-sufficiency. Further, welfare 
families are by definition families with children. We have already seen 
disturbing evidence that onerous work requirements are harmful to these 
families--increasing delinquency, for example. Increasing the required 
hours will only further undermine these families.
    In sum, TANF Reauthorization provides an opportunity to assess the 
successes and failures of the past six years, and improve upon the 
current system. To do that, Congress must pay careful attention to the 
data that demonstrates that welfare reform cannot be done ``on the 
cheap'' and that education, training and child care are critical 
components of successful poverty reduction. We look forward to working 
with you to improve the lives of low income women as this legislation 
moves forward.
                                 ______
                                 
                               APPENDICES
                               APPENDIX A
                 WORK REQUIREMENTS FOR TANF RECIPIENTS
    The Problem: States and recipients should be able to choose from a 
variety of work activities for placement under the TANF program. In 
addition, if a recipient is complying with all work requirements, the 
time clock should not be running against her.
    The Solution: The list of potential work activities should be 
expanded. A bonus should be created to reward states for high 
performance in moving recipients into employment that will move 
families out of poverty, removing employment barriers and providing 
work supports. The statute should be amended as follows:
Expansion of work activities:
        Section 407(d) (42 USC 607(d)) is amended as follows:
        (1) by striking paragraph (4) and inserting the following:
        L(4) transitional work experience leading to jobs that provide 
        an income of not less than 250% of the poverty line;''
        (2) by striking paragraph (7) and inserting the following:
        L(7) voluntary participation in a community service program;''
        (3) in paragraph (8) by striking ``(not to exceed 12 months 
        with respect to any individual)'';
        (4) by striking paragraph (9) and inserting the following:
        L(9) job skills training directly related to employment, 
        including participation in training for technical, 
        professional, or nontraditional occupations for women.
        (5) by striking paragraphs (10) through (12) and inserting the 
        following:
        L(10) participation in a State or federal work-study program 
        under part C of titile IV of the Higher Education Act of 1965;
        L(11) education, including but not more than 6 hours of home 
        study per week, in the case of a recipient who is enrolled----
        L(A) at an elementary or secondary school (as defined in the 
        Elementary and Secondary Education Act of 1965);
        L(B) in a course of study leading to adult literacy, English as 
        a second language, or a certificate of high school equivalency; 
        or
        L(C) at an institution of higher education (as defined in 
        section 102 of the Higher Education Act of 1965), regardless of 
        the content of the course of study;
        L(12) the provision of appropriate care to a child who has a 
        disability or a serious health condition (as defined in section 
        101(11) of the Family Medical Leave Act) or has not attained 6 
        years of age, by a recipient who is a parent or caretaker 
        relative of the child; and
        L(13) participation in treatment or an educational activity 
        designed to address a mental health problem, disability, 
        substance abuse, or domestic or sexual violence.
Removal of limitation on educational activities:
        Section 407(c) (42 USC 607(c)) is amended to strike paragraph 
        (D).
Time limit exception:
        Section 408(a)(7); 42 USC 608(a)(7) is amended by adding at the 
        end the following:
        L(H) EXCEPTION FOR COMPLIANCE WITH WORK ACTIVITIES.--In 
        determining the number of months for which an individual has 
        received assistance under the State program funded under this 
        part, the State shall disregard any month throughout which the 
        individual is in compliance with all applicable work 
        requirements of the State program.
Bonus:
        Amend Section 403(a)(4) (42 USC 603(a)(4)) to read as follows:
        (4) BONUS TO REWARD HIGH PERFORMANCE STATES----
        L(A) IN GENERAL--The Secretary shall make a grant pursuant to 
        this paragraph for each bonus year for which the State is a 
        high performing State with respect to a category described in 
        subparagraph (C).
        (B) AMOUNT OF GRANT----
        L(i) Subject to clause (ii) of this paragraph, the Secretary 
        shall determine the amount of the grant payable under this 
        paragraph to a high performing State under each of the three 
        categories described in subparagraph (C) which shall be based 
        on the score assigned to the State under subparagraph (D)(i) 
        for the fiscal year that immediately precedes the bonus year.
        L(ii) The total of the amounts payable to a State under the 
        paragraph for a bonus year shall not exceed 5 percent of the 
        State family assistance grant.
        L(C) FORMULA FOR MEASURING STATE PERFORMANCE--Not later than 
        October 1, 2003, the Secretary in consultation with affected 
        groups, including recipient groups and State governors, shall 
        issue regulations implementing criteria for awarding bonuses 
        under this paragraph in each of the three following categories:
        L(i) PREPARATION AND PLACEMENT OF RECIPIENTS IN EMPLOYMENT THAT 
        WILL MOVE FAMILIES OUT OF POVERTY--The degree of success in 
        implementing employment-related measures, including job entry, 
        job retention and earnings gain rates, improvement in each of 
        such measures, and the success of States in----
        L(I) meeting self-sufficiency needs for welfare leavers;
        L(II) training, placing and retaining welfare leavers in 
        higher-waged jobs identified in an assessment done by the 
        State;
        L(III) training, placing and retaining welfare leavers in 
        technical, professional or non-traditional employment 
        occupations for women;
        L(IV) providing career development assistance related to 
        higher-waged jobs including reliable, up-to-date career 
        counseling services, employability assessments on available 
        employment that pays a sustainable wage, nontraditional 
        training and education options and employment opportunities;
        L(V) encouraging participation in post-secondary educational 
        programs;
        L(VI) encouraging use of effective literacy programs that 
        strengthen basic skills in the context of employment; and
        L(VII) encouraging participation in vocational education 
        programs for occupations identified in an assessment of 
        available jobs that pay a sustainable wage.
        L(ii) REMOVAL OF BARRIERS TO SELF SUFFICIENCY--The degree of 
        success in removing mental health, substance abuse, disability 
        or domestic or sexual violence barriers to escaping poverty;
        L(iii) PROVISION OF WORK SUPPORTS--The extent to which the 
        State has increased the percentages of eligible families 
        receiving (I) Food Stamps; (II) Medicaid and SCHIP; and (III) 
        Child Care Subsidies.
        L(D) SCORING OF STATE PERFORMANCE; SETTING OF PERFORMANCE 
        THRESHOLDS--For each bonus year, the Secretary shall--(i) use 
        the performance measure developed under each of the three 
        criteria in subparagraph (C) for a measure to assign a score to 
        each eligible State with respect to the measure for the fiscal 
        year that immediately precedes the bonus year; and (ii) 
        prescribe a performance threshold for each such measure in such 
        a manner so as to ensure that--(I) the average total amount of 
        grants under this paragraph for each bonus year is $200 
        million; (II) each measure described in subparagraph (C) is 
        assigned a bonus reward of not less than $60 million; and (III) 
        the total amount of grants to be made under this paragraph for 
        all bonus years equals $1,000,000,000.
        L(E) DEFINITIONS.--In this paragraph:
        L(i) BONUS YEAR--The term ``bonus year'' means fiscal years 
        2002 through 2008.
        L(ii) HIGH PERFORMING STATE--The term ``high performing State'' 
        means with respect to a measure and a bonus year, an eligible 
        State whose score assigned pursuant to subparagraph (D)(i) with 
        respect to one of the measures under subparagraph (C) for the 
        fiscal year immediately preceding the bonus year equals or 
        exceeds the performance threshold prescribed by the Secretary.
                               __________
                               APPENDIX B
                              CIVIL RIGHTS
    The Problem: Just like other employees, welfare recipients in work 
experience programs, welfare-to-work placements, and job training 
programs have the right to a discrimination-free workplace. From the 
beginning of the TANF program, the federal executive branch has 
consistently said that federal employment protection laws, such as the 
minimum wage law and the employment discrimination laws, apply to 
workers in TANF workfare programs in the same way they apply to other 
workers. The statute should be amended to clarify this and to codify 
the position of the federal executive branch.
    The Solution: 
        Amend Section 407(d) (42 U.S.C. 607(d)) as follows:
        L(1) by adding a new subsection (e) as follows:
        (e) Application of workplace laws to welfare recipients.
        LNotwithstanding any other provision of law, workplace laws, 
        including the Fair Labor Standards Act of 1938 (29 U.S.C. 201 
        et seq.), the Occupational Safety and Health Act of 1970 (29 
        U.S.C. 651 et seq.), title VII of the Civil Rights Act of 1964 
        (42 U.S.C. 2000e et seq.), and the Americans with Disabilities 
        Act of 1990 (42 U.S.C. 12101 et seq.), shall apply to an 
        individual who is a recipient of assistance under the temporary 
        assistance to needy families program funded under part A of 
        title IV of the Social Security Act (42 U.S.C. 601 et seq.) in 
        the same manner as such laws apply to other workers. The fact 
        that an individual who is a recipient of assistance under the 
        temporary assistance to needy families program is participating 
        in, or seeking to participate in work activities under that 
        program in satisfaction of the work activity requirements of 
        the program, shall not deprive the individual of the protection 
        of any federal, State, or local workplace law.
        Section 408(d) (42 U.S.C. 608(d)) is amended as follows:
        (1) by adding at the end the following----
        (5) Title IX of the Education Amendments of 1972 (20 U.S.C. 
        1681)
                                 ______
                                 
                               APPENDIX C
FAMILY VIOLENCE OPTION

    The Problem: Federal law permits each state to choose whether to 
adopt the Family Violence Option, or ``FVO,'' in their administration 
of TANF. Adoption permits the state to waive welfare applicants and 
recipients, from some or all welfare program requirements if they are 
victims of domestic or sexual abuse or violence (definitions of these 
terms vary from state to state). Among welfare requirements that states 
may waive are participation in work activities, time limits on 
benefits, and cooperation with child support collection. Since 1996, a 
majority of states (32) and the District of Columbia have adopted the 
FVO as part of their welfare law. Twelve other states have equivalent 
policies that enable abuse and violence victims in some cases to seek 
temporary or indefinite waivers from some or all TANF requirements. 
However, five states have no FVO policies.
    The Solution: Amend the Family Violence Option, requiring states to 
certify that they have established standards and procedures to ensure 
that trained caseworkers will screen individuals for domestic or sexual 
violence, and extend the federal definition of work to include 
participation in counseling or other activities designed to address 
domestic or sexual violence.
LA BILL TO ENSURE THAT ALL STATES ADDRESS DOMESTIC AND SEXUAL VIOLENCE 
        IN THEIR TEMPORARY ASSISTANCE TO NEEDY FAMILIES PROGRAM.
    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,
SECTION 1. SHORT TITLE.
    This Act may be cited as the ``SAFETY AND SELF-SUFFICIENCY Act of 
2001''.
SECTION 2. ADDRESSING DOMESTIC AND SEXUAL VIOLENCE IN TANF PROGRAM
    Section 402(a)(7) of the Social Security Act (42 U.S.C. 602(a)(7)) 
is amended--
    (1) by striking the heading and subparagraphs (A) and (B) and 
inserting the following----
    ``(7) CERTIFICATIONS REGARDING DOMESTIC AND SEXUAL VIOLENCE----
        ``(A) GENERAL PROVISIONS--A certification by the chief 
        executive officer of the State that the State has established 
        and is enforcing standards and procedures to ensure domestic 
        and sexual violence is comprehensively addressed, and a written 
        document outlining how the State will do the following:

        L``(i) Address the needs of a recipient who is or has been 
        subjected to domestic or sexual violence, including how the 
        State will--
        L``(I) have trained caseworkers screen, and, at the option of 
        the recipient, assess and identify individuals who are or have 
        been subjected to domestic or sexual violence;
        L``(II) provide each recipient of assistance with adequate 
        notice of eligibility and program requirements, confidentiality 
        provisions, assessment and program services, and modifications 
        and waivers available to such individuals as well as the 
        process to access such services, modifications, or waivers;
        L(III) refer such individuals for appropriate counseling and 
        other supportive services, modify or waive eligibility or 
        program requirements or prohibitions to address domestic 
        violence and sexual assault barriers, and ensure such 
        individual's access to job training, vocational rehabilitation, 
        and other employment-related services as appropriate;
        L``(IV) restrict the disclosure of any identifying information 
        obtained through any process or procedure implemented pursuant 
        to this section absent the individual's written consent or 
        unless otherwise required to do so under law; and
        L``(V) pursuant to a determination of good cause, waive, 
        without time limit, any State or federal eligibility or program 
        requirement or prohibition for so long as necessary, in every 
        case in which an individual or family receiving assistance 
        under this part has been identified as having been subjected to 
        domestic or sexual violence and the requirement makes it more 
        difficult for the individual to address, escape or recover from 
        the violence, unfairly penalizes the individual, or makes the 
        individual or the individual's child(ren) unsafe.
        L``(ii) Coordinate or contract with state or tribal domestic 
        violence coalitions, sexual assault coalitions, or domestic or 
        sexual violence programs in the development and implementation 
        of standards, procedures, training, and programs required under 
        this Act. to address domestic and sexual violence.
        L``(iii) CASEWORKER TRAINING.--Train caseworkers in--
        L``(I) the nature and dynamics of domestic or sexual violence 
        and the ways in which they may act to obstruct the economic 
        security or safety of the individual and the individual's 
        children;
        L``(II) the standards, policies and procedures implemented 
        pursuant to this part, including the individual's rights and 
        protections, such as notice and confidentiality;
        L``(III) how to screen for and identify when domestic or sexual 
        violence creates barriers to compliance, and how to make 
        effective referrals for services and modify eligibility and 
        program requirements and prohibitions to address domestic and 
        sexual violence barriers; and
        L``(IV) the process for determining good cause for 
        noncompliance with an eligibility or program requirement or 
        prohibition and granting waivers of such requirements.
        L``(iv) USE OF QUALIFIED PROFESSIONALS.--At State option, enter 
        into contracts with or employ qualified domestic violence and 
        sexual violence professionals for the provision of services in 
        each of the fields of domestic or sexual violence.
        ``(B) DEFINITIONS.--
        L``(i) DOMESTIC OR SEXUAL VIOLENCE.--In this title, the term 
        `domestic or sexual violence' has the same meaning as `battered 
        or subject to extreme cruelty' in 402(A)(7)(C)(II).''
        L``(ii) QUALIFIED PROFESSIONAL DEFINED--For purposes of this 
        Act, the term `qualified professional' includes a State or 
        local victim services organization with recognized expertise in 
        the dynamics of domestic or sexual violence who has as one of 
        its primary purposes to provide services to victims of domestic 
        or sexual violence, such as a sexual assault crisis center or 
        domestic violence program, or an individual trained by such an 
        organization.
SECTION 3. ASESSMENT.
    (1) Section 408(b)(1) of the Social Security Act (42 U.S.C. 
608(b)(1) is amended by striking ``and'' and inserting after 
employability, ``and potential barriers, including domestic or sexual 
violence, mental or physical health, learning disability, substance 
abuse, English as a second language, or insufficient housing, 
transportation or child care''
    (1) Section 408(b)(2)(A) of the Social Security Act (42 U.S.C. 
608(b)(2)(A) is amended by striking ``and'' at the end of paragraph 
(iv) and the period at the end of paragraph (v), and inserting ``; 
and'' and inserting--
        L(vi) documents the individual's receipt of adequate notice of 
        program requirements, confidentiality provisions, assessment 
        and program services, and waivers available to individuals who 
        have or may have been subjected to domestic or sexual violence, 
        as well as the process to access such services or waivers; and
        L(vii) may not require the individual to participate in 
        services to address domestic or sexual violence.
SECTION 4. REVIEW AND CONCILIATION PROCESS.
    Section 408(a) (42 U.S.C. 608(a)) is amended by adding at the end 
the following:
    ``(12) REVIEW AND CONCILIATION PROCESS.--(A) In general--A State to 
which a grant is made under section 403 shall not impose a sanction or 
penalty against an individual under the State program funded under this 
part on the basis of noncompliance by an individual or family with a 
program requirement, where domestic or sexual violence is a significant 
contributing factor in the noncompliance; and
    (B) Prior to imposing a sanction or penalty, the State shall 
specifically consider whether the individual has been or is being 
subjected to domestic or sexual violence, and where such violence is 
identified, make a reasonable effort to modify or waive program 
requirements or prohibitions, and offer the individual referral to 
voluntary services to address the violence.
SECTION 5. STATE OPTION TO INCLUDE SURVIVORS IN WORK PARTICIPATION 
RATES--
    STATE OPTION TO INCLUDE SURVIVORS IN WORK PARTICIPATION RATES--
States may consider individuals receiving services or a waiver from 
program requirements under Section 402 (a)(7) as being engaged in work 
for the month for purposes of determining the monthly participation 
rates under subsection (b)(1(B)(i).
SEC. 6 EXCLUSION OF SURVIVORS OF DOMESTIC OR SEXUAL VIOLENCE FROM 20 
PERCENT LIMITATION ON HARDSHIP EXCEPTION--
    Section 408(a)(7)(C) (42 USC 608(a)(7)(C) is amended--
    (1) in clause (i), by striking `by reason of' and all that follows 
through the period and inserting `by reason of----
        (I) hardship; or
        L(II) if the family includes an individual who has been 
        subjected to domestic or sexual violence
    L(2) in clause (ii), by striking `clause (i)' and inserting `clause 
(i)(I)' and
    L(3) in clause (iii), by striking `clause (i)' and inserting 
`clause (i)(II).
SECTION 7. TECHNICAL ASSISTANCE.
    Section 413 of the Social Security Act (42 U.S.C. 613) is amended 
by adding at the end the following:
        ``(j) TECHNICAL ASSISTANCE.--
        L``(1) GRANTS AUTHORIZED--The Secretary of Health and Human 
        Services shall make an award to a national victim services 
        organization or organizations to identify and provide technical 
        assistance with respect to model standards and procedures, 
        practices and training designed to comprehensively address 
        domestic and sexual violence, including for individuals with 
        multiple barriers, and move individuals subjected to domestic 
        or sexual violence into employment without compromising their 
        safety or that of their child(ren).''
        L``(2) GRANTS TO STATES.--The Secretary of Health and Human 
        Services shall provide grants to states and localities to 
        contract with a State or tribal domestic violence coalition or 
        sexual assault coalition or joint domestic and sexual violence 
        coalition to--
        L(i) provide training to caseworkers and technical assistance 
        regarding screening, assessing, and providing services to 
        address domestic or sexual violence, modifying or waiving 
        eligibility or program requirements or prohibitions, and 
        assisting individuals subjected to domestic or sexual violence 
        to secure and retain employment; and
        L(ii) develop and implement demonstration projects to promote 
        best practices in serving individuals who have been subjected 
        to domestic or sexual violence, with priority given to programs 
        that contract with qualified professionals.
        L``(3) LIMITATIONS ON AUTHORIZATION OF APPROPRIATIONS.--To 
        carry out paragraph (1), there are authorized to be 
        appropriated to the Secretary $1,000,000 for Fiscal Year 2003, 
        to carry out paragraph (2) there are to be authorized and 
        appropriated not more than $10,000,000 for each fiscal year 
        2003-2007.
                               __________
                               APPENDIX D
CHILD CARE PROTECTIONS

    The Problem: Nearly all of the adults moving off welfare and into 
waged work are women with children. But women with children can only 
work if they have access to reliable and affordable childcare. Without 
it, their families' financial security and well-being are jeopardized. 
A report issued in 2000 by the U.S. Department of Health and Human 
Services, Administration for Children and Families, found that only 12% 
of eligible families are currently receiving federal childcare 
assistance.
    The Solution:
Sanction protection amendments:
    Amend Section 407(e)(2) as follows:
        L(1) By striking ``EXCEPTION'' and inserting ``CHILD CARE 
        EXCEPTION''; and
        L(2) By striking ``proves that the individual has a 
        demonstrated inability (as determined by the State)'' and 
        inserting ``certifies that the individual is unable''; and
        L(3) By adding at the end of paragraph (2) the following:
        La. ``(3) ADDITIONAL CHILD CARE EXCEPTIONS--Notwithstanding 
        paragraph (1), a State may not reduce or terminate assistance 
        under the State program funded under this part based on a 
        refusal of an individual to engage in work required in 
        accordance with this section if the individual is a custodial 
        parent or caretaker relative caring for--
        L(A) a child who has a disability or a serious health condition 
        (as defined in section 101(11) of the Family and Medical Leave 
        Act), and the individual does not have meaningful access to 
        safe, appropriate, affordable, and quality care for the child; 
        or
        L(B) a child who has attained 6 years of age and the individual 
        does not have meaningful access to safe, appropriate, 
        affordable quality after-school or summer care for the child.
Work Requirement Amendments for Parents of School Age Children:
    Section 407(c)(1)(A) should be amended by adding the following 
provision at the end of the section:
        L``Notwithstanding the preceding sentence, the maximum average 
        number of hours per week shall be 20 for any week in which the 
        recipient is the parent or caretaker relative of a child who 
        has attained 6 years of age and does not have meaningful access 
        to safe, appropriate, affordable quality after-school or summer 
        care for the child.''

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Davis, for your testimony. 
Now, Mr. Bilchik for your testimony.

   STATEMENT OF SHAY BILCHIK, PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, CHILD WELFARE LEAGUE OF AMERICA

    Mr. BILCHIK. Mr. Chairman, Mr. English, I am delighted to 
be here on behalf of the Child Welfare League of America 
testifying on this legislation. On behalf of our 1,175 public 
and private not-for-profit child-serving agencies across the 
country, I will start my testimony by saying that we are 
pleased that the legislation before you includes a modification 
to the overarching language to the purposes of the Act to 
include child well-being as one of the overall goals of TANF 
programs.
    H.R. 4090 requires the State to measure the goals and 
methodologies toward reaching the four purposes of TANF. The 
League supports adding a requirement to that, that the TANF 
State plans must also include the measures of child well-being.
    The League is not recommending a mandate, but would suggest 
a flexible process whereby States design and implement TANF 
programs that will measure themselves. This would assure that 
promoting child well-being would remain a strategy in the TANF 
policy and planning process. Some have framed this part of the 
TANF reauthorization debate as a choice between child well-
being and poverty reduction as a strategy. We do not see these 
two measures as competing, but rather as complementary. This is 
evidenced by the fact that more than 12 million children under 
age 18 continue to live in poverty in this country, despite the 
successes of welfare reform.
    Second, the League urges Congress to carefully consider 
changes to the existing TANF work requirements and how they 
will affect children. A parent who is working serves as a model 
for children in the behaviors that we wish to see as children 
grow. Behaviors such as hard work, self-reliance, and achieving 
goals can all benefit children. When that work has meaning, it 
promotes dignity, self-worth, and self-esteem for the parents.
    The TANF already includes definite work requirements and 
targets for parents and States. Congress must carefully 
consider how changes to these existing work rules will affect 
families. We hope Congress will not engage in a debate that 
ignores the needs of struggling parents who are trying to work 
to find quality child care and to be the best parents they can 
be. Additional work requirements could have the unintended 
result of becoming stresses and challenges to the families we 
are trying to serve. Congress should ensure that policies allow 
parents to spend time with their children. To meet their 
children's needs, we must ensure that families who may already 
be under stress and struggling to meet their own economic needs 
have time to also tend to the needs of their families.
    Third, the League recommends that the flexibility to serve 
families through TANF be maintained and not altered in ways 
that would restrict States' abilities to address the needs of 
children who are eligible for child-only grants. Nine percent 
of the total families on TANF are kinship child-only grants.
    The League also recommends the eligibility link between 
Title IV-E foster care and adoption assistance in AFDC be 
removed. This change will eliminate a costly administrative 
burden and will treat all children with special needs 
equitably. Current law requires States to look back to the AFDC 
rules that existed on July 16, 1996, to determine eligibility 
for Title IV-E foster care and adoption assistance.
    The League is pleased that Title IV of H.R. 4090 will make 
it easier for States to operate Title IV-E child welfare 
waivers; however, we are very concerned about the potential 
impact of the superwaiver authority proposed in Title VI. This 
new authority would allow federal agencies to waive countless 
program requirements with an automatic 90-day approval process. 
This authority could undercut important gains that this 
Subcommittee enacted in child welfare over recent years. This 
could open the door to block grants for child welfare and other 
important programs that provide needed assistance for 
vulnerable children. Further, this new authority cannot ensure 
that the protections in place under current law and regulations 
for vulnerable children would be maintained.
    Fourth, as a nation we must face the fact that our society 
has changed. Record levels of single parents with young 
children are in the workplace. Increasing numbers of two-parent 
families are discovering they need two incomes to make ends 
meet. We have an ever-growing need for child care with or 
without changes to TANF work requirements. Congress recognized 
this in 1996 when it said States must spend a substantial 
portion of the amounts available to provide child care to low-
income working families who are not working their way off 
welfare or are at risk of becoming welfare dependents. Congress 
made clear that child care was intended for more than just the 
goal of reducing cash assistance case loads. That same law also 
increased the number of families who were potentially eligible 
for child care by increasing the maximum income eligibility 
from 75 percent to 85 percent of a State's median income.
    Child care must address the needs of those on or leaving 
TANF as well as the broader population. All of this must be 
done while improving standards and quality of child care. To 
increase child care funding is important to make sure we meet 
the goals of TANF reform.
    We have three related items I will mention very briefly, 
Mr. Chairman. First, the fact that the social services block 
grant be increased back to $2.8 billion. I think there has been 
leadership on this Committee. The President has demonstrated 
leadership in seeing that the social services block grant is 
restored to that $2.8 billion. We must pay attention to the 
substance abuse problems facing these families, and last but 
not least, we must make sure that we pay attention to the 
impact on youth. Current research is demonstrating there may be 
a negative impact from the welfare reform on this population. 
Research needs to be done on this, and youth development 
opportunities need to be provided for these children in order 
to make sure that they succeed in their lives. Thank you, and I 
look forward to working with you on this legislation.
    [The prepared statement of Mr. Bilchik follows:]
Statement of Shay Bilchik, President and Chief Executive Officer, Child 
                       Welfare League of America
    Mr. Chairman and Members of the Subcommittee, I am Shay Bilchik, 
President and CEO of the Child Welfare League of America. I welcome 
this opportunity to testify in behalf of more than 1,175 public and 
private nonprofit child-serving agencies nationwide on the 
reauthorization of the Temporary Assistance for Needy Families program 
(TANF) and reauthorization of the mandatory funding levels in the Child 
Care and Development Fund (CCDF).
    TANF reauthorization this year presents the first real opportunity 
for Members of Congress, the Administration, and the nation to review 
and evaluate the significant decision made in 1996 to replace the Aid 
to Families with Dependent Children's program (AFDC). We have an 
opportunity to evaluate what has worked and to make changes that, 
hopefully, will improve the lives of millions of low-income children 
and their families.
Child Well-Being
    CWLA represents both public and private nonprofit agencies that 
serve children, youth, and families every day. Advancing child well-
being is at the core of our agencies' missions. CWLA is pleased the 
Administration has offered as one of its main themes the need for TANF 
to focus on ways to promote child well-being. We look forward to 
working with this Subcommittee and other Members of Congress in 
crafting legislation that will improve the lives of our most vulnerable 
children.
    CWLA agrees with the Administration's proposal to tie child well-
being to the purposes of the TANF statute. Including this phrasing in 
the purposes section of the law is one step to better provide a link 
between TANF and the children who make up most of the TANF case load. 
CWLA also supports the Administration's suggestion that TANF state 
plans should include measures of child well-being so that states design 
and implement TANF programs that will measure themselves against how 
they affect children.
    Poverty is an overarching indicator of child well-being and should 
be addressed in TANF reauthorization. Although some have framed this 
part of the TANF reauthorization debate as a choice between child well-
being and poverty reduction as a strategy, CWLA does not see these two 
measures as competing, but rather as complementing each other. With 
poverty as an overarching indicator of child well-being, the challenge 
will be to develop strategies that address the needs of these children.
    CWLA encourages states to develop child well-being outcome 
measures. Each state should also move toward the goal of adopting some 
standardized indicators for child well-being based on indicators that 
researchers have found to be associated with positive outcomes for 
children. CWLA's monograph, Making Children a National Priority: A 
Framework for Community Action, presents indicators of child well-being 
in terms of five fundamental needs: fulfilling basic needs, ensuring 
nurturing relationships, protecting children from harm, easing the 
impact of harm, and promoting optimal development.
    Child Trends, a nonprofit, nonpartisan research organization, 
recently drafted a comprehensive list of indictors that significantly 
overlaps CWLA's recommendations. These include a range of options in 
six areas: education, socioemotional development, health and safety, 
attitudes, family well-being, and poverty. Within each of these areas 
are more specific measures. For example, socioemotional development 
measures include indicators on adolescent mental health, behavioral 
problems, teen child-bearing, and afterschool activities. Family well-
being includes a range of concerns and measures, such as parent 
monitoring and supervision, work efforts among adolescents, parent-
child relationships, connectedness and activities, and housing adequacy 
and homelessness.
    CWLA recommends this Subcommittee consider the existing research as 
a way to improve understanding of how states might better measure their 
TANF policies and their positive and negative effects on children and 
families. We would be pleased to further contribute to this discussion 
as this legislation is drafted, debated, and enacted, and as 
regulations are shaped.
    States will also need federal leadership as they develop their own 
sets of child well-being indicators. Any new outcome measures should be 
coordinated with ongoing federal efforts to develop child well-being 
outcomes. The Adoption and Safe Families Act requires the U.S. 
Department of Health and Human Services (HHS) to develop measures for 
outcomes on safety, permanency, and well-being, by which all state 
child welfare agencies' performance is reported to Congress annually.
    Reports were published in 2000 and 2001, but, to date, only 
measures in safety and permanency have been implemented, with measures 
in well-being still in development. This is due, partly, to the 
complexities of measuring well-being and partly due to lack of 
comprehensive, comparable data being collected. Another federal effort 
under way is the development of measures to determine the well-being of 
youth leaving the foster care system, mandated by the Chafee Foster 
Care Independence Act.
Work Requirements
    CWLA urges Congress to carefully consider changes to the existing 
TANF work requirements and how they will affect children. One of the 
important messages of the 1996 law was the emphasis on work. The value 
of a job is important because it provides obvious financial benefits to 
children. A parent who is working serves as a model for children and 
the behaviors that we wish to see as children grow. Behaviors such as 
hard work, self-reliance, and achieving goals can all benefit children. 
When that work has meaning, it promotes dignity, self-worth, and self-
esteem for the parent.
    A quality job that allows a parent to advance in skills and income 
is important to families and children. A good job strengthens 
opportunities for parents that can benefit children. TANF already 
includes definite work requirements and targets for parents and states. 
Congress must carefully consider how changes to these existing work 
rules will affect families. We hope Congress will not engage in a 
debate that ignores the needs of struggling parents who are trying to 
work, to find quality child care, and to be the best parents they can 
be.
    Additional work requirements could have the unintended result of 
becoming stressors and challenges to families. We must consider the 
amount of time it takes to get to work. We must ensure that policies 
allow parents to spend time with their children--to meet some of their 
children's needs, such as affection, by which children develop self-
esteem, and support so children can develop new skills and 
capabilities. We must ensure that families who may already be under 
stress and struggling to meet their own economic needs have time to 
tend to routine care and family needs and time for family emergencies.
    There are ways to strengthen the current work requirements, such as 
replacing the case load reduction credit with a credit that encourages 
states to place adults into jobs with substantial wages. CWLA urges 
Congress to reject strategies that will force states to meet a 
numerical goal of 40 hours of work, creating a system focused only on 
reaching numbers and not on moving families forward. We cannot ignore 
the reality that many of these parents spend several hours each week 
traveling to and from jobs, to and from child care providers, and to 
and from school.
    Some proposals Congress may consider may include a flexible 
definition of activities and work. Additional work requirements may 
appear simple and flexible at the federal level, but when implemented 
locally, they may become more stringent. New federal work requirements 
may force states to design policies with a very specific number of work 
activities. States may try to avoid federal penalties rather than focus 
on progress for families. Consistent with a work policy that helps 
parents move into permanent, productive jobs, CWLA urges the 
Subcommittee to consider ways that work requirements can address 
barriers to self-sufficiency. We address this more fully in our 
comments on barriers and screening.
TANF and Child Welfare
    There is a long historical link between Title IV-A of the Social 
Security Act and the child welfare system. The links that existed under 
AFDC continue under TANF, including funding, the families and children 
served, and the way the two programs are administered. A significant 
percentage of families in the child welfare system receive cash 
assistance and services funded by TANF. TANF funds also provide needed 
supports to prevent children from coming in contact with the child 
welfare system in the first place.
Child Only Cases

    CWLA recommends that the flexibility to serve families through TANF 
be maintained and not altered in ways that would restrict states' 
abilities to address the needs of children who are eligible for child-
only grants.
    Child-only cases under TANF, and under AFDC, have always 
represented a significant percentage of the overall cash assistance 
case load. In 1999, child-only families represented 29% of the total 
number of families receiving TANF. This does not mean, however, that 
none of these families had a parent in the household, or that all of 
them were kinship care families. In fact, most of the child-only case 
load includes a parent. Parents may be ineligible for TANF because of 
their legal alien status, because of their disability status under 
TANF, or because they receive Supplemental Security Income. In 1999, of 
the child-only case load, 30% were children in families where the head 
of the household was related but not the parent. These child-only 
kinship families represented approximately 9% of the total families on 
TANF.
    Kinship care allows relatives to care for their family members' 
children within the context of the family. This form of family care 
strengthens the family system and enables children to remain within the 
family if separation from their biological parents is necessary. 
Kinship caregivers are being responsible family members and responsible 
members of society. Receiving TANF child-only stipends helps kinship 
caregivers meet some of the essential needs of the children for whom 
they have taken full responsibility. The caregivers that care for their 
family members' children are usually living on fixed incomes. Many live 
in poverty, and they are not prepared financially to provide these 
children with basic essential items. They have chosen to keep their 
children within the family, however.
    The child-only stipend provides some limited financial help with 
the daily expenses incurred in raising a child, but it is insufficient 
to cover the costs of raising a child. Child-only stipends vary 
considerably in different parts of the country. CWLA encourages states 
to increase the amount of monthly stipends for children living with 
kin.
Title IV-E Foster Care and Adoption Assistance

    The 1996 TANF law repealed the eligibility standards for AFDC. 
TANF, however, requires states to look back to the AFDC rules that 
existed on July 16, 1996, to determine eligibility for Title IV-E 
Foster Care and Adoption Assistance. CWLA recommends the eligibility 
link between Title IV-E foster care and adoption assistance and AFDC be 
removed. This change will eliminate a costly administrative burden and 
will treat all children with special needs equitably.
Child Care
    With or without increased work requirements, as a nation we must 
face the fact that our society has changed. Record levels of single 
parents with young children are in the workplace. Increasing numbers of 
two-parent families are discovering they need two incomes to make ends 
meet. As a result, we have an ever-growing need for child care.
    CWLA applauds President Bush's recent statements acknowledging the 
link between the quality of care and whether children enter school 
ready to learn. To change the current system of care into a quality 
system that is both a critical support for parents who work outside the 
home and an educational and child well-being tool for the children who 
attend that care, we need significant investments at the federal, 
state, and local levels.
    It is true that the decade of the 1990s represented a historic 
increase in child care funding. It is also true that those increases 
came at the very same time as we experienced record workforce 
participation by parents with school-age and preschool children. In the 
1990s, we also began to recognize the importance of early brain 
development and its impact on our national goals for education and 
child well-being.
    Despite this increase in federal child care dollars, funding for 
the Child Care and Development Fund (CCDF) is inadequate. HHS indicates 
that approximately one in seven eligible children receive care. Many 
families have been placed on long waiting lists to get the financial 
support they need and for which they are eligible. And waiting lists do 
not tell the full story, since many lists may be limited in some way, 
and in some instances lists are not kept because the need is so great. 
Existing resources simply are not enough to reach all those in need.
    In addition, states do not have adequate resources to ensure that 
child care services provided are of high quality. Many families who do 
receive child care support are forced to choose lower quality programs 
because states don't have the funds to reimburse programs at a level 
necessary to ensure quality.
    CWLA is disappointed with recommendations by the Administration and 
others who argue that no new resources are needed for child care and 
that current funding will address current or future work requirements 
in TANF. We should continue to recognize that our child care system is 
not designed merely to provide the minimal form of care for those who 
are on or who are leaving TANF.
    In the conference report that accompanied the 1996 reauthorization 
legislation (Report 104-725), Congress made clear its intent: ``States 
must spend a substantial portion of the amounts available to provide 
child care to low-income working families who are not working their way 
off welfare or at risk of becoming welfare dependents.'' Congress made 
clear that child care was intended for more than just the goal of 
reducing cash assistance case loads. That same law also increased the 
number of families who are potentially eligible for child care by 
increasing the maximum income eligibility from 75% to 85% of a state's 
median income.
    Child care must address the needs of those on or leaving TANF, as 
well as a broader population. All this must be done while improving 
standards and quality of that care. To accomplish these goals, CCDF 
funding must be increased substantially. CWLA recommends no less than a 
$11 billion increase in mandatory funds, as included in at least two 
legislative proposals before Congress. If work requirements are altered 
significantly, then this total will have to be increased even more.
Social Services Block Grant
    The Social Services Block Grant (SSBG) has long been a source of 
funding for child care. Recent state reports indicate, however, that 
the most prominent use of SSBG funds are for child welfare services. 
SSBG also funds a number of other human services, including services 
for the aging and people with disabilities. Many of these services are 
provided by community and faith-based organizations. While states 
continue to use SSBG funds for child care, the reduction in SSBG 
funding since 1996 has eroded the block grant to such an extent that 
many human services, including child care, are in competition for these 
funds. Clearly, SSBG does not sufficiently meet the great need for 
additional child care resources. CWLA urges Congress to restore SSBG 
funding in FY 2003 and beyond to $2.8 billion, the level agreed to in 
the 1996 TANF law. In doing so, this would allow other critical human 
service needs to be met.
TANF and Barriers to Employment: Substance Abuse
    Families receiving TANF assistance face a number of barriers. As a 
result, some TANF recipients are unable to move from welfare to 
personal responsibility and work. These barriers may include substance 
abuse, mental illness, domestic violence, and disabilities. For those 
families who come to the attention of the child welfare system--a good 
portion of them TANF recipients--alcohol and other drug (AOD) use is a 
major contributing factor for remaining unemployed for long periods of 
time.
    Estimates of the prevalence of substance abuse among TANF 
recipients range from 16% to 37%. In a survey of CWLA member agencies, 
caseworkers reported that up to 80% of the families that come to the 
attention of the child welfare system have a substance abuse problem. 
HHS estimated in August 2000 that at least 460,000 families on 
welfare--about 1.2 million parents and children--were affected by 
substance abuse. Several studies have suggested a high prevalence of 
substance abuse among women receiving TANF, with rates as high as 27% 
to 39%. Whatever the prevalence of the problem, TANF caseworkers, in 
particular, see substance abuse as perhaps the most inflexible of the 
barriers facing people who are trying to make the transition from 
welfare to permanent employment.
    In keeping with the philosophy of removing obstacles to work to 
achieve the overall goals of personal responsibility and self-
sufficiency, CWLA supports changes and improvements in screening and 
assessment, sanctions, and work requirements for those needing 
substance abuse treatment and applying for TANF benefits.
Family Screening and Assessment

    The purpose of family assessment is to learn about and engage a 
family in identifying their needs, strengths, and current resources. 
Family screening and assessment is a key ingredient in our efforts to 
assist families in achieving self-sufficiency. It is also a vital tool 
for helping families improve their parenting abilities and to ensure 
child safety and well-being. Families seeking cash assistance often 
face many other stressors in their lives that can become barriers to 
completing TANF successfully and that can jeopardize child safety and 
well-being. These include the need for adequate housing and 
transportation, substance abuse and behavioral health treatment, and 
assistance with domestic violence.
    Many jurisdictions have initiated screening and assessment for 
families. Some conduct an assessment with all new families requesting 
assistance. A personal responsibility plan is developed, based on the 
assessment findings. The plan sets forth the services the family will 
receive to address barriers, and includes recommendations from 
substance abuse or behavioral health assessments. Assessments may be 
conducted ``mid-course'' to determine client progress and make any 
necessary corrections to the service plan. Finally, some jurisdictions 
require a full assessment with the family prior to imposing sanctions.
    These steps can prevent problems for families down the road--both 
the failure to meet work requirements and the increased risk of child 
abuse or neglect. For those families already involved with the child 
welfare system, joint TANF-child welfare assessments provide the 
opportunity to implement a coordinated service and work plan with the 
family. This reduces the likelihood that the family will experience 
``competing'' or disjointed demands by different parts of the system 
and provides the family with a single plan for accomplishing both their 
work and family goals.
    CWLA recommends that all families seeking TANF assistance should 
participate in an initial screening by a trained caseworker to identify 
and screen for barriers to work, such as substance abuse. This initial 
screening should identify potential barriers that might interfere with 
the family's ability to work requisite hours and otherwise comply with 
program requirements. If the screening identifies potential barriers 
for the parents or safety risks for the children, the caseworker should 
conduct a full family assessment and, where necessary, refer the family 
member for a professional evaluation to assess substance abuse, 
behavioral health, or other concerns beyond the worker's expertise.
    We also believe that TANF workers should be trained to screen for 
barriers to work, including substance abuse, physical and behavioral 
health, and domestic violence, and for risks to child safety. Workers 
should also receive training in family assessment, enabling them to 
assess the needs, strengths, and resources of families as a tool for 
developing a plan that will lead to successful work and promote a safe 
environment for the children. Finally, for families already involved 
with the child welfare system, workers should be encouraged to conduct 
joint assessments and planning with child welfare so that both systems 
support families in their efforts to succeed in the workplace and as 
parents.
Substance Abuse and Sanctions

    Families in need of services such as substance abuse treatment must 
receive the assistance they need to overcome barriers to employment. 
CWLA recommends that states conduct a presanction review before 
sanctioning parents who are considered noncompliant. Parents should not 
be subjected to sanctions and case closures because of the state's 
limited substance abuse treatment capacity. If substance abuse 
treatment services, as specified in the individual responsibility plan, 
are not available to the parent, states should refrain from sanctions 
or case closures.
Substance Abuse and Work Requirements

    We must view substance abuse treatment as both work and job 
preparation. Comprehensive, family-focused treatment programs, either 
residential or outpatient, require that parents engage in intensive 
therapy sessions, group counseling, parenting classes, and education or 
job training services. A 1998 Legal Action Center study, entitled 
Helping Women with Alcohol and Drug Problems Move from welfare-to-work, 
looked at 20 women's treatment programs and found that 60% included 
work and vocational training as part of treatment, whereas 75% required 
work and vocational training during the substance abuse treatment 
process.
    The Americans with Disabilities Act (ADA), Section 504 of the 
Rehabilitation Act [42 USCA Sec.12210(b)(1)], and state laws require 
welfare programs to provide meaningful access and accommodation to 
people with disabilities. ADA covers parents in drug treatment 
programs. Reasonable accommodation and individualized assessment are 
key entitlements accorded to persons covered by ADA. Substance abuse 
treatment as a work activity can constitute reasonable accommodation 
for parents. CWLA asks the Subcommittee to consider providing substance 
abuse treatment as a work activity as a reasonable accommodation for 
parents. Successful transition from treatment to work is necessary to 
ensure that states provide reasonable accommodation for persons in 
treatment.
Improving Access to Comprehensive Treatment for Families

    With the reauthorization of TANF, Congress is taking a long, hard 
look at the characteristics shared by those who remain on the TANF 
rolls. The hardest-to-serve will be those who have been unable to gain 
employment. Clearly, behavioral changes will be critical to move those 
who have not been able to find and keep jobs because of existing 
barriers, particularly those confronting substance abuse.
    CWLA is encouraged by the Administration's provision to give work 
credit to families engaged in short-term substance abuse treatment. 
Although we feel that three months is not nearly long enough to 
effectively address a substance abuse problem, the recognition of 
treatment as a work activity is extremely important. We would encourage 
reasonable accommodation given to treatment as a work activity to take 
into account the parent's particular circumstances and needs as part of 
the individual responsibility plan. Aside from the needed improvements 
of screening and assessment, sanctions, and work requirements, 
substance abuse treatment services must be available for this to work. 
If treatment capacity is not accessible for those individuals most in 
need, family assessment and reasonable accommodation will not be 
successful. The Center for Substance Abuse Treatment has found that 
when treatment is available, parents are more likely to be employed and 
moving toward self-sufficiency.
    We have a real opportunity with the reauthorization of TANF to 
change behavior--a goal in both welfare reform and treatment for 
substance abuse.
TANF and Adolescents

    TANF has resulted in unanticipated negative consequences for teens. 
New research indicates an already high risk group of adolescents face 
added difficulties due to these welfare reforms. According to a study 
by the Manpower Demonstration Research Corporation, which looked at 
data from 16 programs involving almost 15,000 children and adolescents, 
teens have more problems than do younger children when their mothers 
participate in welfare-to-work programs.
    The studies indicate that school achievement is negatively affected 
for adolescents, they repeat a grade more often, and they use more 
special education services. The research suggests that reduced 
supervision and monitoring when maternal employment increases and 
adolescents take on adult roles, such as caring for siblings or paid 
work (more than 20 hours per week), affect youth negatively.
    Congress should consider these new findings. Work requirements that 
keep parents away from their children longer, especially without 
adequate child care supports, should be examined. Forcing older 
siblings into a caretaker role, is no substitute for needed child care 
and opportunities for positive youth development.
    According to an analysis of Child Trends' research, other negative 
effects include increases in delinquency, arrests, involvement with 
police, smoking, drinking, and drug use. These negative impacts on 
youth should be addressed. New resources should be made available to 
promote the positive and healthy development of young people. Youth 
fare better when they have access to ongoing relationships with caring 
adults, safe places with structured activities during nonschool hours, 
access to services that promote healthy lifestyles, marketable skills 
and competencies through education and youth development, and 
opportunities for community service and civic participation.
    Proven effective youth development strategies should be employed, 
such as character development and ethical enrichment activities; 
mentoring activities, including one-to-one relationship building and 
tutoring; community youth centers and clubs; nonschool hours, weekend, 
and summer programs; sports, recreation, and other activities promoting 
physical fitness and teamwork; and services that promote health and 
healthy development and behavior on the part of youth, including risk 
avoidance programs.
    Reauthorization of TANF provides an opportunity to ensure that 
youth have access to the services and strategies necessary to support 
their positive and healthy development. In so doing, we can counteract 
the unintended negative consequences of TANF for this vulnerable 
population.
    TANF reauthorization also allows us to examine the abstinence 
education program enacted at the same time as the TANF law in 1996. In 
FY 2002, Section 510 of the Title V Maternal and Child Health Block 
Grant was funded at $40 million for abstinence education. If this 
program is considered part of the TANF reauthorization, CWLA encourages 
the Subcommittee to consider enhancing state flexibility so states may 
use abstinence education funds in ways that best meet the needs of 
adolescents in those states. In addition, we encourage language to 
provide that scientifically and medically accurate information be 
taught in all abstinence education programs.
Conclusion
    The reauthorization of TANF and the Child Care and Development Fund 
may be the best opportunity Congress will have this year to improve the 
lives of low-income children and families. Decisions made at the 
federal level will shape state and local policies, affecting millions 
of children and families in the years to come. Now is the time for 
Congress to provide the resources, flexibility, and direction needed to 
assist adults receiving TANF with the tools they need to move from 
poverty to self-sufficiency and to better help their children. CWLA 
looks forward to working with members of this Subcommittee, Congress, 
and the Administration as TANF reauthorization proposals are considered 
this year.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Bilchik. Now, Ms. 
Meiklejohn.

     STATEMENT OF LEE SAUNDERS, EXECUTIVE ASSISTANT TO THE 
PRESIDENT, AMERICAN FEDERATION OF STATE, COUNTY, AND MUNICIPAL 
   EMPLOYEES, AS PRESENTED BY NANINE MEIKLEJOHN, LEGISLATIVE 
                         REPRESENTATIVE

    Ms. MEIKLEJOHN. Thank you, Mr. Chairman. My name is Nanine 
Meiklejohn, and I am a Legislative Representative at the 
American Federation of State, County and Municipal Employees 
(AFSCME). I appreciate your allowing me to fill in for Mr. 
Saunders, and we appreciate being here.
    I want to use my time to stress AFSCME's strong opposition 
to the waiver provisions and work requirements in H.R. 4090. 
Congress just recently created waiver authority for the U.S. 
Department of Labor job training programs as part of the 
Workforce Investment Act. The new waiver authority is therefore 
unnecessary and, we believe, harmful.
    Under it, for example, States could privatize unemployment 
insurance operations. Our testimony describes the 
accountability problems that have arisen in privatized TANF 
operations in Wisconsin and Florida. These problems and more 
would develop in privatized unemployment operations. Eventually 
we could see a private company move unemployment insurance 
telephone centers overseas, and this is no alarmist fear. The E 
Funds Corp., which manages TANF and food stamp electronic 
benefit cards for 19 States, recently moved its telephone call 
center from Wisconsin to Bombay. With the waivers, States also 
could shift federal job training funds away from dislocated 
workers to TANF recipients, waive nondisplacement and worker 
protections in Workforce Investment Act, and put TANF 
participants in work at sub-minimum wages.
    It is disappointing that the President's proposal has 
resurrected the 1996 ideological dispute over who is toughest 
on work instead of inviting us to work together on a sensible 
and reasonable strategy.
    The work participation rules are an extreme policy change. 
Although Secretary Thompson has stated that the administration 
would adhere to minimum wage rules, H.R. 4090 does not 
accommodate States where benefits are so low that recipients 
working 24 hours would work at sub-minimum wages. Thus H.R. 
4090 appears to allow sub-minimum wage work. The TANF must be 
amended to make it clear that the Fair Labor Standards Act, 
civil rights laws, and other workplace protection laws apply to 
all TANF work activities and cannot be waived under any 
circumstances.
    Even with that change, however, the work participation 
requirements are unrealistic and too rigid. They refocus the 
entire system on large-scale workfare systems. Some have called 
the work requirements ``doing New York City all over the 
country.'' In fact, even New York's workfare program hasn't 
come anywhere close to meeting these work participation rates.
    What is especially troubling is that New York's Work 
Experience Program (WEP), has been a failure, and the city is 
turning away from it. The WEP created a large subclass of 
unpaid workers who perform regular municipal functions, but who 
earn a welfare check instead of a paycheck. The city has hired 
very few WEP workers, even though some have been in their 
positions for years. Thousands of city jobs have been lost. The 
AFSCME's affiliate, District Council 37, filed five separate 
lawsuits alleging displacement violations in 1999 under the 
State law. Around the same time, a decline in workfare slots 
began, going from 35,000 in December 1999 to 16,000 last 
November. We see this decline as a tacit admission by the city 
that our charges have merit.
    A federal mandate to return to large-scale workfare would 
put intolerable pressure on TANF offices and welfare recipients 
in New York City and elsewhere as well. Our members in TANF 
offices already face difficult challenges. They work many 
overtime hours, struggling without adequate training or 
technology to serve too many families. They often face hostile 
and desperate people. Under H.R. 4090, they would have to do 
much more intensive and intrusive tracking, more record 
keeping, meet a new 60-day time limit to perform a thoughtful 
client assessment, and continue working with recipients 
reaching their time limits. They would be under considerable 
pressure to make the numbers add up so their State avoids 
financial penalties. With their job performance riding on how 
well they do that, they will feel pressure to sanction more 
people.
    The resulting increased tensions will lead to more abuse 
and threats of violence in the workplace. Instead of these 
unrealistic and inflexible numerical goals, AFSCME supports 
expanding on the flexibility currently in TANF to provide a 
broad array of education, training, and support services to 
address the individual needs of families on welfare. Thank you.
    [The prepared statement of Mr. Saunders follows:]
   Statement of Lee Saunders, Executive Assistant to the President, 
      American Federation of State, County and Municipal Employee
    Mr. Chairman, my name is Lee Saunders. I am Executive Assistant to 
the President of the American Federation of State, County, and 
Municipal Employees (AFSCME), and, for three and a half years, I also 
served as Administrator of AFSCME District Council 37 in New York City.
    AFSCME represents over 1.3 million employees of federal, state and 
local governments, local non-profit organizations, and health care 
facilities. Nationwide, we represent several hundred thousand TANF and 
other social service workers. In New York City, we represent 125,000 
employees, including approximately 25,000 social service employees.
    In my testimony, I want to address three issues of importance to 
AFSCME: proposals to change the work participation requirements; the 
need to upgrade the quality of services in TANF offices; and 
accountability under TANF and the proposed super waiver.
    Earlier this year, before President Bush submitted his 
recommendations for reauthorizing TANF, we had hoped to have a very 
different debate. We had hoped Congress would consider how to build on 
the experiences of states, TANF workers and clients and take the next 
step toward helping poor families leave welfare for long-term 
employment at living wages. We wanted to:

        <bullet> focus the program on reducing poverty instead of case 
        loads,
        <bullet> increase flexibility to provide education and 
        training and to address the multiple barriers that keep many 
        recipients from holding down a steady job,
        <bullet> increase funds for childcare and the TANF block grant 
        so that states can provide a better system of work supports and 
        services,
        <bullet> amend TANF to strengthen the nondisplacement 
        protections and to add a transitional jobs program as an 
        alternative to work experience programs,
        <bullet> add a new grant program to upgrade the skills of TANF 
        employees and the effectiveness of TANF offices in meeting the 
        individual needs of TANF recipients,
        <bullet> Restore benefits to legal immigrants who pay the same 
        taxes as everyone else and who work in some of the hardest jobs 
        in our society, and
        <bullet> Suspend the TANF lifetime limits when individuals are 
        working but still receiving supplemental assistance from TANF 
        or when a jurisdiction experiences the disappearance of large 
        numbers of jobs, especially low skilled jobs, such as occurred 
        in New York City after September 11.

    Unfortunately, the President's work participation proposal has 
thrown the current debate backward to 1996. It ignores the dramatic 
number of individuals who have left welfare for employment. It seeks to 
resurrect an ideological fight that might score political points over 
who is ``tough on work'' but does not challenge us to work together on 
a sensible and reasonable strategy for helping states help poor 
families move into the mainstream.
            Work Requirements

    At the heart of the President's TANF recommendations is a 
requirement for ``universal engagement'' in which states would have to 
enroll 70 percent of their adult case load in ``constructive 
activities'' averaging 40 hours per week. Of the 40 hours, a minimum of 
24 hours must be in employment or other work activities, which may no 
longer include job search or vocational education to the extent they 
are currently allowed.
    These participation rules represent an extreme policy change. In 
their original presentation, they even relied on subminimum wage work 
in order to reach 24 hours of work in low benefit states. In addition, 
the White House fact sheet stated ``these [TANF] payments do not 
entitle an individual to a salary or to benefits provided under any 
other provision of law.''
    While we were pleased that Secretary Thompson affirmed that the 
Administration would adhere to a minimum wage policy, he did not 
address the status of the other workplace protection laws or the other 
provisions of the Fair Labor Standards Act. Furthermore, the courts 
have gone both ways on the question of workplace protections in various 
cases involving the treatment of individuals in New York City's Work 
Experience Program (WEP). Therefore, if Congress continues work 
experience, as we expect it will, we believe that TANF must be amended 
to codify the heart of the Department of Labor guidance regarding the 
applicability of workplace protections laws.
    Even with such a modification, however, the work participation 
percentages and design are unrealistic, unreasonable, and too 
inflexible. They refocus the program on large-scale workfare systems 
and away from developing educational and job skills. They set too high 
a bar for states, local governments and individuals. They will hurt 
poor families by increasing sanctions, and they will hurt workers by 
displacing jobs and depressing wages and benefits in the low wage labor 
market.
    Some have referred to the President's plan as ``doing New York City 
all over the country.'' In fact, however, even New York City, at the 
height of its workfare program, would not have come close to meeting 
these work participation requirements. We estimate that in order to 
comply with the 70 percent work participation rule today, the City 
would have to make sure 126,000 people were working. As of last 
November, only 47,192--or 26 percent--of the adult case load were in 
work activities. Even if the workfare program were running at its peak 
level of around 36,000 in 1999, the City would have only 37 percent or 
66,367 people in work activities that would meet the Administration's 
test.
    The gap between the idea of requiring 70 percent of the case load 
to work 24 or 20 hours per week and the reality of implementing it is 
further demonstrated by Los Angeles County. We estimate that the County 
would have to ensure that 91,670 adults were working a minimum of 24 
hours per week. To put this in perspective, the County itself employs 
94,211 employees (and only 75,166 county, if police, firefighters, 
corrections, and teachers are excluded). While not all of the necessary 
work slots would be created in the county government, the operational 
challenge and cost would be overwhelming since low skilled work slots 
would have to be developed and managed in the public, non-profit and 
private sectors.
    Clearly, then, this approach would force states to redirect 
substantial TANF resources into creating and supervising hundreds of 
thousands of work slots. States would have to abandon the many flexible 
strategies that they have used to blend work, education, training and 
job search to tailor programs to meet the individual needs of welfare 
recipients. Even then they would face a high probability of failure 
unless they reduced their case loads through sanctions in order to make 
it easier to meet the rigid work test.
    What makes this approach even more troubling is that New York 
City's WEP program is not a model that should be replicated. It has 
been a failure on many levels, and, indeed, the City is turning away 
from it.
    The WEP program created a large subclass of unpaid ``workers'' who 
perform regular municipal functions, sometimes supervisory in nature, 
but who earn a welfare check instead of a paycheck and who have no 
employment benefits. These individuals have been assigned largely to 
three classes of work: office services, maintenance services, and 
human/community services. Some of them have been in their positions for 
years. And yet, the number that transition to regular city jobs has 
been abysmally low:

 
------------------------------------------------------------------------
                  Year                          Transition Number
------------------------------------------------------------------------
1997                                     117
1998                                     211
1999                                     234
2000                                     79
2001                                     62
------------------------------------------------------------------------

    In addition to failing to provide a path to jobs with living wages, 
the WEP program has resulted in the elimination of thousands of city 
jobs. Unfortunately, New York law prohibits us from sharing with you 
the specific WEP assignments by department that we receive from the 
City and comparing them with comparable city jobs to demonstrate our 
case to you. However, we can provide information already in the public 
domain and directly observed by AFSCME staff.
    Between December 1993 and November 1998, the number of civilian 
employees declined by about 15,000 in civilian agencies, and most of 
the lost jobs were entry-level positions. We estimate that the WEP 
program directly caused the loss of 800 jobs in the Parks Department 
and 1,600 in the Human Resources Department.
    AFSCME's affiliate, District Council 37, filed five separate 
lawsuits alleging displacement violations under the New York State 
social services law, which was amended to provide for substantially 
stronger non-displacement protections than the weak provisions in the 
federal law. Among other things, these lawsuits documented an 85 
percent staff reduction from 136 to 24 custodial assistants in the 
City's welfare offices while hundreds of WEP workers were assigned to 
clean the offices. Another City agency lost 274 custodian positions out 
of a total of 389 positions over a six-year period. In Orchard Beach 
Park, there were over 60 employees in 1996, yet by the summer of 1999 
only about 12-13 city workers were left. Even so, there were still over 
60 people working in the Park. The rest were WEP workers.
    We do not think it is mere coincidence that the decline in workfare 
slots from 35,559 in December 1999 to 16,384 last November began around 
the same time AFSCME District Council 37 filed its lawsuits. We see the 
City's actions as a tacit admission that our charges have merit. 
Indeed, the City tried and failed to have the cases dismissed. 
Currently, only about 5,000 of the WEP positions are in mayoral 
agencies.
    As the WEP program began to decline, AFSCME District Council 37 
worked closely with low income advocates to convince the City Council 
to adopt a transition jobs program as an alternative to the WEP 
program. Although the City Council approved one, the Giuliani 
Administration refused to implement it.
    One program was instituted, however, that combined work in the 
City's parks with training. While the training component of the ``Job 
Opportunity Program'' needs to be strengthened, the program assigned 
3,000 welfare recipients to positions in union-represented jobs with 
union wages and benefits for a temporary period of time. Unfortunately, 
in the last days of the Giuliani Administration, the City contracted 
with a temporary employment agency, Temp Force, to take over payroll 
functions for the program. In the process, Temp Force became the 
``employer'' and is paying wages of $7.95 per hour instead of the union 
wage of $9.85 per hour.
    Even with the disappointing decision to outsource the Job 
Opportunity Program, it should be clear that New York City has been 
heading away from workfare and that the Administration's proposal and 
any other similar one would be at odds with the direction the City has 
been taking recently.
            Conditions in Local Welfare Offices

    The extreme work and engagement requirements in the 
Administration's plan would put intolerable pressures on TANF offices 
and welfare recipients, who even under current law, have been under 
considerable stress.
    In New York City, not a week goes by without incidents of verbal 
abuse or violence. Until recently, TANF agency employees worked under 
threatening signs proclaiming ``The clock is ticking.'' Their job 
performance evaluations have been heavily influenced by pressures to 
reduce the rolls and get recipients into WEP. As their case loads rose, 
their ability to provide services effectively and in a humane manner 
was compromised with tension between worker and client increasing.
    A report on the status of caseworkers and clients in Illinois 
issued by AFSCME District Council 31 in 1999 documented similar 
problems and concerns. Among other things, the study found:

        <bullet> Workloads of frontline workers increased 
        substantially despite case load declines because of a radically 
        altered role for the caseworker. More than 73 percent of the 
        caseworkers surveyed reported at least four new duties. 
        Responsibilities expanded from benefit eligibility 
        determination to include: a thorough assessment of each client; 
        development of a comprehensive services plan; paternity 
        establishment; identification of job leads, job referrals, and 
        job search oversight; monitoring of time limits and more.
        <bullet> Many caseworkers were working substantial amounts of 
        compensated and uncompensated overtime, coming in early and 
        staying late, to try to keep up with their assignments and the 
        department's constantly changing policies even as they 
        struggled with outdated and inadequate technology that undercut 
        their productivity.
        <bullet> The caseworkers urgently felt the need for more 
        training. New employees often received only ``on-the-job'' 
        training while long-time employees wanted more training to 
        prepare them for their new responsibilities. Frustration with 
        the lack of training was a major cause of the 30 percent 
        turnover rate among first year employees.
        <bullet> The resulting pressures increased tensions between 
        caseworkers, who felt under pressure to enforce rules ``in the 
        strictest and most inflexible manner possible'' and clients who 
        had trouble reaching their caseworkers and perceived them as 
        meanspirited and uncaring. Again verbal abuse and even threats 
        of physical violence resulted.

    Against this backdrop, the Administration's plan to replace the 
flexibility that does exist currently with rigid requirements for 40 
hours of activity and a mandatory evaluation for each client within 60 
days are at odds with each other and the reality of life in a TANF 
office.
    On the one hand, TANF workers will be responsible for substantially 
more record keeping as they try to document their clients' compliance 
with the 40-hour per week participation requirement. On the other hand, 
somehow they would have to do a thoughtful assessment of each client's 
needs within a specific time period mandated by law. How they could 
ever effectively arrange for constructive activities or document the 
time spent during the 16 hours during each week when work is not 
required is not at all clear. Presumably, they would have to engage in 
extremely intrusive and time consuming monitoring or give cursory 
attention to the requirement.
    Either way, they no doubt would be under extreme pressure to make 
the numbers add up so that the state would avoid financial penalties. 
At the same time, clients will find it impossible to meet a rigid 40 
per week requirement that is more demanding than most employees 
experience in the workplace where the average weekly hours worked was 
34.5 hours in 2000.
    As caseworkers see their job performance evaluated on how well they 
meet ever more rigid and unrealistic numbers, they will face pressure 
to sanction more people. The resulting increased tensions will, we 
fear, lead to more abuse and threats of violence in the workplace.
    Instead of these unrealistic and inflexible numerical goals, AFSCME 
supports expanding on the flexibility currently in TANF to provide a 
broad array of education, training, and support services as proposed in 
Representative Cardin's bill (H.R. 3625). AFSCME also has worked with 
the National Association of Social Workers, National Urban League, and 
other unions to develop a quality improvement proposal that would 
improve the effectiveness and productivity of TANF offices with 
technology improvements, model caseworker training projects, and 
research into caseworker-client ratios. We strongly urge you to include 
these recommendations in the bill to be approved by the Subcommittee.
            Program Accountability

    The Administration's ``super waiver'' is the one area where it 
proposes greater flexibility. This super waiver is designed to give 
sweeping authority to the heads of five federal departments to waive 
federal requirements to promote ``program integration.''
    Although we have not been able to review the details of the super 
waiver, we are concerned that it could lead to a de facto block 
granting of federal programs, more privatization of services, and, 
possibility, the conversion of federal grants into individual vouchers. 
In all of these cases, we believe that accountability for federal 
taxpayer funds will be weakened and that program goals will be 
compromised.
    We are especially concerned that ``integrating'' the Workforce 
Investment Act (WIA) and Wagner-Peyser Act with TANF could mean a 
redirection of Labor Department resources toward TANF clients and away 
from workers not on welfare, who are served by WIA. In light of the 
failure of the Administration to recommend any new resources to 
accompany its new expectations for the TANF system, it is highly 
probable that states will be forced to redirect resources from any 
related programs to which they have access.
    The experience with privatized administration of the TANF program 
to date is instructive and should raise serious doubts about the loss 
of protections for citizens and accountability to taxpayers when 
services are privatized through with a contract process or a voucher 
system.
    One of the most profound changes in federal policy under TANF was 
the elimination of the cash entitlement and the requirement for public 
administration of the program. By 2000, less than one-third of TANF 
funds was devoted to cash payments, while the rest was being spent on a 
broad array of employment, training, and social services.
    Two states, Florida and Wisconsin, are notable for the management 
of their TANF programs. In Florida, TANF was ``integrated'' with the 
new WIA programs under a single administrative entity called Workforce 
Florida. In a striking departure, this not-for-profit corporation was 
given unrestricted authority to make policy for the programs under its 
control. In other words, it is performing important state policy-making 
functions, and is not simply a service provider. The consequences of 
the arrangement are discussed in an article titled ``Privatization of 
TANF in Florida: A Cautionary Tale'' by Cindy Huddleston and Valory 
Greenfield in the January-February edition of the Journal of Poverty 
Law and Policy.
    Huddleston and Greenfield point out that, while the Florida law 
specifically made Workforce Florida subject to the state's public 
records and sunshine laws, it did not mention the state's 
Administrative Procedures Act. That law protects citizens by 
prohibiting public agencies from acting arbitrarily, unilaterally, or 
illegally. It gives individuals the right to notice and a hearing if 
their substantial interests are affected by agency action. It requires 
public notification and an opportunity for input on agency plans. To 
date, according to the article, Workforce Florida has asserted that it 
is not covered by the Act or bound by its requirements.
    Another area of uncertainty in Florida has been the implications of 
the privatized arrangement for constitutional due process protections, 
which require government to use reasonable and fair procedures before 
depriving citizens of benefits or other property interests. Neither 
Workforce Florida nor the regional workforce boards have acknowledged 
officially that TANF recipients must be provided due process before 
being sanctioned or deprived of a service. Regional workforce boards 
are not required to give written notice of decisions or the opportunity 
of requesting a hearing. However, the related state agency, the Agency 
for Workforce Innovation, recently has published guidance detailing a 
framework for each local workforce board in setting up a grievance 
procedure.
    In Wisconsin, the privatized W-2 program in Milwaukee demonstrates 
a different set of problems. At the start, the process was set up to 
award state contracts to counties that demonstrated an aggressive 
policy of reducing case loads. Milwaukee, where most of the state's 
case load resided, was never seriously considered for a public 
operation. The original competitive bidding process to select the five 
private providers involved classic pitfalls, including underbidding by 
three of the five private agencies that subsequently received $18.2 
million in additional funds after the state awarded them contracts.
    Millions of dollars in TANF funds were diverted from services to 
the poor. Between 1997 and 1999, the five contractors earned profits in 
the range of $26.2 million in TANF funds that were realized by reducing 
case loads and, therefore, program costs. Among other things, they used 
the funds to invest in various business enterprises including the 
purchase of a cellular telephone company and real estate. State audits 
have found that the private agencies misappropriated more than 
$875,000. Among these expenditures was spending by Maximus for staff 
parties and entertainment, pursuing welfare contracts in other states, 
flowers, hotel bills for Maximus' top managers, and a political 
contribution. Other audits found that Employment Solutions, Inc., a 
subsidiary of Goodwill Industries, charged taxpayers for $810,000 in 
staff bonuses, including a $61,000 bonus for the Executive Director, 
and spent $270,000 in TANF funds to seek contracts in other states.
    AFSCME strongly opposes expanding opportunities for more of these 
arrangements through broad waiver authority. Instead, Congress should 
require states to use public agencies to determine eligibility and pay 
cash benefits and should apply additional accountability requirements 
designed to protect the taxpaying public on states for the expenditure 
of TANF funds. These requirements should provide the same or equivalent 
protections as those available under federal requirements for fair and 
impartial administration by merit system employees and the 
constitutional protections inherent in public administration.
    In summary, the Administration's recommendations for TANF 
reauthorization offer too much flexibility in one area and far too 
little in others. We believe the legislation proposed by 
Representatives Cardin and Mink represents a far better approach, one 
that focuses on the needs of poor families, instead of one driven by 
arbitrary numbers.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Meiklejohn. The gentleman 
from Pennsylvania to inquire.
    Mr. ENGLISH. I will keep this brief. Ms. Meiklejohn, I 
think you make some very good points on the issues of 
privatization and nondisplacement, and I would welcome an 
opportunity to review the language that we are working off of 
now and see if there are some ways of accommodating your 
concerns. I know that you raised these issues in 1996, and they 
were at least in part accommodated in the language that we 
ended up adopting.
    It seems to me that there is fairly broad ideological 
support for some of the concerns you are raising in Congress. 
So, I suspect those two issues in particular are things that we 
may be able to get Republicans and Democrats to agree on. So, I 
appreciate your raising these issues more than really anyone 
has so far, and I am grateful for the opportunity to hear your 
testimony. I yield back the balance of my time.
    Chairman HERGER. Thank you, Mr. English, and again we want 
to thank all of our panelists for the outstanding testimony. 
With that, I would like to call up panel 7, Rabbi David 
Saperstein, Director and Counsel, Religious Action Center of 
Reform Judaism; Kathleen A. Curran, Health and Welfare Policy 
Advisor, U.S. Conference of Catholic Bishops; Brenda Girton-
Mitchell, Associate General Secretary, Public Policy, National 
Council of Churches of Christ in the USA; Sister Mary Elizabeth 
Clark, Lobbyist, Network, a National Catholic Social Justice 
Lobby; Reverend Nathan Wilson, Director of Public Policy; 
Valora Washington, Ph.D., Executive Director, Unitarian 
Universalist Service Committee. I understand we have a 
replacement here for Rabbi Saperstein. Lauren Schumer? Ms. 
Schumer, would you like to begin?

STATEMENT OF RABBI DAVID SAPERSTEIN, DIRECTOR, RELIGIOUS ACTION 
   CENTER OF REFORM JUDAISM, AS PRESENTED BY LAUREN SCHUMER, 
                      LEGISLATIVE DIRECTOR

    Ms. SCHUMER. Thank you. Rabbi Saperstein regrets that his 
schedule did not allow him to remain this late to testify. My 
name is Lauren Schumer. I am the Legislative Director at the 
Religious Action Center of Reform Judaism, which represents 
over 1,700 rabbis and 900 synagogues with 1.5 million members. 
I am here today to address our Nation's welfare system and how 
this Congress will fund it in next year's budget. The religious 
communities of America care deeply about these issues.
    The budget of the United States is the great moral document 
of our Nation. It reflects the American Government's values, 
priorities, and vision for the American people. Through it real 
lives are shaped; opportunities and rights are enhanced or 
diminished. Almost every one of the world's major faiths 
teaches as a central tenet a variant of the core theme in the 
Bible: The moral test of any society is what its economic and 
social policies do or do not do for the most vulnerable of 
God's children. These, the powerless and the voiceless, the 
elderly, the ill, the widow, the orphan, the child, and the 
stranger, are the members of America's society whom we, 
lawmakers and advocates alike, are called to protect. Our 
welfare system is a key expression of these values.
    The 1996 welfare reform law ended the welfare system as we 
knew it, but it did not end poverty as, alas, we still know it. 
The question that haunts us still is whether our purpose and 
the purpose of welfare reform is to reduce case loads or reduce 
poverty; to save money or to save lives. As debate over TANF 
intensifies, Congress has both the opportunity and the 
obligation to remedy the program's failings.
    The TANF's success has often been quantified by the 
decreasing size of the welfare rolls. We must measure TANF's 
success in terms of quality of life, not quantity of welfare 
recipients. Poverty reduction, not case load reduction, must be 
the principal goal of our national welfare policy.
    The Administration's welfare proposal, as well as the 
Chairman's, recognizes and attempts to remedy some of the 
programmatic limitations of the 1996 law, such as the direct 
provision of child support payments to mothers and children, 
and the President's proposal would restore food stamps to legal 
immigrants. We commend the administration for these steps in 
the right direction. The restrictions are still too great, and 
the levels of funding both for individual recipients and for 
the welfare system as a whole remain distressingly low. We are 
particularly alarmed to hear that the expansion of food stamps 
to legal immigrants in the farm bill is currently under attack 
in the Conference Committee. At the very least, the President's 
own proposal to expand benefits to legal immigrants should be 
included in the final version of the bill.
    We have many concerns discussed in our written testimony, 
but let me focus on one major concern, the level of funding. 
First, TANF reauthorization should provide increased long-term 
funding so that States cannot only continue their existing 
programs, but also develop new poverty reduction strategies and 
initiatives.
    Second, the TANF block grant should be indexed to inflation 
in order to avoid underfunding its essential programs.
    Third, in order to reduce the disparity in funding 
allocations among States relative to the number of people who 
are poor, supplemental grants must be reinstated to States that 
have low levels of funding per poor person or high rates of 
growth.
    Fourth, States must be allowed to carry over funds for cash 
grants or for any other service or activity funded under TANF.
    Fifth, instead of reducing the credit States receive for 
moving recipients from welfare-to-work, States that make 
progress in decreasing the poverty level of families moving 
from welfare to self-sufficiency or in increasing child well-
being should be rewarded with performance bonuses.
    Sixth, the 5-year limit should be lifted.
    Seventh, there should be increased funding for poor 
children and for child care.
    Eighth, legal immigrants ought to be entitled to all 
welfare benefits without a waiting period. We must ensure that 
TANF is funded at a level that guarantees child care, job 
training, health care, and nutrition assistance to help move 
poor people out of poverty and into long-term self-sufficiency. 
Only then will the cries of the poor be silenced. Only then 
will we fulfill our moral obligation to share the bounties of 
our Nation to those of God's children who are less fortunate 
than we and who are depending on this Congress to provide 
effective, fully funded programs to allow them and their 
families to move from welfare-to-work, from poverty to self-
sufficiency, and from desperation to dignity. I thank you for 
the opportunity to testify.
    [The prepared statement of Mr. Saperstein follows:]
  Statement of Rabbi David Saperstein, Director, Religious Action of 
                             Reform Judaism
    Good morning Mr. Chairman, distinguished members of the Committee. 
I am Rabbi David Saperstein, Director of the Religious Action Center of 
Reform Judaism, which represents over 1700 rabbis and 900 synagogues 
with 1.5 million members. I am also an attorney and for many years have 
taught on the faculty of Georgetown University Law Center.
    The 1996 welfare reform law ended the welfare system as we knew it, 
but it did not end poverty in America. Child poverty is still too high, 
too many families are strained, fragile, and broken, too many families 
still have not found work and the purpose it brings. Although the 
Administration's welfare proposal recognizes and attempts to remedy 
some of the programmatic limitations of the 1996 law--such as 
restoration of food stamp benefits to legal immigrants and direct 
provision of child support payments to mothers and children--of 
significant concern are the astonishingly low levels of funding 
allocated to both individual programs and the welfare system as a 
whole.
    Funding levels, of course, reflect not only policy but moral 
choices at work. That is why it has been said that the budget of the 
United States is the great moral document of our nation. It reflects 
the American Government's values, priorities and vision for the 
American people. Through it, real lives are shaped, opportunities and 
rights are enhanced or diminished. The moral test of any society is 
what its economic and social policies do--or do not do--for the most 
vulnerable of God's children. These--the powerless and the voiceless, 
the elderly, the ill, the widow, the orphan, the child and the 
stranger--are the members of American society whom we, lawmakers and 
advocates alike, have been called to protect.
    A powerful and pervasive theme in our tradition is the protections 
and benefits we accord to the ger--the Hebrew term we erroneously 
translate in the Bible as the ``stranger.'' The ger was not a person 
just passing through (albeit they too we entitled to some social 
benefits). The ger was the person who came to live in Israel, who was 
willing to abide by the rules of our society, to work and pay taxes 
whenever possible, to observe the non-ritual laws of Israel--and to 
whom the Bible and the Talmud grant all the social benefits of the 
society accorded to the Jews. Is that not exactly the situation of the 
legal immigrant who comes to our nation?
    The Census Bureau reports that there are over 30 million immigrants 
living in the United States. This represents 11 percent of the total 
population. Prior to 1996, legal immigrants were usually able to 
receive public benefits on the same basis as U.S. citizens. With the 
passage of TANF, eligibility is now based on citizenship status rather 
than legal status.
    The changes in law came at the same time as the immigrant 
population reached near-record levels throughout the country. The 
largest immigrant group, immigrants admitted as lawful permanent 
residents--in most cases for family reunification purposes--is 
ineligible for benefits. Present policy has an extremely negative 
impact on the children of immigrants. According to the Center on Budget 
and Policy priorities, more than one in five low-income children in the 
United States live in noncitizen families. Nearly 40 percent of these 
families have difficulty affording food, compared with 27 percent of 
native-born families. Children of immigrants are twice as likely to 
live in families that pay more than 50 percent of their income for a 
place to live. They are more than four times as likely to live in 
crowded housing. The moral fiber of our nation, a nation that wishes to 
help not harm; to aid, not to assault; to develop not to destroy; 
depends on the recognition that moral public policy must create a zone 
of protection for all Americans.
    Jewish tradition commands us, ``You shall not wrong a stranger or 
oppress him, for you were strangers in the land of Egypt.'' Just two 
weeks ago Jews around the world celebrated our exodus from slavery in 
Egypt. As Jews, we are commanded to retell the story of our exodus. At 
the Passover seder meal, we are commanded to invite all who are hungry 
and all who are in need to come to our table and to share in our 
celebration. We are commanded to invite Jew and non-Jew alike; we are 
commanded to invite both our neighbors and those we do not know.
    The story of the immigrant is a shared story. Throughout our 
collective history Jews have been immigrants, strangers in strange 
lands. We have faced great hardship and persecution, but we have also 
flourished. The story of the immigrant is the story of America. And, 
with support from our elected officials, we can be confident that the 
best chapters are yet to be written.
    The Temporary Assistance for Needy Families program outlines 
America's public policy priorities in the fight against poverty. If we 
are to truly combat poverty, TANF's budget must reflect the economic 
realities of our day. The Administration's proposal purports to 
maintain the same overall funding since the 1996 welfare reform law by 
freezing the TANF block grant at $16.5 billion. The value of the block 
grant fell by 13.5 percent between Fiscal Year 1997 and Fiscal Year 
2002. If it is not adjusted for inflation, the real value of the block 
grant in 2007 will be 22 percent below its 1997 value--in effect, a 
significant cut for working families. According to the Treasury 
Department, TANF spending by states totaled $18.5 billion in Fiscal 
Year 2001--about $2 billion more than the annual block grant provided. 
Between March and September 2001, cash assistance case loads rose in 33 
states. States have had to dip into their unspent reserves in order to 
meet growing need. Some states, such as Montana, have shifted TANF 
funds from work support programs to cash assistance because of case 
load increases. States will have to scale back program funding as they 
exhaust their reserves unless additional resources are made available 
through reauthorization. If the funding levels in the block grant 
continue to decrease in inflation-adjusted terms while states continue 
to deplete their TANF reserves, these states will have to make even 
deeper cuts over time. Freezing the block grant will significantly 
jeopardize the ability of individual states to provide adequate job 
training and other crucial programs to help those experiencing poverty 
rise to a level of self-sufficiency. At a minimum, the TANF block grant 
should be indexed to inflation in order to avoid under-funding its 
essential programs. In fact, TANF reauthorization must provide 
increased long-term funding so that states can not only continue their 
existing programs, but also develop new poverty-reduction strategies 
and initiatives. In order to reduce the disparity in funding 
allocations among states relative to the number of people who are poor, 
Supplemental Grants must be reinstated to states that have low levels 
of funding per poor person or high rates of growth. States must be 
allowed to carry over funds for cash grants or for any other service or 
activity funded under TANF. Instead of reducing the credit states 
receive for moving recipients from welfare-to-work, states that make 
progress in decreasing the poverty level of families moving from 
welfare to self-sufficiency or in increasing child well-being should be 
rewarded with performance bonuses.
    The Administration's proposal would increase the number of hours 
welfare recipients must work in order to receive cash assistance from 
30 to 40 hours per week. The proposal creates a number of problems for 
states administering welfare programs. The Administration's proposal to 
increase the number of hours recipients must work to receive cash 
assistance from 30 hours per week to 40 hours per week means that only 
five states (Alaska, Hawaii, New Hampshire, New York, and Wisconsin) 
would be able to meet the Federal Labor Standards Act provisions that 
require that a welfare recipient work no more hours than those 
calculated by taking the amount of the combined cash assistance and 
food stamp benefit and dividing it by the minimum wage.
    In addition, we are concerned that the increased work requirement 
will result in welfare recipients being forced to take low-paying, 
dead-end jobs rather than jobs that hold the promise of future economic 
stability and sustainability. In a recent National Governors' 
Association survey, 38 states reported that the new work requirements 
would force them to create costly ``make-work'' jobs. Instead of 
focusing simply on case load reduction, TANF should provide quality 
education and job training instead of unpaid public works programs that 
would consume significant resources now dedicated to effective job 
training and meaningful employment.
    The TANF block grant at its current level would not cover the cost 
of cash assistance under the Administration's proposal, much less the 
increased demand in child care and transportation that would result 
from increasing the overall state work participation rate from 50 
percent to 70 percent in 5 years. Essentially, the Administration's 
proposal costs states more money, but does not include any increase in 
the TANF block grant.
    President Bush's proposal also cuts funding for children. The 
President's pledge to ``continue to maintain historically high levels 
of support for child care'' will actually limit the availability of 
child care funding. TANF funding is a vital component of state child 
care assistance programs, and states are increasingly dependent upon 
this funding to address their child care needs. States can transfer up 
to 30 percent of their TANF funds to the Child Care and Development 
Block Grant, or directly spend TANF dollars on child care without 
transferring the funds to the CCDBG. TANF is already a greater source 
of child care funding than the CCDBG: In 2000, states redirected $3.9 
billion in TANF funds to child care, compared to $3.5 billion spent 
through the CCDBG. The CCDBG itself requires increased investment, as 
well. According to the Children's Defense Fund, although only one in 
seven children eligible for CCDBG assistance currently receives help 
from the program, a child care budget that does not include increases 
for inflation means that 30,000 fewer children will be able to be 
helped. Freezing the child care budget for the next five years will 
require cutting 114,000 children from child care programs by Fiscal 
Year 2007. A significant portion of the increasing need for child care 
funds is due to salary costs. The salaries of child care workers cannot 
be frozen over the next five years, and the already rising costs of 
providing these services will necessarily continue to rise. Child care 
is vital to the efforts of low-income parents to get and keep jobs. The 
Administration's proposed child care budget would be a devastating blow 
to the welfare system's ability to ensure that all children are fully 
prepared to enter school and would jeopardize its efforts to help 
families become truly self-sufficient. A nation that neglects its 
children is a nation that short-changes its future. Unconscionably, the 
proposals before us now would condemn the most vulnerable of God's 
children to suffering and deprivation.
    In addition to our misgivings about inadequate funding for TANF, we 
are concerned about significant funding allocations for misguided 
programs within the Administration's welfare reform proposal. Of 
particular concern is a proposal to spend $135 million on abstinence-
only sexuality education programs. Contrary to the argument made by 
abstinence-only advocates, studies have overwhelmingly shown that 
abstinence-only programs do not deter or delay sexual activity. No 
credible scientific evidence exists to show the effectiveness of 
sexuality education programs that exclude information about 
contraception. In fact, a 1997 report by the United Nations examined 22 
HIV/AIDS and comprehensive sexuality education programs indicates that 
it is these comprehensive programs that are demonstrably effective in 
delaying the onset of sexual activity, reducing the number of sexual 
partners, and decreasing the incidences of sexually transmitted 
diseases and unplanned pregnancies. In addition, the President's 
proposal allocates $500 million for programs to promote marriage. While 
we agree that healthy marriages are a critical cornerstone of our 
nation, we hesitate when the government attempts to narrowly define 
what constitutes a healthy family. We are troubled by the proposal's 
exclusion of plans to strengthen overall family life at America's 
increasingly diverse contemporary family table. While we support 
initiatives to provide accurate and effective sexuality education and 
programs to strengthen families, we cannot afford to pour these 
desperately needed funds into such highly flawed programs.
    As debate over TANF reauthorization intensifies, Congress has both 
the opportunity and the obligation to remedy the program's failings. 
The overarching goals set out for TANF in 1996 were admirable, but the 
specific policies and regulations used to achieve these goals often 
fell far short of the mark. TANF's ``success'' has often been 
quantified by the decreasing size of the welfare rolls. Although the 
total number of people on welfare has certainly been reduced, TANF has 
not alleviated the depth or breadth of poverty in the United States. We 
must measure TANF's success in terms of quality of life, not quantity 
of welfare recipients. Poverty reduction, not case load reduction, must 
be the principal goal of our national welfare policy.
    Just prior to the passage of the 1996 welfare reform legislation, 
the Union of American Hebrew Congregations, the lay body of the Reform 
Jewish Movement, passed a comprehensive resolution on ``Our Economic 
Commitment to America's Poor.'' The resolution recognized the 
importance of prudent fiscal reforms and of welfare reform, but 
asserted that reform must not result in undue burdens to the most 
needy. The resolution further asserted that ``the United States 
Government [must] . . . ensure an adequate, federally guaranteed safety 
net to protect our nation's most vulnerable populations.'' Any 
legislation that does not meet this standard should not be passed by 
Congress or signed into law by the President.
    Judaism has long recognized the need to promote the health and 
well-being of all members of society and the responsibility of working 
to realize the Biblical vision that ``there shall be no needy among 
you.'' The great scholar Maimonides taught that the highest degree of 
tzedakah--charity--is to enable a person to earn his or her own 
livelihood. All faith communities are united by commandments to share 
our bread with the hungry, to protect the stranger in our midst, and to 
care for the poor and vulnerable children in our communities.
    In the rulings of Jewish texts and in the implementation of those 
rulings during the 1500 years of the self-governing Jewish community, 
the government and the public sector played a central role in achieving 
social justice. By Talmudic times, at least four communal funds (food, 
clothing, burial, and money funds), plus communal schools for all 
children, were required in every sizeable community. By the Middle 
Ages, these had grown into a veritable bureaucracy of social welfare 
institutions, rivaling our own today, with extensive communal 
regulation of the environment, consumer rights, and worker's rights. 
Tzedakah functioned as a system of taxation, not a voluntary 
philanthropic enterprise. Since members of the Jewish community were 
compelled to support these institutions, there are analogous in our own 
time to government institutions, not to voluntary private charities.
    In fact, we are deeply concerned with the Administration's interest 
in using faith as a tool with which to fight poverty and substance 
abuse. President Bush has made clear his support for ending 
``discrimination against faith-based organizations that compete for 
contracts to provide social services to people who need help,'' and he 
has also said that ``one sure way'' to treat those with substance abuse 
problems is to ``introduce them to faith.'' Faith-based organizations 
certainly deserve support and encouragement for the important work they 
do and the valuable services they provide. However, if we are to 
protect the First Amendment and the religious liberty of all Americans, 
we must ensure that pervasively religious organizations do not receive 
direct funding from the government, preferential treatment, or 
exemptions from civil rights regulations. We must also ensure that the 
beneficiaries of social services provided by faith-based organizations 
are not subjected to proselytization or religious indoctrination when 
they go to obtain their government benefits. Finally, we must ensure 
that religious organizations do not become the sole providers of social 
services in America, absolving the government of its responsibility to 
assist those in need. We must continue to look for ways to improve 
much-needed social services and support the good works of faith-based 
organizations, but we must do it without threatening America's ``first 
freedom.''
    Since the Great Depression, America's policy makers have sought to 
provide for vulnerable populations and have woven a safety net for 
America's poor, unfortunate and disadvantaged. Our government has a 
moral responsibility to ensure that welfare programs provide real jobs, 
real job training, and a real safety net to Americans in need. That 
responsibility inherently includes providing the necessary dollars to 
make these vital programs work. Breaking the chains of poverty cannot 
morally be accomplished by underfunding these vital programs which 
provide the most basic needs to the hungry and the strangers and the 
child. We must ensure that TANF is funded at a level which guarantees 
child care, job training, health care, and nutrition assistance to help 
move people out of poverty and into long-term self-sufficiency. Only 
then will the cries of the poor be silenced; only then will we be free 
of our moral obligation to share the bounties of our nation with those 
of God's children who are less fortunate than we and who are depending 
on this Congress to provide effective, fully-funded programs to allow 
them and their families to move from welfare-to-work, from poverty to 
self-sufficiency, and from desperation to dignity.

                                 <F-dash>

    Mr. ENGLISH. [Presiding.] Thank you, Ms. Schumer. Ms. 
Curran, your testimony, please.

STATEMENT OF KATHLEEN A. CURRAN, POLICY ADVISOR, UNITED STATES 
                 CONFERENCE OF CATHOLIC BISHOPS

    Ms. CURRAN. Thank you Chairman Herger and you, Mr. English, 
and the Members of the Subcommittee for this opportunity to 
present the views of the United States Conference of Catholic 
Bishops as you consider appropriators for TANF reauthorization.
    In 1995, the administrative board of the Bishops' 
Conference outlined six criteria for reform. As we did then, we 
urge lawmakers to enact welfare policies that will protect 
human life and dignity, strengthen family life, encourage and 
reward work, preserve a safety net for the vulnerable, build 
public/private partnerships to overcome poverty, and invest in 
human dignity.
    With these principles in mind, we believe TANF 
reauthorization presents an opportunity and a challenge to 
sharpen our focus on the persistent problem of poverty in this 
most prosperous of nations. We must do our best to make sure 
that no one who works in this country will see their family in 
need. We must give States the policy tools and resources they 
need to help low-income Americans leave poverty and dependence 
and achieve self-sufficiency.
    We must make clear that addressing the moral scandal of so 
much poverty, especially among children, in the richest Nation 
on Earth is a key goal of our national welfare policy. We can 
do this through a three-pronged strategy of policies that 
support work, strengthen families and marriages, and sustain 
the needy and vulnerable among us, especially our children, and 
by dedicating adequate resources to accomplish these goals, by 
funding TANF at least at the current levels adjusted for 
inflation.
    My longer statement, which has been submitted for the 
record, suggests several policy directions in each of these 
areas, but for now I will just touch on a few. First, TANF 
recipients need more than just any job. They need a pathway out 
of poverty, and for many that means access to education and job 
training and in some cases substance abuse treatment as well as 
a job. States should have greater flexibility to choose to 
count job training, vocational and postsecondary education, and 
substance abuse treatment toward work requirements, alone or in 
conjunction with an employment requirement. Several of the 
current reauthorization proposals include ideas on these 
issues, and we hope the final legislation will make progress in 
these areas.
    We support continuing TANF's emphasis on work; however, we 
share the various concerns that have been raised about current 
proposals that would simultaneously increase State work 
participation rates, increase to 40 the hours per week required 
of individuals, and end the case load reduction credit. The 
concerns are about whether such changes made together would be 
achievable or would limit the flexibility of States to continue 
the programs they have developed to get recipients off 
assistance and dependence and into employment. Given the 
potential impact of such changes, we urge Congress not to adopt 
an approach that combines these elements as currently proposed, 
particularly without significant increases in funding for child 
care and for States to develop the large-scale work experience 
or community service programs they would need to ensure that 
the new work targets would be met without diverting resources 
from current employment focused programs and work supports.
    Programs to increase to 40 the hours of activities required 
appear to assume that 40 hours constitutes a standard full work 
week, but according to data from the Bureau of Labor 
Statistics, for many American workers, especially those in the 
kind of jobs TANF recipients are likely to have, the average 
work week is 35 hours or less, and that includes paid leave 
time. Thus, requiring TANF recipients to engage in 40 hours of 
activities per week actually holds them to a higher standard 
than many other parents who work.
    Second, there has been and will be much discussion about 
marriage and family formation policies in TANF reauthorization. 
For decades our welfare policy actively discouraged the 
formation and maintenance of two-parent married families. One 
valuable aspect of our 1996 welfare reform law was the 
recognition that our National policies must support families, 
not undermine them, and help parents in meeting their 
responsibilities to their children. Children do better 
economically, emotionally, and spiritually when raised by both 
parents in the context of a stable, healthy marriage, and we 
should make appropriate efforts to encourage abstinence before 
marriage, to assist single parents considering marriage, and to 
help married parents to stay together. Yet we must also 
recognize that many factors in our society, including the 
realities of domestic violence and destructive behavior, leave 
many single parents struggling to support children on their 
own. Single parents deserve our help, too, without feeling 
coerced into entering into inappropriate marriages or staying 
in dangerous relationships. At the very least, we hope there is 
agreement that the first step in a promarriage policy should be 
to end more stringent State and federal TANF requirements for 
two-parent families, and we urge Congress to do so.
    Third, in 1996, legal immigrants were categorically barred 
from public benefits programs. The Bishops' Conference has long 
advocated for the availability of basic necessities to all 
those in need, regardless of their race, creed, ethnic origin, 
or nationality, and we urge you to restore benefit eligibility 
to legal immigrants.
    Fourth, access to food stamps and Medicaid can mean the 
difference between success or failure, hunger and illness, or 
progress for those struggling to leave welfare for work. The 
law should ensure that welfare leavers are automatically 
eligible for Medicaid and food stamps for a full year after 
they leave TANF, and States should be required to make sure 
leavers know they are eligible for these benefits and that they 
are able to access them.
    Finally, 23 States restrict or deny additional cash 
benefits when a TANF family's size increases because of the 
birth of a baby. We urge Congress to amend TANF to ban State 
family cap policies on pro-life and pro-family principles. The 
Bishops' Conference has long opposed such policies because of 
deep concern about their impact on the well-being of children 
both born and unborn.
    Finally, we urge Congress to avoid casting TANF 
reauthorization in terms of false choices that will diminish 
public debate and people's lives. Refuse to pose welfare reform 
as a choice between encouraging greater individual 
responsibility or accepting greater social responsibility. Both 
are necessary to help families overcome poverty. Refuse to pose 
welfare reform as a choice between investing in decent work, 
child care and education and training or recognizing the 
importance of responsible parenthood and healthy marriages.
    [The prepared statement of Ms. Curran follows:]
    Statement of Kathleen A. Curran, Policy Advisor, United States 
                     Conference of Catholic Bishops
    Chairman Herger and Members of the Subcommittee, my name is 
Kathleen A. Curran and I am policy advisor on health and welfare issues 
with the United States Conference of Catholic Bishops' (USCCB). I 
welcome this opportunity to share with you the views of the Bishops' 
Conference as you consider proposals for reauthorization of the 
Temporary Assistance for Needy Families block grant program (TANF).
    In the 1990s, we as a nation reexamined the welfare structure that 
had evolved over several decades, and called for a reform of the way in 
which we help those among us in need. Our Conference was among those 
urging fundamental reform of a system that did not serve recipients, 
taxpayers or our society as well as it should have. The debate over how 
to change that system culminated in the 1996 passage of the Personal 
Responsibility and Work Opportunity Reconciliation Act, replacing the 
Aid to Families with Dependent Children entitlement program with TANF 
block grants to the states, a time-limited assistance program focusing 
heavily on reducing welfare case loads and moving people into work. 
While it is encouraging that case loads have fallen by over 50% through 
fiscal year 2001, it is clear that not all recipients who leave TANF do 
so to take a job of any sort, let alone stable full-time work that 
allows them to support their families in dignity.
    In considering whether and how to amend TANF, facts and figures, 
numbers and statistics can be necessary and important tools, both in 
assessing the effects so far of the 1996 law and in developing new 
policies and new ways to measure future effects. But I urge you to 
remember that is all they are--tools. Simply setting, meeting and 
assessing numerical goals--whether for reducing case loads, boosting 
work participation rates or increasing the incidence of marriage--must 
not become the measure of our nations welfare policy. We must not lose 
sight of the real families, real individuals, real children whose lives 
will be deeply affected by the changes that will be made in TANF. We 
must seize the need to reauthorize the TANF program as an opportunity, 
and a challenge, to sharpen our focus on the persistent problem of 
poverty in this, the most prosperous of nations. We must do our best to 
make sure no one who works in this country will see their family in 
need. We must give states the policy tools and resources they need to 
help low-income Americans leave poverty and dependence and achieve 
self-sufficiency.
    Thus, as the nation turns to TANF reauthorization, we must make 
clear that reducing poverty, especially among children, is a central 
goal of our national welfare policy. We can do this in two ways. First, 
we should amend the law to include poverty reduction among the stated 
goals and develop appropriate incentives for states to reduce the 
extent and depth of poverty within their borders. Second, we should 
assess welfare policies, both current and proposed, by whether they 
will be effective in alleviating the poverty of our sisters and 
brothers and in helping them to improve their own lives and the lives 
of their families.
    The central challenge we face is not just people in need of help, 
but the tragedy of so many families living without dignity and hope in 
our nation. While some would focus instead on child well-being, these 
goals are not contradictory. There ought to be a way bring together 
both goals, measuring welfare reform by how it reduces poverty in a 
land of plenty and how it improves the lives of its children.
Principles For Welfare Reform
    The Administrative Board of the Bishops' Conference articulated 
principles for welfare reform in 1995 which retain their relevance 
today. I reiterate what the Bishops said then: the Conference's intent 
in offering its reflection on welfare policy is not to align itself 
with a particular partisan or ideological agenda. We draw our 
directions from consistent Catholic moral principles, guided by 
traditional values: respect for human life and dignity; the importance 
of family and the value of work; an option for the poor and the call to 
participation; and the principles of subsidiarity and solidarity.
    We also draw upon the Church's experience living with, serving, and 
being the poor among us. The poor are our neighbors and our 
parishioners. The Catholic community, perhaps the largest 
nongovernmental provider of human services to poor families, meets the 
poor in our soup kitchens, shelters and Catholic Charities agencies. 
Our community has lived with the realities of welfare reform, 
encouraging and helping people to make the transition from welfare-to-
work. But we also live with those who are left behind, who turn to our 
parishes, eat in our soup kitchens, sleep in our shelters and ask for 
our help. Some are moving ahead and we welcome and celebrate their 
progress. But some are left behind and this is the unfinished task for 
our nation, which seeks ``liberty and justice for all.''
    In light of our principles and our everyday experiences, our 
Conference will apply six principles in evaluating proposals for 
changes during TANF reauthorization. We urge lawmakers to enact polices 
that:
    Protect human life and human dignity: A fundamental criterion for 
all public policy, including welfare policy, is respect for human life 
and human dignity. In particular, we must protect the lives and dignity 
of vulnerable children, whether born or unborn, and develop policies 
that safeguard children and discourage inappropriate or morally 
destructive behavior.
    Strengthen family life: Our welfare policy should affirm the 
importance of marriage, strong intact families, personal 
responsibility, self-discipline, sacrifice and basic morality. It 
should help mothers and fathers meet the social, economic, educational 
and moral needs of their children. We should strive to keep marriages 
strong and families together, and, when that is not possible, to keep 
fathers involved in the lives of their children in a healthy and 
constructive manner.
    Encourage and reward work: Those who can work, should work. Work is 
the means by which individuals support themselves and their families, 
participate in Gods creation, express their dignity, and contribute to 
the common good of society. The challenge is to ensure that our nations 
policies support productive work with wages and benefits that permit a 
family to live in dignity.
    Preserve a safety net for the vulnerable: Society has a 
responsibility to help meet the needs of those who cannot care for 
themselves, who through no fault of their own cannot work or whose work 
is caring for young children or disabled family members. Our policies 
should help and sustain the most vulnerable among us, enhancing the 
ability of all children, including immigrant children, to grow into 
productive adults. Legal immigrants should be eligible for benefits on 
the same terms as citizens, and the children of undocumented persons 
should not be left without help.
    Build public/private partnerships to overcome poverty: Overcoming 
poverty and dependency requires creative, responsive and effective 
actions in both the public and private sectors. Under the TANF block 
grants, states have been given a high degree of flexibility in shaping 
programs to meet the needs of their populations and to draw more upon 
the skill and responsiveness of community institutions. We must strive 
to achieve and preserve the appropriate balance between the roles of 
the federal and state governments and private entities in fighting 
poverty. This is why we support the Presidents faith-based and 
community initiatives proposal. While we support the active role of 
states and of faith-based and community groups, their efforts cannot 
replace the important responsibility of the Federal Government, on 
behalf of our entire society, to establish just public policy and to 
commit sufficient national resources to meet the basic needs of the 
American people.
    Invest in human dignity: To continue and complete the work of 
welfare reform begun in 1996, we will continue to need significant 
public investment in TANF. We cannot let declining case loads deceive 
us into thinking we can reduce TANF block grants. The commitment and 
effort of individuals seeking to leave welfare for work, poverty for 
self-sufficiency, must be met by a public commitment to provide the 
jobs, training, education, child care, health care, transportation and 
other supports necessary to make that transition successfully.
    In pursuing these principles, we urge the Congress to avoid casting 
TANF reauthorization in terms of false choices that will diminish 
public debate and peoples' lives. Refuse to pose welfare reform as a 
choice between encouraging greater responsibility or accepting greater 
social responsibility--both are necessary to help families overcome 
poverty. Refuse to pose welfare reform as a choice between investing in 
decent work, child care, and education and training, or recognizing the 
importance of healthy marriages and responsible parenthood--both are 
necessary to improve children's lives. Children's lives and their hope 
for the future are enhanced or diminished by the choices of their 
parents and the policies of their government. Reauthorization is an 
opportunity to improve TANF to encourage wise choices by their families 
and wise investments by our nation in decent work, child care, and 
education and training.
    Do not draw our circle of concern too tightly. Single parents  and 
two parent couples struggle to raise their families in dignity. The 
children of parents who were born here and of those who came here to 
escape poverty and conflict are equally deserving of our help. Help not 
only those who can move from welfare-to-work with a little push and 
minimal assistance, but also those trapped without skills or education 
or facing addiction or disability. Do not be afraid to insist on 
performance and commitment from states as well as families in need, 
holding states accountable for programs that help people not only leave 
dependency, but also to leave poverty behind.
    Lastly, avoid an overly ideological, polarized and partisan debate 
over TANF reauthorization that will only undermine the steps our nation 
must take to overcome poverty and restore human dignity for our 
families and children.
A Strategy For Addressing Poverty Through TANF Reauthorization
    With these principles in mind, we urge that a central goal for TANF 
reauthorization should be to address the moral scandal of so much 
poverty in the richest nation on earth. To accomplish this, TANF should 
seek to reduce poverty through a three-pronged strategy of supporting 
meaningful work, strengthening family life and marriage, and sustaining 
the needy and vulnerable among us, especially our children; and to 
ensure adequate resources to accomplish these goals by committing to 
TANF funding levels at least equal to current levels adjusted for 
inflation. I would like to suggest some policy directions in each of 
these three areas, touching on only some of the many issues that TANF 
reauthorization will encompass. I am pleased to note that several of 
these ideas are reflected in various of the reauthorization proposals 
that have already been put forward.
Supporting Meaningful Work

    1. Expand the definition of work to include education and substance 
abuse treatment: TANF recipients need more than just any job--they need 
a pathway out of poverty, and for many that means access to education 
and job training, and in some cases, substance abuse treatment, as well 
as a job. Under current law, individuals may count only vocational 
education training towards work participation, for a maximum of 12 
months, and states may allow no more than 30% of their case load to do 
so. But serious efforts to get a college degree or overcome an 
addiction is hard work and should be recognized as such. States should 
have greater flexibility to count job training, vocational and post-
secondary education and substance abuse treatment towards work 
requirements, alone or in conjunction with an employment requirement. 
For instance, states could be given the option to allow participants to 
count education towards work after a one or two year period of 
employment.
    Several of the current reauthorization proposals include ideas in 
this area which deserve support. For example, most of them include some 
provision for allowing states to count as work activities, for limited 
periods of time, substance abuse or other programs to address work 
obstacles. We hope the final legislation will include similar 
provisions, and in the case of substance abuse, will give states the 
flexibility to include longer treatment programs of up to nine months. 
With respect to educational activities, allowing states to count 24 
months of vocational and educational training as work, or allowing 
states to have a percentage of TANF recipients in so-called ``Parents 
as Scholars'' programs, combining work and post-secondary education, 
are promising ideas found in current proposals.
    2. Ensure that those leaving welfare have access to transitional 
benefits: Food and basic health care are essential building blocks for 
life. As welfare recipients make the transition from cash assistance to 
relying on work income alone, access to noncash benefits such as food 
stamps and Medicaid can mean the difference between success or failure, 
hunger and illness or progress. The law should ensure that welfare 
leavers have automatic and meaningful access to Medicaid and food 
stamps for a full year after they leave TANF. TANF leavers are eligible 
for one-year transitional Medicaid coverage; they should be 
automatically eligible for food stamps for one year as well.
    In addition to granting automatic eligibility, states should be 
required to make sure those leaving TANF understand that they are 
eligible for these benefits and that they are able to access them. 
Studies have indicated that former welfare recipients who are eligible 
for but do not receive food stamps and Medicaid often do not realize 
they are eligible, or are unable to navigate complicated administrative 
requirements, including midday appointments at state offices forcing 
them to miss work. States must streamline their processes so new 
workers do not have to choose between obtaining needed benefits and 
keeping their jobs, between work and feeding their families, between 
employment and health care.
    3. Child care assistance: Finding and paying for adequate child 
care can be one of the biggest challenges facing parents trying to move 
from welfare-to-work. The problem is exacerbated for parents who must 
work weekend or night shift jobs, times when child care is particularly 
hard to find. As with food stamps and Medicaid, many families leaving 
TANF do not receive child care assistance even though they are 
eligible. We must make sure all working parents have access to safe, 
affordable child care at the times they need it by increasing funding 
for federal child care assistance programs such as the Child Care and 
Development Block Grant (which must also be reauthorized next year) and 
the Social Services Block Grant, by making sure low-income parents know 
they are eligible, and by increasing the availability of adequate child 
care facilities. Several reauthorization proposals call for additional 
CCDBG funding, and we urge the Subcommittee to incorporate additional 
resources for child care in its TANF legislation.
    4. Flexibility in time limits: A five-year time limit on federally-
funded cash assistance was one of the hallmarks of the 1996 law, and 
for many time limits appear to have provided the motivation needed to 
get into, or back into, the workforce. But for others, especially those 
who must overcome many obstacles to work, time limits can be arbitrary 
and punitive. I urge you to look seriously at ways to give states more 
flexibility in how they apply time limits while continuing to use 
federal TANF funds, so they can make time limits work for all 
recipients. For example, states could have the option to ``stop the 
clock''--to continue providing cash assistance to recipients complying 
with work requirements and not count those months towards the five-year 
time limit. Or states could experiment with allowing working TANF 
participants to ``earn back'' time against the time limit. States could 
be given the option of granting extensions to the five-year time limit, 
for example when a downturn in the economy means working former 
participants face layoffs and the inability to find work despite their 
best efforts.
    5. Caution in modifying work requirements: Under current law, 
states must have 50% of families that receive TANF engaged in specified 
``work activities'' for a total of 30 hours per week, with a shorter 
list of activities countable for the first 20 hours. (Single parents of 
children under six need work only a total of 20 hours per week to be 
counted, and higher standards apply to two-parent families.) States are 
eligible for a credit that reduces the 50% work participation 
requirement--a percentage reduction in total case loads earns an equal 
reduction in the participation rate requirement. case loads have fallen 
so significantly that most states were subject to minimal or even no 
work participation requirement. Nonetheless, on average states had 34% 
of their case loads meeting the work requirements in 2000.
    Among the proposals for TANF reauthorization that have been put 
forward, two would increase both the work participation rates that 
states must meet (from 50% to 70%) and the hours of activities 
individuals must engage in to be counted towards the work participation 
rates (from 30 hours to 40 hours per week). In one proposal, the first 
24 hours would be limited to employment, work experience or community 
service activities, with no flexibility to include job search or 
vocational education activities (which are now allowed to count toward 
the first 20 hours of the 30 hour requirement.) Both proposals would 
end the case load reduction credit. (In one proposal, the case load 
reduction credit would be replaced by a new employment credit, a 
promising idea we urge you to pursue.)
    While we support continuing TANFs emphasis on work, we share the 
serious concerns that have been raised about whether current proposals 
that combine these three elements--increasing state participation 
rates, increasing hours per week, and ending the case load reduction 
credit--are achievable and whether they would limit the flexibility of 
the states to continue the programs they have developed to implement 
welfare reform in a way that meet the needs of their people. Given the 
potential impact of such changes in the work requirements, we urge 
Congress not to adopt an approach that combines these elements as 
currently proposed.
    For the most part, states appear to have preferred to focus on 
getting recipients into employment, over establishing large work 
experience or community service programs. Two-thirds of the recipients 
who counted towards work participation rates in FY 2000 were pursuing 
unsubsidized employment, while 10.6% were in work experience and 6.4% 
were doing community service. Studies of welfare-to-work programs in 
the 1990s indicate that programs combining a range of strategies and 
services, including mandatory work, job search, life skills, and work-
focused education and training, were more successful at moving 
recipients off of welfare and into work than more rigid programs that 
used only one strategy.
    The combined impact of the proposed changes in the work 
requirements would almost certainly force states to divert more 
resources to developing large-scale work-experience or community 
service programs to ensure that the new work targets would be met. 
States would also have to find ways to increase spending on child 
care--more single parents would have to spend more hours each week 
engaged in activities and away from their children. Unless such changes 
were accompanied by significant increases in the TANF block grants and 
for child care programs, states would face the prospect of having to 
turn programs designed to get people into employment, into programs 
that simply keep people busy for the required number of hours, and to 
focus their child care spending on TANF recipients, at the expense of 
other low-income workers.
    Press reports of a recent survey of states by the National 
Governors Association and the American Public Health Services 
Association indicate that states are concerned about the impact of such 
proposals. According to the reports, 39 of the 44 states participating 
in the survey fear these increased work requirements would be 
counterproductive, undermining their efforts to end welfare dependency 
by moving recipients into the workforce. They are also worried that 
meeting such requirements would limit their ability to dedicate 
resources to work supports such as training, child care and 
transportation services.
    The intent of such proposals appears to be to ensure that TANF 
retains a strong ``work-first'' emphasis, by seeing to it that 
recipients are engaged in a full workweek of activity. The assumption 
is that 40 hours of activities per week constitutes a full workweek. 
But for many American workers, especially those in the kinds of jobs 
TANF recipients are likely to have, the average workweek is 35 hours or 
less. The U.S. Bureau of Labor Statistics (BLS) considers 35 hours per 
week to constitutes full-time work, and reports that in 2001 service 
sector workers averaged under 33 hours per week, while retail-sector 
workers on average worked just under 29 hours per week. BLS data also 
indicates that 24.1% of American workers--and one-third of unmarried 
women--work fewer than 35 hours per week. When gathering these data, 
BLS counts as hours worked paid-leave time, such as sick leave or 
vacation. It does not appear that holiday, sick time or other forms of 
necessary time-off would count towards the proposed higher 40 hour TANF 
requirement. This would be a particular hardship for TANF recipients, 
who tend to face more of the kinds of obstacles that require time away 
from work, such as child care crises, care giving for sick or disabled 
relatives, and the need to interact with the benefits system during 
office hours. Thus, requiring TANF recipients to engage in 40 hours of 
activities per week actually holds them to a higher standard than many 
other parents who work.
Strengthening Family Life and Marriage

    1. Affirm the value of marriage, but do not abandon single parent 
families: For decades, our welfare policy actively discouraged the 
formation and maintenance of two-parent married families. One valuable 
aspect of the 1996 welfare reform law was the recognition that our 
national policies must support families, not undermine them, and help 
parents in meeting their responsibilities to their children. The 
Catholic community has consistently affirmed the vital importance of 
marriage for raising children. Children do better economically, 
emotionally, and spiritually when raised by both parents in the context 
of a stable, healthy marriage. Out-of-wedlock birth and divorce 
significantly diminish the well-being of our children. We must make 
appropriate efforts to encourage abstinence before marriage, to assist 
single parents considering marriage and to help married parents to stay 
together.
    Yet we also recognize that many factors in our society, such as the 
widespread tragedy of divorce and the realities of domestic violence 
and destructive behavior, leave many single parents struggling to 
support children on their own. Single parents deserve our help, too, 
without feeling coerced into entering into inappropriate marriages or 
staying in dangerous relationships. It is essential that we both 
provide the resources necessary to enable all parents, married or 
single, to meet the needs of their families, and develop appropriate 
policies to support and strengthen marriage.
    2. Remove barriers and disincentives to two-parent families. We 
should all be able to agree that the first step in a pro-marriage 
policy should be to end penalties against two-parent families 
struggling to meet their responsibilities. Many states continue to 
implement pre-TANF policies that make it harder for two-parent families 
to qualify for and receive TANF assistance. For example, two-parent 
families may be forced to wait longer for benefits to begin than 
single-parent families, or be disqualified because of the parents' 
recent work history, even if the family's income is below the poverty 
level. Congress should require states to discontinue policies, such as 
these, that act as a disincentive to marriage. Congress should also end 
the separate, more stringent work participation rate requirements for 
two-parent families in TANF itself.
    3. Help States Do More to Support Effective Marriage Programs: 
States currently have the authority to spend TANF funds on marriage 
support programs, and should be encouraged to assist low-income married 
couples who would benefit from marital counseling or marriage-skills 
programs. For example, our colleagues at Catholic Charities USA have 
developed a promising proposal to create a $100 million grant program 
through which states could help low-income parents who are married, or 
who seek to marry, gain access to services they other wise might not be 
able to afford, such as marriage counseling, relationship skills 
classes, premarital counseling and marriage preparation, marriage-
skills classes.
    While many groups and faith-based organizations, including our 
Church, sponsor a range of marriage-support programs, we have much to 
learn about what strategies are most effective in addressing specific 
problems. Investing modest amounts of funding for demonstration and 
pilot programs to identify ``best practices'' and for a clearinghouse 
on effective programs would help states get information they need to 
assess and implement effective and appropriate marriage and family 
formation programs. We are pleased that several of the reauthorization 
proposals would create funding for these purposes.
    While we believe it is appropriate to take measured steps to 
encourage and help states to do more to support marriage, lawmakers 
need to evaluate every proposal to be sure it would not have the 
unintended effect of forcing or pressuring couples into marriage. 
Congress should be wary, for example, of measuring state progress in 
this area in a manner that relies too much on simply counting the 
number of marriages or the numbers of children living with married 
parents.
    In sum, we urge you to seek out policies that encourage and assist 
states to support marriage and to work with unwed parents who wish to 
marry, but efforts to promote marriage should not come at the expense 
of single parents or their children, either directly or indirectly, by 
diverting essential resources or inadvertently pressuring people into 
inappropriate marriages. We support efforts to reward all parents for 
making wise choices, but must not punish children for the choices of 
their parents.
    4. Involve non-custodial fathers in their children's lives. When 
parents are not married, we must find ways to encourage the active 
presence of both parents in the lives of their children. Most often, 
that means keeping non-custodial fathers involved with their children. 
As with marriage-support programs, TANF should assist states to 
identify and support effective fatherhood programs that help fathers 
develop the economic and emotional capacity to support their children. 
The law should be amended so that child support paid by non-custodial 
fathers actually goes to support their children on TANF. Under current 
law, a mother receiving TANF must assign her child support rights to 
the state, which retains and shares with the Federal Government most or 
all of any amounts it collects from the father. Allowing more of the 
fathers child support payment to reach his children will be both an 
economic boost for the children and an incentive for the father to 
remain engaged in his children's lives, and we are pleased that several 
reauthorization proposals would make progress on this front.
Sustaining the Needy and Vulnerable

    1. End state family cap laws: Twenty-three states restrict or deny 
additional cash benefits when a TANF family's size increases because of 
the birth of a baby. The U.S. Conference of Catholic Bishops has long 
opposed such policies because of deep concern about their impact on the 
well-being of children, both born and unborn. Evidence from a study of 
New Jerseys experience with a family cap indicates that the policy was 
accompanied by more abortions in that state. A recent GAO study notes 
that in an average month in 2000, about 108,000 families received less 
in cash benefits due to family cap policies. We urge Congress to amend 
TANF to ban state family cap policies on pro-life and pro-family 
principles. States should not be allowed to tell women they will pay 
for their abortions, but will not help them support new children. A 
policy that effectively penalizes certain families for having a new 
child cannot be seen as pro-family.
    2. Restore benefit eligibility to legal immigrants: A major reason 
our Conference opposed the 1996 law was its harsh treatment of legal 
immigrants. In 1996, legal immigrants were categorically barred from 
pubic benefits programs. We have worked to achieve changes in the law, 
which restored eligibility for some legal immigrants who entered the 
United States before 1996, but did not cover the majority of legal 
immigrants, especially those who entered the United States after 
August, 1996. The Bishops' Conference has long advocated for the 
availability of basic necessities to all those in need, regardless of 
their race, creed, ethnic origin, or nationality. Furthermore, legal 
immigrants pay taxes and make significant contributions to our economy 
with their labor. As a matter of justice, when people are in need, 
especially children, they should have access to the public programs 
supported by their families' taxes.
    3. Allow TANF recipients to care for young children and disabled 
family members: Young children, the sick and the disabled are among our 
society's most vulnerable members. Their well-being often depends upon 
the ability of parents and family members to take care of them on a 
full-time basis. Yet under current law those same parents and family 
members may be forced to work outside the home or face the loss of the 
cash assistance their family needs to survive. Congress should amend 
the law so states have the option of using federal funds to continue 
cash assistance to full-time care givers for children under six or 
seriously ill or disabled family members. This could be done by 
allowing such activities to count toward work participation 
requirements or allowing states to exempt such care givers from time 
limits.
    4. Ameliorate harsh sanction policies: It is no easy matter to 
develop welfare policy that ensures assistance for the needy without 
enabling the dependency of those who can and should support themselves. 
But we cannot abandon those among us who cannot help themselves, or 
who, with a little more time, patience and assistance, would be able to 
help themselves and their families. Our goal must be to ensure that no 
one falls through the cracks of federal or state bureaucracies. To that 
end, we urge Congress to take a careful look at TANF sanction polices.
    There are strong indications that many sanctioned families have 
multiple barriers to work--little or no education, and more incidence 
of substance abuse, family violence, and mental and physical health 
problems, and child care and transportation difficulties. States 
currently have great latitude in implementing sanction policies, with 
little accountability. Thirty-seven states use ``full-family'' 
sanctions, cutting benefits to the entire family when one member 
violates the TANF rules. Nineteen states will impose a full-family 
sanction for a first violation, and eight of those states apply a 
minimum penalty period, so the entire family may continue to be denied 
benefits even after the violation has been remedied. There is also 
evidence that many states do a poor job of communicating to 
participants what is expected of them, the consequences of failing to 
meet those expectations, and how to get help in coming back into 
compliance.
    Congress should consider changes to the law to ameliorate arbitrary 
and counterproductive sanction policies, such as requiring states to 
provide clear, understandable information to all recipients on what is 
required of them and the sanctions they face if they violate those 
requirements; to identify and work with families at risk of sanctions; 
to end full-family sanctions for a first violation; and to restore 
benefits immediately when a violation has been remedied. We also must 
require more accountability from states, particularly because TANF 
incentives to decrease case loads can also be an incentive for a state 
to ignore high sanction rates. But high sanction rates in a state 
should be a warning sign, not a rewarded behavior. States, as well as 
families, should be held to meet their responsibilities.
    Thank you for the opportunity to share the Bishops' Conferences 
principles and policies on TANF reauthorization. Together our nation 
must all strive to create a truly flexible system of incentives and 
accountability for both individuals and states, a system which empowers 
a partnership of government agencies, community groups and recipients 
to meet the needs of individual families and to give them the tools 
they need to leave poverty and government assistance. The moral measure 
of our society is how we treat ``the least among us.'' (Matt. 25). The 
reauthorization of TANF represents a major opportunity to make 
overcoming poverty and restoring human dignity central national 
priorities. The Bishops' Conference looks forward to working with this 
Subcommittee and Congress on these and other important aspects of 
welfare policy in the coming months.

                                 <F-dash>

    Chairman HERGER. [Presiding.] Thank you.
    Ms. CURRAN. Both are necessary to improve children's lives.
    Chairman HERGER. Thank you. Ms. Mitchell.

    STATEMENT OF BRENDA GIRTON-MITCHELL, ASSOCIATE GENERAL 
 SECRETARY FOR PUBLIC POLICY, NATIONAL COUNCIL OF CHURCHES OF 
                      CHRIST IN THE U.S.A.

    Ms. MITCHELL. My name is Brenda Girton-Mitchell. I am the 
Associate General Secretary for public policy for the National 
Council of Churches of Christ (NCCC) and the Director of the 
Washington Office, and we are honored to have an opportunity to 
share this afternoon. We represent 36 Protestant, Orthodox, and 
Anglican communions (denominations) with a combined membership 
of 50 million Christians and nearly 140,000 congregations, and 
the list of our communions has been attached for the record.
    Through the National Council of Churches of Christ, we join 
in a common witness with ministries of faith, justice, 
education, and public advocacy. I do not speak for every single 
member. I do, however, speak for the public policymaking body, 
our general assembly. Our 350-member board is composed of 
members who have been selected by their denominations 
proportionate to their size.
    I want to make three principal points in my written 
statement today: One, that the primary purpose for TANF should 
be poverty reduction; two, that TANF should receive increased 
funding in order to serve all of those who need assistance; and 
third, that States should have more flexibility regarding time 
limits and work requirements.
    All of our member communions acknowledge a moral obligation 
to provide assistance to and justice for those who live and 
work on the margins of our society. We are currently involved 
in a 10-year campaign focused on mobilizing Christians to take 
seriously the issue of poverty and to take specific steps to 
challenge it with all of the tools and energies at our 
disposal, including legislation. Toward that end, we have done 
several things over the past couple of years with our partners. 
We have conducted a survey, held a national TANF consultation, 
made recommendations to the U.S. Department of Health and Human 
Services, drafted an interreligious statement signed by 25 
religious bodies that includes policy recommendations for TANF 
reorganization that has also been submitted for the record. 
Just last month we hosted TANF Action Days here on Capitol Hill 
to share our concerns about the impact of TANF as it has been 
experienced and evaluated by churches as they attempt to help 
those who live in poverty.
    There was unanimous agreement that the primary goal of TANF 
should be the reduction of poverty, not simply the reduction of 
case loads. No family should be worse off as a result of moving 
from welfare-to-work than it was while receiving TANF 
assistance.
    The TANF should receive increased funding in order to serve 
all those who need assistance. The NCCC and its partners in the 
religious community advocate increased funding for both TANF 
and child care. Specifically, we believe that funding for TANF 
should at least be indexed to the cost of living. Religious 
social service organizations tell us that they are overwhelmed 
by the demand for help as TANF recipients, some of whom face 
multiple barriers, struggle and juggle to meet the work 
requirements, locate day care, and find shelter for their 
families. Without increased funding it will be impossible to 
provide the supportive services that are essential to help 
people move from welfare-to-work at family-sustaining wages.
    Flexibility has been one of the successful elements of 
TANF. When we asked our survey respondents to identify the 
things that kept TANF from working well, over and over they 
said time limits are too strict and too short. They focused on 
the need for more flexibility in the time limits regarding 
education, job training, and health in order for people to be 
able to function in the workforce. There was strong agreement 
that participating in postsecondary education should count as 
fulfilling the work requirement.
    We also believe that States should have the flexibility to 
exempt people from the TANF time limits who cannot or should 
not work--people with disabilities that may not qualify for 
SSI, but nonetheless disabilities that keep them from being 
employable, and those who have caregiving responsibilities for 
young children, elderly or handicapped relatives.
    Mr. Chairman, as representatives of the faith community, we 
want to preach a message to you that this legislation affects 
the very people God calls us all to serve. We know you share 
the calling to serve others, and it is important to use your 
financial might to provide the resources necessary to help 
those living in poverty. As people of faith, we urge you to 
make history with this legislation rather than simply making 
law. We can and must do better. God and our history calls us to 
higher aspirations.
    Two hundred years ago we viewed slavery as unfortunate but 
inevitable by-product of our economic system. A hundred years 
ago we accepted the fact that in order to spin cotton or mine 
coal, 10-year-olds had to work 12-hour days. Fifty years ago we 
accepted the fact that in much of this Nation segregation was 
the law of the land. Members of the faith community, working 
through Congress, overturned all of these conditions, and we 
urge you to view poverty as just such a set of historical 
blinders. In the words of Andrew Young, who is our immediate 
past president and once a member of this body, ``Our goal must 
be to make poverty in the 21st century as morally repugnant as 
slavery became in the 19th century.''
    I pray that we will all take these measures to heart, and 
the Lord will raise our sights, guide our deliberations, and 
soon the shame and scourge of poverty in this country will be 
abolished. Thank you.
    [The prepared statement of Ms. Girton-Mitchell follows:]
 Statement of Brenda Girton-Mitchell, Associate General Secretary for 
  Public Policy, National Council of Churches of Christ in the U.S.A.
    My name is Brenda Girton-Mitchell. I am the Associate General 
Secretary for Public Policy and the Director of the Washington Office 
of the National Council of Churches of Christ in the U.S.A. (NCCC).
    The National Council of the Churches of Christ in the U.S.A. is the 
principal ecumenical organization in the United States and includes 36 
Protestant, Orthodox and Anglican member communions (denominations) 
with a combined membership of more than 50 million Christians in nearly 
140,000 congregations nationwide. A list of our 36 communions has been 
submitted for the record.
    Through the NCCC, members join in a common witness through 
ministries of faith, justice, education and public witness. While I do 
not claim to speak for all members of the communion's constituent to 
the NCCC, I do speak for our policy-making body, the General Assembly, 
whose 350 members are selected by those communions in numbers 
proportionate to their size.
    Mr. Chairman, thank you for providing the opportunity for me to 
testify before you regarding welfare reform reauthorization.
    I wish to make three principal points in my remarks:

        1. LThe primary purpose for Temporary Assistance to Needy 
        Families Reauthorization (TANF) should be the reduction of 
        poverty.
        2. LTANF should receive increased funding in order to serve all 
        those who need assistance.
        3. LThe states should be given more flexibility regarding time 
        limits and work requirements.

    All member communions of the NCCC acknowledge a moral obligation to 
provide assistance to and justice for those who live and work on the 
margins of our society. In May of 2000, the NCCC launched a ten-year 
campaign focused on mobilizing Christians to take seriously the issue 
of poverty and to take specific steps to challenge it with all the 
tools and energies at our disposal. Toward that end, in the fall of 
2000 we conducted a survey of our member communions, their social 
service organizations, and our state and local partners to learn what 
their experience had been with TANF. A copy of our survey findings is 
available on the NCCC website at www.Ncccusa.org/publicwitness/
tanf.html Also attached is an Interreligious statement signed by 25 
religious bodies that includes policy recommendations for TANF 
reauthorization.
    Last spring, we held a national TANF consultation, which was 
attended by invited representatives of our member communions, our state 
and local ecumenical, and interfaith partner organizations from 29 
states and the District of Columbia. The input from this consultation 
and our survey helped to shape our recommendations to the Department of 
Health and Human Services last fall (attached). And just last month we 
hosted TANF Action Days in this very building to share our concerns 
about the impact of TANF as it has been experienced and evaluated by 
churches as they attempt to help those who live in poverty.
    There was unanimous agreement that the primary goal of Temporary 
Assistance to Needy Families should be the reduction of poverty, not 
the reduction of case loads. TANF should be to provide assistance to 
low-income families to enable them to have decent lives. No family 
should be worse off as a result of moving from welfare-to-work than it 
was while receiving TANF assistance.
    Religious social service organizations tell us that they are 
overwhelmed by the demand for help, as TANF recipients struggle with 
the requirement that they work. Many recipients cannot locate decent 
childcare. Often the people they relied upon in the past are not 
available to help because they, too, are TANF recipients who are 
required to work. For most, the cost is simply too great or access and 
supply are so limited that it is impossible to get a child to care in 
time for the mother to get to work.
    Although the very robust economy of the last few years helped some 
TANF recipients get jobs, it has driven up the cost of housing so that 
recipients are more desperate than ever about finding shelter for their 
families. Our survey revealed that churches are being overwhelmed by 
requests for help with housing and temporary shelter.
    TANF should receive increased funding in order to serve all those 
who need assistance. The NCCC and its partners in the religious 
community advocate increased funding for both TANF and child care. 
Specifically we believe that funding for TANF should at least be 
indexed to the cost of living. Without increased funding it will not be 
possible to provide the supportive services that are essential to help 
people move from welfare-to-work at family sustaining wages. Most of 
those who remain on TANF do so because they face multiple barriers to 
employment that cannot be easily resolved.
    The states should be given more flexibility regarding time limits 
and work requirements. Flexibility has been one of the successful 
elements of TANF. With flexibility states have the option of choosing a 
combination of approaches to meet the needs of their communities 
without being locked in to a national formula. When we asked our survey 
respondents to identify things that kept TANF from working well, over 
and over they said that the time limits are too strict and too short. 
Respondents focused particularly on the need for more flexibility 
regarding remedial education, job training, medical, mental health and 
dental care in order for people to be able to function in the labor 
force. There was strong agreement that participating in post-secondary 
education should count as fulfilling the work requirement.
    We also believe that there are some people on TANF who cannot or 
should not work--people with disabilities that may not meet the 
requirements to qualify for Supplemental Security Income but 
nonetheless keep them from being employable, and those with care giving 
responsibilities for young children or elderly or handicapped 
relatives. We believe that states should have the flexibility to exempt 
such people from time limits to the full extent of the need and not 
just within the arbitrary limits set by the current TANF law.
    Mr. Chairman and members of the committee, as a representative of 
the faith community, let me conclude by preaching this message to you. 
This legislation affects the very people God calls us to serve. We know 
you share the calling to serve others and implore this Committee to use 
its financial might to provide the resources necessary to help those 
living in poverty. There is a lot the Church can do, but it must be in 
partnership with, not as a substitute for, government. This issue is so 
important to the NCCC that it has been the featured topic in the last 
two issues of the annual Yearbook of American and Canadian Churches.
    We in the faith community are ready to work with you to help this 
nation rise up and meet its obligation to its entire people. The 
measure of success will be not simply in job placement, but in real 
poverty reduction, This nation has the means; now we must have the will 
to provide the necessary funding and flexibility regarding time limits 
and work, so we can demonstrate that we truly care about all of God's 
children.

                         NCCC Member Communions
 
 
 
African Methodist Episcopal Church          Moravian Church in America
                                             Northern Province and
                                             Southern Province
African Methodist Episcopal Zion Church     National Baptist Convention
                                             of America
Alliance of Baptists                        National Baptist Convention,
                                             U.S.A., Inc.
American Baptist Churches in the USA        National Missionary Baptist
                                             Convention of America
The Antiochian Orthodox Christian           Orthodox Church in America
 Archdiocese of North America
Diocese of the Armenian Church of America   Patriarchal Parishes of the
                                             Russian Orthodox Church in
                                             the USA
Christian Church (Disciples of Christ)      Philadelphia Yearly Meeting
                                             of the Religious Society of
                                             Friends
Christian Methodist Episcopal Church        Polish National Catholic
                                             Church of America
Church of the Brethren                      Presbyterian Church (U.S.A.)
The Coptic Orthodox Church in North         Progressive National Baptist
 America                                     Convention, Inc.
The Episcopal Church                        Reformed Church in America
Evangelical Lutheran Church in America      Serbian Orthodox Church in
                                             the U.S.A. and Canada
Friends United Meeting                      The Swedenborgian Church
Greek Orthodox Archdiocese of America       Syrian Orthodox Church of
                                             Antioch
Hungarian Reformed Church in America        Ukrainian Orthodox Church of
                                             America
International Council of Community          United Church of Christ
 Churches
Korean Presbyterian Church in America       The United Methodist Church
Malankara Orthodox Syrian Church
Mar Thoma Church
 


                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Mitchell.
    Mr. ENGLISH. [Presiding.] Sister Clark.

    STATEMENT OF SISTER MARY ELIZABETH CLARK, SPOKESPERSON, 
        NETWORK, NATIONAL CATHOLIC SOCIAL JUSTICE LOBBY

    Ms. CLARK. Mr. English, Chairman Herger, and distinguished 
Members of the Subcommittee and friends. As a Spokesperson for 
NETWORK, a national Catholic Social Justice Lobby, I am honored 
to represent thousands of NETWORK members who lobby with us on 
issues of economic justice.
    NETWORK has been surveying, researching, and educating our 
membership and others about the Nation's welfare system for 
many years. We lobbied for improvements in the legislation 
prior to the 1996 change.
    Since then, NETWORK has published two reports: Poverty Amid 
Plenty, the Unfinished Business of Welfare Reform in 1999, and 
Welfare Reform, How to we Define Success in 2001.
    These reports include both scientific and anecdotal 
evidence gathered during in-depth interviews of 4,000 people in 
emergency facilities such as soup kitchens, food pantries, and 
health clinics. We are convinced that each of you believes, as 
NETWORK does, that we are a country called to uphold the 
highest moral principles. Those moral principles laid out for 
us in our Constitution call us to form a more perfect union, to 
provide for the general welfare and to secure the blessings of 
liberty to ourselves and our posterity.
    Therefore, the existence of over 31 million people in 
poverty in this Nation to us is a scandal. NETWORK believes 
that an increase in funding, at least by inflation, is 
necessary to provide the needed resources for people who are 
leaving welfare-to-work.
    Maintaining TANF at $16.5 billion a year is really a 
reduction in funding. Over the last 5 years, inflation has 
cause a decrease, and by 2007 a projected bite of 22 cents will 
be taken out of every dollar.
    We have heard from the National Governors' Association that 
States spend some $2 billion more already this year. There are 
hard working families in NETWORK's report and in many other 
reports who have not been able to find family sustaining jobs. 
With the cost of housing, child care, transportation, food, and 
other necessities, families just cannot make it on minimum wage 
service jobs.
    NETWORK believes in the dignity of the human person as a 
primary social justice principle. In our survey, we found there 
is a strong correlation between whether a person has some level 
of higher education and how much they earn. We know that 
effective job training programs provide people with tools they 
need to become independent. Daycare and other programs help 
them retain jobs while meeting the needs of their families.
    We have just completed 21 workshops across the country. I 
would like to introduce to you, Maggie Millan from Tampa, 
Florida, who is one among many who can validate the call to 
additional funding.
    [The prepared statement of Sister Clark follows:]
   Statement of Sister Mary Elizabeth Clark, Spokesperson, NETWORK, 
                 National Catholic Social Justice Lobby
    Good afternoon, Chairman Herger, distinguished Members of the 
Subcommittee and friends. As a spokesperson for NETWORK, A National 
Catholic Social Justice Lobby, I am honored to represent thousands of 
NETWORK members who lobby with us on issues of economic justice. 
NETWORK has been surveying, researching and educating our membership 
and others about the nation's welfare system for many years. We lobbied 
for improvements in the legislation prior to the 1996 change. Since 
then, NETWORK has published two reports, Poverty Amid Plenty: The 
Unfinished Business of Welfare Reform in 1999 and Welfare Reform: How 
Do We Define Success? in 2001. These reports include both scientific 
and anecdotal evidence gathered during in-depth interviews of 4000 
people in emergency facilities such as soup kitchens, food pantries and 
health clinics.
    We are convinced that each of you believes, as NETWORK does, that 
we are a country called to uphold the highest moral principles. Those 
moral principles, laid out for us in our Constitution, call us ``to 
form a more perfect union, to provide for the general welfare and to 
secure the blessings of liberty to ourselves and our posterity.'' 
Therefore, the existence of over 31 million people in poverty in this 
nation is a scandal.
    NETWORK believes that an increase in funding at least by inflation 
is necessary to provide the needed resources for people who are leaving 
welfare-to-work. Maintaining TANF at $16.5 billion per year is really a 
reduction in funding. Over the last five years, inflation has caused a 
decrease, and, by 2007, a projected bite of 22 cents will be taken out 
of every dollar. We have heard from the National Governors Association 
that states spent some $2 billion more than the $16.5 billion the 
Federal Government provided in TANF funding so far this year.
    There are hard working families in NETWORK's report and in many 
other reports who have not been able to find a living wage job. With 
the costs of housing, child care, transportation, food and other 
necessities, families just cannot make it on minimum wage service jobs. 
NETWORK believes in the dignity of the human person as a primary social 
justice principle.
    In our survey, we found there is a strong correlation between 
whether a person has some level of higher education and how much they 
earn. We know that effective job training programs provide people with 
tools they need to become independent, and daycare and other programs 
help them retain jobs while meeting the needs of their families.
    We have just completed workshops on TANF Reauthorization in 21 
sites across the country and have heard welfare workers, social service 
providers and TANF recipients themselves call for an increase in the 
funding so that appropriate levels of services can be provided. I would 
now like to introduce to you Maggie Millan from Tampa, Florida, who is 
one among many who can validate that call.

                                 <F-dash>

           STATEMENT OF MAGGIE MILLAN, TAMPA, FLORIDA

    Ms. MILLAN. Good evening to everyone. My name is Maggie. I 
am a 33-year-old single parent with four children. I live in 
Tampa, Florida, and I work at the Agency for the Community 
Treatment Services where I began my training 9 months ago at 
the Start Services Welfare-to-Work Program of Hillsborough 
County.
    Three months later, I was hired full-time working in the 
procurement field. I take a bus to work, and it takes me an 
hour, an hour and a half to get there, and 2 hours to get back 
home. Since then I have acquired the self-confidence which I 
lacked while on the system, an incredible friend in my job 
coach which coaches you for the first 6 months of your 
employment, great co-workers, an understanding boss, my 
driver's license, which I thought I would never have, and the 
courage to do anything I set my mind on, including flying to 
Washington, DC, today all by myself to give my testimony on why 
more money is needed for welfare reform to help more moms stay 
off the system and take care of their families.
    Five years ago, when the welfare reform began, I thought 
what would I do now. I knew nothing but life on the system. 
Then immediately after that, I thought that this is the best 
thing that could have happened. People like myself will have to 
get up and get a life. When you grow up on welfare, that 
becomes all you know. So, it becomes normal and comfortable and 
passed on. Inside of me I wanted to be someone and be able to 
take care of my children by myself. It wasn't until 1999 after 
moving to Tampa, Florida, that reality kicked in.
    I went through the Wages Program and my caseworker at the 
time told me he wanted me to go to school like I always wanted 
to so that I can have a career. My necessity at the time was 
getting a job----
    Mr. ENGLISH. Maggie, you have got about 30 seconds. Then if 
you want, you can submit your testimony for the record.
    Ms. MILLAN. Okay. I just wanted to say that instead of 
thinking about how many people we will get off the system now, 
let's think about how many we will keep off forever. Thank you 
for listening to my testimony. May I please be excused? I have 
a plane to catch.
    [The prepared statement of Ms. Millan follows:]
               Statement of Maggie Millan, Tampa, Florida
    My name is Maggie. I am a 33 year old single parent with four 
children. I live in Tampa, Florida, and I work at the agency for 
community treatment services where I began my training nine months ago 
through the Star Services welfare-to-work Program of Hillsborough 
County, a customer-friendly program to address career skills and 
employment barriers not addressed by general welfare transition 
programs. Three months later I was hired full time working in the 
procurement field. I take a bus to work, and it takes me an hour each 
way.
    Since then I have acquired the self confidence, which I lacked 
while on the system, an incredible friend in my job coach, which 
coaches you for the first six months of your employment, great co-
workers, an understanding boss, my driver's license, which I thought I 
would never have and the courage to do anything I set my mind on, 
including flying to Washington all by myself to give my testimony on 
why more money is needed for welfare reform to help more moms stay off 
the system and take care of their families.
    Five years ago when the welfare reform began, I thought, what will 
I do now? I knew nothing but life on the system. Then immediately after 
that I thought, this is the best thing that could have happened. People 
like myself will have to get up and get a life. When you grow up on 
welfare, that becomes all you know, so it becomes normal and 
comfortable and passed on. But inside of me I wanted to be somebody and 
be able to take care of my children by myself. But it wasn't until 
1999, after moving to Tampa, Florida, that reality kicked in. I went 
through WAGES, and my caseworker at the time told me he wanted me to go 
to school like I always wanted to, so that I can have a career, but 
because my necessity at the time was getting a job to be able to pay 
rent and bills, they sent me to JOB CLUB. JOB CLUB was an introduction 
to the working world. They taught me and a few other girls how to dress 
for an interview, write a resume, what to say on an interview and many 
other work-related techniques. I attended this JOB CLUB for one month. 
Many things happened between then and now, including losing my job and 
returning to the system and attending Hillsborough Community College 
for one year, then dropping out to go back to work.
    Had they offered me the support services I needed instead of 
rushing me off the system, I would have at least an Associate's degree, 
a car, and a darn good paying job.
    I've come a long way, thanks to my optimism, my children who give 
me the courage to do things and God who gives me strength, but not 
everyone is me. There are women out there that need help and if the 
welfare reform wants to be successful they need to take the time to 
educate and treat people with dignity!
    Instead of thinking about how many women we will get off the system 
now, let's think about how many we will keep off FOREVER!

                                 <F-dash>

    Mr. ENGLISH. Thank you, Maggie. Thank you so much for being 
here. Thank you, Sister, for your testimony. Reverend Wilson.

STATEMENT OF REVEREND NATHAN WILSON, DIRECTOR OF PUBLIC POLICY, 
   AND MANAGER, CAMPAIGN TO OVERCOME POVERTY, CALL TO RENEWAL

    Mr. WILSON. Thank you Representative English. My name is 
Nathan Wilson. I am Director of Public Policy and Manager of 
the Campaign to Overcome Poverty, for Call to Renewal, which is 
a national network of faith-based organizations active in Erie 
and other places working together around what we believe is the 
Bible imperative to overcome poverty.
    Call to Renewal has a broad network that includes 
conservative evangelical churches, Roman Catholic churches, 
historic black churches, historic peace churches, mainline 
Protestant churches, and others. It is safe to say that 
theologically and politically, our members and partners run the 
gamut from being quite conservative to quite liberal.
    We acknowledge that the causes of poverty are complex. They 
include economic inequality, lack of opportunity, and 
institutional racism. They also include irresponsible personal 
choices and a breakdown of families and communities.
    The solutions, therefore, to overcome poverty are equally 
complex. The 1996 Welfare Reform Act played a role in reducing 
the number of people on welfare by requiring employment. A 
significant number of welfare recipients are now working. Yet, 
far too many, especially children, remain in poverty.
    As reauthorization approaches, we urge a conceptual shift, 
much as you have heard already in Congress, to view TANF and 
related programs through the eyes of poverty reduction rather 
than simply welfare reduction. So many of those who have moved 
to work remain below the poverty line. We all know that people 
who are responsibly trying to work should be able to support 
themselves and their families. Let's focus not only on case 
load reduction, but also on reducing the number of families 
living in poverty and increasing the number of self-sufficient 
families.
    We strongly urge that reducing poverty be made an explicit 
legislative goal of TANF reauthorization. Of course there is 
serious debate and difference about how best to reduce poverty.
    A genuine bipartisan commitment to that goal would 
significantly help reduce the partisanship and offer the hope 
of finding common grounds that puts the interest of those who 
are poor foremost in the legislation.
    Poverty reduction as a moral commitment and a legislative 
goal would frame the rest of our debate. Now, among the many 
important legislative issues in this debate that I addressed in 
my written statement that has been submitted for the record, I 
will briefly mention three.
    First, the question of what is defined as work. Obviously, 
work includes employment. It should also, in our view, include 
an individual's efforts to improve her or his employment skills 
through education and vocational training. Currently persons 
have to choose between receiving any assistance and improving 
their skills. That is an often cruel and an always short-
sighted mistake. For people trying to escape poverty, serious 
work preparation should count as work.
    Let's reward efforts to improve their lives. For instance, 
programs like the Parent to Scholars program in Maine that 
combines work and postsecondary education can be a model of the 
way to allow participants to work participation requirements.
    Second, the issue of child care. When President Bush 
introduced his plan, he spoke movingly saying, and I quote, 
``Across America, no doubt about it, single mothers do heroic 
work. They have the toughest job in our country.''
    He is right. The single largest problem, though, facing 
those single mothers, while holding a job is the availability 
and the affordability of child care. Along with much more 
assistance to help meet the costs of child care, and keep child 
to staff ratios at reasonable levels, those same mothers need 
improved facilities. They need better training for child care 
workers. They need higher quality care.
    Third, programs to support healthy families and reduce 
teenage pregnancy. Study after study bears out the fact that 
children with a single parent are far more likely to be poor. 
Some insist that promoting marriage should be at the center of 
reducing poverty, and others insist that funding antipoverty 
programs will promote marriage. It is an infamous political 
false choice.
    Of course, healthy marriages are good for economic 
stability. Of course, economic stability is good for healthy 
marriages. Why can't we do both? Adequately fund necessary 
programs and support initiatives that help establish and 
maintain healthy families. Here the faith community can play an 
important role. At the very least, let's end this disincentive 
and harsh rules for two-parent families that exist in the 
current system.
    Representative English, I appreciate your hard work on this 
legislation. I hope you will not let this opportunity pass 
without making a difference in the lives of millions of poor 
children, women, and men. Thank you.
    [The prepared statement of Reverend Wilson follows:]
  Statement of the Rev. Nathan Wilson, Director of Public Policy, and 
         Manager, Campaign to Overcome Poverty, Call to Renewal
    Mr. Chairman and Members of the Subcommittee.
    Thank you for inviting me to testify this afternoon. I am Director 
of Public Policy for Call to Renewal, a national network of churches 
and faith-based organizations who have come together on the biblical 
imperative to overcome poverty. Our ``Campaign to Overcome Poverty'' is 
one of the broadest ecumenical tables in the country for churches 
involved in anti-poverty efforts. We work to network churches and 
faith-based organizations into a movement, and provide a national 
public policy voice.
    We acknowledge that the causes of poverty are complex. They include 
economic inequality, lack of opportunity, and institutional racism; as 
well as irresponsible personal choices and the breakdown of families 
and communities. The solutions to overcome poverty are equally complex. 
They include employment at a living family income, quality education, 
safe neighborhoods, affordable health care and housing, strengthening 
families, and renewing an ethic of personal and community 
responsibility.
    After five years, the 1996 Personal Responsibility and Work 
Opportunity Reconciliation Act has had an important impact in reducing 
the number of people on welfare through requiring employment. A 
significant number of former welfare recipients are now working. Yet 
far too many, especially children, remain in poverty. As the 
reauthorization of TANF approaches, there are several areas where we 
urge Congress to focus.
    Most importantly, we urge a conceptual shift to view TANF and 
related programs through the eyes of poverty reduction rather than 
simply welfare reduction. Too many of those who have moved to work 
remain below the poverty line. We believe that people who are 
responsibly trying to work should be able to support themselves and 
their families. The objective for the next period should focus not only 
on case load reduction, but also on reducing the number of families 
living in poverty and increasing the number of self-sufficient 
families.
    We strongly urge that an explicit goal of reducing poverty be made 
part of the legislative purposes of TANF reauthorization. While there 
is serious debate and difference about how best to reduce poverty, a 
genuine bi-partisan commitment to that goal would significantly help to 
reduce the partisanship and offer the hope of finding common ground 
that puts the interests of those who are poor foremost in the 
legislation. The reauthorization priorities should be framed with this 
in mind.
    Our specific recommendations toward that objective include:

        1. LFund TANF at adequate levels with increases for inflation. 
        The 1996 Act funded annual block grants to the states at a 
        fixed $16.5 billion per year. It should be obvious that $16.5 
        billion in 2002 is not what it was in 1996, and certainly not 
        what it will be by 2007. Continuing flat funding is actually a 
        significant cut in funding. Reauthorization should at a minimum 
        adjust the grants for inflation, and ideally increase the 
        amount. TANF should allow states to continue to provide 
        assistance to those remaining on welfare along with continuing 
        and expanding the support programs for people who have found 
        employment.
        2. LIncreased work supports and outreach efforts. Many of those 
        who have moved from welfare-to-work have ended in the lowest 
        paying jobs, often at or near the minimum wage. Their ability 
        to remain employed and move out of poverty requires several 
        important work supports.
        a. LChild care. Access to safe and affordable child care is one 
        of the major problems facing low-income workers. To increase 
        the work requirements and hours at work per week without 
        increasing the availability and affordability of childcare 
        simply will not work. An array of services and resources should 
        be funded, ranging from improved facilities to better training 
        for child care workers to an increased capacity for specialized 
        needs. The ability for states to spend TANF funds directly on 
        child care should be maintained along with adequately funding 
        the Child Care and Development Block Grant. Minimum national 
        standards for facilities and staff should also be established 
        to ensure the health and safety of children. This is in the 
        best interests of those women who are moving from welfare-to-
        work, but perhaps even more importantly, in the best interests 
        of their children.
        b. LFood stamps. Low-income working families frequently report 
        having to choose between buying food and meeting other 
        expenses. Yet the food stamp program is intended to assist 
        these families. The evidence is that families still eligible 
        for food stamps are not receiving them--either because they are 
        unaware they are eligible or because application forms and 
        requirements are too onerous. An outreach program designed to 
        find eligible families along with simplified application 
        procedures should be developed.
        c. LHealth insurance. While improvements have been made in the 
        past five years, efforts to increase the number of low-income 
        families with access to health insurance should be 
        strengthened. Increased outreach to enroll children in the 
        Children's Health Insurance Program is essential. Eligibility 
        standards for Medicaid coverage should be eased, and states 
        should be encouraged to simplify enrollment procedures.
        d. LTransportation. Access to adequate transportation between 
        home, childcare, and work is often a major barrier to 
        employment. States should be encouraged to use flexibility in 
        developing such programs as discounted bus fares, loans for car 
        ownership, automobile restoration programs, and providing 
        special bus service to places of employment.
        3. LTime limits. While the five-year lifetime assistance limit 
        may have aided in moving people from welfare-to-work, the 
        reauthorization process should re-examine it and allow for 
        greater flexibility by the states.
        a. LLow-income workers. People who are working in compliance 
        with program rules while continuing to receive some amount of 
        assistance to supplement low earnings should not be subject to 
        the time limit.
        b. LAllow post-secondary education and training and caregiving. 
        Efforts to improve an individual's employment skills through 
        obtaining education or vocational training should be permitted 
        to count toward meeting the work requirement. The ``work 
        first'' requirement often meant that persons had to choose 
        between receiving assistance or improving their skills and 
        employability. Such initiative toward employment should be 
        rewarded rather than penalized. For people trying to escape 
        poverty, serious efforts to prepare for work or enhance 
        training and knowledge that can lead to greater self-
        sufficiency should be recognized and supported rather than 
        penalized.
        c. LWaivers in areas of high unemployment. With the economy 
        still recovering from September 11 and a recession that led to 
        large numbers of layoffs and growing unemployment, states 
        should be required to suspend the limit when unemployment 
        reaches a certain threshold. People who have been successfully 
        employed and are laid off due to economic conditions should not 
        be denied assistance because of an artificial time limit.
        d. LLimit sanctions. Sanctions for non-compliance with program 
        rules should be more carefully monitored by the Department to 
        ensure their fairness. Sanctioning an entire family, for 
        example, due to the failure of one member to meet a requirement 
        should not occur.
        4. LRestore TANF and other benefits to legal immigrants. 
        Immigrants legally in the United States following the 1996 law 
        are ineligible for most forms of assistance. New legislation 
        should reinstate eligibility for legal immigrants to major 
        assistance programs, particularly TANF benefits, food stamps 
        and Medicaid. Many legal immigrants in the country today work 
        hard and pay taxes, and should be entitled to assistance when 
        in need.
        5. LAddress barriers to unemployment for those remaining on 
        welfare. Many of those still on welfare rolls face barriers to 
        employment, including domestic violence, substance abuse, or 
        mental illness and disability. States should be required to 
        develop and fund programs that assist people in overcoming 
        these barriers.
        6. LPrograms to strengthen marriage. Our personal experience 
        and multiple studies indicate that children raised in single 
        parent households are more likely to be in poverty. The 
        evidence increasingly shows that one of the most effective ways 
        out of poverty is a stable marriage. We therefore encourage 
        initiatives to develop programs designed to reduce single 
        parenthood, promote responsible fatherhood, and strengthen 
        marriage. The pilot programs being initiated in various states 
        should be carefully examined to assess their success and the 
        ability to replicate them. We also support the elimination of 
        provisions that discriminate against married parents through 
        stricter work requirements, exclusion from some programs, or 
        other means. It is true that healthy marriages are good for 
        economic stability, and it is also true that economic stability 
        is good for healthy marriages. We urge the Committee to find 
        ways to do both.
        7. LContinue and strengthen the charitable choice provision. 
        Call to Renewal has supported partnerships between faith-based 
        organizations and government in overcoming poverty. We believe 
        that government at all levels--local, state, and federal--has 
        an important role in developing, promoting and implementing 
        public policies to reduce poverty. As part of that role, 
        government and faith-based organizations should develop 
        partnerships that empower or fund the successful programs of 
        both religious and secular nonprofit organizations in ways that 
        do not violate the First Amendment. We believe the ``charitable 
        choice'' provision in the 1996 law should be maintained, with 
        several changes.
        a. LReligious organizations seeking government funding should 
        be required to establish a separate tax-exempt non-profit 
        organization. In the five years since the passage of the 
        original charitable choice legislation, Call to Renewal has 
        advised religious organizations considering applying for 
        government funding that it would be prudent for them to form a 
        separate organization. We urge this provision be added in the 
        final version of the reauthorization legislation.
        b. LProtect the integrity of religious organizations and the 
        religious freedom of individuals receiving assistance. Debate 
        in Congress on the President's faith-based initiative led to 
        suggested changes in the 1996 provision that should be adopted 
        here. Individuals seeking assistance must have clear access to 
        alternative religious or non-religious programs. Programs 
        freely chosen by individuals using vouchers can include 
        religious activities, while any religious activities in 
        directly funded programs must be separately funded and 
        voluntary. Social services and religious activities must be 
        kept separate, so that public funding is for public purposes.

    In closing, in addition to TANF, we also urge Congress to support 
working families by:

        1. LExpanding the Earned Income Tax Credit. The EITC has been 
        one of the most effective poverty-reduction programs in history 
        by reducing taxes for low-income workers. Expanding the EITC to 
        provide tax relief for additional low-income families and 
        increasing the maximum credit a family can receive would assist 
        additional families to continue moving from poverty to self-
        sufficiency.
        2. LStrengthening unemployment insurance. The combined effects 
        of September 11 and a recession have led to the highest 
        unemployment rate in five years. Unemployment assistance should 
        be strengthened to provide benefits to unemployed workers who 
        are looking for part-time work but who meet all other current 
        eligibility standards, and basing eligibility on the most 
        recent work experience of the unemployed person.

    Reducing poverty and promoting individual responsibility for all 
our people are biblically rooted and morally compelling goals. We urge 
the Committee to approach the issue of TANF reauthorization with that 
clarity of purpose. We look forward to a continuing dialogue with you, 
and stand ready to assist in whatever ways we can. I can be reached at 
328-8745, ext. 218 or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e405947425d41406e4d4f42425a415c4b404b594f42004d4143">[email&#160;protected]</a>

                                 <F-dash>

    Mr. ENGLISH. Thank you, Reverend Wilson. Dr. Washington, we 
would love to hear your testimony.

  STATEMENT OF VALORA WASHINGTON, PH.D., EXECUTIVE DIRECTOR, 
     UNITARIAN UNIVERSALIST SERVICE COMMITTEE, CAMBRIDGE, 
                         MASSACHUSETTS

    Dr. WASHINGTON. Thank you, Mr. English. I think that what 
you are hearing from those of us on this panel is a very 
similar message. Every person, regardless of their economic 
status, regardless of their marital status or gender, is a 
person who has inherent value and worth.
    As a caring community of people of faith working for 
justice, we are witnesses to many stories like the one we just 
heard from Maggie. At the Unitarian Universalist Service 
Committee, we have been looking at the issues of poverty over 
very many years. We have heard the stories and seen the faces 
of people like Maggie in our own studies.
    For example, a woman with whom we have worked, Sarah, 32-
year-old mother of four from the State of Washington told us 
when her husband went to work, their benefits were reduced. The 
family's utilities were shut off, and they faced eviction. We 
are concerned that many people in our Nation feel that the 
government cares more about getting them off of assistance, 
whether or not they survive.
    This panel then is bearing witness to the fact that many 
families have benefited from the reforms that we have seen in 
recent years. That is only part of the story. To make good 
decisions about the future of TANF, we need to look at the 
whole story and not replace one set of myths and choices that 
may be false or incomplete with just another one.
    As Executive Director of the Unitarian Universalist Service 
Committee, I oversee programs that address issues of human 
rights and children's rights, the rights of women, and the poor 
and the marginalized people of the world. For more than 6 
years, we have collected the stories of over 3,000 families who 
have been beneficiaries of government assistance in one form or 
another.
    Beyond the many statistics that you have heard today, I 
think we need to think very carefully about the human realities 
with which many of these families must deal. We have our 
findings in this report, America's Forgotten Families, that you 
have a copy of. We are really thinking seriously about how we 
might support your efforts to help reduce poverty.
    We believe that families want to work. When we look at the 
voices of 3,500 families that we have studied, we find that 
many of them didn't get there by their own bad choices or the 
bad choices of their parents. Many of them were thrown into 
poverty by circumstances beyond their control.
    Likewise, I think we should admit and face the fact that 
many have been supported by the good economy of the recent past 
that may no longer be the case. Many people in poverty have 
worked hard all of their lives. They do not necessarily need to 
be prodded to work. They don't feel that they must be beat over 
the head in order to work. They want to work. They worked hard 
all of their lives. I think that we need to continue to support 
them to get the education that they need to have a better 
quality of life.
    Many of these families in our studies tell us that they are 
forced to make job choices and child care choices, which cause 
them to have a great deal of fear and concern for their 
families. All of these work requirements, the lack of 
educational opportunities available to many of those families, 
and the inflexibility of the time limits, are things that we 
are very concerned about. These are things that we hope can be 
addressed in this reauthorization period.
    Many States have responded very vigorously and successfully 
to powerful incentives to reduce their case loads. We want to 
be sure that those same States and same agencies will give 
equally vigorous attention to helping those families get out of 
poverty. We want to give them the incentive to help families 
have the support that they need, the child care and flexibility 
to make the choices, and move toward self-sufficiency and 
eradicate poverty in our country.
    You have heard over and over again today that welfare, as 
we know it, is gone. It is time to reduce poverty as we know 
it. Personal choices that people make alone will not reduce 
poverty. You have heard time and time again, it is a 
combination of the personal choices as well as the political 
and policy choices that we make. We support a performance bonus 
to States to help reduce poverty. We are also hoping that as we 
move forward in this period of reauthorizing TANF, that the 
House of Representatives will heed the voice and the call to be 
a prophetic voice for justice and not just to pass the law that 
is before us. Thank you.
    [The prepared statement of Dr. Washington follows:]
 Statement of Valora Washington, Ph.D., Executive Director, Unitarian 
        Universalist Service Committee, Cambridge Massachusetts
    ``Sarah,'' one of over 3,500 participants in a six-state study that 
examined the effects of welfare reform, reported: ``Since my husband 
started working, we are no longer eligible for additional benefits.'' 
This resulted in the family's utilities being shut off and a growing 
fear of being evicted. The 32-year-old mother of four from Washington 
state sadly concluded, ``the only thing that matters [to the 
government] is getting us off assistance, whether we can survive or 
not.''
    As Sarah's story tells us, the approaching deadline of September 30 
for the reauthorization of Temporary Assistance for Needy Families 
presents us all with a challenging opportunity. The program has had 
many success stories, but we must examine the success of TANF more 
closely, address the unintended consequences of reform and then build 
on the strengths of the legislation so we can ensure that all American 
families can provide their children with a stable, nurturing home in 
which they can thrive.
    I am Dr. Valora Washington, executive director of the Unitarian 
Universalist Service Committee. Thank you for the opportunity to join 
you today as you review proposals for the reauthorization of Temporary 
Assistance for Needy Families (TANF). UUSC has worked to advance 
justice throughout the world for more than six decades. Founded by a 
small group of intrepid activists who risked their lives rescuing 
eastern European children and their families from Nazi oppression, we 
have applied that same passion to seeking ways to help families 
struggling to win against poverty in this country.
    We come to this conversation with a wealth of information gathered 
from some people whose existence has been too seldom noted in all the 
talk of the success of TANF: the people we have come to call 
``America's forgotten families.'' Over a five-year period, UUSC's 
Welfare and Human Rights Monitoring Project (WHRMP) has engaged in more 
than 3,500 intensive interviews in six states with people struggling 
against poverty under the new TANF rules.
    We review current proposals for TANF reauthorization in light of 
our findings and base our recommendations on that compelling empirical 
data.
    In 1996 Congress decided to give states more flexibility and hold 
families more accountable. The families have done their part; now it's 
time to hold states accountable for reducing poverty and give families 
the flexibility they need to move toward an appropriate degree of self-
sufficiency.
    As President Bush has so appropriately said, the job of welfare 
reform is not yet done; we do not yet live in a poverty-free America. 
Our research shows that in order to move closer to that goal we need to 
re-shape the authorizing legislation for TANF to reflect that goal more 
clearly. As long as we reward states for reducing case loads but not 
for reducing poverty, we can expect the ``success'' of the program to 
be dogged by the poignant stories of those left behind.
    I am happy, of course, for those who are experiencing ``success''--
finding a job, having a place to go every day where their services are 
valued, bringing home a paycheck, and being a model for their children. 
They are the ``lucky leavers,'' and I rejoice in their courageous 
spirit and their newfound pride. We celebrate the ability of low-income 
families to survive against formidable odds.
    Our research has put us in touch with thousands of people who tell 
us another part of the story:

        <bullet> the ones still on welfare facing multiple barriers to 
        getting and keeping a job, and whose time is running out;
        <bullet> the ones who have been dropped from the rolls before 
        they could find a job;
        <bullet> the ones who work full time all year at jobs with pay 
        and benefits inadequate to sustain a family.

    These stories correlate with the downside of the mixed statistical 
evidence about poverty in America. True enough, the Census Bureau has 
reported that in the year 2000 poverty levels were the lowest since 
1979, and that all racial and ethnic groups had experienced 
improvements in their economic well-being. At the same time, the 
proportion of families below half the poverty level had increased, and 
the poverty rate was still three times as high among African-Americans 
as among Caucasians. International studies showed that child poverty 
remained higher in the United States than in any other developed 
country.\1\ And that was while the economy was still booming.
---------------------------------------------------------------------------
    \1\ UNICEF, ``A League Table of Child Poverty in Rich Nations,'' 
Innocenti Report Card No. 1 (June 2000).
---------------------------------------------------------------------------
    While states reported dramatic case load reductions in a time of 
prosperity, the recent downward dip in the economy has been accompanied 
by case load increases in many states. case load reduction actually 
began about two years before passage of the new law, so there is good 
reason to ask how much should be attributed to the law and how much to 
the economy. A recent study in Connecticut showed a control group still 
living under the AFDC rules--no time limits, no work requirements--
performed just as well in the job market as those living under the TANF 
rules.\2\
---------------------------------------------------------------------------
    \2\ The study by the Manpower Demonstration Research Corporation 
was reported in the New York Times, Feb. 20. 2002.
---------------------------------------------------------------------------
Listening to the Voices
    The welfare monitoring program, begun as a pilot project in 
Massachusetts in 1996, compiled more than 3,500 case studies in six 
states: Washington, Massachusetts, California, and New Jersey, 
Connecticut, and Alabama. The testimonials many of these stakeholders 
were analyzed and summarized in a report called America's Forgotten 
Families: Voices of Welfare Reform, released in 2001.\3\ They reflect 
remarkably common themes and experiences. Welfare recipients 
representing extremely diverse backgrounds, education levels, 
communities and goals all report similar problems that are intensifying 
over time.
---------------------------------------------------------------------------
    \3\ To read or download all or part of the report in one of several 
versions, go to http://216.117.173.228/programs/welfarefeb28.html
---------------------------------------------------------------------------
    Most of the collected testimonials are the voices of single mothers 
who anticipate moving themselves and their children off of welfare and 
out of poverty. Other voices describe the day-to-day struggle of 
providing care for a child with a physical or mental disability. And 
some report struggles with their own mental or physical limitations. 
Those who shared their lives with UUSC's monitors have presented candid 
insights into a world prescribed by poverty. The generosity of those 
who participated in the study calls each of us--policy makers, 
advocates and voters--to review welfare reform policies in light of 
this information.
    The Welfare and Human Rights Monitoring Project focused on state 
welfare practices through the lens of the Universal Declaration of 
Human Rights (UDHR), which sets international human rights standards. 
UUSC monitors conducted interviews with adult welfare recipients and 
direct service providers mindful of those articles of the declaration 
that address equality, discrimination, privacy, social security, 
standard of living, work and education. The resulting data are 
qualitative and do not represent a statistical analysis. Nevertheless, 
these voices from within the welfare community in the United States 
tell us more than statistics can about the human impact of recent 
welfare changes in several states.

        <bullet> A father of three in the state of Washington, struck 
        by a car, incurred a broken collar bone and fractured ribs. For 
        a while he could not even tie his own shoes, much less bathe, 
        dress, cook for three children, and go to work. Accused by the 
        state welfare agency of not complying with work requirements, 
        he was deprived of child care assistance just when he and his 
        children needed it most.
        <bullet> A California woman, was sanctioned for 
        ``noncompliance'' with the work rules after her education plan 
        was denied. Using her rent money for child care while fighting 
        to get retroactive payments, she faced eviction.
        <bullet> The mother of a child with special needs faced job 
        penalties, and then sanctions, for missing work because she 
        could find nobody else to care for her sick child. As one 
        family support worker said, ``the overall outcome is the 
        sanctioning of the child, not just the adult.''
Families need more than ``incentives,'' and states need different ones
    The Administration's proposal, ``Working Toward Independence,'' 
assumes that tough work rules account for the success of TANF, and that 
tougher rules will work even better. But our research gives voice to a 
wide range of people to whom those assumptions do not apply. They know 
we live in a tough world and that work is essential to their ability to 
survive and thrive. Their troubles come not from a lack of incentive to 
work but from a combination of factors beyond their control, including 
a shortage of high quality child care and confusing and contradictory 
rules governing their eligibility for funding.
    Because states have had much stronger incentives to reduce the TANF 
rolls than to reduce poverty itself, families have often been 
confronted by conflicting expectations and requirements, including some 
elements of policy and implementation that have impeded their ability 
to move toward self-sufficiency. Instead of moving from the notorious 
``trap'' of ``welfare dependency'' to a life of ``independence,'' too 
often families too often find themselves in a different kind of trap, 
dependent on jobs that cannot sustain their families.
Unintended consequences of TANF rules
    Rules intended to enhance the stability of family connections 
sometimes disrupt whatever stable supports a family already has. 
``Diane,'' a high school senior and mother of a newborn, was homeless 
but not without resources or incentive. Despite her troubled life, she 
was an honor student and had child care available through the school 
she had always attended in a North Shore Massachusetts community. Due 
to contradictory support regulations under TANF, she was told by her 
caseworker that she had to move to a structured teen shelter in a 
different community. The move would leave her without child care, and 
to take care of her child she would have had to drop out of school. She 
explained this and showed that she met all of the criteria for a waiver 
of this policy, but she was denied benefits for not moving on demand. 
Thanks to the intervention of an advocate, Diane won reconsideration of 
her case and the reinstatement of benefits. What if the state had a 
multi-million-dollar incentive to help Diane build on her resources and 
continue the education she needs for her family to thrive? How would 
the caseworker have behaved differently?
    Rules requiring disclosure of an absent parent's identity can 
compound the problems of families with a history of domestic violence. 
``Kathy,'' the mother of two young children, sought protection from her 
batterer for herself and her family in a Los Angeles shelter. Welfare 
officials insisted that she reveal the identity of her children's 
father or lose all benefits. When they learned that the father had gang 
connections, the officials contacted the police. By enabling the 
batterer ultimately to locate the shelter, this action put Kathy and 
her children in danger again, and she felt it necessary to leave the 
shelter for her safety and that of the other families. What if states 
were expected to screen aid applicants for evidence of domestic 
violence and rewarded for helping them find safety and needed services? 
Might not Kathy then have a better chance of finding sustainable 
employment?
    Work is essential to the survival of families, and stable families 
are vital to a healthy economy, but sometimes the rewards of work and 
marriage are outweighed by the penalties. ``Sarah,'' a 32-year-old 
mother of four, also from Washington, reported: ``Since my husband 
started working, our benefits have been reduced greatly. After buying 
equipment for his job, we are further in debt than before he started 
working. Since he does work, we are no longer eligible for additional 
benefits.'' Even though her husband was working, they family still did 
not have enough money to keep the power on. To the government, she 
concluded, ``the only thing that matters--is getting us off assistance, 
whether we can survive or not.'' What if states helped families set 
reasonable goals for an appropriate level of self-sufficiency, while 
providing the work supports for moving toward those goals? Would not 
Sarah and her husband have a better hope of becoming a healthy and 
economically sustainable family?
    Even for those with the education and skills to emerge from 
poverty, temporary assistance comes with a message of disrespect that 
is more a hindrance than a help. ``Donna,'' a Washington state woman, 
who needed cash assistance after her marriage ended, was able to move 
from welfare to work in 1999. She had received a good education before 
her divorce and was able to support her family successfully after her 
youngest was old enough for day care. But her ability to escape poverty 
came in spite of TANF, not because of it; and she saw the ``work 
first'' rules depriving others of the educational opportunity that had 
made the difference for her. ``I have learned,'' she said, ``that 
motherhood and education are no longer respected, at least not for 
welfare mothers.''  What if states were rewarded for reducing poverty? 
Would not caseworkers have more incentive to treat families with 
respect and help them plan realistically to move toward an appropriate 
level of self-sufficiency?
    On the basis of our the findings and recommendations in our WHRMP 
report, UUSC has worked with colleague organizations for several years 
to prepare for the debate about the key decisions you are called upon 
to make. As part of the Coalition on Human Needs, we helped develop and 
have endorsed their statement of principles for TANF reauthorization. 
And as part of the Inter-religious Working Group on Domestic Human 
Need/Justice for Women and Families, we helped formulate and have 
endorsed the ``Call to Poverty Reduction in the Context of TANF 
Reauthorization.'' Now that the Bush Administration and several members 
of Congress have begun introducing their proposals, we are prepared to 
make some preliminary recommendations.
Recommendations
    As the debate continues in the next few months, additional concerns 
will surface. But at this point, here is how we apply them to the 
emerging issues in the debate:

        <bullet> Reauthorize TANF with a renewed focus on helping 
        families move toward an appropriate level of self-sufficiency.
                <bullet> Include poverty reduction as one of the 
                purposes of TANF, and reward states through a poverty 
                reduction bonus. (See the Mink bill, H.R. 3113, which 
                includes provisions of Rep. Stark's Child Poverty 
                Reduction Act.)
                <bullet> Require states to use a measure of relative 
                self-sufficiency to guide TANF recipients in choosing 
                realistic strategies for achieving it.\4\
---------------------------------------------------------------------------
    \4\ Wider Opportunities for Women has developed self-sufficiency 
standards for 38 states and will soon develop the other 12. At least 
one state, Connecticut, has officially adopted that measure of the 
success of its program.
---------------------------------------------------------------------------
                <bullet> Continue to provide appropriate work supports 
                for TANF ``leavers'' as they continue to work toward 
                their goals.

        <bullet> Increase TANF block grant to offset the effects of 
        inflation and give the states the resources they need to do the 
        unfinished business of welfare reform.

                <bullet> Poverty reduction cannot succeed as an 
                ``unfunded mandate.''
                <bullet> Purchasing power of the $16.5 billion annual 
                TANF block grant had declined by 14% to the end of 
                2001. The Cardin bill (H.R. 3625) adjusts funding to 
                $18.7 billion by 2007.
                <bullet> When he was Governor of Wisconsin, Tommy 
                Thompson correctly emphasized that doing welfare reform 
                effectively would require more money, not less. Now 
                that he is Secretary of Health and Human Services, it 
                is still true.
                <bullet> Those remaining on the rolls often face more 
                significant barriers to getting and keeping a job than 
                those who have already left.

        <bullet> Increase child care funding in accordance with work 
        requirements and unmet need.

                <bullet> Work requirements and child care are linked: 
                If there's not enough money for needed child care, 
                increased work requirements are unsustainable.
                <bullet> Studies show states provide only 25% to 35% 
                of the child care subsidies needed to enable families 
                to work.
                <bullet> Cardin bill increases Child Care and 
                Development Block Grant by 11.25 billion over 5 years.

    Welfare as we used to know it is gone. Now it is time to end 
poverty as we know it.
    Some will say we cannot afford to do what needs to be done. 
However, the financial decisions we face about children and families 
are every bit as important as the ones you face on military spending.
    In recommending the expenditure of an additional $15 billion on 
foreign aid, President Bush recently declared the restoration of hope a 
national priority as part of the struggle against terrorism. In a world 
where hopelessness and alienation lie at the root of violence and 
insecurity at home as abroad, ending poverty is not an option but a 
necessity, for the health of our economy, for our security as a nation, 
and for our global role in the advancement of human rights. It is part 
of our destiny as a nation blessed with riches that we have an 
obligation to be a beacon of hope to the world.

                                 <F-dash>

    Mr. ENGLISH. Thank you. This has been a wonderful panel. 
Before we move on to the next panel, I just want to ask each of 
you a very short, almost yes or no question, which is really 
the central question that we are considering here. That is, 
starting with Dr. Washington. On balance, do you feel that the 
1996 reform law that we are looking to reauthorize was a 
success or failure? Dr. Washington.
    Dr. WASHINGTON. I think in the context of the booming 
economy, it has been successful for some families in some 
circumstances, and we can continue to build on that success to 
move forward.
    Mr. ENGLISH. Very good. Reverend Wilson. Has it been a 
success or a failure?
    Mr. WILSON. Of course, no social legislation can be seen in 
a vacuum, so it must be kept in context with the economic 
period through which we lived. In that context, since one of 
the goals, perhaps the chief goal was to reduce case loads, 
yes, it has been successful. Has it reduced poverty? That is a 
different question.
    Mr. ENGLISH. In your view, what is the answer to that 
question? Has it reduced poverty?
    Mr. WILSON. Certainly not to the same level as it has 
reduced case loads.
    Mr. ENGLISH. Sister Clark, has it been a success or a 
failure?
    Ms. CLARK. That, Congressman English, is our question. How 
do we define success? So, in our view, it is not a success yet 
until it really reduces poverty.
    Mr. ENGLISH. Ms. Mitchell, has it been a success or a 
failure?
    Ms. MITCHELL. Based on our survey results, 48 percent of 
our surveyed folks said it was not a success, and 43 said that 
it was. Then there was that other group that was kind of in 
between. So----
    Mr. ENGLISH. Ms. Curran, in your view, has it been a 
success or a failure?
    Ms. CURRAN. I think it was successful in changing some of 
the problems in the old program. I think that like some of my 
colleagues, there is a long way to go before we can say that 
welfare reform has been successful in bettering the lives of 
all the people.
    Mr. ENGLISH. Ms. Schumer, in your view has it been a 
success or failure?
    Ms. SCHUMER. I will echo my fellow panel members. Although 
the total number of people on the welfare case rolls has been 
reduced, and the over-arching goals set out in welfare reform 
were very admirable, TANF has not adequately alleviated the 
depth or the breadth of poverty in the United States. Although 
we have just experienced a decade-long economic boom, 
unprecedented in our Nation's history, the poor in our country 
got even poorer.
    Mr. ENGLISH. Very good. I want to thank all of you for 
participating and taking the time tonight to be part of this. I 
would like to dismiss you and call forward the next panel, 
which will be our 8th panel. My understanding is that, yes, 
Panel 8 will consist of Will Lightbourne, the Director of the 
County Welfare Directors Association of California. Jean Ross, 
the Executive Director of the California Budget Project, Alex 
Yazza, Jr., Department Director of the Navajo Nation TANF 
program, and I understand also a constituent of our colleague, 
Mr. Hayworth, Eric Rodriguez, standing in as Vice President of 
the National Council of La Raza.
    I want to thank all of you for your patience and for 
participating. If I can, I would like to invite that people's 
name plates be reversed in the appropriate way. You, after all, 
know your names. Mr. Lightbourne, we would now welcome your 
testimony.

  STATEMENT OF WILL LIGHTBOURNE, DIRECTOR, SANTA CLARA SOCIAL 
SERVICES AGENCY, SANTA CLARA, CALIFORNIA, AND VICE-PRESIDENT OF 
  PROGRAM, COUNTY WELFARE DIRECTORS ASSOCIATION OF CALIFORNIA

    Mr. LIGHTBOURNE. Thank you, Mr. English. I am Will 
Lightbourne. I am actually the Director of the Social Services 
Agency of Santa Clara County in California, and Vice President 
of the County Welfare Directors Association of California.
    Mr. ENGLISH. We stand corrected.
    Mr. LIGHTBOURNE. Perhaps starting where you left off the 
last panel, Mr. English. We would consider California's TANF 
program to have largely been a success. We have transitioned 
nearly half of the 1995 case load off aid, and have 57 percent 
of adults on aid now actively engaged in work or work-related 
activities, most of it from subsidized employment.
    The major challenge ahead of us now is how we work with the 
remaining families, the multiple barrier families and have them 
enjoy successful transitions. The Administration's proposal and 
Chairman Herger's proposal highlight child well-being and the 
strengthening of families as overall goals of TANF. Those are 
goals we embrace and are consistent with many of the ``family 
friendly'' programs and services provided by our counties in 
California.
    We are also heartened that in addition to those goals, all 
of the various reauthorization proposals introduced to date 
preserve the basic block grant, and flexibility, maintain at 
least the current funding level, and some would add a cost of 
living increase.
    The four things that I would like to focus on this evening 
are funding and child care, flexibility, employment credit, and 
participation requirements. First, in the funding area. We 
believe that it is vital to increase the funding available for 
all of the TANF purposes. Especially for the child care funds.
    California is now spending 96 percent of all of its 
allocated TANF dollars. Next year the State faces a significant 
budget deficit and will have great difficulty maintaining all 
of the services. Early estimates on the added child care costs 
in California of the administration proposals range from $300 
million to half a billion dollars annually.
    I would note that in Santa Clara County, 80 percent of 
those people who are eligible for child care subsidies are 
utilizing them from our TANF program. We believe that it is 
essential to maintain the commitment that was implicit in 
welfare reform at the beginning, that families transitioning to 
work be provided the support of child care.
    We are very aware that in California the same county 
agencies that are requiring parents to work and be outside the 
home are the same very agencies that will also ascertain and 
intervene if there is determined to be child neglect.
    We also support in the funding area restoring benefits to 
legal immigrants, funding the social services block grant at 
$2.8 billion, and providing separate funding for any 
initiatives with no set-asides from the block grant.
    In terms of flexibility, we think that preserving TANF 
flexibility is absolutely critical. It has been the hallmark of 
our California programs that have let us develop the sorts of 
local self-sufficiency based programs that would have been 
unimaginable 5 years ago. Counties, working with communities 
and faith-based groups, schools, child care providers, 
workforce agencies, housing and transportation agencies, 
treatment providers, private employers, private foundations 
have designed an extraordinary range of creative programs. All 
of these people have a genuine sense of ownership, a genuine 
sense of pride, and have in many cases directly invested in 
these programs, precisely because they see them as theirs. They 
do not see them as national programs even if 85 percent of the 
money is nationally originated.
    In terms of the employment bonus. We recommend that States 
receive credit for the numbers of recipients placed in full-or 
part-time employment, and those engaged in activities leading 
to work rather than only those who have left welfare because of 
work. In our case, we structured our programs with a generous 
income disregard in recognition of our very high housing costs. 
That means that we have a large number of people who are 
working the full number of hours but are still on aid. It would 
be important that they be recognized as meeting the employment 
credits.
    We would also recommend a process toward meeting 
participation rates by creating a category of people who are 
working a percentage of the required number of hours but 
perhaps not all of them. This is a very developmental process 
and an iterative process. The employment credit provision of 
H.R. 4057 by Representative Levin, supports a similar approach.
    In terms of the work participation requirements, the 
administration's proposed combination of phasing up the States' 
participation rate to 70 percent, requiring 40 hours weekly of 
work and work-related activity, and limiting the activities 
that count toward 24 hours of work gives States far less 
flexibility than the current program.
    We feel that this will essentially dismantle what we have 
accomplished. Having been in the position of operating major 
workfare programs, they are not as successful as the 
alternative. It is our hope that the Congress will afford us 
the sorts of flexibility that allow us to continue providing 
those kinds of services.
    Mr. ENGLISH. Can you summarize, sir?
    Mr. LIGHTBOURNE. Yes. We are now at a point where in many 
of our counties, half or almost half of the people receiving 
services are also receiving mental health, behavioral health, 
domestic violence related services. These are essentially 
extremely expensive services. To have to divert those services 
to operate workfare-like programs would really be a disaster in 
terms of successfully serving these populations.
    [The prepared statement of Mr. Lightbourne follows:]
Statement of Will Lightbourne, Director, Social Services Agency, Santa 
Clara County, California and Vice President of Program, County Welfare 
                  Directors Association of California
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me here today to share the local level perspective from the 
nation's largest state on the welfare reform reauthorization proposals 
under consideration by your committee. I am Will Lightbourne, Director 
of the Social Services Agency in Santa Clara County, California, and 
Vice President of Program for the County Welfare Directors Association 
of California (CWDA).
    By any measure, California's TANF program has been a success, and 
we look forward to building on that foundation in the next stage of 
welfare reform. At its peak in 1995, California's welfare program aided 
nearly one million families and by January 2001 had declined to 490,000 
families. Well over half--57%--of adults on aid are actively engaged in 
some form of work or work-related activity. One third of all adults are 
meeting the work participation requirement--32 hours for single parents 
and 35 hours for two-parent families.
    For our counties, the major challenge is to address and remedy the 
problems of families that are a long way from being ready to maintain 
stable employment and move off welfare, the ``multiple barrier'' 
families. Some of these are among the other 24% of families engaged in 
work or work activity, but for insufficient hours to meet the 
requirement. Many others are among the 43% of adults who are not 
currently engaged. Before exploring how the reauthorization affects the 
hard-to-serve families in our case load, I want to address some more 
general features of the proposals, especially the Administration's.
    President Bush's proposal highlights child well being and 
strengthening of families as the over-all goal of TANF Reauthorization, 
a goal that we firmly endorse. Several policies adopted in California's 
CalWorks program exemplify those principles and serve as the framework 
for numerous ``family friendly'' programs and services provided by the 
counties.
    We are heartened that in addition to strengthening families, all of 
the various reauthorization proposals introduced to date are headed in 
the right direction, in that they preserve the basic block grant 
flexibility and the emphasis on the work first approach of the 1996 
law. Further, all the proposals would maintain at least the current 
funding level, and some would add a cost of living increase or 
recognize the need for more child care funds.
    In addition, the Administration's proposal improves flexibility in 
use of TANF funds, by allowing states to:

        <bullet> establish a Rainy Day fund, which can be drawn down 
        in future years without additional maintenance of effort 
        requirements;
        <bullet> spend prior-year funds carried over for non-
        assistance needs, as well as cash assistance;
        <bullet> provide support services to non-working families, 
        without counting it as assistance, maintain the Contingency 
        Funds, and
        <bullet> utilize ``super waivers'' to integrate and coordinate 
        agencies and programs at the local level.
FUNDING
    It is vital to preserve or increase the funding available for all 
TANF purposes, and, specifically, to increase the amount of TANF 
funding available for child care. CWDA's policies for reauthorization 
call for additional funding, through a cost of living increase for the 
basic block grant, or by increasing child care funds, which will be 
needed if a higher work participation rate or increased work hours are 
enacted. California has spent 96 percent of its TANF block grant 
allocations to date, and faces a severe fiscal crisis in the coming 
year, an estimated $12.5 billion budget deficit.
    Funding for incentive programs should not be carved out or set 
aside from the TANF block grant, but should be separately provided, as 
is proposed for the Administration's healthy marriage and responsible 
fatherhood initiatives.
    CWDA also supports restoring benefits to legal immigrants and 
funding the Social Services Block Grant at $2.8 billion, with authority 
to transfer 10% of TANF to the services block grant.
FLEXIBILIITY
    Preserving the great flexibility provided by the TANF law is 
critical. That flexibility is the hallmark of California's welfare 
reform program, which allows the counties to invest assistance and 
supportive services over a longer period in order to foster employment 
stability and long-term family self-sufficiency. A generous earned 
income disregard, reflecting the generally higher cost of living in the 
state and a sanction policy that removes only the non-compliant adult 
from cash assistance. A ``child safety net'' will continue a reduced, 
child only grant when parents reach the 60-month limit. The counties, 
in collaboration with community-and faith-based organizations, schools, 
child care providers, workforce agencies, housing and transportation 
agencies, and treatment providers, have designed creative programs that 
respond to the unique needs of their areas.
WAIVER FLEXIBILITY
    The proposed ``super waiver'' program can be a useful tool to 
enhance the local design and service flexibility described above, 
particularly for inter-agency and inter-jurisdictional collaboration. 
It is important that the waivers can serve regions or counties, as 
proposed. CWDA recommends that the Secretary be given authority to 
waive cost-neutrality requirements.
EMPLOYMENT BONUS OR CREDIT
    We recommend that states receive credit for the numbers of 
recipients placed in full or part-time employment and those engaged in 
activities leading to work. Rather than rewarding states for the number 
who leave the roles for work, as the case load Reduction credit now 
does, the employment credit would reward progress toward meeting 
participation rates. It would recognize job entry efforts of states 
such as California, where many families with an employed adult remain 
on assistance because of low wages and high cost of living. The 
employment credit provision of H.R. 4057 by Rep. Sander Levin and its 
companion, S. 2058 by Senator Blanche Lincoln supports this approach.
    Although California benefits from the case load reduction factor--
which effectively reduces its work participation requirement from 50% 
to only 8%, it has masked the high level of success the counties 
attained in engaging 57% of adult recipients in work.
UNIVERSAL ENGAGEMENT WITHIN 60 DAYS
    The proposal put forth by the Administration would require an 
upfront assessment of every participant and require every participant 
to be engaged within 60 days of program entry in a family self-
sufficiency plan that includes work. This approach, coupled with a 
narrower definition of work that no longer specifically includes job 
search, may require revision of our ``work first'' approach that 
engages participants in an upfront test of the labor market.
    Clarification is needed about how this universal, early engagement 
affects the work first approach and whether work first without other 
engagement in other activities can be done only in the proposed 90 day 
intensive services period.
    The current ``work first'' approach allows a significant percentage 
of participants to secure unsubsidized employment within the first few 
months. This initial period of intensive job search instructs 
recipients on the preparation of resumes and job applications and 
requires them to apply or interview for certain numbers of jobs each 
week. By the end of this period (which varies by county), those who are 
employable typically have found a job, and those who haven't found work 
are assessed further to determine what is holding them back. At that 
point, we work to find a mix of activities that will move these 
participants into the workforce, and toward unsubsidized employment, as 
quickly as possible. Each person will need a different set of 
activities to succeed.
WORK PARTICIPATION REQUIREMENTS
    We support efforts to increase participation in work and work 
activities; however, these efforts must maintain maximum flexibility 
for states and counties, recognizing the unique needs of families 
receiving TANF and the need to tailor services to meet those needs.
    The administration's proposed combination of phasing up the state 
participation rate to 70%, requiring 40 hours weekly of work and work-
related activity, and limiting the activities that count toward the 24 
hours of work gives states far less flexibility than the current 
program. We are concerned that increasing either the hours or the 
participation rate will disrupt successful programs, especially our 
efforts to serve families with multiple barriers.
    The proposed mix of 24 hours work and 16 hours of other activity 
seems arbitrary and difficult to administer, despite the greater 
flexibility for states to define and expand the range of activities 
that may count in the 16-hour portion.
    CWDA strongly recommends that states be allowed to retain their 
current minimum of work hours and the discretion to determine the mix 
of direct work and other activities that individuals need to perform. 
Job search and vocational education should remain a part of the 
definition of work.
    Further, we recommend that the current state participation rate be 
retained. We believe that maintaining the 50 percent work participation 
rate, coupled with modification or replacement of the case load 
reduction credit, will increase states' actual work requirements 
significantly while enabling states and counties to achieve continued 
success during the second phase of welfare reform. To encourage rates 
higher than 50%, incentive payments could be provided for states that 
are meeting the 50% rate and can progress incrementally.
    Eliminating separate work requirements for one and two-parent 
families supports the goal of stabilizing families and improving child 
well being, and it will simplify the tracking, case management, and 
reporting of the work participation requirements. Consistent with our 
recommendations above, we recommend that the current single-parent 
hours and work participation rate be used for both.
    We are concerned that in order to step up to more than 50% 
participation, and to meet he proposed 24/16 hour minimums, we would 
have to back down some of the support services that we now provide to 
working TANF families and to the less job ready families. Without 
additional funding to meet additional costs for staff, tracking and 
reporting systems, and child care, resources would be drawn from 
current programs.
    States and counties have achieved unprecedented success with a work 
participation rate of 50 percent and under current TANF work week 
limits. California's 32-hour per week requirement for one-parent 
families engages recipients in the workforce with a mix of work, 
education, training, or treatment that is determined by the county in 
consultation with each participant. Although some work less than the 
federal weekly hours requirement, fifty seven percent of our case load 
are working or participating in work-related activities. California's 
program allows working recipients to continue receiving a reduced grant 
for an indefinite period, and to continue receiving supportive services 
during and after their time on aid. Research on the Minnesota Family 
Investment Program, after which California's program is patterned, 
shows that a longer period of assistance, coupled with an emphasis on 
work and the provision of services to the family, leads to better 
outcomes for children and families.\1\
---------------------------------------------------------------------------
    \1\ Virginia Knox, Cynthia Miller, Lisa A. Gennetian (September 
2000). Reforming Welfare and Rewarding Work: A Summary of the Final 
Report on the Minnesota Family Investment Program. Manpower 
Demonstration Research Corporation and Minnesota Department of Human 
Services. Available online at http://www.mdrc.org
---------------------------------------------------------------------------
    In addition, many of the working parents who remain on our case 
load due to low wages and the earned income disregard structure, would 
have to take on multiple jobs to meet the work requirements. A further 
concern is that counties would have to develop stop-gap public service 
jobs in order to total 24 hours for all recipients working less hours. 
High-unemployment areas could be particularly affected, where 
unsubsidized jobs are lacking and public employment may not be able to 
supply the extra hours.
    A case example illustrates the need for the counties to have 
flexibility and discretion about the mix of work and activities:

        A single mother with major depression, a history of violent 
        relationships, no high-school diploma and no work experience. 
        The expectation for her to be able to work 24 hours per week 
        and participate in other activities for another 16 hours is not 
        realistic. For this mother, participation in drug treatment, 
        counseling, and adult basic education classes may be the best 
        approach; not just for three months and not just for 16 hours a 
        week, but until she is able to enter the workforce and sustain 
        employment.
COUNTABLE ACTIVITIES
    All current work activities, including job search and time-limited 
vocational education, should continue to count as work participation. 
For example, we have found that an upfront test of the labor market 
through a period of assisted job search is the best way to determine 
who is employable and who needs more in-depth services and training in 
order to find a job. Further, participation in activities contained in 
a participant's welfare-to-work plan, such as mental health and 
substance abuse treatment, counseling, and basic education, should also 
count toward the work requirement.
CHILD CARE
    Any change to work requirements would create significantly higher 
demand for supportive services, especially child care. Early estimates 
on the added cost in California of child care of the Administration's 
proposal range from $300 million to half a billion dollars annually. 
The state already commits $3.2 billion each year, about half state and 
half federal funds, to child care subsidies for current and former 
welfare recipients and the working poor.
    If child care demand increases significantly, we will be unable to 
meet that demand and also provide the kind of case management and 
supportive services that will be needed to get recipients engaged in 
work and work activities. Something will have to give. We are very 
concerned that some of the creative county-run programs that have made 
welfare reform a success would have to significantly scale back or even 
end as resources shift to more child care and monitoring of expanded 
work participation.
SUPPORTIVE SERVICES
    TANF work requirements need to recognize the significant challenges 
states and counties face in helping seriously impaired recipients to 
participate in any activities. We need the flexibility to count 
participation in activities such as treatment and domestic abuse 
services toward individuals' work participation, without arbitrary time 
limits or artificially distinguishing between work and treatment 
activities.
    As the case load size declined, the way in which California spends 
its money has shifted dramatically, as well. Average monthly 
expenditures on cash grants have dropped sharply and now almost half of 
the TANF funds are spent on supportive services such as child care, 
transportation, mental health and substance abuse treatment, and 
domestic abuse services. Support services are needed by most of the 
working TANF families and almost all of the families with severe or 
multiple barriers to employment.
    In Sonoma County, roughly half of the current case load is 
participating in mental health services, drug abuse treatment, and/or 
domestic abuse services to help deal with multiple employment barriers. 
Sonoma County has found that vocational training is also an important 
intervention strategy to enable individuals with no skills to learn a 
skill, and to help working individuals with some skills improve their 
ability and find higher-paying jobs. Despite the prevalence of these 
major employment barriers among our case load, none of the treatment 
and services we provide to these participants are countable toward the 
federal work participation requirements, with the exception that under 
current law, up to 12 months of vocational training is allowed at state 
discretion.
MULTIPLE BARRIERS
    Since several of CWDA's recommendations for TANF reauthorization 
are in the context of families that are hard to serve in a system that 
demands work and self-sufficiency, we want to describe some of the 
challenges. Many of those who remain on aid have multiple barriers to 
employment that must be addressed before we can help them even find a 
job, including little or no experience in the workforce. These adults 
do not know how to deal with the trials of daily life, let alone the 
requirements of TANF. They may have limited education or training, 
learning disabilities, poor English skills, mental illness, substance 
abuse problems, criminal records or current legal issues. Typically 
there is no reliable way to get from their homes to training programs, 
child care, or a job. A full range of basic supportive services is 
needed, which unless combined with work may not count toward required 
participation.
    Counties have started creative programs, such as multidisciplinary 
clinical evaluation and treatment teams stationed at their welfare 
offices, specialized training for case workers in spotting potential 
barriers to employment and talking with the recipients about these 
issues, and intensive training in life skills that many of us would 
consider very basic, but that our recipients never learned. It will 
take time to learn from the results of these attempts, to refine our 
approach, and to help our staff learn to use the tools they have been 
given to work with these extremely challenging recipients.
    During 2000 and 2001, CWDA commissioned focus groups of county 
staff in each region of the state.\2\ The findings show much pride in 
counties' ability to get participants to work, in their ability to 
collaborate with local agencies and the business community, and in 
their shift from a system focused on giving people monthly welfare 
checks to a system focused on employment and family well-being. One 
focus group participant noted:
---------------------------------------------------------------------------
    \2\ Jann Donnenwirth (January 2001). Results of Focus Group 
Research on CalWORKs Programs in 27 California Counties. Center for 
Human Services, University of California-Davis, Davis, California.

        People have chaotic lives. We do a little survey when they come 
        back [on aid]. One person wrote in for, ``Why did you go off 
        aid?'': My husband got a job. And for, ``Why are you back 
        today?'': My husband got arrested and put in jail. It seems 
        like a lot of life crises and turmoil going on, so employment 
        [alone] is not necessarily the answer for the working poor. We 
        still have to make a case that the services have to continue--
        the case management services, mental health services, [and] job 
        retention services so they can stabilize and get into career 
---------------------------------------------------------------------------
        development.

    Another focus group participant commented on the fact that not 
every family with problems wants to admit that they are in trouble.

        I think it is important that people understand that there is a 
        lot of denial in these families. They don't have an alcohol 
        problem, and they don't have a mental health problem. So when 
        our workers are first going out or talking to them in the 
        office, the workers are being told that they don't need these 
        services. It isn't until we start trying to get them in job 
        club or orientation or whatever that we start seeing behaviors 
        we knew of all along.

    Research is also confirming the extent of multiple barrier families 
in TANF programs. A General Accounting Office study found last year 
that 44 percent of TANF recipients had at least one physical or mental 
impairment \3\ The California Institute for Mental Health has found a 
similar prevalence in its study of 643 recipients in Kern and 
Stanislaus counties. In two rounds of intensive interviews, the 
Institute found that nearly one-fifth had a need for services in more 
than one of three areas. Taken individually, between 30 and 33 percent 
of respondents needed mental health services, and 12 to 18 percent 
needed substance abuse services. Depending on the county, 22 to 26 
percent (Kern) and 32 to 37 percent (Stanislaus) reported a need for 
domestic violence services. These two counties were chosen because the 
approach they take to substance abuse, mental health, and domestic 
violence identification and treatment are seen as a model for other 
counties to follow.\4\
---------------------------------------------------------------------------
    \3\ U.S. General Accounting Office (October 31, 2001). Welfare 
Reform: More Coordinated Federal Effort Could Help States and 
Localities Move TANF Recipients With Impairments Toward Employment. 
GAO-02-37, Washington, DC. Available online: http://www.gao.gov
    \4\ Daniel Chandler and Joan Meisner (February 2002). CalWORKs 
Project Research: Alcohol and Other Drugs, Mental Health, and Domestic 
Violence Issues: Need, Incidence, and Services. California Institute 
for Mental Health, Sacramento, California. Available online: http://
www.cimh.org
---------------------------------------------------------------------------
CONCLUSION
    The bottom line is: Let states decide the best way to put people to 
work, based on the research in the field and the success they have 
already achieved. Replace the case load reduction credit with a credit 
that better reflects how states and counties put people to work, but 
maintain the 50 percent work participation rate and the current work 
week. Recognize the significant barriers that these families face, and 
let us work with them, on an individualized basis, to help them 
progress. Preserve at least the current funding level and provide new 
funds for any extra demands that the reauthorized program imposes, such 
as child care.
    Thank you for the opportunity to present our views. My colleagues 
and I are pleased to be part of the revolution that was welfare reform, 
stage 1 and we are confident about moving California's program into the 
second stage with new TANF legislation.

                                 <F-dash>

    Mr. ENGLISH. Very good, Mr. Lightbourne. Thank you so much 
for your testimony. Ms. Ross, we look forward to your 
statement.

 STATEMENT OF JEAN ROSS, EXECUTIVE DIRECTOR, CALIFORNIA BUDGET 
                PROJECT, SACRAMENTO, CALIFORNIA

    Ms. ROSS. Good evening, Mr. Chairman. I would like to thank 
you for your perseverance this evening. The California Budget 
Project is a nonprofit policy research group dedicated to 
improving social and economic policies for low and middle 
income Californians.
    What has happened with welfare reform since 1996 in 
California? First, California has spent, as Mr. Lightbourne 
said, nearly all of our available funds, 97 percent of funds 
received to this date and will exhaust the remaining funds next 
year. In fact, California Work Opportunity and Responsibility 
to Kids (CalWORKS), California's TANF program, is anticipating 
a substantial deficit in our Governor's proposed budget for the 
next fiscal year.
    We have made substantial spending reductions in cash 
grants, employment services, and child care to bridge a 
deficit, anticipated to be in excess of $500 million.
    To answer your question to the final panel, case loads have 
declined. Some would judge that a success. They have declined 
much faster than poverty rates, even in light of California's 
extremely good economy during the late 1990s.
    More people are working. Again, that is a success. A large 
part of that is attributable to unprecedented employment growth 
during the late 1990s. Again, I don't think we can anticipate 
economic growth of that level in the foreseeable future. 
However, due to low wages, many families continue to combine 
work and cash assistance. Approximately 60 percent of those 
people who have left the CalWORKS case loads are working, 
though many do not earn enough to support a family.
    Because of California's high cost of living and the 
structure of our cash assistance program, 42.8 percent of the 
adults receiving cash assistance were employed, substantially 
higher than the national average of 28 percent. Again, most 
parents who do find work do not earn enough to support a 
family.
    County level studies suggest that the median hourly wages 
for welfare ``leavers'' in the San Francisco Bay Area are 
approximately $9 to $10 an hour. That is in an area where the 
rent for a two-bedroom apartment is oftentimes as much as 
$2,000 a month. The total household income for many ``leavers'' 
often falls at or below the federal poverty level, and is far 
below what it costs to live in California.
    Moreover, many families do not receive the supportive 
services that can help them facilitate the transition from 
welfare-to-work. A recent study found that approximately half 
of welfare laborers received Medi-Cal, California's Medicaid 
program 1 year after leaving welfare. Only one in five report 
receiving food stamps, even though an additional 30 percent or 
more are eligible.
    Many of the families who remain on welfare have serious 
barriers to employment. A study of two California counties 
found that up to one-third have recent and serious mental 
health and domestic violence problems. Many welfare recipients 
lack the education and language skills that are necessary for 
employment at higher earnings. More than half of California's 
CalWORKS adults lack a high school degree, and more than a 
third of CaLWORK's heads of household reported a primary 
language other than English.
    How can you help us resolve these problems and move to 
marking welfare reform a success? First, Congress should, at a 
minimum, adjust the TANF block grant for inflation; increase 
funding for the Child Care and Development Block Grant, and 
update the TANF contingency fund. As I mentioned before, 
California is currently overspending the funds that are 
available to us. Over the next 5 years, the purchasing power of 
our TANF block grant will be eroded by approximately 22 
percent.
    The deficit has two causes. First, program costs continue 
to rise with inflation despite stagnant funding levels. Second, 
the current model that California uses prepares recipients for 
and supports them in work. That is more costly than the prior 
cash assistance model upon which the State's block grant was 
predicated.
    Second, Congress should retain and expand flexibility for 
States and counties. One of the primary virtues for TANF is 
that it provided States with flexibility. We believe that to 
undermine or limit this flexibility would limit one of the 
guiding principles of welfare reform, that States rather than 
the Federal Government are best situated to identify the needs 
of local communities.
    We recommend families who combine welfare and work, should 
not lose the possibility of future assistance and would 
encourage you to ``stop the clock'' for families that are 
working. Fourth, Congress should make poverty reduction an 
explicit goal of TANF to take welfare reform to the next step. 
We would encourage you to remove restrictions on education and 
training as work activities and allow States the option to use 
TANF funds to serve legal immigrants. Thank you.
    [The prepared statement of Ms. Ross follows:]
Statement of Jean Ross, Executive Director, California Budget Project, 
                         Sacramento, California
    Mr. Chairman and Members of the Subcommittee:
    Good afternoon. My name is Jean Ross, and I am the Executive 
Director of the California Budget Project (CBP). The CBP is a nonprofit 
policy research group based in Sacramento, California. Over the past 
seven years, we have analyzed the impact of state and federal welfare 
policies and have worked with public and nonprofit organizations 
throughout the state to develop policies and programs aimed at moving 
families not only off welfare, but also toward self-sufficiency. My 
testimony will address the impact of welfare reform in California and 
the issues that you are considering as part of the reauthorization 
debate that are important as California strives to move families from 
welfare-to-work.
What Has Happened Since 1996?
    California is spending available funds. California has used 97 
percent of all TANF funds it has received.\1\
---------------------------------------------------------------------------
    \1\ This includes actual reported expenditures, as well as 
transfers from the TANF block grant to the Social Services Block Grant 
and the Child Care and Development Fund.
---------------------------------------------------------------------------
    The CalWORKs program is running a deficit. Combined annual TANF and 
MOE funds of $6.4 billion are not sufficient to fully fund CalWORKs, 
California's TANF program. The Governor's proposed 2002-03 Budget makes 
spending reductions in cash grants, employment services, and child care 
to bridge a deficit in excess of $500 million.
    case loads have declined, but much faster than poverty rates. 
Between March 1995 and November 2001, the number of families receiving 
cash assistance through AFDC/CalWORKs declined by 46 percent. Poverty 
rates have dropped as well, but not nearly as much as the case load.
    More people are working. California witnessed unprecedented 
employment growth during the late 1990s and unemployment rates reached 
historic lows. The strength of the state's labor markets enabled many 
families to obtain work. However, due to low wages, many continued to 
combine work and cash assistance. Approximately 60 percent of people 
who leave CalWORKs are working, though many do not earn enough to 
support a family.\2\ In 1999, 42.8 percent of adults receiving cash 
assistance through CalWORKs were employed, much higher than the 
national average of 27.6 percent.\3\
---------------------------------------------------------------------------
    \2\ See, for example, California Department of Social Services, 
CalWORKs Leaver Survey: A Statewide Telephone Survey of Former CalWORKs 
Recipients (January 2000).
    \3\ US Department of Health and Human Services, Temporary 
Assistance for Needy Families (TANF) Program, Third Annual Report to 
Congress, Table 10:20 (August 2000), downloaded from www.acf.dhhs.gov/
programs/opre/annual3.doc. 1999 is the most recent year for which data 
are available.
---------------------------------------------------------------------------
    Most parents who find work do not earn enough to support a family. 
County studies suggest that median hourly wages for leavers in the Bay 
Area are approximately $9 or $10. However, total household income for 
leavers often falls at or below the federal poverty level and far below 
what it costs to live in California.\4\
---------------------------------------------------------------------------
    \4\ R. Mark Gritz et al.,  Assessing the Family Circumstances of 
TANF Applicants and Leavers in Contra Costa and Alameda Counties: Final 
Report (Sphere Institute: October 26, 2001); Anne Moses et al., 
Examining Circumstances of Individuals and Families Who Leave TANF: 
Assessing the Validity of Administrative Data: 12-Month Report (Sphere 
Institute: December 22, 2000); David Mancuso and Vanessa Lindler, 
Examining the Circumstances of Welfare Leavers and Sanctioned Families 
in Sonoma County (Sphere Institute: June 29, 2001); and California 
Budget Project, Making Ends Meet: How Much Does it Cost to Raise a 
Family in California? (September 2001).
---------------------------------------------------------------------------
    Many families do not receive supportive services that facilitate 
the transition from welfare-to-work. A recent study based on state 
administrative data found that half (49 percent) of leavers receive 
Medi-Cal one year after leaving CalWORKs.\5\ Surveys of Bay Area 
leavers indicate that approximately one-quarter lack any type of health 
coverage one year after leaving cash assistance.\6\ Only one in five 
CalWORKs leavers (19 percent) report receiving food stamps and another 
30 percent or more are eligible but do not receive food stamps.\7\
---------------------------------------------------------------------------
    \5\ Amy Cox and Jacob Klerman (RAND) and Ingrid Aguirre Happoldt 
(Medi-Cal Policy Institute), Medi-Cal After Welfare Reform: Enrollment 
Among Former Welfare Recipients (Medi-Cal Policy Institute: December 
2001).
    \6\ R. Mark Gritz et al.,  Assessing the Family Circumstances of 
TANF Applicants and Leavers in Contra Costa and Alameda Counties: Final 
Report (Sphere Institute: October 26, 2001); Anne Moses et al., 
Examining Circumstances of Individuals and Families Who Leave TANF: 
Assessing the Validity of Administrative Data: 12-Month Report (Sphere 
Institute: December 22, 2000); David Mancuso and Vanessa Lindler, 
Examining the Circumstances of Welfare Leavers and Sanctioned Families 
in Sonoma County (Sphere Institute: June 29, 2001).
    \7\ California Department of Social Services, CalWORKs Leaver 
Survey: A Statewide Telephone Survey of Former CalWORKs Recipients 
(January 2000); R. Mark Gritz et al.,  Assessing the Family 
Circumstances of TANF Applicants and Leavers in Contra Costa and 
Alameda Counties: Final Report (Sphere Institute: October 26, 2001); 
Anne Moses et al., Examining Circumstances of Individuals and Families 
Who Leave TANF: Assessing the Validity of Administrative Data: 12-Month 
Report (Sphere Institute: December 22, 2000); David Mancuso and Vanessa 
Lindler, Examining the Circumstances of Welfare Leavers and Sanctioned 
Families in Sonoma County (Sphere Institute: June 29, 2001).
---------------------------------------------------------------------------
    Many families that rely on cash assistance have serious barriers to 
employment. A study of two California counties found high incidences of 
mental health issues, domestic violence, and drug dependency among 
CalWORKs recipients.\8\ Up to one-third have recent mental health or 
domestic violence problems. Many CalWORKs recipients lack the education 
and language skills that are linked to employability and earnings. More 
than half of CalWORKs adults lack a high school degree.\9\ Over one-
third of CalWORKs heads of household report a primary language other 
than English.\10\
---------------------------------------------------------------------------
    \8\ Sandra Naylor Goodwin et al., The Prevalence of Mental Health, 
Alcohol and Other Drug, and Domestic Violence Issues among CalWORKs 
Participants In Kern and Stanislaus Counties (California Institute for 
Mental Health: September 2000).
    \9\ California Department of Social Services, CalWORKs: A 
Characteristics Survey on Social and Economic Characteristics of 
Families Receiving Aid (Federal Fiscal Year 1999).
    \10\ California Department of Social Services, CalWORKs: A 
Characteristics Survey on Social and Economic Characteristics of 
Families Receiving Aid (Federal Fiscal Year 1999).
---------------------------------------------------------------------------
Recommendations
    Congress should, at a minimum, adjust the TANF block grant for 
inflation, increase funding for the Child Care Development fund CCDF), 
and update the TANF contingency fund.
    While California's CalWORKs case loads have declined by nearly 
half, program costs exceed available funds from the annual TANF block 
grant and the minimum MOE spending requirement. This deficit has two 
causes: (1) program costs rise with inflation, despite stagnant funding 
levels and (2) the CalWORKs model, which prepares recipients for and 
supports them in work, is more expensive than the AFDC cash assistance 
model on which the state's block grant was predicated.
    In addition, funding for the Child Care and Development Fund (CCDF) 
must be increased in order to ensure that families are not forced back 
on to welfare because they cannot afford the child care they need to 
remain in the workforce. We estimate that over a quarter of a million 
California children qualify for child care assistance based on income 
but do not receive it.\11\
---------------------------------------------------------------------------
    \11\ California Budget Project, Lasting Returns: Strengthening 
California's Child Care and Development System (May 2001).
---------------------------------------------------------------------------
    Congress should also update the TANF contingency fund, which is 
designed to provide states with additional funds during economic 
downturns. The original program rules do not reflect the fiscal 
realities of states and the maintenance of effort requirement makes the 
fund essentially useless to states when they are most in need.
    Congress should retain and expand flexibility for states and 
counties.
    TANF provided states with the ability to craft programs to match 
diverse local needs. This is particularly important in a state like 
California that encompasses urban areas with strong, technology based 
labor markets, as well as rural areas with high levels of poverty and 
high rates of structural unemployment. Our Legislature took advantage 
of this flexibility when creating the CalWORKs program by designing a 
benefit structure that rewards work, allowing recipients with an 
opportunity to pursue education, and encouraging counties to address 
barriers to work, such as mental health and substance abuse problems. 
To limit this flexibility would undermine one of the guiding principles 
of welfare reform: that states, rather than the Federal Government, are 
best situated to identify the needs of local communities.
    Families that combine welfare and work should not lose the 
possibility of future assistance.
    California uses earnings disregards to encourage work and raise 
family income. However, since these families continue to receive grant 
checks, no matter how small, they ``use up'' time-limited assistance 
that might be needed more in the future. Families are thus rewarded by 
the earnings disregard and punished by the time limit for combining 
welfare and work. The typical earnings of welfare ``leavers'' are far 
below the levels necessary to afford basic necessities, particularly in 
light of California's high housing costs. In the San Francisco Bay 
Area, where studies find that leavers typically earn $9-$10 per hour, a 
family needs to earn $10.08 an hour in full-time employment to pay the 
Fair Market Rent on a one bedroom unit, not including the cost of food, 
transportation, child care and other necessities. We estimate that a 
single mother with two children needs to earn $25.99 per hour in full-
time work to afford the full complement of basic necessities.\12\
---------------------------------------------------------------------------
    \12\ California Budget Project, Making Ends Meet: How Much Does it 
Cost to Raise a Family in California? (September 2001).
---------------------------------------------------------------------------
    Congress can resolve this conflict by giving states the option to 
``stop the clock'' for recipients who are working and still receiving 
cash assistance. Alternatively, Congress could designate earnings 
supplements as ``non-assistance,'' so that they would not apply toward 
the five-year time limit.
    Congress should make poverty reduction an explicit goal of TANF.
    TANF reauthorization provides an opportunity to communicate to the 
public, recipients, and states what the goals and priorities of welfare 
reform will be over the next several years. Currently, the main message 
received by states is that reducing the number of families that receive 
cash assistance is the primary measure of success. However, given that 
many welfare leavers are not working in stable jobs or do not earn 
wages sufficient to support families, reducing the number of families 
receiving cash aid should not be the only or primary measure of 
success. The Federal Government should place more emphasis on improving 
family economic well-being, not just moving families off the case load.
    Congress should remove restrictions on education and training as 
work activities.
    Currently, recipients can satisfy federal work requirements by 
enrolling in vocational education for no longer than 12 months. 
However, research in the context of welfare reform suggests that higher 
skill levels and education beyond high school are linked to higher 
future wages.\13\ A comprehensive evaluation of 11 welfare-to-work 
programs found that a Portland program that used a ``mixed'' strategy, 
assigning some participants to education and training and others to job 
search, was most successful at increasing employment and family income. 
Programs that encouraged all recipients to pursue education or training 
or to get a job as quickly as possible were not as effective as the 
Portland program.\14\ Together, these findings indicate that a 12-month 
restriction on vocational education may not make sense for recipients. 
For certain recipients, such as those who are finishing a degree, 
education alone may be the best way to increase future earnings.
---------------------------------------------------------------------------
    \13\ Julie Strawn and Karin Martinson, Steady Work and Better Jobs: 
How to Help Low-Income Parents Sustain Employment and Advance in the 
Workforce (Manpower Demonstration Research Corporation: June 2000).
    \14\ Gayle Hamilton, et al., National Evaluation of Welfare-to-Work 
Strategies: How Effective Are Different Welfare-to-Work Approaches? 
(Manpower Development Research Corporation: December 2001).
---------------------------------------------------------------------------
    Congress should allow states the option of using TANF funds to 
serve legal immigrants.
    California uses state funds to provide CalWORKs cash assistance and 
services and food stamps to immigrants who are not federally eligible. 
Even though essentially all immigrants remained eligible for food 
stamps and cash assistance through the state's replacement programs, 
immigrant participation in these programs fell dramatically in the 
1990s.\15\ Allowing states to use TANF block grant funds for recent 
immigrant families would give California flexibility over how to use 
TANF and MOE funds and would help reduce confusion about eligibility by 
making all legal immigrants eligible for federal TANF benefits, 
regardless of date of entry into the US.
---------------------------------------------------------------------------
    \15\ California Department of Social Services. Sponsorship or 
``deeming'' rules, which count the resources and income of an 
immigrant's sponsor when determining program eligibility, make many 
recent immigrants ineligible for these programs.
---------------------------------------------------------------------------
    Congress should not require states to use block grant funds to 
implement marriage promotion or other family structure programs.
    While evidence exists that growing up in families with married 
parents has positive economic benefits and effects on child well-being, 
research by the CBP indicates that working poor families in California 
are just as likely to be married as all working families.\16\ Moreover, 
in light of the CalWORKs deficit, it is not reasonable to create more 
demands on the state's TANF block grant and MOE funds. Policies that 
may help strengthen families include:
---------------------------------------------------------------------------
    \16\ California Budget Project calculations from the Current 
Population Survey.

        <bullet> Encouraging states to remove any barriers in their 
        TANF programs that discriminate against two-parent families.
        <bullet> Providing income support to working families. A study 
        of a Minnesota TANF program with an earnings disregard very 
        similar to California's found increases in marriage rates for 
        both single-parent and two-parent families.\17\
---------------------------------------------------------------------------
    \17\ Virginia Knox, Cynthia Miller, and Lisa A. Gennetian, 
Reforming Welfare and Rewarding Work: A Summary of the Final Report on 
the Minnesota Family Investment Program (Manpower Demonstration 
Research Corporation: September 2000).
---------------------------------------------------------------------------
        <bullet> Improving child support enforcement and distribution.
        <bullet> Supporting low-income fathers, with employment 
        training and educational opportunities.

    Thank you for the opportunity to testify this afternoon. I would be 
happy to answer any questions you might have.

                                 <F-dash>

    Mr. ENGLISH. Thank you, Ms. Ross. Mr. Yazza, we look 
forward to your testimony.

   STATEMENT OF ALEX YAZZA, JR., DEPARTMENT DIRECTOR, NAVAJO 
NATION TEMPORARY ASSISTANCE TO NEEDY FAMILIES PROGRAM, DIVISION 
            OF SOCIAL SERVICES, WINDOW ROCK, ARIZONA

    Mr. YAZZA. Good evening, Chairman Herger, Mr. English. I am 
representing the Navajo Nation, which has a population of about 
200,000 members, which is a reservation that extends into 
States of New Mexico, Arizona, and Utah, covering approximately 
27,000 square miles. The Navajo Nation began its tribal TANF 
operations on October 1, 2000.
    Pursuant to section 412 of the law and pursuant to 45 CFR 
Part 286 of the Tribal TANF Rules and Regulations, the Navajo 
Nation is providing services to 9,000 Navajo families serving 
27,000 recipients within the three State areas. Our annual 
budget is approximately $31.2 million, providing services to 
our Navajo customers.
    The issue that I am going to present to the Committee is in 
regards to any bills that are being introduced by Congress this 
year and the lack of funding resources for services for Indian 
tribes. We are presented with a disadvantage for tribal 
agreements to immediately determine if they should apply for 
tribal TANF programming. In this lack of funding, we see that 
issues that we have in terms of funding streams that States are 
receiving are not provided to the tribes, including the 
maintenance of effort dollars, performance bonuses, access to 
the contingency funds, planning, and any startup dollars to 
provide to the Navajo Nation as well as Indian tribes.
    Second, some funding streams that tribes cannot access and 
are not adequate are the disproportionate amount of State 
funding to administer TANF. This is again, the TANF block grant 
is not providing enough funds for tribal operations. In light 
of that, the Navajo Nation has experienced the lack of funds 
to, one, construct new one-stop shop service delivery centers, 
to renovate existing facilities, or buildings to house now 
tribal TANF programming, to develop or enhance a computer 
management information system to effectively and efficiently 
serve our Navajo families.
    To anticipate tribal customer case load increases, and to 
adjust administrative cost of living costs associated with an 
annual 2.5-to 5-percent inflationary adjustment and also to 
develop a culturally enriched training and development program 
for our customers, staff, and partners.
    I am bringing these issues up because the States are 
advocating for the same level of funding at $16.5 billion. In 
the budgeted message to Congress, President Bush also proposes 
to maintain the same level of funding for States but with a 
greater emphasis on getting TANF customers to work and 
encouraging formation of two-parent families. In neither of 
those two proposals Indian tribes again are not mentioned in 
the reauthorization process.
    In the bill that is being provided by Representative 
Herger, H.R. 4090, he talks about the basic development of the 
President's message and keeping in line with that, and we 
support some of the issues, but one thing that we notice is in 
terms of strengthening child support, that we also would like 
to continue to provide child support payments to mothers and 
children.
    In order for us to do so, we need to be able to establish 
what is called a Financial Medical Assistance Program (FMAP) 
rate, in order for us to pass those same dollars on to our 
tribal family members. In regards to Representatives Mink, H.R. 
3113, she mentions the reauthorization of tribal TANF 
programming through the year 2008.
    Representative Cardin's bill, H.R. 3625, does not 
specifically identify reauthorization for tribal TANF 
programming. I mention this to you, Mr. English, because again, 
tribes feel that they are left out in this whole discussion. 
That as States are presenting their information and advocating 
for the maintenance of the same level of funding, tribes are 
not being consulted and are not being able to provide the type 
of input that is needed.
    Speaking of lack of funds, another issue I want to discuss 
regards the Title IV-E program. Since Indian children and 
families need other support services besides TANF to 
successfully make their transition toward self-sufficiency, 
there needs to be additional funding available for Indian 
tribes for those purposes.
    Many children making this transition will be in foster care 
and adoptive settings, and therefore stable funding, such as 
the funding available through Title IV-E, foster care, and 
adoption assistance programs could provide these opportunities 
for Indian children and families. We are encouraged by the 
supportive efforts to give tribal governments the opportunities 
for direct funding such as H.R. 2335, which is a legislation 
sponsored in the House by Congressman Dave Camp. We think this 
legislation will be a good fit for tribal welfare 
reauthorization.
    In closing, Mr. English, we do support the fact that we 
would like to have Congress consider federalizing the MOE, 
which would be basically providing 100 percent MOE dollars for 
the tribes. We ask at this time also that tribes are requesting 
for economic development initiatives in addition to our tribal 
welfare reform programming. So, that is something that we are 
also asking for.
    So, in our tribal programs, we know that welfare reform 
means economic reform on our reservations. Thank you very much.
    [The prepared statement of Mr. Yazza follows:]
   Statement of Alex Yazza, Jr., Department Director, Navajo Nation 
  Temporary Assistance for Needy Families Program, Division of Social 
                     Services, Window Rock, Arizona
    Chairman Herger and Members of the Committee:
    My name is Alex Yazza, Jr. I am the Department Director of the 
Navajo Nation Temporary Assistance for Needy Families (TANF) Program, 
Division of Social Services, in Window Rock, Arizona. On behalf of the 
Navajo Nation, it is a great privilege to be here today to address the 
viewpoints on tribal TANF for the reauthorization of welfare reform.
    The Navajo Nation has a population of 250,000 members and is the 
largest federally recognized Indian tribe in the United States. 
Navajoland extends into the States of New Mexico, Arizona and Utah, 
covering over 27,000 square miles and is compared to the size of the 
State of West Virginia. Since 1997, the Navajo Nation engaged itself in 
planning, organizing, developing and implementing it's own tribal TANF 
program pursuant to Public Law 104-193, Personal Responsibility and 
Work Opportunity Reconciliation Act of 1996 (PRWORA), Section 412, and 
pursuant to 45 CFR Part 286, the Tribal TANF Rules and Regulations. The 
Navajo Nation negotiated with the States of New Mexico, Arizona, and 
Utah for the proportionate of the federal ``Tribal Family Assistance 
Grant'' (TFAG) block grant funds to begin operations of the tribal 
program. Pursuant to Fiscal Year 1994 case load data, the three states 
served 9,000 Navajo families (27,000 recipients) comprising of an 
annual budget of $31.2 million. The Department of Health and Human 
Services (DHHS) Secretary approved the Navajo Nation TANF Plan to begin 
administering the tribal program on October 1, 2000. Thus far, the 
Navajo Nation is the largest tribal TANF program in the United States.
    The reauthorization of welfare reform lends the opportunity for 
Indian Tribes to provide input regarding issues which were not 
adequately addressed before. Therefore, it is an appropriate time to 
carefully examine the issues and recommendations to consider before 
Congress during this legislative session.
Lack of Funding Resources
    From the beginning, the lack of adequate funding for Indian Tribes 
presented a disadvantage for tribal governments to immediately 
determine if they should apply for the tribal TANF program. Pursuant to 
P.L. 104-193, Section 412, tribes applying for the administration of 
the program were provided a funding formula that simply used the state 
case load data of Indian families served and state expenditures serving 
Indian families in Fiscal Year 1994. What Congress and state human 
service providers did not consider was the socio-economic factors of 
tribal reservations. For example, the Navajo Nation's unemployment rate 
is 53.88% (1999 BIA Labor Force Statistics) and the cost of living is 
much higher than urban metropolitan communities. Therefore, the lack of 
funding resources continues to present unique problems for tribal 
governments to adequately meet the needs of administering the program. 
In addition, to providing the cash assistance payments to the Navajo 
customers, high administration costs and indirect costs creates an 
inequitable service delivery operations.
    The challenges for the Navajo Nation to effectively implement a 
large tribal TANF program is the lack of funds to:

        <bullet> Construct new ``one stop shop'' service delivery 
        centers
        <bullet> Renovate existing facilities or buildings to house 
        the new tribal TANF program
        <bullet> To develop or enhance a computer management 
        information system (MIS) to effectively and efficiently serve 
        our Navajo families
        <bullet> To anticipate tribal customer case load increases
        <bullet> To adjust administration cost of living costs 
        associated with annual 2.5 to 5.0% COLA
        <bullet> To develop a culturally enriched training and 
        development program for our customers, staff and partners

    Currently, the Navajo Nation receives $31.2 million per year in 
``Tribal Family Assistance Grant'' (TFAG) and has cost allocated this 
amount for customer benefits payment and administration costs. This 
amount is still not enough to fully implement a successful tribal TANF 
program. Congress needs to understand that tribes are stepping into the 
roles of state TANF administration, liken to become a state provider. 
In the case of the Navajo Nation, we are now responsible for a tri-
state program the size of the State of West Virginia! Therefore our 
costs escalates even greater in the pre-administration of tribal TANF.
    The Navajo Nation requests of the committee to consider providing 
additional funds for the above mentioned issues to successfully 
implement the tribal TANF program.
    Currently, states are advocating for retaining of the same level of 
funding at $16.5 billion. In the budget message to Congress, President 
Bush also proposes to maintain the same level of funding for states, 
but with greater emphasis on getting TANF customers to work and 
encouraging the formation of two-parent families. In either of these 
two proposals, Indian Tribes are, again, not mentioned in the 
reauthorization process. Thus, it is incumbent to come before you today 
to strongly advocate on behalf of Indian Tribes.
    In meeting the President's welfare reform agenda ``. . . to 
strengthen families and welfare recipients work toward independence and 
self-reliance'', the Navajo Nation needs more funding above and beyond 
the state formula allocation system pursuant to P.L. 104-193.
    The Navajo Nation reaffirms the government-to-government 
relationship with the Federal Government and supports the direct 
funding of federal TANF grants to tribes. The Navajo Nation also 
supports a funding formula that provides no less than the current 
resource level, observing a ``no net loss'' principle. The Navajo 
Nation also supports the President's proposal that allows for 
flexibility to be creative to build a network of assistance for low 
income families. This will allow tribes to further design their own 
programs, define program eligibility, and establish what benefits and 
services will be available and developing their own strategies for 
achieving program goals and including how tribal TANF customers move 
into the workforce.
    In speaking on the lack of funds, another issue I want to discuss 
regards the Title IV-E program. Because Indian children and families 
need other support services besides TANF to successfully make their 
transition toward self-sufficiency, there needs to be additional 
funding available to Indian tribes for these purposes. Many children 
making this transition will be in foster care and adoptive settings, 
and therefore, stable funding, much like the funding available through 
the Title IV-E Foster Care and Adoption Assistance Program could 
provide these opportunities for Indian children and families. We are 
encouraged by and supportive of efforts to give tribal governments 
opportunities for direct funding, such as H.R. 2335, legislation 
sponsored in the House by Congressman Dave Camp. We think this 
legislation would be a good fit with welfare reform reauthorization.
State Maintenance of Effort (MOE)
    Currently, it is unclear whether the states will continue to 
provide state maintenance of effort (MOE) funds to Indian Tribes 
administering their own tribal TANF program. The Navajo Nation receives 
MOE funds from the States of Arizona and Utah. The State of New Mexico 
has not provided MOE funds to the Nation. The states have the 
discretion to provide state MOE funds to the tribes. The uncertainty 
that states will provide MOE funds beginning in FY 2003 depends on the 
economic conditions of the states. In the most recent state legislative 
sessions, the States of New Mexico, Arizona and Utah have reduced state 
spending and have cut human service budgets which affects the general 
funds of the states. There is no guarantee that states will continue to 
provide MOE to Indian tribes.
    The Navajo Nation certainly supports the idea that states should 
continue to provide MOE, however, also recommends that the Congress 
consider that it ``federalize'' the MOE and provide the tribes a 100% 
MOE federal funds for tribal TANF.
    Otherwise, the Congress must consider providing states with better 
incentives to contribute MOE to tribal programs. These incentives could 
include:

        <bullet> Increase the credit toward MOE requirements for funds 
        that states contribute to tribal programs--quintuple (or 
        double) state credit toward MOE contributions to tribal 
        programs. For example, for every dollar that a state 
        contributes to a tribal TANF program, they receive a credit of 
        five dollars (or two) dollars toward their MOE.
        <bullet> Reimburse states for a share of their MOE 
        contribution to tribal programs. For example, reimburse states 
        thirty cents for every dollar that they contribute to a tribal 
        program.
        <bullet> Provide both the states that are contributing MOE to 
        tribal programs and the respective tribal programs access to 
        funds from a new pot of money--an economic stimulus package.

    In considering these options, the states would continue to provide 
additional funds to tribal TANF programs and would receive credit 
towards their MOE requirements. More importantly, the Navajo Nation is 
obligated to continue to work with the respective states in a 
collaborative partnership in providing Food Stamps, Medicaid and Child 
Support Enforcement services to the Navajo families.
Economic Development
    In speaking on economic development issues, it is imperative that 
Congress understand the tribal economic conditions. There are certainly 
strengths and weaknesses in Indian Country concerning economic 
development. Often times, there is a misconception that all tribes 
operate casinos and generate revenues from these casinos for economic 
development purposes. The Navajo Nation is not a gaming tribe. Much of 
our revenues generated are from natural resources (coal and oil). 
Resources are limited to develop the economic infrastructure needed to 
attract large industries for jobs creation and employment opportunities 
for our Navajo TANF customers. According to 1998 figures from the 
Navajo Division of Economic Development, approximately fifty-six 
percent of Navajo people lived below the poverty level and the per 
capita income was at $5,759 per year. As mentioned before, the Navajo 
Nation's high unemployment rate (53.88%) presents an even greater 
challenge to providing job services and employment opportunities to the 
9,000 Navajo TANF families.
    The Navajo Nation government is working hard to attract new 
investment, businesses, and jobs to the reservation. For example, the 
Navajo Nation began a tax incentive based on the 1993 ``Indian 
Investment and Employment Tax Incentives Act'' to create an investment 
mechanism to enhance tax-exempt bond authority to provide tribal 
leaders a critical tool for attracting the necessary capital to 
facilitate investments in Indian Country. This is important for the 
efforts of job creation and capital development for new businesses on 
the Navajo Nation.
    The mission of the Navajo Nation TANF Program is to promote 
personal responsibility and to provide opportunities to empower the 
people to make a positive change in their lives. The program will 
assist families and individuals with time limited cash assistance and 
social skills to enhance their quality of life and reach their maximum 
potential of self-sufficiency. Therefore, it is imperative for the 
Navajo Nation to find ways to attract various types of businesses to 
locate on the Navajo Nation to create jobs and spur the economy.
    In meeting the goals and objectives of our tribal TANF program, we 
need funding for economic development activities and initiatives for 
our customers. The Navajo Nation requests for economic development 
funds in the form of planning grants to meet the requirements of work 
participation. For example, the Navajo Nation's mandatory work 
requirement rate (MWRR) is at 10% the first year; 15% the second; and 
20% the third year and beyond. This means that for the first year of 
tribal TANF operations, the Navajo Nation must engage (900) tribal TANF 
customers to work activities mandated by law. Thus, the planning grants 
provided will definitely add to the Navajo Nation's movement in 
creating partnership opportunities with business organizations as well 
as connecting with new entities and organizations.
    The bottom line: ``Welfare Reform means Economic Reform'' on the 
Navajo Nation! The help of Congress with economic development dollars 
will be appreciated.
Southwest Tribal TANF Coalition (SWTTC)
    The Navajo Nation is a member of the Southwest Tribal TANF 
Coalition (SWTTC) formed in the Spring of 2001 to address the welfare 
reform reauthorization. Members of this coalition are five Arizona 
tribes administering their own tribal TANF programs. They are: Pascua 
Yaqui Tribe, Salt River Pima-Maricopa Indian Community, White Mountain 
Apache, Hopi Tribe and the Navajo Nation. The coalition is also 
represented by the Inter-Tribal Council of Arizona (ITCA), Arizona 
Commission on Indian Affairs (ACIA), Arizona Department of Economic 
Security (ADES), Arizona State University (ASU), and a Nineteen Tribal 
Nations Workforce Investment Board. The SWTTC was successful in meeting 
with the state TANF administrators, state legislators, federal 
officials, and being a member of the National Congress of American 
Indians (NCAI) Tribal TANF Administrators Workgroup. The coalition has 
developed a position briefing paper on welfare reform (Attachment 
``A''). The issues addressed are common and provides insights to 
specific tribal TANF issues in the State of Arizona.
Conclusion
    I want to re-emphasize the importance of culture, language and 
traditions. The life values we incorporated into our program comes from 
the teachings of our elders. The four tenets of Navajo philosophy of 
``Pathway to Self-Sufficiency'' is evident in our tribal TANF program: 
Nitsahakees--Thinking; Nahat'a--Planning; Aadiiliil--Doing; and  
Beeniiseeldo--Growing. This pathway affirms the concept of: ``Taa hoo 
ajiiteego yaateego jiinaa do''--``It is up to you to live a good 
life''. Therefore, the Navajo Nation and other tribal TANF programs 
presents some very unique issues to the discussion of tribal welfare 
reform. It is the hope of tribal TANF programs that Congress begins to 
hear and listen to the needs of tribal issues. Evidently, ``One size 
DOES not fit all''. In this case, Congress needs to recognize the 
tribal sovereignty and self-determination issues tribes bring to the 
table. As new bills are introduced and the debate on reauthorization 
continues, please keep in mind the Native American population and the 
efforts we are making to strive for a better way of life. In the name 
of Nation Building, the Navajo Nation seeks the support of Congress to 
make a positive change in the lives of our people. Thank you very much.

                                 <F-dash>

    Mr. ENGLISH. Thank you very much, Mr. Yazza. Mr. Rodriguez, 
thank you for your patience. We look forward to your testimony.

STATEMENT OF CECILIA MUNOZ, VICE PRESIDENT, NATIONAL COUNCIL OF 
              LA RAZA, PRESENTED BY ERIC RODRIGUEZ

    Mr. RODRIGUEZ. Thank you, Congressman. On behalf of the 
National Council of La Raza (NCLR), I want to thank you for 
allowing us the opportunity to present remarks today.
    As you may know, NCLR is the Nation's largest Latino civil 
rights organization. We take a keen interest in the 
reauthorization of TANF and welfare reform. As you know, 
Hispanic-Americans were among the most affected by the 
enactment of the 1996 law. The community, both immigrants and 
native-born have followed the issue very closely since then.
    While the most visible focus for Latinos has been the 
immigrant provisions of the original reforms, there are 
additional major concerns that we urge the Committee to focus 
on. I would like to underscore that what makes this issue 
resonate for Hispanic-Americans is not the fact that we are 
talking about welfare. For us, the issues which matter in this 
debate are about fairness, respect, and equity. We believe that 
this debate can and must be about reducing poverty for all 
working families regardless of who they are or where they are 
from.
    As you may be aware, the Nation is undergoing sweeping 
demographic changes. The Latino population has increased by 
almost 60 percent between 1990 and 2000, and much of this 
increase has taken place in States where the presence of 
Latinos is fairly new. For example, States like Arkansas, 
Georgia, and North Carolina have experienced over a 300-percent 
growth in its Latino populations. Many of these States are not 
fully equipped to deal with the needs of the growing immigrant 
populations.
    At the same time, NCLR is particularly concerned that while 
the welfare rolls have decreased dramatically nationwide, the 
proportion of TANF recipients that are Latino has increased 
over the last 5 years. These data combined with the experiences 
of NCLR's community-based affiliates and the communities that 
they serve, strongly suggest that Latino families could be more 
effectively served by Welfare-to-Work programs. In an economic 
downturn, for which the recovery may not mean the creation of 
new jobs, there are ominous developments that NCLR believes 
must be addressed in the reauthorization process.
    Among the greatest obstacles which prevent Latinos who have 
access to TANF from being well served by the program are 
language barriers. This issue affects both native born and 
immigrant Latinos who have a strong desire to get into the 
workforce, but who have not been able to access appropriate 
Welfare-to-Work services because they are still learning 
English. Typical of the kinds of cases we see are individuals 
who approach the States for services, who the States decide 
they do want to serve, but who never receive an employment 
assessment because caseworkers don't know how to provide one or 
choose not to bother. Similarly, limits on what can count 
toward the work requirements in TANF have limited access to 
English language instruction, which is critical to long term 
success in the workforce. As a result, many Latinos in need of 
services cannot meaningfully participate in the programs 
designed to get them successfully into the workforce. This 
represents a serious failure in the system which undermines the 
overall success of welfare reform.
    In addition to these major provisions, NCLR is concerned 
about funding disparities in Puerto Rico and other territories. 
While the President took an important first step in addressing 
these disparities with respect to one element of his proposal, 
unfortunately the rest of the proposal does not include grants 
to Puerto Rico where the TANF program is severely under-funded.
    Finally, I must address the question of legal immigrants. 
It is no secret that Hispanic-Americans were deeply offended by 
the provision in the original 1996 welfare bill which 
eliminated the safety net for legal immigrants, despite the 
fact that their tax dollars support it. While Congress has 
moved to restore many of the safety net programs that were 
eliminated for immigrants since then, these restorations only 
affect immigrants who were in the country before 1996, and even 
these are incomplete.
    You have heard from the State legislatures and the 
Governors that excluding legal immigrants from federal safety 
net programs creates a cost shift to States. They agree with 
NCLR and our allies in the religious, civil rights, and other 
communities that eligibility for federal safety net services 
should be restored for those legally in the United States 
regardless of when they arrived.
    Immigrants who are admitted legally to this country are 
vigorously screened for their ability to support themselves and 
live successful lives in the United States. The 1996 law made 
these screening procedures even more strict, and at the time 
made immigrants completely ineligible for the main federal 
programs. Immigrants work hard and contribute enormously to 
this country and pay more in taxes than they use in services. 
Recent studies demonstrate that the States that have seen the 
biggest increases in immigrant populations are those with the 
weakest safety net for immigrants. So much for the myth of the 
welfare magnet.
    Americans understand that what drives migration is work. 
Immigrants, for all that they contribute, are not super human. 
It is unfair to leave it to the States to fund services in 
times of need. The bottom line is that we don't ask if someone 
is an immigrant nor what year they arrived when it comes time 
to pay taxes. We don't ask them when it is time to serve and 
even die for this country. The inequity for asking these 
questions when its comes to providing a safety net is glaring. 
It is unworthy of this Nation of immigrants. We urge this 
Committee in the strongest possible terms to do the right 
thing, restore equity to the system and treat immigrants the 
same way that we treat other taxpayers who are in need of a 
safety net. Thank you.
    [The prepared statement of Ms. Munoz follows:]
Statement of Cecilia Munoz, Vice President, National Council of La Raza
I. INTRODUCTION
    Chairman Herger and Members of the Subcommittee, I am appearing 
this afternoon on behalf of the National Council of La Raza (NCLR), the 
largest national Latino \1\ civil rights organization. I thank you for 
holding this hearing and inviting me to testify. NCLR works to improve 
life opportunities for this nation's more than 35.3 million Hispanics 
through our network of more than 270 local affiliate community-based 
organizations and 30,000 individual associate members.
---------------------------------------------------------------------------
    \1\ The terms ``Latino'' and ``Hispanic'' are used interchangeably 
to refer collectively to Mexicans, Puerto Ricans, Cubans, Central and 
South Americans, and others of Spanish and Latin American descent. 
Hispanics can be of any race.
---------------------------------------------------------------------------
    NCLR has closely followed the impact of the Personal Responsibility 
and Work Opportunity Reconciliation Act (PRWORA) on low-income Latino 
families and has served as a voice in public policy debates related to 
the Temporary Assistance for Needy Families (TANF) block grant. 
Therefore, I appreciate this opportunity to testify in support of fair-
minded public policy to strengthen the TANF program and improve the 
opportunities for Hispanic families to move out of poverty and into 
good-paying jobs.
    I will begin this testimony by describing the new policy 
environment with respect to Latinos and the impact of the welfare 
reforms of 1996 that make TANF reauthorization an issue of particular 
importance to the Hispanic community. Second, I intend to highlight the 
existing proposals in the context of Latino priorities for TANF 
reauthorization. Finally, my testimony will conclude with 
recommendations to address more fully the concerns of this nation's 
Latinos, a community of increasing political and economic importance.
II. BACKGROUND
    The Personal Responsibility and Work Opportunity Reconciliation Act 
fundamentally altered the nation's primary cash assistance program for 
families. PRWORA's cuts in services and assistance to legal immigrants 
had a profound and adverse impact on immigrant and Latino families. By 
cutting legal immigrants off from the four major safety-net programs, 
PRWORA both deeply offended hard working immigrants and put the states 
in the position of spending their own funds to address the needs of 
these communities. While some programs have been restored, the 
fundamental inequity has not; leaving states in the front lines of 
providing a safety net to immigrants during an economic downturn.
    The 1996 law alone does not fully explain the new challenges facing 
states across the nation. Since then, there have been several other 
notable developments that make a strong case for change via the TANF 
reauthorization process this year.
    First, while in 2000 there were roughly half as many families on 
the welfare rolls nationwide as compared to 1996, the share of all 
families receiving TANF assistance who are Latino increased from 20.8% 
to 24.5% between 1995-1996 and 1998-1999. By 1999, more than one in 
four children on TANF nationwide was Hispanic.\2\ These data may signal 
that Latino families are having a more difficult experience navigating 
through the welfare-to-work process than other recipients.
---------------------------------------------------------------------------
    \2\ For a more detailed assessment of TANF case loads see: 
Rodriguez, Eric, and Kaydee Kirk, Welfare Reform, TANF case load 
Changes, and Latinos: A Preliminary Assessment. Washington, DC: 
National Council of La Raza, September 2000.
---------------------------------------------------------------------------
    Second, the economy is in recession and the fiscal condition of 
states seems dire. A slow growth economy coupled with the potential for 
a ``jobless'' recovery is expected to impact Latinos.\3\ Many Latino 
workers are concentrated in the low-wage labor market and are 
particularly vulnerable to job and income loss in the current economic 
climate. In many cases, those workers who happen to be legal immigrants 
are not eligible for basic safety-net services due to welfare reform's 
changes in eligibility for health and nutrition services and 
Unemployment Insurance (UI) rules that make them unqualified for help. 
Taken together, these factors indicate that more Hispanic families are 
likely to find themselves in need of safety-net services in the coming 
months. But many will find that the very programs that are designed to 
protect families and support their efforts to return to the workforce 
are beyond their reach.
---------------------------------------------------------------------------
    \3\ Suro, Roberto, and B. Lindsay Lowell, New Lows from New Highs: 
Latino Economic Losses in the Current Recession. Washington, DC: Pew 
Hispanic Center, January 2002.
---------------------------------------------------------------------------
    Finally, since 1990, the nation has undergone sweeping demographic 
changes. For instance, the nation's Latino population increased by 
57.9% between 1990 and 2000. Over the decade of the 1990s Hispanic 
communities prominently emerged in states such as Arkansas, Georgia, 
and North Carolina--states that experienced greater than 300% growth in 
their Latino populations. Undoubtedly, large numbers of immigrant 
Latino workers joining the labor force can explain the bulk of this 
population growth in these particular states. However, the firms and 
industries that have employed many immigrant and Latino workers have 
tended to pay low wages. Therefore, while almost all Latino and 
immigrant families in the U.S. have at least one working parent, many 
Hispanic workers fail to earn enough to lift their families above 
poverty. As a result of these factors, by 2000, one-quarter of all poor 
families in the U.S. were Hispanic, and a large share of these families 
had foreign-born parents who were working yet still poor. This means 
that entire segments of communities in states may be seeking aid but 
find themselves with no safety net or access to important work supports 
for which other Americans are eligible. In many cases, states want to 
serve these families but find federal rules too constricting.
    Given these factors, in 2002, states are facing new socioeconomic 
policy challenges. The TANF reauthorization debate will not result in 
good public policy so long as it fails to address the challenges facing 
poor Latino families.
III. LATINO PRIORITIES
    Recently, the Bush Administration released a plan to reauthorize 
the Temporary Assistance for Needy Families (TANF) block grant, the 
nation's primary cash assistance program for families. Not 
surprisingly, this proposal, along with existing proposals from 
Representatives Patsy Mink (D-HI) and Benjamin Cardin (D-MD), have 
generated a good deal of debate, which is helping to shape the 
political and policy parameters of the welfare reauthorization 
discussion.
    Thus far, proposals for TANF reauthorization have concentrated on 
several core issues such as funding for TANF, work requirements, and 
strengthening families. Although these issues have real implications 
for all families in the TANF system, no areas of the TANF 
reauthorization debate are likely to be more pivotal to the nation's 
Latino families than improving access to TANF, strengthening the 
welfare-to-work services available to TANF clients with limited English 
proficiency (LEP), and enhancing the ability of the Commonwealth of 
Puerto Rico to implement welfare reform.

        <bullet> Access to Assistance for Legal Immigrants. Under 
        current law, legal immigrants who arrived after 1996 are barred 
        for at least five years from receiving TANF and other federal 
        safety-net services. Although the law permits states to provide 
        TANF and related services to legal immigrants who arrived after 
        1996 using state funds, most states have not been able to serve 
        legal immigrants.\4\ Consequently, across the states, entire 
        segments of communities are unable to access basic safety-net 
        services should community members suffer unexpected job losses. 
        In response, the National Governors Association, the National 
        League of Cities, and the National Conference of State 
        Legislators have appealed to Congress to allow states to be 
        given the flexibility to serve legal immigrants in their states 
        with federal TANF funds.
---------------------------------------------------------------------------
    \4\ Currently, 23 states provide services to legal immigrants using 
state funds.
---------------------------------------------------------------------------
          Notwithstanding the practical needs of states, President 
        Bush's proposal posits that TANF reauthorization must safeguard 
        against ``welfare dependency among noncitizens''; a premise at 
        odds with available evidence.\5\ Though the White House did 
        support a provision that would allow greater access for legal 
        immigrants to Food Stamps, the TANF measure specifically 
        ensures that working families would remain unable to access 
        these services if needed.
---------------------------------------------------------------------------
    \5\ Research by the Urban Institute found that, during the last 
half of the 1990s, more immigrant families moved out of states that 
opted to provide TANF services to legal immigrants than those that 
moved into states with TANF access. See: Passell, Jeffrey S., and Wendy 
Zimmerman, Are Immigrants Leaving California? Settlement Patterns of 
Immigrants in the Late 1990s. Washington, DC: Urban Institute, April 
2001
---------------------------------------------------------------------------
          On the other hand, proposals from Representatives Cardin and 
        Mink would, to varying degrees, ensure that states can use 
        federal TANF dollars to provide basic services to legal 
        immigrants. Specifically, Representative Cardin's bill improves 
        access by eliminating the 1996 welfare reform law's ban on 
        states providing TANF assistance to legal immigrants and 
        reducing to three years the period during which a sponsor's 
        income would be deemed available to the immigrant. 
        Representative Mink's bill goes further by making legal 
        immigrants eligible for TANF on the same basis as citizens, 
        removing all barriers, waiting periods, and ``deeming'' 
        requirements that restrict eligibility.
        <bullet> Improving Welfare-to-Work Services for LEP Families. 
        Language barriers have constituted a major challenge to the 
        efforts of states to communicate effectively with and provide 
        TANF services to many Hispanic families. This issue has 
        impacted both native-born \6\ and immigrant Latinos who have a 
        strong desire to get into the workforce but have not been able 
        to access appropriate welfare-to-work services given their 
        language barriers. Moreover, in many cases LEP Latino and 
        immigrant welfare ``leavers'' exit the TANF system unaware of 
        the important transitional medical and other work supports 
        available to them.\7\
---------------------------------------------------------------------------
    \6\ Persons from the Commonwealth of Puerto Rico are native-born 
U.S. citizens, and many are limited-English-proficient.
    \7\ Previous research by NCLR has shown that Latinos constitute an 
increasing share of the TANF case load. Numerous studies have 
documented language barriers between LEP clients and human and social 
service offices; e.g., Applied Research Center, Equal Rights Advocates, 
National Campaign for Jobs and Income Support, and HHS Office for Civil 
Rights. Analysis of the Food Stamp Program (FSP) by the Food Research & 
Action Center has shown that over half of eligible Hispanic individuals 
fail to receive FSP benefits. Also, analysis of both Medicaid and the 
Food Stamp Program by the Urban Institute has documented an exodus from 
both work support programs by families leaving TANF.
---------------------------------------------------------------------------
          Although existing proposals take some steps to bridge 
        language barriers, none comprehensively address the concerns 
        regarding the challenges that states face in adequately serving 
        LEP families. Provisions to strengthen state plans, revise data 
        collection requirements, and perform assessments have the 
        potential to impact families with language challenges 
        positively. However, the existing proposals do not 
        comprehensively address the challenges states face in 
        adequately serving LEP families. Although both President Bush 
        and Rep. Cardin focus generally on strengthening state plans, 
        their proposals do not specifically mention LEP families, 
        allowing the needs of such families to be overlooked. 
        Furthermore, despite the Mink bill's efforts to strengthen data 
        collection, the required demographic information does not 
        include primary language or English proficiency. Also, the 
        provisions focusing on data collection in the President's 
        proposal move away from recording information on families 
        receiving TANF by focusing instead on information related to 
        management and performance, such as TANF-funded services and 
        expenditures. Finally, although the proposal from Rep. Mink 
        would provide individuals with the option to do a skills 
        assessment, TANF recipients facing language barriers may not 
        understand the option or elect to be assessed; whereas, 
        fortunately, Rep. Cardin's proposal would require that every 
        TANF recipient's employability be assessed and states that the 
        assessments would consider limited proficiency in English.
          An important tool for improving the employment outcomes of 
        LEP Hispanics is English language instruction. However, the 
        work-first philosophy and limits on what can count toward the 
        work requirements of TANF have dissuaded many states from 
        placing people in English language programs. Also, there is 
        significant concern as to whether the White House proposal 
        would increase flexibility or significantly limit the 
        opportunities for LEP TANF recipients to participate in 
        training activities, such as English language instruction.
          The administration's proposal would impose a 40-hour work 
        week on recipients (up from 30 hours under current law) and 
        require that at least 24 of the 40 hours be in ``direct'' work 
        activities. Furthermore, the White House proposal would only 
        allow participation in job training, possibly including English 
        language instruction, for up to three consecutive months within 
        a two-year period. Under current law, a state may count full-
        time vocational training for up to 12 months. Aside from the 
        provision for three months of job training, TANF recipients 
        would only be able to devote 16 hours per week to training 
        activities such as English language instruction. The increased 
        number of hours of participation will force parents of school 
        age children to participate in ``direct'' work activities 
        during the entirety of their child's school day (although such 
        schedules are difficult to obtain in the low-wage/low-skill 
        labor market). Should a parent intend to improve their English 
        proficiency, they would have to pursue this training after 
        school ends, forcing them to seek child care (although the 
        Administration has only proposed continuing child care funding 
        at FY 02 levels).
          The existing bills in the House provide much more flexibility 
        for TANF recipients to gain the necessary language skills to 
        obtain and keep good-paying jobs. For instance, the Mink bill 
        allows all education and English instruction activities to 
        count toward the work participation rate and eliminates the 
        one-year limit on participation in vocational education. 
        Representative Cardin's bill makes similar changes by counting 
        English language instruction for ten of the 30 hours required 
        for work participation rates and extending the limit on 
        vocational education to two years.
        <bullet> Reducing Funding Disparities in Puerto Rico. President 
        Bush made an important first step in addressing the funding 
        inequities that face the Commonwealth of Puerto Rico and other 
        territories by explicitly including territories in the marriage 
        grant program. Unfortunately, the President's other proposals 
        did not extend other grants to Puerto Rico, whose TANF program 
        is severely under funded due to a cap on welfare funding and 
        its exclusion from many funding streams. Since Puerto Rico and 
        other territories comply with the same obligations and 
        requirements as the States, they should be fully included in 
        the funding of TANF programs to ensure that Puerto Ricans and 
        other U.S. citizens are not disadvantaged by the block grant 
        formula.
IV. RECOMMENDATIONS
    The priorities that the National Council of La Raza has outlined 
for TANF reauthorization correspond directly with the intent of the 
law, and respond to the practical challenges facing the states. To 
ignore wholly these issues in comprehensive TANF reauthorization plans, 
or to take steps that exacerbate these problems, is both bad policy and 
bad politics. In order to address these issues in TANF reauthorization, 
NCLR urges the members of the Subcommittee in Human Resources to:

        <bullet> Support provisions that improve access to services for 
        legal immigrant families. NCLR commends Representatives Cardin 
        and Mink for including provisions that will provide a safety 
        net to families and citizen children of immigrant parents and 
        believes that such provisions must be included in any bill to 
        reauthorize TANF.
        <bullet> Resist proposals that place undue restrictions on 
        state efforts to serve legal immigrant families. Amendments 
        requiring that states verify that individuals have never been 
        undocumented or that TANF applicants are in the process of 
        becoming citizens invalidate any provisions that improve access 
        for legal immigrants. Such onerous provisions would be 
        incredibly difficult for states to implement and would 
        discourage families from applying for assistance for which they 
        are eligible.
        <bullet> Ensure that states can effectively serve limited-
        English-proficient families. NCLR believes that four provisions 
        can bridge language barriers between service providers and LEP 
        clients. First, a no-cost provision that would assist states in 
        their efforts to serve LEP families adequately would be to 
        request that states include as elements of state plans a goal 
        and strategy for serving such families. Second, reliable data 
        on all who seek services from TANF offices would identify 
        districts with specific language needs. Third, assessments are 
        key to providing effective services to LEP clients. Finally, a 
        measure to channel resources to states for assisting them in 
        building capacity to serve LEP families more effectively must 
        be considered. Given the number of states that are experiencing 
        language challenges, Congress and the White House ought to 
        consider proposing a comprehensive formula grant program to 
        states which adequately meets this need.
        <bullet> Focus on improving the English proficiency of TANF 
        recipients. In order to prepare LEP parents for employment 
        opportunities that will provide for their families, TANF 
        reauthorization should focus on education and skill barriers. 
        While assessments would help professionals place LEP parents in 
        programs that are appropriate to their skill levels, TANF's 
        work requirements must provide states with flexibility and 
        incentives to place recipients in education and training 
        programs for a sufficient amount of time to ensure that the 
        programs are effective.
        <bullet> Address the challenges faced by Puerto Rico in 
        implementing its TANF program. In order for Puerto Rico to meet 
        the same mandates as other TANF grantees, it is essential that 
        similar resources be provided to the Commonwealth as the 
        States. One of the most significant funding limitations on 
        Puerto Rico's TANF program would be addressed by taking IV-E 
        Foster Care out of the Section 1108 cap.\8\ Furthermore, Puerto 
        Rico's Medicaid program is statutorily capped, the Commonwealth 
        may only access two of the four components of the Child Care 
        Development Block Grant, and it is excluded from receiving the 
        Supplemental Grants, although the Island otherwise meets the 
        requirements. Therefore, Puerto Rico should have access to the 
        same funding streams as the States, and such funds should be 
        excluded from the Section 1108 cap.
---------------------------------------------------------------------------
    \8\ The Section 1108 cap restricts total welfare funding because 
several unrelated programs currently fall under this cap: TANF, IV-E 
Foster Care, and Assistance for the Aged, Blind and Disabled (this is 
Puerto Rico's substitute for Supplemental Security Income, from which 
the Commonwealth is excluded).

    NCLR urges the Subcommittee to address in a meaningful way the 
concerns and recommendations that I have presented today because the 
treatment of immigrants, families with limited English proficiency, and 
the residents of Puerto Rico will not go unnoticed by the broader 
Latino community. I appreciate this opportunity to testify and 
encourage you to call on NCLR as you consider policy proposals related 
---------------------------------------------------------------------------
to these issues.

                                 <F-dash>

    Chairman HERGER. [Presiding.] Thank you very much, Mr. 
Rodriguez. I thank each of our panelists for your testimony. 
All of your written testimony will be submitted as well as your 
comments. With that, we will call panel number 9. Vanessa 
Brown, Member, Mother on the Move Committee, on behalf of the 
National Campaign for Jobs and Income Support. Pat Albright, 
former welfare recipient and mother, Every Mother is a Working 
Mother Network. Kate Kahan, Executive Director, Working for 
Equality and Economic Liberation on behalf of Welfare Made a 
Difference National Campaign. Ms. Brown.

 STATEMENT  OF  VANESSA  BROWN,  LEADER,  MOTHERS  ON THE MOVE 
  COMMITTEE, PHILADELPHIA UNEMPLOYMENT PROJECT, PHILADELPHIA, 
PENNSYLVANIA, AND MEMBER, NATIONAL CAMPAIGN FOR JOBS AND INCOME 
                            SUPPORT

    Ms. BROWN. Good evening. My name is Vanessa Brown of the 
Philadelphia Unemployment Project. I am a leader of Mothers on 
the Move Committee, and a Member of the National Campaign for 
Jobs and Income Support, which represents grassroots 
organizations of low income people in over 42 States.
    Today, I would like to share with you my personal story 
about the TANF program. I ran a restaurant in Philadelphia for 
about 7 years. The business fell on hard times, and I was 
forced to close the restaurant. I then turned to the Welfare 
Department for assistance. They placed me in a TANF training 
program.
    Upon graduation from the program, I was placed in a job at 
a call center. I held that position for a little over a year 
until the tragedy of September 11 happened. The call center 
closed because it served the travel industry. After September 
11 there was no more business and no more calls to take.
    Today, I am one of few workers out of 200 Welfare-to-Work 
moms at my old job who was able to collect unemployment. They 
did not work in enough quarters after leaving TANF to be able 
to receive benefits. They had no safety net.
    Now, I am a student at the Community College of 
Philadelphia. I chose to pursue a higher learning following my 
layoff because I realized that my TANF training only prepared 
my for unstable low-wage jobs. I am here to testify that all 
welfare recipients don't fit into one category. One size 
doesn't fit all for us. I know that from my experience with the 
TANF program, and the experiences that many others have told me 
about, that TANF is not working. I am here to represent 
thousands of women and men who are affected by the decisions 
that you, our elected officials, will make.
    There are three things that I would like to discuss today. 
They include the 40-hour work week proposed by the Bush 
administration, lifting the cap on education and training, and 
the creation of public jobs and transitional work programs.
    First, I would like to say that the 40-hour week would be 
counterproductive for most poverty stricken families. With the 
challenges that face many of these families, it is difficult to 
meet the current requirement which are only 30 hours a week in 
most States. Even when I left TANF for employment, I had to be 
at work every day at 8:30, which was the same time that my son 
was expected to be at school. I had to ask my boss to reduce my 
hours down to 25 hours a week so that I could be able to care 
for my son before and after school.
    It did not make sense to work the extra hours at my job so 
that I could be able to afford to pay after school care. Even 
if I wanted to work full-time at that call center, I couldn't, 
as my employer did not allow us to work more than 37.5 hours a 
week. The Administration's proposal would increase the work 
requirement to 40 hours a week. This would place a burden on 
families as well as the States that would be responsible for 
implementing this new requirement.
    There is already a scarcity of jobs in Philadelphia. How is 
the State going to create some thing from nothing in my 
community? The only thing that the States will be able to do is 
create huge workfair programs. Workfair requires welfare 
recipients to work full-time in exchange for their welfare 
benefits. When I was on TANF, all I got was $316 a month.
    The general public seems to think that welfare is life 
sustaining. At $316, I could hardly pay my utilities and keep a 
roof over my head. That is why the administration's proposal is 
not grounded in the realties that face the poor people in this 
country. The bottom line is more work is not the answer. Taking 
parents away from their children in order to work more hours 
just to keep their welfare check will create more problems than 
it will address.
    What we do need is more access to education and training. 
After my layoff, I found a community college was offering a 
free semester to people who had been laid off. I took advantage 
of that opportunity and enrolled in school full-time. I decided 
that continuing education was important because I knew that I 
had to have a degree in order to get a job that would allow me 
to support myself and my son.
    It is important to me to show my son the importance of 
education so that he will be sure to go to college and not have 
to face or go through the same challenges that I have faced 
today. That is why we need to lift the federal cap on education 
and training.
    Under TANF, States are allowed to have only 30 percent of 
the case load engaged in education and training for a maximum 
of 12 months. There needs to be more access to continuing 
education and technology based training. This will allow people 
to develop the skills to compete in today's fast-paced job 
market.
    This would allow welfare recipients to get out of poverty 
and leave the welfare roles forever. I feel that the TANF 
training I have received left me dependent on the system. I 
long for the day when I can completely walk away from the 
welfare system. I need time to complete a certificate or an 
associates degree program that will make me a viable candidate 
for jobs that would truly support my family above the poverty 
line.
    The last point that I would like to touch on today is about 
the creation of public jobs. The National Campaign for Jobs and 
Income Support is proposing a $500 million fund separate from 
the TANF block grant for national public job programs. Public 
jobs would create opportunity for people to combine work 
experience with training. These jobs would be transitional and 
would place welfare recipients in hospitals, schools and other 
community service positions. Giving welfare recipients a wage 
for their work would make me and many others like me feel that 
they would have a chance to build a real track record of 
successful employment that would lead to something permanent.
    As you finalize your decision today, keep in mind the 
constituents that you serve. Remember the hardships that they 
face and your responsibility to aid the entire community to 
have what is necessary for us to be self-sufficient. Your goal 
today should not be reducing welfare careloads, but to 
encourage States to reduce poverty.
    Ending poverty will start when you give people access to 
education and training that they need to help place them in 
real jobs. Many of you think that TANF is not designed to be a 
poverty reducer. In terms of dollars and cents, would you 
rather spend money on programs that would only prepare people 
for low wage jobs, which would mean they would have to cycle on 
and off the rolls just to keep their head above water, or would 
you allocate those same dollars to educate and create real jobs 
that would allow people to move their families out of poverty? 
Thank you.
    [The prepared statement of Ms. Brown follows:]
  Statement of Vanessa Brown, Leader, Mothers on the Move Committee, 
   Philadelphia Unemployment Project, Philadelphia, Pennsylvania and 
         Member, National Campaign for Jobs and Income Support
    Hello, my name is Vanessa Brown of the Philadelphia Unemployment 
Project. I am a leader of the Mothers on the Move Committee at PUP and 
a member of the National Campaign for Jobs and Income Support.
    Today I would like to share with you my personal story about the 
TANF program.
    I ran a restaurant in Philadelphia for seven years. The business 
fell on hard times and I was forced to close the restaurant. I then 
turned to the welfare department for assistance and they placed me in a 
TANF Training program.
    I went into the program with high hopes, because I had heard that 
there was a great opportunity to get field training and a good job. 
Upon graduation from the program, I was placed in a job at a call 
center. I held that position for little over a year until the tragedy 
of 9/11 happened. The call center closed because it served the travel 
industry and after 9/11 there was no more business and no more calls to 
take.
    Today, I am one of the lucky workers out of 200 welfare-to-work 
moms at my old job. I collect unemployment. Many of my former co-
workers do not. They did not work in enough quarters after leaving TANF 
to be able to receive benefits. They had no safety net.
    Currently, I am a student at the Community College of Philadelphia. 
I chose to pursue higher learning following my lay-off because I 
realized that my TANF training only prepared me for an unstable, low-
wage job.
    I am here to testify that all welfare recipients don't fit into 
one-category. One size doesn't fit all for us. I know that from my 
experience with the TANF program and the experiences that many others 
have told me about that TANF is not working. I am currently a leader at 
Mothers on the Move to assess the needs of welfare recipients and to 
help them tell their stories like I am today.
    I am here to represent the thousands of women and men who are 
affected by the decisions that you, our elected officials, will make 
today. There are three things I would like to discuss today. They 
include the 40-hour work week proposed by the Bush Administration; 
lifting the cap on education and training and the creation of public 
jobs and transitional work programs.
    First, I would like say that the 40-hour work week would be 
counter-productive for most poverty-stricken families. With the 
challenges that face many of these families, it is difficult to meet 
the current requirements which are only 30 hours a week in most states.
    Even when I left TANF for employment, I had to be at work every day 
at 8:30 which was the same time that my son was expected to be at 
school. I had to ask my boss to reduce my hours so that I could get my 
son to school on time and be able to pick him up from aftercare by 5 
PM. In the end, I only worked 25 hours a week so that I would be able 
to care for my son before and after school. It did not make sense to 
work extra hours at my job just to be able to afford before and after 
school care. Even if I wanted to work full-time at the call center, I 
couldn't, as my employer did not allow us to work more than 37.5 hours.
    The Administration's proposal would increase the work requirement 
to 40 hours a week. This would place a burden on families as well as 
states that would be responsible for implementing this new requirement.
    There is already of scarcity of jobs in Philadelphia. How is the 
state going to create something from nothing in my community? The only 
thing that states will be able to do is create huge workfare programs. 
Workfare requires welfare recipients to work full time in exchange for 
their benefits. When I was on TANF, all I got was $316 a month. The 
general public seems to think that welfare is life sustaining. At $316, 
I could hardly pay my utilities and keep a roof over my head. That's 
why, the Administration's proposal is not grounded in the reality that 
faces poor people in this country.
    The truth is that there are many obstacles and hurdles that keep us 
away from moving our families out of poverty. The bottom line is more 
work is not the answer. Taking parents away from their children in 
order to work more hours just to keep their welfare check will create 
more problems than it will address.
    What we DO need, however, is more access to education and training. 
After my lay-off, I found that Community College was offering a free 
semester to people who had been laid off. I took advantage of that 
opportunity and enrolled in school full time. I decided that continuing 
education was important because I knew that I have to have a degree in 
order to get a job that will allow me to support myself and my son. It 
is important to me to show my son how important education is so that he 
will be sure to go to college and not have to go through some of the 
challenges that I have faced.
    That's why we need to lift federal caps on education and training. 
States are allowed to have only 30 percent of the case load engaged in 
ed & training now and individuals can only be in education or training 
programs for up to 12 months. There needs to be more access to 
continuing education and technology-based training. This will allow 
people to develop the skills to compete in today's fast-paced job 
market. This would allow welfare recipients to get out of poverty and 
leave the welfare rolls forever.
    I feel that the TANF training I received left me dependent on the 
system. I long for the day when I can completely walk away from it. I 
feel as though I need time to complete a certificate or Associate's 
degree program that will validate me to be a viable candidate for jobs 
that will allow me to truly support my family above the poverty line.
    The last point I would like to touch on today is about the creation 
of public jobs. The National Campaign for Jobs and Income Support is 
proposing a $500 million fund, separate from the TANF block grant, for 
a national public jobs program. Public jobs would create opportunities 
for people to combine work experience with training. These jobs would 
be transitional and would place welfare recipients in hospitals, 
schools and other community service positions. The benefit of allowing 
welfare recipients to earn a wage for their work would make me, and 
many others like me, feel more confident about our ability to maintain 
a long-term working position on my own. A transitional job would help 
to build a real track record of successful employment for welfare 
recipients.
    As you finalize your decisions today, keep in mind the constituents 
that you serve. Remember the hardships that face them and your 
responsibility to aid the entire community to have what is necessary 
for everyone to be self-sufficient. Your goal today should not be 
reducing welfare case loads, but to encourage states to reduce poverty. 
Ending poverty will start when you give people access to the education 
and training they need and help place them in real jobs. Many of you 
may think that TANF was not designed to be a poverty reducer. In terms 
of dollars and cents, would you rather spend money on programs that 
only prepare people for low-wage jobs which means they have to cycle on 
and off the rolls just to keep their head above water, or allocate 
those same dollars to educate and create real jobs that will allow 
people to move their families out of poverty?
    Thank you.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Brown. Ms. Albright.

STATEMENT OF PAT ALBRIGHT, FORMER WELFARE RECIPIENT AND SINGLE 
MOTHER, EVERY MOTHER IS A WORKING MOTHER NETWORK, PHILADELPHIA, 
                          PENNSYLVANIA

    Ms. ALBRIGHT. I speak today for the Every Mother is a 
Working Mother Network. I am a single mother and former welfare 
recipient living in inner city Philadelphia. We want to express 
our dismay and outrage that the work of mothers and care givers 
and the needs of those we care for have been dismissed in 
welfare reform and are being ignored or sidelined in the debate 
around its reauthorization.
    The voices of care givers who are most impacted must be 
front and central and thus far have not been. Welfare reform 
and the debate on its reauthorization reverses the clock on 
progress in establishing the value of the work of care givers.
    Welfare began on the basis that widows and later other 
single mothers caring for children deserve economic support. 
Welfare reform reverses that. Welfare expert, former Senator 
Daniel Patrick Moynihan, was forced to admit in his book, the 
Politics of a Guaranteed Income. He said, ``If American society 
recognized homemaking and child rearing as productive work, the 
receipt of welfare might not imply dependency.''
    Denying the value of the work of mothers and other care 
givers lies at the very heart of welfare reform. Linda Brewer, 
an overworked grandmother from the Every Mother is a Working 
Mother Network has testified: What job is harder than caring 
for children? I am caring for my four grandchildren. An 11-
year-old girl, two mentally challenged boys, ages 7 and 5, and 
a 3-year-old boy. I work 24/7. If you don't call what I do 
work, what do you call it? Who among us has not heard the 
rhetoric of mom and apple pie. Yet mothers on welfare are 
vilified, dismissed, undermined, and not valued, and denied the 
choice to raise their own children.
    Every Mother is a Working Mother Network is for a choice, 
not a mandate to work outside the home and for decent wages, 
benefits, and the working conditions when we do.
    The TANF has greatly neglected the profound importance of 
the bonding and nurturing between mothers and our children. It 
has eliminated the choice to breast-feed, what all experts 
agree gives the best start in life. Mothers on welfare with 
young children report having less than a half hour of non-sleep 
or non-travel time with their children per day.
    The TANF has ignored the research that establishes that not 
only in the early years of life, but also as teenagers, 
children need their mothers. That reduction in mother-child 
time has negatively impacted our children.
    It has bypassed the obvious, that as mothers, we are in the 
best position to determine if and when our children are ready 
to be cared for by others. It has treated the relationship 
between mothers and children as standing in the way of the 
glory of what is really important, a job outside the home, as 
though the job of caring for one's own children is a nuisance.
    What kind of society is it that ignores these very basic 
human rights of a child to a mother's care, and of a mother to 
care for her own child or to determine under what circumstances 
others should care for them? Welfare reform clearly establishes 
that only those who can afford to should be able to care for 
their own children, and since two-thirds of those receiving 
benefits are women and children of color, the racist 
implications are obvious.
    This must be the context of the debate on this 
reauthorization. Welfare reform puts our lives and the lives of 
our children in jeopardy. We are pushed to the limits finally, 
physically and emotionally. Some of us criminalized. We hold 
the government accountable for this.
    Edna Lopez, a single mother of two in Los Angeles tells the 
story of her friend, Yvette, also a single mother, who was 
killed on the Los Angeles Freeway because she was too 
exhausted, too overworked to make a sensible decision. Who 
among you will take a stand with and for mothers? We see 
millions of dollars being handed out in Washington, DC, to bail 
out big business, meanwhile the clock is running out for 
mothers and children on benefits.
    For we are told there is no money for us. Yet, we see 
billions of our dollars literally go up in smoke with bombing 
campaigns and other outrageous military spending. We have not 
raised our children for them to become collateral damage. We 
stand in the tradition of the late Eula Saunders, former 
President of the National Welfare Rights Organization for who 
during the Vietnam War, she stood in the U.S. Senate and said, 
we are not sending our children to fight your war.
    In 1995, at the Fourth United Nations (UN) World Conference 
on Women, held in Beijing, China, our grassroots movement won 
the now historic UN decision to measure and value unwaged work 
in all economic statistics.
    The UN signed onto that agreement, yet welfare reform 
ignores it. The UN has estimated that the value of women's 
unwaged work internationally is $11 trillion. Care givers are 
the heart of the economy, yet come last in the list of 
priorities.
    Insurance companies have done studies establishing the 
value of mothers who have died to determine the cost to replace 
work. Our work is valuable when we are dead, but not alive. In 
welfare reform and the debate thus for around this 
reauthorization older, younger, lesbian, or straight, our work 
is worth nothing at all. Examples abound of countries and some 
States----
    Chairman HERGER. Begin to sum up, please. Your time has 
expired.
    Ms. ALBRIGHT. I just wanted to say that we are not paid 
lobbyists here. We are not the advocate center or poverty 
lobby. We don't have a staff-client relationship. We say that 
the job is on the agenda, but put forward but the ear of 
Capitol Hill does not represent us. We are the voices from the 
bottom. Every day we live the impact of welfare reform, and we 
are part of the growing and angry grassroots movement of care 
givers who are tired, who are fed up that our work, although 
counted on for everything is not deemed worthy of economic 
support.
    The Every Mother is a Working Mother Network is coordinated 
by the Wages Campaign which since 1972 has worked to put the 
valuation of caring----
    Chairman HERGER. I would ask the witness to sum up please. 
Your full statement will be issued for the record. I want to 
remind our witnesses, we do have a 5-minute rule. As we get to 
the yellow light, if we could begin to sum up, please.
    Ms. ALBRIGHT. Right. I just want to say that we are 
demanding that the value of caring work be reflected in welfare 
benefits. We are not beggars at anyone's gate. We have earned 
our right to economic support. We are determined. Mothering is 
real work. What we lack are real resources.
    [The prepared statement of Ms. Albright follows:]
Statement of Pat Albright, Former Welfare Recipient and Single Mother, 
  Every Mother is a Working Mother Network, Philadelphia, Pennsylvania
Background and Overview
    The Every Mother Is A Working Mother Network (EMWM) is submitting 
our recommendations below in response to your solicitation of comments 
on the Reauthorization of the TANF Program Authority. EMWM is a multi-
racial, grassroots community-based network of mothers and other 
caregivers campaigning to establish that raising children and caring 
work is work, and that the time mothers spend raising their children, 
and the economic value of their work should be included in the right to 
welfare and other resources.
    Our testimony is not attempting to be ``professional''; we are 
speaking from our experience and our hearts. Everyday we live the 
impact of welfare ``reform''. We in EMWM are not part of the advocacy 
sector or poverty lobby; we do not have a staff/client relationship 
with anyone. We are not paid professional organizers; we are 
volunteers. We are unfunded, and independent; we are not aligned with 
any political party. Some of us are or have been on welfare and/or 
other benefits; some of us have disabilities; some are single mothers; 
some are grandmothers; all of us are carers and so we all have a 
personal stake in the valuation of the caring work of mothers in 
welfare benefits. We care deeply about those we care for and suffer 
greatly as a result of the tremendous devaluation of caring for 
children and others that we see rampant in policy, the media and other 
areas of society.
    EMWM held a series of Community Dialogues on welfare reform on the 
East and West Coasts in July 2001 where a new grassroots movement 
announced itself, demanding the right of mothers to raise our own 
children. We are now holding ``teach-ins'' in several cities on both 
coasts bringing together moms and other carers on welfare with other 
members of the community under the banner ``Invest in Caring Not 
Killing''.
    In our experience, TANF has greatly neglected the profound 
importance of the bonding and nurturing between mothers and our 
children. It has neglected the importance of the choice to breastfeed. 
It has ignored the research that establishes that not only in the early 
years of life, but also as teenagers, children need their mothers, and 
that reduction in mother/child time has negatively impacted the 
development, emotionally and otherwise, of our children. It has by-
passed the obvious: that as mothers we are in the best position to 
determine if and when our children are ready to be cared for outside 
the home or by a non-custodial parent. It has treated the relationship 
between mothers and children as standing in the way of the glory of 
what is really important: a job outside the home, as though the job of 
caring for one's own children is a nuisance. What kind of society is it 
that ignores these very basic human rights, of a child to a mother's 
care and of a mother to care for her own child or to determine under 
what circumstances others should care for them? Within this context, we 
cannot take seriously any talk of ``family values'' from those at the 
helm of HHS. There is a double standard at play here and one that is 
grounded both in racism and in discrimination against caregivers. 
Welfare ``reform'' clearly establishes that only those who can afford 
to should be able to care for their own children and since 2/3 of those 
receiving benefits are women and children of color, the racist 
implications should be obvious.
    For those of us who have been forced out to waged work, the 
conditions that we have to leave our children under are undermining to 
both our children and those who care for them. In California, for 
example, the infant/adult ratio in infant care centers ranges from 3-1 
or 4-1. We consider this promoting child abuse. Since when is one adult 
able to nurture, hold, cuddle, sing to, and comfort three or four 
babies at the same time? No wonder pediatricians can tell which babies 
have been in infant care from the so-called ``flat-head'' syndrome 
resulting from long hours of lying in a crib. Even walkers are often 
not allowed and babies are stuck lying around all day without the kind 
of one-on-one love and care that only a mother or main caregiver can 
provide. And the pay of childcare providers is an insult; for a 
relative care provider, it is often below the minimum wage. This is not 
to say that mothers should not have the choice to work outside the home 
and access to quality childcare, but it must be a mother's choice and 
not a mandate and the conditions of care and the pay of the workers 
must be greatly improved.
    In addition, there has been no consideration whatsoever of the care 
of sick children. How can policy that impacts children be made without 
considering that children get sick? And why should a mother have to 
choose between welfare ``reform'' mandates, the time clock and being 
there to care for her sick child? This is abusive to both child and 
mother. Anyone who has had to be away from a sick child must know the 
kind of worry and concern that distracts one from any other task at 
hand. Every life is of value, including the lives of mothers on welfare 
and our children. Our children are not cars to be parked in a garage. 
They are fragile, curious, vibrant beings full of need and potential 
and they have every right to our care. And the 30 minutes or less of 
waking time that mothers with infants who are in mandated-work 
activities tells the story of the failure of the Department of Health 
and Human Services to either provide health or be humane.
    Mothers on welfare also have every right to choose to work outside 
the home and when we do, we must have pay equity, quality childcare of 
our choice, protection from discrimination and education and training 
of our choice.
    EMWM is determined in our resolve. We are well aware that the aim 
of welfare ``reform'' was to instill in us that we have no entitlement 
to resources to care for our own children. We hope that you are aware 
that there is a growing grassroots movement in this country and around 
the world for the valuation of caring work. The valuation of caring 
work is a unifying issue and brings support from those not on welfare 
to those who are. We are fed up with caregivers being ignored by 
government and professional advocates. As mothers and grandmothers, we 
are insisting that we, who produce all the workers in this country and 
the world, be no longer ignored and by-passed. Those of us who are 
trained to kill in the army receive economic support, but those of us 
who give and sustain life are not. And those carers who are most 
vulnerable, single mothers on welfare, must have the economic support 
needed to care for themselves and their children on the basis of the 
caring work they do. Our experience has been that the poorer we are the 
harder we are forced to work, and for too long mothers on welfare have 
had the impossible task of trying to make a dollar out of fifteen 
cents.
    EMWM is coordinated by the Wages for Housework Campaign (WFH) which 
after close to three decades has put the valuation of caring work on 
national and international agendas. WFH founded and coordinated the 
International Women Count Network of more than 1,200 non-governmental 
organizations world-wide which succeeded in winning UN resolutions 
calling for governments to measure and value unwaged work (including 
care giving work) in satellite accounts of the GDP. WFH also worked 
with the Congressional Black Caucus which in 1993 introduced the 
``Unremunerated Work Act'' which received bi-partisan support and 
called for unwaged work to be measured and valued. The US Dept of 
Labor, specifically the BLS has held at least one international 
conference on the valuation of caring and other unwaged work in 
addition to other efforts to implement the UN decision. Another 
document we suggest HHS reviews is the Platform for Action passed at 
the first US Women's Conference held in Houston Texas in 1977, 
specifically the ``Women, Welfare and Poverty'' resolution which was 
written by grassroots activists including at least two past presidents 
of the National Welfare Rights Organization along with WFH. We urge HHS 
to review the above-mentioned documents in preparing your 
recommendations to fix welfare ``reform''.
Summary of Recommendations
        1. LThe work done by mothers or other caregivers raising 
        children is a valuable contribution to the economy and society 
        and should be reflected in welfare benefits. Mothers, 
        grandmothers and other caregivers must not be required to work 
        outside the home as a condition of receiving benefits. 
        Mothering is real work; what we lack are real resources.
        2. LMothers who choose to work outside the home should be 
        entitled to pay equity, affordable quality childcare of choice, 
        paid breastfeeding breaks (in accordance with the International 
        Labor Organization), and protections from sexual harassment, 
        and other job supports.
        3. LWelfare benefits must be increased and indexed to the cost 
        of living.
        4. LTime limits on receiving welfare benefits must be 
        eliminated.
        5. LMothers must not be required to identify the father or sue 
        for child support as a condition of receiving benefits.
        6. LWomen must not be pushed into marriage.
        7. LMothers receiving benefits should have the right to 
        education and training of choice, including the right to attend 
        a four-year college. Participation in education and training 
        should be counted as work activity.
        8. LNo discrimination in access to benefits, including based on 
        immigration status, race, disability, criminal record, or 
        sexual preference.
        9. LFederal legislation on welfare should include national 
        standards, protections and guidelines that states must abide 
        by.
Rationale and Discussion
    1. The work done by mothers or other caregivers raising children is 
a valuable contribution to the economy and society and should be 
reflected in welfare benefits. Mothers should not be required to work 
outside the home as a condition of receiving benefits.
    Caregivers are the heart of the economy, yet are ignored and 
discriminated against in welfare and other policy. Caring is vital to 
the survival and welfare of every community and every society. Mothers 
and other carers are entitled to welfare on the basis of how much the 
caring work we do is worth to society. Mothers, including mothers on 
welfare, are the first carers and women remain the main carers. We give 
birth to, feed and care for all in society. Yet beyond lip service this 
24-hour-a-day job is devalued or not valued at all by government and 
industry. As a result, not only mothers but caring itself and the 
people we have raised are devalued and our needs ignored.
    Many mothers are forced out to a second or third job, even though 
our children need us. Children as young as six weeks old are deprived 
of the love, care and attention they need and are entitled to. And 
mothers--exhausted by the double or triple day of waged work on top of 
unwaged work--are deprived of the time and energy we would like to put 
into our children. Increasingly we are forced to give up breastfeeding, 
denying children the best and most natural food in favor of formula, or 
to keep our children quiet with Ritalin, Prozac or other highly 
addictive drugs--we are asked to be more available to the job market 
than to our children. It is unbearable that the richest and most 
powerful country in the world invests in the military and everything 
else it seems while it has no money for caring for children and others 
who need care.
    According to the State of the World's Children 2001 a key UN goal 
is for states to ``develop national and child and family policies that 
allow parents increased time to meet their child-rearing 
responsibilities and that encourage family-given childcare.'' A survey 
released Oct 22, 2001 by the After School Alliance in the US has found 
that nearly 40% of US teens have no adult supervision after school. 75% 
of teens report that they are more afraid after school hours of being a 
victim of violence or crime. The National Center for Laity has noted in 
its October 2001 issue that in the US there is no economic incentive 
for a parent to be home to care for his or her own children. They 
observe that the government subsidizes childcare outside the home or 
gives a tax deduction if someone else cares for your child in your 
home, but gives no allotment if you provide the care yourself.
    According to the NGO Families International, more family members 
have to work more hours outside the home which has eroded the well 
being of families. Parents have experienced much higher levels of 
stress and tension. The report further states: ``When parents cannot be 
``present'' . . . to their children, it results in diminished support . 
. . diminished attention to their accomplishments, hopes, fears, 
problems and questions.''
    There is growing national and international support for the work of 
raising children and other caring work to be recognized as work, in 
response to women ourselves demanding that our work be counted. Many 
economists, statisticians and other academics have done studies 
documenting the amount of time women spend raising children and doing 
other unwaged work and the importance of the contribution of this work 
to the functioning of society, too numerous to list here. In 1995, 
after an international mobilization spearheaded by EMWM's coordinating 
group, at the United Nations Fourth World Conference on Women in 
Beijing, the US and other governments agreed to measure and value 
women's unwaged work and to include its value in national statistical 
data and satellite accounts of the Gross Domestic Product. The 1995 UN 
resolution strengthened one previously won by WFH in 1985 at the UN 
Mid-Decade Conference held in Nairobi, Kenya during the Reagan 
administration. The 1995 agreement is considered by many to be the most 
important macroeconomic decision to emerge from the UN Conferences on 
women, but the US has yet to take steps to implement it. On the 
contrary, current welfare policy under TANF is in violation of, and in 
opposition to, this agreement in that it dis-counts the work of mothers 
raising children, and mandates that mothers' work outside the home for 
30 hours or more per week as a condition of receiving benefits.
    Caring work is highly skilled. Mothers have to do simultaneous 
tasks to get the job done, a skill usually associated in industry with 
management. In May 1999, the Wall Street Journal reported a study that 
found that the ``multi-tasking'' work done by a mother is valued at 
$500,000 a year. Economists have developed various models of 
calculating the value of a mother's work, based on the many different 
jobs, the number of hours and the prevailing market wage for those jobs 
if done by another person. On a global level, the United Nations 
estimates that the value of women's unwaged work is $11 trillion (1995 
figures). By contrast, welfare benefits force women and children to 
live far below the poverty line, and are in part responsible for the 
fact that women are the majority of the poor in this country.
    Economically rewarding those who do caring work already has some 
precedents. In Montana and Minnesota, mothers are paid for caring for 
their infants full-time, out of funds that the states have allotted for 
childcare. In California, family members can be paid by the county as 
homecare workers to care for low-income elderly or disabled relatives. 
The Clinton administration's proposal that parents have the option of 
drawing unemployment benefits while staying home to care for small 
children was picked up by six states. And in most industrialized 
countries, including Canada, all mothers are eligible to receive a 
family allowance or child benefit that is not means-tested, in 
recognition of the reality that mothers need and have a right to 
economic support. In addition, low-income mothers receive welfare. 
Nearly all countries, including some of the poorest in the world, have 
a policy of paid maternity leave: the United States is one of only six 
countries surveyed by the UN that has no such policy. And most give a 
subsidy for breastfeeding.
    2. Mothers who choose to work outside the home should be entitled 
to pay equity, affordable quality childcare of choice, paid 
breastfeeding breaks (as recommended by the International Labor 
Organization), protections from sexual harassment and other job 
supports.
    Welfare reform has contributed to the widening pay gap between 
women and men, according to some economists. Women in full-time year-
round employment earn 72% of what men earn; for African-American women 
the figure is 62%, and for Latina women 52%. Most women, because we are 
responsible also for raising children, work in part-time temporary jobs 
where the wages are even lower, and the benefits non-existent. Welfare 
reform denies our right to choose whether or not to breastfeed and to 
otherwise nurture our babies and older children. Mothers of young 
children report having less than 30 minutes a day of waking time with 
our babies. This will get worse when the time on the 60-month time 
clock for receiving benefits runs out and we will be left destitute 
with no safety net.
    Even a recent HHS report found that only 1.5 million of the 9.9 
million children who are eligible for childcare subsidies receive it. 
Studies have also shown that childcare is the third greatest expense 
for families with children between 3 and 5 years old, after housing and 
food; and that a family of three earning $15,000 spends between 24 and 
45% of their income on childcare. Most families use informal care, 
often by a grandmother, and welfare ``reform'' expects grandmothers 
after a lifetime of raising their own children to be available to care 
for grandchildren for free or for below the minimum wage. Low-income 
grandmothers are already living below the poverty level on the pittance 
provided by SSI.
    3. Welfare benefits should be increased and indexed to the cost of 
living.
    Welfare benefits have nowhere near kept up with the rate of 
inflation and increases in the cost of living. Cuts in welfare means 
more women and children living in poverty, and more of us homeless, 
dead, or turning to prostitution or otherwise ``criminalized'' trying 
to feed our kids. Welfare reform has put our lives and the lives of our 
children in jeopardy: we are pushed to the limit financially, 
physically and emotionally. We hold HHS accountable for the thousands 
of mothers and children who are now destitute as a result of welfare 
reform. Thousands more are among the welfare ``disappeared''--no one 
knows what has happened to them, but they are often counted as part of 
the welfare ``success story'' simply because they are no longer on the 
welfare rolls.
    4. Time limits on receiving welfare benefits must be eliminated.
    Time limits are punitive and prevent caregivers from carrying out 
their responsibilities to children. It is up to mothers, not the 
government, to say when a child is no longer in need of a mother's 
full-time care. The clock runs in times of economic crisis when waged 
work is scarce. The clock runs when a child is sick and needs a 
mother's care. No woman can control when she will be in need of 
benefits. Most of us are just a man away from welfare. The time clock 
is an intimidation keeping many of us in abusive relationships and 
vulnerable to emotional and physical violence for fear of complete 
destitution. The clock does not recognize the value of a mother's time 
caring for her family. Time limits are running out for many women just 
when the economy is in a steep downturn and layoffs are massively 
increasing. Without a safety net, what are women to do? By 2002 1.3 
million people, most of whom are single mothers will be destitute.
    Communities of color are at even greater risk of crisis as 
unemployment in Black communities, for example, is double that of white 
communities. In addition, a higher percentage of people of color are 
ineligible for unemployment benefits: their jobs are more likely to be 
part-time, temporary or seasonal. Welfare provided the only 
unemployment benefit available to many in those situations, but now 
that is gone. In rural areas including on Native reservations, waged 
work just isn't there. And particularly in those communities wages 
don't follow from work. People need to be paid for work they are doing 
that is now unwaged. Without such efforts, there is bound to be 
increased destitution, homelessness, and ill health, not only physical 
but emotional; with communities of color hardest hit, reinforcing a 
racist hierarchy.
    5. Mothers must not be required to identify the father or sue for 
child support as a condition of receiving benefits.
    Under current regulations, a woman is mandated to name the father 
of her child and sue him for child support whether she wants to or not, 
with all or most of the money going to the welfare department, not to 
her or the child. Many mothers, including lesbian mothers, do not want 
the father to have any part in their lives or their children's, often 
because he is abusive or uncaring; others have worked out their own 
arrangements. Women in domestic violence shelters say that women often 
turn to welfare as their only way to leave violent men. To force such 
women to have contact with these men is to set up women and children 
for further rape and abuse.
    6. Women must not be pushed into marriage.
    We are aware of the so-called ``family formation'' agenda being 
promoted by some in the Bush administration, most notably Wade Horn, as 
the ``solution'' to women's poverty. Multi-million dollar programs are 
proposed to promote marriage and the involvement of fathers. We are all 
for loving relationships and everyone's right to marry (including 
lesbian women and gay men), but not for women to be forced into 
marriage, under the threat that their benefits will be cut or reduced. 
We want to marry for love, not for money, and men want to know that we 
are with them because we love them, not because of the money they earn. 
Women have fought for several decades for our right to be financially 
independent of men, and have established the importance of having money 
of our own as the first line of defense against complete dependence and 
starvation, and as a protection against violence against ourselves and 
our children. We have also fought for the right to not have to marry. 
We do not intend to have the clock turned back to the dark ages where 
women had to submit to sex for a bit of housekeeping money. This 
official proposal is only a step away from sexual trafficking in women, 
which we do not believe most people in the US would endorse.
    7. Mothers receiving benefits should have the right to education 
and training of choice, including the right to attend a four-year 
college. Participation in education and training should be counted as 
work activity.
    Welfare ``reform'' takes us back more than two decades on access to 
education and training which could make a real difference to women's 
ability to obtain jobs with income levels above the poverty line. In 
addition, mothers on welfare must have the same right as anyone else to 
pursue higher education. In the 1970s, students on welfare in the SEEK 
program at the City University of New York pressed for and won the 
right to receive both welfare and student stipends to attend a four-
year college without one reducing the level of the other. Under welfare 
reform, mothers are not allowed at all to pursue a four-year college 
education. This is a violation of our human rights. Women are exhausted 
raising children, working at low-waged jobs, and trying to pursue a 
degree. One woman was so exhausted and so pressed to meet her next 
deadline that her judgment was impaired as she stepped out on the 
highway after her car broke down and was killed. Being a student is in 
itself a full-time job on top of the work of being a mother and should 
be acknowledged as such.
    8. No discrimination in access to benefits, including based on 
immigration status, race, disability, or sexual preference.
    We oppose any denial of benefits based on immigration status. The 
United States is, after all, a country of, and built by, immigrant 
people. Nearly one-fourth of all children of immigrants live in 
poverty. They account for 23% of all poor children in the US. Two-
thirds of welfare recipients are now women and children of color. Our 
experience has been that women of color are receiving the worst 
treatment in relation to work assignments, access to information and 
services like childcare. This is on top of the institutional racism in 
the waged labor market, resulting in Black and Latina women receiving 
the lowest wages, and in every other area of life. Some of the most 
punitive components of welfare reform--for example ``family cap'' 
policies--are in states that have the highest proportion of women of 
color receiving benefits. Women with disabilities who are supposed to 
be exempt, in many cases are being forced into work assignments, and 
there is at least one documented case in New York City where a woman 
died as a result. We have also learned from our network in Wisconsin 
that women with disabilities have received the worst job placements--
the jobs that were left to women unable to be hired in the private 
sector--and are working under conditions like the poorhouse of the 
past. Welfare ``reform'' also denies the work of disability where 
caring for oneself is a full-time job. Being forced to name their 
child's father, who may in fact be a sperm donor, and facing the 
possibility of losing custody of children to the state by a social 
worker who declares them ``unfit'' is discriminatory against lesbian 
mothers. In other cases, the father may seek custody on the basis that 
if he is going to pay, he is entitled to raise the child. Many lesbian 
and gay young people, thrown out by parents, are facing homelessness 
and turn to prostitution to survive because welfare reform requires 
those under 18 to live at home to receive benefits.
    9. Federal legislation on welfare should include national 
standards, protections and guidelines that states cannot waive out of.
    The legal right of states to enslave and segregate was fought over 
and defeated in the Civil War and the civil rights movement, but 
welfare ``reform'' gives power back to individual states. Are women, 
many Black and Latina women, in sections of the country with the 
highest rates of rural and inner city poverty, to be at the mercy of a 
local white male racist establishment? Are we to tolerate policies such 
as TANF which promote disparities in standards of living in different 
parts of the country? We say no to these, and no to any other policies 
which attempt to eliminate federal standards, protections and 
guidelines and turn back the clock to 1863.
    Finally, we are alarmed at the reauthorization process thus far. 
The HHS ``Listening Sessions'' have been government behind closed 
doors: a few are handpicked to testify and in some instances half of 
the slots are given to the likes of the Heritage Foundation. In other 
so-called open ``listening sessions'' held only after protests on both 
coasts, the testimony is token, bypassed by top HHS officials and not 
even taped. This is not acceptable. HHS gives the impression that they 
are listening when in fact the voices of mothers on welfare are being 
shut out and shut up. We also want to know what is to happen to written 
testimony, particularly from grassroots networks like ours who do not 
have the money to hire experts to spend months writing testimony, and 
who don't have paid lobbyists on the hill. We are the experts, we and 
our children are living examples of the discriminatory effect of 
welfare ``reform,'' and we are demanding that our testimony is 
considered with seriousness and respect, and that our concerns be 
reflected in the recommendations for reauthorization by HHS.
Attached: Testimony by EMWM members
                                 ______
                                 
 Statement of Lynda Brewer, Every Mother is a Working Mother Network, 
                        Los Angeles, California
    I want to tell you a bit about myself because welfare ``reform'' is 
heating up in Congress and lots of decisions are being made on behalf 
of women like myself, but our voices are not being heard. I am really 
worried that welfare recipients like myself are being sold down the 
river by various deals going on in Washington, D.C., and that 
advocates, and the so-called poverty lobby, instead of taking their 
lead from women like myself who are impacted, are instead taking their 
lead from what politicians are saying.
    We want to speak for ourselves. It is not up to others to decide 
what we should have. We know what we need, and what we need is for 
advocates and the poverty lobby to support our demands. Their job 
should not be to tell us what to do; we are sick and tired of that, and 
we are calling them on it.
    As you know, welfare ``reform'' says that I am not entitled to 
anything, that I don't work, and the poverty lobby agrees with them, 
since they are running around saying we need work. Let me tell you what 
I do, because I am overworked.
    I am caring for four grandchildren: an eleven year old, two 
mentally challenged boys, and a three-year-old. I wake up at 2:30 in 
the morning to wash and iron clothes for an hour or two. Then I go back 
to sleep and wake again at 5:30. After I cook breakfast, I dress the 
two youngest, drop the two oldest children at the bus stop, and then 
rush back home to put another child on a bus that services special 
education. Sometimes the school calls me to pick up one of the children 
due to behavioral problems. I have to drop whatever household chores--
cleaning, vacuuming, preparing dinner, and more--to rush to two 
different schools or just to perform my routine tasks of picking op the 
children.
    On a typical afternoon, I help the kids with their homework, and 
pick the youngest up from childcare. After the evening meal, I wash the 
dishes, bathe two of the kids, and after their teeth are brushed we 
play games and read bedtime stories. The youngest child has insomnia 
and sometimes doesn't fall to sleep until midnight. Occasionally I 
spend hours in the Emergency Room with a sick child. I might have to go 
to an all-night pharmacy and remain up all night with a sick child to 
make sure everything is all right. On the weekends, I don't get a 
break; the routine is just different. On top of all this, I take a 
class at local Community College twice a week.
    Every few months I get this letter in the mail. The first line goes 
like this ``Congratulations, you have been chosen to participate in 
GAIN.'' It doesn't matter that I already have a full-time job taking 
care of my grandchildren; that doesn't count in welfare ``reform''. 
Then you get another letter saying you better keep the GAIN appointment 
and don't bring any children!
    If you don't call what I am doing work, what do you call it? I had 
to quit my outside job in the first place to meet all of my obligations 
with the children. Welfare ``reform'' would rather pay someone else to 
care for my grandchildren, instead of giving me the money and the 
choice to care for them myself. I, who love them and understand the 
challenges they face.
    I am part of the Every-Mother-is-a-Working-Mother Network. We want 
the right, the economic support, to be able to choose to raise our own 
kids. We also want the right to choose, not be mandated to work outside 
the home, and we should have quality childcare, pay equity, and 
protection from discrimination. They tell us there is no money for 
mothers and other caregivers, but money can be found to bomb 
Afghanistan and to ``bail out'' big corporations in corporate 
``welfare''. It is outrageous! Our money is spent to kill other people 
while we are left destitute or criminalized. And welfare ``reform'' is 
racist. Most of us impacted are Black and Latina. There is no safety 
net left even for those losing their waged jobs in the current economic 
crisis.
    We aren't begging anyone for anything. We are not here to say: 
``Just give us a chance to get a job!'' We already have a job, it is 
called care giving and we are on duty twenty four/seven. If they 
counted caregivers work in the gross national project it would be the 
largest contribution. Even the UN has said that all governments should 
value caring work. But welfare ``reform'' ignores that. The value of 
our work as mothers and grandmothers must be reflected in welfare 
benefits. Welfare is our right, our entitlement. Caregivers are the 
heart of the economy, but we come last, we are tokenized, neglected, 
abused, and discriminated against. What job is more important than 
caring for children?
    We are calling for the value of caring work to be reflected in 
welfare benefits: an end to time limits, other punitive measures and 
discrimination; an end to forced work; education and training of our 
choice; and the right to benefits must not depend on immigration 
status. We say invest in caring not in killing.
    Lynda Brewer is on welfare and raises her four grandchildren.

                                 <F-dash>

    Chairman HERGER. Again, thank you for your statement, each 
of you. Just to remind you, your entire statement will be 
submitted for the record. It has been a long day and a long 
hearing. If we could, as we see the yellow light begin to sum 
up so everyone has the same 5 minutes. Thank you very much. Ms. 
Kahan to testify, please.

   STATEMENT OF KATE KAHAN, EXECUTIVE DIRECTOR, WORKING FOR 
      EQUALITY AND ECONOMIC LIBERATION, MISSOULA, MONTANA

    Ms. KAHAN. Thank you, Mr. Herger. My name is Kate Kahan. I 
am the Executive Director for Working for Equality and Economic 
Liberation (WEEL), a Montana-based organization focused on 
poverty issues.
    The WEEL works with people in poverty across Montana, in 
the western region, and nationally. I am here today with the 
Welfare Made a Difference Campaign. The WEEL has been a strong 
presence in the national arena surrounding welfare 
reauthorization, specifically utilizing the State experience 
with welfare reform to contribute information, lessons learned, 
and model policy to the national debate. Given that focus, I am 
pleased to have the opportunity to respond to the 
Administration and to your proposals here for welfare 
reauthorization from the State perspective, a poor rural State 
at that.
    First, I would like to share my personal story. I am a 
former welfare recipient. When I first applied for welfare at 6 
months pregnant with little to no job experience, I was denied 
assistance due to fact that I had $7 too much in my bank 
account. Having no family or financial resources to turn to, I 
married the father of my child. Less than 2 years later, I 
found myself fleeing a violent home. I began receiving welfare 
and going to college.
    While in college I had a work study job in a field I knew I 
wanted to pursue employment in after I completed my degree. The 
education and experience I gained ultimately helped me move out 
of poverty. Marriage was not the solution to my poverty or my 
son's poverty. If I had not left that violent home, I can 
assure you that I would not be here today, I would have died.
    This story is reflective of many other women on welfare 
today. In the past 12 months, over 50 percent of WEEL's 
advocacy calls, which are specifically focused on welfare have 
been domestic-violence related.
    Welfare offices are focused on case load reduction and 
keeping people off of welfare, and that puts women attempting 
to leave violent homes in a position no one should ever have to 
face. Women facing violence should never have to make the 
choice between the security of food on the table for their 
children and continued violence. Far too many women in poverty 
are facing this devastating situation. Marriage promotion will 
not help these women in crisis leave. It will only serve as yet 
another barrier to leaving, and that will not under any 
circumstances solve the poverty they face.
    On top of the rise in domestic violence, Montana's child 
poverty rate is 21 percent. That is twice the national average. 
Our uninsured rate is 18, our wages are 48th in the Nation, and 
we have the highest number of people working more than one job 
to make ends meet in the country. These factors point out that 
there is no cookie-cutter approach to poverty alleviation or to 
welfare reform.
    The Administration proposals to increase work requirements 
without any acknowledgment of the fact that it is indeed the 
quality of work, not the quantity that makes a difference is 
obviously not a solution for people in poverty. In Montana, 
people are working two and three jobs, and they are still poor.
    Marriage is not the solution of poverty in Montana. Women 
are facing domestic violence at alarming rates, and wages are 
so low in Montana that two-parent households are just as poor 
as single-parent households. Women make 56 cents to every 
dollar men make in Montana as well. Both increased work and 
marriage promotion ignore such issues.
    Montana's experience is not unique. We are one of many very 
poor States and 1 out of 50 States that have people facing 
deeper poverty than we have seen in decades. Notice I am 
talking about the depth of poverty, not the level of poverty.
    It is time to move beyond oversimplified Band-Aid 
approaches to welfare reform and start focusing on family well-
being by ensuring protection from domestic violence, including 
access to quality education and training programs and work 
supports like food stamps, transitional Medicaid, and child 
care to aid families moving out of poverty. Poverty is complex. 
Welfare reform must include policies that address that fact and 
begin to support families.
    Montana's welfare rolls have increased dramatically in the 
past few months. Our Department of Health and Human Services 
points out a significant factor in the increase has to do with 
the fact that people have been pushed into low-wage employment, 
and they aren't making it. People in poverty are facing a 
striking lack of options and support for the work they are 
engaged in and a lack of employment opportunities that allow 
them to become economically independent. Families who are 
working should not be poor.
    The Administration proposal certainly does not address 
poverty alleviation with any policy that will work on the State 
level. The TANF reauthorization is the perfect opportunity to 
create policy that addresses poverty reduction by ensuring that 
families have access to quality education and training 
programs, support while engaged in such programs, options to 
secure care for their young children.
    Montana has a program called the At Home Infant Care 
program, which enables parents with kids under age 2 to care 
for their children while being reimbursed the daily infant care 
rate. This program makes economic sense because it offsets the 
expense and difficulty of accessing infant care. In addition, 
it allows parents, many of whom reside in rural areas of the 
State with little or no access to resources and opportunity, to 
provide infant care for their children. This is an essential 
component of stable communities. I am almost done.
    It is innovative programs such as At Home Infant Care that 
will bring relief to poverty. States need support to address 
the needs of their poor citizens, not a boost in bureaucracy 
and oversimplified approaches like those in the administration 
proposal. The TANF reauthorization policies should address the 
poverty people face, support families working to move out of 
poverty in a variety of ways including training and education, 
work and caring for their children. Policies must ensure 
families have options and protections while leaving violent 
homes and approach child well-being through actual poverty 
reduction measures rather than involving government in our 
private lives through economically coerced marriage.
    Finally, I appreciate the opportunity to testify here 
today. I think it is essential to hear from the people who have 
been directly impacted by poverty. Our experience as a group 
that creates poverty alleviation policy in Montana certainly 
speaks of the fact that policies that are created with the 
input of the people that will be most impacted by them are the 
most successful. Thank you.
    [The prepared statement of Ms. Kahan follows:]
 Statement of Kate Kahan, Executive Director, Working for Equality and 
                 Economic Liberation, Missoula, Montana
    My name is Kate Kahan, I am the executive director for WEEL, 
Working for Equality and Economic Liberation, a Montana based 
organization focused on poverty issues. WEEL works with people in 
poverty across Montana, in the western region and nationally. WEEL has 
been a strong presence in the national arena surrounding welfare 
reauthorization, specifically utilizing the state experience with 
welfare reform to contribute information, lessons learned and model 
policy to the national debate. Given that focus, I am pleased to have 
the opportunity to respond to the Bush Proposal for welfare 
reauthorization from the state perspective.
    First, I would like to share my personal story. I am a former 
welfare recipient. When I first applied for welfare at 6 months 
pregnant, with little to no job experience, I was denied assistance due 
to the fact that I had $7 too much in my bank account. Having no family 
or financial resources to turn to, I married the father of my child. 
Less than two years later, I found myself fleeing a violent home. I 
began receiving welfare and going to college. While in college I had a 
work-study job in a field that I knew I wanted to pursue employment in 
after completing my degree. The education and experience I gained 
ultimately helped me move out of poverty. Marriage was not the solution 
to my poverty or my son's poverty. If I had not left that violent home, 
I can assure you I would not be here today, I would have died.
    This story is reflective of many other women on welfare today. In 
the past 12 months, Over 50% of WEEL's advocacy calls, which are 
specifically focused on welfare, have been domestic violence related. 
Welfare offices are focused on case load reduction and keeping people 
off of welfare and that puts women attempting to leave violent homes in 
a position no-one should ever have to face. Women facing violence 
should never have to make the choice between the security of food on 
the table for their children and continued violence. Far too many women 
in poverty are facing this devastating situation. Marriage promotion 
will not help these women in crisis leave, it will only serve as yet 
another barrier to leaving and that will not, under any circumstances, 
solve the poverty they face.
    On top of the rise in domestic violence, Montana's child poverty 
rate is 21%, our uninsured rate is 18%, our wages are 48th in the 
nation and we have the highest number of people working more than one 
job to make ends meet in the country. These factors point out that 
there is no cookie cutter approach to poverty alleviation or to welfare 
reform. Bush's proposal to increase work requirements, without any 
acknowledgement of the fact that it is indeed the QUALITY of work, not 
the QUANTITY that makes a difference, is obviously not a solution for 
people in poverty. In Montana, people are working 2 and 3 jobs and they 
are still poor. Marriage is not the solution to poverty in Montana, 
women are facing domestic violence at alarming rates and wages are so 
low in Montana that two parent households are just as poor as single 
parent households. Montana's experience is not unique; we are one of 
many very poor states and one out of 50 states that have people facing 
deeper poverty than we have seen in decades. It is time to move beyond 
oversimplified, band aid approaches to welfare reform and start 
focusing on family well-being by ensuring protection from domestic 
violence, including access to quality education and training programs 
and work supports like food stamps, Medicaid and child care to aid 
families working to move out of poverty. Poverty is complex, welfare 
reform must include policies that address that fact and begins to 
support families.
    Montana's welfare rolls have increased dramatically the past few 
months. Montana's Department of Health and Human Services points out, a 
significant factor in that increase has to do with the fact that people 
have been pushed into low-wage employment and they aren't making it. 
People in poverty are facing a lack of support for the work they are 
engaged in and employment opportunities that allow them to become 
economically independent. Families who are working should not be poor. 
The Bush proposal certainly does not address poverty alleviation with 
any policy that will work on the state level.
    TANF Reauthorization is the perfect opportunity to create policy 
that addresses poverty reduction by ensuring that families have access 
to quality education and training programs, options to secure care for 
their young children: Montana has a program called the At Home Infant 
Care Program which enables parents with children under age 2 to care 
for their children while being reimbursed the daily infant care rate. 
This program makes economic sense because it offsets the expense and 
difficulty of accessing infant care. In addition, it allows parents, 
many of whom reside in rural areas of the state with little or no 
access to resources an opportunity to provide infant care for their 
children. This is an essential component of stable communities.
    It is innovative programs such as At Home Infant Care that will 
bring relief to poverty. States need support to address the needs of 
their poor citizens, not a boost in bureaucracy and over simplified 
approaches like those in the Bush Proposal. TANF Reauthorization 
policies should address the poverty people face, support families 
working out of poverty in a variety of ways including training and 
education, work and caring for their children. Policies must ensure 
families have options and protection when leaving violent homes and 
approach child well being through actual poverty reduction measures 
rather than involving government in our private lives through 
economically coerced marriage.
    I appreciate the opportunity to testify here today. I think it is 
essential to hear from the people who have been directly impacted by 
poverty. Our experience as a group that creates poverty alleviation 
policy in Montana certainly speaks to the fact that policies that are 
created with the input of the people that will be most impacted by them 
are the most successful.
    Thank you.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Ms. Kahan, and I 
would just like to comment that it is certainly not my intent 
or anyone I know on this Committee who in any way have 
legislation that would somehow perpetrate or encourage--that is 
probably not the right term, but allow abusive behavior within 
a married couple or within any couple. Certainly we are very 
sensitive to this, and anything we are doing, the goal is to 
try to attempt, in situations where it is possible and where it 
can be encouraged, to be able to allow our children to be born 
into two-parent, married homes, but we are certainly aware that 
that is not possible in every situation.
    I want to thank you again very much for each of your 
testimonies this evening. I thank you for your patience, and 
with that we will call up panel 10. Yasmina Vinci, Executive 
Director, National Association of Child Care Resources and 
Referral Agencies; Paul Marchand, Co-chair of TANF Task Force, 
Consortium for Citizens With Disabilities; Sean Cahill, 
Director of Policy Institute, National Gay and Lesbian Task 
Force; Sharon McDonald, Policy Analyst, National Alliance to 
End Homelessness; David Beckmann, President, Bread for the 
World; and Bich Ha Pham, Executive Director, Hunger Action 
Network of New York State. Ms. Vinci.

  STATEMENT OF YASMINA S. VINCI, EXECUTIVE DIRECTOR, NATIONAL 
   ASSOCIATION OF CHILD CARE RESOURCES AND REFERRAL AGENCIES

    Ms. VINCI. Mr. Chairman, thank you for the opportunity to 
testify and for your stamina in willing to listen to this many 
voices of everybody who wants to weigh in on your proposals.
    As Executive Director of the National Association of Child 
Care Resources and Referral Agencies, I represent the wisdom 
and expertise of a national network of nearly 750 local 
resource and referral programs across the United States. In 1 
year those programs help 1,650,000 families looking for child 
care, and of those, 750,000 are low-income, and half a million 
are TANF-receiving families. So, this hands-on work along with 
the very careful documentation of the supply and demand of 
child care gives the members of our network a very deep insight 
into the child care needs of families and communities.
    I recall vividly the moment in the previous welfare reform 
debate when Congressman, then Chairman, Shaw stated that we 
simply could not have welfare reform without child care, and, 
of course, he was right. At the time we only had an inkling of 
the unintended consequences on child care in the communities, 
and here are some of the learnings since then.
    One, we knew then that the pressure on supply of care would 
increase significantly, and that much of that pressure would be 
care for infants and toddlers, for babies. We did not know that 
because of constant turnover of inadequately trained and poorly 
compensated providers, the need for continuous supply building 
would be so intense. Just last year, the members of our network 
created 500,000 slots, and 70 percent of the calls looking for 
child care are from parents looking for care for babies, so 
that means that the need continues.
    We also knew that most jobs for people leaving TANF would 
not be the 9-to-5 jobs. We did not know then that in many case 
places, like in Shasta County, in your district, as many as 
one-quarter of all requests to early childhood services, which 
is the local resource and referral program, would be for child 
care during evenings, nights, and weekends. All over the 
country calls for providers who can accommodate rotating 
shifts, seasonal care are flooding the resource and referral 
programs.
    We also knew then that States would be making multiple 
policy tradeoffs in order to stretch the resources to make them 
go all the way, but we did not anticipate the extent to which 
families would be faced with impossible tradeoffs between 
paying for child care and other most basic needs. For instance, 
a parent in Shasta County earning a minimum wage needs half, 50 
percent, of her annual income to pay for licensed care for a 
baby, and at the same time she needs 53 percent of her income 
for her housing. That adds up to 103 percent. As one of your 
constituents has said, this is a direct quote, ``For the price 
that some centers will charge to care for my two school-age 
children plus the baby, I would need to bring toothbrushes and 
move in because I could not afford child care and rent, too.''
    Mr. Chairman, I am sure that these were not the kinds of 
choices and options for parents that were envisioned in the 
1996 legislation.
    One more thing. Since 1996, with the scientific evidence 
that 90 percent of the brain is formed by the age of 5, we have 
even more understanding of the importance of quality of the 
child's early experience for the ability to learn in school, 
and we are very glad that the administration has been focusing 
national spotlight on this important fact. What we face, 
though, is that children under 5 are in a variety of places. 
They are in centers, family child care homes, nursery schools, 
public preschools, Head Start, with relatives, friends, and 
neighbors, and the conundrum could be how to achieve quality 
across all those settings.
    Fortunately, we think the vehicle to employ a variety of 
strategies to support and to improve the quality in different 
community settings does exist already. It is called child care 
resource and referral, and the fact sheet that we have enclosed 
with our activity shows in hard figures that investments that 
many States have already made in child care resource and 
referral systems with CCDBG, TANF, and State funds have been 
effective.
    So, our recommendations for Congress based on frontline 
wisdom and experience are: One is to increase investments in 
child care subsidies sufficiently so that families 
transitioning into work as well as low-income working families 
can have choice of child care that is reliable and also helps 
children to become learners.
    Two, we think it is equally important to make substantial 
investment in the strategies that support the availability and 
quality of care. If quality sufficient to get all children 
ready for school is to be achieved in all the settings where 
the children are, Congress should increase the set-aside for 
quality to 12 percent and strengthen the capacity of proven 
quality-buildings systems.
    Finally, information technology and local presence of 
resource and referral have created an opportunity for regular, 
sustained collection of reporting of local reality-based data 
on the supply, demand, and price of child care so that State 
and federal level decisions on child care can be informed by 
up-to-date, solid data that represent the same marketplace that 
the families are experiencing. In fact, an investment in 
activating and sustaining this capacity would supply a degree 
of increased accountability for the Nation's largest single 
funder of child care, the Federal Government. Thank you, Mr. 
Chairman.
    [The prepared statement of Ms. Vinci follows:]
Statement of Yasmina S. Vinci, Executive Director, National Association 
             of Child Care Resources and Referral Agencies
    Mr. Chairman and Members of the House Ways and Means Human 
Resources Subcommittee,
    Thank you for inviting me to testify about the Welfare Reform 
Reauthorization Proposals. This is an important occasion, allowing us 
to look at the results and accomplishments of Personal Responsibility 
and Work Opportunity Reconciliation Act and at the lessons learned in 
its implementation, and an invitation to us all to do even better in 
the years to come.
    As Executive Director of NACCRRA, the National Association of Child 
Care Resource and Referral Agencies, I represent a national network of 
nearly 750 local resource and referral (R&R) programs across the United 
States, such as Early Childhood Services in Shasta County and the 
Baltimore City Resource Center in Maryland. Collectively, in one year 
community-based R&R programs help 1,650,000 families to find child care 
needed in order to work or get training. Of those families, one million 
are low income families and half a million are families who are 
receiving TANF. R&R programs have had a very up front and close 
experience with the families who are starting to work and stay working, 
and child care has been an important piece of that effort. R&R programs 
throughout the country also maintain detailed data on the supply and 
demand of child care and early education programs. And so, my 
knowledge, deriving from the local R&R expertise, is in this arena, and 
that will be the focus of my testimony.
    I recall vividly the moment in the early welfare reform debates 
when Congressman Shaw stated that we simply could not have welfare 
reform without child care. He was right, and we all knew that he was 
right, but at that time we only had an inkling of the unintended 
impacts on child care in the communities. Here is what we have learned:

        1. LWe anticipated that with many more mothers required to work 
        we would have significant pressure on the existing supply of 
        child care. What we did not know is that even with R&Rs 
        feverishly building the supply (last year, 500,000 new slots 
        were created by R&Rs) the supply would keep vanishing as a 
        result of the turnover of underpaid, undervalued providers.
        2. LWe knew that, by and large, the available jobs for the new 
        entrants in the workforce would not be the 9:00 a.m.--5:00 p.m. 
        jobs. However, we underestimated the high percentage of those 
        jobs that would be during non-traditional hours. In Shasta 
        County, for example, almost one-quarter of all requests are for 
        care during non-traditional hours--evenings, nights, and 
        weekends. We knew little then about rotating staffing schedules 
        for many employees, and yet the calls for providers who can 
        accommodate rotating schedules have been the fastest growing 
        type of requests for R&Rs in many areas. The issues of how to 
        build and maintain the supply of seasonal child care, whether 
        for people working in Colorado resorts or packing eggs in Iowa, 
        were not fully clear to us.
        3. LAnother thing that was unclear then was the balancing 
        between: a.) the need of states to stretch the money available 
        for child care subsidies to as many families as possible; b.) 
        the necessity to make those subsidies sufficient for parents to 
        be able to afford the care; and c.) the assurance that the 
        available care would be safe and good for the children. States 
        have been addressing this dilemma in several ways. First, the 
        eligibility for subsidy may be set too low. Few states allow 
        families to qualify for subsidy at the level allowed under 
        federal law (85% of state median income). Next, they may set 
        the rates well below the market rates, and thus preclude 
        parents from accessing the market of licensed care. 
        Alternatively, the co-payment fees may be too high. Thirty-five 
        states required families earning $7,075 a year for a family of 
        three to pay a fee even though this is income at half of the 
        poverty level. Finally, to make up for low fees and gain access 
        to care, parents often have to reach into already meager 
        resources to supplement their co-pay rates and the state 
        subsidy rate with yet another fee.
          L  As a result of such multiple policy tradeoffs, all too 
        often we find that parents do not have the choice or the 
        options that the original legislation envisioned as priorities. 
        The R&R counselors hear daily of instances where families are 
        either struggling to remain employed with the unreliable 
        informal care that they are able to afford, or are unable to 
        take even a slight salary raise because it would mean getting 
        over the income eligibility threshold and losing the child care 
        subsidy altogether.
        4. LFinding affordable child care is even harder for working 
        parents who are not on TANF and do not receive subsidies. For a 
        Shasta County working poor parent, earning a minimum wage, 
        paying for full-time licensed care in a center for an infant, 
        would take up 50% of the annual income. For a single mom, this 
        would be a true Sophie's choice since her rent would be 53% of 
        her annual income. As a mother of three said, ``For the price 
        that some centers would charge to care for my two school-age 
        children plus the baby, I would need to bring toothbrushes and 
        move in because I could not afford child care and rent, too.''
        5. LAnother unanticipated barrier to families transitioning to 
        work has been the dire shortage of care for infants and 
        toddlers. With 6.8 million children under the age of 3 living 
        with employed parents, the demand for this, most expensive type 
        of care, remains unmet in ways that are inimical to the well-
        being of children and families. We know the demand on parents 
        for infant and toddler care--last year, 70% of all calls to 
        R&Rs were requests for children under 3 years of age.
        6. LOne thing that we overlooked in 1996 while concentrating on 
        child care as a support to working families was the enormous 
        importance of the early experiences for the growth, development 
        and readiness to learn of the children whose parents were going 
        off to work. Since then, new insights into brain development 
        have confirmed the imperative for good quality early 
        experiences, regardless of the setting in which the child is 
        spending time. We know now that 90% of an individual's brain 
        develops by the age of 5. We commend the attention that the 
        Bush Administration has focused on education and on the key 
        role that early learning plays in education reform. In fact, 
        the express overarching goal of the new Administration for TANF 
        reauthorization, `to promote the well-being of children,' 
        represents a very important commitment for the nation. 
        President Bush has made a further commitment, ``we must make 
        sure that every child enter school ready to learn--every 
        child--not just one, not just a few, but every single child.''

    There are two essential components that must be in place in order 
to ensure that children enter school ready to learn: one is the 
acknowledgement that we must invest in a well qualified, well-trained, 
and well-compensated early care and education workforce. It is 
difficult, however, to attract individuals into the responsible, 
demanding profession of caring and educating children (let alone to 
retain them) when the average salary is $16,350 with few benefits.
    The second component addresses the reality of the daily experiences 
that children have while their parents work. Across the country, 
children are being cared for in a variety of settings, including 
centers, family child care homes, state and private pre-school and 
after-school programs, Head Start programs, and in the homes of 
relatives, friends, and neighbors. If we wish to make sure that 
children are nurtured and educated wherever they are spending their 
time, there must be an intentional investment in a system of community-
based, locally-driven supports for caregivers and teachers in the 
various settings as well as for the families. Luckily, that system, 
thoroughly tested for nimbleness and an ability to deliver help needed 
for states to implement welfare reform, already exists. It is called 
child care resource and referral (R&R). The 750+ resource and referral 
programs (located in family service agencies, public school systems, 
local government offices, faith-based agencies, community colleges, 
community action programs, or as free-standing non-profits), have self-
organized from the need of employers, communities and states to make 
child care work for both the families and communities. As is evident 
from the attached fact sheet, they have been a critical support for 
successful welfare reform in most states.
    In states where resource and referral is adequately funded and 
well-coordinated, the access of families to good information and 
consultation is demonstrably better, the providers are supported with 
information and expertise, and the communities are equipped with the 
capacity to bring together various interested parties to work on 
planning to meet the needs of local families, and to promote decision-
making based on solid, real-time, locally-collected R&R data.
    In conclusion, at this time we know appreciably more than in 1996 
about what works and what needs to happen for everyone to work. 
Implementation has confirmed the concept that quality child care is 
essential if people are to leave TANF and stay employed. It has also 
given us valuable insights into what makes child care work for 
families, employers, and communities. We know for sure from the 
experience of the last five years that child care as a support to 
working families and as a place where children will develop to be 
happy, healthy, and ready to learn can be done, and can be costly. The 
front line wisdom and evidence from the communities tell us that in 
order to take welfare reform to the next stage and maximize its 
benefits to the children, it is important for Congress and the 
Administration to:

        <bullet> Make sufficient investments in child care subsidies 
        so that families transitioning into work as well as low-income 
        working families can find and afford care that is reliable and 
        helps the children to become learners. Even before recent tough 
        budget cuts in states, and even using transfers from TANF and 
        considerable state investments, states have not had sufficient 
        resources to provide child care subsidy for all families who 
        need it in order to work. The proposal to increase the work and 
        participation requirements, whether it means more training, 
        community service or drug rehabilitation, is likely to result 
        in an increased demand for child care during those additional 
        hours. Recognizing that fact and making sure that the funding 
        is there for parents to be able to cope with this additional 
        requirement, seems to be a first step in ensuring that the plan 
        has a chance of working. Keeping in mind that care for infants 
        and toddlers and children with special needs is the hardest to 
        find, afford, and trust, is the next level of anticipating and 
        addressing unforeseen barriers.
        <bullet> It is equally important to make sufficient 
        investments in the strategies that support the availability and 
        quality of care. A variety of these activities, including 
        supply building, professional development and compensation, 
        licensing, and information to parents have been funded by the 
        4% set aside for quality authorized in the Child Care 
        Development Block Grant. If quality sufficient to get all 
        children ready for school is to be achieved in all settings, we 
        must have serious and systematic work done and serious 
        investments are necessary, including an increase of the set 
        aside for quality to 12%.
        <bullet> Finally, information technology and local presence of 
        resource and referral have created the promise for regular, 
        sustained collection and reporting of local, reality-based data 
        on the supply, demand, and price of early care and education 
        options, so that state-and federal-level decisions on child 
        care can be informed by up-to-date, solid data that represents 
        the same marketplace that the families are experiencing. An 
        investment in activating and sustaining this network would 
        supply increasing accountability for the nation's largest 
        single funder of child care--the Federal Government.

    Thank you for the time and opportunity to share the wisdom and 
experience of the nation's network of resource and referral agencies.
                                 ______
                                 
                             A GREATER GOOD
                 FACTS AND FIGURES ON THE IMPACT OF R&R
    In one year, 733 local resource and referral (R&R) programs in the 
USA----
Work with families
    R&Rs help parents take the guesswork out of choosing care, 
equipping them with referrals and information about elements of quality 
care and state licensing requirements, as well as availability of child 
care subsidy.

        <SUP>;</SUP> LHelp 1,650,000 families to find child care; 
        750,000 are referrals for low income families; 500,000 for 
        TANF-receiving families
        <SUP>;</SUP> LSupport another 4,440,000 parents in raising 
        happy, healthy children, with parent education (62%), support 
        for stay-at-home parents (45%), and linkages with health (66%)
Build the supply of child care
    In most communities, the demand for child care far outweighs the 
supply and staff turnover is high, creating a constant need for new 
providers. R&Rs create an entry point for providers, helping them get 
licensed and helping them meet the urgent need for infant and toddler, 
bilingual, special needs and non-standard hours care.

        <SUP>;</SUP> LDevelop 500,000 new child care slots
Improve the quality of early care and education
    Across the country, R&Rs provide ongoing professional development 
opportunities, including training and career advising, and supporting 
accreditation and credentialing programs.

        <SUP>;</SUP> LTrain or connect to training 1,200,000 child care 
        workers
        <SUP>;</SUP> LProvide 1,240,000 technical assistance 
        consultations
        <SUP>;</SUP> LSupport accreditation and/or credentialing of 
        programs and providers (97%)
        <SUP>;</SUP> LProvide or facilitate training on caring for 
        infants and toddlers (83%)
        <SUP>;</SUP> LEmploy innovative strategies to improve quality 
        of license-exempt care (89%) and care by relatives (84%)
Bridge child care and education
    R&Rs help to create the kinds of child care settings that help 
children grow and learn, and are dedicated to informing communities 
about the important links between early learning and later success in 
school.

        <SUP>;</SUP> LConduct public awareness campaigns on early 
        learning (81%)
        <SUP>;</SUP> LUndertake initiatives that promote early literacy 
        (31%)
        <SUP>;</SUP> LProvide kindergarten transition activities (35%)
Document child care needs and trends
    What makes R&R unique throughout the nation is their ability to 
gather information through contact with parents and providers and turn 
this information into reports on the supply, demand and gaps in child 
care for state and community planning. Through collection and 
interpretation of data, R&Rs are able to alert policy makers to the 
changing needs of constituents.

        <SUP>;</SUP> LDevelop and disseminate regular supply and demand 
        reports (70%)
Engage new partners
    By reaching out to a wide range of stakeholders, from business 
leaders to law enforcement to public school teachers, R&Rs help 
articulate why child care is an issue entire communities need to care 
about. In addition, they collaborate with a wide range of other family 
support services to promote a holistic vision of child care that 
includes health, literacy, mental health, and special needs.

        <SUP>;</SUP> LConvene local coalitions (75%)
        <SUP>;</SUP> LParticipate in community coalitions (95%)
Tell the child care story:
    By documenting community child care needs and creating new ways to 
meet those needs, R&Rs bring voices to children, families, and child 
care providers to the public through their publications and through 
interviews with the media. In addition, when policy-makers need up to 
date information about the state of child care, they turn to R&Rs.

        <SUP>;</SUP> LRegularly field questions from the media (67%)

    Source: Preliminary results--2002 NACCRRA COUNTS

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Vinci. Mr. Marchand to 
testify.

   STATEMENT OF PAUL MARCHAND, ASSISTANT EXECUTIVE DIRECTOR, 
   POLICY AND ADVOCACY, ARC, AND CO-CHAIR, TANF TASK FORCE, 
           CONSORTIUM FOR CITIZENS WITH DISABILITIES

    Mr. MARCHAND. Good evening, Mr. Chairman, and thank you for 
this opportunity. I am Paul Marchand, and I am the Director of 
Governmental Affairs for The Arc, which is the Nation's 
organization that deals with mental retardation policy. I am 
accompanied this evening by Laurel Stine from the Bazelon 
Center for Mental Health Law, and together we cochair the 
Consortium for Citizens With Disabilities (CCD) Task Force on 
TANF.
    Our consortium is made up of 100 national organizations 
that deal with disabilities from the perspective of parents, 
consumers, service providers, and professionals. We work in a 
variety of contexts in addition to TANF, such as employment and 
training, Social Security policy, housing, long-term services 
and supports, and disability rights. We have major policy goals 
of self-determination, independence, empowerment, community 
integration, and inclusion as vital outcomes for our 
constituents. For the first time in our 26-year history, CCD is 
paying attention to TANF, and I will explain why in a second.
    Our full testimony raises a number of serious concerns 
about the current TANF implementation, analyzes some of the 
proposals to extend TANF, and makes recommendations for program 
improvement. However, there is one absolutely critical message 
we hope you will hear tonight and throughout the 
reauthorization process, and that is that a very significant 
proportion of adults and children remaining on the TANF rolls 
have disabilities, and their meeting the employment goals in 
TANF is an ongoing challenge to the States, to the local 
providers, to the local governments, and individuals and 
families themselves.
    Much to our surprise the recent data from the U.S. General 
Accounting Office and other sources indicates that about 44 to 
45 percent of TANF recipients have disabilities in their 
families. That may be a surprise to you also. Mr. Chairman, you 
count votes. Today I counted the number of witnesses. I am the 
42nd out of 45 witnesses. Only three of those experts in this 
field mentioned disability as an issue today and tonight. 
Assuming the success of further reducing the TANF rolls 
continues, that percentage of people with disabilities will 
likely rise since they have significant barriers to employment, 
and most need longer and more expensive job training and other 
supports to be successful.
    We believe that all people with disabilities must have the 
opportunity to maximize their potential, including the ability 
to find and keep a good job, and that all levels of government 
have the legal obligation that these individuals have equal and 
meaningful access to programs that help them get those jobs. 
Previous Congresses have enacted the Americans with 
Disabilities Act and section 504. Both of those disability 
rights laws are incorporated in TANF. However, the worthy goal 
of jobs for people with disabilities in our Nation has not been 
realized by many Americans. Federal Government and other 
statistics indicate that over two-thirds of working-age people 
with disabilities who want to work today cannot find jobs. This 
is bad for those individuals. This is bad for our Nation.
    Working together we must figure out how this TANF 
reauthorization can be part of the solution to this national 
dilemma. We have crafted a set of principles to guide TANF 
reauthorization from a disability perspective and a number of 
policy recommendations, and they are incorporated in our 
testimony. We hope to work with you and Congress so that the 
concerns, needs, and aspirations of our constituents are met.
    It is important to note that there are parents with 
disabilities, and there are parents caring for children with 
disabilities who are involved here. All of these families have 
multiple barriers to work and to comply with TANF rules. A few 
examples: A parent is ready and able to work, but they cannot 
find child care or a child care provider who will deal with 
their child with a disability; a parent with a disability, able 
to work, but the community does not have accessible and 
affordable transportation for them to get back and forth to a 
job; a parent with a disability who has tried to work, but has 
been unsuccessful because of the lack of on-the-job supports 
needed for them to keep that job; a parent with a disability 
who cannot get needed job training because they are deemed not 
disabled enough for vocational rehabilitation, but they are 
deemed too disabled for the one-stop job training centers.
    There are countless other scenarios that pose other types 
of serious impediments for TANF recipients with disabilities to 
find employment. It is vital that States and localities find 
solutions to these problems and that the TANF reauthorization 
address them as well.
    We are very concerned that the administration's proposal, 
if adopted, will pose even greater barriers for people with 
disabilities to leave the TANF rolls through the increased work 
requirements and the elimination of assessments. We have a 
number of recommendations in our statement, and we hope that we 
can work with you on those.
    We thank you very much for your patience this evening. We 
look forward to working with you and this Committee to enact a 
TANF reauthorization that helps our constituents who can and 
want to work do so so that all of us are enriched. Thank you 
very much.
    [The prepared statement of Mr. Marchand follows:]
 Statement of Paul Marchand, Assistant Executive Director, Policy and 
 Advocacy, Arc, and Co-Chair, TANF Task Force, Consortium for Citizens 
                           with Disabilities
    Mr. Chairman, Members of the Subcommittee, I am Paul Marchand, the 
Assistant Executive Director for Policy and Advocacy at The Arc, and 
co-chair of the Consortium for Citizens with Disabilities' TANF Task 
Force. I am accompanied today by Laurel Stine, the Director of Federal 
Relations at the Judge David L. Bazelon Center for Mental Health Law, 
and co-chair of the CCD TANF Task Force.
    The Consortium for Citizens with Disabilities (CCD) is a coalition 
of approximately 100 national consumer, advocacy, provider and 
professional organizations headquartered in Washington, DC. We work 
together to advocate for national public policy that ensures the self 
determination, independence, empowerment, integration and inclusion of 
children and adults with disabilities in all aspects of society. The 
CCD advocates on behalf of people of all ages with physical and mental 
disabilities and their families through organized Task Forces on such 
issues as housing, health care, education, and welfare reform. The CCD 
TANF Task Force seeks to ensure that families that include persons with 
disabilities are afforded equal opportunities and appropriate 
accommodations under the Temporary Assistance for Needy Families block 
grant.
    Included in my written statement is the governing document for our 
task force. Principles Guiding the Reauthorization of TANF spells out 
the key principles that we believe should underlie improvements in TANF 
reauthorization from a disability perspective. The recommendations 
included in my statement also appear in a second governing document for 
the task force; these recommendations describe the steps we believe are 
needed to implement those principles in ways that will help parents 
with disabilities and parents caring for children with disabilities to 
be able to maximize their potential through the TANF program.
    We start from the premise that all people with disabilities must 
have the opportunity to maximize their potential--including to be able 
to work--and that it is the legal obligation of the government--
federal, state and local--to ensure that people with disabilities have 
equal and meaningful access to all programs receiving federal funds. 
This is the promise of the Americans with Disabilities Act and Section 
504 of the Rehabilitation Act of 1973, both of which Congress 
specifically incorporated into the TANF statute in 1996 at Section 
408(c), 42 U.S.C. Sec. 608(c).
    It is still common for policymakers not to realize that many people 
with disabilities are in the families being served by TANF programs. 
Early in the process of welfare reform, the thinking among many state 
level policymakers was, if the person was really disabled then she 
would be receiving Supplemental Security Income. And, for some parents 
and children on TANF, it is true that they should be receiving SSI and 
may need their state's help in securing these benefits. But, the SSI 
eligibility criteria require a severe disability and we are finding 
that there are many who do not meet the SSI test but who clearly are 
disabled for TANF purposes. The studies now show that many parents on 
TANF have disabilities and other health conditions that inhibit their 
ability to work, but who with appropriate supports and services, could 
be working. Last fall, the General Accounting Office found that 44 
percent of parents receiving TANF had at least one physical or mental 
health impairment, three times higher than the rate of such impairments 
among adults not receiving TANF benefits.<SUP>1</SUP> This confirmed 
earlier findings from the Urban Institute and others.<SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Welfare Reform: More 
Coordinated Federal Effort Could Help States and Localities Move TANF 
Recipients with Impairments Toward Employment, October 2001, available 
at http://www.gao.gov.
    \2\ Sheila R. Zedlewski, Work Activity and Obstacles to Work Among 
TANF Recipients, Urban Institute, Series B, No. B-2, September 1999, 
http://www.urban.org/UploadedPDF/anf--b2.pdf. For a discussion of 
numerous studies that have reported on the status of parents with 
disabilities in state TANF programs, see Eileen P. Sweeney, Recent 
Studies Indicate that Many Parents Who are Current or Former Welfare 
Recipients Have Disabilities or Other Medical Conditions, Center on 
Budget and Policy Priorities, February 2000, http://www.cbpp.org/2-29-
00.htm. See also, Heidi Goldberg, Improving TANF Program Outcomes for 
Families with Barriers to Employment, Center on Budget and Policy 
Priorities, January 2002, http://www.cbpp.org/1-22-02tanf3.htm.
---------------------------------------------------------------------------
    The studies show that parents on TANF have mental impairments such 
as severe depression, general anxiety disorder, post-traumatic stress 
disorder, learning disabilities, mental retardation, and physical 
impairments. These impairments can make it difficult for a parent to 
work or to understand and comply with state rules. Many families have 
multiple barriers to work, one or more of which is a disability or 
health condition.<SUP>3</SUP> In many instances, parents would like to 
work but will need intensive supports and services if they are to 
succeed. Some examples of these supports include training designed to 
take into account the person's disability, counseling, substance abuse 
treatment, on-the-job supports, child care and transportation. For 
some, full-time work may be the long-term goal, but there will need to 
be numerous smaller steps taken over time before such a goal can be 
reached. For others, part-time work in a supportive setting may be the 
ultimate goal.
---------------------------------------------------------------------------
    \3\ Sandra Danziger, Mary Corcoran, Sheldon Danziger, et al., 
Barriers to Employment of Welfare Recipients, University of Michigan 
Poverty Research and Training Center, February 2000, http://
www.ssw.umich.edu/poverty/pubs.html.
---------------------------------------------------------------------------
    There also are children with disabilities in TANF families. Some of 
these children receive SSI--the Urban Institute has reported that about 
four percent of children in TANF families receive SSI children's 
disability benefits<SUP>4</SUP>--while far more have health conditions 
that do not rise to the SSI level of severity but who nevertheless 
require constant parental care and attention. For example, the Manpower 
Demonstration Research Corporation, studying TANF recipient families in 
four urban counties--Los Angeles, CA, Philadelphia, PA, Miami-Dade, FL, 
and Cuyahoga County, OH (Cleveland)--found that one-fourth of non-
employed mothers receiving TANF had a child with an illness or 
disability that limited the mothers' ability to workor attend 
school.<SUP>5</SUP>
---------------------------------------------------------------------------
    \4\ Zedlewski, 1999.
    \5\ Denise Polit, Andrew London, and John Martinez, The Health of 
Poor Urban Women: Findings from the Project on Devolution and Urban 
Change, Manpower Demonstration Research Corporation, May 2001, http://
www.mdrc.org/Reports2001/UC-HealthrReport-FullRpt2001.pdf. See also, 
Barbara W. LeRoy, Donna M. Johnson, Sharonlyn Harrison, Open Road or 
Blind Alley? Welfare Reform, Mothers and Children with Disabilities, 
Skillman Center for Children, Wayne State University, Occasional Paper 
Series 2000, No. 4, November 2000, http://
www.skillmancenter.culma.wayne.edu/OP%202000-4.pdf.
---------------------------------------------------------------------------
    Our sense it that the picture over the past five years as it 
applies to people with disabilities is mixed. Some parents with 
disabilities are now working but many others have been inappropriately 
sanctioned and lost TANF or have not received the services and supports 
they will need--often on a long-term basis--in order to take the steps 
that will ultimately allow them to work or achieve a greater degree of 
independence. Even among those who are working, we are concerned that 
some may be struggling to hang on to jobs and need additional supports 
and services to succeed. We were very pleased last year when the Office 
for Civil Rights at HHS issued guidance to states and counties 
explaining how the ADA and Section 504 apply in the TANF 
program.<SUP>6</SUP> This important step has helped to alert states and 
counties to their obligations to assist people with disabilities and to 
focus their attention on the types of policy changes that will be 
needed to ensure that people with disabilities are fully protected and 
served in their programs.
---------------------------------------------------------------------------
    \6\ Office for Civil Rights, U.S. Department of Health and Human 
Services, Prohibition Against Discrimination on the Basis of Disability 
in the Administration of TANF (Temporary Assistance for Needy 
Families), 2001, http://www.hhs.gov/ocr/prohibition.html.
---------------------------------------------------------------------------
    There is some evidence that some states are taking steps to assist 
people with disabilities in their TANF programs--and some of this 
evidence pre-dates the OCR guidance. But, the research reflects that 
these efforts are still very much in their infancy and that parents 
with disabilities and parents caring for children with disabilities 
continue to be at a disadvantage in most state TANF programs. We know, 
for example, that significant numbers of parents with disabilities are 
among those who have been sanctioned off of state TANF programs--often 
because their disability prevented them from complying. MDRC found 
that, ``[w]elfare recipients with multiple health problems and with 
certain health problems (notably, physical abuse, risk of depression, 
having a chronically ill or disabled child) were more likely than other 
recipients to have been sanctioned in the prior year.'' And, among 
those who had left welfare, ``[w]elfare leavers with multiple health 
problems were more likely than other women who had left welfare to say 
that they had been terminated by the welfare agency rather than that 
they left on their own accord.'' <SUP>7</SUP>
---------------------------------------------------------------------------
    \7\  Polit, London, and Martinez, May 2001.
---------------------------------------------------------------------------
    We also know of numerous disturbing examples of families with a 
member with disabilities where the system has failed them--as well as 
some for whom the system has worked. Consider, for example, these two 
parents' stories, included by the Colorado Governor's Task Force on 
Welfare Reform in their report, Moving Forward with Welfare 
Reform:<SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Governor's Task Force on Welfare Reform Report, Colorado, 
September 2000.

---------------------------------------------------------------------------
        Client A:

    L``A client was tested and had an IQ of 67. She was sent to 
Vocational Rehab and then instructed to seek work. She received child 
care for two occasions and then was sanctioned in Colorado Works. Her 
family became homeless in November 1998 and the children were placed in 
foster care in December 1998.''

        Client B:

    L``A client has an IQ of 67 and is a victim of domestic violence. 
There is suspicion of brain damage as a result of abuse. She cannot 
communicate well, she is conscientious but has few skills. She has an 
anxiety disorder which cannot be treated because of her heart problem. 
She sees a physician weekly to manage blood thinning medications. She 
had surgery for a valve replacement one year ago. She was assigned to a 
community college program which reported that she would be doing fine 
but then the next day she couldn't remember what she had learned. It 
takes the parent approximately one month to learn a bus route. The 
county required that she find a job in six months. Later that 
expectation was lowered to ten hours of time within her supported 
living program.''

    The description of the steps the state took to help Client--
provides a sense of the types of steps that states will need to take in 
order to help some parents with disabilities to maximize their 
potential. Unfortunately, no steps--not even ongoing child care for her 
children--were taken to assist Client A, with the tragic consequence 
that she was sanctioned, lost her home, and then lost custody of her 
children. It should not be acceptable to the Congress that even one 
parent with disabilities or one parent caring for a child with 
disabilities faces these types of consequences in TANF. Unfortunately, 
the research suggests that problems like this are all to frequently 
occurring across the country, at great personal expense to parents and 
children.
    The CCD TANF Task Force recommends that Congress take the following 
steps to ensure that parents with disabilities and parents caring for 
children with disabilities are able not only to fully benefit from the 
TANF program but also not harmed by policies that do not take into 
account the impact of their disabilities on their ability to comply 
with program rules:
Screening and Assessment
        <bullet> Ensure that TANF beneficiaries have access to 
        screening carried out by trained personnel who use appropriate 
        tools to identify barriers to employment, including cognitive 
        and learning disabilities, physical impairments, mental health 
        and substance abuse disorders.
        <bullet> Ensure TANF beneficiaries that are identified as 
        having such barriers to employment have access to comprehensive 
        assessments by qualified professionals.
        <bullet> Ensure all screening and assessments are voluntary on 
        the part of TANF beneficiaries; TANF beneficiaries should not 
        be subject to a sanction or closure for failing to participate 
        in a screening or assessment.
        <bullet> Ensure that case workers inform TANF beneficiaries of 
        the purpose of screening and assessment including the 
        possibility that modification of requirements may be made to 
        accommodate identified disabilities.
        <bullet> Ensure results of screening and assessments are 
        maintained in accordance with professional standards of 
        confidentiality.

States should consider other documentation of the existence of a 
disability in a family.
Services
        <bullet> Ensure qualified professionals are responsible for 
        the development of tailored Individual Responsibility Plans for 
        families that have been identified as including a person with a 
        disability. Such plans should include a list of services the 
        state must provide to ensure people with disabilities have the 
        access to services, supports and treatment that will allow them 
        to address their barriers to work and be successful in the 
        workplace, consistent with their abilities and capabilities.
        <bullet> Encourage agencies administering TANF to facilitate 
        inter-agency collaboration and explore co-location of services 
        to facilitate access to the services, support and treatment 
        that TANF beneficiaries require to address their barriers to 
        work.
        <bullet> Repeal the provision in current law that prohibits 
        those convicted of a drug felony from receiving TANF 
        assistance.
        <bullet> Require states to ensure that an adequate network of 
        service providers with specialized experience and expertise are 
        available and accessible to meet the needs of TANF 
        beneficiaries with disabilities.
Work Requirements/Work Participation
        <bullet> Provide flexibility to states and qualified 
        professionals to ensure reasonable accommodation for 
        individuals with disabilities by allowing activities that 
        address employment barriers to count towards meeting work 
        participation requirements.
        <bullet> Activities should include substance abuse treatment, 
        mental health counseling, education, vocational training, 
        provision of child-care, and other activities considered 
        appropriate by the state.
        <bullet> Modify work participation requirements to address and 
        accommodate the impact that variations in types and severity of 
        disabilities have on work and support needs, including the 
        reality that some persons with disabilities currently may not 
        be capable of meeting the generally applicable work 
        requirements and for some persons with disabilities the ability 
        to work varies over time because of the episodic nature of 
        disability. Flexibility must be provided to take into account 
        that some individuals with disabilities are currently not 
        capable of working. Others are capable of working only on a 
        part time or limited basis that may not meet the generally 
        applicable work requirements. Still other are capable of 
        meeting the generally applicable work requirements but not 
        within the timeframes, or given the nature of the services, 
        supports, and treatments available. Others may not be capable 
        of meeting generally applicable work requirements because the 
        individual is a parent of a child with a disability and the 
        individual is unable to obtain appropriate child care services.
        <bullet> Ensure that states receive appropriate credit for 
        providing reasonable accommodations to people with disabilities 
        and ensure that states are not penalized for failing to meet 
        work participation rates due to (1) the state making reasonable 
        modification for persons with disabilities, (2) the state 
        making reasonable modification for a parent with a child with a 
        disability, and (3) the reality that certain individuals 
        currently are not capable of meeting the generally applicable 
        work participation requirements.
Time limits
        <bullet> Ensure that a state makes reasonable accommodations 
        for individuals with disabilities regarding TANF time limits. 
        More specifically, the provision in the statute concerning time 
        limits should be modified to require a state to disregard 
        months of assistance received by an individual identified as 
        having a significant barrier to employment during any period in 
        which the state did not provide necessary services and supports 
        to the individual. Significant barriers include physical or 
        mental impairments (including substance abuse disorders) that 
        substantially impair an individual's ability to engage in 
        generally required levels of work and a parent of a child with 
        a disability if the child's need for parental care results in 
        the parent being unable to engage in the generally required 
        level of work.
        <bullet> In addition, the state should be required to 
        disregard months of assistance during which an individual is 
        unable to engage in the generally required levels of work.
Sanctions and Closures
        <bullet> Remedy the disproportionate sanctioning of people 
        with disabilities and prohibit states from sanctioning 
        individuals with identified disabilities who have not been 
        accommodated. In other words, states should be prohibited from 
        sanctioning an individual if the state fails to offer 
        appropriate screenings and assessment or fails to provide an 
        individual with necessary services and supports that the state 
        knew or should have known were needed to work or comply with 
        other requirements in the individual's plan.
        <bullet> Require states to adopt procedures to ensure outreach 
        and assistance are provided before and after the implementation 
        of a sanction or a closure to help a family become compliant 
        and prevent people with disabilities from losing access to the 
        services, support and treatment they may require to 
        successfully transition to work.
        <bullet> Require states to restore benefits immediately to a 
        family who has been sanctioned as soon as they become compliant 
        with agency requirements.
Ensuring Continued Success For People in Transition to Work
        <bullet> Require states to ensure people with disabilities 
        have access to transitional benefits, work supports, and other 
        on-the-job support services and training to enhance the 
        likelihood they will remain stably employed. Medicaid coverage 
        should continue for a minimum of 12 months for TANF leavers and 
        states should have the flexibility to extend this further.
        <bullet> Require states to plan for the successful work 
        placement and responsible termination of TANF benefits for 
        families that include a person with a disability by ensuring 
        families have access to on-the-job support services and 
        training and/or other community-based services to help them 
        succeed.
Civil Rights
        <bullet> The statute should be amended to require that a state 
        describe the ``methods of administration'' it plans to adopt to 
        ensure compliance with the civil rights statutes, including the 
        ADA, so as to ensure consistency among job training programs in 
        the state. The Department of Labor regulations implementing 
        section 188 of the Workforce Investment Act already require the 
        adoptions of methods of administration.
Client Assistance/Ombudsman
        <bullet> Require agencies administering TANF programs to have 
        a designated, independent entity that can serve as a client 
        assistance advocate or ``ombudsman'' to serve those families 
        that include an adult or child with a disability.
Participation in Program Design
        <bullet> Require states to have client representatives 
        (including adults with disabilities and parents of children 
        with disabilities) participate in developing the state TANF 
        plan.
        <bullet> Require states to establish Advisory Panels, whose 
        membership includes former and current TANF beneficiaries with 
        disabilities, which are responsible for monitoring how the 
        state can improve how it serves people with barriers to work, 
        including people with disabilities.
Qualified Service Providers & Technical Assistance
        <bullet> Require states to define `qualified service 
        providers' within the TANF block grant program and set minimum 
        education, training, and/or certification or licensure 
        standards.
        <bullet> Require that state and local agencies develop a plan 
        to provide on-going training to service providers to improve 
        the delivery of services to people with disabilities.
        <bullet> Direct the Department of Health and Human Services 
        (DHHS) to provide on-going training and technical assistance to 
        state and local agencies to improve the delivery of services to 
        TANF beneficiaries with disabilities, including grants to 
        states and counties interested in supporting initiatives to 
        achieve systemic improvements in addressing the needs of 
        persons with diagnosed and undiagnosed disabilities.
Research
        <bullet> Provide resources to DHHS for research that will 
        examine families' services and support needs and whether they 
        are receiving those services to ensure people with disabilities 
        are being appropriately served under the TANF block grant 
        program. This should provide states and counties with examples 
        of effective best practices in services, assessment tools, and 
        programs designed to address the needs of parents with 
        barriers; including disabilities, and parents caring for a 
        child with a disability.
        <bullet> Provide additional resources to DHHS for 
        competitively awarded demonstration projects to test the 
        effectiveness of strategies to help TANF beneficiaries with 
        disabilities.
Funding
        <bullet> It is essential that the basic TANF block grant be 
        maintained and adjusted for inflation. Failure to do this will 
        mean erosion in the value of the block grant and reduction in 
        what states can do with the funds. The services and supports 
        that parents with disabilities need to successfully move to 
        work are often long-term and intensive. Without an increase in 
        the block grant, it will be difficult for states to meet the 
        needs of these parents and families.

    Finally, in closing, we are very concerned that proposals to 
increase the number of work activity hours per week required of parents 
and to increase states' work participation rates will increase the 
negative outcomes for people with disabilities in TANF-funded programs. 
By reducing state flexibility and forcing states to redirect dollars 
away from services into work experience positions, states will find it 
harder to assist parents with barriers, including parents with 
disabilities. For far too many parents with disabilities--and parents 
caring for a child with disabilities--a requirement of 24 hours per 
week of work supplemented by 16 hours of more flexible activities will 
present an insurmountable obstacle to moving ahead.and, we fear, will 
lead to even more sanctioning of some of the most needy and vulnerable 
families.
    Thank you again for this opportunity to testify. We will be happy 
to be helpful to you and your staff as you mark up the TANF 
reauthorization bill.
                                 ______
                                 
                           PRINCIPLES GUIDING
                      THE REAUTHORIZATION OF TANF
I. Foundation Statement
    1. TANF must be consistent with the principles and goals of 
national disability policy as articulated in the Americans with 
Disabilities Act (ADA)----

        <bullet> Equality of opportunity (i.e., individualization, 
        genuine, effective, and meaningful opportunity, and 
        administration of the program in the most integrated setting 
        appropriate);
        <bullet> Full participation in decision making (self 
        determination and empowerment by individuals with disabilities 
        and their representatives at the individual and policy level);
        <bullet> Independent living (legitimate outcome, skills 
        development, and ongoing services, supports, treatment and cash 
        assistance); and
        <bullet> Economic stability (legitimate outcome, employment-
        related services, real pay of real work, cash assistance and 
        work incentives).

    The ADA and Section 504 of the Rehabilitation Act are specifically 
incorporated by reference in TANF.
    2. Modifications to TANF must reflect research. According to 
research and studies, families that include an adult or child with a 
disability comprise a substantial proportion of the families remaining 
on TANF cash assistance. While some families have exited TANF and 
entered the workforce, others remain on the case load without access to 
the assistance they require to be successful. Alarmingly, studies 
confirm that adults with disabilities are disproportionately 
represented among the former TANF recipients who have lost assistance 
due to a sanction.
II. Assessments, Services and Supports
    1. Appropriate screening and comprehensive assessments must be 
provided by state and local agencies in order to make accurate and 
thorough decisions about the needs for services, supports and program 
modifications. Assessments may be particularly helpful to identify 
those TANF recipients who have never been diagnosed as having a 
disability and TANF recipients who might be eligible for Supplemental 
Security Income and Social Security Disability Insurance.
    2. Services, supports and treatment under TANF funded programs 
shall be provided in accordance with the abilities and capabilities of 
the individual and the needs of the family, including a parent who has 
a child with a disability. States must modify program requirements to 
accommodate persons with disabilities and must commit resources, 
effort, and time necessary to enable individuals with disabilities to 
meet those requirements.
    3. Services, supports and treatment must address the multiplicity 
of barriers facing persons with disabilities, including the lack of 
appropriate and affordable health care and substance abuse treatment, 
child care, education, assistive technology, accessible transportation, 
accessible housing and ongoing employment supports.
    4. The need for services, supports and treatment must be based on 
facts and objective evidence. In addition, individualized plans must be 
developed that reflect identified needs as determined by the 
individual, their representatives and qualified personnel.
    5. States should be required to offer screening and assessment to 
individuals and to explain fully the advantages of participation (e.g. 
availability of reasonable modifications in policies and requirements) 
and the disadvantages of not participating (e.g. work requirements, 
time limits and other requirements will be imposed without 
modifications and, if the individual cannot comply, may lead to 
sanction or case closure), but an individual must be free to decline to 
participate.
III. Work Requirements, Time Limits and Sanctions
    1. TANF policies, practices, and procedures must address and 
accommodate the impacts and variations in types and severity of 
disabilities have on work and support needs, including the reality that 
for some persons with disabilities, the ability to work varies over 
time because of the episodic nature of disability. In addition, it must 
be recognized that some individuals with disabilities, with appropriate 
services, supports and treatment:

        <bullet> Can meet the work participation requirements;
        <bullet> Are capable of meeting the work participation 
        requirements but not within the state and federal timeframes or 
        not given the nature of the services, supports and treatment 
        the state is willing to provide;
        <bullet> Are capable for working but only on a part time or 
        limited basis that may not meet the work participation 
        requirements;
        <bullet> Are incapable of meeting the work participation 
        requirements.

    2. Work participation should reflect the following policies:

        <bullet> If a person is doing the best he or she can, whatever 
        tasks the individual is doing should be counted;
        <bullet> If a person and a state agree to what is appropriate 
        for the individual, it should be counted;
        <bullet> Persons should have the opportunity to participate at 
        levels consistent with their abilities, capabilities and family 
        needs.

    3. An individual should not be subject to sanctions or case closure 
if the person's alleged non compliance or behavior is a manifestation 
of his or her disability, is related to the state's failure to offer 
screening and comprehensive assessments, or to provide necessary 
individualized services, supports and treatments.
    4. In calculating time limits, States should be required to 
disregard months of assistance received by an individual with 
significant barriers to employment during any period in which the state 
did not provide necessary services, supports and treatments or 
reasonable modifications to the individual or the individual is unable 
to meet the full work requirements because of the nature or severity of 
his or her disability or the failure of the system to provide 
reasonable modifications.
IV. State and Federal Systemic Changes
    1. State and local agencies must use relevant, qualified personnel 
to conduct screening, assessments and eligibility determinations. 
Further, service providers with whom public agencies contract to 
provide services and supports must use qualified personnel who can 
ensure that the services and supports meet the unique needs of persons 
with disabilities.
    2. Services and supports may be provided directly by the state or 
local welfare agency or through contract or arrangement with other 
public and private agencies. Whether or not TANF agencies contract out 
services, they remain responsible for ensuring that persons with 
disabilities receive services, supports, treatment and modifications 
they need.
    3. To ensure consistency among job-training programs in a state, 
employment-related services and supports provided under TANF should be 
subject to the same plans (methods of administration) for complying 
with civil rights requirements as other job training programs such as 
programs under the Workforce Investment Act.
    4. TANF must ensure meaningful input for persons with disabilities 
and their representatives and other stakeholders with respect to the 
design, implementation, and evaluation of TANF programs.
    5. Persons with disabilities applying for or receiving services 
under TANF should have assistance available (e.g., client assistance 
programs) to ensure that they understand and can exercise their rights 
and fulfill their responsibilities.
    6. Systems for collecting data should enable agencies and other 
stakeholders to ascertain the extent to which public agencies are 
meeting the needs of persons with disabilities.
    7. The Federal Government should support state initiatives to 
achieve systemic improvements in the capacity of programs to address 
the unique needs of persons with disabilities (e.g., collaboration 
among agencies, identification of available funding sources, model 
screening and assessment instruments and procedures, and personnel 
preparation).
    8. The Federal Government should maintain a strong and effective 
program to monitor and enforce civil rights laws, including the ADA and 
Section 504, in state TANF programs.
    9. The Federal Government must provide sufficient funds to support 
state efforts under TANF, including cost of living increases.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Marchand, for your 
testimony. Dr. Cahill to testify.

 STATEMENT OF SEAN CAHILL, PH.D., DIRECTOR, POLICY INSTITUTE, 
    NATIONAL GAY AND LESBIAN TASK FORCE, NEW YORK, NEW YORK

    Dr. CAHILL. Good evening, Mr. Chairman. I am the Director 
of the Policy Institute of the National Gay and Lesbian Task 
Force, which is the oldest national gay, lesbian, bisexual, and 
transgender political organization. I am here to express my 
community's concern with some aspects of welfare reform 
legislation.
    Contrary to a widely held myth, gay people are no wealthier 
on average than heterosexual people. Many gay people are poor, 
and some need temporary assistance from welfare. Although some 
would construct gay and family as mutually exclusive 
categories, one in five lesbian households on a 1990 census had 
children under 18. We have children, and sometimes we need 
temporary assistance to make ends meet.
    There are many ways in which welfare reform threatens and 
stigmatizes lesbian mothers on welfare and all gay people. We 
are very concerned about the antigay effects of the abstinence-
only until-marriage education and the faith-based initiative. 
These are outlined in a report that I am going to make 
available to all the Committee Members. Today I would like to 
focus primarily on the marriage and fatherhood initiatives.
    We were recently asked why the administration's $300-
million-a-year marriage initiative is so controversial, and I 
would like to answer that question. There are essentially two 
reasons: First, what we have seen already happening at the 
State level, and second, what has been proposed by Horn and 
other Bush appointees formerly involved in the National 
Fatherhood Initiative and the Marriage Movement, as well as 
colleagues and influential conservative think tanks, many of 
whom who have testified here today.
    Several States have earmarked millions of TANF dollars to 
fund marriage and fatherhood initiatives. West Virginia is 
offering cash bonuses to those who marry. Florida mandates 
marriage skills classes, and some public school districts in 
New Jersey and Tennessee have urged role-playing complete with 
gowns, tuxes, and church ceremonies. Three States now offer 
covenant marriages, which are harder to enter into and harder 
to leave. Louisiana's Commission on Marriage and Family reviews 
all State laws to ensure that all marriage is not, quote/
unquote, undermined.
    Would a domestic partner law which grants benefits to same-
sex partners be seen as undermining heterosexual marriage? 
Unfortunately, we have seen this argument used in efforts to 
repeal or prevent domestic partner laws around the country. 
While specifics of the administration's marriage and fatherhood 
promotion efforts are not yet available, the recent writings of 
Wade Horn and Andrew Bush, both now at the U.S. Department of 
Health and Human Services, and Don Eberly, who is Deputy 
Director of the Faith-Based Initiative, provide a roadmap. Also 
worth reviewing are the manifestos of the National Fatherhood 
Initiative and the Marriage Movement.
    Horn, Bush, and Eberly have advocated the prioritization of 
children of married heterosexual-parent families over other 
low-income families and the distribution of limited supply 
benefits such as Head Start slots and student financial aid, 
offering two-parent welfare benefits only to married 
heterosexual couples, ending no-fault divorce, requiring mutual 
consent of both spouses before divorce is granted, and 
effectively banning same-sex couples from adopting children in 
State custody.
    Others close to the administration have called for 10 
percent of TANF funds to be spent for marriage promotion and 
have urged Congress to pass a federal law like Louisiana's 
banning any domestic legislation that, quote, weakens the 
institution of marriage, unquote. This could be interpreted to 
mean banning any legal recognition of same-sex relationships. 
David Blankenhorn of the Marriage Movement has even called for 
banning access to fertility services to unmarried women, 
including lesbian couples.
    There is no credible social science research that shows 
that failure to marry causes poverty. In fact, many of our 
European allies have higher non-marital birth rates, but much 
lower poverty rates. Research also shows that children who grow 
up with gay and lesbian parents or even single parents can have 
as fulfilling and nurturing a childhood as children raised in 
married heterosexual-parent homes, and I have prepared two 
appendices that document this research that I would like to 
enter into the record.
    [The appendices follow:]

 By Sean Cahill, Ph.D. Director, Policy Institute of the National Gay 
                         and Lesbian Task Force
     Appendix A--Research on Family Structure and Child Well-Being
    Scholars have disagreed with the premise of the National Fatherhood 
Initiative and the Marriage Movement that it is always in the best 
interest of a child to be raised by two heterosexual, married parents. 
As sociologist Judith Stacey notes, ``the current status of social 
scientific knowledge of the success of diverse family structures is far 
more complex, and the views of family scholars far more heterogeneous, 
than revisionists pretend.'' \1\ For example, Silverstein and Auerbach 
contend the following:
---------------------------------------------------------------------------
    \1\ Judith Stacey, In the Name of the Family: Rethinking Family 
Values in the Postmodern Age, p. 59, cited in Scott Coltrane, 
Contemporary Sociology, 26(1), January 1997, pp. 7 ff.
---------------------------------------------------------------------------
    Our research with divorced, never-married, and remarried fathers 
has taught us that a wide variety of family structures can support 
positive child outcomes. We have concluded that children need at least 
one responsible, caretaking adult who has a positive emotional 
connection to them and with whom they have a consistent relationship . 
. . We share the concern that many men in US society do not have a 
feeling of emotional connection or a sense of responsibility toward 
their children. However, we do not believe that the data supports the 
conclusion that fathers are essential to child well-being and that 
heterosexual marriage is the social context in which responsible 
fathering is most likely to occur.\2\
---------------------------------------------------------------------------
    \2\ L.B. Silverstein and C.F. Auerbach, ``Deconstructing the 
Essential Father,'' American Psychologist, 54, 6, 407, 1999, pp. 397-
398.
---------------------------------------------------------------------------
    In a comparison of five different family structures . . . families 
with adoptive children, two-parent families with biological children, 
single-mother headed families with biological children, families with a 
stepfather present, and families with a stepmother present researchers 
concluded that there were no major differences in children raised by 
single mothers compared to the children raised in other household 
types. Specifically, children from single mother households did not 
report any differences in well being or parental relationships as 
compared to other children.\3\
---------------------------------------------------------------------------
    \3\ J.E. Lansford, R. Ceballo, A. Abbey and A.J. Stewart, ``Does 
Family Structure Matter? A Comparison of Adoptive, Two-Parent 
Biological, Single-Mother, Stepfather, And Stepmother Households,'' 
Journal of Marriage and Family, 63, 2001, pp. 840-851.
---------------------------------------------------------------------------
    Judith Stacey and Timothy Biblarz recently published a piece in the 
American Sociological Review debunking the claim that heterosexual 
parents are more successful in raising children than lesbian or gay 
couples. A study by psychologists John Gottman and Robert Levenson 
found that same-sex couples were better at managing disagreements than 
heterosexual married couples. Because of this, there was less stress on 
the children of same-sex parents than on the children of opposite-sex 
parents.\4\
---------------------------------------------------------------------------
    \4\ Stacey and Biblarz, ``(How) Does the Sexual Orientation of the 
Parents Matter?'' American Sociological Review, April 2001; Stacey, The 
Nation, July 9, 2001, p. 28.
---------------------------------------------------------------------------
    In their literature review on lesbian and gay families with 
children, Patterson and Redding \5\ concluded that the fears some have 
that children from families without fathers . . . such as lesbian 
families . . . will suffer ``deficits'' in personal development are 
without empirical support. In a study of psychosocial development among 
preschool and school aged children, Patterson reports:
---------------------------------------------------------------------------
    \5\ C.J. Patterson and R.E. Redding, ``Lesbian and Gay Families 
with Children: Implications of Social Science Research for Policy,'' 
Journal of Social Issues, 52(3), 1996.
---------------------------------------------------------------------------
    Children of lesbian mothers' scores for social competence, 
internalizing behavior problems, and externalizing behavior problems 
differed significantly from the scores for a clinical sample but did 
not differ from the scores for a large normative sample of American 
children. Likewise, children of lesbian mothers reported gender-role 
preferences within the expected normal range for children of this 
age.\6\
---------------------------------------------------------------------------
    \6\ C.J. Patterson, ``Family Relationships of Lesbians and Gay 
Men,'' Journal of Marriage and Family, 62, 2000, p. 1062.
---------------------------------------------------------------------------
    Demo and Cox \7\ contend in their review of current research that 
the pattern is clear: family structure does not provide enough 
explanation to a child's well-being. When there is a difference, that 
difference tends to be weak.
---------------------------------------------------------------------------
    \7\ Demo, D.H. and M.J. Cox. 2000. ``Families and Young Children: A 
Review of Research in the 1990s.'' Journal of Marriage and the Family. 
62(4). 876-896.
---------------------------------------------------------------------------
    When a woman becomes a single parent by virtue of divorce, poverty 
is often explained by discrepancies in gender-based incomes. According 
to Struening, ``on average women make 75% of what men make.'' \8\ For 
low-income women, child support payments \9\ and even child care 
subsidies \10\ usually are not enough to move these women out of 
poverty. Struening suggests:
---------------------------------------------------------------------------
    \8\ K. Struening, ``Familial Purposes: An Argument Against the 
Promotion of Family Uniformity,'' Policy Studies Journal, 27(3), 1999, 
p. 481.
    \9\ Ibid.
    \10\ K. Meyers, W. Han, J. Waldfogel and I. Garfinkel, ``Child Care 
in the Wake of Welfare Reform: The Impact of Government Subsidies On 
the Economic Well-Being Of Single-Mother Families,'' Social Service 
Review, 75(1), 2001. Findings were based on women in New York.
---------------------------------------------------------------------------
    If we want single-mother families to raise good citizens, we should 
focus on providing them with the resources and social supports they 
need. There are no simple solutions to the increase in the families 
without fathers or to low-income two-parent families whose children 
often also are at risk. Individuals growing up in poor families and 
poor neighborhoods face multiple challenges ranging from physical 
illness and drug addiction to lack of education and job opportunities. 
A marriage certificate does not begin to address these problems.\11\
---------------------------------------------------------------------------
    \11\ K. Struening, ``Familial Purposes: An Argument Against the 
Promotion of Family Uniformity,'' Policy Studies Journal, 27(3), 1999, 
p. 481.
---------------------------------------------------------------------------
                                 ______
                                 
 By Sean Cahill, Ph.D. Director, Policy Institute of the National Gay 
                         and Lesbian Task Force
 Appendix B--The Connection Between Nonmarital Births and Child Poverty
    Does the relative rise in nonmarital births in the late 20th 
century cause poverty in the US? Not necessarily. Studies indicate that 
public policy toward single-parent families is the more likely culprit. 
Rates of out-of-wedlock births are higher in several northern European 
countries, but poverty is much lower. For example, Sweden, Norway, and 
Denmark have nonmarital birthrates of 47 to 54 percent. Britain's rate 
of 34 percent and France's rate of 37 percent are also higher than the 
US rate of 32 percent. But poverty rates in these countries are much 
lower.\1\
---------------------------------------------------------------------------
    \1\ European data for 1995-96 from Eurostat Yearbook 1997; US data 
for 1998 from Statistical Abstracts of the United States, cited in 
Wolfgang P. Hirczy de Mino, ``From Bastardy to Equality: The Rights of 
Nonmarital Children and Their Fathers in Comparative Perspective,'' 
Journal of Comparative Family Studies, 31(2), 2000, pp. 232-233.
---------------------------------------------------------------------------
    A late eighties study of poverty differences between single-parent 
and married couple families with children found that, in several 
countries with generous social safety nets, the differences were not 
significant. In Sweden, 5.5 percent of single-parent families were 
poor, versus 5 percent of married couple families. In the Netherlands 
the difference was 7.2 percent versus 7.5 percent; in France 10 percent 
versus 15.8 percent, and in Britain 16.6 percent versus 18 percent. In 
the US, however, the differences were dramatic: 17.9 percent of married 
couple families with children were poor, versus 53.3 percent of single-
parent families with children. This indicates that the poverty gap is 
not an inevitable state of affairs, but the result of particular public 
policy choices which vary from country to country.\2\
---------------------------------------------------------------------------
    \2\ Poverty is defined as 50 percent or less of the median income 
for all households with heads 20 to 55 years old. From Katherine 
McFate, Poverty, Inequality, and the Crisis of Social Policy: Summary 
of Findings, Washington, DC: Joint Center for Political and Economic 
Studies, 1991, p. 32, cited in Hirczy de Mino, 2000, p. 233.

---------------------------------------------------------------------------
                                 <F-dash>

    Dr. CAHILL. [Continuing.] Children of cohabiting gay 
parents are not at a higher risk of child abuse, nor are 
children raised by lesbian parents more likely to experience 
educational, health, and psychological problems as some would 
say of fatherless children. Marriage and fatherhood initiatives 
which make such claims, like H.R. 4090, implicitly question the 
value and functionality of gay families with children.
    Promoting heterosexual marriage assumes every woman wants 
to marry a man, which is not true of many straight women, and 
certainly not true of lesbians. Given the widespread prevalence 
of domestic violence among women on welfare, promoting marriage 
is the last thing our government should be doing. The gay 
community urges you to reject marriage and fatherhood 
narratives and to focus instead on providing people on welfare 
the work-related skills required to succeed in today's economy. 
Thank you.
    [The prepared statement of Dr. Cahill follows:]
  Statement of Sean Cahill, Ph.D., Director, Policy Institute of the 
        National Gay and Lesbian Task Force, New York, New York
    I am the director of the Policy Institute of the National Gay and 
Lesbian Task Force, the nation's oldest national gay, lesbian, 
bisexual, and transgender (GLBT) political organization. I am here to 
express my community's concern about certain elements of welfare 
reform. I recently coauthored a study examining the current and 
potential impact of welfare reform on gay, lesbian, bisexual and 
transgender people. I will make copies of this study available to all 
members of the committee. It's also available at our website, 
www.ngltf.org.
    Contrary to a widely-held myth, GLBT people are no wealthier, on 
average, than heterosexual people. Some gay people are poor, and some, 
especially lesbian and bisexual mothers, depend on TANF cash 
assistance, food stamps, and other elements of the safety net. Although 
some would construct ``gay'' and ``family'' as mutually exclusive 
categories, one in five lesbian households on the 1990 Census had a 
child under age 18. A recent study of Black GLBT Pride celebrations 
found that 40 percent of the women, and 18 percent of the men, were 
parents. So we have children, and sometimes we need temporary 
assistance to make ends meet.
    There are many ways in which welfare reform threatens and 
stigmatizes lesbian mothers on welfare and all gay, lesbian, bisexual, 
and transgender people. These include the paternity requirement, which 
conditions aid upon identification of the child's biological father, 
and abstinence-only-until-marriage education, which promotes dangerous 
stereotypes and misinformation about homosexuality, gay people-
including gay youth who are already subject to widespread harassment 
and violence in the schools-and people with AIDS. Harassment of gay 
youth and transgender people at workfare sites is widespread, and in 
states where there are no sexual orientation nondiscrimination laws, 
lesbians pushed off welfare may not be able to work due to anti-gay 
discrimination.
    Wade Horn recently asked why the Bush Administration's $300 
million-a-year marriage initiative is so controversial. Well, there are 
essentially two reasons: (1) what we have already seen happening at the 
state level; and (2) what Horn and other Bush appointees formerly 
involved in the National Fatherhood Initiative and the Marriage 
Movement, and their colleagues at influential conservative think tanks, 
have proposed.
(1) State Marriage Initiatives
    Arizona, Michigan, Oklahoma, Utah and other states have earmarked 
millions of TANF dollars to fund marriage and fatherhood initiatives. 
West Virginia is offering cash bonuses to those who marry. Florida 
mandates marriage skills classes, and some public school districts have 
encouraged role-playing complete with gowns, tuxes, and church 
ceremonies. Three states now offer covenant marriages, which are harder 
to enter into and harder to leave. Louisiana's Commission on Marriage 
and Family reviews all state laws to ensure that marriage is not 
``undermined.'' Would a domestic partner law which grants rights and 
benefits to same-sex couples be seen as ``undermining'' heterosexual 
marriage? Unfortunately, conservatives have indicated they think it 
would.
(2) Proposals Advocated by Current Policymakers
    While the specifics of the Administration's marriage and fatherhood 
promotion efforts are not yet available, the recent writings of Wade 
Horn and Andrew Bush, both now at HHS, and Don Eberly at the Faith 
Based Initiative, provide a roadmap. Also worth reviewing are the 
National Fatherhood Initiative's ``Call to Fatherhood,'' the Marriage 
Movement's ``Statement of Principles,'' and the ``Call to Civil 
Society.'' \1\ Horn, Bush and Eberly have advocated:
---------------------------------------------------------------------------
    \1\ Horn, W., Blankenhorn, D., and Pearlstein, M., eds. (1999). The 
Fatherhood Movement: A Call to Action. New York: Lexington Books; The 
Marriage Movement: A Statement of Principles, at 
www.marriagemovement.org/html.report.html; Eberly, D. (1998). Civil 
Society and the Renewal of American Culture. New York: Rowman and 
Littlefield.

        <bullet> The prioritization of children of married 
        heterosexual parents over other low-income children in the 
        distribution of limited-supply benefits like Head Start slots 
        and financial aid. This would devastate many Black and Latino 
        families with children in particular.
        <bullet> Offering two-parent welfare benefits only to married 
        heterosexual couples.
        <bullet> Ending no-fault divorce and requiring mutual consent 
        of both spouses before divorce is granted.
        <bullet> Effectively banning gay and lesbian couples from 
        adopting children in state custody.

    Others close to the administration . . . like Robert Rector of the 
Heritage Foundation and David Blankenhorn at the Institute for American 
Values . . . have called for 10 percent of TANF funds to be spent for 
marriage promotion, and have urged Congress to pass a law like 
Louisiana's banning any domestic legislation that ``weaken[s] the 
institution of marriage.'' This could be interpreted to mean banning 
any law recognizing same-sex relationships. Blankenhorn has even called 
for banning access to fertility services to unmarried women, including 
lesbian couples. We are very concerned about the potential harm such 
policies pose to our entire community, not only low-income gay people.
    There is no credible social science research that shows that 
failure to marry causes poverty. In fact, many of our European allies 
have higher non-marital birth rates but much lower child poverty rates. 
Research also shows that children who grow up with gay or lesbian 
parents, and even single parents, can have as fulfilling and nurturing 
a childhood as children raised in married, heterosexual parent homes.
    Some GLBT people are poor, some of us have children, and some of us 
need temporary assistance. We cannot legally marry. Promoting 
heterosexual marriage assumes every woman wants to marry a man, which 
is not true of many straight women and certainly not true of lesbians. 
Given the widespread prevalence of domestic violence among women on 
welfare, promoting marriage is the last thing our government should be 
doing. The gay community urges you to reject this misguided agenda and 
to focus instead on providing people on welfare the work-related skills 
required to succeed in today's economy.

                                 <F-dash>

    Chairman HERGER. Thank you, Dr. Cahill. Now we will turn to 
Ms. McDonald for testimony.

STATEMENT OF SHARON MCDONALD, POLICY ANALYST, NATIONAL ALLIANCE 
                      TO END HOMELESSNESS

    Ms. MCDONALD. Good evening. My name is Sharon McDonald, and 
I am with the National Alliance to End Homelessness. The 
Alliance is a nonpartisan, nonprofit organization solely 
committed to eradicating homelessness in the United States. I 
would like to thank the Chairman and the Members of the 
Subcommittee for allowing me to be here today.
    Mr. Chairman, we are all committed to using the TANF block 
grant programs to promote the self-sufficiency of families, and 
we are all committed to avoiding poor outcomes. None of us want 
families with special needs to lose cash assistance or be 
denied the services they need, and none of us want TANF-
eligible families to rely on emergency shelters for housing. We 
are grateful, therefore, to have an opportunity to share our 
recommendations with you today.
    Helping TANF-eligible families exit homeless shelters as 
quickly as possible is a critical and often overlooked step in 
promoting the self-sufficiency of those who have been left 
behind. Access to stable housing is linked to better 
performance in the workforce, and clearly families who are 
moving from shelter to shelter lack the stability to perform 
well. The TANF resources, including financial and case 
management services, can and should be used to help TANF-
eligible families exit homelessness as quickly as possible.
    Our first recommendation to the Subcommittee is to 
encourage the dedication of TANF resources at the State level 
to address family homelessness. To achieve this goal and foster 
innovation, the Subcommittee can ask States to focus on how 
they will serve homeless families in their State TANF plan. By 
promoting collaboration between TANF-funded programs and 
homeless service providers, the Subcommittee can facilitate 
improved service delivery to homeless families, increase the 
likelihood a family will be successfully rehoused and avoid 
duplication of efforts. By asking States to collect data on the 
housing status of the families they serve, including whether 
they are living in emergency shelters, we will be better able 
to understand the extent of housing needs among TANF recipients 
and promote better planning and evaluation.
    States should receive incentives to improve their 
performance and ensure that families do not become or remain 
homeless. We advocate the use of a high-performance bonus to do 
this. The most cost-effective and humane intervention is one 
that prevents vulnerable families from becoming homeless. The 
Subcommittee should ensure these families with special needs 
are not exiting TANF programs only to encounter greater 
difficulties, such as housing instability, homelessness and 
sharp declines in income due to the withdrawal of cash 
assistance.
    Our second recommendation to the Subcommittee is to improve 
State capacity to serve families with special needs and 
disabilities. We must recognize that allowing families to exit 
TANF programs through sanctions, time limits, or case closures 
without the opportunity to become self-sufficient does not 
reduce dependency, it merely shifts it to other programs such 
as emergency shelters or overstressed emergency food pantries. 
The Subcommittee can improve States' capacities to serve these 
families by providing greater flexibility with time limits and 
requiring procedures that prevent inappropriate sanctions. With 
the ability to modify program requirements to meet the diverse 
needs of the remaining case loads rather than imposing a one-
size-fits-all approach, States will be more likely to retain 
and serve well those that face the greatest impediments to 
success.
    To date there has been considerable attention given to the 
support families require to successfully transition from 
welfare-to-work. Assuring stable housing has often been 
overlooked despite its implication for families' success. One 
emerging innovation is coupling housing and welfare assistance 
to help families transition to greater economic independence. 
The Alliance recommends furthering experimentation and 
knowledge development.
    Our third recommendation to the Subcommittee is to respond 
to the intersection of housing and welfare. The Subcommittee 
can help further progress by removing the requirement that 
housing subsidies be treated the same as cash assistance, 
promoting collaboration between public housing agencies and 
State and local welfare agencies, and by undertaking a housing 
with services demonstration project.
    I would like to convey my appreciation to the Chairman and 
the Members of the Subcommittee for allowing me to testify 
today. We believe the reauthorization of TANF provides a 
critical opportunity to address homelessness among families, 
enhance the capacity of States to help families with special 
needs, and attend to housing needs of TANF recipients. The 
National Alliance to End Homelessness welcomes the opportunity 
to be of assistance to the Subcommittee as it moves forward. 
Thank you.
    [The prepared statement of Ms. McDonald follows:]
Statement of Sharon McDonald, Policy Analyst, National Alliance to End 
                              Homelessness
    Mr. Chairman and Members of the Subcommittee:
    Thank you for inviting me to testify today. My name is Sharon 
McDonald and I am a policy analyst for the National Alliance to End 
Homelessness. The Alliance is a nonpartisan, nonprofit organization 
solely committed to eradicating homelessness in the United States.
    We applaud the Administration and those Members of Congress who 
have embraced a goal of ending chronic homelessness. We believe this is 
an important step forward in solving homelessness in our nation.
    It is estimated that 900,000 to 1.3 million children in the United 
States experience homelessness each year.<SUP>[i]</SUP> TANF 
reauthorization can play a critical role in solving this problem. I am 
delighted to be here today to share with you our proposals on how TANF 
reauthorization can ensure progress is made to end homelessness.
---------------------------------------------------------------------------
    \[i]\ Martha Burt, What will it take to end homelessness? 
(Washington, DC: Urban Institute, September, 2001), available online: 
http://www.urban.org/UploadedPDF/end__homelessness.pdf.
---------------------------------------------------------------------------
    First, to make a difference in ending homelessness in our nation we 
must stop the flow of people into homelessness.
    To ``close the front door'' into homelessness, the Alliance 
advocates that programs that serve vulnerable people, including 
extremely poor families, take active steps to ensure their clients do 
not become homeless. This strategy requires changing the incentive 
structure of these programs. Under current policy, programs at the 
state and local level are in effect rewarded for allowing people to 
fall out of their systems and into the homeless assistance system. This 
is especially the case for those who are most difficult to serve.
    For TANF reauthorization, this means ensuring states are serving 
families that are the hardest to serve, including those with 
disabilities--and that vulnerable families are not allowed to fall 
through the cracks of sanctions, time limits and case closures.
    Second, by focusing on rehousing families as rapidly as possible, 
we can substantially reduce the amount of time children spend in 
homelessness.
    To ``open the back door'' out of homelessness, the Alliance 
supports an outcome-focused emphasis on services that move people back 
into housing as rapidly as possible. Most people who become homeless 
remain so for only a brief period of time, and they typically do not 
become homeless again. They are very poor people who are experiencing a 
housing crisis. The Alliance recommends the use of a ``Housing First'' 
strategy to address the homelessness of those individuals and families. 
This is a cost-effective approach that helps families exit homelessness 
as rapidly as possible by providing housing search assistance and 
follow-up case management to ensure families stabilize in their homes 
and are linked with needed community-based services and supports.
    Some states have mobilized TANF resources to prevent and end the 
homelessness of families, we are encouraged by this and believe the 
Subcommittee can do more to encourage further innovation and planning.
LRecommendation 1: Encourage the Use of TANF Resources to Address 
        Family Homelessness
    Nationally, it is estimated that 38% of the 2.3 million to 3.5 
million people who are homeless over the course of a year are 
children.<SUP>[ii]</SUP> While there have been increases in the numbers 
of homeless people who are working full-time, it is reasonable to 
conclude that the vast majority of homeless families with children 
remain eligible for TANF cash assistance and services.
---------------------------------------------------------------------------
    \[ii]\ Martha Burt,  America's homeless II: Populations and 
Services. (Washington, DC: Urban Institute, February, 2001), available 
online: http://www.urban.org/housing/homeless/numbers/index.htm.
---------------------------------------------------------------------------
    Research indicates that in contrast to children who are housed, 
homeless children are more likely to be in poor health and experience 
developmental delays. Not surprisingly, homeless children are more 
likely to experience mental health problems such as anxiety and 
depression and to exhibit behavioral problems than other 
children.<SUP>[iii]</SUP> Children who are homeless have lower academic 
achievement, exacerbated by frequent moves and psychological distress.
---------------------------------------------------------------------------
    \[iii]\ J. C. Buckner, E. L. Bassuk, L. F. Weinreb, and M. G. 
Brooks, ``Homelessness and its relationship to the mental health and 
behavior of low income school age children,'' Developmental Psychology 
Vol. 35(1) (Washington, DC: American Psychological Association, 1999) 
246-257.
---------------------------------------------------------------------------
    Homelessness puts enormous strains on families. Some emergency 
shelters require the break-up of families--accommodating older male 
youth in a separate facility, requiring married couples to separate. 
Parents seeking stability for their children may house them temporarily 
with relatives. However, rather than achieving stability, many children 
will end up being merely shifted from home to home.
    Sustaining families in homelessness is a costly endeavor that 
absorbs an increasing amount of federal and state dollars--typically 
well beyond what would be incurred by preventing homelessness or 
providing financial assistance to help rehouse a family. Homelessness 
can be devastating to children, disruptive to all family members and is 
simply more expensive than stabilizing families in housing.
    Currently, state TANF resources can be utilized to prevent and end 
homelessness. To facilitate greater innovation and ensure progress in 
meeting this important goal, the Alliance believes homelessness should 
be a specific focus within the TANF block grant program. States should 
receive incentives and guidance from the U.S. Department of Health and 
Human Services to address family homelessness. Our specific 
recommendations to the Subcommittee are as follows:

        L  To properly identify families that require safety-net 
        services, states should identify TANF-eligible families that 
        are homeless.
        L  In order to minimize homelessness, state TANF plans should 
        indicate how the state will coordinate with homeless assistance 
        providers (including housing providers).
        L  In order to end homelessness for eligible families with 
        children, state TANF plans should indicate how services other 
        than cash benefits (including housing re-location services, 
        short-term rent assistance, emergency assistance, and case 
        management) will be used to end and prevent homelessness.
        L  To reduce homelessness and promote housing stability, HHS 
        should award high performance bonuses to states that improve 
        housing outcomes, as measured by:

                L  reduced proportion of TANF eligible families 
                entering the homeless system,
                L  reduced length of time families spend in 
                homelessness, or
                L  reduced number of families with worst case housing 
                needs.

        L  To help states achieve this goal, the Department of Health 
        and Human Services should provide technical assistance and 
        guidance to the states to improve state and local TANF agency 
        capacity to end homelessness among very vulnerable families.
        L  To ensure success of welfare-to-work initiatives, states 
        should collect data on housing status and housing needs of TANF 
        recipients and leavers.
LRecommendation 2: Improve State Capacity to Serve Families with 
        Special Needs
    A recent GAO study found that 44% of TANF beneficiaries report 
having a disability that impedes their work 
participation.<SUP>[iv]</SUP> Families that include people with 
disabilities are likely to differ in their capacity to participate in 
work activities even with the provision of appropriate services and 
supports.
---------------------------------------------------------------------------
    \[iv]\ U.S. General Accounting Office, Welfare Reform: More 
Coordinated Federal Effort Could Help States and Localities Move TANF 
Recipients With Impairments Toward Employment. GAO 02-37. (Washington, 
DC: Government Printing Office, October 31, 2001), available online: 
www.gao.gov.
---------------------------------------------------------------------------
    To adequately meet the needs of a more disadvantaged population 
that remains on welfare case loads, states must have flexibility to 
count activities that serve and support those families as meeting work 
participation requirements. With the ability to modify program 
requirements to meet the diverse needs of the remaining case loads 
rather than imposing a one-size-fits all approach, the states will have 
a greater likelihood of retaining and serving well those families that 
face the greatest impediments to success. By allowing states to receive 
credit for those who are participating in work activities to the extent 
of their abilities, they will have an incentive to move those who 
cannot fully participate into self-sufficiency activities.
    The Alliance is concerned that families with special needs are 
exiting state TANF programs through sanctions. Studies have 
demonstrated that families that include a person with a disability are 
disproportionately represented among those who have been sanctioned off 
of cash assistance and have not moved into employment.<SUP>[v]</SUP> 
Activities to prevent the loss of some of these families include 
improving local agencies capacity to identify people with disabilities 
and developing procedures that reduce and remedy erroneous sanctions.
---------------------------------------------------------------------------
    \[v]\ Heidi Goldberg, Improving TANF Program Outcomes for Families 
With Barriers to Employment (Washington, DC: The Center on Budget and 
Policy Priorities, January 22, 2002), available online: http://
www.centeronbudget.org/1-22-02tanf3.htm.
---------------------------------------------------------------------------
    Finally, we must reevaluate the appropriateness of the 20% 
exemption to the federal five-year time limit. Due to the decline in 
case loads, the 20% exemption will cover far fewer families than had 
ever been anticipated. Allowing states to index the exemption rate to 
an earlier year will allow those states that have substantially reduced 
their case load by moving families from welfare-to-work to retain and 
serve those with greater challenges.
    To adequately meet the needs of a more disadvantaged population, 
the Alliance advocates that states be provided increased flexibility to 
develop a programmatic response coupled with greater accountability for 
outcomes. Specifically, we recommend the Subcommittee:

        L  Ensure that all families with disabilities are properly 
        identified so that states can utilize their most flexible 
        resources to assist them by providing access to professional 
        assessments.
        L  Allow states to identify and assist those families that have 
        special needs and should be exempted from time limits by 
        indexing the 20% exemption to the 1997 case load.
        L  Encourage work among families with disabilities by expanding 
        the definition of work for those who have a disability.
        L  Ensure that families with disabilities are not inadvertently 
        dropped from the case load by establishing procedures that 
        reduce erroneous sanctions and increase outreach and assistance 
        both before and after sanctions are imposed.
Recommendation 3: Respond to the Intersection of Houseing & Welfare
    The flexibility that was conveyed to the states under the Personal 
Responsibility and Work Opportunity Reconciliation Act (PRWORA) 
stimulated many state-level innovations that resulted in families 
transitioning off of welfare and into the workforce. One of the 
emerging areas of innovation in service delivery is in coupling housing 
and welfare assistance to help families transition to greater economic 
independence.
    To date, there has been considerable attention to the supports 
families require to successfully transition from welfare-to-work. 
Assuring stable housing has often been overlooked, though it is one of 
the most critical concerns families face. There is evidence that 
suggests those with access to affordable housing are more likely to be 
successful in transitioning to economic independence.<SUP>[vi]</SUP> 
For example, one study found that families with a housing subsidy were 
twice as likely to be employed and had higher earnings than those 
without a subsidy. Conversely, there is evidence that a housing 
affordability crisis can threaten ties to work. Leaver studies indicate 
that families who have exited TANF assistance through the employment of 
a family head are among those who become homeless.<SUP>[vii]</SUP> 
Attending to housing stability must simply be part of a plan to promote 
self-sufficiency.
---------------------------------------------------------------------------
    \[vi]\ Barbara Sard and Jeff Lubell, The increasing use of TANF and 
state matching funds to provide housing assistance to families moving 
from welfare-to-work. (Washington, DC: The Center on Budget and Policy 
Priorities, February 17, 2000), available online at: http://
www.cbpp.org/2-17-00hous.pdf.
    \[vii]\ For example, A. Rangaran & R. J. Wood, Work First New 
Jersey Evaluation. Current and Former Work First New Jersey Clients: 
How are they faring 30 months later, MPR: 8575-322. (Washington, DC: 
Mathematica Policy Research, Inc., November 16, 2000), available 
online: http://www.mathematica.org/PDFs/wfnj.pdf.
---------------------------------------------------------------------------
    A fundamental cause of homelessness among families is a shortage of 
housing affordable to families with extremely low incomes. HUD has 
reported that 3.6 million children live in families with ``worst-case 
housing needs.'' <SUP>[viii]</SUP> Their parents, with incomes below 
50% of the local area median income, pay more than 50% of their income 
for housing or live in seriously substandard housing. Extremely low-
income families--those most likely to be eligible for or using TANF 
funded services--are particularly vulnerable to having worst case 
housing needs. Sixty-eight percent of those families without access to 
a housing subsidy pay more than half their income in rent or live in 
seriously substandard housing.<SUP>[ix]</SUP>
---------------------------------------------------------------------------
    \[viii]\ Office of Policy Development and Research, U.S. Department 
of Housing and Urban Development, A Report on Worst Case Housing Needs 
in 1999: New Opportunity Amid Continuing Challenges. Executive Summary. 
(Washington, DC: U.S. Department of Housing and Urban Development, 
January, 2001), available online: http://www.huduser.org/publications/
affhsg/wc99.html.
    \[ix]\ Ibid.
---------------------------------------------------------------------------
    To allow states to effectively address the intersection of housing 
and welfare, the Alliance recommends providing enhanced flexibility to 
further innovation and maximize the use of available resources. 
Specifically, we recommend that the Subcommittee:

        L  Allow states to utilize housing assistance more 
        strategically and effectively by removing the requirement that 
        housing subsidies be treated the same as cash assistance.
        L  Ensure states have the maximum resources at their disposal 
        for families with special needs by building collaborations 
        between Public Housing Agencies and state and local welfare 
        agencies.
        L  Assess how to best assist families with special needs by 
        undertaking and evaluating a housing with services 
        demonstration.
Conclusion
    I would like to convey my appreciation to the Chairman and the 
Members of the Subcommittee for allowing me to testify today. We 
believe the reauthorization of TANF provides a critical opportunity to 
make progress in addressing homelessness among families by promoting 
innovation in ending and preventing homelessness, enhancing the 
capacity of states to respond to families with special needs and 
attending to the housing needs of TANF recipients. The National 
Alliance to End Homelessness welcomes the opportunity to be of 
assistance to the Subcommittee as it moves forward in the 
reauthorization of the TANF block grant program.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. McDonald. Mr. Beckmann to 
testify. Mr. Beckmann. Is that on?
    Chairman BECKMAN. Yes. Thank you.

STATEMENT OF REVEREND DAVID BECKMANN, PRESIDENT, BREAD FOR THE 
                             WORLD

    Mr. BECKMANN. Thank you, Mr. Chairman. Thank you for your 
patience in listening to so many points of view, and I also 
want to compliment your staff for saving some of the best for 
last. My name is David Beckmann. I am the President of Bread 
for the World. We are a national Christian citizens movement 
against hunger.
    Today, as you know, Mrs. Roukema and Mr. Tierney introduced 
the Working from Poverty to Promise bill. Over the coming 
months Bread for the World's members and thousands of churches 
across the country will mobilize something like 150,000 letters 
to Congress on behalf of the Roukema bill. Based on our 
successes on some other issues like debt relief for poor 
countries, we think that religious people talking to their 
members back home will be able to build a strong bipartisan 
list of cosponsors for the Working from Poverty to Promise bill 
so that by the time Congress takes final action on this 
important issue, some of the provisions from this bill will 
become part of that legislation.
    We would really like you to consider them now because we 
clearly think that the Roukema-Tierney bill includes some 
modest but significant improvements over the bill you have 
introduced. Your bill is much more comprehensive, but we think 
that Roukema-Tierney bill suggests some improvements in five 
areas.
    First, it seems to us that the Committee ought to make 
poverty reduction one purpose of TANF. This is a program that 
reaches lots of the poorest people in the country, and I think 
everybody wants TANF to be structured in ways that will 
encourage these people to get out of poverty. So, making 
poverty reduction the purpose of TANF just should not be a 
point of contention. We also think that it makes sense then to 
make poverty reduction one other criteria by which the Federal 
Government decides which States get performance bonuses.
    Second, we think TANF should do much more to encourage 
education and training. A lot of the people who left welfare 
even to get jobs are still ending up in church basements 
getting part of the groceries that they need to feed their 
kids, and the best path to get into a job that is going to pay 
enough to feed your family is education and training. That is 
clear. It is also clear that the people who get some training 
are the people most likely to stay off public assistance.
    Third, we think that if a person is working, but earning so 
little that they still qualify for TANF, then that TANF 
assistance should not count against the 5-year time limit. If 
people are working, they should be able to eat.
    Fourth, both federal and State funding for TANF should be 
indexed to inflation. Otherwise, especially in the current 
situation, States won't be able to continue some of the 
creative things that they have been doing that, in fact, have 
reduced poverty.
    Fifth, we favor the continuation of State waivers, because 
we think some really creative things have happened at the State 
level and that shouldn't be stopped.
    This is a complex and contentious issue, but it is also 
morally important, and we pray for your leadership and for this 
Committee's important work.
    [The prepared statement of Mr. Beckmann follows:]
  Statement of Reverend David Beckmann, President, Bread for the World
    My name is Rev. David Beckmann, and I am president of Bread for the 
World. I appreciate this opportunity to present testimony to the 
subcommittee about Temporary Assistance for Needy Families.
    Bread for the World is a grassroots, Christian citizens movement. 
Our membership is rooted in churches all across the United States, and 
seeks justice for hungry and poor people in the U.S. and in the poorest 
parts of the world.
    This year our 46,000 members--people of deep Christian faith--are 
actively organizing a nation-wide letter writing campaign. We expect 
Bread for the World members to generate over 150,000 letters urging 
their members of Congress to improve TANF, because we believe that 
welfare is a hunger issue. As an anti-hunger organization, the TANF law 
and the states' TANF programs are of great importance to us. Census 
data show that low-income households are more likely to experience 
hunger than other households, and thus it is clear that reducing 
poverty in this country will reduce hunger. And, let us not forget: 
nearly three quarters of all the people receiving TANF benefits are 
children.
    Much of this year's debate about TANF will revolve around the 
question of whether or not the 1996 TANF law was a success or a 
failure. We believe that is the wrong question. Instead the debate 
should revolve around the question of how we can improve TANF so as to 
enable many more families to leave hunger and poverty behind and attain 
long-term self-sufficiency.
    Bread for the World is not seeking to overturn the TANF law or turn 
back the clock to pre-1996 times. Rather we are seeking to amend the 
TANF law in ways that will provide the tools necessary for families to 
make the difficult transition from poverty to self-sufficiency. We have 
looked carefully at the TANF law and experience, and we have identified 
four areas where we believe it can be improved. These improvements are 
morally and practically the right thing to do:

        1. LMake poverty reduction an explicit goal of TANF. The 
        current law is flawed in its inordinate attention to case load 
        reduction, when the real issue that should claim our attention 
        is poverty reduction. Poverty continues to be a persistent 
        reality in our nation, despite the economic boom of the 1990s. 
        Even though TANF case loads have declined, 31 million people 
        still live in poverty, including 11.6 million children, and all 
        across the country churches and soup kitchens are seeing 
        dramatic increases in requests for assistance. Reducing the 
        TANF rolls and putting people to work has not cut deeply into 
        the poverty rate, for two basic reasons: (a) 40% of those 
        leaving TANF have neither jobs nor TANF benefits, and (b) many 
        of the TANF leavers who do have jobs are working for very low 
        wages. Work is good, and the vast majority of those on welfare 
        are eager to work, but leaving poverty behind and becoming 
        self-sufficient is even better.
          L  To implement this step, we urge you to require the states 
        to develop a plan for reducing the extent and severity of 
        poverty among families participating in TANF, and to include it 
        in their annual TANF plans. This would add consideration of 
        progress toward poverty reduction as one of the factors in 
        determining which states receive bonuses for high-performance 
        success.

        2. LEnhance the long-term employability and self-sufficiency of 
        TANF participants through increased education and training 
        opportunities. Study after study shows that TANF leavers who 
        are most successful in sustaining employment are those who have 
        a technical or two-year degree. According to the census, the 
        more years of education a woman completes, the less likely she 
        is to live in poverty.
          L  To implement this step, we urge you to add participation 
        in post-secondary education and training as an acceptable work 
        activity, and combine education with work for those who need 
        longer to complete their training. Extend the time limit for 
        exclusive participation in education and training to 24 months. 
        Eliminate the 30% cap on participation in education and 
        training, thus giving states the flexibility they need to 
        design programs that effectively move people into sustainable 
        jobs. Require states to work with each TANF client to develop a 
        self-sufficiency plan. Require states to consider regional 
        labor markets and seek workforce-training opportunities to meet 
        the needs of employers while also improving the wage outcomes 
        of TANF leavers. Reward states for success in training, placing 
        and retaining TANF leavers in higher-wage jobs.

        3. LCreate flexibility for states to help families who are 
        finding the path to independence difficult to manage. TANF 
        participants are being pushed into low-wage jobs that do not 
        provide sufficient income to support a family, and thus they 
        continue to need some types of assistance to make ends meet. 
        The average wage of an employed TANF leaver is $6.75 per hour, 
        far too low to support several dependents.
          L  To implement this step, we urge you to exclude benefits to 
        working families from the lifetime sixty-month time-limit 
        restrictions. Those who are working at jobs should not lose 
        their months of TANF eligibility while working. We also urge 
        you to add disability and mental illness to the list of 
        specific hardships that some clients face in achieving self-
        sufficiency.

        4. LEnsure adequate funding for TANF nationwide. Continuing the 
        federal block grant at the same level for several more years is 
        just not adequate for this time of rising unemployment. To 
        implement this step, we urge you to index both the annual block 
        grant and the state funding requirements to inflation.

    All of these improvements to the TANF program are contained in the 
Working from Poverty to Promise Act of 2002, which will be introduced 
in the House this week with bipartisan sponsorship. Please look 
carefully at that bill. We believe that the incorporation of that bill 
into the final TANF reauthorization package will prove very effective 
in enabling millions of people to leave poverty behind and achieve the 
promise of self-sufficiency.
    Finally, let me mention some of our concerns about President Bush's 
proposal. The president's plan fails to recognize the enormous 
importance of education and training in lifting people out of poverty, 
and actually makes it more difficult for TANF participants to obtain 
education and training. It provides no new resources for childcare, 
even though it mandates increased work requirements, which means more 
demand for childcare. It keeps the TANF block grant at the 1996 level, 
despite the fact that inflation has eroded its value and states are 
spending billions more than the block grant provides them. It strips 
flexibility from the states in numerous ways. In short, the president's 
plan does not live up to the rhetoric that surrounded its release. It 
fails to provide either the resources or the programs that are 
necessary to help struggling families succeed and thrive.
    Thank you very much for considering these views. Bread for the 
World would be pleased to provide additional information to you on any 
of these points.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. Beckmann. We 
appreciate your testimony. We appreciate your prayers as well. 
Ms. Ha Pham to testify.

 STATEMENT OF BICH HA PHAM, EXECUTIVE DIRECTOR, HUNGER ACTION 
         NETWORK OF NEW YORK STATE, NEW YORK, NEW YORK

    Ms. PHAM. Mr. Chairman, good evening. My name is Bich Ha 
Pham, and I am the Executive Director of the Hunger Action 
Network of New York State. We appreciate this opportunity to 
share our thoughts and recommendations on TANF reauthorization 
with the Subcommittee. We are a New York statewide anti-hunger 
advocacy and community food organization working to end hunger 
in New York State and its root causes, including poverty.
    As someone whose family received public assistance when we 
came to this country as refugees, I particularly feel fortunate 
to be here today. My parents, my brother, and I came to the 
United States with nothing other than the clothes on our back 
and the airline food we had saved during our trip. Only my 
father spoke a little English, and we had no family here, no 
job waiting for my parents, and the public assistance program 
put a roof over our heads, put food on the table, and helped to 
clothe us and helped to send my parents to school to learn 
English. My parents took their English classes full-time and 
studied very hard, all the while looking for the future when 
they would be ready to go out and get a job.
    The welfare years certainly were a difficult time for us. 
With our first welfare check and food stamp payment, my mom 
went out to get a chicken, which she made into four different 
recipes that our family of four lived on for the rest of the 
week. However, we really needed the welfare assistance, and 
today my family would either have not been eligible for 
assistance due to the new welfare rules, or, if they had been 
eligible, would not have been allowed to go to school and 
required to sweep the parks for no wages at all. My family's 
story is echoed by thousands of other families in our country 
today.
    As the government looks to reauthorize the federal welfare 
law, we urge Congress to do all it can to truly provide the 
assistance to poor families who need to become economically 
secure. Hunger Action Network supports Congressmember Mink's 
bill, and also supports aspects of Congress Member Cardin and 
Senator Rockefeller's bill.
    We urge that the next step in the Nation's welfare policy 
must be to focus on poverty reduction as a goal, to expand 
access to education and training, to maintain improved programs 
that help families transition to a job, to move away from 
welfare policies that focus on punishment and toward policies 
that focus on getting people jobs, and last to provide benefits 
for all the families in need including legal immigrant families 
like mine who came to this land of promise and needed a helping 
hand. The Bush administration proposal should be fashioned to 
improve job placement rates at family sustaining wages and to 
meet the needs of those not able to work.
    Hunger Action Network is hearing that many of the 
commissioners in our State of New York are deeply concerned 
about the proposal to expand work programs, and the State's 
current welfare programs would either need to be scrapped 
completely or fundamentally altered should the proposal be 
enacted. Moreover, being from New York City, we have seen that 
the workfare programs have an abysmal estimated job placement 
rate of 6 percent, and, as you know, New York City has one of 
the largest workfare programs in the Nation.
    Hunger Action is serving hundreds of welfare and workfare 
participants and have found similarly low job placement rates, 
and when we ask these participants, what would you recommend to 
the Federal Government and to the State government to improve 
your workfare program, overwhelmingly they said, well, help us 
get a job.
    The TANF reauthorization is taking place at a very crucial 
time in New York State. In New York City, the City University 
and community colleges have lost over 23,000 of 30,000 students 
in their community college system since 1995, this despite the 
fact that research shows that the only group of welfare 
participants who routinely earned enough money to escape 
poverty are those with a college education.
    The September 11 disaster brought with it an estimated loss 
of over 100,000 New York City jobs in the first months after 
the attack. Nearly half of the emergency food programs we 
surveyed experienced an immediate increase in demand for food 
following the months of the attack, and they had had, in fact, 
been seeing a steady increase in demand for emergency food over 
the past 5 years. Today our food programs in New York State 
serve over 900,000 guests weekly.
    Hunger Action urges Congress to ensure that an adequate 
welfare safety net exists for those remaining on welfare who 
are either not able to work or have multiple barriers to 
employment; to support those who have left welfare to hold onto 
their jobs and to assist them with increasing their income; and 
to not expand welfare programs, but instead to expand training, 
education, and other programs that lead to jobs at family 
sustaining wages. Thank you.
    [The prepared statement of Ms. Pham follows:]
Statement of Bich Ha Pham, Executive Director, Hunger Action Network of 
                   New York State, New York, New York
    The Hunger Action Network of New York State appreciates this 
opportunity to share our thoughts on TANF Reauthorization legislation 
with the Subcommittee. We are a statewide anti-hunger advocacy and 
community food organization working to end hunger and its root causes. 
Our membership includes faith-based organizations, emergency food 
providers, community groups, low-income individuals and citizen 
advocates. Monitoring of welfare reform and advocacy for promising 
welfare-to-work practices is one of our primary goals. We have 
conducted regional forums, speak outs and conferences on welfare reform 
and TANF reauthorization throughout the state of New York, including 
the Bronx, Staten Island, Ithaca, Rochester, Buffalo, Elmira, Albany 
and Westchester. We have also conducted surveys of over a thousand 
welfare recipients to assess job placement levels, income levels, 
access to benefits and sanctioning. Hunger Action Network is also an 
active supporter of the Welfare Made A Difference National campaign.
    TANF reauthorization is taking place at a crucial time in New York 
State. The September 11th disaster brought with it an estimated loss of 
over 100,000 NY City jobs in the first month after the attack and 
nearly half of the emergency food programs (EFPs) we surveyed 
experienced an immediate increase in demand the months following the 
attack. Amidst the increased needs of unemployed and low-income 
individuals, we saw a $2 million cut in EFP funding and a current 
Executive budget proposal that zeroes out most of the welfare-to-work 
transitional employment programs and services such as wage subsidy 
programs, transportation assistance and transitional benefits.
    These are frightening times to be poor and unemployed in New York. 
However, we have seen New Yorkers respond with an increased sensitivity 
to the needs of others. When we reported that the EFPs saw a large dip 
in donations due to the assistance going to the 9/11 relief funds, the 
public quickly responded with donations that brought the food back to 
the pantries and soup kitchens. From what we have seen from statements 
from the House and Senate, many Congressional members appear to also be 
looking at how best to meet the needs of low-income families and 
looking into how best to support the efforts of those who have left 
welfare to hold onto their jobs and to assist with increasing their 
income; to address the needs of those remaining on welfare who have 
multiple barriers to employment; and to make improvements in the 
current program. Hunger Action applauds these efforts and particular 
support many aspects of TANF legislation introduced by Congressmember 
Mink, and also support some aspects of Congressmember Cardin and 
Senator Rockefeller's bill.
    Many of the impacts of welfare reform to New Yorkers are similar to 
those experienced by other states. A ``work first'' policy has led to 
the vast majority of welfare participants not being able to seek 
education or training and instead much of the welfare-to-work funds go 
to pay businesses such as temp agencies that provide job search and job 
placement services for a short period of time. Since 1995, the City 
University of New York, the community college system in NY City, has 
lost over 23,000 of a total of 30,000 students who were on public 
assistance. Less than 2% of those engaged in countable work activities 
in NY City were in an education or training program. This despite the 
fact that a national survey by the Children's Defense Fund found that 
the only group of welfare participants who routinely earned enough to 
escape poverty once they left welfare were those with a college 
education.
    Very little is known about what happened to these individuals and 
about the other 123,000 families who have left welfare since January 
1995. A State leavers survey in 1997 showed that only 40% of these 
families had an adult employed at least one day in each quarter in the 
year after they left welfare. Median annual earnings for these families 
were $12,611 outside of NY City and $16,530 in NY City. Hunger Action 
also conducted two rounds of participant surveying in 1997 and 2000 
that showed that the workfare or welfare-to-work program led to jobs 
for only 11% (less than 8% in 1997) of those surveyed. The average wage 
of leavers was $7 an hour ($12,740 per year). The emergency food 
programs (EFPs) have seen a tremendous increase in need, with 900,000 
people going to EFPs a week in NY State, which we believe is a result 
of a combination of factors including the recession, the impacts of the 
September 11th disaster, the sanctioning and diversion policies applied 
against welfare recipients, and the low-wages of the leavers.
    With these factors in mind, Hunger Action Network urges this 
Subcommittee to adopt the following policies for TANF reauthorization, 
many provisions of which are included in Congress member Mink's bill 
(HR 3113) which we strongly support:
    Revise the goal of TANF to include poverty reduction as a primary 
goal, rather than just case load reduction. Congress should eliminate 
``process'' measures--such as work participation rates--and embrace 
``outcome'' measures instead, such as reduction in childhood poverty 
rates, increased wage levels and higher family incomes. It is 
relatively easy to deny benefits to households; it is far more 
difficult to ensure that such households are raised out of poverty.
    TANF must provide benefits to all families in need. TANF 
reauthorization should be a vehicle to provide opportunity and support 
to all low-income families, including families now receiving welfare, 
low-wage working families who may or may not have received welfare in 
the past, two-parent families and immigrant families who are by statute 
or in practice denied assistance. TANF should be broadly available to 
low-income families to supplement low wages, provide assistance for 
parents seeking education and training, and allow parents raising young 
children to balance the competing demands of work and family life.
    Eligibility for benefits should be restored to legal immigrants. 
Legal immigrants are subject to the same obligations as citizens, such 
as paying taxes, and should be eligible for the same public benefits. 
Under the TANF rules, immigrants are usually ineligible for benefits 
for five years.
    All families, including low-wage workers and two-parent families, 
should have the right to apply for TANF, and people must be adequately 
informed of all services for which they are eligible.
    States should be required to develop an index reflecting the real 
cost of living for low-income families. A number of states have 
increased benefit levels for poor families since 1996. Most states, 
however, have failed to increase benefit levels. Changes in welfare 
policy since 1996 mean that many families are doing everything they can 
and are ``playing by the rules,'' but are still poor. There is no 
excuse for states not to set benefit levels based on real needs and 
costs, and federal law should encourage states to do so.
    Children's early year's experiences are critical to their physical, 
cognitive, and emotional development. There continues to be a severe 
shortage of quality out-of-home childcare for pre-school age children, 
particularly for children in low-income families. Until quality out-of-
home care can be guaranteed, parents should be allowed to care for 
their own children, and to have that care count as satisfying work 
requirements.
    TANF should be modified to curtail state's supplantation of TANF 
funds. A number of states have not used TANF funds to assist eligible 
low-income families, but instead have merely supplanted county and 
state expenditures on welfare and low-income programs. The end result 
has been that families in need have not been receiving the benefit of 
all the TANF funds which could go to many needs such as increasing 
transitional benefits, training and education, child care and 
transportation assistance.
    To successfully promote ``work'' as a path out of poverty, TANF 
must be redesigned around the realities of the low-wage labor market. 
Low-wages, few benefits, lack of ``family-friendly'' policies, high 
turnover, few opportunities for advancement, and areas of high poverty 
and high unemployment hinder the path out of poverty. Existing federal 
policies like Unemployment Insurance and the Family and Medicaid Leave 
Act do not generally benefit low-wage workers, and other benefit 
programs are inadequate to provide the level of support that families 
need.
    All low-wage workers, including those who participate in TANF-
funded employment programs, should receive a combination of decent 
wages and work supports, such as food stamps and child care assistance, 
to lift them out of poverty.
    Because education and training lead to higher wages, TANF must 
encourage and support education and training as viable ways for low-
income families to move out of poverty. Participation in education and 
training programs (including literacy, ESL, high school/GED, two-and 
four-year college, vocational training, work-study and internships) 
should count as work. Participation in these activities should be 
supported with payment of training related expenses, such as carfare 
and childcare costs. The 30% cap on the number of families who may be 
engaged in education and training and count towards a state's work 
participation requirements should be lifted. The one-year limit on 
vocational training for parents should be eliminated to allow parents 
adequate time to complete education and training. TANF families should 
be given the right to pursue these education and training options.
    In an economic downturn, some job seekers will be unable to find 
employment. When parents who have exhausted TANF benefits are willing 
and able to work, but no job is available, the appropriate governing 
body should either provide them with temporary employment or continue 
to provide assistance. A new program should be created that provides 
publicly financed wage paying jobs to parents with limited skills and 
work experience. Such programs in Pennsylvania, Washington and 
elsewhere have proven to be an effective model for enhancing 
employability and skills and provide a needed buffer in areas of high 
unemployment. Such a program will be especially valuable in rural and 
urban areas and on Native American reservations.
    Raise the federal minimum wage. The way to help people not only 
move off of welfare, but stay off of welfare, is to promote family-
sustaining wages. One step in the right direction is to increase the 
federal minimum wage so that work results in enough to provide a family 
with a decent standard of living. Also, create a children's allowance 
and a caregiver's allowance (refundable tax credits for those caring 
for children or others, including elderly parents).
    Punitive measures that harm families must be replaced with measures 
that help families move out of poverty. The federal time limit clock 
should stop, or exemptions be granted, for families who ``play by the 
rules,'' are in compliance with work requirements, or who are caring 
for young, sick, or disabled children or disabled household members. In 
general, Congress should consider extending or eliminating the five-
year time limit on benefits since it fails to reflect the 
characteristics of the individual participants or the local labor 
market.
    Exemptions should be increased for families with significant 
barriers such as domestic violence, physical disability or mental 
health disability, illness and/or substance abuse. The provisions of 
the Americans with Disabilities Act should be enforced. Establish a new 
system that rewards states that do the best job of training caseworkers 
to screen, refer and serve clients with significant barriers.
    Many states now deny aid to some needy children as a penalty for 
their parent's engaging in conduct of which the state does not approve. 
It is wrong to deny children benefits for their basic needs based on 
their parent's conduct. We also oppose denying benefits to children 
born while their parents are receiving welfare.
    The funding level of the TANF block grant should be maintained at 
present levels with an automatic cost of living adjustment. Though 
welfare rolls have fallen, income support and related childcare funding 
needs still far surpass the funding that is available from the federal 
block grant. States are also exploring a variety of innovative 
approaches to better assist individuals in moving from welfare-to-work, 
and funding for such efforts should not be curtailed at such an early 
stage. In addition, the recent attacks of Sept. 11th increase the 
likelihood of an economic downturn in the near future, with a resultant 
increase in the number of individuals and families needing assistance. 
TANF should require a minimum grant level that all states must adopt to 
lessen the economic struggles of poverty-stricken families.
    Value and support all families regardless of marital status. The 
government should not be in the business of legislating morals and 
trying to influence personal relationships conducted within the realm 
of privacy of ones life. We oppose government preference to married 
couples and government policies that penalize non-married individuals 
in the distribution of benefits. We also oppose any policy that results 
in the creation of a two-tiered system for married and for unmarried 
individuals and disparate policies for the groups. Instead, TANF goals 
must be to promote economically stable households, whether there are 
one or multiple adults in the household, regardless of marital status. 
Domestic violence prevention should be funded, rather than marriage 
promotion. A recent public opinion poll by the Pew Research Center 
showed that by a margin of 79 percent to 18 percent, Americans favored 
the government's staying out of marriage promotion. This was true even 
amongst ``highly committed'' white evangelicals, by a margin of 60 
percent to 35 percent against such programs.
    The Bush Administration proposal should be fashioned to improve job 
placement rates at family-sustaining wages and to meet the needs of 
those not able to work. In a recent discussion with the Commissioner of 
the Department of Social Services in one of the larger counties in NY 
State, serious concerns were expressed that the proposal to increase 
work activity hours and case load percentage rates, along with the 
taking away of the case load reduction credit, would wipe out most of 
the current programs that they have worked hard to establish over the 
past five years and make them start from scratch. Many of the other 
county agency heads had expressed similar concerns. One example is the 
40 hour work requirement. Most agencies have a 35 hour work week. Under 
the proposal, agencies throughout the country will be scrambling to 
place participants in additional sites for the additional five hours, 
as well as to pay for the additional program costs.
    Moreover, in Hunger Action Network's survey of hundreds of workfare 
participants, we asked what the workers would suggest to improve the 
program. Overwhelmingly the response was to help them get a job. The 
Department of Health and Human Services' current proposal will not 
provide that help. It was difficult enough to sweep the parks for 35 
hours a week and still fit in caring for your children, looking and 
interviewing for jobs and perhaps getting an education or training. 
Under the proposal, participants will lose crucial hours while at the 
same time not see the additional child care funding needed to fulfill 
work requirements or to support them in employment-related activities.
    As this Subcommittee has likely been apprised of, a recent National 
Governor's Association survey reported the views of governors and 
welfare officials in 38 states. The consensus was that the HHS proposal 
would require states to create community service jobs and expand 
workfare programs, instead of focusing on improving current job 
placement and job training programs. The HHS proposal would also 
further limit participants' access to programs and even to substance-
abuse treatment for welfare recipients who need to be rehabilitated 
before moving into employment.
    Hunger Action Network is also concerned that the ``super waiver'' 
discussions underway may lead to a decrease of federal protections to 
the families receiving assistance. In NY City, we have already 
witnessed what can happen when local agencies choose to ignore federal 
provisions. The city's welfare agency decided that it would tell people 
coming to them in need of food or assistance to prevent evictions or 
medical help that ``welfare no longer existed.'' Instead needy families 
were ``diverted'' elsewhere. Many people were given ``vouchers'' to 
area food pantries, however, the pantries knew nothing of these 
vouchers and many did not have enough food to meet this unexpected 
referral. Eventually, a lawsuit was filed in federal court to protect 
participants from such treatment and to allow them access to the 
benefits they were entitled to. A ``super waiver'' that would give 
localities that green light to begin and further these experiments 
would lead to increased hardships for the hungry, the homeless and the 
unemployed in our midst.
    One last point, DHHS Commissioner Tommy Thompson had talked about 
promoting post-employment training for welfare leavers to help them 
move up the salary scale and move into jobs paying family-sustaining 
wages. States would be asked to prepare a plan for implementing this 
goal and to track leavers. In NY State, we have begun research to 
assess the current level of post-employment training and services. 
Though we are only at the mid-point of our study, we have found few 
counties that have developed programs. We strongly support the 
Commissioner's proposal and see a strong need for the Federal 
Government's leadership on this issue so that families who have left 
welfare can permanently stay off of welfare by earning the wages needed 
to be economically secure.
    Hunger Action Network again thanks the Subcommittee for this 
opportunity to present our oral and written testify for consideration 
as Congress continues its work on TANF reauthorization.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Ms. Ha Pham. I want 
to again thank each of you for your very important testimony. I 
can assure you we will be considering all of it. I also want 
you to know I appreciate your patience for a very long hearing 
which started in the afternoon and will be concluding here in 
the evening. Also, I would like to urge you to continue to 
communicate with our Subcommittee, and also, if requested, if 
you could respond to future questions that could be submitted 
for the record.
    With that, I again thank each of you, and the Subcommittee 
on Human Resources of the Committee on Ways and Means stands 
adjourned. Thank you.
    [Whereupon, at 8:50 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]
    Statement of Robert D. Evans, Director, American Bar Association
    Dear Mr. Chairman and Members of the Subcommittee:
    I am Robert D. Evans, Director of the American Bar Association's 
Washington Office. I submit this statement at the request of the 
President of the American Bar Association, Robert E. Hirshon of 
Portland, Maine, to voice the Association's views with respect to 
reauthorization of the federal Temporary Assistance for Needy Families 
(TANF) program and related programs.
    The American Bar Association, the world's largest, voluntary 
professional organization with more than 400,000 members, is the 
national representative of the legal profession, serving the public and 
the profession by promoting justice, professional excellence and 
respect for the law.
    The reauthorization of the TANF program and related programs this 
year presents the first opportunity for Congress to comprehensively 
review progress on the profound changes in those federal assistance 
programs enacted as part of the Personal Responsibility and Work 
Opportunity Reconciliation Act (PRWORA) of 1996. We commend the Bush 
Administration and Representatives Benjamin Cardin and Patsy Mink for 
their leadership in sponsoring proposals to build upon several years of 
experience under PRWORA, to set new goals, to fine-tune some 
provisions, to revisit certain issues and to make needed changes in 
others. The ABA strongly believes that a number of changes in TANF and 
related programs should be supported by the Subcommittee and 
incorporated in reauthorizing legislation to strengthen TANF's 
commitment to basic fairness and better assure the equal application of 
its provisions to all. These recommendations are set out below.
    Assure Due Process of Law in the Application of TANF Sanctions: 
Prior to 1996, before a sanction could be imposed for failure to meet 
work-related requirements, the state was required to offer a 
``conciliation process,'' which typically involved informing the parent 
of what she had failed to do, offering a chance to correct the problem, 
and offering assistance if needed to come into compliance.
    In enacting TANF, Congress removed the basic protections of prior 
law. Under current law, a state may terminate all TANF assistance for 
failure to comply with work-related (or other) requirements; there is 
no requirement that there be any conciliation process prior to doing 
so; and (with one limited exception) there is no requirement that the 
state provide for good cause exceptions. Specifically, the statute 
states that if an individual ``refuses to engage in work,'' the state 
must reduce or terminate the family's assistance, ``subject to such 
good cause and other exceptions as the State may establish.'' 42 U.S.C. 
Sec. 609(7)(e)(1). There is a limited exception: a state may not reduce 
or terminate assistance to a single parent with a child under age six 
if the parent is unable to meet work requirements because of the 
unavailability of child care. 42 U.S.C. Sec. 607(e)(2).
    When imposing sanctions, there is no requirement that a state 
provide an opportunity to resolve the problem, offer assistance in 
addressing the difficulty, or offer an opportunity for the individual 
to have assistance reinstated by coming into compliance. There is also 
no requirement that a state provide an opportunity for a hearing when a 
sanction is imposed, although all states have elected to maintain an 
administrative hearing process. Current law only states that a State's 
TANF plan shall include ``an explanation of how the State will provide 
opportunities for recipients who have been adversely affected to be 
heard in a State.'' This requirement is insufficient to provide basic 
fairness.
    Some states have made extensive use of sanctions in their TANF 
implementation efforts.
    Since the comprehensive overhaul of welfare in PRWORA, 
opportunities for termination or reduction of benefits are more 
numerous, as work requirements and eligibility conditions have 
increased. In particular, financial sanctions for noncompliance with 
program rules have increased dramatically. Studies show that the 
families who get sanctioned often face serious employment barriers. The 
heads of these sanctioned families are also more likely to have limited 
education and work experience and/or serious health or mental health 
problems; they are also more likely to have been victims of domestic 
violence. In addition, advocates and lawyers who represent persons 
subject to sanctions find that state bureaucrats often do not have up-
to-date information, and frequently have incomplete or missing data 
about individual participation in a variety of required program 
activities.
    Given the present absence of due process protections for sanctioned 
TANF recipients, the ABA urges the implementation of the following 
protections that are currently lacking:

        <bullet> the provision of clear, understandable notices;
        <bullet> the establishment of the principle that a sanction 
        should not be imposed when there is good cause for 
        noncompliance;
        <bullet> the assurance that sanctions do not continue (or do 
        not continue for an unreasonable period) after a sanctioned 
        individual comes into compliance;
        <bullet> the requirement for all states to include a 
        conciliation process, and to offer assistance to overcome 
        employment barriers and medical difficulties; and
        <bullet> provision for follow-up efforts, after states impose 
        sanctions, to attempt to contact the family and offer 
        assistance to help the family enter into compliance.

    These changes to strengthen the provisions governing administration 
of TANF sanctions should be supported by the Subcommittee as part of 
reauthorizing legislation to assure due process and equal application 
and enforcement of the law.
    Legal Immigrants: In reauthorizing TANF, we support the provisions 
put forth by Rep. Cardin (H.R. 3625) and Rep. Mink (H.R. 3113) to 
restore or extend TANF protections to legal immigrants and remove the 
present 5-year ban on access that would be continued in the Bush 
proposal. Fully one in five indigent children in the United States 
comes from a family headed by an immigrant parent. The ABA House of 
Delegates approved a policy recommendation in August 1997 urging 
Congress and the President to restore to legal immigrants the same 
rights to TANF, Supplemental Security Income, food stamps and other 
federal and state funded services, benefits and assistance which were 
available to them prior to enactment of Title IV of PRWORA. Stated 
affirmatively, immigrant children should have equal access to basic 
assistance, food stamps, health care, foster care and social services, 
public education and public housing, regardless of the immigration 
status of the child or the child's parents. Legal immigrants pay taxes, 
are eligible to serve in the military, and often have children who are 
citizens.
    The Association opposes any provision that would require benefits 
providers to verify the citizenship or immigration status of 
individuals who seek their assistance. Verification may deter eligible 
applicants from applying and may result in eligibility determinations 
based on invidious factors such as an individual's name, accent, speech 
pattern or physical appearance. When it is required by law, federal, 
state and local agencies administering benefits programs subject to 
PRWORA should follow Department of Justice and Immigration and 
Naturalization Services guidelines limiting verification only to the 
status of the actual recipient of the benefits. Parents who are 
applying on behalf of ``qualified'' children should not be required to 
respond to questions concerning their own immigration status.
    Marital Status and ``After-born'' Children: The ABA believes as a 
general matter that TANF programs should be funded at a level 
sufficient to meet the need for the basic essentials of life for those 
eligible for such assistance regardless. The ABA opposes linking public 
assistance for needy persons to such requirements as marital status or 
``after-born'' children, which infringe on the right to privacy and the 
right to travel.
    The ABA opposes revisiting proposals considered by the 104th 
Congress, but not adopted in final legislation creating TANF, that 
would have denied the provision of cash assistance on the basis of 
characteristics of parents, the family's receipt of such assistance at 
the time of a child's conception or birth or the mother's age or 
marital status at the time of a child's birth. We support the provision 
in the Mink bill, H.R. 3113, to prohibit states from denying 
eligibility to so-called ``after-born'' children by the use of ``family 
caps.'' We believe this role for states--to deny eligibility based on 
family size or marital status--is punitive and without proven 
effectiveness.
    Such ``child exclusions'' from eligibility for assistance also 
raise serious constitutional concerns. Such provisions may be regarded 
under our Constitution as irrationally penalizing poor children for 
their parent's behavior, violating the most basic principles of 
fairness.
    We are also concerned that such an approach would result in 
increased out-of-home placement of poor children, a result that we 
believe no one would desire, and that such placements would put serious 
additional strains on the child abuse and neglect system, including the 
courts.
    The ABA further supports the consensus that is apparent among the 
principal sponsors of TANF reauthorization proposals to end the 
existing ``illegitimacy bonus'' to the states and to replace it with 
support for programs to strengthen family formation.
    Child Support Enforcement: The ABA supports the consensus among the 
Bush, Cardin and Mink proposals to increase the pass-through of child 
support from payments made to states to families receiving assistance. 
In addition, we support amending current law to extend the availability 
of enforcement remedies currently only available to IV-D agencies 
(handled by state and territory child support agencies) to cases 
brought by private attorneys on behalf of custodial parents and pro se 
parties. We believe this step would strongly supplement the work of IV-
D agencies and permit individual parents more opportunity for needed 
assistance in pursuing enforcement of child support obligations without 
the potential problems inherent in other proposals for corporate or 
private agency representation.
    Child Care: The ABA supports expanding availability of child care 
and bipartisan efforts to increase funding under Child Care and 
Development Block Grant (CCDBG) when it is reauthorized this year. The 
CCDBG should be funded at substantially higher levels in order to 
enable parents of young children to work. Child care assistance should 
be excluded from the five-year time limit for TANF assistance and 
states should be permitted to carry over unspent TANF funds from 
previous years for child care and for supporting attainment of minimum 
health and safety standards for CCDBG-funded child care.
    Equitable Access for Native American Children to Federal Foster 
Care and Adoption Assistance Programs: The ABA supports amendment of 
Title IV-E of the Social Security Act to provide equitable access for 
foster care and adoption services for Indian children under tribal 
court jurisdiction. The current TANF reauthorization process provides 
an opportunity to correct this problem directly related to TANF 
programs by allowing direct tribunal administration of the Foster Care 
and Adoption Assistance Entitlement Program. The ABA believes tribal 
governments should be able to directly administer the program, and 
tribal governments should retain the option to enter into tribal-state 
agreements, in order to correct the preferential treatment of one class 
of children. Representative Dave Camp is the sponsor of this much-
needed reform, as H.R. 2335, the Indian and Alaska Native Foster Care 
and Adoption Services Amendments of 2001.
    The purpose of the Title IV-E Foster Care and Adoption Assistance 
Act is to ensure that children receive adequate care when placed in 
foster care and adoption programs. The act reimburses states for 
services provided to income-eligible children who are placed in foster 
care or adoptive homes through state agencies. Services provided by 
tribes for income-eligible children place by tribal agencies are not 
eligible for reimbursement unless there is a tribal-state agreement. As 
a result, thousands of Native American children who meet income 
eligibility criteria who are placed in foster care by tribal courts do 
not receive foster care and adoptive services to which all other 
income-eligible children are entitled, and have little federal support 
in achieving the permanency they need and deserve. This amendment to 
current law would require that federal programs provide equitable 
access to foster care and adoption services for Indian children under 
tribal court jurisdiction.
    The ABA appreciates the opportunity to offer its views on this 
fundamentally important subject. We look forward to working with the 
Subcommittee to achieve a strengthened TANF as the reauthorization 
proceeds in coming weeks.

                                 <F-dash>
        Statement of the Evangelical Lutheran Church in America
    Mr. Chairman and Members of the Subcommittee:
    The Lutheran Office for Governmental Affairs, Evangelical Lutheran 
Church in America speaks on behalf of the Evangelical Lutheran Church 
in America on public policy issues before Congress and the 
Administration. We also have public policy offices in twenty states, 
addressing state legislative policy. The Evangelical Lutheran Church in 
America (ELCA) is a denomination of over five million members and 
approximately eleven thousand congregations. Lutheran Services in 
America, an alliance of agencies affiliated with the ELCA and the 
Lutheran Church, Missouri Synod, is the largest nonprofit human service 
network in the United States and Caribbean.
    Divine outrage over the plight of people living in poverty is a 
theme throughout the Bible. At the heart of Jesus' ministry and central 
to the message of the Old Testament prophets was God's partiality 
toward the poor and powerless. The poor are those who live precariously 
between subsistence and utter deprivation. The lack of access to the 
basic necessities of life is a harsh blow to their human dignity. 
Poverty is a problem of the whole human community, not only of those 
who are poor and vulnerable. Martin Luther's insights into the meaning 
of the commandment against killing is sobering. According to Luther, we 
violate ``you shall not kill'' when we do not help and support others 
to meet their basic needs. It is in this light that we believe that a 
basic goal of TANF should be to move families out of poverty. This goal 
should be included in the purpose. Poverty reduction is an essential 
component of child well-being. More than half of the respondents to our 
survey mentioned that encouraging payment of child support, providing 
for child support ``pass-through'' payments directly to parents, and 
expanding child care would increase child well-being. State incentives 
are also an important tool in stimulating poverty reduction and should 
be added to the federal law.
    In preparation for the reauthorization of the Temporary Assistance 
for Needy Families block grant, the Lutheran Office for Governmental 
Affairs interviewed state advocacy directors, Lutheran service agency 
directors, pastors, and congregational leaders located in the District 
of Columbia and thirty-five states. Based on this gathering of 
information and our work with poor and vulnerable populations, we offer 
the following insights.
    Those interviewed were asked to identify the ``most immediate'' or 
``most pressing'' needs among current or recent welfare recipients. 
Eighty nine percent responded with good quality, affordable child care. 
Today only one in seven of those who qualify for child care assistance 
receive it. In many places there are long waiting lists for child care. 
Families have a difficult time finding infant care, as well as child 
care during the evening or on weekends. A responder from Madison, 
Wisconsin spoke of many parents being sanctioned for missing work 
because of problems with child care. She told of an incident early in 
the program where a mother left an infant in the car because she had to 
go to work and her child care provider would not take the baby for the 
day. She checked on the baby during breaks, but later in the day the 
baby was found dead from heat and suffocation. Other immediate and 
pressing needs identified through our interviews included accessible, 
flexible transportation, education and job-skills training, affordable 
and transitional housing, and transitional health care and networks of 
support.
    Many TANF recipients are hampered in their search for employment by 
having no viable private transportation or accessible public 
transportation. In many cases this results in limited job searches and 
undermines their ability to be consistently present and punctual at a 
job. Transportation concerns are especially evident in rural areas 
where there are often greater distances to travel between affordable 
housing and job sites. Even in urban areas, however, the challenges are 
mounting as inner-city residents, trying to maintain a welfare-to-work 
job, need to travel increasingly to ``outer-belt'' jobs located at 
customer services centers and technology plants. In rural areas the 
Lutheran service agency survey found that many local community groups 
are introducing low-income car loans and subsidized repair costs. They 
are also soliciting donations of used cars, car parts, and mechanics' 
time to make sure the cars are serviceable before giving them to TANF 
families. For example, a particularly effective program was created in 
Burlington, Vermont. This program know as the ``Good News Garage'' 
solicits donations of used cars, rehabilitates them, and gives them to 
people for the cost of repairs. The Lutheran pastor working with this 
program said, ``We have not yet met a person at the garage who wants to 
be on welfare. But they need a real solution like the ``Good News 
Garage.'' In urban areas our survey found that neighborhood groups are 
creating charter services, car-pooling efforts, and advocating for 
public transportation vouchers. There are also long term efforts to 
change bus scheduling and routing to accommodate workers' needs. States 
should have increased flexibility to promote the many localized 
solutions to transportation issues. The practice of disregarding a 
percentage of a vehicle's value when considering a recipient's assets 
in determining TANF eligibility should be continued and the cap on this 
percentage removed.
    The lack of affordable housing available to very low-income 
families is becoming critical, and we believe is the driving force 
behind continued hunger in our country today. Stable housing is key to 
a welfare recipient's employment success and their ability to attain 
economic stability. According to the National Survey of American 
Families, a typical ``welfare leaver'' family must pay 57 percent of 
its total income for decent, housing. Only 30 percent of welfare 
recipients receive housing subsidies. Access to decent, stable, 
affordable housing is critical to ensuring child well-being. States 
should be allowed to use TANF and MOE funds for housing in the same 
manner as other work supports. States should not be required to define 
support for housing as ``assistance'' which presently starts the time 
clock after four months, even for families not receiving TANF cash 
benefits.
    Respondents were also asked to identify the top five policy changes 
that should be made to the Personal Responsibility Work Opportunity 
Reconciliation Act when it comes up for reauthorization in order for 
the TANF program to work more effectively. Support for education and 
job training programs received the most frequent response (74%). 
Lutheran social service agencies noted the significant need for 
training in workplace and relational skills before a recipient is 
placed in a job. Many activities are allowed by the states in principle 
and provided for, and also encouraged by flexibility in the federal 
regulations. However, the states must also meet an increasing work 
participation percentage. This often limits activities within the TANF 
program. The emphasis on getting recipients to work as soon as possible 
ignores the importance of education and training in ensuring stable 
employment with adequate income. Education and training is key to 
building the foundations needed for self-sufficiency. In addition to 
providing workplace and relational skills to individuals who need them 
prior to employment, states should be allowed to expand the definition 
of education and training as work participation. Education and training 
should be seen as investments to strengthen the employment base rather 
than optional or secondary services. The time limit on education and 
training is particularly troubling. A pastor in Connecticut told us of 
a mother he knew who was pursuing a four-year degree while child care 
was provided by the state. The state said they would not pay for the 
care unless she transferred to a two-year school, and completed a 
``replacement'' degree within the twenty-four month time-limit. She had 
to drop out of her program, and is now supporting her family by being 
an ``exotic dancer.''
    The second most frequent response was the creation of a responsive 
network of post-hiring benefits. Responders suggested establishing a 
national ``leavers'' survey to assess needs, allowing for the gradual 
removal of healthcare and food stamp benefits, and maintaining separate 
eligibility and funding for TANF, food stamps, and Medicaid.
    Equal in importance was the need to address the significant 
barriers to employment. Thorough assessment measures for families 
should be instituted, followed by the necessary services to assist 
these families in returning to work. Adequate funding needs to be in 
place so that states can provide flexible and focused counseling 
services, and hire and train responsive, effective, case management 
staff. Our survey indicates that caseworkers are not informing 
recipients of their actual obligations in order to be in compliance 
with the law, thus making recipients more susceptible to sanctions. 
Tennessee has created a very positive approach to prevent and/or cure 
inappropriate sanctions.
    Our respondents registered anxiety about time limits. Roughly 90% 
conceded that time limits are a reality of the TANF law, but thought 
they should be re-shaped. Only 10% stated that they should be 
eliminated completely. Suggestions included expanding the 20% 
``hardship'' exception for the five year lifetime limit on benefits, 
developing more exceptions to the continuous 24 month limit on 
benefits, and defining standardized exceptions to full-family sanction 
policies. Excluding assistance provided when parents are working from 
counting against the time limit would be a very positive change to the 
law.
    Family formation and marriage have recently engendered a great deal 
of discussion. The church is particularly suited to speak to these 
issues. We believe that most people are supportive of healthy marriages 
and would like to see families have the skills to maintain a strong 
family life. The issue isn't so much the value of marriage and family, 
but what is appropriate and effective in strengthening families. As 
people of faith we believe that the institution, promise and commitment 
of marriage exists not only as a contract between individuals, but as a 
covenant between God and humanity. Marriage is a foundational 
relationship within the social fabric in which individuals can 
experience affirmation, acceptance, identity, and positive formation. 
In our nation and culture, individuals choose to enter into a marriage 
relationship and are not compelled to do so by tradition or law. We 
uphold the dignity of all persons, both married and single.
    Eligibility requirements or statutory incentive programs tied to 
marriage diminish the sanctity of marriage and the dignity of an 
individual's decision to marry. Marriage is a social institution, but 
it is not a social prescription. It is not a panacea for systemic 
social problems. The substitution of marriage for responsible and 
meaningful social programs obscures the political and economic issues 
involved, and puts a price on the unique nature of a marriage covenant. 
Such an approach degrades marriage, obscures the real causes of 
poverty, and is potentially dangerous in abusive or coerced 
relationships. A more effective approach to reducing poverty and 
strengthening families would be to adopt policies which remove 
disincentives to marriage and promote families by helping poor mothers 
and fathers overcome the barriers that keep them apart.
    Both Daniel Lichter, a sociologist at Ohio State University, and 
Belle Sawhill of the Brookings Institution believe that preventing out-
of-wedlock births and teen pregnancy would provide the most effective 
route to family formation. Children born to teenage parents are at a 
greater risk of growing up without the benefits of living with two 
parents.
    Research by Sara McLanahan and Julien Teitler, Princeton 
University, provides evidence that suggests that children growing up 
with both biological parents are better off, independent of income. 
Although most children of single mothers do well, there are strong 
indications that, all else being equal, the absence of a biological 
father increases that risk of negative outcomes for children, such as 
lower educational attainment, increased likelihood of teenage pregnancy 
and diminished early labor force attachment. However, the research 
indicates that it is not marriage in itself that has an independent 
positive effect on child well-being. Children in stepparent families do 
no better on various measures of child well-being than children in 
single parent families.
    Social programs can have a positive impact on family formation. The 
Minnesota Family Investment Program yielded impressive results. The 
program provided generous financial incentives and grant increases for 
both single and two-parent families, regardless of their marital 
status. The program gave working families Medicaid, child care 
assistance, and cash benefits to supplement their earnings and bring 
them to 140 percent of the federal poverty level. The program also 
eliminated restrictive rules that limited participation by two parent 
families. A study of this program found that the generous financial 
incentives reduced poverty and increased marriage rates for both two-
parent and single-parent families. If people were married, they tended 
to stay married.
    Increasing family income is key to healthy families and child well-
being. One of the things we know is that financial strain can produce 
tremendous stress on families. Pastors have told us that problems over 
finances are the number one cause of relational strife. Studies have 
found that increasing family income has resulted in an increase in 
positive behaviors in children, a decrease in problem behaviors, and 
has had a positive effect on children's school achievement.
    The debate on marriage and family formation can become volatile. 
Last fall I attended a workshop at a TANF conference about family 
formation and marriage. Legal Aid attorneys were adamant about the 
issues of coercion and its implication on domestic violence. Thirty to 
forty percent of TANF recipients are either experiencing domestic 
violence or have recently experienced domestic violence. Sixty percent 
had experienced domestic violence at some time in their lives. Social 
workers, on the other hand, found that the single parents that they 
worked with wanted nothing more than to have a happy healthy marriage, 
but the men that they knew didn't have jobs, were in prison, or had 
prison records. They felt that these men would be a financial drain on 
an already struggling family. Both raise important issues that must be 
addressed.
    In addition to directly increasing family income, there are several 
approaches that would be helpful in strengthening families and 
supporting healthy marriages. Most of them relate to removing barriers 
and disincentives to marriage and child support.

        <bullet> Provide equitable support to poor two-parent families 
        by prohibiting discrimination against two-parent families in 
        establishing eligibility for benefits and services under TANF.
        <bullet> Eliminate the separate work participation rate for 
        two-parent families which, at 90 percent, may create a 
        disincentive for states to serve these families.
        <bullet> Require states to forgive child support debt owed to 
        the state if a low-income separated couple marries, or 
        remarries, or reunites.
        <bullet> Allow states to extend Medicaid and SCHIP coverage to 
        the uninsured parents of children eligible for these programs 
        and provide additional funds to the states for this purpose.
        <bullet> Give families who leave TANF and are owed past due 
        child support first claim on all child support payments. It 
        does not help children if the Federal Government and the states 
        retain support payments for unreimbursed assistance costs.
        <bullet> Allow child support paid by non-resident parents of 
        children receiving TANF to go directly to the child rather than 
        being retained by the state.
        <bullet> Encourage states to disregard at least a portion of 
        the child support payment when calculating the family's TANF 
        grant. If states implement a disregard, they should not have to 
        remit any share of the support to the Federal Government as 
        currently required.
        <bullet> Develop child support policies that prevent the 
        build-up of unmanageable child support debt and allow for 
        forgiveness of child support owed to the government when 
        appropriate.
        <bullet> Provide additional funding for fatherhood initiatives 
        that help disadvantaged low-income fathers increase their 
        education and work skills, and address their barriers to 
        employment.
        <bullet> Prohibit the recovery of birthing costs from low-
        income fathers already paid by

Medicaid

        <bullet> Provide states with funding to replicate effective 
        programs that reduce teen pregnancy and childbearing, such as 
        the Children's Aid Society-Carrera Teen Pregnancy Prevention 
        Program. Research funds are needed to identify effective 
        programs and to encourage the replication of these programs. 
        The few studies of abstinence-only programs that have been 
        completed do not show any reduction in sexual behavior or 
        contraceptive use.

    Far too many young men are in prison and are not available to form 
families. Remove the inequity of sentencing between powder and crack 
cocaine convictions, and rethink the lengthy prison sentences for small 
time drug sellers. Nearly ten percent of black males ages 25-29 were in 
prison in 2000, as were 2.9 percent of Hispanic males and about 1 in 
100 white males in the same age group. Black males have a 29 percent 
chance of serving time in prison at some point in their lives; Hispanic 
males have a 16 percent chance; white males have a 4 percent chance. 
(Bureau of Justice Statistics and The Sentencing Project)
    We are pleased that the President's proposal allows child care and 
other work support services to not be defined as assistance, includes 
child well-being as one of the purposes for TANF, increases state 
flexibility regarding carry-over funds, restores full transfer 
authority to the Social Services Block Grant, eliminates the separate 
two-parent family participation rate, and makes a good beginning toward 
needed changes in child support policy.
    However, we are very concerned about the implications of the 70 
percent work participation rate at 40 hours per week on child well-
being. Our own survey, other extensive research, as well as the 
National Governors Association and American Public Human Services 
Association all call for more flexibility, particularly in the areas of 
job training and education. This proposal will make expanded education 
and training more difficult. The Bureau of Labor Statistics says the 
workweek for many in the private sector consistently averaged 34 to 35 
hours over the last decade. We will be asking welfare recipients to be 
in some form of work or work related activity longer than what is 
normal for certain sections of the private sector. Without huge 
infusions of money to pay for child care for more than 40 hours (extra 
time must be allotted to go to and from work and other activities) as 
well as for publicly created work slots, this proposal can't work. 
States will be forced to pull money away from work supports and other 
assistance for low-income working families which very well could result 
in more families returning to TANF. The effort and time involved in 
creating ``make work'' experiences will take away from the process of 
getting welfare recipients into self-sustaining jobs that can lead to 
real economic self sufficiency. Although we support short term work 
experience for people who have had little work experience, the 
Evangelical Lutheran Church in America opposes ``workfare.'' Wage based 
publicly funded jobs can be an option. Again, the cost would demand 
even greater increases in funding. Whatever type of work the states 
would create, it must pay at least the minimum wage, avoid displacing 
current workers, and comply with workplace protections under the Fair 
Labor Standards Act.
Additional Policy Options:
TANF Funding
        <bullet> Adjust the TANF block grant to keep pace with 
        inflation.
        <bullet> Reinstate the Supplemental Grants to states that have 
        low levels of funding per poor person or high rates of growth 
        in order to make progress in reducing the disparity in TANF 
        block grant allocations among states relative to the number of 
        people who are poor.
        <bullet> Reauthorize and improve the Contingency Fund so that 
        it is workable in order to ensure that the Federal Government 
        shares in the increased costs associated with economic 
        downturns.
        <bullet> Allow states to use carry-over funds for cash grants 
        as well as any service or activity funded under TANF.
        <bullet> Institute a performance bonus that rewards states for 
        progress in level of families moving from TANF into self 
        sufficiency.
Barriers to Employment
        <bullet> Congress should provide programs and services to help 
        TANF recipients overcome these barriers: physical and mental 
        health, drug and alcohol abuse, care for the chronically-ill, 
        domestic violence, low English proficiency, and learning 
        disabilities, to name a few.
        <bullet> Congress should include such services as a part of 
        this legislation.
        <bullet> Congress should institute thorough assessment 
        measures for families and provide the necessary services to 
        assist these families in returning to work.
        <bullet> Reauthorization should provide greater flexibility 
        for states to serve the diverse needs of TANF recipients with 
        the greatest employment challenges.
        <bullet> Reauthorization should include language that will 
        allow substance abuse treatment to last at least one year, with 
        the possibility of an extension upon evaluation.
Immigrants and TANF
        <bullet> Benefits should be restored to immigrants legally in 
        the U.S. Legal immigrants pay taxes, and, as taxpayers, they 
        should not be denied access to programs that will enable them 
        to attain skills to move ahead in the labor market and that 
        provide some level of economic support when temporary hardships 
        interrupt their employment. For TANF to be effective in 
        reducing poverty, it must be available to all people in need. 
        Legal immigrants should have access to the same benefits that 
        are available to U.S. citizens. At the very least, states 
        should be given the flexibility to serve legal immigrants with 
        TANF dollars.
TANF Sanctions
        <bullet> Focus more research on the implementation of 
        sanctions, their effect on recipients' behavior, and the 
        circumstances of sanctioned families.
        <bullet> Require states to describe, in their TANF state plan, 
        what safeguards they will implement to assure that individuals 
        who are subject to sanctions have information on potential 
        exemptions and on what they must do to have sanctions lifted.
        <bullet> Require states to monitor families after they leave 
        TANF.

    For further information please contact Kay Bengston, phone: (202) 
626-7942

                                 <F-dash>

 Statement of Audrey Olson Faulkner, Fair Welfare Reform Coalition of 
                        Larimer County, Colorado
    My name is Audrey Olsen Faulkner, and I am the Co-Convener of the 
Fair Welfare Reform Coalition of Larimer County, Colorado. The 
Coalition came into existence at the time the original welfare reform 
legislation was pending, and we have carefully monitored the outcomes 
and effects of that legislation on residents of Colorado. We are a 
grass roots group, with no institutional funding, interested in 
assisting women with financial needs to become self sufficient, 
financially and otherwise.
    We are submitting this testimony to address three specific areas of 
the proposed legislation--need for expanded educational opportunities 
for welfare participants, the need for maintaining or reducing the the 
present work participation rate, and the continued need for additional 
stable funding for child care for working welfare parents.
    In Colorado, The Colorado Works Program outcomes have been tracked 
and reported by Berkeley Policy Associates.
    Berkeley Associates identified the lack of education and job skills 
as one of the primary factors preventing Works Program participants 
from finding and retaining stable employment, the key to economic self 
sufficiency. Only 20 percent of Colorado Works leavers had earnings 
that exceeded the poverty level; poverty level wages do not lead to 
economic self sufficiency. A third of the welfre participants indicated 
that a lack of job skills hindered their ability to secure or maintain 
employment. Colorado has one of the highest educational rates of any 
state in the U.S., making it even harder for those without degrees to 
find and keep employment, and low educational attainment is associated 
with lower employment rates. We believe the new legislation should 
permit women to count pursuit of AA and BA-BS degrees as permissible 
work participation activities.
    Local experience shows that it is extremely difficult for the Works 
Program to find work activities that provide meaningful training for 
those participants who experience serious barriers to employment. 
Sufficient non-profit slots are not available to place additional 
people, which would be required under the proposed legislation. Local 
experience demonstrates that women who successfully exit welfare--
especially those with significant employment barriers, need to be 
placed in settings that specifically address their barrier issues. We 
believe the new reauthorization legislation should make that possible.
    Among job barriers, safe and affordable child care stands out as of 
primary importance. TANF funds are currently needed for child care 
expenditures; every dollar taken from TANF limits the Larimer County 
Works program from tailoring their individualized approach to prepare 
each participant for job success.
    The Works Program has been successful in placing participants in 
jobs with a future because they have had a specifically targeted 
program for each individual.
    We believe child care funds should be expanded to meet the need. 
Such available funds would make it possible for women to be placed in 
and remain in jobs with a future.
            Thank you,
                                              Audrey Olsen Faulkner
                                                        Co-Convener

                                 <F-dash>

   Statement of Elaine Sorensen, Principal Research Associate, Urban 
  Institute; Dwaine R. Simms, Board President, National Practitioners 
Network for Fathers and Families; Ronald B. Mincy, Professor, Columbia 
University; Joseph Jones, President and Chief Executive Officer, Center 
  for Fathers, Families, and Workforce Development; Jeffrey Johnson, 
 President and Chief Executive Officer, National Center for Strategic 
   Nonprofit Planning and Community Leadership; Preston J. Garrison, 
  Executive Director, National Practitioners Network for Fathers and 
     Families; and, Irwin Garfinkel, Professor, Columbia University
    This testimony is based on the collective knowledge of its signers 
who are individual service providers and researchers who have worked 
independently for decades on issues relevant to low-income fathers and 
their families. More recently, we have worked together as members of 
the Strengthening Fragile Families Initiative (SFFI), a multi-year 
initiative of the Ford Foundation. Our testimony today reflects our own 
opinions. It does not in any way represent those of our respective 
organizations or the Initiative.
    SFFI was launched during the early 1990s, when welfare reform 
discussions were just beginning to take place. At that time, welfare 
reforms were focused on getting custodial parents to work and non-
custodial parents to pay child support. The purpose of SFFI was to 
encourage research and development of policies and practices that moved 
beyond this framework, with particular attention on unwed parents who 
are working together to raise their children, whom we refer to as 
fragile families. These families are at risk of being poor and in need 
of work supports, but our current income security system is not set up 
to serve these families.
    After many years of work in this area, we make the following 
recommendations to Congress regarding TANF reauthorization.
    1. Revise the Fourth Goal of TANF to Include Responsible 
Fatherhood. The Administration has recommended that Congress add 
``responsible fatherhood'' to the fourth goal of TANF, which promotes 
the formation and maintenance of two-parent families. We agree 
wholeheartedly with this idea. States are already using TANF funds to 
encourage nonresident fathers to pay child support and become more 
actively involved in their children's lives by offering them employment 
services and relationship-building services. Adding responsible 
fatherhood to this goal would simply affirm what states are already 
doing and possibly encourage more to act.
    2. Establish a $100 million Block Grant for Responsible Fatherhood 
Programs. We recommend that Congress establish a $100 million block 
grant program to states for the purpose of enhancing the abilities and 
commitment of low-income fathers to provide financial and emotional 
support to their children. As we discuss below, 2.5 million fathers 
could benefit from this program. We recommend establishing a block 
grant to states because many states have already begun to create 
innovative approaches to serving this population and a block grant 
would stimulate this creativity.
    3. Establish a $100 millionper year Research and Development fund 
to Better Understand How to Meet the Fourth Gaol of TANF. We recommend 
creating a $100 million per year research and development fund to 
better understand how to achieve the fourth goal of TANF. The 
Administration has recommended such a research and development fund, 
but suggests that these funds shall be expended primarily on promoting 
marriage through non-economic activities, such as pre-marital education 
and relationship skills training for married couples. We think that 
these funds should be used to evaluate several different program models 
that help low-income families get married, stay married, and achieve 
responsible fatherhood. Some of these models could offer only non-
economic services, but other approaches should also be tried. We 
especially recommend evaluating efforts to provide comprehensive 
services to new unwed parents who are working together to raise their 
child. As we discuss below, these parents have high hopes for the 
future but are at risk of poverty and are likely to break up. Offering 
economic services, such as job training, as well as non-economic 
services, such as marriage counseling, could yield powerful gains to 
these families and society at large.
    4. Eliminate Separate Work Participation Rates for Two-Parent 
Families. Given that higher work participation rates for two-parent 
families may be discouraging states from serving these families, 
Congress should consider eliminating this distinction. Indeed, it 
should revisit any distinction between one-and two-parent families in 
TANF.
    5. Give States Credit for Serving non-custodial Parents with TANF 
funds. We recommend that Congress encourage states to use their TANF 
funds to serve low-income non-custodial parents. One approach is to 
give states credit toward their TANF work participation requirement for 
each father served by these programs. Giving states credit for serving 
these fathers may result in more fathers being served.
    6. Prohibit the Use of the Minimum Basic Standard of Adequate Care 
when Determining Default Orders. We recommend that Congress not allow 
states to use the minimum basic standard of adequate care when 
determining default orders. These standards are designed to reflect a 
custodial family's basic needs, not the non-custodial parent's ability 
to pay. Yet, federal law states that child support orders should 
reflect the non-custodial parents' ability pay. We fully understand the 
need for default orders, but when states use the minimum basic standard 
of adequate care in the determination of a default order, they 
establish orders that outstrip most non-custodial parents' ability to 
pay.
    7. Prohibit the Recovery of Birth-related Costs from Fathers in 
Medicaid Cases. Consistent with the findings of the Congressionally 
established Medical Child Support Working Group, we recommend that 
Congress prohibit states from collecting pregnancy and birth-related 
costs from non-custodial fathers in Medicaid cases. Fathers of these 
children are likely to have low incomes and thus states are unlikely to 
collect the assessed amounts anyway, contributing to inflated arrears.
    8. Mandate a National Study to Investigate why non-custodial 
Parents in the IV-D Program do not Appear Before Court and Recommend 
Alternative Methods of Determining a Default Order. We urge Congress to 
ask the Federal Office of Child Support Enforcement (OCSE) to conduct a 
national study into the reasons why non-custodial parents do not show 
up in court and why states do not have earnings information from their 
automated child support systems to help set appropriate orders. Default 
orders are far too common in the child support program and child 
support offices do not appear to be using earnings information from 
their automated child support systems in these situations. These 
practices are contributing to child support orders that exceed non-
custodial parents' ability to pay child support. We also recommend that 
Congress ask OCSE to develop alternative methods that states could use 
when a default order is needed and there is no earnings information 
available. States use the minimum basic standard of adequate care to 
set default orders, in part, because they do not have good 
alternatives.
    In the following sections we summarize our research findings and 
that of others in three areas--Fathers Matter to their Children, Birth 
Represents a Magical Moment, and Deadbroke, Not Deadbeat. We end by 
describing efforts to serve fathers and their families since 1996 and 
the role of the SFFI in these endeavors.
LFATHERS MATTER TO THEIR CHILDREN, IRRESPECTIVE OF THEIR MARITAL STATUS 
        OR WHERE THEY LIVE
    SFFI partners have been at the forefront of collecting and 
summarizing the literature on father involvement and its impact on 
children.\1\ This research clearly shows that fathers matter to their 
children. Although studies find that children fare better, on average, 
if they live with both of their biological, married parents, it also 
shows that other forms of father involvement benefit children and can 
obviate the negative consequences of living in a single-parent family.
---------------------------------------------------------------------------
    \1\ National Center on Fathers and Families (1997).
---------------------------------------------------------------------------
    Studies that focus on nonresident fathers and unwed fathers have 
tended to find that their involvement is associated with greater 
academic success, improved child well-being, and reduced behavioral 
problems.\2\ Studies have not only documented a positive relationship 
between the provision of child support and the well being of children, 
but they have also linked father-child contact with improved child 
well-being. An important example of research is by the U.S. Department 
of Education, which reported that nonresident fathers' involvement 
increased children's academic success.\3\ Other recent studies focusing 
on low-income, unwed fathers find young children benefit from father 
involvement.\4\
---------------------------------------------------------------------------
    \2\ Amato and Gilbreth (1999).
    \3\ U.S. Department of Education (2001).
    \4\ 4. Black, et al (1999).
---------------------------------------------------------------------------
    Moreover, most unwed and nonresident fathers want to be involved in 
their children's lives, and most children want their fathers to be 
involved. Nonresident fathers report high levels of father-child 
contact. In 1999, 79% of nonresident fathers said that they had seen 
their child(ren) living elsewhere in the last 12 months.\5\ Even 
custodial mothers, who generally report less father-child contact than 
the fathers self-report, indicated that 71% of their children with a 
nonresident father had seen their father in the last 12 months. 
Children of divorce report that the most negative outcome of their 
parents' divorce is reduced contact with their fathers.\6\ School-age 
children on welfare rank their fathers just after their mothers as the 
person in their life that they turn to for support, ranking fathers 
higher than other relatives, siblings, and friends.\7\
---------------------------------------------------------------------------
    \5\ Sorensen and Pomper (2002).
    \6\ Kelly (1993).
    \7\ Perloff and Buckner (1996).
---------------------------------------------------------------------------
BIRTH REPRESENTS A MAGICAL MOMENT
    It is well known that nonmarital childbearing has risen 
dramatically during the past forty years and that one third of all 
births and 69% of African American births now occur outside of 
marriage. Until recently, it was generally assumed that the fathers of 
children born outside of marriage were not involved. The new Fragile 
Families and Child Wellbeing Survey, which is being conducted by a SFFI 
partner, has challenged this assumption.\8\ This survey is following a 
birth cohort of approximately 3,600 nonmarital births in 20 large 
cities throughout the U.S.\9\ Mothers are interviewed in person at the 
hospital within 48 hours of having given birth, and fathers are 
interviewed in person either in the hospital or shortly thereafter. 
Follow-up interviews have already taken place when the children were 12 
months old and two additional follow-up interviews are planned.
---------------------------------------------------------------------------
    \8\ http://crcw.princeton.edu/fragilefamilies
    \9\ Reichman et al (2001).
---------------------------------------------------------------------------
    Contrary to popular belief, this survey finds that unmarried 
fathers are closely connected to the mothers of their child at the time 
of the birth. Over 80% of the mothers report being romantically 
involved with the baby's father at the child's birth--48% of the 
couples are cohabiting; 34% are in romantic relationships but live 
separately. About 55% of the mothers think their chances of marrying 
the father are ``pretty good'' to ``almost certain.'' \10\ Nearly all 
of the fathers say they want to help raise their child, and the 
overwhelming majority of mothers say they want the fathers to be 
involved.
---------------------------------------------------------------------------
    \10\ Carlson and McLanahan (2001), which is based on data from the 
first 7 cities.
---------------------------------------------------------------------------
    Although most new unmarried parents have high hopes for their 
relationship at the time of the child's birth, the Fragile Families 
data show that many of these new parents are ill equipped to support 
themselves and their children. Almost 30% percent of the fathers were 
out of work the week before their baby was born.\11\ About 35% of the 
mothers and fathers have not completed high school. Moreover, 74% of 
the births were covered by Medicaid and 44% of the mothers had received 
welfare last year.\12\
---------------------------------------------------------------------------
    \11\ McLanahan, Garfinkel, and Mincy (2001).
    \12\ Carlson and McLanahan (2001).
---------------------------------------------------------------------------
    Recent findings from the one-year follow-up survey show that less 
than 10% of these unwed couples have married each other. Furthermore, 
romantic involvement has declined from 80% to 50% of the unwed couples. 
Thus, the magic moment wanes with time.
    Other research by SFFI partners reinforces this conclusion that, 
unfortunately, the magic moment wanes.\13\ Most poor children 
eventually experience their families breaking up. Although fragile 
families are more likely to break up than marital families, the latter 
also have high break-up rates. Therefore, program efforts need to focus 
not only on encouraging marriage, but on keeping families together, and 
short of that, on keeping fathers involved.
---------------------------------------------------------------------------
    \13\ Sorensen, Mincy and Halpern (2000).
---------------------------------------------------------------------------
DEADBROKE, NOT DEADBEAT
    The public perceives non-custodial fathers who do not pay child 
support as ``deadbeat dads'' who can afford to pay child support but 
choose not to, depriving their former families of desperately needed 
income. This image fits some non-custodial fathers, but ignores the 
diverse nature of this population. Research by SFFI partners shows that 
one third of non-custodial fathers, representing 3.5 million fathers, 
live in families that are poor or have a personal income below the 
poverty threshold for a single person.\14\ These severe limits on their 
income make it difficult for them to support themselves and their 
children. The Initiative refers to poor nonresident fathers as 
``deadbroke dads.''
---------------------------------------------------------------------------
    \14\ Sorensen and Oliver (2002). This citation is for all of the 
numbers in this section unless another citation is given.
---------------------------------------------------------------------------
    Nearly all deadbroke fathers lack full-time, year-round work. One 
in six of these fathers are institutionalized, making it practically 
impossible to work. Among those not institutionalized, only 8% had 
full-time, year-round work in 1998. Two fifths did not work at all that 
year. Median earnings for those that worked were $5,000 per year.
    Deadbroke dads encounter many of the same employment barriers as 
poor custodial mothers. Low levels of education are a common barrier 
encountered by both groups of parents; 40% of deadbroke dads and 38% of 
poor mothers lack a high school degree. Lack of recent work experience 
is another large obstacle to work, and again these mothers and fathers 
are similarly affected. In 1999, 41% of deadbroke dads and 35% of poor 
custodial mothers had not held a job in the past 12 months. 
Furthermore, one quarter of deadbroke dads and one fifth of poor 
mothers have a health condition that limits their ability to work.
    Although deadbroke dads could benefit from employment and training 
services, very few receive them. In 1999, only 6% of these fathers 
received job training or job placement services, compared to 20% of 
poor custodial mothers.
    Despite facing severe income constraints, 30% of deadbroke dads 
paid child support in 1999. Moreover, one in four of those who paid 
child support spent more than 50% of their gross income on child 
support. This contrasts sharply with nonresident fathers who are not 
poor--only 2% of them spent over half of their gross income on child 
support. Several SFFI partners have documented policies and practices 
that tend to contribute to child support orders that outstrip low-
income fathers' ability to pay.\15\ Below, we discuss some of these 
policies.
---------------------------------------------------------------------------
    \15\ Sorensen (1999), Cleveland and Ash (2001).
---------------------------------------------------------------------------
    According to federal law, child support orders must be set 
according to state child support guidelines, which must reflect the 
earnings capacity of non-custodial parents. However, if a father does 
not show up in court to establish his earnings capacity, many states 
allow courts to set a child support order, called a default order, at 
the minimum basic standard of adequate care in their state. In 
California, for example, if a non-custodial parents' income is unknown 
courts are instructed to presume an income in an amount that results in 
a support order that equals the minimum basic standard of adequate 
care, which was $423 a month for a single child in 2001.\16\ These 
orders far exceed deadbroke dads' ability to pay. If the father had 
shown up in court and had a net disposable income of $1,000 per month, 
the California guidelines indicate that he should pay, at most, $250 a 
month for a single child.\17\ Unfortunately, default orders are all too 
common in the child support program. It is estimated that in 
California, for example, nearly 70% of child support orders are set by 
default.\18\
---------------------------------------------------------------------------
    \16\ California Family Code, Section 17400 (d) (2).
    \17\ Judicial Council of California (2001).
    \18\ Ibid.
---------------------------------------------------------------------------
    In addition, many states set child support orders for unmarried 
parents back to the date of the birth of the child, even if no action 
was taken to establish paternity until much later.\19\ If states choose 
to backdate child support orders, federal law requires them to set 
orders according to the states' child support guidelines. But if the 
father does not show up at his court hearing when the order is set, 
courts will impute an income for him back to the date of the child's 
birth and set the child support order accordingly.
---------------------------------------------------------------------------
    \19\ U.S. Department of Health and Human Services, Office of 
Inspector General (2000).
---------------------------------------------------------------------------
    States may also charge nonresident fathers the costs associated 
with the birth of their child if Medicaid paid for these expenses, yet 
these costs do not depend on the fathers' ability to pay. Moreover, 
Congress does not allow states to charge the mother for these costs. In 
1998, Congress established an independent body, the Medical Child 
Support Working Group, to develop recommendations for effective 
enforcement of medical child support orders. They concluded that 
Congress should ban states from charging fathers for the birthing costs 
of their child if the child is covered by Medicaid.\20\
---------------------------------------------------------------------------
    \20\ Medical Child Support Working Group (2000).
---------------------------------------------------------------------------
    In sum, these practices are contributing to large arrears that 
deadbroke fathers cannot pay. Child support arrears now total over $84 
billion, averaging $8,487 per case.\21\
---------------------------------------------------------------------------
    \21\ U.S. Department of Health and Human Services, Office of Child 
Support Enforcement (2002).
---------------------------------------------------------------------------
LMANY EFFORTS HAVE EMERGED TO SERVE LOW-INCOME FATHERS SINCE 1996
    Fatherhood programs that serve low-income fathers have been in 
existence for at least twenty years.\22\ Community-based organizations 
(CBOs) have largely dominated the low-income father involvement arena. 
These programs serve diverse populations of low-income fathers, but 
share many components. Most work to foster a father's lifetime 
commitment to his children. This generally begins by recognizing and 
healing the pain that many feel because their own fathers were absent 
when they were growing up. Through this strengthened commitment to 
their children, programs try to encourage fathers to leave their 
``street life'' behind and join mainstream society through regular 
employment, paying child support, and working with the mothers of their 
children. These programs tend to offer peer counseling, intensive case 
management, mentoring, employment, training, academic education, and 
parenting and relationship skills.
---------------------------------------------------------------------------
    \22\ Levine and Pitt (1995).
---------------------------------------------------------------------------
    Since the passage of PRWORA, many new fatherhood initiatives have 
emerged. The Welfare-to-Work Grants Program, established in 1997, has 
been an important source of funding for many of these initiatives. In 
addition, a national demonstration is currently underway, called the 
Partners for Fragile Families Demonstration, which is being funded by 
the Federal Office of Child Support Enforcement and managed by the 
National Center for Strategic Nonprofit Planning and Community 
Leadership (NPCL), an SFFI partner.
    The expansion of this field has led to the development of a 
national membership organization of fatherhood programs, called the 
National Practitioners Network for Fathers and Families (NPNFF), an 
SFFI partner. It was formed in 1995 and now has nearly 1000 members. 
Its mission is to strengthen families and communities by promoting the 
creation of opportunities for children to grow up free of poverty in 
strong and supportive families. The role of NPNFF is to ensure that the 
perspectives of community-based responsible fatherhood program 
practitioners, those individuals who are working on a day-to-day basis 
with low-income non-custodial fathers, are included in the 
consideration of federal and state policy.
Welfare-to-Work Grants Program
    Under the Balanced Budget Act of 1997, Congress authorized the U.S. 
Department of Labor to provide $3 billion in Welfare-to-Work (WtW) 
grants to states and communities to move long-term welfare recipients 
and non-custodial parents who meet certain eligibility criteria into 
lasting, unsubsidized employment. WtW grants represent a new and 
valuable source of funding for work-focused programs that serve non-
custodial parents.
    The Welfare-to-Work grants program has (re)taught us many lessons 
regarding how to recruit non-custodial parents. Many grantees had 
expected that child support enforcement programs would be a large 
source of referrals of non-custodial parents, but that has not been the 
case.\23\ Local child support offices were often concerned about 
confidentiality issues and were unwilling to supply names of potential 
clients to WtW grantees. Thus, grantees have had to change their 
recruitment strategies. Many now emphasize their own outreach and 
customers' self-referrals as recruitment strategies. Because 
recruitment has been so difficult, only about 10% of the individuals 
served by the WtW grants program have been non-custodial parents; 20% 
had been the target.
---------------------------------------------------------------------------
    \23\ Perez-Johnson, Hershey, and Bellotti (2000).
---------------------------------------------------------------------------
The Partners for Fragile Families Demonstration
    The Partners for Fragile Families Demonstration Project (PFF) is a 
three-year, ten-city demonstration project designed to:

        1. Increase paternity establishment and child support payments 
        among young unwed fathers by providing them employment training 
        and placement services, case management, and parenting and 
        relationship skills;
        2. Test the viability of collaborations between community-based 
        organizations (which provide the aforementioned services) and 
        state/local child support enforcement agencies, which provides 
        matching funds for the projects, via federal waivers;
        3. Affect systemic and constructive change in the way in which 
        child support programs work with young disadvantaged unwed 
        fathers.

    This demonstration is breaking new ground, primarily in its efforts 
to build private-public partnerships between community-based 
organizations (CBOs) and child support enforcement programs. In the 
past, most fatherhood programs and child support programs did not work 
together. Figuring out how to work together is not a simple matter as 
many WtW grantees and their respective child support programs can 
attest. But if this demonstration is successful, the payoff is 
potentially very substantial, both for the families involved as well as 
for the state and Federal Governments. Interventions that lead some of 
these parents to marry and others to remain closely engaged could 
reduce poverty, increase self-sufficiency, and enhance the quality of 
parenting while at the same time lessening the demand for government 
services. Most important, these gains in family income and parental 
quality are likely to improve the long-term prospects of the children 
involved.
    The fatherhood field has expanded and matured greatly in the past 
five years. Considerable research on fathers and their families has 
been completed, especially on unwed and nonresident fathers, filling a 
major gap in our understanding of fathers. The number of programs 
devoted to serving low-income fathers and their families has increased 
dramatically during this period, in all parts of the country. The 
primary issue that remains is whether Congress will help these efforts 
by funding fatherhood programs and additional research on how to 
strengthen low-income families.
                                 ______
                                 
                               References
    Amato, Paul R. and Joan G. Gilbreth. 1999. ``Nonresident Fathers 
and Children's Well-Being: A Meta-Analysis.'' Journal of Marriage and 
the Family (61): 557-573.
    Black, Maureen M., Dubowitz, Howard, and Raymond H. Starr, Jr. 
1999. ``African American Fathers in Low Income, Urban Families: 
Development, Behavior, and Home Environment of Their Three-Year-Old 
Children.'' Child Development 70(4): 967-978.
    Carlson, Marcia J. and Sara S. McLanahan. 2001. ``Fragile Families, 
Father Involvement, and Public Policy.'' Working Paper 01-24-FF. 
Princeton, NJ: Princeton University, Center for Research on Child 
Wellbeing.
    Cleveland, Barbara C. and Daniel O. Ash. 2001. Guiding Principles 
for Child Support Enforcement in Working with Fragile Families. 
Washington, DC: National Center for Strategic Nonprofit Planning and 
Community Leadership.
    Judicial Council of California and Policy Studies Inc. 2001. Review 
of Statewide Uniform Child Support Guideline. San Francisco, CA: 
Judicial Council of California.
    Kelly, Joan B. 1993. ``Current Research on Children's Postdivorce 
Adjustment: No Simple Answers.'' Family and Conciliation Courts Review 
31(1): 29-49.
    Levine, James A. and Edward W. Pitt. 1995. New Expectations: 
Community Strategies for Responsible Fatherhood. New York, NY: Families 
and Work Institute.
    McLanahan, Sara, Garfinkel, Irwin, and Ronald B. Mincy. 2001. 
``Fragile Families, Welfare Reform, and Marriage.'' Welfare Reform & 
Beyond Policy Briefs (10). Washington, DC: The Brookings Institution.
    Medical Child Support Working Group. 2000. 21 Million Children's 
Health: Our Shared Responsibility.  Washington, DC: U.S. Department of 
Health and Human Services.
    National Center on Fathers and Families. 1997. Fathers and Families 
Roundtables 1995-1997: Discussions on the Seven Core Learnings. 
Philadelphia, PA: University of Pennsylvania, Graduate School of 
Education.
    Perez-Johnson, Irma, Hershey, Alan, and Jeanne Bellotti. 2000. 
Further Progress, Persistent Constraints: Findings From a Second Survey 
of the Welfare-to-Work Grants Program. Washington, DC: U.S. Department 
of Health and Human Services.
    Perloff, Jennifer N. and John C. Buckner. 1996. ``Fathers of 
Children on Welfare: Their Impact on Child Well-Being.'' American 
Journal of Orthopsychiatry 66(4): 557-571.
    Reichman, Nancy E., Teitler, Julien O., Garfinkel, Irwin, and Sara 
S. McLanahan. 2001. ``Fragile Families: Sample and Design.'' Children 
and Youth Services Review 23(4/5).
    Sorensen, Elaine. 1999. ``Obligating Dads: Helping Low-Income non-
custodial Fathers Do More for Their Children.'' Strengthening Families 
Briefs. Washington, DC: The Urban Institute.
    Sorensen, Elaine, Ronald Mincy, and Ariel Halpern. 2000. 
``Redirecting Welfare Policy Toward Building Strong Families.'' 
Strengthening Families Briefs. Washington, DC: The Urban Institute.
    Sorensen, Elaine and Helen Oliver. 2002. Policy Reforms are Needed 
to Increase Child Support from Poor Fathers. Washington, DC: The Urban 
Institute, Income and Benefits Policy Center.
    Sorensen, Elaine and Kate Pomper. 2002. Child Support Enforcement: 
Does it Affect Father-Child Contact? Washington, DC: The Urban 
Institute, Income and Benefits Policy Center.
    U.S. Department of Education. National Center for Education 
Statistics. 2001. Fathers' and Mothers' Involvement in Their Children's 
Schools by Family Type and Resident Status, NCES 2001-032, by Christine 
Winquist Nord and Jerry West. Washington, DC.
    U.S. Department of Health and Human Services. Office of Inspector 
General. 2000. The Establishment of Child Support Orders for Low Income 
Non-custodial Parents. OEI-05-99-00390. http://www.hhs.gov/oig/oei
    U.S. Department of Health and Human Services. Office of Child 
Support Enforcement. 2002.  FY2000 Preliminary Data Preview Report. 
http://www.acf.dhhs.gov/programs/cse

* The views in this testimony are those of the authors and do not 
necessarily reflect the views of their organizations, boards of 
trustees, or sponsors.

                                 <F-dash>

                       Goodwill Industries of Southwestern Michigan
                                          Kalamazoo, Michigan 49004
                                                      April 9, 2002
To: The Subcommittee on Human Resources of the Committee on Ways and 
Means
    I'm sure you know that the TANF renewal legislation is extremely 
important to those of us who work with individuals with disabilities 
and other disadvantaging conditions. Parts of the current program work, 
however, we believe there is room for improvement.
    We believe TANF should encourage people to pursue self-sufficiency. 
For many of the remaining families receiving TANF, pursuing self-
sufficiency will require education and training. Most of our current 
TANF recipients have significant barriers. These barriers are unlikely 
to be eliminated with entry-level employment alone. Federal legislation 
should encourage learning as well as employment to break the poverty 
cycle. Further, much greater flexibility needs to be built into the 
legislation to allow TANF recipients to juggle parenting, learning and 
working and still succeed at the desired levels. In the past 
legislation, 20% exclusion was established to recognize the difficulty 
that a portion of the population would have meeting desired standards. 
That same group remains only sporadically employed, still in poverty 
and now represents a much higher percentage of TANF recipients.
                  TANF Suggestions in Reauthorization
        L1. Current federal requirements establish that 90% of two-
        parent households be participating in work. The requirement is 
        only 50% for one-parent households. This has the effect of 
        discouraging two parent households and is a significant 
        disincentive to marriage. We believe the requirement should be 
        50% of parent-run households, regardless of whether it is one 
        or two parents.
        L2. The current TANF legislation in place gives the states 
        considerable flexibility to do what is right in their state. We 
        believe that flexibility should remain in place.
        L3. The economic decline puts significant numbers of families 
        at risk because of the 5-year maximum mandate. It is too early 
        to tell what effect this will have as the deadlines are just 
        occurring. Since 20% of recipients can be excluded, this would 
        protect the ``hard to employ'' group that is extremely tough to 
        employ in a solid economy. In today's economy, the results 
        could be financially devastating to families and politically 
        devastating to legislators who vote for the legislation. We 
        would suggest a ``tiered mandate'' based on the unemployment 
        rate within a state. We suggest the state level because the 
        national economy is just that, national, and that means you can 
        have one area of the country booming, while another is in 
        recession.
        L4. Here are some suggested levels:

        0%-2.99% unemployment 20% exclusion
        3%-3.99% unemployment 30% exclusion
        4%-4.99% unemployment 40% exclusion
        5%-5.99% unemployment 50% exclusion
        6%-6.99% unemployment 60% exclusion
        7%-7.99% unemployment 70% exclusion
        8%-8.99% unemployment 80% exclusion
        9%-9.99% unemployment 90% exclusion
        10% or above 100% exclusion

        L5. One of the key reasons for ``hard to employ'' unemployment 
        is substance abuse and/or mental illness. We believe treatment 
        time should be included as a federally approved work activity.
        L6. We hope that you will continue to allow states to exempt 
        parents with children under age 1 from calculation in the work 
        participation rate.
        L7. We hope that you will continue to prohibit states from 
        penalizing parents with children under age 6 for not working if 
        childcare is not available.
        L8. Many, if not the majority of, businesses now consider 
        ``full-time'' to be less than 40 (32 or more) hours per week. 
        It is our suggestion that the programs should reflect the 
        realities of business, and that less than 40 hours per week 
        reflects the business reality. Furthermore, we suggest that 
        each hour spent in education towards a degree or certification 
        be considered 3 work hours. It is common knowledge that an hour 
        of classroom requires 2 hours outside the classroom in most 
        learning experiences. We also propose that women in their third 
        trimester of pregnancy be exempt from work requirements. 
        Businesses will not hire obviously pregnant women. Further, we 
        have almost delivered babies at our agency on two occasions 
        because women were required to be here for employment 
        activities.
        L9. We support child support enforcement efforts and strongly 
        encourage incentives to push for greater collection rates. We 
        support a federal commitment for Non-Custodial Parent 
        employment and training programming. Many non-custodial parents 
        have employment and training needs equal to those of custodial 
        parents. ``If you can't earn money, you can't support your 
        children''.

    We appreciate the opportunity to provide you with input on such 
important legislation prior to its dissemination in the House. Should 
you have any questions or thoughts, please feel free to reach me at 
616-382-0490 x231 or
            Sincerely,
                                                  John E. Dillworth
                              President and Chief Executive Officer

                                 <F-dash>

      Statement of Richard M. Green, M.D., Los Angeles, California
    Mr. Chairman and Members of the Subcommittee:
    While policymakers promote marriage for the poor, federal child 
support policy continues to tear apart middle-income families. States 
have managed to turn child support enforcement into a profit center by 
inflating guideline awards, boosting voluntary payments 
(``collections'') in middle-income cases, thereby maximizing federal 
incentive payments. According to the House Committee on Ways and Means 
2000 Green Book, in 1998 the Federal Government lost 1.4 billion 
dollars from child support enforcement activities, while the states 
earned 340 million dollars.
    Current state child support guidelines were actually designed for 
welfare cases, and do not take into account the costs of raising 
children at higher income levels. As a result they yield 
inappropriately high awards in non-welfare cases, far exceeding the 
costs of raising children in the custodial household.
    Excessive child support awards harm children and fathers because 
they discourage shared parenting. A divorcing mother is counseled by 
her attorney to minimize the father's parenting time in order to 
maximize her share of his future income. The father is then left with 
insufficient access to the children, and insufficient remaining income 
to maintain an adequate second home for them. State lawmakers routinely 
kill shared parenting legislation because child support collections 
would be reduced.
    In violation of welfare law, state child support guidelines are not 
being effectively reviewed to ensure that they result in economically 
appropriate awards. State and OCSE-sponsored child support guideline 
reviews are being performed by private child support collection 
companies, including Policy Studies, Inc., and Child Support 
Recoveries, Inc., which directly profit from high child support awards. 
Current welfare law fails to ban these glaring conflicts of interest, 
ensuring that state guidelines are never effectively reviewed and 
revised.
    Excessive child support awards encourage divorce, subsidize single 
mother-headed households, and marginalize fathers from the lives of 
their children. These effects are directly counter to the goal of 
marriage promotion.
    To protect fathers, children, and federal taxpayers from these 
continuing abuses, I respectfully request that you make the following 
(underlined) changes in welfare law (Title 42, Chapter 7, Subchapter 
IV, Part D, Section 667(a)):
    Sec. 667.--State guidelines for child support awards
    (a) Establishment of guidelines; method
    Each State, as a condition for having its State plan approved under 
this part, must establish guidelines for child support award amounts 
within the State. The guidelines must be established by law, and shall 
be reviewed at least once every 4 years by a guideline review panel to 
ensure that their application results in the determination of 
appropriate child support award amounts. The majority of members of the 
State guideline review panel must consist of neutral economic and 
financial professionals with no political or financial interest in 
child support guidelines, enforcement, or collection; a minority must 
consist of an equal number of representatives of payers and recipients 
of child support. An appropriate child support award amount is defined 
as one which allocates the basic, reasonable, marginal expenses of 
children in the custodial and non-custodial households equitably 
between the custodial and non-custodial parents.

                                 <F-dash>

                                                     April 16, 2002
Congressman Wally Herger
Chairman, Subcommittee on Human Resources
House Committee on Ways and Means

RE: TANF Reauthorization and Self Employment

To Chairman Herger,

    Thank you for all your hard work in representing our community and 
its residents in Siskiyou County in particular.
    As a member of the local workforce development collaboration and as 
director of a microenterprise development organization in Siskiyou 
County, I am writing to request your support of policy changes within 
the TANF Reauthorization that will help TANF recipients use self-
employment to successfully transition off TANF and toward economic 
self-sufficiency. The State and federal welfare reforms have been 
largely successfully in reducing child poverty, reducing the number of 
welfare case loads, and increasing the number of people leaving welfare 
and going to work. Part of the success is due to the flexibility and 
innovation opportunities afforded states and counties in determining 
the appropriate mix of services. Please continue to retain this 
flexibility and consider the following policy recommendations:

        <bullet> Enhancing the ability of states to clearly count 
        self-employment preparation as work activity
        <bullet> Creating a provision in the TANF statute specifying 
        that time spent in exploration of self employment be counted as 
        ``job search''
        <bullet> Creating a provision to allow states to ``stop the 
        clock'' for individuals who are meeting work requirements 
        through self or wage employment
        <bullet> Amend TANF statute to include language that signals 
        the importance of income and asset rules that support self-
        employment.

    These recommendations do not have revenue implications at the 
federal level. The recommendations are not asking for special status 
for microenterprise or self-employment, but rather to make it easier 
for states to support self-employment, and there is a lot of work going 
on in California to support self-employment as an option for TANF 
recipients and these recommendations would support those efforts. I 
have attached a more detailed description of these recommendations for 
your edification.
    Jefferson Economic Development Institute (JEDI) has been serving 
Siskiyou County residents of low income working to achieve economic 
self-sufficiency through self-employment for the past 6 years. JEDI's 
mission is to empower people and communities to create prosperity and 
provides small business development training, technical assistance, 
financing referrals and asset development opportunities to low-income 
people wanting to start or expand a business. In a distressed economy 
with fewer jobs available than the number of people needing a job, 
self-employment is an important option for people to create their own 
jobs, reduce their welfare receipt, and contribute to the local 
economy.
    JEDI participants offer a powerful example of how people with low 
incomes can become economically independent through self-employment and 
asset development opportunities. Between January 1997 and June 2001, 
JEDI had served 551 people, help start 148 businesses and expanded 63 
businesses, helped create 255 jobs. Eighteen percent of the 
participants were of low income at the time of intake and 22 of them 
had reduced or ended their use of public assistance over that time. 
Half of the business owners rely on income from the business to support 
at least half of their family household needs and 55 of them increased 
the amount of income they contribute to the household form a 
combination of business and wage earnings.
    In working with low income people struggling to survive in a 
distressed economy in transition, we know the importance of providing 
services that allow them to increase their incomes and build assets. 
The combination can help people leverage their way out of poverty. JEDI 
has just completed a successful Individual Development Account program 
that assisted 26 low-income people to save a cumulative amount of 
$26,000 over a two year period. Twenty participants have made 40 
investments with their IDA funds. Of the 40 investments, 36 have been 
for investment in their business and 4 have been to purchase first 
homes.
    I urge you to support policy changes within the TANF 
Reauthorization that will help TANF recipients use self-employment to 
successfully transition off TANF and toward economic self-sufficiency.
            Sincerely,
                                                     Nancy T. Swift
                                                 Executive Director
                                 ______
                                 
                             PRESS RELEASE
   Former AFDC Single Mom Purchases First Home to Expand Her Business
(Mt. Shasta, CA) ``You get into a rut, and don't want to do much--
you're thinking there's nothing out there for you,'' remembers Jennifer 
Weed. As a single mom with two children, Jennifer started out on AFDC 
years ago. Eventually she was transferred into the welfare-to-work 
Program, and worked with STEP (Siskiyou Training and Employment 
Program). It was during her time with STEP that she started her own 
childcare business from the small living room of her public housing 
assisted apartment. Her business grew, but she could only handle 4 to 6 
children in the tiny living room.
    Though she desperately needed to expand, ``The thought of saving 
for a house seemed way beyond my reach,'' Jennifer noted. She was now 
the proud owner of Jennifer's Helping Hands in-home child care of Mount 
Shasta, but still faced stifling limitations at every turn. When she 
heard about the Building Assets Program offered by Jefferson Economic 
Development Institute (JEDI), Jennifer jumped at the chance. She 
believes that God showed her this opportunity to overcome her 
impossible situation. ``The idea of having every dollar I saved matched 
with two dollars from a grant really inspired me to think bigger. I 
decided to take the Making Your Money Work For You class and join the 
Building Assets Program. I still had doubts and fears, but Nancy Swift, 
the course instructor, assured me that I could do it if I put my mind 
to it,'' Jennifer recalled. ``So I set my goals, learned to budget and 
started saving.''
    ``I knew that I also needed to improve my credit, and the class 
showed me how to write to my creditors and straighten things out. I 
also learned how to spend wisely, and how to save, even when I thought 
I couldn't,'' Jennifer offered. ``As I was putting money in my Building 
Assets account at Scott Valley Bank, I opened other accounts and 
started putting savings into them, too.'' Although the Building Assets 
Program added a match to her first savings account, she didn't stop 
there; she wanted to do all she could to get a home. Jennifer admitted 
it wasn't easy, but she was determined, ``I put the money in and tried 
to forget about it. I had set my goal and was sticking to it.''
    ``I got a lot of support from my parents, friends and JEDI to put 
the final deal together. Nancy did some research on different loans and 
put me in touch with Arlene Golden from North American Mortgage Co. She 
offered me a loan that was two percentage points better than what I had 
found. I used my Building Assets savings and match money for both the 
down payment and closing costs.''
    Now that she is in her new home, clients are amazed at the 
difference in the improved facilities she has for the children. ``My 
new living room has over 400 square feet for the kids to play. They 
also seem much happier, since they can get outside and safely run 
around, without being near a street. I now have a huge back yard and a 
swing set for them to play on.'' Jennifer's own daughter, Rebecca, is 
also much happier. Her mother believes that the increased personal 
space Rebecca now enjoys has contributed to a new sense of serenity, 
which has also improved her health. After years of treatment for ADHD 
with the drug Dexostat, Jennifer was able to cut her dose by more than 
half after their move to the new home. Now Rebecca only needs Dexostat 
once in a while at school, for the most part.
    Purchasing this house has allowed her to more than double the size 
of her childcare business. ``I have gone from accommodating six 
children to getting licensed by the state for 14. With the recent 
expansion, I'll be hiring another assistant. I am now better able to 
address the needs for childcare for infants and toddlers. Thanks to 
this new house, I have been able to grow my business.''
    JEDI is grateful to its funding partners who made this pilot 
program successful. They include Scott Valley Bank, California 
Statewide Certified Development Corporation, USDA Rural Development and 
the County of Siskiyou.

                                 <F-dash>

    Statement of Jennie Torres-Lewis Co-Chair, Latino Coalition for 
Families, and Vice-President, Public Policy Department, National Puerto 
   Rican Coalition, and Marisa Demeo, Co-Chair, Latino Coalition for 
   Families, and Regional Council, Mexican American Legal Defense & 
                            Educational Fund
    Thank you Chairman Herger and Members of the Subcommittee for 
holding this hearing and for accepting this testimony that I am 
presenting on behalf of the Latino Coalition for Families, an ad-hoc 
coalition of national organizations advocating for the advancement of 
Latino families. Coalition members include the American Federation of 
Labor and Congress of Industrial Organizations (AFL-CIO), the Labor 
Council for Latin American Advancement (LCLAA), MANA: A National Latina 
Organization (MANA), the Mexican American Legal Defense & Educational 
Fund (MALDEF), the National Campaign for Jobs & Income Support, the 
National Conference of Puerto Rican Women (NACOPRW), the National 
Council of La Raza (NCLR), the National Latina/o Lesbian, Gay, 
Bisexual, and Transgender Organization (LLEGO), the National Puerto 
Rican Coalition (NPRC), the National Puerto Rican Forum (NPRF), the 
Poverty and Race Research Action Council (PRRAC), and the Puerto Rican 
Legal Defense & Education Fund (PRLDEF), of which MALDEF and NPRC serve 
as Co-Chairs of the Latino Coalition for Families.
    The LCF was formed to provide recommendations for the 2002 federal 
reauthorization of Temporary Assistance to Needy Families (TANF). The 
coalition's top priorities for TANF include providing access for 
immigrants, overcoming language barriers for clients with limited 
English proficiency, and addressing disparities in Puerto Rico. In 
addition the agenda includes suggestions to improve child care and 
Medicaid eligibility, as well as expanding services for comprehensive 
sexual education and increasing the allotted hardship exemptions.
    All hard working families should have access to the tools that 
allow people to move from welfare-to-work and achieve independence. 
Latinos still lag behind other groups when examining poverty level, 
median income and unemployment rates. Latino families have not 
benefited from welfare reform to the same degree as other Americans for 
a variety of reason which include: immigration status, language and 
educational barriers, and residence in Puerto Rico. Many hard-working 
Latino families are not able to access welfare-to-work services despite 
the fact that they are supported by their tax dollars simply because 
one or more family members are immigrants. Even those that are eligible 
for services are uninformed due to a lack of material and multi-lingual 
services. Also, many services are not available for U.S. citizens 
living in Puerto Rico due to strict federal funding limitations. When 
these families fall on hard times because of illness or injury, they 
cannot access the assistance that would allow them to return to work. 
They are denied essential support services like childcare, health 
coverage, job-training, and education. English language training, in 
particular, is crucial for finding long term employment but many 
Latinos are denied this learning opportunity.
Language
    Title VI of the Civil Rights Act requires welfare agencies to 
provide linguistically accessible services if a sufficient number of 
their welfare recipients speak a language other than English. Executive 
Order 13166 and corresponding guidelines issued by the Department of 
Justice made compliance with Title VI clearer. Yet, over the past three 
years, the Office of Civil Rights (OCR) of the U.S. Department of 
Health and Human Services (DHHS) documented major violations of these 
provisions in various states.
    The Latino Coalition for Families recommends that TANF resources be 
spent assisting states and cities to reduce the language access 
barriers facing Latinos and others. Besides recruiting, hiring, and 
training bilingual/bicultural staff and translating materials, measures 
should be included in TANF legislation to integrate English language 
programs with employment preparation. Currently, most states fail to 
ensure that job training and adult education programs are accessible to 
LEPs, and thus LEPs are limited in employment opportunities.
Immigrants
    Historically we are an immigrant nation and still today our economy 
relies on the labor of the millions of immigrants who live and work in 
the United States. Despite their economic contributions and high 
workforce participation rate, Welfare Reform categorically denied 
immigrant families access to our national safety net. While some 
improvements were made over the years, such as the restoration of SSI 
and Food Stamp benefits for immigrants present in the United States 
before the passage of Welfare Reform, many lawfully present immigrants 
remain ineligible for basic safety net services supported by their own 
tax dollars. This denial of support based on immigrant status also 
hurts many American citizens because policies that restrict benefits to 
immigrants substantially affect their citizen children and spouses.
    The Latino Coalition for Families recommends that Congress restore 
nutritional and medical safety net benefits for lawfully present 
immigrants regardless of their date of entry including: Supplemental 
Security Income (SSI), Food Stamps, Medicaid, State Child Health 
Insurance Program (SCHIP) and Temporary Assistance for Needy Families 
(TANF). LCF also recommends that Congress extend benefits to vulnerable 
undocumented immigrants such as, pregnant women, abused or neglected 
children, victims of domestic violence, the elderly, and the disabled.
Puerto Rico
    Puerto Rico's obligations and regulatory requirements under TANF 
are the same as the states. However, resources available to the Island 
differ significantly from those available to other TANF grantees. 
Puerto Rico's TANF funding is limited by law because it falls under a 
single statutory cap that constricts total overall funding for three 
separate programs: TANF, IV-E, Foster Care, and Aged, Blind and 
Disabled Assistance (ABD). Similarly, Puerto Rico's Medicaid program is 
statutorily capped such that the federal contribution to the program 
covers only 15 percent of actual program costs, resulting in Puerto 
Rico being able to serve only individuals whose income is 50 percent of 
the poverty level (approximately $7,000/year for a family of three) or 
less. In addition, Puerto Rico has access to just two of the four Child 
Care Development Fund grants, being excluded from the Mandatory Grant 
and the Matching Grant portions. Likewise, Puerto Rico is statutorily 
excluded from the TANF supplementary Grant although it otherwise meets 
the requirement of receiving less than 35 percent of the national 
average of TANF funds per poor person. Because of these funding 
limitations, Puerto Rico's TANF grant is disproportionately low 
relative to its poor population and to other TANF grantees. In FY 2000 
the states received TANF grants that averaged $533.97 per person in 
poverty, while Puerto Rico's TANF grant is $34.78 per person in poverty 
per year.
    The Latino Welfare Coalition recommends that Congress remove 
barriers that exclude Puerto Rico from the TANF Supplementary Grant 
program and once barriers are removed exclude Supplementary Grants from 
the current TANF cap, as well as taking IV-E Foster Care out of the 
TANF cap. LCF also recommends that Congress remove barriers that 
exclude Puerto Rico from the Child Care and Development Fund and 
reimburse Puerto Rico for providing transitional medical assistance to 
TANF leavers outside of the current Medicaid Cap.
Conclusion
    In summary, LCF asks Congress: to fully restore benefits to Latino 
families who experience hard times; to provide language assistance for 
non-English speakers who are in the welfare process; to count English 
as a Second Language training as work under TANF for limited English 
proficient individuals to help them attain the skills that will allow 
them to move permanently from welfare-to-work; and to remedy the 
disparities in funding for Puerto Rico that limit access to funds for 
child care, transitional medical assistance, supplemental grants and 
contingency funds.
    Members of Congress, thank you for your time and attention.

                                 <F-dash>

                                                Legal Action Center
                                               Washington, DC 20002
                                                     April 23, 2002
The Honorable Wally Herger, Chairman
The Honorable Benjamin Cardin, Ranking Member
Human Resources Subcommittee
United States House of Representatives
Washington, D.C. 20515
    Dear Chairman Herger and Ranking Member Cardin:
    Thank you for the opportunity to submit testimony about the 
reauthorization of the Temporary Assistance for Needy Families (TANF) 
program. Legal Action Center is a nonprofit law and policy organization 
specializing in alcohol, drug, HIV/AIDS and criminal justice issues and 
represents the views of drug and alcohol treatment providers and 
consumers of those services nationwide.
    TANF recipients with alcohol and drug problems and criminal justice 
histories need treatment and other supportive services to make the 
expected transition to self-sufficiency. Numerous studies have 
demonstrated that treatment helps low-income mothers achieve recovery, 
decrease their use of welfare, and increase their earnings. We urge the 
House Ways and Means Committee to facilitate access to drug and alcohol 
treatment services by including the following provisions in its TANF 
reauthorization legislation:
For funding of TANF benefits and services:
        <bullet> Increase funding for the TANF program to provide both 
        supportive services and cash benefits.
        <bullet> Add alcohol and drug treatment to the list of defined 
        work activities that count toward an individual's work 
        requirement and toward a State's participation rate.
        <bullet> Repeal Medicaid's ban on reimbursement for 
        residential alcohol and drug treatment services.
        <bullet> Exempt alcohol and drug treatment from the definition 
        of ``medical services'' to allow States to improve their use of 
        TANF funds for treatment.
        <bullet> Create a ``promote treatment'' initiative that 
        provides financial incentives for States to expand assessment, 
        referral to treatment, and treatment services for TANF 
        recipients and custodial and non-custodial parents of TANF-
        eligible children.
        <bullet> Create a ``promote prevention'' initiative to provide 
        alcohol and drug prevention services for parents, particularly 
        teen parents, and children in TANF families who are at risk.
For TANF eligibility:
        <bullet> End the ban on TANF assistance and food stamps for 
        individuals with drug felony convictions, or narrow the ban so 
        it does not apply to those in treatment or recovery.
        <bullet> Add exceptions to the TANF and Medicaid sanction 
        provisions for recipients who are in treatment or willing to 
        enter treatment.
        <bullet> Exempt individuals in alcohol and drug treatment--or 
        on a waiting list to receive treatment--from the federal time 
        limit.
        <bullet> Codify current Medicaid procedures for ensuring 
        enrollment for eligible individuals who are leaving prison and 
        jail.
Addiction Among Welfare Families

    Most national studies have indicated that 10 to 20 percent of adult 
welfare recipients have alcohol and drug problems. (As a comparison, 
4.5 percent of American women reported past month drug use and 2.1 
percent reported heavy alcohol use in 1995.) <SUP>(1)</SUP> These 
studies were conducted before the implementation of TANF, however, and 
it is not clear whether they are generalizable to the current case 
load.
---------------------------------------------------------------------------
    \(1)\ Substance Abuse and Mental Health Services Administration. 
Substance Use Among Women in the United States. Rockville, Maryland: 
SAMHSA, 1997, p. 2-18.
---------------------------------------------------------------------------
    More recent studies have also found an elevated prevalence of 
addiction in TANF case loads. In February 2001, Multnomah County, 
Oregon, found that 13 percent of TANF applicants screened positive for 
having an alcohol or drug problem.<SUP>(2)</SUP> An Alameda County, 
California, study estimated that 10 to 22 percent of TANF recipients in 
1998 had an alcohol or drug problem.<SUP>(3)</SUP>
---------------------------------------------------------------------------
    \(2)\ ``Six-Month Report of A&D Activity Within AFS, Multnomah 
County,'' unpublished data, February 2001.
    \(3)\ R.S. Green, L. Fujiwara, J. Norris, S. Kappagoda, A. 
Driscoll, and R. Speiglman, ``Alameda County CalWORKs Needs Assessment: 
Barriers to Working and Summaries of Baseline Status.'' Berkeley, 
California: Public Health Institute, February 2000, p. 8.
---------------------------------------------------------------------------
Cost-Effectiveness of Alcohol and Drug Treatment for Welfare Families

    Studies have shown that alcohol and drug treatment programs provide 
effective and cost-effective services, despite limitations in funding. 
Specifically, current treatment capacity can meet only about half of 
the demand--even less for low-income women.
    Programs serving women with children, including women on welfare, 
have demonstrated many positive outcomes, including increased 
employment and earnings and decreased use of public assistance. Key 
findings include:

        <bullet> The benefits of treating welfare recipients in 
        California exceeded costs by more than two and one-half 
        times.<SUP>(4)</SUP> The authors of the study considered this 
        ratio an underestimate because post-treatment employment and 
        earnings data were deflated by a recession in the State at the 
        time of the study.
---------------------------------------------------------------------------
    \(4)\ D.R. Gerstein, R.A. Johnson, and C.L. Larson, ``Alcohol and 
Other Drug Treatment for Parents and Welfare Recipients: Outcomes, 
Costs, and Benefits.'' Washington, DC: Department of Health and Human 
Services, 1997, p. 39.
---------------------------------------------------------------------------
        <bullet> An Oregon study found that treatment completers 
        received 65 percent higher wages than those who didn't complete 
        treatment, with the difference due to improved earning power 
        and an increase in the number of weeks worked. Increases were 
        recorded in all treatment modalities, but highest in methadone 
        maintenance.<SUP>(5)</SUP>
---------------------------------------------------------------------------
    \(5)\ M. Finigan. ``Societal Outcomes & Cost Savings of Drug & 
Alcohol Treatment in the State of Oregon.'' Salem: Office of Alcohol 
and Drug Abuse Programs, Oregon Department of Human Resources, 1996, p. 
16.
---------------------------------------------------------------------------
        <bullet> A Washington State study found that indigent clients 
        who completed treatment worked more and earned more than those 
        who did not. Treatment completers earned an average of $403 per 
        month, compared to non-completers, who earned an average of 
        $265.
        <bullet> A Minnesota study reported that among clients treated 
        with public funds, 41.2 percent were employed full time after 
        treatment, compared to 23.1 percent before.<SUP>(6)</SUP>
---------------------------------------------------------------------------
    \(6)\ C. Turnure, ``Implications of the State of Minnesota's 
Consolidated Chemical Dependency Treatment Fund for Substance Abuse 
Coverage under Health Care Reform.'' Testimony to the Senate Labor & 
Human Resources Committee, March 8, 1994, p. 5.
---------------------------------------------------------------------------
Criminal Records Among TANF Recipients

    Many women involved in the criminal justice system have alcohol and 
drug problems and will need treatment and other services to make the 
transition to employment. However, few studies have examined whether 
individuals involved in the criminal justice system are receiving 
welfare assistance (either before their incarceration or while on 
parole or probation) or whether those receiving welfare assistance are 
or have been involved in the criminal justice system.
    A 1997 study found that many mothers in State and federal prisons 
received welfare benefits before being incarcerated. A total of 41 
percent of mothers in State prison and 33 percent of mothers in federal 
prison reported receiving welfare before being 
incarcerated.<SUP>(7)</SUP>
---------------------------------------------------------------------------
    \(7)\ Christopher J. Mumola, ``Incarcerated Parents and Their 
Children.'' Washington, DC: Bureau of Justice Statistics, August 2000, 
p. 10.
---------------------------------------------------------------------------
    A study in Alameda County, California, found that 20 percent of 
adult TANF recipients had been convicted of a crime, about 10 percent 
had been convicted of two or more crimes, and 10 percent had been 
convicted of a felony since the age of 18.<SUP>(8)</SUP> The study did 
not report on the nature of the convictions.
---------------------------------------------------------------------------
    \(8)\ R.S. Green, et. al., op. cit., p. 37.
---------------------------------------------------------------------------
Effectiveness of Employment Programs for Ex-Offenders

    Findings from evaluations over the last 20 years indicate that 
employment programs for ex-offenders have increased their employment 
and earnings and reduced their recidivism. Key findings include:

        <bullet> A study of New York City's Wildcat program, 
        ``Supported Work,'' which provided jobs and job training to 
        chronically unemployed former heroin addicts and criminal 
        offenders, demonstrated increased employment and pay for 
        recovered addicts and lower arrest rates among those employed 
        in both the experimental and control groups.<SUP>(9)</SUP>
---------------------------------------------------------------------------
    \(9)\ L.N. Friedman, The Wildcat Evaluation: An Early Test of 
Supported Work in Drug Use Rehabilitation. Rockville, Md.: National 
Institute on Drug Abuse, 1978. The project had financial support from 
the US Department of Labor, National Institute on Drug Abuse, Ford 
Foundation, Law Enforcement Assistance Administration, and New York 
City Department of Employment.

        <bullet> A 1988 study of the effectiveness of Illinois prison 
        programs found that those who obtained vocational training and 
        education had higher employment and fewer 
        arrests.<SUP>(10)</SUP>
---------------------------------------------------------------------------
    \(10)\ D.B. Anderson, et. al., ``Correctional Education A Way to 
Stay Out: Recommendations for Illinois and a Report of the Anderson 
Study.'' Illinois Council on Vocational Education, 1988.

        <bullet> An evaluation of the Texas Project Re-Integration of 
        Offenders (RIO) program, which helps parolees find jobs, 
        reported that 69 percent of participants found employment, 
        compared with 36 percent of a matched control group. During the 
        year after release, 23 percent of RIO participants returned to 
        prison, compared to 38 percent in the control group, which 
        saved the State $15 million in 1990.<SUP>(11)</SUP>
---------------------------------------------------------------------------
    \(11)\ P. Finn, ``Job Placement for Ex-Offenders: A Promising 
Approach to Reducing Recidivism and Correctional Costs,'' NIJ Journal, 
July 1999.
---------------------------------------------------------------------------
Recommendations for TANF Reauthorization

    TANF recipients with alcohol and drug problems and/or criminal 
justice histories need supportive services, including treatment and 
vocational training, to make the expected transition to work. If they 
do not receive these services, they may not be able to meet their TANF 
work requirements and may be more likely to have their benefits reduced 
or cut off or reach their time limit without being able to work and 
take care of their family. Faced with a loss of benefits and a lack of 
employment, these families could experience greater poverty and 
deprivation--even dissolution.
    Without continued success in moving TANF recipients to work, States 
could face penalties for not meeting their work participation 
requirements or for having too many families on assistance for more 
than 60 months. States could also face supporting these individuals and 
their families in State-only welfare programs <SUP>(12)</SUP> or in 
other, more expensive systems supported by State dollars, such as 
criminal justice and foster care.
---------------------------------------------------------------------------
    \(12)\ A study in one California county found that addiction was a 
stronger predictor of repeat use of general assistance than of federal 
welfare assistance. L. Schmidt, C. Weisner, and J. Wiley, ``Substance 
Abuse and the Course of Welfare Dependency,'' American Journal of 
Public Health, Vol. 88 (1998), pp. 1616-1622.
---------------------------------------------------------------------------
    Together, these negative effects--on TANF recipients and State and 
local governments--could erode the success of welfare reform, as well 
as other federal and State poverty reduction initiatives.
Recommendations on Benefits and Services

        <bullet> Increase funding for the TANF program to provide both 
        cash benefits (assistance) and supportive services (non-
        assistance), especially in light of the effects of the 
        September 11th terrorist attacks.

    Increasing the TANF program's funding will allow States to continue 
to provide assistance to those who need it during the current economic 
downturn. It will also give States a secure source of funding to begin 
and expand initiatives to provide services (``non-assistance'') to help 
TANF recipients address barriers to self-sufficiency.
    Several States, for example, are using TANF funds to identify low-
income adults with alcohol and drug problems and refer them to 
treatment, including Illinois, Kansas, Kentucky, Maryland, Minnesota, 
New York, New Jersey, North Carolina, Oregon, Tennessee, and Utah. At 
least one other State, New York, has begun to allocate TANF funds to 
programs to help divert appropriate individuals from prison into 
treatment and welfare-to-work services.

        <bullet> Adding alcohol and drug treatment to the list of 
        defined work activities that count toward an individual's work 
        requirement and toward a State's participation rate.

    Presently, the federal law lists 12 activities that can satisfy an 
individual's work requirement and count toward the State's minimum work 
participation rate.<SUP>(13)</SUP> Alcohol and drug treatment is not on 
the list.
---------------------------------------------------------------------------
    \(13)\ Sec. 407(d).
---------------------------------------------------------------------------
    Including treatment in the definition of work that can count toward 
a State's participation rate will help States both to engage TANF 
recipients in a broader range of work preparation activities and move 
addicted recipients to sobriety and work while and still meeting their 
federal participation rates. The change will also help TANF recipients 
better coordinate their treatment and work requirements--since they 
will be able to perform them in the same program.
    Presently, H.R. 4090 and H.R. 3625 would count drug and alcohol 
treatment as work for up to three and six consecutive months, 
respectively. Thank you for including these provisions in your 
legislation. However, we recommend that drug and alcohol treatment be 
permitted to count as work for as long as necessary and appropriate in 
order for individuals to achieve recovery and the ability to go to 
work, education, or training.

        <bullet> Repeal Medicaid's ban on reimbursement for 
        residential alcohol and drug treatment.

    A key barrier to alcohol and drug treatment for TANF recipients is 
the Medicaid program's ``Institutions for Mental Diseases'' (IMD) 
exclusion. IMDs are inpatient treatment facilities (including non-
hospital residential programs) with more than 16 treatment beds for 
individuals with ``mental diseases,'' with addiction being included in 
the definition of ``mental disease.''
    The exclusion prohibits reimbursement for any service provided in 
an IMD or for any service provided to an IMD patient in a non-IMD 
setting for individuals between the ages of 22 and 64. For example, 
Medicaid will not cover prenatal care--either inside or outside the 
facility--for woman in a residential alcohol or drug treatment program 
with 16 or more treatment beds.<SUP>(14)</SUP> For facilities under 16 
beds, treatment can be covered by Medicaid, but not room and board.
---------------------------------------------------------------------------
    \(14)\ Beds for children in women's residential treatment programs 
do not count toward the 16-bed limit. Memo from Acting Medicaid Bureau 
Director Rozann Abato to HCFA regional administrators, June 23, 1993.
---------------------------------------------------------------------------
    Excluding addiction from the definition of ``mental disease'' would 
significantly increase access to residential treatment for women with 
children, who are the majority of TANF recipients, increasing their 
likelihood of achieving recovery and moving from welfare-to-work.

        <bullet> Exempt alcohol and drug treatment from the definition 
        of ``medical services'' to allow States to improve their use of 
        TANF funds for core treatment services.

    States are not currently allowed to use TANF funds for ``medical 
services,'' <SUP>(15)</SUP> with the TANF final rule leaving it up to 
States to define the term.<SUP>(16)</SUP> While this gives States 
flexibility, the lack of a clear definition has left some State welfare 
directors reluctant to invest TANF in core alcohol and drug treatment 
services, such as counseling (covered in some State Medicaid plans) for 
fear of being penalized for misuse of funds.<SUP>(17)</SUP> This is 
problematic for States that are doing active outreach and screening 
because they will find more people needing treatment but will not be 
able to increase core treatment slots.
---------------------------------------------------------------------------
    \(15)\ Sec. 408(a)(6).
    \(16)\ Preamble language, 64 Federal Register 17840 (April 12, 
1999).
    \(17)\ Personal communication from welfare officials in several 
States and localities.
---------------------------------------------------------------------------
    Left as is, the ban acts as an unnecessary barrier to TANF 
investment in alcohol and drug treatment. Change would enhance State 
flexibility, as well as help close the treatment gap for women with 
children.

        <bullet> Create a ``promote treatment'' initiative that gives 
        States a financial incentive to expand assessment, referral to 
        treatment, and treatment services for TANF recipients and non-
        custodial parents of TANF-eligible children.

    The law currently gives States financial incentives to reduce non-
marital births, meet work participation requirements (through a 
reduction in the ``maintenance of effort'' requirement), achieve high 
levels of performance on TANF goals, and other outcomes deemed 
nationally desirable. Financial incentives should also be used to 
encourage States to implement initiatives that focus programmatic 
energy on improving work-related outcomes for TANF recipients with 
alcohol and drug problems and/or criminal justice histories. States 
would not be required to participate (so this would not be an unfunded 
mandate) but could be eligible for supplemental funding or matching 
funding if they did.

        <bullet> Create a ``promote prevention'' initiative to provide 
        alcohol and drug prevention for parents, particularly teen 
        parents, and children in TANF families who are at risk.

    For adolescents, alcohol and drug use is associated with a range of 
negative health and social outcomes, including risky sexual behaviors 
that can lead to unplanned pregnancy, HIV/AIDS, and long-term welfare 
participation for the entire family. Risks can be even higher for 
adolescents whose parents have alcohol and drug problems, because they 
are statistically more likely to develop alcohol and drug problems 
themselves.
    Both children and young parents in TANF families should have access 
to prevention and early intervention services designed specifically for 
them. These services can help young parents reduce their alcohol and 
drug use so they can finish school, work, and take care of their 
children. These services can also help children avoid alcohol and drugs 
and the related health and social problems that can lead to reliance on 
welfare. In turn, this will decrease welfare and child welfare case 
loads and costs, as well as build healthier individuals, families, and 
communities.
    The law currently funds abstinence education, which is required to 
include a component that teaches adolescents how ``alcohol and drugs 
can increase their vulnerability to sexual advances.'' <SUP>(18)</SUP> 
But more is needed, including family-based services, which are 
identified as key for child and adolescent prevention 
programming.<SUP>(19)</SUP>
---------------------------------------------------------------------------
    \(18)\ Sec. 912(b)(2)(G).
    \(19)\ National Institute on Drug Abuse. Preventing Drug Use Among 
Adolescents: A Research-Based Guide. Rockville, Maryland: NIDA, 1997.
---------------------------------------------------------------------------
    Funding should be directed to the Center for Substance Abuse 
Prevention (CSAP) (part of the Substance Abuse and Mental Health 
Services Administration, or SAMHSA), the lead federal agency on 
prevention, for this purpose. The program should require evaluation 
(including identification of model practices) and be coordinated with 
other prevention activities for these families administered by ACF, 
other agencies in the Department of Health and Human Services, the 
Office of Juvenile Justice and Delinquency Prevention (OJJDP), and the 
Department of Education.
Recommendations on Eligibility

        <bullet> End the ban on eligibility for TANF assistance and 
        food stamps for individuals with drug felony convictions, or 
        narrow the ban so that it does not apply to those in drug and 
        alcohol treatment or recovery.

    Under the law, individuals with drug felony convictions are not 
eligible for TANF assistance and food stamps, unless the State they 
live in enacts legislation to opt out of or narrow the 
ban.<SUP>(20)</SUP> The ban applies to convictions where the conduct 
and the conviction occurred after August 22, 1996, and lasts for the 
person's lifetime.
---------------------------------------------------------------------------
    \(20)\ Sec. 115, as amended by Sec. 5516 of the Balanced Budget Act 
of 1997 (P.L. 105-33).
---------------------------------------------------------------------------
    If a State does not ``opt out,'' no one is exempt from the ban, not 
even pregnant women or individuals participating in treatment. The ban 
is permanent and continues regardless of an individual's successful job 
history, participation in drug treatment, or abstinence from drug use.
    Federal action to end the ban or narrow it would replicate action 
taken by a majority of States. A total of eight States (and the 
District of Columbia) have opted out completely--Connecticut, Michigan, 
New Hampshire, New York, Ohio, Oklahoma, Oregon, and Vermont. Another 
19 States--including Florida, Illinois, Iowa, Maryland, Washington, and 
Wisconsin <SUP>(21)</SUP>--have narrowed the ban's scope, most commonly 
by exempting individuals in treatment (or who are on a waiting list for 
treatment or have finished treatment or achieved recovery).
---------------------------------------------------------------------------
    \(21)\ Legal Action Center, Getting to Work: How TANF Can Support 
Ex-Offender Parents in the Transition to Self-Sufficiency. Washington, 
DC: LAC, 2001. Kentucky has since enacted legislation to narrow the 
ban.
---------------------------------------------------------------------------
    Left unmodified at the federal level, the ban reduces access to 
alcohol and drug treatment in 24 States. In fact, a study (of eight 
women's residential programs in California) found that providers 
reported that their loss in monthly revenue ranged from none to 25 to 
30 percent.<SUP>(22)</SUP> (Treatment programs, particularly 
residential programs, have traditionally relied on a family's welfare 
and food stamps to help fund room and board.)
---------------------------------------------------------------------------
    \(22)\ A. Noble and E. Zahnd, ``The Gramm Amendment to Welfare 
Reform: Problems for Women's Residential Treatment Providers and Their 
Clients.'' Davis: University of California, January 2000.
---------------------------------------------------------------------------
    Unmodified, the ban also acts as an impediment to recovery for 
individual women because it denies them support as they are leaving 
treatment and re-entering the community. Repealing it gives them the 
means, as well as the incentive, to stay in treatment.

        <bullet> Add exceptions to the TANF and Medicaid sanctions for 
        recipients who are in treatment or willing to enter treatment.

    Some TANF recipients with alcohol and drug problems who are trying 
to become self-sufficient through treatment may have difficulty 
complying with their work requirements, either because their addiction 
interferes with their ability to work or because their treatment 
schedule conflicts with their work or training schedule. Ending their 
eligibility for TANF and Medicaid virtually ensures that they will not 
be able to make the transition to recovery and self-sufficiency.
    Those who are in treatment--or on a waiting list to receive 
treatment--should be able to retain their TANF and Medicaid so they can 
continue to afford treatment. Without it, they may not be able to learn 
the recovery and vocational skills they need to achieve self-
sufficiency.

        <bullet> Exempt individuals in alcohol and drug treatment_or 
        on a waiting list to receive treatment_from the federal time 
        limit.

    Without treatment, few welfare recipients with alcohol and drug 
problems will be ready to work when they reach their time limit on 
federal assistance. Unfortunately, in many communities, individuals 
needing treatment and willing to enter it cannot--because it is not 
available.
    Providing incentives for welfare recipients with alcohol and drug 
problems to enter and stay in treatment will help them become ready to 
work. Exempting TANF recipients in alcohol and drug treatment from the 
federal time limit gives them incentive to enter treatment and to stay 
in treatment. It also gives States more flexibility to engage TANF 
recipients in treatment as a work-promoting activity for as long as 
necessary, regardless of whether the State has reached its 20 percent 
hardship exemption maximum.

        <bullet> Codify current Medicaid procedures for ensuring 
        enrollment for eligible individuals who are leaving prison and 
        jail.

    Current HHS policy <SUP>(23)</SUP> states that incarcerated 
individuals must be returned to Medicaid enrollment immediately upon 
their release unless the State determines they are no longer eligible. 
Few States, however, seem aware of this requirement. A 2001 study found 
46 States and two territories have policies that require termination of 
Medicaid supports for people in jail, meaning that these individuals 
must complete the Medicaid application process again when released and 
wait for a decision and benefits.<SUP>(24)</SUP>
---------------------------------------------------------------------------
    \(23)\ Letter from Secretary of Health and Human Services Tommy G. 
Thompson to Representative Charles L. Rangel, October 1, 2001.
    \(24)\ C. Brown, ``Jailing the Mentally Ill,'' State Government 
News, April 2001, p. 28.
---------------------------------------------------------------------------
    Many women leaving prison and jail reunite with children (whom they 
left with relatives) and would likely continue to be eligible for 
Medicaid. Many also having pressing medical conditions--such as mental 
illness, HIV, and alcohol and drug problems--that if left untreated 
would decrease their chances of working and achieving self-sufficiency.
            Sincerely,
                                                   Jennifer Collier
                     Director of National Policy and State Strategy

                                 <F-dash>

  Statement of Pamela Loprest, Senior Research Associate, and Sheila 
Zedlewski, Director, Income and Benefits Policy Center, Urban Institute
    TANF's emphasis on work has improved the economic well-being of 
millions of families. But many welfare recipients are not yet employed 
and need greater assistance finding work. Reauthorization provides 
Congress the opportunity to build on initiatives that help make TANF 
work for these harder-to-serve groups. Several reauthorization measures 
would encourage states to build on recent initiatives focused on the 
hardest to serve part of their case loads:

        <bullet> State performance bonuses. Awarding performance 
        bonuses to states that implement innovative services for the 
        disabled would likely spur new programs.
        <bullet> Broader definition of work. Allowing states to make 
        participation in rehabilitation and remedial education programs 
        legitimate work activities would ease unrealistic time limits 
        for persistent cases.
        <bullet> Increase case load exemptions. An increasing number 
        of hard-to-serve individuals will hit their benefit time limits 
        in the years ahead. Allowing states that demonstrate need and 
        take steps toward reducing work barriers to exempt a larger 
        share of case loads from time limits would support state 
        efforts to assist hard-to-serve TANF recipients.
        <bullet> Improvements to non-TANF programs that help the 
        disabled. Improving and simplifying the SSI application process 
        would help states get aid to the most disabled more quickly. In 
        addition, reimbursing states for TANF benefits paid to 
        individuals who ultimately qualify for SSI would boost states' 
        resources and their commitment to the application process
        <bullet> Welfare reform's toughest challenges still lie ahead. 
        Following the 1996 reforms, states moved welfare recipients 
        into jobs--any jobs--as quickly as possible, a strategy 
        facilitated by the strong economy. More recently, states have 
        paid greater attention to two harder-to-serve groups: welfare 
        recipients facing expiring time limits on benefits and former 
        recipients who are not working.

    According to the Urban Institute's 1999 National Survey of 
America's Families (NSAF), long-term welfare recipients and former 
recipients who are not working face significant job barriers. About 
half the 2 million adults on welfare had been receiving benefits 
continuously for at least two years. Almost 40 percent of these 
individuals reported being in very poor health, more than a third had 
not worked in recent years, and half did not finish high school (see 
the figure). Other common job barriers for long-term welfare recipients 
(not shown in the figure) include caregiving responsibilities, language 
barriers, and domestic violence.
    Additional NSAF findings show that one in seven adults that left 
welfare between 1997 and 1999 were jobless leavers--that is, they had 
no connection to the labor market either through recent work or a 
working spouse and did not receive disability benefits (Loprest 2002). 
Jobless leavers had barriers similar to those of long-term welfare 
recipients. For example, almost half the jobless welfare leavers had 
not worked in three or more years, and half were in very poor health. 
These findings raise questions about why a sizable portion of former 
recipients left welfare in the first place. Among those who left 
welfare without a job, about 40 percent said they left because of 
administrative reasons, more than double the number of working former 
recipients giving the same explanation. This finding suggests that the 
barriers that keep some individuals jobless may also hamper their 
ability to navigate TANF's eligibility rules and requirements.
    States do not rely only on welfare to serve groups with significant 
work barriers. The Federal Government offers cash assistance to states' 
most disabled clients through Supplemental Security Income (SSI). The 
incentive to tap SSI instead of welfare has increased under TANF 
because each marginal welfare dollar comes directly out of state 
budgets. But several features of SSI limit the program's usefulness in 
serving disabled welfare recipients. First, it is available only to 
individuals who cannot do any type of work. Second, a 1994 revision to 
SSI ending eligibility for substance abusers narrowed the program's 
scope. Third, even among those who do qualify, the process often takes 
more than a year and requires up to three applications before benefits 
are awarded (Social Security Advisory Board 2001). Many states report 
that they do not have the time or the staff to keep the process moving 
efficiently.
    Most TANF clients with substantial barriers to work are not 
eligible for SSI, and states' welfare programs have always served the 
hard to employ. The old entitlement framework, however, did little to 
reduce long-term dependence on cash assistance. TANF--in part because 
it allows states to exempt only 20 percent of their case load from time 
limits--gives states greater incentive to help the hard to serve move 
to work.
    To serve individuals with work barriers who do not qualify for SSI, 
some pioneering states now use TANF funds to directly address 
employment challenges. These states identify disabled clients' needs 
before the clock runs out and place them in programs that address 
health issues and learning disabilities. Some TANF programs are 
establishing partnerships with local vocational rehabilitation, mental 
health, and substance abuse programs. To reach individuals who have 
slipped through the system's cracks, some states try to locate 
individuals who have left welfare and offer them the new services.
    Unfortunately, these new TANF strategies were just gaining a 
foothold in 2001, right before many states' case loads began rising. 
Recent increases in the demand for cash assistance threaten states' 
capacity to help the hard to serve, especially since adult mental, 
physical, and learning disabilities typically require costly, long-term 
therapies. Congress must consider the needs of the hard to serve and 
states' ability to provide effective services that address barriers to 
work when they consider TANF reauthorization.




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               References
    Loprest, Pamela J. 2002. ``Making the Transition from welfare-to-
work: Successes but Continuing Concerns.'' In Welfare Reform: The Next 
Act, edited by Alan Weil and Kenneth Finegold (17-23). Washington, 
D.C.: Urban Institute Press.
    Social Security Advisory Board. 2001. ``Charting the Future of 
Social Security's Disability Programs: The Need for Fundamental 
Change.'' January. Washington, D.C.

As noted above, this statement reflects the views of the authors and 
does not necessarily represent the views of the Urban Institute, its 
sponsors, or its Board of Trustees.

                                 <F-dash>

 Statement of Michael J. McManus, President, Marriage Savers, Potomac, 
                                Maryland
    President George Bush made the most important statement about 
marriage of any president ever when he unveiled his plans to make 
marriage the next reform of welfare reform. He acknowledged that 
``Single mothers do heroic work,'' but added, ``Their lives and their 
children's lives would be better if their fathers had lived up to their 
responsibilities.'' Applause erupted from largely black crowd at a 
Catholic Church in Southeast Washington.
    The President said, ``Statistics tell us that children from two 
parent families are less likely to end up in poverty, drop out of 
school, become addicted to drugs, have a child out of wedlock, suffer 
abuse or become a violent criminal and end up in prison. So my 
Administration will give unprecedented support to strengthening 
marriages,'' a remarkable statement that sparked hearty applause.
    Bush noted that there are ``many good programs help couples who 
want to get married and stay married. Premarital programs can increase 
happiness in marriage and reduce divorce by teaching couples how to 
resolve conflict, how to improve communication and, most importantly, 
how to treat each other with respect.''
    The President is right. My wife and I created such a program in our 
church and have taken it to hundreds of churches in scores of cities. 
Since 1992 in our Bethesda, MD church, we trained 59 couples to mentor 
those preparing for marriage. We administer FOCCUS, a premarital 
inventory that surfaces up to 192 issues for discussion. The man and 
woman meet separately and write down whether they agree or disagree 
with statements like these:

        ``I am concerned that sometimes my future spouse spends money 
        foolishly.
        ``I am uncomfortable with the amount my future spouse drinks.
        ``At times I am concerned about the silent treatment I get from 
        my future spouse.''

    A computer report compares what the man and woman said, noting 
agreements and conflicts. It can predict with about 80% accuracy who is 
likely to divorce or have a solid marriage. And a tenth of the couples 
who take a premarital inventory, break their engagement. Those who do 
have the same scores as those who marry and later divorce. Thus, 
couples who break up before a wedding are avoiding a bad marriage 
before it begins.
    In our church we have added the element of trained mentor couples 
who have been married more than 30 years on average. They devote five 
evenings to talk through every issue as well as assign a dozen 
exercises to ``teach them how to resolve conflict, how to improve 
communication,'' as the President put it.
    With what result? Of 302 couples who signed up through 2000, 21 
dropped out (mostly to break up) and 34 additional couples completed 
the course, but broke up before there was a wedding. However, of those 
who married, there have been only seven divorces in a decade. That's a 
2.5 percent failure rate!
    The President praised another form of couple mentoring: ``There are 
also programs for couples with serious problems . . . alcoholism, 
infidelity or gambling. Trained mentor couples who have experienced 
severe marital problems themselves now teach other couples how to 
repair their own marriages. Using this approach, one national program 
reports being able to save up to 70 percent of very troubled 
marriages.'' That describes Retrouvaille (800 470-2230), a weekend 
retreat attended by 65,000 couples. On average it saves four out of 
five marriages. Bush was also describing a similar parish based couple 
mentoring program called ``Marriage Ministry,'' that uses trained 
``back-from-the-brink couples,'' which actually saves 90 percent of 
shaky marriages!
    Finally, Bush proposed $300 million ``to support innovation and 
fund programs which are most effective.'' Why? ``Strong marriages and 
stable families are incredibly good for children.''
    Of course, critics have surfaced. I would like to quote them, and 
provide my answers:

1. Money:
    ``It is unconscionable to reallocate already inadequate Temporary 
Assistance to Needy Families (TANF) fund to policies designed to 
promote marriage,'' says Stephanie Coontz and Nancy Folbre, professors 
at Evergreen State College and the University of Massachusetts, in a 
speech they will give at the Council on Contemporary Families April 26-
28. Others have noted this money could be spent on day care, job 
training

FACT: According to the Congressional Research Services' August 10, 2001 
report, ``Welfare Reform: TANF Grants, Transfers and Unspent Funds 
through FY 2000,'' there was a total of $8.6 billion of unspent TANF 
Funds that the states could spend on day care, job training, etc. While 
some of that was set aside for ``rainy day'' funds to be used in case 
of an economic slowdown, $3.2 billion of those funds were ``unobligated 
reserves.'' Thus, even the lower figure is ten times as much money 
already available to the states as the Bush Administration is proposing 
to spend to promote marriage. And the $300 million being sought for 
marriage demonstration programs would not be reallocated TANF funds.

2. Marriage is private:
    David Boaz, of the conservative Cato Institute, was critical: 
``Marriage is one of the most intimate associations in our lives, and 
the government should stay out of it.''

FACT: First, government grants both marriage licenses and divorces. It 
is already involved. Further, nothing could be more intrusive than the 
orders given to a father in a divorce. He is told when he can see his 
children and for how long. A certain percent of his income must be paid 
in child support, even if the mother and children move far away 
preventing him from any regular access to his children. He even may 
have a restraining order forbidding him from seeing his children or 
talking to them on the phone. Billions are spent annually to enforce 
child support.

3. Forcing marriage to abusive fathers:
    NOW President Kim Gandy asserts: ``To say to these women, where the 
father of their children has abandoned them or abused them, `You've got 
to track him down and marry him or your check is going to be reduced,' 
that's terrible.' ''

FACT: No one has proposed reducing the welfare check of a woman who 
does not marry the father, and no one has proposed marrying an abusive 
father. Indeed, HHS Assistant Secretary Wade Horn, who oversees 
welfare, replies, ``We're going to support activities that help couples 
who choose marriage for themselves develop the skills and knowledge 
necessary to form and sustain a healthy marriage.'' Who could 
reasonably object to that?

4. ``We don't need to encourage more people to marry:''
    Isabel Sawhill, a senior fellow at the Brookings Institution, made 
this claim in an article, ``Is Lack of Marriage the Real Problem?'' in 
a special issue of The American Prospect ``The Politics of Family,'' in 
the current edition. She writes: ``The problem is not that people don't 
marry. Ninety percent of all American women are married by the age of 
45.''

FACT: Her number was not correct even a generation ago, nor is it 
today. The Census reports in America's Families and Living Arrangements 
2000, issued in June, 2001 that nearly two in ten have not married by 
age 45, specifically, 18.1%. More alarming, another 15.5% of men and 
women were unmarried between the ages of 35 and 45, almost triple the 
6.1% of the unmarried in this age bracket in 1970. Many of them will 
never marry. The fact is marriage rates have plunged in this country. 
In 1960, 66% of Americans were married and living together, but only 
53% were married and sharing a home in 2000.
    Why? Cohabitation has become the dominant way male-female unions 
are formed. In 2000, 4.9 million couples were living together, 
according to the Census at any moment in time, That is 11 times the 
430,000 doing so in 1960. By contrast, there are only 2.3 million 
marriages in an entire year.

FACT: Cohabitation is the problem. It is a triple cancer of marriage:

        <bullet> Cohabitation has diverted millions from getting 
        married at all. In 1970, only 21 million Americans had never 
        married; by 2000 the figure jumped 124% to 47 million, while 
        population grew by only 38%.
        <bullet> Cohabitating before marriage increases the odds of 
        divorce by 50% compared to those who have never lived together, 
        according to the University of Wisconsin.
        <bullet> Fully 41% of cohabiting couples have a child, which 
        is far more likely to spark a breakup than a marriage. Indeed, 
        as cohabitation has soared 11-fold since 1960, out-of-wedlock 
        births have also shot up from 5% of all births to 33% in 2000. 
        While welfare reform has been successful in cutting welfare 
        rolls by 58%, the illegitimacy rate has continued to rise. In 
        1996, when welfare reform was passed, 1.26 million babies were 
        born out-of-wedlock, or 32.4% of all births. In 2000 the figure 
        rose to 1,346,000 births or 33.1% of births.

    Isabel Sawhill asserts the problem is out-of-wedlock births to 
teens: ``Although only 30% of all out-of-wedlock births are to teens, 
half of first out-of-wedlock births are to women under age 20.'' 
However, half of first births are not to teens, and the Princeton 
Fragile Families study reports that more than half of those births were 
to cohabiting parents. As I see it, the primary problem is the 
cohabitation of adults, who have babies out of wedlock.

5. Marriages won't solve the problem:
    ``Will more marriages solve this problem? Hardly. Marriages among 
teenagers are notoriously unstable,'' Ms Sawhill asserts.
    However, nearly a million births to unmarried mothers are aged 20 
or older, with 449,000 over age 25. More than half who are cohabiting 
and another third are romantically involved, with the father at the 
time of the birth. Why shouldn't we encourage those couples to marry? 
Let's be honest. If they do not marry the father of their child, the 
odds are they will be a single mom the rest of their lives. Few men 
want to marry a woman with another man's child. So their real choice is 
marry the father of their child or never marry. These couples would be 
much better off getting married, rather than living together, and 
bringing children into the world before they have made a commitment to 
one another. Nearly half of male cohabitants (47%) are over age 35 and 
42% of women. Surely, they are old enough to make a mature decision.
    She's right that too many women are giving birth before they marry. 
But if they become pregnant, what should they do if they are not to 
abort? I say they should create healthy marriages.
    Theodora Ooms, a senior policy analyst at the Center for Law and 
Social Policy, wrote in the same issue of The American Prospect, ``The 
majority of these parents are committed to each other and to their 
child and have high hopes of eventual marriage and a future together, 
although these hopes too often are not realized. We should reach out to 
young parents to help them achieve their desire to remain together as a 
family. A helpful package of services to offer these young families 
might include a combination of `soft' services--relationship-skills and 
marriage-education workshops, financial management classes . . . and 
`hard' services, such as job training and placement, housing, medical 
coverage,'' she writes.
    Finally, I'd argue that similar services ought to be offered to the 
246,000 mothers who are young adults, aged 18-19. If the couple is in 
love, they should consider marriage, and the society should help them 
to make it. What are their odds of divorce? A study in Family Planning 
Perspectives reports that even without help, 85% of those young parents 
who marry, are married five years later and 75 percent are still 
married a decade later. Not bad!

6. ``Plenty of women justifiably leave abusive marriages.''
    That assertion by Robert Kuttner, founder and co-editor of The 
American Prospect, implies that most women who divorce are doing so 
because they were physically abused.

FACT: A Gallup Poll of 1,213 adults found that only 5% of people who 
divorced say the problem was physical abuse. In only 17% of cases was 
infidelity the issue, and drug or alcohol abuse was involved in 16%. 
The big issue is ``incompatibility'' mentioned by 47% of respondents, 
and another 10% said it was arguments over money, family or children. 
Thus in nearly three-fifths (57%) of the cases, the problem was poor 
communication--which caused TEN TIMES as many breakups as physical 
abuse.
    What has been demonstrated by groups like PAIRS, PREP, and Marriage 
Savers, is that these skills can be taught by lay people, ideally by 
Mentor Couples. One study of PREP found that couples trained in its 
technique of resolving conflict had 50% lower divorce rates than those 
with standard marriage preparation. In my home church, out of 302 
couples who signed up for marriage prep, as noted above, we have had 
only 7 divorces in a decade, a 2.5% failure rate!
7. ``Sometimes a good divorce is better than a bad marriage.''
    That assertion by E. Mavis Hetherington, a Professor of Psychology 
at the University of Virginia, and co-author (with John Kelly) of For 
Better or Worse: Divorce Reconsidered,'' poses a false hypothesis. The 
key question is this, can a bad marriage become a good one?

FACT: First, most people do not divorce because of a bad marriage

    Professor Paul Amato of Johns Hopkins has found that ``Very few 
people getting divorced mention serious problems, such as mental abuse, 
violence, alcohol or drug problems. Instead, people mention:

We have been growing apart.
We don't feel as close as we once were.
The quality of our communication is not as good as it should be.

    Amato has been conducting a longitudinal study in which he has 
interviewed 2000 married people in 1980, 1983, 1988, 1992, 1997, and 
2000. He has interviewed the children of these marriages after they 
reach 19. The majority of 691 children grew up with continuously 
married parents. Some 21% experienced divorce and 15% were in homes 
where the parents stayed married, but had unresolved conflict. Amato 
confirms that children experiencing divorce reached adulthood with less 
education, are not as close to their parents, have more symptoms of 
depression, and were less happy. He confirms that fewer marry and if 
they do, are more likely to divorce themselves.
    What is surprising about his findings is that of 295 couples who 
divorced, only 40% were in marriages with very low happiness, with few 
positive interactions and much conflict. In 60% of the divorces, the 
couple's happiness was average. Their positive interaction is average. 
They had no more than average conflict. In other words, three out of 
five couples who divorce are no more unhappy or conflicted than married 
couples who stayed together!
    Such couples do not have sufficient reason to punish their children 
by divorce. In these marriages which Amato calls ``good enough 
marriages,'' the unilateral decision of one partner to walk out is 
unexpected, stunning and inexplicable. He said, ``Most children don't 
care about midlife crisis; they don't care about how deep the level is 
of their parents' self-actualization. They want regular access to both 
parents. Many of these good enough marriages can be salvaged.''

FACT: Even terrible marriages can be saved in four out of five cases:

    The vast majority of even terrible marriages can be saved with 
remarkably little effort. Let me give three answers, referred to 
briefly above:

        1. Retrouvaille is a weekend retreat in which couples whose 
        marriages once nearly failed, who I call ``back-from-the-
        brink'' couples--share details about how they overcame years of 
        adultery, alcoholism, neglect, verbal or physical abuse, and 
        have gone on to build great marriages. The results are 
        spectacular. Of 2,000 couples who have attended in Michigan, a 
        third had already filed divorce papers, yet 80% rebuilt their 
        marriages. Two-fifths of more than 1,000 couples in Fort Worth 
        had already separated or divorced, yet 70% reconciled and are 
        still together. Buffalo's Retrouvaille has saved 90% of its 
        marriages. Nationally, about 65,000 couples have attended 
        Retrouvaille, and on average, four out of five marriages are 
        saved.
        2. Marriage Ministry is a similar proven way to save couples 
        headed for divorce courts--but it is based in a local church. 
        St. David's Episcopal Church in Jacksonville, Florida trained 
        seven couples whose marriages nearly failed to help those now 
        in trouble. One woman had been in an adulterous affair for 
        eight years. A man was a bisexual, who once had homosexual 
        affairs on the side. Another man was an alcoholic who lost his 
        job and was out of work two years. Their pain qualified them to 
        be Mentor Couples who worked with 40 troubled marriages, and 
        they saved 38 of them_a 95% success rate. My organization, 
        Marriage Savers, has planted this Marriage Ministry in dozens 
        of other churches with a stunning 90% success rate. We can 
        train back-from-the-brink couples to tell their story to 
        couples in crisis, over a Friday night and all day Saturday.

    By contrast with this remarkable track record, professional 
therapists are no where near as successful. Diane Sollee, head of Smart 
Marriages and the former Associate Director of the American Association 
of Marriage and Family Therapy, says therapists save less than 20% of 
the marriages they work with. In fact, they often counsel couples to 
divorce, which is outrageous.
    Why are lay couples able to save 80% to 90% of marriages when 
professionally trained counselors are so ineffectual? The major reason 
marriages fail is selfishness. The major reason the good ones succeed 
is selflessness. What's needed is spiritual, conversion, a recognition 
that one needs to replace selfishness with selflessness. That can best 
be inspired by seeing walking parables, couples who once stood on the 
brink of divorce for very good reasons, but then stepped back, and 
saved their marriage. Like a 12-stepper of Alcoholics Anonymous, a 
couple who has been in the pits and rebuilt their marriage--has a 
credibility that no pastor or counselor has. A couple who had lived 
through adultery, for example, and remained together, can tell a 
younger couple in crisis because she found out that he was cheating on 
her: ``We know adultery breaks trust. We have been there, done that. 
But we are here to tell you that trust can be restored. We have done 
it. Let us tell you how we rebuilt trust. Let us pray with you about 
this.''

3. Stick to the Vows:
    Finally, consider a study by Professor Linda Waite, of the 
University of Chicago, which drew remarkable findings from the National 
Survey of Families and Households, a huge study of 13,000 people. ``Of 
those couples who said their marriages were very unhappy in 1987, 82% 
were still married five years later. And if they were still married, 
90% said they were very happy! I was surprised that so many who were 
unhappy were still together, and that the vast majority said their 
marriage was terrific or very good, though it was the same marriage! 
The worst marriages showed the most improvement,'' Dr. Waite says.
    Every marriage has bad patches. What's needed is for people to only 
stick to their vows made at the altar, to remain together ``for better 
for worse, for richer for poorer, in sickness and in health, to love 
and to cherish, till death do us part.''

8. Marriage can't be re-established.
    ``There is no way to re-establish marriage as the main site of 
child rearing,'' argues Stephanie Coontz in The American Prospect. 
``There is no way to reverse this trend short of a repressiveness that 
would not long be tolerated even in today's patriotic climate.''

FACT: the divorce rate of Modesto, CA has plunged 48% and its marriage 
rate has risen 14% between 1986 and 2000, at a time the U.S. marriage 
rate fell 18% since the clergy of that area adopted a ``Community 
Marriage Policy'' in 1986 at my suggestion. Some 95 pastors, priests 
and a rabbi accepted my suggestion that there ought to be at least four 
months of marriage preparation that includes taking a premarital 
inventory, discussing it with an older, mentoring couple, improving 
their skills of communication and conflict resolution and studying 
Scripture. They also accepted my suggestion for taking steps to improve 
the marriages of couples in their congregations, and to save troubled 
ones. Pastors said their goal was to ``radically reduce the divorce 
rate of those married in area churches.'' Obviously, much more than 
that has been accomplished.

FACT: With 1,250 divorces being avoided per year and 880 more marriages 
a year, more Modesto area children are growing up in secure homes. The 
result is that school dropouts have fallen 20% and births to teenagers, 
by 30%. Healthy marriages are good for kids!

FACT: Divorces Plunge in 34 Cities:
    Marriage Savers, the organization my wife and I founded, has helped 
the clergy of 159 towns and cities to create Community Marriage 
Policies, or Community Marriage Covenants. A national study is now 
being conducted on their impact. Before those results are available, we 
know that divorces have plunged in 34 out of 36 cities with known 
results:

        <bullet> Divorces fell 6% in one year, in Tallahassee, Baton 
        Rouge, Springdale, AR and Columbus, GA
        <bullet> In a single year, Harrisonburg, VA divorces plunged 
        15% and by 24% in Cedar Rapids, IA.
        <bullet> Peoria's divorce rate has fallen 28% in seven years.
        <bullet> Austin, Texas divorces fell 37% from 3,466 in 1995, 
        the year before signing a CMP, to only 2,173 in 2000, a huge 
        37% drop.
        <bullet> Kansas City, KS divorces plummeted 43% in only five 
        years in a two county area from 1,530 in 1995 to only 874 in 
        2000.

FACT: Community Marriage Policies/Covenants create a new day for 
marriage and an old one for divorce. Here is how the Heritage 
Foundation put it

        L``A well-executed Community Marriage Covenant . . . can save 
        up to 80% of marriages headed for divorce, reconcile more than 
        half of the separated couples, and enable 80 of those in 
        stepfamilies o be successful parents and partners.''
Conclusion:
    The critics of President's Bush's proposal to spend $300 million to 
improve marriage, really do not have sound arguments. The sum is very 
modest and would not reduce welfare funds. We do need to encourage some 
people to marry--particularly those who are living together. Marriage 
can be re-established as the norm for most men and women. Healthy 
marriages will lift millions out of poverty. Welfare spending has not 
done it. As Bush noted in his speech, ``Between 1965 and 1995, federal 
and state spending on poor and low income families increased from 
around $40 billion to more than $350 billion a year. Yet during the 
same 30-year period we made virtually no progress--no progress reducing 
child poverty. And the number of children born out of wedlock grew from 
one in 13 to one in three.''
    The 1996 welfare reform law reduced welfare rolls by more than 50 
percent. Equally important, it made a major dent in poverty. There are 
5.4 million fewer people in poverty, and the poverty rate for blacks is 
at an historic low.
    As even Stephanie Coontz and Nancy Folbre concede, ``According to 
recent census figures, 6 percent of married couple families with 
children live in poverty, compared to 33 percent of families headed by 
single moms. To many the conclusion seems obvious. Marry off those 
single moms and they reduce their risk of poverty by a factor of more 
than 5, right? Plus their children will do better in a two-parent 
family. It's not quite that simple,'' they say.
    However, as The Washington Post editorialized on April 5, ``Why not 
find out whether helping mothers--and fathers--tackle the challenging 
task of getting and staying married could help families find their way 
out of poverty?'' In a letter to the editor, Mr. Kuttner disagreed: 
``Marriage is not a panacea.'' He is wrong. Married people are 
healthier, happier, live longer, are much wealthier and have better sex 
than single people, according to A Case for Marriage by Maggie 
Gallagher and Linda Waite. And their kids are far less likely to drop 
out of school and become pregnant or delinquent.
    The institution of marriage is in a massive state of collapse, with 
disastrous consequences to tens of millions of people. First, there 
have been more than a million divorces a year for 30 years affecting a 
million children a year. Now another 1.3 million more are born to 
unmarried parents annually.
    There is an answer. And it is obvious--healthy marriages.
    Why is $300 million needed? Two-thirds of Americans are members of 
a church or synagogue, 69% according to George Gallup. And he reports 
that 55% of African Americans attend church in any given week. 
Organized religion clearly has access to most Americans. Yet only 1 
percent of America's 300,000 congregations have marriage mentors today. 
And there are almost none in African-American churches. A massive 
effort must be undertaken to recruit and train those mentor couples to 
reach out and provide a ``safety net'' to those who are married, 
getting married and those having babies out-of-wedlock.
    If only a third of churches and synagogues each trained ten couples 
by 2010, there would be a million mentoring couples! Surely they could 
cut the divorce rate in half and increase the marriage rate! I said 
that in a recent column, a column called ``Ethics & Religion'' which I 
have written weekly since 1981.
    Is it realistic to think the nation's divorce rate could be slashed 
by 50% within a decade? Christianity Today quoted me on my vision in an 
editorial and concluded:

        L``If McManus's projections are at all reasonable_and if we put 
        our minds to the task they are_we could save approximately 
        600,000 marriages (a year) by 2010. If that vision doesn't 
        motivate us, what will?''

    In any case, we at Marriage Savers are ready to put our shoulder to 
the wheel.

                                 <F-dash>

 Statement of Sister Richelle Friedman, PBVM, Senior Policy Associate, 
               McAuley Institute, Silver Spring, Maryland
    McAuley Institute is a faith-based, nonprofit intermediary which 
assists local nonprofits serving the housing needs of the poor, and 
especially women and children. Founded in 1983 by the Sisters of Mercy, 
McAuley focuses its financial and technical assistance on newly 
emerging groups working in extremely poor urban and rural areas. Most 
of the groups we serve are led by women and are have boards with a 
majority of residents.
    McAuley Institute stands for the dignity of every human person. As 
a result, we believe that public policy in general, and the TANF 
program in particular, should be designed to encourage states to 
provide the education and public services necessary to enable every 
parent and child to escape the debilitating condition of poverty and to 
reach their full potential as human beings.
    As an organization focusing primarily on housing, McAuley hopes you 
will recognize the substantial role that stable, affordable housing 
plays in enabling welfare recipients get jobs, keep them and become 
economically stable. The five recommendations we offer for subcommittee 
consideration would:
    1. Treat housing provided with TANF and state maintenance of effort 
funds in the same manner as other work supports such as child care. HHS 
rules defining housing as ``assistance'' under TANF have discouraged 
jurisdictions from funding housing assistance even for those no longer 
receiving TANF benefits.
    2. Provide funds to HHS as part of a HUD-HHS demonstration of 
housing with services for families with multiple barriers to work.
    3. Require states to consider data on the housing needs of present 
and former TANF recipients in the planning and implementation of 
welfare-to-work programs.
    4. Encourage state, county and local government entities to 
facilitate interagency cooperation as it relates to meeting the housing 
and other needs of low-income families.
    5. Allow states to determine what constitutes ``minor 
rehabilitation'' of rental housing payable with TANF funds to eliminate 
the current confusion which has resulted in non-use of funds for that 
purpose.
    The rationale for giving more attention to housing is simple. 
First, having an address and a place to live is usually the essential 
first step to finding a job, especially if one is a parent of young 
children. Secondly, to maintain employment one cannot face the constant 
possibility of having to move because of impossibly high rent or the 
conflicts that inevitably arise when one family has to double up with 
another. Finally, employment is usually more obtainable and stable if 
one is able to live near the workplace of or have access to the 
transportation necessary for a reasonable commute.
    Many welfare recipients enter the workforce through jobs that pay 
the minimum wage or only slightly more. Today, in no state does a full-
time minimum wage job enable a family to afford the federal fair market 
rent for a two-bedroom apartment. The national median ``housing wage'' 
for a 2-bedroom unit at HUD's fair market rent is $13.87 per hour, 
according to the National Low Income Housing Coalition.\1\ (The housing 
wage standard is the level of income necessary to afford housing while 
paying no more than 30 percent of income for rent.) In contrast, the 
typical ``welfare leaver'' earns a wage of $7 to $8 per hour.
---------------------------------------------------------------------------
    \1\ Out of Reach, National Low Income Housing Coalition report, 
September 2001.
---------------------------------------------------------------------------
    On the other hand, research has found significantly higher 
employment rates and earnings for welfare leavers who receive housing 
assistance. The Manpower Demonstration and Research Center's study of 
the Minnesota Family Investment Program (MFIP), found substantially 
higher employment rates and earnings more among participants who lived 
in public housing or received housing assistance. In contrast with 
those who had no housing assistance, for those who did, MFIP boosted 
employment rates 18 percentage points. Quarterly earnings for those 
receiving full MFIP services and housing were 25 percent higher.\2\ 
Researchers from UCLA found that families in four California counties 
who were receiving both welfare cash assistance and Section 8 housing 
vouchers worked significantly more hours on average than welfare 
families living in unsubsidized housing.\3\
---------------------------------------------------------------------------
    \2\ Research Evidence Suggest That Housing Subsidies Can Help Long-
Term Welfare Recipients Find and Retain Jobs, Center on Budget and 
Policy Priorities, June 27, 2000.
    \3\ The Increasing Use of TANF and State Matching Funds to Provide 
Housing Assistance to Families Moving From welfare-to-work, Center on 
Budget and Policy Priorities, February 2000.
---------------------------------------------------------------------------
    Despite these positive effects, only 30 percent of TANF recipients 
receive housing subsidies. Earlier this week, the Washington Post 
reported in an article (attached to this testimony) that the state of 
Maryland has reduced its welfare rolls by nearly 68 percent since 1996. 
But, since 1998, the state's demand for emergency shelter has risen by 
31 percent.
    In 1996, Congress recognized the need for ongoing financial support 
of health care and child care, but not housing, for those moving to 
employment. We believe states should be allowed to use TANF and state 
maintenance of effort funds for housing in the same manner as other 
work supports like child care. This would require that housing 
expenditures be defined as ``non-assistance.'' HHS' current rule 
defining housing support as TANF assistance starts the time clock 
running after four months even when a family is not receiving TANF cash 
benefits. Besides the time clock, states desiring to use funds for 
housing also face barriers associated with continuing child support 
assignments and the monthly tracking of employment and income data.
    Only nine states (Connecticut, Kentucky, Maryland, Michigan, 
Minnesota, New Jersey, North Carolina, Virginia and Pennsylvania) and 
three counties (Denver, Los Angeles and San Mateo) have committed TANF 
or MOE funds to time-limited housing assistance for more than three 
months and up to 24. But the difficulties posed by the definition of 
assistance has kept other states, such as Ohio, from offering more than 
three months of housing support. Some of the nine limit the subsidy to 
families who are homeless or at risk of homelessness. Most of the 
states use the assistance to help parents who are working or soon to 
become employed.
    Our second recommendation is for a HHS-HUD demonstration of 
programs that combine housing assistance various support services 
tailored to the needs of parents who have multiple job barriers. The 
experience of welfare reform has thrown light on the fact that the lack 
of safe, decent and affordable housing is itself a job barrier. 
Organizations such as the Women's Community Revitalization Project 
(WCRP), which McAuley works with in Philadelphia, are helping people 
who face many in addition to housing, face numerous other barriers to 
self-sufficiency--limited English, education deficits, lack of work 
experience, physical disability, the lack of constructive activities 
for children, and the traumas associated with domestic violence and 
crime. Domestic violence is a factor in the need for assistance by 
nearly half of all TANF cases.\4\ Other groups in McAuley's network are 
helping mothers living with AIDS and recovering from addiction. Several 
of our projects are providing transitional housing while assisting 
women released from prison who are re-building their relationships with 
their children.
---------------------------------------------------------------------------
    \4\ Angela Browne & Shari S. Bassuk, ``Intimate Violence in the 
Lives of Homeless and Poor Housed Women: Prevalence and Patterns in an 
Ethnically Diverse Sample,'' American Journal of Orthopsychiatry, April 
1997.
---------------------------------------------------------------------------
    In all of these instances, case management connecting parents with 
a range of necessary services can best be provided in a residential 
context with child care on-site or available nearby. These settings can 
also serve as laboratories where parents can become engaged in 
community life, learn how government works, develop leadership skills 
and assume responsibility for managing their own environment.
    WCRP is one such comprehensive program. It is located in eastern 
North Philadelphia where approximately 70 percent of residents receive 
public benefits and the remainder support their families on less than 
$16,000 a year. Four years after becoming WCRP tenants, only 30 percent 
remain on public assistance.
    WCRP emphasizes the development of long-term, trusting 
relationships between staff and tenants. The WCRP approach affirms each 
person as an individual, thus supporting the different paths the women 
need to take to achieve their personal, financial and family goals. In 
some cases, a woman must confront past or current trauma before she can 
even begin to think about getting a job or earning a degree. In others, 
finding steady, sustaining employment, can be the catalyst for other 
personal and family-strengthening changes. For still other women, 
getting involved in community activities may be the first step toward 
building the confidence to confront the challenges of family or 
employment. Whichever path is chosen, follow-up is critical. For staff, 
this means reaching out, calling frequently, and building relationships 
attentive to the details of the women's lives.
    WCRP uses a careful process to select tenants who truly need and 
will benefit most from participation in the program. A case manager 
helps tenants develop a workplan based on individual needs. The plan is 
implemented by drawing on close relationships WCRP has established with 
a dozen or more community agencies including the welfare department, 
child care programs, legal services, a literacy program, community 
college, settlement house, advocacy groups, and various health, mental 
health and training services. The tenant also follows a self-
sufficiency workplan that provides connection to education, job 
readiness and job training programs.
    WCRP also employs a job developer who helps participants write 
their resumes and refers them to appropriate job openings. During the 
course of the program, staff frequently are called upon to assist in 
crises that arise, including life-threatening illness, domestic 
violence, loss of employment or economic support, child abuse, suicide 
attempts, and conflicts between tenants. The case manager also helps 
resolve potential lease violations. As a result of cooperative 
relationships developed between the tenants and property managers, WCRP 
has experienced very low eviction rates.
    WCRP encourages tenants to join the WCRP board, advisory committee 
and other committees that make recommendations and decisions on such 
matters as housing design, property management procedures, personnel 
policies and finance. Residents have initiated programs of their own, 
including fundraising to create an after-school enrichment program for 
their children.
    WCRP's holistic approach is an example of only one of the models 
that could be tested and evaluated as part of a demonstration of moving 
multiply challenged welfare recipients to self-sufficiency. Without 
being prescriptive, we believe authorizing language should provide for 
grants to be made on a competitive basis to nonprofits or public 
agencies in both urban and rural locations. Ten percent of the funds 
could be designated for testing models to serve non-custodial parents 
seeking to reunify with their families. We believe a $50 million, 
three-year demonstration could fund 25 to 30 projects with an average 
of 40 families participating in each. In total, about 1,100 families 
would participate at an average annual cost of $14,500, including both 
services and the housing subsidy. The demonstration should give 
preference to projects that leverage additional funds and provide for 
sustainability after the demonstration period.
    Our third recommendation is to require states to consider data on 
the housing status of present and former TANF recipients in the 
planning and implementation of their TANF programs. Increasingly, 
states are becoming aware of the barriers posed by lack of affordable 
housing to families sustained employment. States could be required to 
describe the primary problems that families leaving TANF experience in 
securing and retaining adequate, affordable housing and the estimated 
extent of such problems, including but not limited to the price of 
housing in various parts of the state that include a large share of 
TANF recipients, and the steps that have been and will be taken by the 
state and other public or private entities that administer housing 
programs to address these needs. Congress should direct HHS to work 
with HUD to develop a procedure for inter-agency data matching or other 
uniform data collection protocols on the housing status of families 
receiving cash benefits.
    The fourth recommendation is to encourage state, county and local 
government entities to facilitate interagency cooperation as it relates 
to meeting the housing and other needs of low-income families. As a 
parallel to the current requirement in the U.S. Housing Act that public 
housing agencies (PHAs) seek to enter into cooperation agreements with 
welfare agencies, Congress should require states to cooperate, directly 
or through counties, with PHAs to promote the economic self-sufficiency 
of public housing residents and voucher program participants that 
currently or recently received TANF benefits. Possible cooperation 
could include welfare agencies identifying public housing residents 
that are current or recent recipients of TANF-funded benefits who are 
then eligible for a two-year phased disregard of earnings in 
determining their rent. It could also include the use of TANF funds to 
help families with vouchers locate housing, including housing that is 
more accessible to employment.
    Our fifth recommendation is to allow states to determine what 
constitutes ``minor rehabilitation'' of rental housing payable with 
TANF funds. Currently law permits the use of TANF funds for minor 
rehabilitation, but there is no HHS guidance on what types or cost of 
repairs are allowable. The confusion has resulted in non-use of funds 
for that purpose. Several states have recently allocated TANF funds to 
rehabilitate rental housing for TANF-eligible families, focusing 
particularly on mitigating lead paint hazards in housing with children 
under six and on handicap accessibility. If states were allowed to 
determine the level of expenditures that constitute minor 
rehabilitation, more states with similar needs might follow suit.
    McAuley Institute looks forward to working with you to incorporate 
these provisions in TANF reauthorization.
                                 ______
                                 
                           washingtonpost.com
    In Md., Families Go From welfare-to-work Without A Place to Live
By Mary Otto
Washington Post Staff Writer
Monday, April 8, 2002; Page B01

    Crystal Green, 31, is not one to complain. She is working hard to 
support herself and her two children, Victor, 9, and Jayla, 11, who is 
disabled.
    She works nights, so they can sleep at her job at an assisted 
living facility. She has made it off Maryland's welfare rolls. By that 
measure, she's a success story. At the same time, she and her children 
are homeless.
    Maryland prides itself for having reduced its welfare rolls by 
nearly 68 percent since beginning welfare reform in 1996. That's more 
than 154,000 people, including Green, her children and many of their 
working homeless neighbors at Sarah's House, a neat row of Fort Meade 
barracks transformed into a shelter and transitional housing for 138 
people.
    The demand for emergency shelter in Maryland has risen 31 percent 
since 1998, raising questions about whether the increasing number of 
working families at Sarah's House and other shelters is a little-
publicized consequence of welfare reform.
    Some advocates contend that a changed federal housing strategy, the 
lack of affordable housing and low limits set by the state on how much 
welfare recipients can earn are fueling homelessness among newly minted 
workers.
    The concern echoes a national debate, although studies are 
inconclusive about whether people experience more trouble with 
homelessness and eviction after leaving welfare, says Heidi Goldberg, a 
policy analyst for the Center on Budget and Policy Priorities, a 
Washington think tank.
    In the District, a study of a sampling of former welfare recipients 
suggested that they experienced no increase in problems relating to 
homelessness. But similar studies in Colorado and New Mexico both 
reported an increase in problems. In Arizona, problems with 
homelessness apparently decreased.
    The issue does not appear to have been studied in Maryland and 
Virginia. But some advocates for the homeless and welfare recipients in 
Maryland point out that the state has historically had one of the 
nation's lowest cutoff points, and the lowest in the Washington area, 
for the amount recipients can earn before losing cash assistance. At 
the same time, they note, Maryland ranks near the top nationally in 
housing costs.
    The amount a family of three could earn before losing its cash 
assistance would rise from $745 to about $845 a month under a limit 
passed by the state legislature this year, said Lynda Meade of Catholic 
Charities.
    But Maryland's ceiling would still remain below Virginia's, at 
$1,179 a month, and the District's, $1,295 a month.
    There is also a huge gap in supply of the kind of housing needed by 
the working poor. In Maryland, six of the 10 occupations with the most 
job openings--including sales, restaurant and janitorial work--don't 
pay enough to rent a two-bedroom apartment at 30 percent of median 
income in any county, said Deborah Povich, director of public policy 
for the Baltimore-based nonprofit Maryland Center for Community 
Development. ``So we have a growing homeless population that consists 
of families with children,'' Povich said.
    Rich Larson, policy research director for the state Department of 
Human Resources said it would be unfair to blame the problems of 
homeless families on Maryland's welfare program.
    Maryland does do a lot for them, he said, even offering low-wage 
workers an earned income tax credit. Green and her neighbors are up 
against a non-welfare problem, Larson said. ``The non-welfare problem 
is low-paying jobs.''
    Green arrived at Sarah's House in January 2001 and became 
ineligible for cash assistance in February 2001, when she got her first 
paycheck from her $7-an-hour job at a nursing home.
    ``It's like if you have a job, that's it,'' Green said. ``Bam. You 
can make it.'' Sarah's House, run by Catholic Charities with support 
from the Army and Anne Arundel County, as well as other public and 
private funding, is helping her along.
    Residents, who move from the emergency shelter to the 18-month 
transitional housing program, get help with applying for welfare-to-
work benefits such as child care subsidies and children's health 
insurance. There is also on-site day care, transportation assistance, 
job placement help and counseling.
    Families at Sarah's House typically earn $6 to $8 an hour in part-
and full-time jobs in health care, hospitality and other services, 
grossing $11,000 to $15,000 a year, shelter officials said.
    To be self-sufficient in even the less-affluent parts of Anne 
Arundel County where the shelter is located, residents need to earn at 
least $14.83 an hour, according to ``The Self-Sufficiency Standard for 
Maryland,'' a report put out by the Maryland-based Advocates for 
Children and Youth. In Montgomery County, excluding Rockville, the 
hourly self-sufficiency wage for a similar family is $23.21. In Prince 
George's, it is $18.19, the report says.
    Sarah's House resident and former welfare recipient Victoria 
Thomas, the mother of two young children and a teenage son, earns $218 
to $260 a week as a $6.60-an-hour coffee shop barista.
    ``It's a struggle, but I'm determined to do what I have to do,'' 
she said.
    After seven months working at the nursing home, Green found a 
better job, paying $8.50 an hour at an assisted living facility in 
Annapolis. But because of the nighttime hours, she had trouble getting 
transportation and could work only on weekends.
    With the $700 a month she was bringing home as a part-time worker, 
she managed to buy a car. Now that she is working full time, she is 
able to bring home about $1,100 a month after taxes. Among her monthly 
expenses are a $400 car payment and $130 for the housing and program 
fee at Sarah's House. And she continues to tithe at her church on 
Sundays: ``As long as I pay my tithe, me and my children have what we 
need.''
    By income standards, she remains eligible for food stamps, but she 
said she has had trouble obtaining them. She said she has also 
encountered problems collecting her disabled daughter's Supplemental 
Security Income in recent months. And now that the welfare system no 
longer collects child support from Victor's father, she has shied away 
from trying to get it.
    ``I expect nothing. And when I do get something, I am pleased with 
the littlest things,'' she said.
    But she is wondering where she will live when she leaves the 
shelter. At her salary--less than 30 percent of the state's median 
household income--all she will be able to manage, at least at first, is 
public housing. But as housing prices have risen, the supply of public 
housing has dwindled.
    Many public housing projects are being reconfigured into lower-
density, mixed-income developments, and some large landlords have opted 
out of the subsidized housing market, said Gary Givens of the 
Metropolitan Washington Council of Governments. ``You have a tight 
squeeze,'' he said.
    In 1996, there were 22,200 public housing units in Maryland. In 
2000, there were 20,300, according to the U.S. Department of Housing 
and Urban Development. The number of privately owned, publicly 
subsidized units has also declined, from 31,100 in 1995 to roughly 
30,000 in 2000, according to HUD.
    Meanwhile, however, the state has had an increase in Section 8 
vouchers issued to tenants--up from 26,100 in 1995 to 38,100 in 2000. 
The vouchers supplement the amount tenants can afford to pay for 
housing, but in a state of rising rents, diminishing supplies of 
multifamily accommodations and increasing competition, poor tenants 
have trouble competing for existing units, Povich said.
    In Anne Arundel County, about 15 percent to 20 percent of the 
families with vouchers are able to use it, a rate that is common in 
suburbs nationwide, according to county Housing Commission Director 
Larry A. Loyd.
    Sarah's House director Deborah Hardy said it is not uncommon for 
families to spend their entire 18 months at the shelter on waiting 
lists for public or Section 8 housing. Fifteen months into her sojourn 
at Sarah's House, Green is on a waiting list for public housing.
    She and her neighbors are worried about getting housing at all and 
worried about the troubled public housing they are likely to get. They 
are worried about making their lives work outside, Hardy said.
    ``It's heartbreaking when you see people getting to the end . . . 
As you get closer to the exit date, you can see the anxiety.''
    She said she wishes they could stay longer but there are other 
families waiting desperately for their beds.
              <Copyright>2002 The Washington Post Company

                                 <F-dash>

           Statement of Cory J. Jensen, Men's Health Network
    The Men's Health Network welcomes the opportunity to submit 
testimony on the issue of welfare reform. The Human Resources 
Subcommittee should be applauded for their past efforts concerning 
welfare reform. The 1996 welfare law has produced lower welfare rolls 
and has helped move many poor mothers into the world of work.
    As Congress addresses welfare reauthorization this year, the Men's 
Health Network suggests a few changes that will move more families off 
welfare, increase the role of fathers in their children's lives, and 
promote marriage.

        <bullet> Encouraging Father Involvement and Marriage

    A crucial goal of the 1996 reform was to increase marriage. 
Congress recognized that a two-parent family best served the interests 
of children and that children need both parents to be active 
participants in their lives. Congress should establish public policies 
that encourage non-custodial parents (mostly fathers) to be a part of 
their children's lives. Fathers who are involved with their children 
are more likely to pay child support, decreasing the likelihood that 
the mother and child will resort to welfare.
    Increased parenting time (``visitation'') for non-custodial fathers 
will promote reconciliation between the mother and father and foster 
marriage. Parenting time can be encouraged through grants that promote 
the involvement of single fathers with their children, but those grants 
must provide that fathers actually connect with their children. In 
addressing parenting time (``visitation'') and fatherhood programs, the 
106th Congress (House) passed legislation which required that 
``visitation'' programs:

        (help) fathers arrange and maintain a consistent schedule of 
        parenting time visits with their children

    This provision twice passed the House in the 106th Congress and 
achieved bi-partisan support. Even if fathers do not live with their 
children, they still have a right and a responsibility to participate 
in the child's upbringing and to work with the mother to promote the 
child's development. Similar language should be applied to existing 
parenting time (``visitation'') programs funded by TANF.

        <bullet> Arrearages Hurt Families and Discourage Marriage

    Child support reform is directly linked to welfare reform and the 
encouragement of father involvement and marriage. The goal of 
increasing marriage for out of wedlock births will not be met as long 
as the non-custodial fathers are burdened with child support arrearages 
that are unreasonable and do not reflect their earning capacity during 
the period that the arrearages accrued. Such men are simply not 
marriage material.
    State policy makers often identify arrearages as a factor keeping 
non-custodial fathers from becoming more involved with their children. 
Many of these arrearages are accumulated due to illness, unemployment 
or underemployment and would not exist if the child support order had 
been modified, based on the parent's actual income, to properly conform 
to the state's guidelines. These fathers want to be responsible and pay 
child support, but they simply do not have the means to pay. If they 
obtain a job that allows them to contribute to the upbringing of their 
children, they find that they are already thousands of dollars in debt 
and financially ruined.
    Additionally, unwed fathers inherit an average of $10,000 to 
$15,000 child support debt at the time of paternity establishment, a 
debt they cannot afford to pay. Many of these men suffer from a lack of 
education and job skills. This instant debt drives them away from their 
families while encouraging them to join what has been termed ``the 
underground economy.''
    The 106th Congress (House), with strong bipartisan support 
addressing fatherhood issues, twice passed language that should be 
applied to all cases where a non-custodial parent is attempting to 
become involved with his/her child or is engaged in state-approved job 
skill improvement programs

        the State will voluntarily cancel child support arrearages owed 
        to the State by the father as a result of the father providing 
        various supports to the family such as maintaining a regular 
        child support payment schedule or living with his children

    This language should be a part of any child support reform 
associated with TANF renewal.

        <bullet> Defying Federal Law, Child Support Agencies Do Not 
        Modify For non-custodial Parents and Create ``Ghost 
        Arrearages''

    Federal law requires that a child support order be adjusted (or 
modified) at the request of either parent to match the parent's ability 
to pay either more or less child support. Reports from private 
attorneys and non-custodial parents indicate that state child support 
agencies rarely offer modification services to parents who owe child 
support and whose earnings have diminished. State child support 
agencies place little or no importance on the modification of support 
orders for these parents even though federal law states they are to 
provide services at the request of either parent. Failure to provide 
this federally mandated service results in ``ghost arrearages''--
arrearages which would not exist if child support agencies would 
provide the services mandated by federal law.
    Federal law also states that a child support order cannot be 
modified retroactively under any circumstances, except to the date that 
a modification was filed and the other party was served. In many 
circumstances, fathers are not aware that they can file to have their 
child support changed if they become unemployed or are unable to work 
due to a medical condition or injury. During an extended period of 
unemployment or illness, arrearages can accumulate to incredible 
levels. Unfortunately, federal law forbids retroactive modification of 
those arrearages to reflect the true earning ability of the father 
during that period.
    TANF reauthorization should include a provision that child support 
can be retroactively modified if a state child support agency has 
failed to notify non-custodial parents of their right to a child 
support modification, if appropriate, or have failed to timely modify a 
child support order if requested to do so.

        <bullet> Education and Work Training Programs Should Be 
        Expanded for non-custodial Parents

    TANF should place the same level of importance on education and job 
training programs for non-custodial parents (mostly fathers) as it does 
for custodial parents (mostly mothers). Boys drop out of school at 
higher rates than girls and are less likely to graduate from high 
school or enter college. When they become parents, often unwed, they 
are not equipped to provide for their children, yet government looks to 
them for the children's support while providing job training, 
childcare, and other needed benefits for the mother.
    To properly insure that these men will qualify for benefits, TANF 
reauthorization should again follow the lead of the 106th Congress 
(House) which twice passed language that would provide a reasonable 
income standard for job training and related programs. Additionally, 
eligibility should be based on the assumption that the father is a part 
of his family. Using a father with three children as an example, 
poverty-line eligibility for this man should be based on a family size 
of four. The language which passed the House twice provided that a non-
custodial parent is eligible for benefits if their.

        income (net of court-ordered child support) is less than 150 
        percent of the poverty line

                                 <F-dash>

 Statement of the Michigan League for Human Services, Lansing, Michigan
    The Michigan League for Human Services appreciates the opportunity 
to provide comments for consideration in the TANF reauthorization 
process. For your information, the League is a statewide citizens 
organization with a membership of nearly 1,800 organizations and 
individuals representing a wide range of interests. The League's 
primary activities are research, analysis, public education and 
advocacy on issues affecting low-income individuals and families.
    The League has followed very closely the overhaul of the nation's 
welfare system, and in particular, the impact in Michigan of the 
Personal Work and Responsibility Act (PWORA) and funding through the 
Temporary Assistance for Needy Families Block Grant (TANF). The TANF 
reauthorization process affords an important opportunity to address 
issues that have emerged since enactment of the federal legislation in 
1996 and make adjustments that can improve outcomes in the states in 
the future. The League's comments are focused on the following issues: 
funding, poverty reduction, addressing long-term barriers, flexibility/
accountability and time limits.
TANF Funding
    It is critical that long-term TANF funding be increased during the 
reauthorization process. Michigan, like other states, now uses TANF 
monies to fund a wide array of benefits and services to low-income 
families. These include cash grants, as well as supports that help 
families enter and remain in the workforce. Nationally, the TANF block 
grant has declined in purchasing power by 13.5 percent since 1997 and 
will be worth 30 percent less in five years if funding is maintained at 
the current level.
    Michigan's TANF allocation has held steady at $775 million 
annually, yet program costs continue to grow each year. Michigan does 
not currently have a TANF surplus, nor does the state have anything 
resembling a case load rainy day fund. If an adequate safety net is to 
be maintained, and if the focus of the TANF block grant is to move 
families to economic self-sufficiency, TANF funding levels must reflect 
the fact that supportive services such as child care, education and 
training are significantly more expensive than merely providing cash 
grants.
    At the same time, it is very important that the states' maintenance 
of effort requirement also be increased in relation to any increase in 
TANF funding. The required level of state commitment has already 
dropped to 75 percent of 1994 levels. At a time of increased economic 
need it is particularly important that states maintain, rather than 
reduce, their spending on safety net programs.
    Finally, as part of TANF reauthorization, attention should be given 
to restructuring the contingency fund for the states. This is 
particularly important, given the current recession and the resulting 
needs in the states. The original contingency fund would have proven 
woefully inadequate if the economy had faltered earlier and if even a 
handful of large states had needed to tap the fund. Further, no state 
would have been able to access the fund, given the fact that all states 
moved quickly to the 75 percent maintenance of effort level. Additional 
funding during a recession is particularly important for a state like 
Michigan, which is still heavily dependent on manufacturing and is 
generally impacted to a greater extent by an economic downturn than 
other states might be.
Poverty Reduction
    TANF reauthorization should refocus the states' efforts on the goal 
of poverty reduction rather than simply the closure of welfare cases by 
including poverty reduction as an explicit TANF purpose.
    Cash assistance case loads in Michigan, like the rest of the 
country, have declined dramatically. In Michigan, the case load began 
to drop even before enactment of federal welfare legislation. In Fiscal 
Year 1992 Michigan's AFDC case load exceeded 225,000; by Fiscal Year 
2000 it had dropped to 68,000--a decline of almost 70 percent. Although 
the case loads have begun to increase in response to the economic 
decline, they are only projected to reach 79,000 in Fiscal Year 2002. 
There has also been a significant growth in the percent of families 
receiving cash assistance from the new Family Independence Program, who 
also have earnings. The percent of cash assistance cases with at least 
one person earning some income increased from 16 percent to 32 percent 
during the period from 1992 to 2000.
    However, although case loads are down and parents are working, 
families are still very poor. From 1992-2000 Michigan's official 
poverty rate declined from 13.6 percent to 9.7 percent. But, while this 
23 percent decline in poverty is a significant achievement, it is far 
short of what should have been achieved during such a long period of 
economic expansion, and far short of the 70 percent reduction in the 
cash assistance case load during the same period. Underscoring the fact 
that poverty and economic hardship in Michigan did not decline very 
much during the 1990s, applications for cash assistance held steady. 
The period from 1992-2000 ended with cash assistance applications at 
almost the same level as in 1992.
    The economic hardship experienced by large numbers of Michigan's 
families, despite an exodus from the welfare system into a seemingly 
booming labor market can be attributed in large measure to the nature 
of the employment available to many recipients and former recipients, 
and to the limited opportunities to access education and training. The 
average wage of individuals moving from welfare-to-work in Michigan is 
$7 per hour. A study conducted for the Michigan Department of Career 
Development and the Michigan Family Independence Agency by the Human 
Services Institute of Health Management Associates documents the extent 
to which former cash assistance recipients have been unable to improve 
their lives and achieve economic self-sufficiency through work alone. 
This December 2000 study of Work First participants whose cases closed 
due to earnings showed that 76 percent were employed, but that 43 
percent had worked for more than one employer during the year and 
nearly a quarter had worked less than 30 hours per week. Further, less 
than half reported that they were better off in terms of household 
income, and much smaller percents said they were better off in other 
ways. Only 31 percent said they were better off in terms of housing, 28 
percent in terms of food and nutritional needs, 29 percent in terms of 
child health care, and 26 percent in terms of access to health care.
    Michigan has begun to take steps to broaden the access to education 
and training opportunities for Family Independence Program recipients. 
The 10-10-10 program allows recipients to meet the 30 hour work 
requirement with 10 hours of paid employment, 10 hours of class time 
and 10 hours of study time. This activity is limited to 12 months and 
can only count toward the last year of a two-or four-year academic 
program. The Michigan House of Representatives voted recently, however, 
to allow such activity to count toward the first year of a two-year 
program. In addition, while Michigan has recently enacted legislation 
to require up to 40 hours of work activity, caseworkers will have 
discretion as to whether to require the full 40 hours of work activity 
in individual instances.
    The League is very concerned about proposals such as the Bush 
Administration proposal that would actually limit the ability of states 
to design, implement and expand programs such as the 10-10-10 program. 
Not only would such proposals require a full 40 hours of work activity, 
but the definition of work activity would be narrowed significantly.
    Policies should be put in place as part of TANF reauthorization 
that encourage states to do more to help working families advance in 
the labor market. Incentives for the states to achieve more in this 
area, coupled with funding for experimentation, and particularly for 
research and evaluation of what is most effective, would be steps in 
the right direction. In addition, changes in federal policy that allow 
greater opportunity for vocational education training and post-
secondary education could substantially improve labor market outcomes 
for many low-income parents.
Addressing Long-Term Barriers
    Many parents remain on the cash assistance case load, or keep 
returning to the case load, because they have significant barriers that 
prevent them from entering or staying in the labor force. TANF 
reauthorization provides an important opportunity to reexamine the 
policies that can help these parents also move toward greater economic 
self-sufficiency.
    Roughly one-third of Michigan's case load is temporarily deferred 
from working; another 10 percent are expected to work but are not 
working. A wide variety of circumstances, including low educational and 
skill levels, illiteracy, domestic violence, substance abuse, caring 
for a special needs child, and mental health problems can contribute to 
an individual's inability to participate in the labor market in a 
sustained manner, if at all.
    Early assessment of each applicant's needs and circumstances can 
help to identify such barriers; yet, the Work First model fails to 
incorporate such an important step in applicant screening. The Michigan 
Family Independence Agency's Summer Enrichment Program, carried out 
during 2000, and funded through TANF, represented an attempt to 
identify and address the needs of recipients with multiple or long-term 
barriers. Unfortunately, the program was authorized and implemented 
hastily and had disappointing results. Originally intended to serve 
approximately 5,000 families, it served approximately 1,000. Further, 
because it was targeted to families who, as of a set date were expected 
to work and did not have earnings, it failed to help some families--
particularly large families--who had received assistance for some time 
but who had not been able to earn enough to move the family off of the 
cash assistance case load.
    TANF reauthorization should include changes that address the needs 
of these families for substantially more support and assistance than is 
available through current policies. Such changes should ensure that a 
thorough assessment is conducted of the parent's, and the family's 
needs, that a range of options exists for addressing their needs, and 
that the parent and the family are not unduly penalized because of 
their circumstances.
Flexibility/Accountability
    It is critical that flexibility with regard to the use of TANF 
funds be maintained in order that states can continue to provide 
important work supports to families making the transition from welfare-
to-work, while at the same time ensuring an adequate safety net for 
those who face barriers to work.
    TANF expenditures in Michigan have shifted from provision of cash 
assistance to a wide array of programs and services, including work 
supports. In Michigan, federal TANF expenditures for cash assistance 
have declined dramatically since 1996 in response to the decline in 
cash assistance case loads. In Fiscal Year 1997, the first full year in 
which TANF funds were available, 58 percent of Michigan's TANF 
allocation was spent on cash assistance; two years later only 11 
percent of TANF funds was spent on cash assistance. As a result of the 
decline in spending for cash assistance, Michigan began to take 
advantage of the flexibility provided by TANF and began to use freed up 
TANF funds for other TANF-eligible programs, thereby shifting 
significantly the allocation of funds among the various TANF purposes. 
In Michigan there has been a substantial increase in the use of TANF 
funds for low-income child day care, a critical work support for 
parents entering the labor force. In addition, TANF funds are used for 
a variety of services including domestic violence prevention, 
transportation and housing.
    Proposals such as the Bush Administration proposal that would 
significantly increase work and work participation requirements, as 
well as narrow the definition of work activity, would seriously hinder 
the ability of states like Michigan to use TANF funding to continue and 
expand programs and strategies that get parents into good jobs that 
offer long-term prospects for economic security. Instead, such 
proposals may very well result a shift of state resources away from 
such efforts and force them instead to design and implement costly 
workfare programs that offer virtually no long-term hope for economic 
advancement.
    At the same time that states must retain flexibility with regard to 
the use of TANF funds, it is also important to ensure that states are 
using their TANF monies appropriately, and achieving desired outcomes. 
TANF reauthorization should result in policies that require states to 
use TANF funds in ways that supplement, not supplant, existing state 
expenditures for programs. Michigan has increasingly used TANF funds to 
supplant state General Fund expenditures in certain areas. This 
practice began in 1998; since then the percent of Michigan's TANF 
allocation being used to replace state General Fund dollars has 
quadrupled. The programs in which TANF funds have replaced state 
dollars vary greatly. The most egregious example of supplantation is 
the use of TANF funds to cover a portion of Michigan's Homestead 
Property Tax Credit refunds. The homestead credit has been in existence 
since 1973. There has been no recent change in eligibility or benefits, 
thus the use of TANF funds is simply a funding shift.
    Supplantation is also occurring with regard to maintenance of 
effort requirements. A considerable portion of the expenditures that 
Michigan claims toward its MOE requirement is being used for programs 
and services that would never have been counted toward the state match 
under the old AFDC program. One example is the nearly $100 million in 
school aid expenditures for school readiness programs that are now 
counted toward Michigan's TANF MOE requirement. While these are 
certainly worthy programs, it should be noted that under AFDC the state 
dollars used as matching funds for federal dollars would have had to be 
used for basic needs or employment services.
Time Limits
    Michigan is one of just two states that have not enacted a time 
limit on receipt of state benefits. Recipients of cash assistance are 
assured that if they are complying fully with work requirements their 
benefits will be provided with state dollars at the point that they 
reach their lifetime limit on receipt of federally funded benefits. 
While Michigan's cash assistance case load remains small, the state can 
count benefits for federally time-limited recipients toward Michigan's 
MOE requirement. It is extremely positive that Michigan has chosen not 
to establish a time limit. However, the federal time limit could put 
the state at some measure of fiscal risk in the future if case loads 
were to escalate, and families would not then be covered.
    Were Michigan not to provide benefits to families who reach their 
federal time limits, the impact could be extremely detrimental to 
family well-being. It is important, therefore, that time limits on 
receipt of TANF benefits be reexamined in the context of an economic 
recession when work may not be available. Further, time limits should 
be reconsidered in terms of their impact on families who are working 
hard, but earning very low wages and still receiving a small cash 
assistance grant. Despite their work effort, the federal clock on 
benefits is running and this family could actually be penalized for not 
earning enough in a short enough time period. In addition, time limits 
on benefits for families with significant barriers to employment should 
be reconsidered. Such families may need additional time to address 
barriers in a manner that results in better long-term prospects for the 
family's ability to achieve economic self-sufficiency.
    In summary, the League views the TANF reauthorization process as an 
important opportunity to reflect on experiences and lessons learned 
over the past five years, and to use that perspective to address the 
issues that will shape the future of social welfare policy. The League 
looks forward to following the TANF reauthorization debate and to 
providing input where possible. If members of the Subcommittee have any 
questions about the League's comments, or about the League, they should 
be directed to Ann Marston or Sharon Parks on the League's staff.

                                 <F-dash>

    Statement of Raymond C. Scheppach, Executive Director, National 
                         Governors Association
    Mr. Chairman, Representative Cardin, and Members of the 
Subcommittee:
    Thank you for the opportunity to testify today on the 
reauthorization of welfare reform. I am here today on behalf of the 
National Governors Association (NGA).
    Six years ago, a bipartisan group of Governors came to you and 
asked for the opportunity to make broad, nationwide changes to a flawed 
welfare system. You gave Governors that opportunity through a 
bipartisan agreement forged among Governors, Congress, and the 
Administration called the Personal Responsibility and Work Opportunity 
Reconciliation Act (PRWORA), more commonly referred to as welfare 
reform. This agreement gave Governors the opportunity to develop 
innovative approaches to helping low-income families work toward self-
sufficiency through a system based on work requirements and time 
limits.
    The nation's Governors thank you for the opportunity to make these 
sweeping changes and for devolving the authority to administer welfare 
programs so that Governors could make decisions at the state and local 
level. I am here today on behalf of Governors to renew the bipartisan 
federal-state partnership that was forged in 1996 and to give you 
Governors' recommendations for how we can work together toward the next 
stage of welfare reform. The agreement to enact federal welfare reform 
was built on a strong bipartisan basis, and Governors strongly urge the 
committee to make a commitment to once again reach a bipartisan 
consensus on how to reauthorize this law.
    Governors are proud of the success they've achieved in welfare 
reform. As a result of the changes Governors have made in the states, 
unprecedented numbers of single women with children have moved into the 
workforce. Welfare case loads are down by over 50 percent nationwide. 
Poverty rates are at their lowest in years. The focus of welfare 
systems has been transformed from check-cutting to comprehensive 
employment and support with an emphasis on job placement and retention. 
Fewer individuals are dependent on cash payments and yet a greater 
number of families are benefiting from programs to help them enter the 
workforce, stay employed, advance in their jobs, and improve their 
overall family well-being.
    Governors recognize, however, that the job of helping families 
attain long-term self-sufficiency is far from over and that many 
challenges remain. The nation operated under the Aid to Families with 
Dependent Children (AFDC) program for more than 60 years. Over time, 
this program grew less effective as families became more reliant on 
public assistance. In just a few short years of operating Temporary 
Assistance for Needy Families (TANF) programs, states have dramatically 
changed their system of public assistance--yet it still very much is a 
program in development. The nation's Governors urge the committee to 
build on the success that has been achieved thus far and to reject any 
proposals that would alter the course that states have followed in 
implementing welfare reform.
NGA Policy on Welfare Reform
    At the NGA Winter Meeting, the Governors adopted a policy making 
specific recommendations for the reauthorization of welfare reform. I 
will highlight a few of these recommendations and I encourage you to 
review the complete written policy as well. A copy of the NGA policy is 
attached and we ask that it be submitted for the record.
    I will highlight policy recommendations in three specific areas: 
flexibility, funding, and program alignment.
Flexibility
    The flexibility of the TANF block grant was the cornerstone of the 
1996 reforms. The four broad statutory purposes for TANF provide states 
with significant flexibility to develop and implement innovative 
approaches to providing assistance to low-income families. This 
flexibility has allowed 50 different states and territories to operate 
50 different programs--and even greater than that--it gave states the 
ability to allow local communities to develop their own unique 
approaches to addressing families' needs at the community level. This 
flexibility has provided states the ability to use TANF funds for a 
broad range of services and programs designed to improve the well-being 
of low-income families.
    In addition to the work-based services such as job placement, 
retention, and advancement assistance, states use the flexibility 
within TANF for work supports such as child care and transportation, 
education and training programs, substance abuse and mental health 
treatment, after-school programs and teen pregnancy prevention efforts, 
and family counseling and fatherhood programs--just to name a few. This 
flexibility must be maintained in reauthorization.
    Emphasis on work should continue. One area where state flexibility 
is critical is within work requirements. Governors believe that the 
emphasis on work should continue to be paramount in welfare reform. 
This emphasis on work began years before federal welfare reform was 
enacted in 1996 through the dozens of waivers requested by Governors 
that allowed states to develop innovative welfare-to-work initiatives. 
States continue to build on their proven success of promoting work--as 
well as retention and advancement strategies--and urge the Federal 
Government to build on this success as well.
    While states may now know more about what helps prepare individuals 
for work and succeed in the workplace, the importance of work has not 
shifted and should continue in reauthorization. Governors support the 
notion that TANF clients should be engaged in work preparation or 
employment activities but believe that states should have greater 
flexibility to define what counts as a work activity. As states work 
with families on a more individualized basis, many states are finding 
that a combination of activities on a limited basis, such as work, job 
training, education, and substance abuse treatment, leads to the 
greatest success for some individuals. The Federal Government should 
recognize the success of these tailored approaches to addressing an 
individual's needs.
    In addition, states that were afforded flexibility through waivers 
should have the option to continue or renew these waivers under TANF 
reauthorization. Restricting this flexibility could greatly curtail the 
progress made in some states' welfare reform initiatives.
    While Governors have not yet reached a consensus on the specific 
provisions of the pending proposed changes to the work requirements, 
NGA, jointly with the American Public Human Services Association 
(APHSA), recently conducted a survey of states to learn more about the 
potential implications the proposed work requirements would have on 
current welfare reform systems. Close to 50 states have responded to 
this survey, and I ask that the document summarizing the results be 
submitted for the record.
    Family formation. Governors appreciate the approach taken by the 
Administration to encourage--rather than mandate--state innovation 
related to family formation. States should continue to have the 
flexibility to decide how to best develop innovative approaches to 
strengthening families--through marriage promotion, teen pregnancy 
prevention, and/or fatherhood initiatives--within the context of their 
own unique state welfare reform initiatives. Governors would oppose any 
proposals that would use set-asides to mandate the use of TANF funds 
for any specific purposes, and Governors appreciate that the 
Administration also rejected these proposals.
    Other key areas of flexibility. A number of provisions included in 
pending reauthorization proposals demonstrate the recognition in 
Congress and within the Administration that the flexibility afforded to 
states must continue.
    Specifically, Governors support:

        <bullet> The provision included in the Administration's 
        proposal that would eliminate the restriction on the use of 
        carry-over TANF funds.
        <bullet> The provision included in the Administration's 
        proposal that would provide states the ability to maintain 
        rainy-day funds.
        <bullet> The provision included in the Administration's 
        proposal providing states the ability to continue the transfer 
        of funds from TANF to the Social Services Block Grant and the 
        Child Care Development Block Grant (CCDBG).

    Governors also appreciate the inclusion in some proposals' 
provisions that would provide states the option to serve legal 
immigrants with TANF funds.
Funding
    Governors appreciate the Administration's and the subcommittee's 
recognition of the need for continued funding for the TANF block grant. 
Welfare is no longer simply about providing cash payments to poor 
families. While Governors are proud of the significant decline in the 
welfare case loads, the untold story is about the significant federal 
and state resources that are now dedicated to non-cash assistance for 
low-income families such as child care and transportation assistance--
assistance designed to keep individuals working and to prevent their 
return to the cash case load. The continued investment from the Federal 
Government is imperative to our ability to sustain this new construct 
of delivering services to broad populations of low-income families. NGA 
policy calls for an inflationary adjustment in the TANF block grant. 
Without an increase, the continued reduction in the real dollar value 
of the TANF block grant could cause states to shift their focus away 
from the non-cash assistance services that directly related to the 
success of welfare reform.
    TANF supplemental grants, contingency fund. Governors also support 
provisions in the Administration's proposal that would continue funding 
for both the TANF supplemental grants and the TANF contingency fund. 
Governors encourage the committee to consider making changes to the 
existing contingency fund so that it becomes a viable option for states 
in times of economic downturn.
    Bonuses. Governors encourage the committee to consider the 
importance of investing in bonuses as a means to encourage and reward 
positive outcomes in welfare reform. Governors support the continuation 
of funding for bonuses and believe that bonuses, rather than penalties, 
are an effective tool for the Federal Government to use to recognize 
state innovation and progress toward achieving the goals of the welfare 
reform law.
    Child care. It is imperative that the Federal Government continue 
to recognize child care as a key component of a family's ability to 
succeed in their transition from welfare-to-work. Despite significant 
increases in both state and federal investments in child care, many 
states continue to face an unmet need for child care subsidies. States 
must continue to have the ability to use TANF funds both directly on 
child care and through the transferability to CCDBG. Governors also 
believe that funding for child care should continue to be a priority 
for the Federal Government.
Program Alignment
    States' ability to coordinate federal programs that serve families 
in need is critical to the next stage of welfare reform. With the 
advent of welfare reform, states are working to create a more 
comprehensive system of supports for families. Yet too many barriers 
exist in federal law that prevent or complicate this coordination.
    Food stamps. One example of a federal program where Governors 
believe states should have greater flexibility is the Food Stamp 
Program. While I recognize that the Food Stamp Program is not within 
the jurisdiction of this committee, food stamp benefits are often a key 
support for families as they move toward self-sufficiency and are 
directly related to the continued success in welfare reform. Despite 
significant progress in welfare reform, which has provided Governors 
the ability to develop innovative approaches through the TANF block 
grant, rules for administering the Food Stamp Program remain 
prescriptive and inflexible. Governors encourage members of this 
committee to work toward reform of the food stamp program. A number of 
significant changes have been proposed in the nutrition title of the 
pending farm bill, and the nation's Governors urge your support for 
these reforms.
    Other key programs and expanded waiver authority. A number of other 
programs are increasingly interconnected with welfare reform 
initiatives in states, such as child welfare, child support, housing, 
Medicaid and the Workforce Investment Act. Governors appreciate the 
Administration's recognition of the need to break down these barriers 
to coordination by proposing expanded waiver authority for states. We 
look forward to working with the committee to develop the most 
effective ways to eliminate barriers to, and to create incentives for, 
greater coordination of related programs. Governors believe states' 
ability for greater coordination will ultimately lead to an improved 
system of delivering assistance to our citizens.
    Thank you for the opportunity to testify today. On behalf of the 
nation's Governors, I look forward to working with you to renew the 
historic, bipartisan partnership as we move to the next stage of 
welfare reform.
                                 ______
                                 
                         HR-36. WELFARE REFORM
36.1 Background.
    The 1996 welfare reform law marked an historic shift in social 
policy by devolving to the states and territories the authority to 
develop and implement innovative approaches to welfare reform that 
would better serve poor families. The nation's Governors led the way 
for this reform by demonstrating successful implementation of waivers 
to the former Aid to Families with Dependent Children (AFDC) program, 
adopting innovative policies related to work requirements and time 
limits. Governors welcomed the opportunity to make broad, nationwide 
changes to a welfare system that had operated for more than 60 years. 
In partnership with Congress and the Administration, Governors reached 
an agreement to end the federal funding of an individual entitlement to 
cash assistance, and to instead accept federal funds in the form of the 
Temporary Assistance for Needy Families (TANF) block grant with work 
participation requirements and a 60-month federal time limit on cash 
assistance with state-specified exemptions. In exchange for the ability 
to administer the program at the state level, Congress and the 
Administration made a commitment to Governors for guaranteed levels of 
funding for TANF, and Governors agreed to maintain state expenditures 
through a maintenance-of-effort (MOE) provision. The TANF block grant 
has provided Governors the flexibility to implement innovative welfare 
reform programs based on work requirements and time limits, along with 
the ability to use TANF funds to provide needed work supports for low-
income working families.
36.2 Next Stage of Welfare Reform.
    Governors are proud of their success in welfare reform. States and 
territories have enacted policies and programs to help individuals move 
into work and have provided them with work-related supports, such as 
child care and transportation assistance. As a result, unprecedented 
numbers of single women with children have moved into the workforce. 
The focus of welfare systems has been transformed from check-cutting to 
comprehensive employment and support with an emphasis on job placement 
and retention. TANF provides the flexibility to allow caseworkers to 
better assess recipients' needs and tailor their assistance package on 
an individual basis. As a result, fewer individuals are dependent on 
cash payments and a greater number are benefiting from state programs 
to help them enter the workforce, stay employed, advance in their jobs, 
and improve their overall family well-being.
    Governors recognize, however, that the job of helping families 
attain long-term self-sufficiency is far from over and that many 
challenges remain. States continue to face the challenges of the next 
stage of welfare reform as Congress and the Administration consider 
reauthorization of the TANF block grant. For example, Governors 
recognize that achieving self-sufficiency and sustained independence 
from welfare requires more than just an entry-level job. States are 
beginning to address the challenges of promoting job retention, job 
advancement, and increased earnings. Further, many long-term welfare 
recipients who remain on the welfare rolls struggle with multiple 
barriers to employment, such as low literacy levels, mental illness, 
substance abuse, learning disabilities, limited English proficiency, 
and domestic violence. States face the challenge of working to address 
these barriers in light of time limits and work requirements. In 
addition, research indicates that children are better off if they are 
raised with the active involvement of both parents. Governors recognize 
that initiatives in areas such as fatherhood programs and teen 
pregnancy prevention programs can help prevent welfare dependency and 
result in better outcomes for children.
    Balancing priorities and facing increasing demands for assistance 
in times of economic downturn have become recent challenges to state 
welfare programs. Since the enactment of TANF, states have used the 
funding and flexibility provided in the block grant along with 
significant state investments to develop and implement new innovative 
work and family support initiatives far beyond the traditional cash 
welfare system. In fact, a recent study by the General Accounting 
Office demonstrated that over the past five years many states have 
substantially increased their own financial investment to address the 
overall needs of low-income families. With recent rises in unemployment 
and heightened expectations for the reformed welfare system, however, 
states may now be faced with significant new fiscal challenges in their 
TANF programs to maintain a consistent level of assistance to families 
in need.
36.3 Recommendations for Reauthorization.
    The ongoing progress of welfare reform is of the utmost concern to 
the nation's Governors. The nation operated under the AFDC program for 
more than 60 years. Over time, this program grew less effective as 
families became more reliant on public assistance. In just a few short 
years of operating TANF programs, states have dramatically changed 
their system of public assistance--yet it is still very much a program 
in development. The success of welfare reform has demonstrated the 
positive changes that are possible through devolution of authority to 
the state and local level, and Governors strongly believe this 
authority should not be rescinded. Any policy changes at the federal 
level that would alter the course states have followed in implementing 
their TANF programs could have a detrimental impact on the delivery of 
assistance. The nation's Governors urge Congress and the Administration 
to reject any reauthorization proposals that would hinder the continued 
progress of welfare reform.
36.3.1 Funding.
36.3.1.1 Overall funding levels should include an inflationary 
        adjustment.
    Governors believe the Federal Government must maintain the 
financial commitment to the TANF block grant and allow for inflationary 
increases in the program. Welfare is no longer simply about providing 
cash payments to poor families. While Governors are proud of the 
significant decline in the number of people receiving cash assistance, 
the untold story of welfare reform is the amount of federal and state 
funds that are now being dedicated to non-cash assistance, such as 
child care, transportation, training, and family support services for 
families transitioning from welfare-to-work. Failure to provide an 
inflationary increase, coupled with a continued reduction in the real 
dollar value of the TANF block grant, could cause states to shift their 
focus away from, or reduce their investment in, non-cash assistance 
services that directly relate to the success of welfare reform. The 
continued financial commitment from the Federal Government is 
imperative to states' ability to sustain the new construct of 
delivering services to broad populations of low-income families.
36.3.1.2 Supplemental funds should continue.
    The original TANF statute provided supplemental funding to 
qualifying states with high population growth or historically low 
welfare spending. Governors believe such supplemental funds to states 
should be included in the qualifying states' base grant amounts in 
reauthorization. If Congress determines that additional states and/or 
territories qualify for TANF supplemental funds, all such funds should 
be in addition to the current total TANF funding as adjusted for 
inflation. These funds should be in addition to those that have been 
historically paid to states through the TANF supplemental grants in 
fiscal 2001.
36.3.1.3 Contingency fund should be strengthened.
    Governors support strengthening the existing TANF contingency fund 
to make it a viable source of federal support in times of economic 
crisis. The uncertainty of the current economic situation speaks to the 
need to develop a workable TANF contingency fund. Specifically, 
Governors are interested in working with Congress and the 
Administration to develop more appropriate triggers for eligibility. In 
addition, the high match requirement imposed on states that access the 
contingency fund is not reasonable during an economic downturn, and 
Governors believe this requirement should be eliminated.
36.3.1.4 Ability to maintain state ``rainy day'' funds should be 
        enhanced.
    The TANF statute explicitly allowed states to carry funds forward 
from year to year--in part to allow states to prepare for a ``rainy 
day.'' Unfortunately, Congress has often viewed carryover funds as 
dollars no longer needed by the states, making them vulnerable to cuts. 
Rather than creating an incentive for states to spend federal funds in 
a rush--the ``spend it or lose it'' mentality--the Federal Government 
should create incentives for states to ``save'' funds so that states 
are better equipped in times of economic difficulty. Governors believe 
Congress and the Administration should consider new incentives for 
states to ``save,'' such as allowing states to count state ``rainy 
day'' funds for welfare toward some portion of their TANF MOE 
requirement.
36.3.1.5 Bonuses should be used to reward high performance.
    States are currently eligible for financial bonuses through the 
TANF High Performance Bonus and the out-of-wedlock birth reduction 
bonus. Governors believe that bonuses, rather than penalties, are an 
effective mechanism for the Federal Government to use to encourage and 
reward innovative state approaches to welfare reform, and support the 
continuation of these bonuses.
36.3.2 Flexibility.
    Governors believe that states' ability to implement innovative 
approaches to assist low-income families must continue. The flexibility 
of the TANF block grant was the cornerstone of the 1996 reforms. The 
four broad purposes for TANF currently contained in the federal welfare 
law provide states with significant flexibility to develop and 
implement innovative welfare reform initiatives and to serve a broad 
population of families in need. States are directed to use TANF funds 
``in any manner that is reasonably calculated to accomplish the 
purpose(s).'' Governors strongly believe that this flexibility must be 
maintained.
    Further, Governors would oppose any effort to establish set-asides 
or further restrictions on the use of TANF funds. The 1996 welfare 
reform agreement was based on providing states the flexibility to 
design unique welfare reform initiatives, and proposals to require 
states to spend specified levels of TANF funds for a specific purpose 
would violate the basic tenets of this agreement. Any added emphasis 
the Federal Government places on a specific area of TANF spending, such 
as family formation, fatherhood, or poverty reduction, should come in 
the form of additional federal spending for state demonstration 
projects that can be rigorously evaluated.
    In addition, Governors believe there are a number of areas in which 
additional flexibility could enhance state welfare reform initiatives.
36.3.2.1 Focus on work should remain paramount.
    Governors believe that the emphasis on work should continue to be 
paramount in welfare reform. While states may now know more about what 
helps prepare individuals for work and succeed in the workplace, the 
importance of work has not shifted and should continue in 
reauthorization. Governors support the notion that TANF clients should 
be engaged in work preparation or employment activity but believe that 
states should have greater flexibility to define what counts as a work 
activity. As states work with families on a more individualized basis, 
many states are finding that a combination of activities on a limited 
basis, such as work, job training, education, and substance abuse 
treatment, leads to the greatest success for some individuals. 
Governors believe the Federal Government should recognize the success 
of these tailored approaches to addressing an individual's needs by 
providing states greater discretion in defining appropriate work 
activities.
    In addition, Governors believe two-parent families and single-
parent families should be subject to the same work participation rates 
and encourage Congress to eliminate the separate two-parent work 
participation rate.
    Consistent with the goals of welfare reform, states also should 
continue to receive credit for helping to move families off welfare.
36.3.2.2 Time limits should continue.
    Governors believe time limits on assistance have an important 
signaling effect to both recipients and to caseworkers about the 
urgency of addressing a family's needs and strongly support their 
continuation. As more states approach the time when long-term welfare 
recipients will begin to reach their limit on federally-funded cash 
assistance, Governors believe that, at state option and under certain 
limited circumstances, individuals who are working in unsubsidized 
employment consistent with the purposes of the law should have the 
ability to earn additional months of eligibility for federally-funded 
assistance.
36.3.2.3 Ability to work with faith-based providers should continue.
    States have a long history of working with faith-based 
organizations, and these organizations play an important role in 
improving the lives of families in need. The 1996 welfare reform law 
provided states with the option to contract with religious 
organizations within the TANF program. Governors believe this is a 
sound approach to collaboration with faith-based organizations and the 
option should be continued.
36.3.2.4 Immigrant benefits should be restored.
    Although some benefits to some legal immigrants have been restored 
in recent years, states should have the option to serve legal 
immigrants with TAN funds.
36.3.2.5 Waiver policies should be continued.
    Many states have continued to operate under waivers even after the 
enactment of TANF. States that were afforded enhanced flexibility 
through waivers should have the option to continue or renew some or all 
of these waivers under the TANF reauthorization legislation. 
Restricting this flexibility could greatly curtail the progress made in 
some states' welfare reform initiatives.
36.3.2.6 Transferability should be enhanced.
    The 1996 welfare reform law allowed states to transfer up to 30 
percent of their TANF funds into the Child Care Development Block Grant 
(CCDBG) and the Social Services Block Grant (SSBG). In recent years, 
however, the transferability to SSBG has been restricted. Governors 
believe the authority to transfer funds to both CCDBG and SSBG should 
be maintained and the amount states can transfer to SSBG should be 
restored to 10 percent. In addition, Congress and the Administration 
should consider enhancing states' abilities to use TANF funds toward 
the Access to Jobs transportation program through transferability.
36.3.2.7 Definition of qualified state expenditures should be expanded.
    Differences between allowable uses of TANF funds and state 
expenditures that are a ``countable'' qualified state expenditure under 
the state MOE requirement are unnecessary complex and burdensome. For 
example, even though both state and federal funds can generally be used 
in ways that are consistent with the purposes of the act, state funds 
can be used only when a needs test is met. In effect, this means that 
the federal legislation restricts state spending more than it does 
federal spending. Governors support removing the restrictions on state 
funds so that states have at least as much flexibility in their 
spending of MOE funds as they do with TANF funds.
36.3.2.8 Restrictions on the use of carry-over funds should be 
        eliminated.
    The TANF statute explicitly provides states with the authority to 
carry funds forward from year to year to encourage long-range planning 
and to prepare for economic downturns. However, states are currently 
restricted to using funds from previous years on cash assistance only, 
essentially limiting states' ability to use carryover funds for work 
supports, such as child care and transportation. Since states are now 
spending a much higher proportion of their TANF funds on work supports 
and benefits other than cash assistance, Governors believe this 
restriction should be eliminated.
36.3.3 Program Alignment.
    Governors believe the Federal Government should explore ways to 
simplify and align rules for related programs in order to enhance 
states' abilities to create a cohesive system of support for low-income 
families. With the advent of welfare reform, states are working to 
create a more comprehensive system of assistance for families in need. 
The system of programs and benefits for individuals and families in 
need is becoming increasingly interconnected, and the Federal 
Government should consider eliminating barriers to this progress. Just 
as families' needs do not distinguish between different federal funding 
sources, neither should the Federal Government address families' needs 
with cumbersome and disjointed funding streams, eligibility rules, and 
reporting requirements. Governors believe states and territories should 
be provided greater flexibility to coordinate federally funded state-
administered programs. A federal-state task force should be established 
to provide formal recommendations to Congress and the President on ways 
to increase coordination among federal programs serving families in 
need.
36.3.3.1 Food stamps.
    Food stamp benefits are often considered a key support for families 
transitioning from welfare-to-work. Unlike welfare reform, however, 
which has allowed states to develop innovative approaches for 
addressing families' needs, rules for administering the Food Stamp 
Program remain prescriptive and inflexible. Governors believe reforming 
the Food Stamp Program is a critical component of the next stage of 
welfare reform. Specific recommendations for food stamp reform can be 
found in the NGA food stamp policy (HR-22).
36.3.3.2 Child care.
    It is imperative that the Federal Government recognize child care 
as a key component of a successful TANF program. For many families, a 
successful transition from welfare-to-work is based on the reliability 
of child care assistance. Despite significant increases in both state 
and federal investments in child care, many states continue to face an 
unmet need for child care subsidies. Governors believe that states must 
continue to have the ability to use TANF funds both directly on child 
care and through the transferability to CCDBG. Governors also believe 
that funding for child care should continue to be a priority for the 
Federal Government.
36.3.3.3 Child welfare.
    Governors recognize that in many states, TANF funds are used for a 
variety of child welfare services, such as kinship care and family 
preservation initiatives, and this flexibility should continue. 
Governors also believe that additional flexibility within the child 
welfare system, including expanded waiver authority, could greatly 
enhance states' abilities to serve families in need. Specific 
recommendations for additional flexibility in child welfare programs 
can be found in the NGA child welfare policy (HR-26).
36.3.3.4 Child support.
    As a result of reforms enacted as part of the 1996 welfare reform 
law, states have a number of new tools to collect and distribute child 
support payments, which have greatly strengthened the overall child 
support enforcement program. Recognizing that child support payments 
are often a key component of a family's economic security, states are 
continuing to work to improve the collection and distribution of child 
support for low-income families. Governors are supportive of the 
Federal Government providing states with the option and the incentive 
to passthrough a greater share of child support collections to 
families--bearing in mind that in many states the financial stability 
of the child support enforcement system depends, in part, on retained 
collections. Specific recommendations for creating options for 
passthrough can be found in the NGA child support policy (HR-14).
36.3.3.5 Housing.
    Even though affordable, convenient housing is critical for a family 
to have a successful transition from welfare-to-work, there is too 
often a disconnect between agencies administering housing and welfare 
programs. Governors are interested in working with Congress and the 
Administration to develop proposals within the TANF reauthorization to 
help improve the interaction between welfare and housing systems.
36.3.3.6 Workforce Investment Act.
    Coordination between the TANF system and the workforce system 
continues to be a significant challenge in many states. Despite the 
enactment of the Workforce Investment Act in 1998, complex rules 
attached to various funding streams continue to make effective 
coordination between agencies unnecessarily difficult. Governors are 
committed to continuing to work toward better coordination and are 
interested in working with the Federal Government to explore ways to 
improve this relationship.
36.3.3.7 Medicaid.
    Governors recognize Medicaid as a key component of a family's 
transition from welfare-to-work. Without access to regular health care, 
health problems of a new worker or the worker's family members are 
likely to lead to greater absenteeism and possibly to job loss. Because 
access to health insurance is a crucial work support, Governors believe 
that Transitional Medicaid Assistance (TMA) should be continued. In 
addition, Governors acknowledge the importance of administrative funds 
for all health and human service programs, including Medicaid. While 
shared Medicaid administrative funds may have been incorporated into 
some states' TANF block grant base allocation, Governors believe that 
any reduction in the federal commitment to the administration of these 
programs will result in a loss of vital health and human service 
assistance to families in need.

Time limited (effective Winter Meeting 2001--Winter Meeting 2003).
Adopted Winter Meeting 1997; revised Winter Meeting 1999, Winter 
Meeting 2001, and Winter Meeting 2002.
                               __________
                    Welfare Reform Reauthorization:
         State Impact of Proposed Changes in Work Requirements
                       April 2002 Survey Results
    The National Governors Association (NGA) and the American Public 
Human Services Association (APHSA) recently conducted a joint survey of 
Governors and state TANF administrators to assess the impact proposed 
changes to the work requirements would have on current state welfare 
reform initiatives. This document represents the compilation and 
summation of the survey results and in no way represents NGA/APHSA 
policy or position on any legislative proposal. The suggested 
modifications included in this document represent the views of 
individual states and have not been developed in collaboration with 
NGA/APHSA staff.
    The goal of the survey is to help inform the welfare reform 
reauthorization debate, especially around work-related and overall 
funding issues. NGA and APHSA plan to use the information gathered in 
the surveys to complement the current work participation data which is 
reported by HHS, and to provide both quantitative and qualitative data 
to key policymakers on Capitol Hill and in the Administration about 
current state policies related to work, and about how state programs 
would be affected if proposed changes were enacted.
    This survey did not address other provisions of the 
Administration's welfare reform reauthorization plan, many of which are 
consistent with NGA and APHSA policy positions on welfare reform. NGA 
and APHSA chose to focus the survey primarily on the impact of work-
related provisions proposed by the Administration since this was the 
one area of the proposal that marked a significant change from the 
current TANF law. A total of 48 states responded to the survey, 
representing a broad range of states from all regions of the country. A 
list of the states who responded is attached. Not all states that 
submitted a completed survey responded to all 20 questions included in 
the survey. The results are summarized in this report.
                    NGA/APHSA Policy Related to Work
    The current NGA policy on welfare reform (HR-36) makes the 
following statement on work:

        L  ``Governors believe that the emphasis on work should 
        continue to be paramount in welfare reform. While states may 
        now know more about what helps prepare individuals for work and 
        succeed in the workplace, the importance of work has not 
        shifted and should continue in reauthorization. Governors 
        support the notion that TANF clients should be engaged in work 
        preparation or employment activity but believe that states 
        should have greater flexibility to define what counts as a work 
        activity. As states work with families on a more individualized 
        basis, many states are finding that a combination of activities 
        on a limited basis, such as work, job training, education, and 
        substance abuse treatment, leads to the greatest success for 
        some individuals. Governors believe the Federal Government 
        should recognize the success of these tailored approaches to 
        addressing an individual's needs by providing states greater 
        discretion in defining appropriate work activities.''

    The current APHSA policy on TANF, as written in the APHSA document 
Crossroads, includes the following statement in regard to work 
requirements:

        L  ``Recognizing that each state is unique and at different 
        phases of welfare reform, at state option, measures of job 
        placement, job retention and earnings progression could replace 
        the current work participation rates.''
                          Overall TANF Funding
Proposal

    Under the Administration's proposal, the TANF block grant would be 
funded at $16.6 billion per year over 5 years. States would receive a 
block grant allotment equivalent to the amount received in FY 1997. 
TANF supplemental grants would be funded at $319 million during federal 
fiscal year 2003.
Current law

    Current law provides states with TANF block grant allotments 
equivalent to the federal payments received under the former AFDC 
program in FY 1992-94, 1994 or 1995, whichever is higher. Baseline 
funding for the block grant is $16.5 billion annually. Seventeen states 
received annual supplemental grant allotments during federal fiscal 
year 1997 through 2001 due to high population growth and high poverty. 
Each state received a 2.5% increase in their annual TANF block grant 
allotment each year. The authorization for the supplemental grants 
expired in FY 2002.
Survey results

    According to the survey, the majority of states are spending at 
levels above their annual block grant allotment. States reported 
programming prior year funds in the current year while others also 
noted expending high performance and other bonus funds. Based on the 40 
states that responded to the question concerning TANF spending levels 
in the current fiscal year, 29 reported spending at levels in excess of 
their grant allotment, 8 reported spending their full allotment, and 3 
reported spending below their grant allotment.
    States expressed concerns over the impact of level funding of the 
TANF block grant; citing inflation having reduced the purchasing power 
of the block grant, making it unlikely that the block grant will keep 
pace with the rising costs of services, such as case management, 
employment and training, transportation and child care.
    ``Although case loads for cash aid have gone down dramatically 
since the 1996 law, the cost of providing employment and other services 
to those remaining on aid has increased . . . Without sustained support 
for these services, dependence on cash aid could increase.'' (CA)
    ``Over the five year period that the TANF block grant has been in 
place, inflation has reduced purchasing power by 2-3 percent each year 
. . . and because we are spending in excess of our annual allotment, we 
will have to cut spending.'' (MI)
    ``Any shifts in case load size, ever increasing child care rates 
and additional services to populations who are harder to service will 
compete for existing funds already committed on a regular basis. The 
state would have to redesign program eligibility and services or face 
potential waiting lists if the block grant was level funded or the 
state would have to commit additional state dollars to maintain 
existing programs and services at current levels.'' (ME)
    ``Level funding does not cover administrative expenses for 
contractors, staff or child care providers. Our funding priorities 
would have to shift and could include a cut in financial assistance 
benefits, child care or support services.'' (VT)
    ``We have built in program sunsets that will bring our future 
spending within our current block grant level. Getting to that level 
will be painful. It will require paring back benefit levels and 
eligibility leaving unfunded a major intervention program for the 
hardest to employ and not renewing benefits to families that are 
outside of our core TANF program.'' (MN)
 Implications of Proposed Work Requirements on Current Welfare Reform 
                               Strategies
Proposal

    The Administration's proposal would increase work participation 
rates for state TANF programs each year by 5 percent until states 
achieved a 70 percent work participation rate by FY 2007. The proposal 
also increases the required number of hours of work to 40-hours per 
week and requires clients to work 24 hours in unsubsidized employment, 
subsidized public sector employment, subsidized private sector 
employment, on the job training, community work experience or community 
service. States would have the flexibility to use the remaining 16 
hours to engage families in activities that do not qualify as work but 
serve to ``achieve a TANF purpose''. Welfare waiver demonstration 
programs would be discontinued, the case load reduction credit would be 
eliminated and replaced with a provision allowing states to count for 3 
months the number of clients who left the cash case load for earnings 
when calculating the work participation rate.
Current law

    States are required to meet a 50% work participation rate; 30 hours 
is required for single head of households; for families with children 
under age six, 20 hours satisfies the requirement. States may engage 
clients in any of twelve different activities defined in law, including 
vocational education and job search on a limited basis. In addition, 
states are permitted to operate their work programs under the terms of 
their approved welfare waiver demonstration program. States also may 
use a case load reduction credit to reduce their required work 
participation penalty. States have the flexibility to design programs 
with higher participation standards, different work definitions and 
additional hours.
Survey results

    States were asked if the proposal would require them to shift their 
current approach to working with TANF families and to elaborate on any 
redirection of resources or major policy changes that would occur. Of 
the 47 states that responded to this question, 41 states indicated that 
the proposal would cause them to make fundamental changes to their 
state welfare reform strategies and/or redirect resources; 2 states 
stated that no change would be necessary and 4 states described some 
changes that would be required.
    Several states noted that evaluations of their programs have given 
them evidence that they are pursuing successful strategies that would 
require fundamental change if the Administration's proposal became law.
    ``The independent evaluation of the pilot version of Minnesota's 
approach found it to be perhaps the most successful welfare reform 
effort in the nation, resulting in increased work effort, lower 
dependence on welfare, reduced poverty, more stable marriages and 
better outcomes for children. This approach will be jeopardized by more 
stringent work participation requirements . . . This would require us 
to shift away from our investments that are aimed at reducing poverty 
and helping hard-to-employ families. Instead we would have to invest in 
public work programs and focus on keeping families involved in many 
hours of activity, regardless of individual need . . . This would 
represent a dramatic shift in the course for welfare reform in 
Minnesota, a course we have spent more than a decade developing, and 
would needlessly jeopardize an approach that is considered a national 
model.'' (MN)
    A number of states noted that their welfare-to-work approach has 
been tailored to meet the individual needs of the TANF clients served 
by the program and that the proposed changes in work requirements would 
require them to redesign their strategies.
    ``Yes, a major redirection of resources and policy would occur. 
Utah would likely have to abandon the universal participation approach 
based on individualized employment planning. Employment counselors 
would become worksite developers and monitors instead of negotiating 
individualized employment plans tailored to meet the customer's needs 
to be employed.'' (UT)
    States that have devolved administration of the TANF program to 
local or county-based administrators expressed concern that the 
proposed changes in work requirements would limit state and local 
flexibility. As a result, local agents and community partners would 
need to redirect resources to meet new program requirements.
    ``One of the major focuses of Maryland's Family Investment Program 
is to provide flexibility to its local department of social services to 
design and implement programs that meet the unique needs of our 
customers . . . since no additional funds are included in the proposal, 
local departments would be forced to dismantle effective programs that 
reduce non-marital births, improve job retention, encourage completion 
of secondary education by teenagers and young adults and reduce 
substance abuse. In essence we would replace a program geared toward 
helping people leave welfare for work (or avoid welfare altogether) for 
one geared toward making those on welfare participate in ``work-like'' 
activities.'' (MD)
    ``By expanding work requirements, and simultaneously restricting 
California's ability to meet those requirements, the President's 
proposal would significantly limit state flexibility to design programs 
that move families from welfare-to-work. One example is the proposal to 
narrow the allowable work activities, which will limit current 
flexibility to design programs according to each counties' need.'' (CA)
    ``This would cause a major shift in how we run our programs. We 
currently have contracts with many state and community partners to 
provide work readiness activities for our TANF client. These contracts 
would have to be ended or severely modified. Additionally, we would 
have to seriously look at the probability of including a community 
service component to our program which we currently do not have.'' (OK)
    States indicated that under the proposed changes in work 
requirements, the ability to continue to offer education related 
programs to TANF clients would be diminished.
    ``. . . our case managers are encouraged to assign clients to a 
combination of work and educational activities that best meet the 
client's needs and will lead to the most productive outcomes for that 
client . . . we will no longer be able to offer this . . . since 40 
hour per week jobs are not widely available, it would be to the state's 
advantage to place clients in subsidized employment or preparation for 
employment activities rather than unsubsidized work which would seem to 
defeat the whole purpose.'' (AL)
    ``Our concern has been and will continue to be one what is best for 
the family. However, with the increased participation rate and the 
likelihood of a penalty for failure to meet the new rate, we may no 
longer be able to support this philosophy as fully or support 
education-related activities that in the long run may help families 
actually move out of poverty.'' (NC)
    ``A 70% participation rate with a 40 hour a week requirement will 
probably require two things. First, creation of a number of make work 
activities or greater use of current ones, whether or not warranted, 
just to fill the requirement. Second, a near total abandonment of 
allowing any client that is able to work at all to participate in such 
things as GED programs or post-secondary education. Near 30% of the 
case load could soon be cases with multiple barriers to any kind of 
useful activity, meaning all the rest will have to be in work 
activities.'' (IL)
    A number of states noted that due to the significant case load 
reduction that has occurred over the past five years, the clients 
remaining on the cash assistance rolls have multiple barriers to 
employment and that the proposed requirements would limit states' 
ability to work with these families as they have done in the past.
    ``Under the President's proposal, states would have less 
flexibility to help clients access needed domestic violence counseling, 
vocational rehabilitation services and family stabilization resources 
that are sometimes necessary in successfully finding employment. We 
believe that our approach is likely to be more successful in helping 
clients retain the jobs that they get (and we believe that the recent 
NEWWS study that reviewed Oregon's program confirms this) because our 
staff and partners take the time to help clients remove barriers to 
employment.'' (OR)
    In order to meet the proposed rates and hours, many states noted 
that they would need to create work experience and community service 
slots to meet required rates in part because the recent downturn in the 
economy means fewer unsubsidized jobs are available to meet the 
increased requirements.
    ``To meet these increased rates, New York would have to 
significantly increase the number of recipients in other allowable 
activities such as work experience and community service. TANF 
resources directed to support working recipients and other low-income 
individuals will need to be redirected to help meet the increased rates 
to perform the additional referral and tracking functions associated 
with increased hours and numbers of participants.'' (NY)
    Rural states described structural challenges in meeting the 
proposed work rates, such as availability of jobs, transportation, 
availability of community work positions and tribal populations.
    ``It is extremely unlikely that we could do so (meet the work 
requirements). Challenges include lack of worksites in our many rural 
areas (8.5% of the adult included case load live in Native Villages 
exempt from the time limit; 43% live in small communities with 
populations under 10,000.) We already `compete' with the Dept. of 
Corrections for the limited number of work experience slots in rural 
Alaska.'' (AK)
    States with waivers noted that there would be significant changes 
necessary with the discontinuation of waivers as proposed.
    ``With the flexibility provided to the state under the federal 
waiver process, New Hampshire has been able to customize the program to 
meet the needs of our disadvantaged families. It is these waivered 
activities that were created to meet the specific needs of each family 
that has made this program so successful to date.'' (NH)
    A few states also noted that the proposed changes in the work 
requirements were consistent with current programs.
    ``President Bush's welfare proposal furthers and strengthens a 
central feature, which explains the success of Connecticut's welfare 
reform program, Jobs First. It's the notion that welfare recipients 
must be engaged in the direction of self-sufficiency. Increasing work 
requirements has been successful when it's part of an overall approach 
to reform that includes incentives to transition from welfare-to-work 
by providing families with services and benefits including, strong 
employment services, child care assistance, food stamps, income 
supplements, transportation assistance, and other non-cash work support 
services. The President's welfare reform proposal provides states with 
the flexibility to use innovative solutions to help welfare recipients 
achieve self-reliance and independence.'' (CT)
   Specific Factors Contributing to States' Ability to Meet Proposed 
                              Requirements
    States were asked to describe any circumstances that could 
complicate the state's ability to comply with the proposed work 
requirements. States were not limited to the number of factors they 
could list. Of the 47 states responding to this question, two states 
did not identify any circumstances that could complicate their ability 
to meet proposed requirements. Responses varied widely, but could be 
generally categorized into four areas: rural issues, employment/
economic factors, state/federal policies, and client characteristics.

        <bullet> The majority of states (33) responding cited concerns 
        about meeting the proposed work requirements in rural areas 
        where the economy is often lagging and employment opportunities 
        are limited. Four states specifically mentioned the lack of 
        employers and/or appropriate infrastructure in rural areas that 
        are able to accommodate expanded work experience or community 
        service initiatives. Fourteen states reported that concerns 
        about employment in rural areas are complicated by a lack of 
        adequate transportation and/or child care providers. Six states 
        mentioned concerns about the ability of large tribal 
        populations on TANF to comply with the proposed work 
        requirements, especially those living on reservations.
        <bullet> Many states (27) cited limitations in current state 
        or federal policies that would greatly complicate a state's 
        ability to meet proposed work requirements. Thirteen states 
        raised concerns about low benefit levels that would cause 
        clients to lose eligibility for TANF before reaching full-time 
        employment and that would prevent significant placement in 
        subsidized work experience, and one mentioned a similar concern 
        because of a state minimum wage set higher than the federal 
        rate. Seven states specifically mentioned the application of 
        the Fair Labor Standards Act (FLSA) as a limitation to placing 
        recipients in full-time work. Nine states responded that the 
        loss of a waiver would cause them to shift their approach of 
        working with families to overcome multiple barriers in order to 
        comply with the proposed work requirements. Three states cited 
        state laws that require that individuals with certain 
        characteristics, such as pending SSI or caring for a disabled 
        family member, be exempted or deferred from work requirements. 
        One state reported that state law would have to be amended in 
        order to allow subsidized employment which is currently 
        prohibited under state law. One of the state-supervised, 
        county-administered states raised a concern about having to 
        require each county to revisit their local plans for working 
        with families.
        <bullet> Many states (21) responded by listing factors related 
        to the condition of the local economy, the employment market, 
        and the willingness of employers to engage welfare recipients 
        in work. Eleven states cited high unemployment and significant 
        private sector lay-offs that have led to intense competition 
        for job openings as factors that could complicate their ability 
        to meet work requirements. Five states described the mismatch 
        between the nature of the employment market and the skill level 
        of clients--the jobs that are available require specific skills 
        that often welfare recipients have not acquired, and employers 
        are passing up welfare recipients for workers with higher 
        skills. Eight states responded that because most entry-level 
        jobs in industries most likely to hire welfare recipients are 
        part time, or ``shift work'' (on evenings and weekends), the 
        proposed requirements could require multiple jobs and child 
        care placements. One state raised the concern that employers 
        would not hire recipients who had not had prior vocational 
        training, and two states mentioned that employers often hire 
        less than full-time to avoid providing benefits such as health 
        care.
        <bullet> Some states (10) reported that their current case 
        load has a higher proportion of recipients with multiple and 
        significant barriers to employment which could pose an 
        additional challenge for states. Barriers mentioned include 
        domestic violence, substance abuse, mental health, low literacy 
        rate, lack of English proficiency, lack of high school 
        credentials, and pending SSI.
                         Current Hours of Work
    States were asked to provide the percentage of their case load that 
is engaged in any activity for any number of hours, including those 
that do not count toward the current work participation rate. Of the 37 
states that responded to this question, an average of 61% of the TANF 
cases with an adult in the case load are engaged in some work-related 
activity--as defined by either the state or the Federal Government. 
According to the most recent HHS data, an average of 34% of TANF cases 
is engaged in work activities for at least 30 hours a week.
    States were asked to provide the percentage of their case load that 
is engaged for at least 40 hours a week in an activity that counts 
toward the current work participation rates. Of the 24 states that 
responded to this question, an average of 9% of the TANF cases with an 
adult in the case load are engaged in a federally-defined work activity 
for at least 40 hours a week. In addition, one state reported that 60 
percent of their case load was working 40 hours a week because of their 
waiver which allows them greater flexibility in defining work 
activities. Some states responded that it would not be possible for a 
recipient to be working 40 hours a week at minimum wage and still on 
the case load because they would no longer be eligible for TANF cash 
assistance. Five states responded that were not able to answer this 
question because their systems are not currently equipped to track 40 
hours.
    States were asked to provide the percentage of their case load that 
is engaged for at least 24 hours a week in an activity that counts 
toward the current work participation rates. Of the 30 states that 
responded to this question, an average of 29% of the TANF cases with an 
adult in the case load are engaged in a federally-defined work activity 
for at least 24 hours a week. The numbers were significantly higher in 
states with waivers--close to 90% in two states based on the definition 
of allowable activities under their waivers. States were asked a 
similar question about percentage of case load engaged for 24 hours in 
``work activities'' as defined by the Administration's proposal (which 
includes a list of 6 specific activities). On average, 20% of the TANF 
cases with an adult in the case load are engaged in work for 24 hours 
as defined by the list included in the proposal. In all but three 
states that answered both of these questions, the percentage of cases 
engaged in work decreased with the limited list of countable 
activities.
                        Universal Participation
Proposal

    Under the Administration's proposal, states would be required to 
develop a self-sufficiency plan for each family within 60 days of 
opening a case, and to provide a full engagement of all families in 
such a self-sufficiency plan. This requirement would not apply to 
child-only cases, but would apply to adults in a household with a 
partial family sanction, and to families with a child under the age of 
one. States would be required to ensure that all families are 
participating in constructive activities in accordance with their plan, 
to monitor participation and progress toward self-sufficiency, and to 
evaluate assigned activities.
Current law

    Current law provides authority to, but does not mandate, states to 
develop an individual responsibility plan (section 408(b)) for all 
recipients that would set forth employment goals and plans for moving 
the individual into private sector employment. States are provided 
significant discretion in designing these plans and in deciding who 
should have such a plan.
Survey results

    According to the survey, the majority of states have opted to 
require TANF recipients to have some version of an employability plan. 
Of the 41 states that answered this question, 35 states confirmed that 
they currently work with families to develop plans to move them toward 
self-sufficiency. The names of these plans vary by state. For example, 
a ``personal responsibility plan'', a ``family self-sufficiency plan'', 
or a ``family development plan''. Based on the 33 states that responded 
to a question about the percentage of a state's case load with an 
employability plan, an average of 88% of all adults receiving cash 
assistance currently have some version of an employability plan, as 
defined by the states. Eighteen states responded that 100% of their 
case load has some version of an employability plan. States are given 
broad flexibility to design these plans under current law.
    ``The President's universal engagement concept recognizes that 
moving every welfare family forward means everyone must be engaged in 
the direction of self-sufficiency.'' (CT)
    Many states responded that it was difficult to estimate any 
additional costs associated with the proposal that all families have a 
``self-sufficiency plan.'' State responses relative to additional costs 
for this proposal varied based on the degree to which their current 
policy applied to all families receiving TANF. A number of states 
responded that many families in their TANF case load are exempt from 
work requirements--such as those with a child under age one, caring for 
a disabled child, pending SSI--and the state therefore does not 
necessarily require an employability plan for all families. In those 
states where additional costs were expected as a result of this 
proposal, there was general agreement that the additional and 
intensified case management would lead to higher administrative costs 
for the states.
    ``As an estimate, this would require 15.3 FTEs, resulting in about 
$558,000 in salary and benefit costs.'' (TN)
    A number of states expressed concern about the extent to which they 
may have to change what they currently have in place in order to comply 
with the proposed self-sufficiency plans. Because details of the 
proposal are not yet available, it was difficult for states to estimate 
how much of an impact the universal participation requirement would 
have on existing state programs.
    Policies related to prividing employability plans for cases in 
which an adult has been sanctioned off assistance vary greatly among 
states. Just as states have a broad range of policies related to how 
sanctions are applied to families, so too are their policies on who 
must continue to have an employability plan. In general, states with 
full-family sanctions responded that they do not keep an employability 
plan for an adult after they have been sanctioned and no longer receive 
TANF assistance. States that apply partial family sanctions for 
noncompliance with TANF requirements generally continue to require a 
family to comply with a modified employability plan.
    A number of states expressed concerns about the possible increased 
child care costs associated with this new universal engagement 
requirement, which are outlined further in the summary of the survey 
results on child care.
                Capacity for Barrier Removal Activities
    Under the Administration's proposal, certain ``non-work'' 
activities could count fully toward the 40-hour work week requirement 
for up to three consecutive months within any 24 month period. These 
activities, which are intended to be barrier removal activities aimed 
toward moving a family to employment, include activities such as 
substance abuse treatment, rehabilitative services and vocational 
education. States could also count these activities on a limited basis, 
up to 16 hours a week, beyond the three month period. States were asked 
about the capacity to provide these services within the proposed 
``three month out of 24 month period'' time frame and about any 
challenges with this approach.
    Of the 42 states responding to this question, the majority of 
states (34) raised concerns that the 3-month period would not be 
adequate to effectively address families' barriers to employment. Some 
states reported that while they may have the capacity to provide 
services, the restriction on the time frame could prove to be 
problematic. Thirteen states specifically mentioned that most 
vocational education programs run longer than 3 months, often operating 
for either 6 or 12 months. A number of other states reported that the 
3-month allowance doesn't take into consideration relapse issues with 
substance abuse and doesn't recognize the typical stop-start nature of 
those seeking to receive substance abuse treatment.
    ``These are not barriers that can be overcome with a cookie-cutter 
approach of a 3 month time limit . . . Kansas will be forced to choose 
between requiring recipients who may not be ready to work for 24 hours 
a week, knowing they will fail; or placing them in the right activities 
such as remedial education, learning disability accommodation training, 
substance abuse, mental health or domestic violence counseling, or 
basic job skills training, and accepting a penalty for failure to meet 
the participation rate requirement.'' (KS)
    More generally, some states responded that the approach to 
addressing these barriers should be integrated and multifaceted, rather 
than addressed in a set three-month period.
    ``Rather than trying to deal with these issues in a three month 
period, we believe that it is more effective to spread them out as a 
part of a more integrated strategy that mixes work activities and 
family stabilization activities.'' (OR)
                   Community Service/Work Experience
    Of the 43 states that responded to questions about community 
service and work experience programs (CS/WEP), 40 reported that they 
currently operate one, or both, of these types of programs. The 
majority of states reported that they do so on a limited basis because 
of the high costs associated with running these programs, and because 
of the challenges of finding employers/supervisors and developing 
appropriate worksites.
    ``We do not have many community services/work experience programs 
as we have found it more productive, and less expensive, to place 
people in work preparation, then unsubsidized jobs with supports.'' 
(AK)
    ``With our low benefits, even with food stamps added in, paid 
community service will cost more than the benefits. It would cost a 
minimum of $15 million simply for wages for a community service program 
for 3000 clients.'' (AL)
    ``We would need to expand these opportunities significantly to meet 
the proposed work requirements. Providing supervision at a group 
worksite costs approximately $40,000 to $45,000. At 15-20 slots per 
site, this translates to a state expense of $3000 per slot (filled or 
unfilled).'' (VT)
    ``Kentucky purchases liability insurance for work experience 
participants and estimates these costs would increase by $15,000 a year 
in order to meet proposed work requirements.'' (KY)
    Other states report they have not used these programs extensively 
because they have focused on preparing recipients to leave the case 
load for private sector employment and have found CS/WEP to be less 
effective than other approaches.
    ``Local jurisdictions that do not operate CS/WEP would be loath to 
do so in that the work first philosophy has and continues to be 
extremely successful and has resulted in a 66.9% case load decline.'' 
(MD)
    ``We have never relied on any significant volume of placements in 
community service or work experience, and in fact have been 
philosophically opposed, preferring to focus on private sector 
employment.'' (MI)
    ``Washington currently operates both an unpaid work experience 
program (WEX) and a subsidized public service job program (community 
jobs). We are in the process of ending our contracts for WEX placements 
as our data show it has not been as effective as other services in 
helping clients find employment.'' (WA)
    Two states with a significant tribal population reported that they 
use community service or work experience especially in remote areas or 
on reservations.
    Many of the states that responded indicated they would be inclined 
to expand these programs in order to meet the proposed work 
requirements, including those who do not currently operate CS/WEP. Some 
states, including those with low benefit levels and/or high state 
minimum wages, contend they would be willing to expand community 
service/work experience but that they would be somewhat limited by the 
number of hours a recipient can work at minimum wage before losing 
eligibility for TANF. Eight states specifically mentioned that the 
application of the Fair Labor Standards Act could complicate their 
ability to expand CS/WEP because of the need to meet minimum wage 
requirements.
    ``Indiana is a low benefit state that to date has emphasized 
placements in unsubsidized employment opportunities. Under existing 
TANF work requirements, in the event of an economic downturn, like the 
current one, community work experience activities cannot be used to 
fully replace unsubsidized employment for many adult recipients without 
violating the Fair Labor Standards Act.'' (IN)
    One state reported that minimal changes would be required to expand 
these programs since they are already included in their welfare reform 
strategy. Others reported the need to develop or expand infrastructure 
to accommodate such expansions.
    ``The costs and challenges associated with developing a brand new 
program would be significant. New policies, procedures, and forms, as 
well as computer system changes would be necessary.'' (OK)
    ``Resources would have to be diverted from current services such as 
pregnancy prevention, training programs, marriage initiatives, 
fatherhood programs, and other child well being initiatives in order to 
meet the cost of providing worksites to meet the work requirements.'' 
(UT)
         Suggested Modifications to Proposed Work Requirements
    States were asked to suggest one or two specific modifications to 
the proposed work requirements that would better accommodate their 
existing state programs. Most states made a number of suggestions. Of 
the 47 states that responded to this question, 35 suggested broadening 
the list of activity that are countable toward work and/or allowing the 
states greater flexibility to define what is considered a countable 
activity. Six states specifically mentioned greater flexibility around 
the inclusion of job search and/or job readiness activities, and three 
states specifically mentioned education (e.g. vocational education, 
high school proficiency/GED).
    29 of the 45 states that responded to this question suggested 
decreasing the proposed required number of hours a recipient must work 
in order to be counted toward a state's work participation rate, and 
many of these states suggested maintaining the current TANF 
requirements on both hours and types of activities that could be 
counted.
    ``California recommends that policymakers resist the urge to fix 
what isn't broken, especially around the work provisions--which have 
proven successful nationwide. Specifically, given the success that 
states have shown in the implementation of welfare reform, we would 
maintain current law work requirements, including required hours of 
work, work participation rate, allowable work activities, etc.'' (CA)
    ``While there are numerous provisions in the new proposal that 
build on this success, CO would like to see a continued respect for 
state flexibility to promote the best practices to ensure a `work 
first' approach.'' (CO)
    Six states suggested making states more accountable for outcomes by 
providing states the flexibility to design programs to meet state-
defined self-sufficiency goals.
    ``Our recommendation is to make states accountable for true 
outcomes (successful diversion, placement into real jobs, retention, 
and advancement) rather than the proposed process measures.'' (AK)
    Ten states mentioned the importance of developing a workable 
employment credit. Four states suggested allowing states to retain 
existing waivers. Other suggestions included: maintaining the 50 
percent work requirement, allowing exemptions for certain tribal 
populations, allowing partial credit for partial hours, lifting the 3-
month cap on ``non-work activities'', and a slower phase-out of the 
case load reduction credit.
                               Child Care
Proposal

    Under the Administration's proposal, mandatory funding for child 
care would be set at $2.7 billion in FY 2003 and discretionary funding 
for the Child Care and Development Block Grant (CCDBG) would be set at 
$2.1 billion in FY 2003. States would continue to have the ability to 
transfer up to 30 percent of their TANF block grant allotment to the 
CCDBG.
Current law

    The proposed funding levels reflect the funding level approved for 
FFY2002. States are permitted to transfer up to 30 percent of their 
TANF block grant allotment to the CCDBG.
Survey results

    States were asked to estimate the annual increase in child care 
costs associated with the proposal to require 70 percent participation 
in activities totaling 40-hours per week. Of the 32 states responding 
to the question, 30 states indicated that the costs would increase and 
two states indicated that there would be no additional costs associated 
with the proposal. The estimated annual increase in child care 
expenditures in 30 states totals more than $770 million. States also 
indicated that there would be increased costs associated with the 
proposed universal participation requirement, infant and toddler care, 
sick child care, non-traditional hours care, etc.; these costs are 
excluded from the estimate. Some states used forecasting models, while 
others used administrative data to calculate their estimates. Examples 
are listed below:
    ``Based on a forecasting model developed by RESI of Towson 
University, we estimate that the total additional child care costs by 
2005 will be $10,777,725. This is based on both the increase in the 
total TANF participants in work activities and the increased hourly 
requirement proposed by the Administration. This represents a 32.5% 
higher rate of expenditure than we currently forecast for child care 
subsidies.'' (MD)
    ``We estimate that we will have to work with an additional 9,872 
families toward meeting the work requirement. The average family 
receiving cash assistance in North Carolina is one adult and two 
children. The average cost per month of childcare is $268 per child. 
This amounts to approximately $5.3 million a month more and more than 
$63 million per year in additional child care dollars needed.'' (NC)
    ``This is not easy to estimate. This estimate is based upon current 
expenditures and the project FIP case load for SFY 2003. The estimated 
amount needed for 70% of the projected case load (2nd parent added in 
and child only cases factored out) to work or participate 40 hours a 
week is approximately $48.3 million. For SFY 2002 there is budgeted 
$3.6 million for non-working, but participating FIP participants plus a 
projected expenditure of $11.5 million for working participants. The 
difference between the projected need for full time participation/work 
for 70% of the FIP case load and current anticipated expenditures, 
would be an increase need for child care of $33.2 million.'' (IA)
    ``The proposed level of funding would be adequate to cover any 
additional childcare associated with the proposed changes in work 
participation requirements for families receiving TANF services. Even 
so, increases in CCDF funding may be needed in 2005-07 to maintain `At 
Risk' childcare at current levels.'' (TX)
    Thirty-nine states responded to the question asking the percentage 
of the states' cash assistance case load receiving child care benefits. 
The average percentage was 20 percent.
                       Caseload Reduction Credit
Proposal

    The Administration's proposal would phaseout the TANF case load 
Reduction Credit over two years and replace the credit with a provision 
that allows states to count cases that left cash assistance due to 
earnings for a period of three-months. In FFY 2003, the full case load 
Reduction Credit would apply as under current law; in FFY 2004 the 
credit will be halved; beginning in FFY 2005, the credit will be 
eliminated. In FFY 2005 and thereafter, states will be allowed to count 
cases that left assistance due to earnings for a period of three 
months.
Current law

    States can reduce the work participation rates by the percentage 
their cash assistance case load has declined since 1995.
Survey results

    States were asked to estimate whether they would face penalty 
status if the case load reduction credit were replaced with the ability 
to count cases that left TANF due to earnings for three months. The 
question was asked assuming no change in the current work definitions 
or hours of work, but assuming a 5 percent annual increase in work 
participation requirements. Of the 35 states responding to this 
question, 26 states indicated they would be in penalty status at 50 
percent and above. Five (5) states would face penalty at 55 percent and 
above. One (1) state indicated they would be in penalty status at 60 
percent and above and two (2) states said they would be in penalty 
status at 65 percent and above. One state said they would never be in 
penalty status.
    For more information about the results of this survey, please 
contact Gretchen Odegard of the National Governors Association at 202-
624-5361 or Elaine Ryan of the American Public Human Services 
Association at 202-682-0100.
States responding to the NGA/APHSA survey
Alabama
Alaska
Arizona
Arkansas
California
Colorado
Connecticut
Delaware
District of Columbia
Georgia
Hawaii
Idaho
Illinois
Indiana
Iowa
Kansas
Kentucky
Louisiana
Maine
Maryland
Massachusetts
Michigan
Minnesota
Missouri
Montana
Nebraska
Nevada
New Hampshire
New Jersey
New Mexico
New York
North Carolina
North Dakota
Ohio
Oklahoma
Oregon
Rhode Island
South Carolina
South Dakota
Tennessee
Texas
Utah
Vermont
Virginia
Virgin Islands
Washington
West Virginia
Wyoming

                                 <F-dash>

Statement of Susan Drake, Executive Director, National Immigration Law 
                          Center, Boise, Idaho
    Mr. Chairman and Members of the Subcommittee:
    On behalf of the National Immigration Law Center (NILC) please 
accept these written comments in response to the Subcommittee on Human 
Resources' announcement of the April 11 hearing on welfare reform 
reauthorization proposals. NILC is a non-profit legal support 
organization that specializes in the intersection of immigration, 
employment and public benefits laws. NILC provides policy analysis, 
technical assistance, training and publications to attorneys, 
community-based organizations, health care and social service providers 
and government agencies on policies that affect low-income immigrants. 
As you move forward, we urge you to build upon the progress made over 
the past five years, and take this chance to develop innovative 
strategies to address the barriers to sustainable employment faced by 
low-wage immigrant workers.
    Specifically we have the following recommendations:

        1. Restore Eligibility to Legal Immigrants. Adopt provisions of 
        Representative Cardin's bill that restore SSI and TANF to legal 
        immigrants
        2. Increase English Proficiency and Improve Employment and 
        Earnings for Persons with Limited English Proficiency. Adopt 
        provisions of Representative Cardin's bill that: (a) Allow ESL 
        as a countable work activity; (b) mandate a sanction review 
        process to determine whether certain conditions, such as 
        limited proficiency in English, may contribute to benefit 
        recipients' noncompliance with program requirements; (c) 
        Require states to assess the recipient's skills, prior work 
        experience, and circumstances related to his or her 
        employability, including English proficiency; and (d) allow up 
        to 2 years of vocational and educational training to be counted 
        as a work activity. Currently, no more than 12 months of 
        vocational and educational training are allowed as a work 
        activity.
IMMIGRANT'S EXPERIENCE AFTER WELFARE REFORM
    The welfare law restricted immigrants' eligibility for a broad 
range of programs, including Medicaid, the State Children's Health 
Insurance Program (SCHIP), food stamps, child care, job training and 
other services that promote the upward mobility of low-wage 
families.\1\ Immigrants and refugees constitute an increasing share of 
the low-wage workforce, especially in key sectors such as service, 
manufacturing, and agriculture. Although immigrants have high workforce 
participation rates,\2\ almost 43 percent of immigrants work at jobs 
paying less than $7.50 an hour, compared to 28 percent of all workers. 
Because of the types of jobs that they hold, only 26 percent of 
immigrants have job-based health insurance. The impact of the immigrant 
restrictions has been two-fold:
---------------------------------------------------------------------------
    \1\ The welfare law, the Personal Responsibility and Work 
Opportunity Reconciliation Act of 1996, made most immigrants who 
entered the United States on or after August 22, 1996, ineligible for 
Temporary Assistance for Needy Families, Medicaid, the State Children's 
Health Insurance Program, food stamps, and Supplemental Security 
Income. It also severely restricted the eligibility of immigrants 
living in the United States before August 1996, although partial 
restorations in 1997 and 1998 restored SSI and food stamps to certain 
of these immigrants, primarily seniors, children, and persons with 
disabilities. As time progresses, the immigrant restrictions will 
become even more dramatic because of the growth in the immigrant 
population that entered after 1996, which is estimated to now be 1/3 of 
the immigrant population.
    \2\ In 2000 foreign-born men 16 years old and older had a higher 
labor force participation rate (80 percent) than native-born men (74 
percent).

        L  (1) Low-wage immigrants have struggled to support their 
        families without access to programs such as Medicaid, SCHIP and 
        food stamps, which were created to support working poor 
        families. When immigrants work full-time and cannot secure 
        these services, the health of their families suffers. Studies 
        have found that children in immigrant families comprise one-
        fifth of the low-income children in 20 states.\3\
---------------------------------------------------------------------------
    \3\ Shawn Fremstad, Immigrants and Welfare Reauthorization (Center 
on Budget and Policy Priorities calculations, 2002).
---------------------------------------------------------------------------
        L  (2) Low-wage immigrants have been deprived of the 
        opportunity to improve their economic mobility through TANF. 
        Services restricted by the welfare law include non-cash 
        programs such as job training, English as a Second Language, 
        and child care. These core services are critical to maintaining 
        jobs and enhancing employment opportunities. Even immigrants 
        who remained eligible for TANF have not been served 
        successfully by the program. For example, language barriers may 
        prevent recipients from ever receiving an employment assessment 
        to determine which TANF services might best suit their needs. 
        There is increasing evidence that such individuals are simply 
        pushed aside, rarely receiving assistance aimed at their 
        transition to the workforce. Persons with language barriers are 
        heavily represented among those for whom TANF has not been an 
        effective bridge into the workforce--in most states, English-
        language training is not effectively delivered as a work-
        related educational activity.

    The immigrant restrictions imposed by the 1996 welfare law have 
resulted in severe declines in participation by immigrants as well as 
citizen children who remained eligible for the programs. These impacts 
are felt nationwide. Currently, one of every five children in the U.S. 
is either an immigrant or the child of an immigrant.\4\ And 85 percent 
of immigrant families include at least one U.S. citizen, typically a 
child.\5\ These U.S. citizen children were among those most profoundly 
harmed by the law's immigrant restrictions. For example, in families 
with incomes below 200 percent of the federal poverty level, 33 percent 
of citizen children with immigrant parents lack health insurance, 
compared to 19 percent of children with citizen parents.\6\ And even 
though U.S. citizen children living with noncitizen parents remained 
eligible for food stamps, their participation in the Food Stamp Program 
declined 42 percent between 1994 and 1999.\7\ Surveys conducted after 
the passage of the welfare law concluded that children in immigrant 
families face greater hardships than other children in obtaining 
adequate health care, nutrition, and housing, and that the hardships 
are greater in the states with the fewest programs to replace the 
federal cuts.\8\
---------------------------------------------------------------------------
    \4\ Urban Institute, Check Points (September 2000).
    \5\ Michael Fix, Wendy Zimmerman, and Jeffrey Passell, The 
Integration of Immigrant Families in the United States (Urban 
Institute, July 2001).
    \6\ Ku and Blaney, Health Coverage for Immigrant Children.
    \7\ United States Department of Agriculture, The Decline in Food 
Stamp Participation: A Report to Congress (July 2001).
    \8\ Hardship is greater for children of immigrants than for 
children of U.S. natives in three areas: food, housing, and health 
care. See Randy Capps, Hardship among Children of Immigrants: Findings 
from the 1999 National Survey of America's Families (Washington, DC: 
Urban Institute, February 2001).
---------------------------------------------------------------------------
WELFARE REAUTHORIZATION PROPOSALS
Restoring Eligibility for Legal Immigrants
    The immigrant provisions of the 1996 law singled out legal 
immigrants for restrictions on health care, food stamps, TANF--
including non-cash services, such as child care, transportation and job 
training, and other core programs that support low-wage working 
families. Because immigrants are so profoundly integrated into our 
communities, their exclusion from support systems and safety net 
programs has a major effect on public health and economic development. 
Immigrant restrictions on federal programs hamper economic mobility for 
20 percent of the low wage population, impede measures to fight 
diseases, frustrate efforts to develop the local economy, and stretch 
the resources of non-profit and religious organizations.
    Although immigrants and refugees traditionally had been 
concentrated in a few states, job opportunities have attracted them to 
new centers, which may not be fully prepared to address their needs. 
Immigrant restrictions strain state and local government resources, 
causing particularly difficult problems in a time of recession, and 
limit states' potential to assist a significant part of the working 
poor population. Lack of flexibility over the use of TANF funds, for 
example, prevents states from creating programs that address immigrant-
specific barriers to employment and economic integration.\9\ Although 
the welfare law allows states to provide state-funded benefits to 
immigrants who lost federal eligibility, very few states have fully 
restored services, and some states provide services only to certain 
groups of immigrants, such as children or seniors.
---------------------------------------------------------------------------
    \9\ Shawn Fremstad, Immigrant Families and TANF Reauthorization 
(Washington, DC: Center on Budget and Policy Priorities, preliminary 
draft, May 2001).
---------------------------------------------------------------------------
    We applaud Representative Cardin for including the restoration of 
both TANF and SSI in the ``Next Step in Reforming Welfare Act'' (H.R. 
3625). This bill would allow states to provide job training and other 
non-cash services to low-income immigrants, and provide a safety net 
for persons with disabilities. We are extremely disappointed that 
Chairman Herger's bill does not allow states to draw down federal TANF 
funds for immigrants who entered the U.S. on or after August 22, 1996, 
and maintains severe restrictions on SSI. States should be given the 
flexibility to help all individuals move towards self-sufficiency 
through the TANF program. States also need access to a safety net for 
persons who, by age or disability, are unable to work. By preventing 
states from serving immigrants, Congress thwarts the most fundamental 
goals of welfare reform
Improving the TANF Program for Immigrants and Persons with Limited 
        English Proficiency
    Currently, almost 18 percent of persons in the United States over 
the age of five speak a language other than English at home, and almost 
8 percent are limited English proficient (LEP).\10\ Immigrants who are 
proficient in English earn more than immigrants with limited English 
proficiency or those who do not speak English at all. A study by 
MassINC found that employed immigrants in Massachusetts who are fluent 
in English earn 33 percent more than immigrants with limited English 
speaking skills.\11\ A similar study in Los Angeles by the Economic 
Roundtable found that former welfare recipients who were English 
proficient earned a higher wage than former welfare recipients who did 
not speak English or who were LEP.\12\
---------------------------------------------------------------------------
    \10\ U.S. Census 2000 Supplementary Survey Summary Tables.
    \11\ MassINC, The Changing Workforce: Immigrants and the New 
Economy in Massachusetts (November 1999).
    \12\ Mark Drayse, Daniel Flaming, and Peter Force, The Economic 
Roundtable, The Cage of Poverty, September 2000.
---------------------------------------------------------------------------
    While many states allow some TANF recipients to participate in 
English as a Second Language (ESL) courses, full participation is 
limited in many states. Under current law, ESL is not explicitly listed 
as a work activity for purposes of meeting a state's work participation 
rate requirements. The allowable activities that would include ESL--
such as job skills, training, and education related to employment--have 
limitations on the extent to which they can count toward the federal 
work rate. These restrictions limit states' flexibility to place LEP 
persons in intensive and vocational ESL courses.
    Under current law, limited English speakers have an equal right to 
participate in all facets of TANF. But this is an empty right unless a 
state's program is designed to meet the needs of participants who do 
not yet speak English.\13\ Identifying the English proficiency of TANF 
applicants and recipients will help states better assess the 
educational and training needs of their client population. Applicants 
and recipients who do not speak English are often placed in orientation 
and training classes in English, and may be at a higher risk of being 
sanctioned.\14\ This practice wastes state and federal resources and 
fails to move the recipients closer to job readiness.
---------------------------------------------------------------------------
    \13\ A study of Hmong TANF participants in Wisconsin found that 
language barriers made communication with TANF caseworkers difficult: 
70 percent of the surveyed participants could not communicate with 
their caseworkers, and 90 percent had difficulty understanding written 
materials they received from their welfare agencies and had to rely on 
children, relatives, friends and others for translation. See Shawn 
Fremstad, Immigrant Families and TANF Reauthorization (Washington, DC: 
Center on Budget and Policy Priorities, preliminary draft, May 2001).
    \14\ In Massachusetts, a study that surveyed a sample of families 
whose cases were closed after hitting the state's 24-month time limit 
found that 7.6 percent were lawfully present immigrants and 17.6 
percent were limited in their ability to speak English. See 
Massachusetts Department of Transitional Assistance, After Time Limits: 
A Study of Households Leaving Welfare Between December 1998 and April 
1999. (November 2000).
---------------------------------------------------------------------------
    Representative Cardin's bill would greatly improve LEP individuals' 
success in the workforce. Representative Cardin not only includes ESL 
as a countable work activity, but also ensures that LEP individuals are 
properly assessed. The Cardin bill would also mandate a sanction review 
process that determines whether certain conditions, such as limited 
proficiency in English, may contribute to benefit recipients' 
noncompliance with program requirements.
    Chairman Herger's bill would make it more difficult for LEP 
individuals to move from welfare-to-work. First, the bill does not 
clarify that ESL can count as a work activity. Second, it limits the 
list of activities that can count towards the work requirement--
eliminating programs like vocational education that provide a great 
opportunity to mix English skills and job skills training. Third, the 
bill increases the work requirement, limiting state flexibility to 
serve hard-to-employ individuals.

                                 <F-dash>

  Statement of Manuel Mirabal, President and Chief Executive Officer, 
                    National Puerto Rican Coalition
    Thank you Chairman Herger and Members of the Subcommittee for 
holding this hearing and for accepting this testimony that I am 
presenting on behalf of the National Puerto Rican Coalition, which 
represents the interests of 7 million Puerto Rican United States 
citizens through a network of over 400 community-based organizations.
Overview of NPRC TANF Reauthorization Efforts
    Working to insure that there are good programs available to help 
the Puerto Rico community rise from poverty is a priority of the 
National Puerto Rican Coalition. For this reason NPRC held a forum in 
partnership with the Center for the New Economy, the Puerto Rican Legal 
Defense & Education Fund, and the National Council of La Raza, on 
Welfare Reform in Puerto Rico on June 1st of 2001 to learn more about 
the issues facing the Puerto Rican community on the island and how it 
relates to the community on the mainland. NPRC also founded and is co-
Chair, along with the Mexican American Legal Defense and Educational 
Fund, of the Latino Coalition for Families, a coalition of national 
organizations advocating for the advancement of Latino Families.
    LCF has prepared a Welfare Reauthorization Agenda that provides 
recommendations for the 2002 federal reauthorization of Temporary 
Assistance to Needy Families (TANF). The Agenda concentrates on the 
coalition's top priorities for TANF, which include providing access for 
immigrants, overcoming language barriers for clients with limited 
English proficiency, and addressing disparities in Puerto Rico. In 
addition the agenda includes suggestions to improve child care and 
Medicaid eligibility, as well as expanding services for comprehensive 
sexual education and increasing opportunities for education and 
training.
    It is essential that the 2002 TANF reauthorization provide Latino 
recipients the tools to move off the rolls. As the largest minority 
group in the country, the nation's economic success is inextricably 
tied to the economic success of Latinos. Each time a family succeeds in 
rising out of poverty and becomes a productive member of our society 
the whole nation benefits. The Latino Coalition for Families calls on 
Congress to correct the disparities in benefits, training, and work 
supports so that needy families can in earnest be given the help 
necessary to achieve the dignity of self-sufficiency, regardless of 
where they live.
TANF Reauthorization Recommendations for Puerto Rico
    Puerto Rico's TANF funding is limited by law because it falls under 
a statutory cap that constricts total overall funding for three 
separate programs: TANF, IV-E Foster Care, and Aged, Blind and Disabled 
(the program Puerto Rico has instead of Supplemental Security Income 
(SSI), from which the Island is excluded.) The combination of separate 
programs under one cap not only restricts funding but it also causes 
budgetary problems. For this reason, the LCF has prepared the following 
recommendations for federal reauthorization:

        <bullet> Take IV-E Foster Care out of the TANF cap to free up 
        some monies to be able to cover more families.
        <bullet> Remove barriers that exclude Puerto Rico from the 
        Child Care and Development Fund--Mandatory Grant and exclude 
        from the cap the Child Care and Development Fund--Matching 
        Grant.

    Puerto Rico is not eligible for TANF supplementary funding 
resources provided by the Federal Government. TANF supplementary Grants 
are intended to assist states with higher than average population 
growth rates and or lower than average TANF grant funds per person. At 
$34.78 per poor person, Puerto Rico clearly receives grants far lower 
than the national average yet Puerto Rico does not receive the 
Supplementary Grant because the program is limited by statute to 
states. Therefore we recommend that the Federal Government remove 
barriers that exclude Puerto Rico from the TANF Supplementary Grant 
program and once barriers are removed exclude Supplementary Grants from 
the current TANF cap.
    Federal funding of Medicaid is also capped for Puerto Rico. Federal 
funding now stands at only 15 percent of the cost of the program. Due 
to the funding cap, the Island can only provide for extremely poor 
families under Medicaid. Since Puerto Rico is required to meet the same 
regulatory provisions of TANF as the states, it is essential that 
Puerto Rico's TANF recipients who are leaving welfare have access to 
the same transitional medical assistance as their mainland 
counterparts. Denying island residents this support further heightens 
their barriers to a successful transition in an already bleak economic 
reality. Thus Puerto Rico should receive reimbursement for the 
provisions of these services as do the states, and this reimbursement 
should not be counted against the cap currently imposed upon Medicaid 
reimbursement to Puerto Rico.
National TANF Reauthorization Recommendations
Immigrants
    The welfare reforms of 1996 placed restrictions on most immigrants 
eligibility for a range of federal safety-net programs. Legal 
immigrants who arrive in the U.S. after welfare reform were made 
ineligible for TANF and Medicaid for five years, and were barred from 
receiving SSI and food stamps for ten years. In recognition that not 
only have those restrictions jeopardized the well being of citizen 
children of immigrant parents, but also that immigrants contribute to 
the U.S. economy through a high labor participation rate, many 
jurisdictions including Puerto Rico have allowed immigrants to remain 
eligible for safety-net programs but have had to do so with their own 
already limited funds. The federal reauthorization of TANF should 
restore nutritional and medical safety net benefits for lawfully 
present immigrants regardless of their date of entry including; 
supplemental Security Income (SSI), Food Stamps, Medicaid, State Child 
Health Insurance Program (SCHIP), and Temporary Assistance for Needy 
Families (TANF).
Teen Pregnancy
    While teen pregnancy in the U.S. has declined since the 1990's and 
teen childbearing reached a record low of 49.7 births per 1000 15-19 
year olds in 2000, Latina teens continued to have the highest birth 
rate in the nation, with 94.4 births per 1000 15-19 year olds in 2000, 
a slight increase from 1999. Three out of five Latinas in the U.S. 
become pregnant during their teen years. And according to the 
Department of Education in Puerto Rico, 92.2 percent of females in 
Puerto Rico are sexually active by the age of seventeen. To help 
decrease teen pregnancy TANF regulations should permit states to 
implement age-appropriate comprehensive sexual education programs that 
teach both abstinence and contraception.
Language
    Latinos have moved off the welfare rolls at a slower rate than 
their white and black counterparts, in part, due to language barriers 
and low educational attainment. Lack of linguistically accessible 
services, lack of job training for persons with limited English 
proficiency as well as lack of bilingual staff, pervades TANF programs. 
In order to aid in breaking down some of the language barriers now 
present, states should be required to include ESL classes as a work 
training option, as well as to take information on clients' primary 
language and include it in their data collection and tracking of 
outcomes. Also the establishment of a supplemental fund to assist 
states in providing language services should be considered. These funds 
would aid states in hiring and recruiting bilingual staff, translating, 
printing and distributing materials, forms, etc. in multiple languages, 
and providing ESL classes. These services would aid the Puerto Ricans 
that migrate from the island to the mainland and are limited English 
proficient.

    Members of Congress, thank you for your time and attention.

                                 <F-dash>

     Statement of Mary Carraher, Executive Director, Project Self-
            Sufficiency of Loveland--Fort Collins, Colorado
    Dear Friends in Washington:
    Please include this statement with your testimony on welfare reform 
reauthorization. I have been the Executive Director of Project Self-
Sufficiency of Loveland--Fort Collins (Colorado) for the past 12 years. 
I also serve on the Colorado State Auditor's Advisory Committee for the 
evaluation of the first five years of welfare reform in this state.
    These experiences have convinced me of the importance of education 
as the most critical factor influencing the future of those families 
who receive public assistance. The current legislation and the updates 
proposed in H.R.4090 limit the ability of the State of Colorado and 
Larimer County to assist families in moving out of poverty and into 
living wage employment. Project Self-Sufficiency, a local nonprofit 
organization that is a spin-off of the 1985 HUD programs, has seen the 
greatest successes when single parents are able to return to school 
full-time and devote themselves to their educations and the care of 
their children. Many do work study for 15 hours while taking classes. 
Under the provisions of TANF, this plan is much more difficult, if not 
impossible, to implement.
    We have seen low-income parents become computer specialists, 
nurses, teachers, dental hygienists, and social workers, among other 
careers. We have a participant who went on to become an attorney after 
leaving the program. We currently have a third year veterinary medicine 
student at Colorado State University. I will be visiting Washington May 
13-17 for Wayne Allard's Capital Conference and would like to provide 
testimony in person at that time.
    In order to facilitate greater educational opportunities for TANF 
participants restrictions need to be removed and states and counties 
need to be able to count students toward their participation rates, 
even when they are full-time, ongoing students. TANF recipients have 
five years total to change their lives and prepare for future support 
of their children. For many participants education is the best use of 
those five years.
    I also want to underline the urgency of providing adequate child 
care funding to accompany TANF without draining the resources currently 
used for creative programs. Please provide the funding needed to 
finance the child care required to do the work you expect of program 
participants. Larimer County, Colorado is featured in last summer's 
edition of the Journal of Community Practice for excellence in the 
implementation of TANF locally. I would be happy to provide you with a 
copy of that article.
    I close now, for fear I will lose my readers. I can be reached at 
970.667.3232 x22 Thanks for listening,

                                 <F-dash>

                         Sault Ste. Marie Tribe of Chippewa Indians
                                         St. Ignace, Michigan 49781
                                                     April 12, 2002
Honorable Chairman Wally Herger
Committee on Ways and Means
Subcommittee on Human Resources
1102 Longworth House Office Building
Washington, D.C. 20515
    Dear Chairman Herger,
    This letter is in support of the reauthorization of the welfare 
reform law, which is before your congressional committee. As Tribal 
Chairman of the Sault Ste. Marie Tribe of Chippewa Indians, I fully 
endorse and support our Native Employment Works Program.
    Our N.E.W. program is one of several direct services we employ for 
our membership. It has been a key in providing long-term employment and 
with the support of the Welfare-to-Work and N.E.W. programs we have 
been able to help eliminate the cycle of dependence of tribal members 
on public assistance.
    The positive aspects of these programs are very evident in data 
provided by the Native Employment Works program. Therefore, we feel it 
is vital that these kinds of resources continue to be available 
directly to the Sault Tribe through the legislation reauthorizing 
welfare reform before your committee.
    Again, our Tribal Board lends full support for the past and future 
legislation which enables tribal members to achieve self-sufficiency 
and reduce their dependence on public assistance.
    If I can be of further assistance, please do not hesitate to 
contact me at 906-635-6050.
    Thank you in advance for your time and consideration in this 
matter.
            Sincerely,
                                                   Bernard Bouschor
                                                           Chairman

                                 <F-dash>

                         Sault Ste. Marie Tribe of Chippewa Indians
                                         St. Ignace, Michigan 49781
                                                     April 12, 2002
Honorable Chairman Wally Herger
Committee on Ways and Means
Subcommittee on Human Resources
1102 Longworth House Office Building
Washington, D.C. 20515
    Dear Chairman Herger:
    This letter is in support of tribal NEW and WtW program. As 
director of the Sault Tribe of Chippewa Indians Native Employment Works 
Program. I have seen first hand the positive effect these programs have 
had on the Native American population in our service area.
    The responsibility for assisting Indian families toward achieving 
self-sufficiency falls primarily on Indian Tribal governments. They 
have the closest relationship to the reservation population. Tribal 
governments are the basic providers of employment, education, and 
social services. We have in many cases through our NEW and WtW programs 
been able to break the cycle of dependence on public assistance.
    You can see the overwhelming support these programs provide to our 
population in the Eastern Upper Peninsula of Michigan by reviewing our 
latest statistics (1-31-02), which are as follows:

Native Employment Works Program
    63 Active Cases
        <bullet> 45 clients are employed full-time (71% employment 
        rate)
        <bullet> 3 clients are medically exempt
        <bullet> 2 are in G.E.D.
        <bullet> 13 are in active job search

    Our program plan in effect until 6/30/04 has a goal of at least 25% 
employment within six months on the program.
welfare-to-work Program
    96 Active Cases
        <bullet> 82 clients are employed (85% employment rate)
        <bullet> 5 clients are medically exempt
        <bullet> 4 clients are in active job search
        <bullet> 2 are in an educational component

    A unique feature of this program is the availability and use of 
wage reimbursement, which we have utilized for several cases. Our 
program runs through 5/12/03.
    In this quick capsule summary, the positive aspects of these 
programs are very evident and supported. As the program director I 
would like to take this opportunity to add a quick human element to 
this letter. Being a life-long resident of the E.U.P. and knowing the 
social and economic conditions of tribal members, seeing these programs 
work and bringing self-esteem and economic independence to native 
peoples far outweigh raw data and statistics.
    For these reasons, the Sault Tribe and Native Employment Works 
program lends its support behind any and all efforts to continue NEW, 
WtW and any other programs that help native peoples achieve social and 
economic self-independence.
    The next few pages contain brief summaries of several cases that 
have had success through utilizing our programs. Thank you for your 
attention and cooperation in this matter.
Case #444

    This client is a 36 year old Native American female. She is a 
single mother of two children. She had her children removed from her 
home due to her substance abuse. She applied for case assistance at the 
Chippewa County Family Independence Agency on November 7, 2001 and was 
referred to Native Employment Works program.
    The client came in for her initial orientation with Native 
Employment Works on November 8, 2001. The Direct Service Worker (DSW) 
inquired about past employment history and barriers to employment. The 
client stated she had to go to jail from November 9 to November 16, 
2001 for neglect charges due to her substance abuse. The DSW offered 
support and encouragement to the client. The client had skills in the 
optical field and as a bartender.
    The client was set to begin a job skills class on November 19, 2001 
but became employed by an optical clinic that same day. She was in need 
of insurance for her car and work clothing and did not have any funds 
to pay for these. Native Employment Works provided her work clothing 
and a support service was approved to pay for her automobile insurance. 
Native Employment Works has also provided her with gasoline so she 
could drive the 22 miles to work everyday.
    The client maintained employment and attended substance abuse 
classes. Her children were returned home and still reside with her. Her 
cash assistance never opened due to her being employed so soon. She 
recently needed car repairs and Native Employment Works was able to pay 
for the repairs to help her maintain her employment. The client is 
still employed and doing very well at her job.
Case #623

    This client is a 35 year old Native American male. He is married 
with two children. The client's wife had recently lost her job in Iowa 
so the family relocated to the Upper Peninsula where they had family. 
He applied for cash assistance with the Chippewa County Family 
Independence Agency on January 22, 2002 and was referred to the Native 
Employment Works program.
    The client came in for his initial orientation with Native 
Employment Works on January 23, 2002. The Direct Service Worker (DSW) 
inquired about past employment and skills that the client may have. He 
disclosed he had taken a course in baking and had a certificate. The 
DSW made a call to the Sault Tribe Human Resource Department to inquire 
about a lead baker's job. An interview for this job was set up with the 
client. He was selected for the job and began working on February 6, 
2002.
    The client's car was in need of major repairs. He lived 
approximately 25 miles from the job site. Support service requests were 
put in to repair the client's car and were approved. The client was 
able to use a family member's car while his was being repaired. Native 
Employment Works provided gasoline for the vehicle.
    The client was able to move out of his parent's house and rent his 
own home. He was also able to get off cash assistance. His cash case 
closed on March 12, 2002. This client is still employed and doing very 
well at his job.
Case #141

    This client is a 32-year old Native American female who resides in 
Chippewa County. This client is a single mother of four children but 
she only has three in custody. This client recently experienced 
domestic abuse and was in a temporary shelter seeking assistance. This 
client was a self-referral.
    This client came in and needed a lot of assistance to help her. She 
already had a job but could not afford to fix her own vehicle so she 
can maintain employment to be able to provide for her children. This 
client went through many jobs (waitress, bartender, housekeeper, etc.). 
She disclosed that she would be interested in working with the elders. 
After the DSW made a few phone calls to the Human Resources Department, 
the client received an interview and did an excellent job. She is now 
working for the Sault Tribe under the Eldercare Services part-time and 
she loves her job.
    This client received supportive services for auto repair, 
insurance, work clothes and gasoline. She is now moving into a bigger 
place so she can try to obtain custody of her fourth child. This client 
is also working full-time and spends quality time with her children 
during the evening and on weekends. She is no longer received any 
assistance from the Family Independence Agency, and will not consider 
receiving it. This client is devoted to doing as much as possible for 
her and her family to succeed.
Case #132

    This is a self-referral case. The client does not have an active 
FIP case. Household size is two adults and four children. The client 
started a new job as a laborer in an auto shop and makes $9.00 per 
hour. He is expected to work 10 to 20 hours per week.
    His family was living off his wife's full-time income for the past 
year. He stated his barriers to keeping new employment were the need 
for automobile repairs, auto registration, auto insurance, and the high 
cost of gasoline. Childcare was discussed but he did not require this 
service.
    The client was provided with a letter of wage reimbursement 
eligibility of 50% up to a six-month training period to give to his 
employer. He was also helped with additional tribal services of LIHEAP 
heating assistance, Contract health, and HIP applications.
    The client requested automobile repairs and provided two estimates 
with the request. He was approved to have his transmission rebuilt and 
also for the labor expense. He has also been provided with 
transportation costs of Shell Gas card. He must travel 15 to 20 miles 
one-way to work.
    When the worker last saw this client, he and his family were doing 
well. He had received a raise and was working full-time. He also told 
the worker that his wife has received a raise, so they are doing 
extremely well. They have not had any problems with the car since the 
program paid to have his transmission rebuilt. With both adult 
household members now working full-time, the family is self-sufficient.
Case #264

    This is a self-referral case. The client does not have an active 
FIP case. The household size is one adult and four children.
    The client works as a bar server at the Kewadin Casino in 
Manistique making $4.70 per hour. She works 40 hours per week. He 
stated barriers to maintain employment were automobile repairs, 
automobile registration, automobile insurance, and the high cost of 
gasoline. Childcare was discussed but she does not need this service.
    She has been provided with additional tribal services such as: 
heating assistance, Contract Health, Emergency assistance and HIP 
applications. The client has been helped with support services such as 
gasoline cards, automobile registration, automobile insurance, and 
automobile purchase. Due to an emergency, the client was approved for 
an automobile purchase after her vehicle was destroyed in a fire.
    When the worker last saw the client, her and her family were doing 
well. She continues to work full-time of 40 hours per week and has 
received raises. The client was able to maintain her employment because 
of the tribes help in purchasing a new vehicle. This client has not 
recently requested support services.
Case #237

    This client was a single parent with one child upon entering our 
program. The client possessed only a 7th grade education, but had an 
excellent work history. This client was employed at Subway, earning a 
wage of $7.75 per hour.
    Through the wage reimbursement provided by our program, this client 
was able to advance to a Shift Manager at Subway.
Case #288

    This client is a 32-year old, Native American, single mother of two 
children. Both the children are in her care and the family resides in 
Chippewa County. This client was a referral from the Family 
Independence Agency and went through our Native Employment Works 
program. She is now enrolled in the Welfare-to-Work program.
    Throughout her time in our programs, she has attended Lake Superior 
State University and received her Bachelor of Science degree in 
Criminal Justice in December of 2000. This client was charged with 
Domestic Assault in July of 2001 and as a result lost custody of one of 
her children. Also, her diploma was going to invalid. She fought the 
charges, stating is was self-defense and they were eventually 
dismissed. This client is now working for Inter-Tribal as a Foster Care 
Specialist within Chippewa County and has custody of both her children.
    This client received supportive services for automobile repair and 
insurance, gasoline and work clothing. She is doing very well at her 
job and also with her family. This client is now helping children 
within our community and she is giving back to our community.
Case #290

    When this client entered the program, she was married with four 
children. She had worked with Adult Education to complete High School. 
At the time she was a seasonal employee with a local restaurant, 
earning a wage of $3.50 per hour.
    Currently, this client is the Manager of the Local Animal Shelter. 
She was able to obtain this position through wage reimbursement 
provided though the program.
    As these human stories and the overall statistics from our program 
indicate, the Sault Ste. Marie Tribe of Chippewa Indians has 
contributed to the success of welfare reform in our area.
    That success would not have possible, however, without the 
financial assistance we have received from the Federal Government 
through the tribal employment programs authorized in Title IV-A of the 
Social Security Act. The Native Employment Works (NEW) program in 
Section 412 of the Act and the tribal component of the Welfare-to-Work 
program in Section 403 have given the tribe the resources to move our 
people from welfare into employment.
    It is essential that these kinds of resources continue to be 
available directly to the tribe under the legislation reauthorizing 
welfare reform. For our clients to continue to move into and to success 
in the workforce, that legislation must contain provisions which:

        <bullet> Provide direct funding to all Indian tribal 
        governments for employment services for welfare recipients.
        <bullet> Continue and expand the total level of support that 
        has been available under both the NEW and tribal Welfare-to-
        Work programs. We endorse a minimum funding level of $37 
        million per year.
        <bullet> Enable tribes to serve those receiving cash 
        assistance, transitioning from cash assistance to employment or 
        who are likely to go on cash assistance unless they receive 
        services to insure that they become and remain employable.
        <bullet> Allow the full range of employment, training and 
        supportive services we know to be necessary to move welfare 
        clients into employment.
        <bullet> Include key program support elements, including 
        technical assistance, a requirement that the regulations and 
        other policy directives be developed in consultation with 
        tribal governments and allowing tribes to integrate related 
        services into a strong, effective approach to all the 
        employment, education and other needs of tribal families.

    With this kind of support in the reauthorization of the welfare 
reform law, the Sault Ste. Marie Tribe can continue to insure that all 
of our people that now must rely on public assistance to meet their 
basic needs can become productive, tax-paying members of Michigan's 
workforce.
    We stand ready and anxious to work with the Committee to achieve 
this end.
            Sincerely,
                                                    Michael Belonga
                                   Native Employment Works Director

                                 <F-dash>

  Statement of Washington's Working Families Campaign: 2002, Seattle, 
                               Washington
    On behalf of the Washington's Working Families Campaign: 2002, we 
respectably submit our testimony for the hearing on welfare reform 
reauthorization proposals held by the Subcommittee on Human Resources 
of the Committee on Ways and Means.
    Washington's Working Families Campaign: 2002 represents thousands 
of people around the state who are working poor or concerned about 
poverty in Washington. This coalition works to build support for 
policies that make reducing poverty the focus of TANF Reauthorization. 
It is a statewide coalition of organizations that represent welfare 
recipients, workers, children, women, people of faith, immigrants, 
concerned citizens and people of color.
WorkFirst in Washington State
    As measured by the most often used standards, Washington State's 
welfare program, Workfirst, has been successful. case loads have fallen 
by over 40%. At any one time, more than 30% of parents who receive a 
grant for their children are working outside the home. Many of those 
who are not employed are looking for work or preparing for work. Low-
income parents in Washington State are keeping their part of the 
bargain with the federal and state government--they have left welfare 
for employment.
    However, while Washington's TANF program has succeeded in reducing 
case loads, it has not been successful at helping families move out of 
poverty and become self-sufficient. The average wage for parents 
leaving welfare is only $7.50 an hour. Working full time, the parent 
grosses $1,300 a month. After taxes, she may take home a little over 
$1,100. With added work related costs of transportation, medical co-
payments, child care, coupled with the probable loss of food stamps, 
her disposable income is not much more than her welfare grant and her 
children have less time to spend with their custodial parent.
    People leaving welfare have moved into jobs without sick leave and 
vacation. They are unable to take time off if their child becomes ill. 
They are unable to participate in parent/teacher conferences or school 
events. Because of their child care costs, many children who needed 
adult supervision became latch-key kids, coming home to empty homes and 
empty neighborhoods.
    Even after three years, these adults have not seen significant wage 
progression. According to Washington State's study, only 45% of 
WorkFirst clients who left welfare in the summer of 1997 earned enough 
money to lift their families out of poverty three years later. 
Washington State has set a modest goal in the area of wage progression. 
They aim to have 45% of the families leaving welfare receive a 10% wage 
increase over a one year period. The state has yet to achieve even this 
modest goal during any month.
    Workfirst was not successful in moving people out of poverty during 
the economic boom of the 1990s. Now our state faces a slumping economy, 
massive layoffs and the second highest unemployment rate in the 
country. Washington State's budget was in deficit this year and we have 
seen a new increase in welfare case loads. The governor and legislature 
cut over $50 million from programs that support low-income families. If 
expenditures continue at the present rate, the Washington State TANF 
budget will have a $200 million deficit in 2003-05 biennium.
TANF Reauthorization
    As Congress revisits welfare reform, the members of our campaign 
hope that legislators will enact reforms to TANF that move families out 
of poverty and toward self-sufficiency. The goal of the TANF program 
should be changed from reducing welfare case load to reducing poverty 
among low-income families. State performance measures should be based 
on enhancing the economic well being of low-income families. States 
should be held accountable for and report on issues such as poverty 
reduction, job retention, wage levels, and wage progression and should 
be given bonuses for improvements in these areas.
Work Requirements

    The increased work participation rates recommended by the Bush 
Administration would devastate most of the programs that have proven to 
help families become self-sufficient. The Puget Sound area faces a 
skills shortage, even as our economy has stalled. Employers are looking 
for skilled workers and the programs listed below benefit both job 
seeker and employer. Under the Administration's plan, these programs 
would be defunded or completely reoriented to accommodate the more 
stringent work requirements.

        <bullet> Pre-employment training, offered by the state's 
        community and technical colleges, provides 12-16 weeks of 
        training for jobs with starting wages averaging $9 an hour. 
        This is much higher than the average wage of someone leaving 
        welfare.
        <bullet> Work based learning pays the tuition of parents 
        working 20 hours a week in unsubsidized employment for one or 
        two quarters.
        <bullet> For those with multiple barriers, the Community Jobs 
        program places parents in a non-profit or public sector job. 
        They work 20 hours a week for their welfare grant. Because 
        their earnings are counted as wages, they are eligible for the 
        Earned Income Credit and open a Social Security retirement 
        account. In addition to the paid work, many are completing a 
        high school equivalency program, getting counseling for 
        themselves or their children or doing some other activity.

    The Administration's proposal to raise work participation rates 
would force Washington State to revamp all of these successful programs 
to create massive unpaid ``workfare'' programs. The largest workfare 
program in New York has shown to be ineffective in increasing 
employment or wages of participants. Instead it has displaced other 
workers and failed to offer participants basic protections or access to 
training or new skills.
Funding

    When he was governor, HHS Secretary, Tommy Thompson used to say 
that you couldn't do ``welfare on the cheap''--without major 
investments in support services. The failure to increase the TANF block 
grant to keep pace with inflation means a real cut of 22% by 2007. Now, 
more that ever, our state needs the Federal Government to fully 
maintain its commitment to this vital safety net program.
    Additionally, any proposal that includes a massive new work 
requirement with no new money for childcare, transportation or 
education would be an incredible burden on this and other states.
Time Limits

    Families that are making every effort to lift their families out of 
poverty should not have their lifetime benefits clocks ticking. In 
Washington State, almost 40% of the parents who will hit the 5-year 
life time limit are working. Even though these parents are doing 
everything that is expected of them under welfare reform, they are 
exhausting their valuable 5-year limit. Parents who are working and 
receiving TANF cash assistance should not have to use up their 
benefits. Parents who are ``playing by the rules'' should receive an 
extension beyond the 5-year lifetime limit, irrespective of the 20% 
extension cap.
Education and Training

    As stated above, employers are looking for a skilled workforce, 
especially in the Puget Sound area. Even with the economic slow-down, 
there continues to be a need for skilled workers in the technical and 
health care fields. Both of these sectors start new workers at higher 
than average wages, provide a wage ladder and include benefits. Some 
jobs even offer the flexible schedule which single parents need. 
Without increased access to education and training, people leaving 
welfare cannot prepare for this type of secure employment.
    We would like Congress to increase access to education and training 
so parents can get jobs that support their families. The new welfare 
bill should permit two years of vocational education and remove the cap 
that allows only 30% of the state's case load to access training and 
education.
Immigrants

    In 1996, Washington State correctly decided to use state dollars to 
support legal immigrants. These new residents are a vital part of our 
economy and community. We need the Federal Government to assume this 
responsibility for cash assistance, social security benefits and food 
stamps.
    The Members of Washington's Working Families Campaign: 2002 urge 
Congress to enact reforms to TANF that provide parents with the tools 
to move their families out of poverty and into self sufficiency. Thank 
you for your attention to our comments.
Washington's Working Families Campaign: 2002
    Organizing Committee: Children's Alliance, Fremont Public 
Association, Fair Budget, Jewish Federation of Greater Seattle, 
Lutheran Public Policy of Washington State, Native American Coalition, 
Northwest Federation of Community Organizations, Statewide Poverty 
Action Network, Washington Alliance for Immigrant & Refugee Justice, 
Washington Association of Churches, Washington Community Action 
Partnership, Washington Citizen Action, Washington Coalition Against 
Domestic Violence, Washington State, Jobs With Justice, Welfare 
Advocates Group, Welfare Rights Organizing Coalition

                                 <F-dash>

      Statement of the Women's Institute for Housing and Economic 
                   Development, Boston, Massachusetts
    Dear Congressman Herger:
    Welfare reform has done little to ensure people move out of poverty 
but has moved people off of the rolls. Many people move into work, but 
remain poor, a fact that has been documented.\1\ In some cases, they 
are poor with more complicated lives and less time to supervise their 
children. The goal of welfare reform should be to increase incomes to 
self-sufficiency levels, which in turn will increase the health and 
well being of families and communities. Welfare reform can only lead to 
financial independence if there is a strong emphasis on education, job 
training, and job placement and retention. Higher education increases 
earnings, and reduces chances of unemployment and returning to the 
welfare rolls. Child care, after school programs, and teen programs are 
needed to fill the void when parents are working.
---------------------------------------------------------------------------
    \1\ Haskins, R. & Blank, R. (2001). Welfare Reauthorization. Joint 
Center for Poverty Research: Poverty Research News, 5(6),3-5.
---------------------------------------------------------------------------
    We urge you to consider education and training as a large component 
of the required work related hours. Following we provide data and 
describe our experience with operating a college access program for 
low-income women. Please consider bill H.R. 3113 sponsored by 
Congresswoman Patsy Mink, in your deliberations. The bill improves work 
supports such as child care and education and training. It addresses 
barriers to economic self-sufficiency and requires benefits be 
sufficient to protect families against hunger and homelessness. 
Families cannot sustain themselves on minimum wage jobs and especially 
in high cost areas like Massachusetts they become homeless, ultimately 
costing the government more funding.
    Approximately one-quarter of women on welfare do not have a high 
school diploma, and therefore must earn a GED during the time limit. 
Even with a GED or high school diploma, earnings will be low without 
vocational or college training. Each year of college completed by 
welfare recipients raises the hourly wage by $1.14.\2\ The same study 
showed that in 1998 the median hourly wage was $11.00 for welfare 
recipients who graduated. Research has shown that a community college 
degree raises a woman's income by 65% \3\ and that a year of college 
can cut the poverty rate for Latinos and African Americans by more than 
half. The Bureau of Labor Statistics (2001) shows the median weekly 
earnings of women with a college degree was over $339 more per week 
than earnings of women with only a high school diploma. Women returning 
to college were found to show increases in confidence and better 
relationships with their children. Children's success in school has 
long been directly correlated to their mother's level of education.
---------------------------------------------------------------------------
    \2\ Karier, Thomas (1998). Welfare Graduates: College and Financial 
Independence. http://www.levy.org/docs/pn/98-1.html
    \3\ Boldt, Nancy. (2000). From welfare, to college, to work: 
support factors to help students persist and succeed and the economic 
social outcomes of degree attainment. Unpublished doctoral 
dissertation, University of Vermont.
---------------------------------------------------------------------------
    In 1997, the Women's Institute for Housing and Economic Development 
piloted Women in Community Development, a four-year college access 
program at the University of Massachusetts in Boston. While most of the 
participants are former welfare recipients, 92% are currently working 
and attending school. While participants are highly motivated they are 
under considerable stress as they try to work full-time, attend college 
and care for their families. Attainment of their college degree would 
have been more expeditious and less stressful if they could have 
attended school full-time while on welfare. Current participants and 
graduates earn between $25,000-$42,000 per year in jobs mostly found 
through the program's network. These wages are considerably higher than 
the average entry level jobs that pays on average $8 per hour, or 
$16,000 per year. Leadership development, economic literacy and an 
individual development account program are all components of the Women 
in Community Development program. Attached are letters written by 
participants in the Women in Community Development program.
    TANF needs to help families successfully make the transition to 
economic security. TANF reauthorization should learn from the state of 
Maine which promotes higher education for welfare recipients. In Maine, 
participation in a two-year degree program may count as the work 
requirement with no other work activity. The Parents as Scholars (PaS) 
program allows individuals to enroll in a four-year degree program at 
UMaine and participation in the program does not count toward the five 
year time limit for receipt of benefits under TANF.
    TANF reauthorization should allow post secondary education to occur 
in order to move families into real economic security that will have 
lasting results. Women on welfare who are pursuing their education do 
not need more sanctions and stresses on their families. They need 
educational opportunities and supports to succeed as employees and 
parents.
            Sincerely,
                                                     Felice Mendell
                                                 Executive Director
                                 ______
                                 
Exhibit A: Letters by participants
    Letters from participants in the Women in Community Development 
program of the Women's Institute for Housing and Economic Development, 
14 Beacon Street, Boston, MA 02108. Phone 617-367-0520 x22, Fax: 617-
367-1676. Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="35794550415047465a5b75425c5d50511b5a4752">[email&#160;protected]</a>
    Participant actual hand written letters will be faxed with the 
agency letter.
Participants who have written letters:
    Theresa Melendez, 23 Dunlap Street Dorchester, MA 02124
    Malikkah Phillips, 83 West Cottage Street, Dorchester, MA 02125
    Rosamaria Clark, 50 Whitten Street #1 Dorchester, MA 02122
    Emma Kigoni, 129 Devon Street Dorchester, MA 02121
    Judith Gaston, 63 Rosewood Street Mattapan, MA 02126
    Michelle Ekanem, 7 Steadman Rd. #301 Lexington, MA 02421
    Jessica Dawn, 40 Draper Street Dorchester, MA 02122
                                 ______
                                 
                                    Dorchester, Massachusetts 02124
                                                     April 13, 2002
    Dear Congress Member:
    I am Theresa Melendez, I live in Dorchester Massachusetts. I attend 
a program that's helping me achieve higher education after a long 
absence from school. I have two children. This letter is to let you 
know that I support the measure of TANF that increase funding for TANF 
so that women may have a real chance to participate in education and 
training programs that would better prepare them to face the world 
without assistance. In that train of thought the time women take to 
study should be counted towards the state's work requirement. I 
emphatically oppose Bush's TANF proposal. Furthermore the number of 
hours women are required to work shouldn't be increased. As it stands 
now the job market is scarce, people who have graduated can't find 
jobs, how does there proposed changes assume that a woman with children 
who is trying to make it through school, is going to find a 40 hour 
job? Also the limit for vocational education should be expanded to a 24 
month limit. These are my positions in regards to TANF, hope you can 
look into it.
            Sincerely,
                                                   Theresa Melendez
                                 ______
                                 
                                    Dorchester, Massachusetts 02125
                                                     April 13, 2002
    Dear Members of Congress:
    My name is Malikkah Phillips and I live in the community in which 
you serve. I am a mother of four children, full-time college student 
and a full-time employee of a non-profit agency in the same community.
    I am writing to ask you to support the right for single mothers on 
TANF to stay in school. This means assisting them with sufficient child 
care.
                                                  Malikkah Phillips
                                 ______
                                 
                                    Dorchester, Massachusetts 02122
                                                     April 13, 2002
    Dear Members of Congress:
    My name is Rosamaria Clark. I am currently participating in a 
women's group I like in your city. I urge the reauthorization of TANF. 
Especially the support to women to continue their education and 
training and in order for them to do this they also need the support of 
child care. Your support will help women to become more self 
sufficient.
                                                    Rosamaria Clark
                                 ______
                                 
                                    Dorchester, Massachusetts 02121
                                                     April 13, 2002
    Dear Member of Congress:
    My name is Emma and I live in Dorchester, Massachusetts. I am 
writing you to ask that you reauthorize TANF in support for poor and 
low-income women who want to attend a four year university. As a former 
welfare recipient who is now employed and is able to support her family 
of five, only because I was able to go to college and get an education 
that gave me the skills I needed to move out of poverty.
    Thank you for your attention in this matter.
                                                        Emma Kigoni
                                 ______
                                 
                                      Mattapan, Massachusetts 02126
                                                     April 13, 2002
    Dear Member of Congress:
    My name is Judith Gaston and I live in Boston, Mattapan to be 
exact. I am currently working on my bachelor's degree at UMass Boston. 
The organization helping me with the funding for my education is Women 
in Community Development, which brings me to the point of this letter.
    I am a low-income woman who just got bid off from my job. Without 
the support from my community leaders to increase overall TANF funding, 
a lot of women just like myself will suffer. We won't be able to get 
the proper education needed in order to improve ourselves and better 
our futures.
    Thank you for your time.
                                                      Judith Gaston
                                 ______
                                 
                                     Lexington, Massachusetts 02421
                                                     April 13, 2002
    Dear Member of Congress:
    My name is Michelle Ekanem. I reside in the Lexington area. I am 
aware that several bills are before you regarding TANF, Transitional 
Aid for Needy Families. From my perspective as well as many others, 
Educational and Training supports are necessary for stabilization 
within low economic households. Many years ago, I received governmental 
supports with TAFDC now TANF and through this assistance I have 
achieved professional and economic stability to raise my family. It is 
crucial, particularly in difficult economic times that the USA stand by 
their most needy populations as all of the commonwealth population has 
stood with the government. Hard times must cause the government to 
assist, not use it as a reason to not assist.
            With respect,
                                                    Michelle Ekanem
                                 ______
                                 
                                    Dorchester, Massachusetts 02122
                                                     April 13, 2002
    Dear Member of Congress:
    My name is Jessica Dawn and I am a resident of Dorchester (Fields 
Corner). I am writing you on the subject matter of TANF. I am a mother 
of four children, two in high school, one in K-2, and one in preschool. 
I am a strong believer in an individual being able to accomplish their 
educational goals. As you are well aware, without a solid foundation of 
strong educational skills, it is hard to find and maintain a good job, 
let alone a stable career. I am currently working on my Bachelor's 
degree in Management of Human Services to go along with my Associate's 
degree in Business Administration. I beg of you to vote to allow our 
low-income families to pursue their education on higher levels so that 
they can become economically self-sufficient.
    This is so very important. Education is the key, Education is 
knowledge, knowledge is power. Let's give our families power to take 
care of themselves.
    Thank you in advance for your time and cooperation.
                                                       Jessica Dawn

                                 <F-dash>

           Statement of Bill Wood, Charlotte, North Carolina
INTRODUCTION

    Welfare reform, enacted by Congress and signed by President Clinton 
in 1996, recognized the vital importance of marriage and family, in 
fact, 3 out of the 4 provisions related to marriage or family. Welfare 
reform requires states to pursue ``job preparation, work and marriage . 
. . prevent and reduce the incidence of out-of-wedlock pregnancies . . 
. [and] encourage the formation and maintenance of two-parent 
families.'' In spite of this overwhelming requirement, the focus of 
reforms seems to be principally on job preparation and work. It has 
been recognized as a bi-partisan, cultural imperative that the other 
three issues are part of welfare reform. Reauthorization must address 
the other 3 out of 4 issues more thoroughly. In order to begin to 
promote marriage, reduce illegitimacy, and encourage families we must 
curb the trends of divorce and fatherlessness. Father absence, a 
byproduct of divorce, illegitimacy, and the erosion of the traditional 
family, is responsible for; filling our prisons, causing psychological 
problems, suicide, psychosis, gang activity, rape, physical and sexual 
child abuse, violence against women, general violence, alcohol and drug 
abuse, poverty, lower academic achievement, school drop-outs, 
relationship instability, gender identity confusion, runaways, 
homelessness, cigarette smoking, and any number of corrosive social 
disorders.\1\
---------------------------------------------------------------------------
    \1\ US House Testimony 107-38, June 28, 2001. Pg. 94-104. 83 noted 
references. Online version is at http://waysandmeans.house.gov/humres/
107cong/6-28-01/record/chillegalfound.htm
---------------------------------------------------------------------------
    Many anti-marriage detractors foist ``privacy'' propaganda about 
intrusions into marriage while ignoring laws designed to regulate every 
facet of marriage, divorce, child custody, and child support (or 
repackaged alimony \2\). How much more control over personal decisions 
could a government exercise? They claim there is little research on 
promoting marriages and healthy families while shrieking that taxpayers 
should pay untold billions on disastrously failed anti-family/anti-
marriage experiments which have created more non-married ``families'' 
than married.\3\ These detractors demand bias and discrimination 
against ``traditional'' family structures by insisting taxpayers 
subsidize every alternative to traditional families. They then cry 
``foul'' about marriage and family promotion. Modern anti-marriage 
factions and policies promote a frighteningly bizarre and violent 
attack on marriage, families, women and children.
---------------------------------------------------------------------------
    \2\ H.R. 1488, The ``Hyde-Woolsey'' Child Support Bill. Serial No. 
106-107. p. 98-100 subhead ``When Child Support becomes Tax Free 
Alimony.'' (March 16, 2000)
    \3\ United states Census Bureau, U.S. Dept. of Commerce, U.S. Dept. 
of Commerce News (May 15, 2001), http://www.census.gov/Press-Release/
www/2001/cb01cn67.html
---------------------------------------------------------------------------
CAN ANYONE HEAR THE CHILDREN CRY?

    The casualties of the ``divorce revolution'' are the children; \4\ 
contrary to those who support easier divorce, and protest marriage, 
``[t]here is substantial evidence that the process of going through 
their parents' divorce and the resulting changes in their lives are 
psychologically costly for most children.'' \5\ ``The impact of the 
marital disruption was most pronounced among girls, who skipped school 
more frequently, reported more depressive behavior, and described 
social support in more negative terms than did boys from recently 
disrupted homes.'' \6\ Math scores for girls are dramatically reduced 
without their biological father in the home.\7\ ``Among teenage and 
adult populations of females, parental divorce has been associated with 
lower self-esteem, precocious sexual activity, greater delinquent-like 
behavior, and more difficulty establishing gratifying, lasting adult 
heterosexual relationships. It is especially intriguing to note that, 
in these studies, the parental divorce typically occurred years before 
any difficulties were observed.'' \8\ Children of divorced parents are 
significantly more likely to become delinquent by age 15, regardless of 
when the divorce took place \9\ and boys without an intact family were 
twice as likely to end up behind bars,\10\ with one Wisconsin study 
showing juvenile delinquent incarceration 12 times higher for children 
from divorced families.\11\ ``Most victims of child molestation come 
from single parent households or are the children of drug ring 
members.'' \12\ Stepchildren are abused, psychologically, physically, 
and sexually, far more often than their peers from intact families \13\ 
with re-marriage and step-parenting posing one of the greatest risk 
factors for child abuse and child sexual abuse,\14\ second only to 
abuse in single-parent homes.
---------------------------------------------------------------------------
    \4\ Judith S. Wallerstein et al., The Unexpected Legacy Of Divorce: 
A 25 Year Landmark Study (2000); Judith S. Wallerstein & Sandra 
Blakeslee, Second Chances: Men, Women, And Children A Decade After 
Divorce (1989); Robert F. Cochran, Jr. & Paul C. Vitz, Child Protective 
Divorce Laws: A Response to the Effects of Parental Separation on 
Children, 17 Fam. L.Q. 327 (1983)
    \5\ Elizabeth S. Scott, Rational Decision making About Marriage and 
Divorce, 76 Va. L. Rev. 9, 29 (1990)
    \6\ The Effects of Marital Disruption on Adolescents: Time as a 
Dynamic A. Frost, PhD; B. Pakiz, EdM, American Journal of 
Orthopsychiatry, 60(4), October, 1990
    \7\ David Popenoe, Life Without Father (New York: Martin Kessler 
Books, 1995), p. 148
    \8\ Long-Term Effects of Divorce on Children: A Developmental 
Vulnerability Model Neil Kalter, Ph.D., University of Michigan, 
American Journal of Orthopsychiatry, 57(4), October, 1987
    \9\ Abbie K. Frost and Bilge Pakiz, ``The Effects of Marital 
Disruption on Adolescents: Time as a Dynamic,'' American Journal of 
Orthopsychiatry, Vol. 60 (1990), pp. 544-555; David B. Larson, James P. 
Swyers, and Susan S. Larson, The Costly Consequences of Divorce 
(Rockville, Md.: National Institute for Healthcare Research, 1995), p. 
123.
    \10\ Cynthia C. Harper and Sara S. McLanahan, ``Father Absence and 
Youth Incarceration.'' Annual Meeting of the American Sociological 
Association (1998 San Francisco).
    \11\ Wisconsin Department of Health and Social Services, Division 
of Youth Services, ``Family Status of Delinquents in Juvenile 
Correctional Facilities in Wisconsin,'' April 1994.
    \12\ Los Angeles Times, 16 September, 1985. Cited in Amneus, The 
Garbage Generation
    \13\ David M. Fergusson, Michael T. Lynskey, and L. John Horwood, 
``Childhood Sexual Abuse and Psychiatric Disorders in Young Adulthood: 
I. Prevalence of Sexual Abuse and Factors Associated with Sexual 
Abuse,'' Journal of the American Academy of Child and Adolescent 
Psychiatry, Vol. 34 (1996), pp. 1355-1364.
    \14\ US House Testimony 107-38, June 28, 2001. Pg. 96-97. Online 
version is at http://waysandmeans.house.gov/humres/107cong/6-28-01/
record/chillegalfound.htm
---------------------------------------------------------------------------
BLACK COMMUNITY

    In the 1940's 18% of black women divorced,\15\ in 1960 (just before 
``no-fault'' and modern welfare) 3 out of 4 black children were born in 
marriage; \16\ yet by the late 60's and early 70's, the divorce rate 
had reached 60%.\17\ In the 80's, for 25 year olds, there were 3 
unmarried black women to each black man with a decent job.\18\ Early 
90's African American children could expect to spend just 16% of their 
time in a married household, while Hispanics could expect 67% and 
Caucasians 80%.\19\ The most common arrangement for black children 
under 6 (42% of the time), was to live with a mother who never married 
while all black children were only \1/2\ as likely as whites to be 
living with both parents, and 8 times as likely to be living with a 
single mom.\20\ ``Exposure to single motherhood at some point during 
adolescence increases the risk [of a daughter becoming a single mom] by 
nearly [150 percent] for whites and . . . by about 100 percent for 
blacks.'' \21\ Married black family birthrates now average less than 1 
child per marriage, if not for out-of-wedlock children, the African 
American population would quickly die off.\22\ The affects of growing 
up without both parents from similar communities increases the 
likelihood of jail time, public housing, welfare, and similar life 
experiences did not increase this likelihood only the lack of the 
presence of two biological parents.\23\ The situation has become so 
critical that during the days of slavery a black child was more likely 
to grow up living with both parents than today.\24\
---------------------------------------------------------------------------
    \15\ Dennis A. Ahlburg and Carol J. DeVita, ``New Realities of the 
American Family,'' Population Bulletin 47, no.2 (August 1992): 15.
    \16\ Christopher Jencks, ``Is the American Underclass Growing,'' 
86, Table 14. In Jencks and Peterson, eds., Urban Underclass, (Wash, 
D.C.: Brookings Institution, 1991).
    \17\ Dennis A. Ahlburg and Carol J. DeVita, ``New Realities of the 
American Family,'' Population Bulletin 47, no. 2 (August 1992): 15.
    \18\ Daniel T. Lichter, D. McLaughlin, F. LeClere, G. Kephart, and 
D. Landry, ``Race and the Retreat from Marriage: A Shortage of 
Marriageable Men?'' American Sociological Review 57 (December 1992): 
pp. 781-99.
    \19\ Larry Bumpass and Hsien-Hen Lu, 1998. ``Trends in Cohabitation 
and Implications for Children's Family Contexts in the U.S.'' Paper 
presented at the 1998 annual meeting of the Population Association of 
America (www.ssc.wisc.edu/cde/cdewp/home.htm): See Table 6.
    \20\ Maggie Gallagher. The Abolition of Marriage p. 117, citing 
Andrew J. Cherlin, Marriage, Divorce, Remarriage, rev. and enl. ed., 
(Cambridge, Mass.: Harvard Univ. Press, 1992), 98-99.
    \21\ Sara S. McLanahan, ``Family Structure and Dependency: Reality 
Transitions to Female Household Headship,'' Demography 25, Feb., 1988, 
1-16. Cited in Daniel Amneus, The Garbage Generation, (Alhambra, CA: 
Primrose Press, 1990), p. 240
    \22\ Reynolds Forley, ``After the Starting Line: Blacks and Women 
in an Uphill Pace,'' Demography 25, no. 4 (November 1988): 487, Figure 
6.
    \23\ M. Anne Hill and June O'Neill,. Underclass Behaviors in the 
United States: Measurements and Analysis of Determinants (New York: 
City University of New York, Baruch College, 1993) p. 90.
    \24\ Andrew J. Cherlin, Marriage, Divorce, Remarriage, rev. and 
enl. ed., (Cambridge, Mass.: Harvard Univ. Press, 1992), 110. See also 
Herbert G. Gutman, The Black Family in Slavery and Freedom, 1750-1925 
(New York: Pantheon, 1976). See also Stanley L. Engerman, ``Black 
Fertility and Family Structure in the U.S. 1880-1940,'' Journal of 
Family History 2 (Summer 1977): 177ff. Cited in The Abolition of 
Marriage, by Maggie Gallagher p. 117
---------------------------------------------------------------------------
    ``African Americans marry later, are about twice as likely to 
divorce, and less likely to ever marry; yet [their] views of the 
importance of marriage are similar to those held by members of other 
ethnic groups.'' \25\ By age 30, only 45% of black women have married 
compared to 80% of white women.\26\ The high mortality and 
incarceration rate of black men has resulted in a serious gender 
imbalance in the African-American community leaving few marriageable 
men.\27\ Changes in family structure explain 97 percent of black and 99 
percent of white families' poverty spells--not only unwed childbearing 
but also divorce.\28\
---------------------------------------------------------------------------
    \25\ M. Belinda Tucker, 2000. ``Marital Values and Expectations in 
Context: Results From a 21 City Survey'' in Linda J. Waite et. al (eds) 
The Ties That Bind: Perspectives on Marriage and Cohabitation (New 
York: Aldine de Gruyter).
    \26\ Christine Bachrach, Michelle J. Hindin, and Elizabeth Thomson, 
(in press) 2000. ``The Changing Shape of the Ties that Bind'' in Linda 
J. Waite, et. al. (eds) The Ties That Bind: Perspectives on Marriage 
and Cohabitation (New York: Aldine de Gruyter).
    \27\ William A. Darity, Jr. and Samuel L. Myers, Jr., ``Family 
Structure and the Marginalization of Black Men,'' Policy Implications'' 
in The Decline in Marriage Among African Americans: Causes, 
Consequences, and Policy Implications, ed. M. Belinda Tucker and 
Claudia Mitchell-Kernan. (New York: Russell Sage Foundation, 1995), pp. 
263-308.
    \28\ Thomas J. Kneisner, et. al., 1988. ``Getting into Poverty 
Without a Husband, and Getting Out, With or Without'' American Economic 
Review 78 (May): 86-90.

---------------------------------------------------------------------------
``NO-FAULT'' IS AN ANTI-MARRIAGE, ANTI-FAMILY, COUNTRY

DESTROYING DISASTER

    No-fault was a 1969 California revolution enacted in all 50 states 
by 1985. ``[N]o-fault divorce law had a significant positive effect on 
the divorce rate across the 50 states, \29\ ``especially for families 
with children,\30\ giving America first place, by an enormous margin, 
in the worldwide divorce race. From 1960 to 1990, children living with 
a divorced parent increased 352% \31\ and from 1970 to 1994 divorced 
adults quadrupled from 4.3 million to 17.4 million.\32\ ``If the family 
trends of recent decades are extended into the future, the result will 
be not only growing uncertainty within marriage, but the gradual 
elimination of marriage in favor of casual liaisons oriented to adult 
expressiveness and self-fulfillment. The problem . . . is that children 
will be harmed, adults will probably be no happier, and the social 
order could
collapse.'' \33\ ``Seldom in U.S. history have laws been enacted with 
higher hopes and poorer results than the no-fault divorce statutes.'' 
\34\ ``In his book, The American Sex Revolution, Harvard sociologist 
Pitirim Sorokin reviewed the history of societies through the ages, and 
found that none survived after they ceased honoring and upholding the 
institution of marriage between a man and a woman.'' \35\ ``Marriage is 
displacing both income and race as the great class divide of the new 
century.'' \36\ Young couples marrying for the first time face a 40-50% 
chance of divorce.\37\ ``The divorce revolution--the steady 
displacement of a marriage culture by a culture of divorce and unwed 
parenthood--has failed. It has created terrible hardships for children, 
incurred unsupportable social costs, and failed to deliver on its 
promise of greater adult happiness. The time has come to shift the 
focus of national attention from divorce to marriage and to rebuild a 
family culture based on enduring marital relationships.'' \38\
---------------------------------------------------------------------------
    \29\ Paul A. Nakonezny, Robert D. Schull and Joseph Lee Rodgers, 
``The Effect of No-Fault Divorce Law on the Divorce Rate Across the 50 
States and Its Relation to Income, Education and Religiosity,'' Journal 
of Marriage and the Family, 1995, 57:477-488; Ailsa Burns and Cath 
Scott, Mother Headed Families and Why They Have Increased, (Hillsdale, 
N.J.: Lawrence Erlbaum Associates Publishers, 1994), p. 5,9.
    \30\ Martin Zelder, ``The Economic Analysis of the Effect of No-
Fault Divorce Law on the Divorce Rate,'' Harvard Journal of Law and 
Public Policy 16, No. 1: 241ff.
    \31\ U.S. Department of Commerce, Bureau of the Census, Current 
Population Reports, p. 23, No. 180, ``Marriage, Divorce and Remarriage 
in the 1990's.''
    \32\ Arlene Saluter, Marital Status and Living Arrangements: March 
1994, U.S. Bureau of the Census, March 1996; series P20-484, p, vi.
    \33\ David Popenoe, ``Modern Marriage: Revisiting the Cultural 
Script,'' Promises to Keep, 1996, p. 248.
    \34\ Allen M. Parkman, No-Fault Divorce: What Went Wrong?, 
(Boulder, CO: Westview Press, 1992), p. 53.
    \35\ Linda Bowles. Damage for the Children. June 13, 2000. Worldnet 
Daily online.
    \36\ Jonathan Rauch, The Widening Marriage Gap: America's New Class 
Divide, National Journal. May 18, 2001.
    \37\ U.S. Census Bureau, Current Population Reports, P23-180, 1992, 
p. 5
    \38\ Council on Families in America, Marriage in America, A Report 
to the Nation, 1995.
---------------------------------------------------------------------------
    Maggie Gallagher sums up the current ``No-fault'' mess by noting 
``[y]ou can't force two people to stay married . . . Divorce, however, 
is not usually the act of a couple, but of an individual. Eighty 
percent of divorces in this country are unilateral, rather than truly 
mutual, decisions. Rather, the divorce revolution can be more 
accurately described as a shift of power, favoring the interests of . . 
. the spouse who wishes to leave over . . . the spouse who is being 
abandoned and over . . . the children whose consent is not sought.'' 
\39\ ``[Nor is cohabitation] in children's or the society's best 
interest . . . it has weakened marriage and the intact, two-parent 
family and thereby damaged our social well-being, especially that of 
women and children.'' \40\ Cohabitating doesn't improve mental 
health,\41\ heightens disagreements while lowering relationship 
quality, creates relationship instability,\42\ while increasing 
depression, drunkenness,\43\ drug use, promiscuity,\44\ and the risk of 
divorce \45\ as much as 80%.\46\ These findings are consistent with 
numerous international studies in Western countries.\47\ Pre-marital 
sex created ``a considerably higher risk of marital disruption than 
women who were virgin brides.'' \48\
---------------------------------------------------------------------------
    \39\ Maggie Gallagher. The Abolition of Marriage: How We Destroy 
Lasting Love. Regnery Publishing (Wash., D.C.)
    \40\ David Popenoe & Barbara Dafoe Whitehead, Should We Live 
Together? What Young Adults Need to Know about Cohabitation before 
Marriage, A Comprehensive Review of Recent Research (The National 
Marriage Project) http://www.smartmarriages.com/cohabit.html
    \41\ Marilyn Elias. Marriage Makes For A Good State Of Mind. USA 
TODAY, August 14, 2000 p. 6D.
    \42\ Jan E. Stets, ``The Link Between Past and Present Intimate 
Relationships,'' Journal of Family Issues, 1993, 14:236-260.
    \43\ Jan E. Stets, ``Cohabiting and Marital Aggression: The Role of 
Social Isolation,'' Journal of Marriage and the Family, 1991, 53:669-
680
    \44\ Michael D. Newcomb and P.M. Bentler, ``Assessment of 
Personality and Demographic Aspects of Cohabitation and Marital 
Success,'' Journal of Personality Assessment, 1980, 44:11-24.
    \45\ William G. Axinn and Arland Thornton, ``The Relationship 
Between Cohabitation and Divorce: Selectivity or Casual Influence?,'' 
Demography, 1992, 29:357-374.
    \46\ Neil G. Bennett, Ann Blanc Klimas and David E. Bloom, 
``Commitment and the Modern Union: Assessing the Link Between 
Premarital Cohabitation and Subsequent Marital Stability,'' American 
Sociological Review, 1988, 53:127-138.
    \47\ Axinn and Thornton, 1992, p. 374.
    \48\ Joan R. Kahn and Kathryn A. London, ``Premarital Sex and the 
Risk of Divorce,'' Journal of Marriage and the Family, 53 (1991): 845-
855.
---------------------------------------------------------------------------
PERPETUATING THE CYCLE OF DIVORCE

    Children raised apart from both of their biological parents were 
twice as likely to drop out of school with girls twice as likely to get 
divorced,\49\ 2 to 3 times more likely to have behavioral or emotional 
problems,\50\ and 3 times more likely to bear children out of 
wedlock.\51\ Each year in America at least 1.2 million babies are born 
to unmarried parents \52\ and children born out of wedlock reduce a 
girl's chances for marriage.\53\ Children from divorced homes tend to 
repeat the divorce cycle themselves \54\ with the likelihood of 
repeating the divorce cycle 76% higher than their peers from intact 
families.\55\ Divorced parents have a higher risk of a second divorce 
upon re-marriage, and their children on average do no better than 
children from single-parent homes.\56\ Perpetuating the cycle of 
marriage and divorce is more psychologically destructive to children 
than a stable residence.\57\ Re-marriages with stepchildren are more 
likely to fail (and end in divorce) than re-marriages that do not 
involve children \58\ while half of all children will see their 
parent's marriage fail, of those, half will see a second marriage 
breakup, and ``ten percent of children of divorce will go on to witness 
three or more family breakups.'' \59\ Children learn about commitment 
and the permanence of marriage from their parents and divorce 
undermines that sense of commitment and permanence making them much 
more likely to divorce as adults.\60\ ``We as a society are failing to 
teach the next generation about the meaning, purposes, and 
responsibilities of marriage. If this trend continues, it will 
constitute nothing less than an act of cultural suicide.'' \61\
---------------------------------------------------------------------------
    \49\ Larry L. Bumpass and James A. Sweet. 1995. ``Cohabitation, 
Marriage and Union Stability: Preliminary Findings from NSFH2.'' NSFH 
Working Paper No. 65. Center for Demography and Ecology: University of 
Wisconsin-Madison.
    \50\ Nicholas Zill and Charlotte A. Schoenborn. 1990. 
``Developmental, Learning, and Emotional Problems: Health of Our 
Nation's Children, United States, 1988.'' Advance Data, National Center 
for Health Statistics, No. 120, p. 9.
    \51\ Andrew J. Cherlin, et. al., 1995. ``Parental Divorce in 
Childhood and Demographic Outcomes in Young Adulthood'' Demography 32: 
299-318; Paul R. Amato and Alan Booth, A Generation at Risk (Cambridge, 
Mass.: Harvard Univ. Press, 1997): 84-119
    \52\ U.S. Bureau of the Census, 1998. Statistical Abstract of the 
United States: 1998 (Washington, D.C.: U.S. Department of Commerce). 
See Table 101.
    \53\ Neil G. Bennett, et. al, 1995. ``The Influence of Nonmarital 
Childbearing on the Formation of First Marriages'' Demography 32(1): 
47-62.
    \54\ Paul R. Amato, ``What Children Learn From Divorce'' Population 
Today, (Washington, DC: Population Reference Bureau, January 2001); 
Nicholas H. Wolfinger, ``Beyond the Intergenerational Transmission of 
Divorce'' Journal of Family Issues 21-8 (2000): 1061-1086
    \55\ Paul R. Amato and Alan Booth, A Generation at Risk (Cambridge, 
Mass.: Harvard Univ. Press, 1997), p. 115
    \56\ Andrew J. Cherlin, 1992. Marriage, Divorce, Remarriage 
(Cambridge, MA: Harvard Univ. Press): 84-86.
    \57\ Frank Furstenberg, ``Is the Modern Family a Threat to 
Children's Health?'' Society 36 (1999): p. 35.
    \58\ Arland Thornton and Deborah Freedman, ``The Changing American 
Family,'' Population Bulletin, vol. 38, no. 4 (Washington, D.C.: 
Population Reference Bureau, Inc., 1983), 10.
    \59\ Maggie Gallagher. The Abolition of Marriage: How We Destroy 
Lasting Love. Regnery Publishing (Wash, D.C.). p. 76
    \60\ Paul R. Amato, ``What Children Learn From Divorce'' Population 
Today, (Washington, DC: Population Reference Bureau, January 2001); 
Nicholas H. Wolfinger, ``Beyond the Intergenerational Transmission of 
Divorce'' Journal of Family Issues 21-8 (2000): 1061-1086
    \61\ Council on Families in America, Marriage in America, A Report 
to the Nation, 1995. pg 4.
---------------------------------------------------------------------------
    States with high levels of joint physical child custody in divorce 
show declining rates of divorce while policies that support or promote 
sole custody appear to contribute to high divorce rates.\62\ ``Family'' 
court judges, and anti-family lawyers vehemently oppose joint custody. 
The Colorado Judiciary even went so far as to submit a report to the 
legislature opposing a presumption of joint custody on the grounds that 
it would increase the costs to society.\63\ Anyone who has been through 
the ``divorce industry'' meat grinder knows first hand why many state 
judges and lawyers want to continue the wholesale butcher and 
destruction of marriage and the attendant ruination of our 
Constitutional posterity (the children)--, it pays well. Why else would 
they continue to support a system that has been equated with child 
abuse and the destruction of children? \64\
---------------------------------------------------------------------------
    \62\ Richard Kuhn and John Guidubaldi. Child Custody Policies and 
Divorce Rates in the US. 11th Annual Conference of the Children's 
Rights Council October 23-26, 1997. Washington, D.C.
    \63\ Al Knight. A Good Bill was Ambushed. Denverpost Online April 
10, 2002.
    \64\ David R. Francis, ``Is Making Divorce Easier Bad for 
Children?'' NBER Digest, February 2001; based on Jonathan Gruber, ``Is 
Making Divorce Easier Bad for Children? The Long Run Implications of 
Unilateral Divorce,'' NBER Working Paper No. 7968, October 2000, 
National Bureau of Economic Research.
---------------------------------------------------------------------------

             EXPLODING MANY OF THE ANTI-MARRIAGE MYTHS AND

                               PROPAGANDA

    ``The single most powerful predictor of stress-related physical, as 
well as emotional illness is marital disruption.'' Divorce early death 
from hypertension, suicide, cardiovascular disease, and cancer.\65\ 
Divorced or separated men experience psychiatric care at 10 times that 
of married men and women at 5 times that of married women.\66\ Those 
``who lived alone or [cohabited] had significantly shorter survival 
times compared with those living with a spouse. . . the [survival 
factor] was the presence of a spouse.'' \67\ For women, being unmarried 
is riskier than being 20 pounds overweight, poor, or having cancer and 
men can add heart disease to the list.\68\
---------------------------------------------------------------------------
    \65\ Susan Larson and David Larson, M.D., M.S.P.H., ``Divorce: A 
Hazard to Your Health?'' Physician, May/June 1990, p. 14.; B.M. Rosen, 
H.F. Goldsmith, and R.W. Rednick, Demographic and Social Indicators 
from the U.S. Census of Population and Housing: Uses for Mental Health 
Planning in Small Areas (Rockville, MD: National Institute of Mental 
Health, 1977).
    \66\ B.R. Bloom, S.W. White, and S.J. Asher, ``Marital Disruption 
as a Stressful Life Event,'' Divorce and Separation: Context, Causes 
and Consequences (New York: Basic Books, 1979). Cited in Susan Larson 
and David Larson, M.D., M.S.P.H., ``Divorce: A Hazard to Your Health?'' 
Physician, May/June 1990, p. 14.
    \67\ Maradee A. Davis, John M. Neuhaus, Deborah J. Moritz and Mark 
R. Segal, ``Living Arrangements and Survival among Middle-Aged and 
Older Adults in the NHANES I Epidemiologic Follow-up Study,'' American 
Journal of Public Health, 1992, 82:401-406.
    \68\ Linda Waite, ``Does Marriage Matter?'' Demography 32 (1995): 
483-507.
---------------------------------------------------------------------------
    ``[Children's] relations with parents appear to suffer, on average, 
more when parents divorce than when unhappily married parents stay 
together.'' \69\ ``Divorce often causes a bitter dispute between the 
parents, even worse than before the divorce was decided upon. Two-
thirds of angry divorces remain that way after 5 years of being 
separated, and one-quarter to one-third of those divorces that were 
initially in good spirits had degenerated to open conflicts.'' \70\ 
Conversely, 86% of unhappy marriages that didn't give up were able to 
turn their marriages around within 5 years and subsequently claimed 
they were happy, or very happy; \71\ this study also indicated that 
``[a] bad marriage is nowhere near as permanent a condition as we 
sometimes assume.'' ``Significantly more child behavioral problems are 
found in those families that have an unsatisfactory marriage than in 
those with a happy marriage, but the behavioral problems from the 
single-parent families are far worse than in unhappily married 
families.'' \72\ Even in ``high-conflict'' marriages, children are 
still devastated by their parent's divorce.\73\ Negative affects of 
divorce on children are long-lasting and traumatic, and may become 
worse in adulthood.\74\ ``The common belief that parental divorce poses 
long-term hazards for the children involved is supported by [an] 
analysis of longitudinal data from . . . a nationally representative 
sample of American youth . . . Effects of marital discord and family 
disruption were visible twelve to twenty-two years later in poor 
relationships with parents, and [there is] increased likelihood of 
dropping out of high school and receiving psychological help.'' \75\
---------------------------------------------------------------------------
    \69\ Paul R. Amato and Alan Booth, A Generation at Risk (Cambridge, 
Mass: Harvard Univ. Press, 1997) p. 77-78
    \70\ Maggie Gallagher. The Abolition of Marriage: How We Destroy 
Lasting Love. Regnery Pub. (Wash, D.C.). p. 103
    \71\ Linda J. Waite and Maggie Gallagher, 2000. The Case for 
Marriage: Why Married People Are Happier, Healthier and Better-Off 
Financially (New York: Doubleday, 2000).
    \72\ ``No-Fault Divorce: Proposed Solutions to a National 
Tragedy,'' 1993 Journal of Legal Studies 2, 22, citing Carolyn Webster-
Stratton, The Relationship of Marital Support, Conflict, and Divorce to 
Parents' Perceptions, Behaviors, and Childhood Conduct Problems, 51 
Journal of Marr. and the Family 417-430 (1989).
    \73\ Linda Waite and Maggie Gallagher, The Case for Marriage (New 
York: Doubleday, 2000): p. 146
    \74\ Judith Wallerstein, Julia M. Lewis and Sandra Blakeslee, The 
Unexpected Legacy of Divorce (New York: Hyperion, 2000); Andrew J. 
Cherlin, P. Lindsay Chase-Landsdale, and Christine McRae, ``Effects of 
Parental Divorce on Mental Health Throughout the Life Course'' American 
Sociological Review 63 (1998): 239-249; Paul R. Amato and Alan Booth, A 
Generation at Risk (Cambridge, MA: Harvard Univ. Press, 1997)
    \75\ Nicholas Zill, et al., ``Long-Term Effects of Parental Divorce 
on Parent Child Relationships, Adjustment and Achievement in Young 
Adulthood,'' Journal of Family Psychology, 1993, 7:91-103.
---------------------------------------------------------------------------
    Men with lower levels of education have fewer employment 
opportunities,\76\ they then end up with low wages causing them to 
marry less \77\ and divorce more than those with higher earnings.\78\ 
Where men earn over 50% of the household income, divorces were 
significantly reduced \79\ while women with greater incomes have less 
incentive to work out marital issues and were more likely to seek a 
divorce.\80\ Poverty is a consequence of not being married and of 
marital disruption such as divorce.\81\ Children from low-income intact 
families academically outperform children from high-income single 
parent homes.\82\
---------------------------------------------------------------------------
    \76\ Francine D. Blau, Lawrence W. Kahn and Jane Waldfogel, 
``Understanding Young Women's Marriage Decisions: The Role of Labor and 
Marriage Market Conditions,'' Industrial and Labor Relations Review 53, 
no. 4 (July 2000): pp. 624-48.
    \77\ Frank F. Furstenberg, Jr. ``The Future of Marriage,'' American 
Demographics 18 (June 1996), pp. 39-40; Robert Nakosteen and Michael 
Zimmer, ``Men, Money, and Marriage'' Social Science Quarterly 78 
(1997), pp.; Francine Blau, Lawrence Kahn, and Jane Waldfogel, 
``Understanding Young Women's Marriage Decisions,'' Industrial and 
Labor Relations Review 53 (2000): pp. 624-48.
    \78\ Robert Nakosteen and Michael Zimmer, ``Man, Money, and 
Marriage: Are High Earners More Prone than Low Earners to Marry?'' 
Social Science Quarterly 78 (1997): pp. 66-82.
    \79\ Larry L. Bumpass and James A. Sweet. 1995. ``Cohabitation, 
Marriage and Union Stability: Preliminary Findings from NSFH2.'' NSFH 
Working Paper No. 65. Center for Demography and Ecology: University of 
Wisconsin-Madison.
    \80\ Landon Jones, Great Expectations: America and the Baby Boom 
Generation (NY: Ballantine Books, 1980), 216.
    \81\ A. J. Sedlack and D.D. Broadhurst, D.D., Third National 
Incidence Study of Child Abuse and Neglect: Final Report (Washington 
D.C.: Department of Health and Human Services 1996); Center for 
Demography and Ecology, University of Wisconsin, Madison, WI; Mark 
Testa et al, ``Employment and Marriage among Inner-City Fathers,'' 
Annals of the American Academy of Political and Social Science 501 
(1989), pp. 79-91
    \82\ ``One-Parent Families and Their Children: The School's Most 
Significant Minority,'' conducted by The Consortium for the Study of 
School Needs of Children from One-Parent Families, cosponsored by the 
National Association of Elementary School Principals and the Institute 
for Development of Educational Activities, a division of the Charles F. 
Kettering Foundation (Arlington, VA: 1980).
---------------------------------------------------------------------------
    Abortion and contraception which started in the late 60's and early 
70's changed cultural, social, and moral values so quickly and 
dramatically that as ``traditional'' barriers fell, more women who 
would ordinarily abstain from sex then conceded, more children were 
born out of wedlock, and marriage rates declined.\83\
---------------------------------------------------------------------------
    \83\ George A. Akerlof, Janet L. Yellen, and Michael L. Katz. 1996. 
``An Analysis of Out-of-Wedlock Childbearing in the United States.'' 
Quarterly Journal of Economics CXI: 277-317.
---------------------------------------------------------------------------
BENEFITS OF MARRIAGE

    Both men and women benefit from marriage \84\ while those who 
succeed in marriage are more likely to be from an intact home, better 
educated, white, and more affluent.\85\ ``Married adults are more 
productive on the job, earn more, save more, have better physical and 
mental health, and live longer according to an extensive review of 
research conducted by scholar Linda Waite.'' \86\ The University of 
Massachusetts \87\ and the UCLA School of Medicine \88\ have both 
conducted studies supporting longer life and better physical and 
emotional health of married people. According to the UCLA School of 
medicine study, married people are ``happy and contented with life,'' 
have lower rates of suicide and mental health problems, lower rates of 
alcoholism, even when they are unhealthy married couples still live 
longer.\89\ These findings are a cross-cultural human condition as 
evidenced by a survey of 18,000 adults in 17 industrialized nations 
showing the positive mental health of married persons verses the 
unmarried.\90\
---------------------------------------------------------------------------
    \84\ Linda J. Waite and Maggie Gallagher, The Case for Marriage 
(New York: Doubleday, 2000): Ch. 12
    \85\ Paul R. Amato and Alan Booth, A Generation at Risk (Cambridge, 
Mass: Harvard Univ Press, 1997), p. 89-99.
    \86\ Theodora Ooms, ``Marriage Plus,'' The American Prospect vol. 
13 no. 7, April 8, 2002
    \87\ Catherine K. Riessman and Naomi Gerstel, ``Marital Dissolution 
and Health: Do Males or Females Have Greater Risk?'' Social Science and 
Medicine 20 (1985): 627-635.
    \88\ Robert H. Coombs, ``Marital Status and Personal Well-Being: A 
Literature Review,'' British Journal of Medical Psychology, (1991) 
40:97-102, p. 97.
    \89\ Robert H. Coombs. Marital Status and Personal Well-Being.
    \90\ Steven Sack and J. Ross Eshleman. 1998. ``Marital Status and 
Happiness: A 17-Nation Study,'' Journal of Marriage and the Family 60: 
527-536.
---------------------------------------------------------------------------
    Marriage increases employment responsibility among fathers at child 
birth; they had unemployment rates of less than 10% while unmarried 
fathers had unemployment rates in excess of 25% at their child's 
birth.\91\ Marriage is the most practical solution for income 
generation, responsibility sharing and joint child-rearing,\92\ with 
children from intact families financially better off having only a 6% 
likelihood of poverty compared to 33% from single-mother homes.\93\ 
Never married mothers are more prone to poverty than any other group, 
including those who divorce.\94\ Bearing children in marriage shows 
signs of reducing the risk of divorce by 20% per child birth.\95\
---------------------------------------------------------------------------
    \91\ Wendy Single-Rushton and Sara McLanahan, ``For Richer or 
Poorer?'' manuscript, Center for Research on Child Well-Being, 
Princeton University, July 2001, p. 4; Kathryn Edin, ``What do Low-
Income Single Mothers Say About Marriage?'' Social Problems 47 (2000), 
pp. 112-33.
    \92\ Many families with two working parents alternate child rearing 
responsibilities by rearranging work schedules to be with children. 
Harriet Presser, ``Employment Schedules Among Dual-Earner Spouses and 
the Division of Household Labor by Gender,'' American Sociological 
Review 59, no. 3 (June 1994): pp. 348-364.
    \93\ U.S. Bureau of the Census, ``Historical Poverty Statistics--
Table 4. Poverty Status of Families, by Type of Family, Presence of 
Related Children, Race, And Hispanic Origin: 1959-2000,'' Available at 
http://www.census.gov. In 1999, 36 percent of single-mother households 
lived in poverty. Poverty in the U.S. 1999. Current Population Reports, 
P60-210 (Washington, D.C.: Government Printing Office, 2000).
    \94\ Alan Guttmacher Institute, ``Married Mothers Fare the Best 
Economically, Even If they Were Unwed at the Time they Gave Birth,'' 
Family Planning Perspectives 31, no. 5: pp. 258-60, September, 1999; 
Ariel Halpern, ``Poverty Among Children Born Outside of Marriage: 
Preliminary Findings from the National Survey of America's Families,'' 
(Washington, D.C.: The Urban Institute, 1999).
    \95\ Hillard S. Kaplan, Jane B. Lancaster, and Kermyt G. Anderson. 
1998. ``Human Parental Investment and Fertility: The Life Histories of 
Men in Albuquerque.'' In Men in Families, edited by Alan Booth and Ann 
Crouter. Mahwah, NJ: Lawrence Erlbaum Press.
---------------------------------------------------------------------------
    ``Even after controlling for differences in income, children who 
live with their married parents are 2 times less likely to fail at 
school, 2 to 3 times less likely to suffer an emotional or behavioral 
problem requiring psychiatric treatment, perhaps as much as 20 times 
less likely to suffer child abuse, and as adolescents they are less 
likely to get into trouble with the law, use illicit drugs, smoke 
cigarettes, abuse alcohol, or engage in early and promiscuous sexual 
activity.'' \96\ Children from intact families generally do 
significantly better in all areas of academics,\97\ are about 30% less 
likely to have health problems, and much less likely to have emotional 
or behavioral problems \98\ than their counterparts in a single-parent 
home. Boys from intact families have fewer legal problems and are less 
likely to be convicted of crime.\99\
---------------------------------------------------------------------------
    \96\ Dr. Wade Horn, ``Take A Vow to Promote Benefits of Marriage,'' 
Washington Times, November 2, 1999.
    \97\ Darin R. Featherstone, Bert P. Cundick, and Larry C. Jensen, 
``Differences in School Behavior and Achievement Between Children From 
Intact, Reconstituted, and Single-Parent Families,'' Adolescence 27 
(1992): 1-12.
    \98\ Deborah A. Dawson, ``Family Structure and Children's Health 
and Well-Being: Data from the 1988 National Health Interview Survey on 
Child Health,'' Journal of Marriage and the Family 53 (1991): 578-579
    \99\ M. Anne Hill and June O'Neill, ``Underclass Behaviors in the 
United States: Measurement and Analysis of Determinants,'' (Center for 
the Study of Business and Government, Baruch College/The City 
University of New York, August 1993), p. 73.
---------------------------------------------------------------------------
CONCLUSION

    Three out of four of the provisions for welfare reform have 
mandates to promote marriage, reduce illegitimacy, and encourage two-
parent families. There are ``few other bodies of data in which the 
weight of the evidence is so decisively on one side of the issue: on 
the whole, for children, two-parent families are preferable . . . If 
our prevailing views on family structure hinged solely on scholarly 
evidence, the current debate never would have arisen in the first 
place.'' \100\ ``The men and women who, for good reasons and bad, 
revolt against the family are . . . simply revolting against mankind.'' 
\101\ With such clear, convincing, and conclusive evidence, why do we 
continue these programs and systems designed to destroy families while 
brutalizing children? Those who raise privacy claims to oppose marriage 
are bent on privacy intrusions to promote their personal agendas. 
Public policies about marriage could and absolutely should be 
improved.\102\
---------------------------------------------------------------------------
    \100\ David Popenoe, Rutgers University. Source: William J. 
Bennett, The Index of Leading Cultural Indicators. p. 53
    \101\ G. K. Chersterson. On Family Life and Other Fairy Tales. 
World Magazine, May 20, 2000. From his book ``Heresies.'' (1905)
    \102\ Jared Bernstein, Irv Garfinkel, and Sara McLanahan, A 
Progressive Marriage Agenda, Economic Policy Institute.
---------------------------------------------------------------------------
    A research review of the consequences of Father absence 
demonstrates the complete carnage that divorce and family breakdown 
causes. So strong are these correlations that attacking marriage and 
families is an attack on children, especially little girls, and an 
attack on women. The in-tact, two-parent biological family is the 
safest place for the development and sexual safety of girls and women. 
Divorce is so destructive to children that it is child abuse--; 
absolutely, hideously destructive child abuse. Parents who want out of 
a marriage with children, for no good reason, or a parent whose actions 
are destructive to the marriage, are not fit parents. Those who 
participate in divorce processing, and those who promote easier 
divorces as well as those opposed to strengthening marriage are pushing 
child abuse the same way a drug dealer pushes their poison. Divorce 
perpetuates divorce like a heroin addiction in our body politic--; it 
continues to demand a higher and higher cost with more and more poison 
until it destroys and ultimately kills.
    The self-sustaining cycle of illegitimacy, tied to attacks on the 
``traditional'' family, and coupled with anti-marriage policies and 
programs is destroying the black community. The Black Caucus can no 
longer ignore the devastation of the African American community and say 
they represent them. They must become vocal in demanding that the easy 
divorce laws and anti-marriage policies be ended and return to 
traditional families. It is difficult not to wonder about all of the 
pressure from lawyers and other special interests for slavery 
reparations while ignoring the absolute destruction of an entire people 
through failed anti-family, anti-marriage welfare policies. Today's 
anti-marriage and anti-family mess in the black community is a new type 
of slavery created by the divorce industry and feminists. Reparations 
should be coming from the divorce industry--, the rich lawyers of the 
``family'' bar, the wealthy judges, prosperous psychologists, 
``women's'' groups, and others who have promoted the destruction of the 
black community's marriages and families making them dependent on 
government welfare, just like the dependence of their ancestors.
    No-fault divorce is the enemy of marriages, families, and children. 
Nor is it actually ``No-fault''. If tide of divorce is not dramatically 
reversed, it poses dire consequences for our country and its future. 
Independent verification of ``no-fault's'' corrosive affects on 
marriage comes from Canada, where ``[a]fter falling for several years 
the [Canadian divorce rate reached] an all-time high following passage 
of the Divorce Act of 1985, which allows [for no-fault divorce after 
one year].'' \103\ ``Ironically, by adopting attitudes that provide 
greater freedom to leave unsatisfying marriages, people may be 
increasing the likelihood that their marriages will become unsatisfying 
in the long run,'' and therefore fail.\104\ Easy divorce and anti-
marriage policies, rhetoric, and programs destroy our Constitutional 
posterity and undermine our country for generations to come. No country 
in history has survived the undermining of marriage between a man and a 
woman.
---------------------------------------------------------------------------
    \103\ Maggie Gallagher. The Abolition of Marriage, p. 148, citing 
Gertrude Schaffner Goldenberg, ``Canada: Bordering on the Feminization 
of Poverty,'' in The Feminization of Poverty: Only in America, ed. 
Gertrude Schaffner Goldenberg and Eleanor Kremen (New York: Greenwood 
Press, 1990), p. 77.
    \104\ Paul R. Amato and Stacy J. Rogers, 1999. ``Do Attitudes 
Toward Divorce Affect Marital Quality?'' Journal of Family Issues 
20(1): 69-86.
---------------------------------------------------------------------------
    Virgin brides divorce less while pre-marital sex and cohabitation 
lead to higher rates of divorce (trial ``marriages'' don't work). 
Higher income for women leads to greater levels of divorce while men 
with higher incomes experienced less divorce. The ``bad marriage'' myth 
is not always good grounds for divorce since many of these are 
salvageable and the divorce is destructive and traumatic to children 
for most or all of their lives. Continuing on this path of easy 
divorce, attacking traditional family values, and undermining marriage 
is not only a violation of the Constitution's general welfare clause, 
the proponents of this failed easy divorce system and detractors of 
traditional values must be viewed as child terrorists.
    For adults, marriage creates wealth and prosperity, happiness, 
mental health and stability, fewer social problems, lower substance 
abuse, lower death, fewer health problems, and lower suicide rates. 
Commitment and companionship is both a benefit and ``[t]he most common 
reasons couples give for their long-term marital success . . .'' \105\ 
Children with married biological parents benefit from lower rates of 
delinquency, less promiscuity, lower alcohol and drug use, do better in 
school, are healthier, have fewer problems with the law, are better 
adjusted, more emotionally stable, have better adult relationships, 
lower rates of being abused, and are generally happier and more 
optimistic about life.
---------------------------------------------------------------------------
    \105\ Finnegan Alford-Cooper, For Keeps: Marriages that Last a 
Lifetime (Armonk, NY: M. E. Sharpe, 1998); Judith Wallerstein and 
Sandra Blakeslee. The Good Marriage (Boston: Houghton Mifflin, 1995); 
Robert Lauer and Jeanette Lauer, ``Factors in Long-Term Marriage'' 
Journal of Family Issues 7:4 (1986): 382-390
---------------------------------------------------------------------------
    Anti-Marriage and Pro-Divorce ideologies or policies denigrating 
the traditional family are pro-death, pro-child abuse, pro-poverty, 
pro-drug abuse, pro-alcohol, pro-tobacco, anti-health, anti-woman, 
anti-child, uncivilized, and ultimately un American and 
unconstitutional.
RECOMMENDATIONS

    American public opinion tracks the sentiment \106\ that ``divorce 
in this country should be more difficult to obtain.'' \107\ 75% of the 
teenagers believe that divorce is too easy \108\ and 78% of Americans 
support requiring counseling for couples with children before a divorce 
is granted.\109\
---------------------------------------------------------------------------
    \106\ Lynn D. Wardle, 1999. ``Divorce Reform at the Turn of the 
Millennium: Certainties and Possibilities'' Family Law Quarterly 33: 
783ff.
    \107\ The Roper Center for Public Opinion Research, 1998. ``The 
Family, Marriage: Highly Valued'' The Public Perspective (February/
March): 17-18.
    \108\ David Popenoe, 1999. Changes in Teen Attitudes Toward 
Marriage, Cohabitation and Children, 1975-1995 (New Brunswick, NJ: The 
National Marriage Project): 1-10.
    \109\ Wirthlin Worldwide, Inc. poll results from 2000 poll, 
available at www.allianceformarriage.org.
---------------------------------------------------------------------------
        <bullet> With 3 out of 4 provisions of Welfare reform related 
        to marriage and family, TANF fund payments should be contingent 
        on states collecting accurate data on marriages, divorces and 
        the children involved.
        <bullet> Enact specific measurable goals or targets for 
        reducing divorce, illegitimacy, and promoting marriage. Monitor 
        and report progress on those goals tying TANF funds to 
        compliance.
        <bullet> Develop publicity campaigns on marriage health 
        benefits and divorce affects on children.
        <bullet> Give an additional tax credit for each child born in 
        marriage, with an additional credit at ages 10 and 18 for in-
        tact marriages. One study found that each child born in 
        marriage reduces the risk of divorce by 20%, encourage this as 
        the costs of the social problems are far higher.
        <bullet> Fund special demonstration programs for the hardest 
        hit area, the Black community, to turn the tide of divorce and 
        illegitimacy, not to support more dismally failed welfare 
        programs.
        <bullet> Begin scaling back federal grants, funds, and 
        programs to states that do not address the ``no-fault'' 
        disaster as a General Welfare issue affecting our 
        Constitutional posterity.
        <bullet> Every time the opposition cries ``foul,'' point to 
        the destruction of children and the devastating affects on our 
        country. Let the public see the real anti-child, anti-family, 
        un-American agendas.

                                <greek-d>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
